                        SIGTARP: Quarterly Report to Congress | January 26, 2011
                                                                                                              CT
                                                                                                         INSPE OR GE
                                                                                                  AL                        N
                                                                                                CI




                                                                                                                            ER
                                                                                           E
                                                                                          SP




                                                                                                                               A L
                                                                                         TRO




                                                                                                                                 M
                                                                                                                                 RA
                                                                                          UB
                                                                                               LE




                                                                                                                            OG
                                                                                                    D
                                                                                                        ASS                 PR
                                                                                                              E T R ELIEF




SIGTARP
SIG-QR-11-01
                         Q1
                        2011
                                                                                   SIGTARP                                            Office of the Special Inspector General
                                                                                                                                      for the Troubled Asset Relief Program
                                                                                   Advancing Economic Stability Through Transparency, Coordinated Oversight and Robust Enforcement


202.622.1419
Hotline: 877.SIG.2009                                                                                                                                  Quarterly Report to Congress
SIGTARP@do.treas.gov                                                                                                                                               January 26, 2011
www.SIGTARP.gov
MISSION
SIGTARP’s mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of Government, who waste, steal or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”) and amended by the Special Inspector
General for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”).
Under EESA and the SIGTARP Act, the Special Inspector General has the
duty, among other things, to conduct, supervise and coordinate audits and
investigations of any actions taken under the Troubled Asset Relief Program
(“TARP”) or as deemed appropriate by the Special Inspector General. In
carrying out those duties, SIGTARP has the authority set forth in Section 6 of
the Inspector General Act of 1978, including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@do.treas.gov
www.SIGTARP.gov
Contents


Executive Summary 	                                                      3
	   Program Updates and Financial Overview	                             13
	   Oversight Activities of SIGTARP	                                    14
	   SIGTARP Recommendations on the Operation of TARP	                   15
	   Report Organization	                                                16

Section 1
The Office of the Special Inspector General for the
	Troubled asset relief program	                                          17
	 SIGTARP Creation and Statutory Authority	                              19
	 SIGTARP Oversight Activities Since the October 2010 Quarterly Report	  19
	 The SIGTARP Organization	                                              34
	
Section 2 	
TARP overview	                                                           37
	 TARP Funds Update	                                                     39
	 Financial Overview of TARP	                                            43
	 Homeowner Support Programs 	                                           64
	 Financial Institution Support Programs	                               104
	 Asset Support Programs	                                               143
	 Automotive Industry Support Programs	                                 159
	 Executive Compensation	                                               170
	
Section 3 	
tarp operations and administration	                                     173
	 TARP Administrative and Program Expenditures	                         175
	 Current Contractors and Financial Agents	                             176	

Section 4    	
SIGTARP Recommendations	                                               183
	 Recommendations Regarding Implementation of the Small
  	 Business Lending Fund 	                                            185
	 Recommendations Regarding CPP Restructurings and
  	 Recapitalizations and Related SBLF Recommendation	                 191
	
	 Endnotes	                                                            202
appendices
A. 	 Glossary	                                222
B. 	 Acronyms and Abbreviations	              225
C. 	 Reporting Requirements	                  227
D.	 Transaction Detail	                       231
E. 	 Public Announcements of Audits	          303
F. 	 Key Oversight Reports and Testimonies	   304
G. 	 Correspondence	                          308
H. 	 Organizational Chart	                    322
	
 investigations
EXECUTIVE SUMMARY
4   special inspector general I troubled asset relief program
                                                                              quarterly report to congress I JANUARY 26, 2011   5




This past quarter, the Office of the Special Inspector General for the Troubled
Asset Relief Program (“SIGTARP”) marked its second anniversary. In the time
since its inception in December 2008, SIGTARP has had notable success in fulfill-
ing its goals of transparency, oversight and enforcement. Through nine quarterly
reports and 13 completed audits, SIGTARP has brought light to some of the
darkest areas of the financial crisis and the Government’s response to it, and has
provided 68 recommendations to Treasury. Treasury’s adoption of many of these
recommendations has helped protect aspects of the Troubled Asset Relief Program
(“TARP”) against vulnerability to fraud, with potential losses to fraud unlikely to
come even close to standard expectations for a Government program. Where fraud
has managed to slip in, SIGTARP’s Investigations Division has already produced
outstanding results in bringing to justice those who have sought to profit crimi-
nally from TARP, with 45 individuals charged civilly or criminally with fraud, of
whom 13 have been criminally convicted. SIGTARP’s investigative efforts have
helped prevent $555.2 million in taxpayer funds from being lost to fraud. And with
142 ongoing investigations (including 64 into executives at financial institutions
that applied for and/or received TARP funding through TARP’s Capital Purchase
Program [“CPP”]), much more remains to be done.
    Last quarter also marked the second anniversary for TARP. Now in its third year
of operation, TARP remains a study in contrasts. On the financial side, TARP’s
outlook has never been better. Not only did TARP funds help head off a cata-
strophic financial collapse, but estimates of TARP’s ultimate direct financial cost to
the taxpayer have fallen substantially, from the Office of Management and Budget’s
(“OMB”) August 2009 estimate of $341 billion to a November 2010 Congressional
Budget Office (“CBO”) estimate of just $25 billion. Indeed, with the recent closing
of American International Group, Inc.’s (“AIG”) recapitalization plan, there is a
chance that TARP may break even or possibly turn a profit on one of its most con-
troversial transactions, while General Motors Company’s recent initial public of-
fering demonstrates Treasury’s ability to exit some of its most difficult investments.
While Treasury’s ultimate return on its investment depends on a host of variables
that are largely unknowable at this time, TARP’s financial prospects are today far
better than anyone could have dared to hope just two years ago. At the same time,
a tunnel-vision focus on the good financial news should not distract from the hard
work still ahead, with more than $160 billion in TARP funding still outstanding
and an additional $59.7 billion available to be spent, or from the careful and neces-
sary assessment of TARP’s significant, non-financial costs. Those costs include
the damage to Government credibility that has plagued the program, as detailed
in SIGTARP’s October 2010 Quarterly Report, the failure of programs designed
to help Main Street rather than Wall Street, and perhaps TARP’s most significant
legacy, the moral hazard and potentially disastrous consequences associated with
the continued existence of financial institutions that are “too big to fail.”
6   special inspector general I troubled asset relief program




                                           TARP and Too Big to Fail
                                           Earlier this month, SIGTARP published the audit report “Extraordinary Financial
                                           Assistance Provided to Citigroup, Inc.,” which examines a series of transactions
                                           over several months that resulted in the Government’s remarkable bailout of one
                                           of the world’s largest financial institutions. The report details how the Government
                                           assured the world in 2008 that it would use TARP to prevent the failure of any
                                           major financial institution and then demonstrated its resolve by standing behind
                                           Citigroup Inc., along with others such as AIG and Bank of America Corp. (“Bank
                                           of America”). Indeed, public statements by then-Secretary of the Treasury Henry
                                           Paulson in late 2008 and Treasury Secretary Timothy Geithner in early 2009 made
                                           clear that they were ready, willing, and able to use TARP funds to ensure that not
                                           one of the nation’s largest banks would be permitted to fail. While these state-
                                           ments and actions succeeded in reassuring troubled markets, they also did much
                                           more: by effectively guaranteeing these institutions against failure, they encour-
                                           aged future high-risk behavior by insulating the risk-takers who had profited so
                                           greatly in the run-up to the crisis from the consequences of failure, and gave an
                                           unwarranted competitive advantage, in the form of enhanced credit ratings and
                                           access to cheaper credit and capital, to institutions perceived by the market as
                                           having an implicit Government guarantee. In many ways, TARP has thus helped
                                           mix the same toxic cocktail of implicit guarantees and distorted incentives that led
                                           to disastrous consequences for the Government-sponsored enterprises (GSEs) —
                                           the Federal National Mortgage Association (“Fannie Mae”) and the Federal Home
                                           Loan Mortgage Corporation (“Freddie Mac”).
                                               Institutions such as Citigroup operate in an environment where size mat-
                                           ters because the then-explicit and now implicit Government guarantee that they
                                           will not be allowed to fail results in a gross distortion of a normally functioning
                                           market, where an institution’s creditors, shareholders, and executives bear the
                                           brunt of poor decisions, not the taxpayers. First, for executives at such institu-
                                           tions, the Government safety net provides the motivation to take greater risks than
                                           they otherwise would in search of ever-greater profits. This “heads I win, tails the
                                           Government bails me out” mentality promotes behavior that, while it may ben-
                                           efit shareholders and executives in the short term if the risks pay off, increases
                                           the likelihood of failure and, therefore, the possibility of another taxpayer-funded
                                           bailout. Second, an institution’s “too big to fail” status has a dramatic impact on its
                                           creditors and other counterparties, which then gives it an advantage over its smaller
                                           competitors. Ratings agencies continue to give such institutions higher credit rat-
                                           ings based on the existence of an implicit Government backstop. Creditors, in turn,
                                           give those institutions access to debt at a price that does not fully account for the
                                           risks created by their behavior. Cheaper credit is effectively a subsidy, which trans-
                                           lates into greater profits, which allows the largest institutions to become even larger
                                           relative to the economy and materially disadvantages smaller banks. The prospect
                                                                                quarterly report to congress I JANUARY 26, 2011   7




of a Government bailout also reduces market discipline, giving creditors, investors,
and counterparties less incentive to monitor vigilantly those institutions that they
perceive won’t be allowed to fail. In short, the continued existence of institutions
that are “too big to fail” — an undeniable byproduct of former Secretary Paulson
and Secretary Geithner’s use of TARP to assure the markets that during a time of
crisis that they would not let such institutions fail — is a recipe for disaster. These
institutions and their leaders are incentivized to engage in precisely the sort of
behavior that could trigger the next financial crisis, thus perpetuating a doomsday
cycle of booms, busts, and bailouts.

The Dodd-Frank Act and Too Big to Fail
The Dodd-Frank Wall Street Reform and Consumer Protection Act (“Dodd-Frank
Act” or “Act”), signed into law by the President last July, was intended, in part, “to
end ‘too big to fail’” and “to protect the American taxpayer by ending bailouts.”
Secretary Geithner, testifying before the Congressional Oversight Panel (“COP”) in
June 2010, shortly before the Act’s passage, said “The reforms will end ‘too big to
fail.’’’1 The Act’s proponents cite several provisions as particularly important compo-
nents of this effort. These include, among others, creation of the Financial Stability
Oversight Council (“FSOC”), charged with, among other things, the responsibility
for developing the specific criteria and analytic framework for assessing systemic
significance; granting the Federal Reserve new power to supervise institutions
that FSOC deems systemically significant; granting the Federal Deposit Insurance
Corporation (“FDIC”) new resolution authority for financial companies deemed
systemically significant; requiring the development of “living wills” designed to
assist in the orderly liquidation of such companies; and granting regulatory author-
ity to set more stringent capital, liquidity, and leverage requirements and to limit
certain activities that might increase systemic risk.
     Whether these provisions, which rely heavily on the discretion and actions of
the financial regulators, will ultimately be successful remains to be seen. First,
many commentators, from Government officals to finance academics to legisla-
tors, have expressed concern that the Act does not solve the problem. For example,
Kansas City Federal Reserve Bank President Thomas Hoenig has repeatedly
expressed “doubt that our too-big-to-fail problem has been solved,”2 noting in
December 2010 that “after this round of bailouts, the five largest financial institu-
tions are 20 percent larger than they were before the crisis. They control
$8.6 trillion in financial assets — the equivalent of nearly 60 percent of gross
domestic product. Like it or not, these firms remain too big to fail.” Massachusetts
Institute of Technology professor Simon Johnson argued in September 2010 that
“there is nothing [in the Act] that ensures our biggest banks will be safe enough
or small enough or simple enough so that in the future they cannot demand
8   special inspector general I troubled asset relief program




                                           bailout — the bailout potential exists as long as the government reasonably fears
                                           global financial panic if such banks are allowed to default on their debts.” Senators
                                           Sherrod Brown and Ted Kaufman, among others, have noted that “too big to fail”
                                           isn’t just the United States’ problem, but the world’s, and have argued that by itself
                                           the Dodd-Frank Act cannot provide the global regulatory framework required to
                                           resolve incredibly complex mega-banks operating in scores of countries. Senator
                                           Kaufman and others have also questioned the wisdom of delegating so much re-
                                           sponsibility to the very same regulators who performed so poorly in identifying the
                                           most recent crisis before it struck. Others, including Congressman Spencer Bachus
                                           and Speaker of the House John Boehner, have expressed concern that the Dodd-
                                           Frank Act’s provisions, particularly those relating to designation and resolution, will
                                           “institutionalize” Government bailouts.3
                                               Second, the new authorities in the Dodd-Frank Act are a work in progress — a
                                           tremendous amount of research and rule making by FSOC, FDIC, and a host
                                           of other regulators remains to be done. Their tasks will not be easy. Secretary
                                           Geithner told SIGTARP in December 2010, for example, that identifying institu-
                                           tions as systemically significant, one of the Act’s premier mandates, “depends too
                                           much on the state of the world at the time,” and that he believes “you won’t be able
                                           to make a judgment about what’s systemic and what’s not until you know the na-
                                           ture of the shock.” If the Secretary is correct, and regulators have difficulty properly
                                           identifying non-banks as systemically significant and therefore subject to the Act’s
                                           restrictions, then the Act’s effectiveness will undoubtedly be undermined. Even
                                           in the realm of the possible, the path regulators choose to take could make all the
                                           difference. FDIC Chairman Sheila Bair, for example, has argued that FSOC should
                                           use the Dodd-Frank Act’s “living will” provisions as a tool to force companies to
                                           simplify their operations and shrink their size if necessary to ensure that orderly
                                           liquidation is possible:

                                                   Under Dodd-Frank, the FDIC and the Federal Reserve wield con-
                                                   siderable authority to shape the content of these [living will] plans.
                                                   If the plans are not found to be credible, the FDIC and the Fed can
                                                   even compel the divestiture of activities that would unduly interfere
                                                   with the orderly liquidation of these companies. The success or
                                                   failure of the new regulatory regime will hinge in large part on how
                                                   credible those resolution plans are as guides to resolving those com-
                                                   panies. And let us be clear: we will require these institutions to make
                                                   substantial changes to their structure and activities if necessary to
                                                   ensure orderly resolution. If we fail to follow through, and don’t ensure
                                                   that these institutions can be unwound in an orderly fashion during a
                                                   crisis, we will have fallen short of our goal of ending Too Big to Fail.
                                                   (Emphasis added.)4
                                                                              quarterly report to congress I JANUARY 26, 2011   9




    If either Chairman Bair’s position prevails, and the Dodd-Frank Act is used to
simplify and shrink large institutions as necessary, or if some other effective regime
is adopted along with similar provisions being implemented internationally, then
perhaps in the long run the Act will have a chance to end “too big to fail.” In short,
the proof will be in the pudding, and the pudding is still being cooked.
    Finally, even if all the required regulations are properly calibrated and fully
implemented, the ultimate success of the Dodd-Frank Act depends to a certain
degree on market perception. As long as the relevant actors (executives, ratings
agencies, creditors and counterparties) believe there will be a bailout, the problems
of “too big to fail” will almost certainly persist.
    Federal Reserve Chairman Ben Bernanke, in a speech to community bankers in
March 2010, summed up the problem this way:

       The costs to all of us of having firms deemed too big to fail were
       stunningly evident during the days in which the financial system
       teetered near collapse. But the existence of too-big-to-fail firms also
       imposes heavy costs on our financial system even in more placid
       times. Perhaps most important, if a firm is publicly perceived as too
       big, or interconnected, or systemically critical for the authorities to
       permit its failure, its creditors and counterparties have less incentive
       to evaluate the quality of the firm’s business model, its management,
       and its risk-taking behavior. As a result, such firms face limited mar-
       ket discipline, allowing them to obtain funding on better terms than
       the quality or riskiness of their business would merit and giving them
       incentives to take on excessive risks. (Emphasis added.)

    In other words, unless and until institutions currently viewed as “too big to
fail” are either broken up so that they are no longer perceived to be a threat to the
financial system, or a structure is put in place that gives adequate assurance to the
market that they will be left to suffer the full consequences of their own reckless-
ness, the prospect of more bailouts will continue to fuel more bad behavior with
potentially disastrous results.
    Thus far, the Dodd-Frank Act appears not to have solved the perception prob-
lem. The largest institutions continue to enjoy access to cheaper credit based on
the existence of the implicit Government guarantee against failure. Indeed, earlier
this month one of the world’s most influential credit rating agencies, Standard
& Poor’s (“S&P”), announced its intention to make permanent the prospect of
Government support as a factor in determining a bank’s credit rating, a radical
change from pre-TARP practice. According to S&P, “We believe that banking
crises will happen again. We expect this pattern of banking sector boom and bust
10   special inspector general I troubled asset relief program




                                            and government support to repeat itself in some fashion, regardless of governments’
                                            recent and emerging policy response.”(Emphasis added.) S&P intends to “recognize
                                            government support throughout the cycle and not just during a crisis,” and has
                                            described the U.S. Government’s likelihood of support for a systemically impor-
                                            tant bank as “moderately high.” In short, S&P is telling the market that it does not
                                            believe that the Dodd-Frank Act has yet ended the problems of “too big to fail,” and
                                            given the discounts that such institutions continue to receive, the market seems to
                                            be listening.
                                                Secretary Geithner, in a December 2010 interview with SIGTARP, likewise
                                            acknowledged that despite the “better tools” provided by the Dodd-Frank Act, “[i]n
                                            the future we may have to do exceptional things again” if we face a crisis as large as
                                            the last one. To the extent that those “exceptional things” include taxpayer-support-
                                            ed bailouts,* his acknowledgement serves as an important reminder that TARP’s
                                            price tag goes far beyond dollars and cents, and that the ultimate cost of TARP will
                                            remain unknown until the next financial crisis occurs.

                                            HAMP
                                            As SIGTARP discussed in its October 2010 Quarterly Report, after two years,
                                            TARP’s Main Street goals of “increas[ing] lending,” and “promot[ing] jobs and
                                            economic growth” had been largely unmet, but it is TARP’s failure to realize its
                                            most specific Main Street goal, “preserving homeownership,” that has had perhaps
                                            the most devastating consequences. Treasury’s central foreclosure prevention ef-
                                            fort designed to address that goal — the Home Affordable Modification Program
                                            (“HAMP”) — has been beset by problems from the outset and, despite frequent re-
                                            tooling, continues to fall dramatically short of any meaningful standard of success.
                                            Indeed, even the “good news” of falling estimates for TARP’s cost is driven in part
                                            by the ineffectiveness of HAMP and related programs, which provide for TARP-
                                            funded grants and incentives. In its most recent TARP cost estimate, CBO cited
                                            diminished expectations for participation in TARP’s housing programs in lowering
                                            its anticipated cost, estimating that all of Treasury’s foreclosure programs combined
                                            will spend only $12 billion out of an allocation of approximately $46 billion. While
                                            Treasury continues to insist that HAMP will expend the full allocation of TARP
                                            funding, if CBO is correct then considerable TARP funds that could have been
                                            made available through better program design and administration may well never
                                            reach the distressed homeowners on Main Street whom Congress intended to ben-
                                            efit from TARP just as much as the rebounding Wall Street financial institutions.
                                                Today, HAMP appears to be under siege, with a chorus of criticisms from all
                                            points on the ideological spectrum growing more insistent and calls for termination


                                            *	It was apparent to SIGTARP from the context of the interview, including the reference to doing something exceptional “again” in
                                               the face of a future financial crisis, that Secretary Geithner was referring to the possibility of future bailouts. While Treasury has
                                               not disputed the quotation attributed to Secretary Geithner or the context in which it was presented in SIGTARP’s audit report
                                               “Extraordinary Financial Assistance to Citigroup, Inc.,” a Treasury spokesperson has reportedly suggested that Secretary Geithner
                                               was actually referring to using the tools of the Dodd-Frank Act to wind down an institution.
                                                                            quarterly report to congress I JANUARY 26, 2011   11




or a dramatic restructuring gaining traction. The numbers are remarkably discourag-
ing. According to RealtyTrac data, a record 2.9 million homes received foreclosure
filings in 2010, up from 2.8 million in 2009, and 2.3 million in 2008. RealtyTrac
predicts that filings will be 20% higher in 2011, crossing the 3 million threshold.
Similarly, the firm’s data reveal that bank repossessions continue to increase, from
just under 820,000 in 2008 to over 918,000 in 2009 to 1.05 million in 2010.
     In contrast, the number of permanent mortgage modifications under HAMP
remains anemic — there were just under 522,000 ongoing permanent modifica-
tions as of December 31, 2010, with approximately 238,000 of those funded by
and attributable to TARP. The remaining were funded outside of TARP by the
GSEs. A combined total of more than 792,000 trial and permanent modifications
have been cancelled, with more than 152,000 trial modifications still in limbo.
These permanent modification numbers pale in comparison not only to foreclosure
filings, but also to Treasury’s initial prediction that HAMP would “help up to 3 to
4 million at-risk homeowners avoid foreclosure” “by reducing monthly payments to
sustainable levels.”
     While Treasury continues its astonishing silence by refusing to provide an
estimate, goal, or projection of the total number of permanent modifications it
expects to complete and maintain, in December 2010, the Congressional Oversight
Panel (“COP”) estimated that, if current trends hold, HAMP will result in only
700,000 to 800,000 effective permanent modifications.5 Unfortunately, COP’s
dispiriting projection appears all too reasonable, with participation trends getting
worse and worse with each passing quarter. For example, HAMP produced only a
net increase of slightly more than 18,000 permanent modifications per month over
the most recent quarter, down 35% from the quarter before that, with the TARP
portion yielding only approximately 10,000 modifications per month. And even
those who do obtain permanent modifications still remain in danger of redefaulting
on their loans. That danger persists notwithstanding Treasury’s attempt to launch
two programs funded by more than $12 billion in TARP funds to address one of
the leading indicators of redefault, underwater mortgages in which borrowers owe
more than their homes are worth. Treasury reported to SIGTARP that FHA Short
Refinance, launched on September 7, 2010, had only resulted in 15 refinances as
of December 31, 2010, and was unable to report any information about homeown-
er participation in its Principal Reduction Alternative program, which was available
to servicers in June 2010 but formally launched on October 1, 2010.
      As SIGTARP and the other oversight bodies have chronicled in audits and
reports, HAMP’s failure to have a material impact on the foreclosure crisis
has many causes, starting with a rushed launch based on inadequate analysis
and without fully developed rules, which has required frequent changes to
program guidelines and caused unnecessary confusion and delay.6 Perhaps most
fundamentally, Treasury has steadfastly refused to adopt meaningful goals and
benchmarks for HAMP despite consistent and repeated recommendations from
12   special inspector general I troubled asset relief program




                                            SIGTARP and the other TARP oversight bodies — COP and the Government
                                            Accountability Office (“GAO”). Rather than develop meaningful goals and
                                            metrics for the program, which would allow meaningful oversight, promote
                                            accountability, and provide guidance for useful change, Treasury instead
                                            has regularly changed its criteria for success, citing at different times the
                                            total number of trial modification offers extended to borrowers, regardless of
                                            whether they were accepted, and then the total number of trial modifications,
                                            regardless of whether they became permanent, which far fewer than half
                                            have actually done. More recently, after SIGTARP and others pointed out the
                                            destructive impact of many failed trial modifications, Treasury has retreated to
                                            arguing that a benefit of HAMP has been its impact on private modifications
                                            that occur outside of the HAMP program. This too is a questionable measure
                                            of success. While Treasury may deserve some credit for having had a positive,
                                            if inadvertent, impact on industry practice, according to the December 2010
                                            COP report, “when pressed, Treasury acknowledges that there is no clear
                                            causal link between HAMP and proprietary modifications,” which often include
                                            more unfavorable terms for the borrower, are more likely to redefault, and
                                            permit broader imposition of fees.7 Regardless of Treasury’s stated criteria,
                                            however, while HAMP may provide a significant benefit for those who are
                                            fortunate enough to benefit from a sustainable permanent modification, given
                                            the current pace of foreclosures, HAMP’s achievements look remarkably
                                            modest, and hope that this program can ever meet its original expectations is
                                            slipping away.


                                            Servicers
                                            One of the great frustrations with HAMP, as expressed by legislators, consumer
                                            advocates, oversight bodies, and even Treasury itself, has been the abysmal per-
                                            formance of loan servicers, which not only operate as the point of contact for
                                            distressed homeowners seeking to participate in the program but also administer
                                            the loans on behalf of investors. Anecdotal evidence of their failures has been
                                            well chronicled. From the repeated loss of borrower paperwork, to blatant failure
                                            to follow program standards, to unnecessary delays that severely harm borrowers
                                            while benefiting servicers themselves, stories of servicer negligence and misconduct
                                            are legion, and the servicers’ conflicts of interest in administering HAMP — they
                                            too often have financial interests that don’t align with those of either borrowers or
                                            investors — have been described both by SIGTARP and COP.
                                                Treasury’s reaction to servicer non-compliance with the requirements of
                                            HAMP and its related programs appears to be driven largely by the fear that forc-
                                            ing servicers to comply with their contractual obligations will drive them away
                                            from HAMP. Despite nearly daily accounts of errors and more serious miscon-
                                            duct, Treasury reports that it has yet to impose a financial penalty on, or claw
                                            back incentives from, a single servicer for any reason other than failure to provide
                                                                                quarterly report to congress I JANUARY 26, 2011                 13




data. Treasury recently told COP that since participation by the servicers is purely
voluntary, “our abilities to enforce specific performance are extremely limited”              For a description of the role of loan servicers
and “aggressive enforcement [is] difficult.” This same fear of servicer withdrawal            in the residential mortgage business, and the
                                                                                              relationship between that role and HAMP,
was offered by Treasury in response to SIGTARP’s recommendation that Treasury
                                                                                              see SIGTARP’s October 2010 Quarterly
reconsider its decision to make its Principal Reduction Alternative program entirely          Report, Section 3: “The Economics of Loan
voluntary, and Treasury continues to operate an appeals system that leaves the                Servicing.”
ultimate decision of whether to approve or deny a modification squarely with the
servicer. At some point, Treasury needs to ask itself what value there is in a pro-
gram under which not only participation, but also compliance with the rules, is
voluntary. TARP’s oversight bodies — SIGTARP, COP, and GAO — have all called
on Treasury to get tough on servicers. Without meaningful servicer accountability,
the program will continue to flounder. Treasury needs to recognize the failings of
HAMP and be willing to risk offending servicers. And if getting tough means risk-
ing servicer flight, so be it; the results could hardly be much worse.
    As HAMP approaches its second anniversary, the time has come for Treasury
to set realistic and meaningful goals for its collective foreclosure prevention efforts,
even though those goals will necessarily be far more modest than those envisioned
when the program was announced. Doing so, in conjunction with a thorough
reevaluation of its failing programs and imposing discipline on servicers with real
penalties for violating program guidelines, will maximize the potential benefits for
struggling homeowners going forward.


PROGRAM UPDATES AND FINANCIAL OVERVIEW
TARP consists of 13 implemented programs. Because TARP investment authority
expired on October 3, 2010, no new obligations may be made with TARP funds.
However, dollars that have already been obligated to existing programs may still
be expended. As of October 3, 2010, $474.8 billion had been obligated across
TARP to provide support for U.S. financial institutions, the automobile industry,
the markets in certain types of asset-backed securities, and homeowners. Of the
obligated amount, $389.8 billion had been spent as of December 31, 2010, leaving
$80.0 billion in five programs remaining as obligated and available to spend.
When including the January 14, 2011, recapitalization of AIG, $410.1 billion had
been spent and $59.7 billion still remains available to spend. As of December 31,
2010, 148 TARP recipients had paid back all or a portion of their principal or
repurchased shares, for an aggregate total of $235.4 billion of repayments and a
$5 billion reduction in exposure to possible future liabilities, leaving $149.4 billion
in TARP funds outstanding (not including an additional $20.3 billion in TARP
funds expended in connection with the AIG recapitalization on January 14, 2011).
    In addition to the principal repayments, Treasury has received interest and divi-
dend payments on its investments, as well as revenue from the sale of its warrants.
14   special inspector general I troubled asset relief program




                                            As of December 31, 2010, the Government had received $35.2 billion in interest,
                                            dividends, and other income, including $10.2 billion in proceeds that had been
                                            received from the sale of warrants and preferred stock received as a result of exer-
                                            cised warrants. At the same time, some TARP participants have missed dividend
                                            payments: among CPP participants, 155 have missed dividend or interest payments
                                            to the Government, although some of them made the payments on a later date. As
                                            of December 31, 2010, there were $276.4 million in unpaid CPP dividends.


                                            OVERSIGHT ACTIVITIES OF SIGTARP
                                            SIGTARP actively strives to fulfill its audit and investigative functions. Since its
                                            inception, SIGTARP has issued 13 audit reports, including two that have been
                                            issued since the end of the last quarter. In addition to “Extraordinary Financial
                                            Assistance Provided to Citigroup, Inc.,” discussed earlier, SIGTARP also issued the
                                            audit report, “Selecting Fund Managers for the Legacy Securities Public-Private
                                            Investment Fund.” This document, released on October 7, 2010, discussed the
                                            process for selecting fund managers to participate in the Public-Private Investment
                                            Program. Detailed discussion of these audits is included in Section 1: “The Office
                                            of the Special Inspector General for the Troubled Asset Relief Program” of this
                                            report, which also discusses SIGTARP’s announcement of three new audit projects
                                            during the past quarter, as well as 10 other previously announced audits in process.
                                                SIGTARP’s Investigations Division has developed into a highly sophisticated
                                            white-collar investigative agency. As of December 31, 2010, SIGTARP had 142
                                            ongoing criminal and civil investigations, many in partnership with other law en-
                                            forcement agencies. Since SIGTARP’s inception, its investigations have delivered
                                            substantial results, including:

                                            •	 asset recoveries of $151.8 million, with an additional estimated savings of
                                               $555.2 million through fraud prevention
                                            •	 civil or criminal actions against 45 individuals to date, including 22 senior
                                               officers (Chief Executive Officers, owners, founders, or senior executives) of
                                               their organizations
                                            •	 criminal convictions of 13 defendants for fraud
                                            •	 civil cases naming 12 corporate entities as defendants

                                                Although much of SIGTARP’s investigative activity remains confidential,
                                            over the past quarter there have been significant public developments in several
                                            of SIGTARP’s investigations. For a description of recent developments, includ-
                                            ing those relating to SIGTARP investigations into the Shmuckler Group, LLC,
                                            the Residential Relief Foundation, Park Avenue Bank, Omni National Bank, and
                                            Nations Housing Modification Center, see Section 1: “The Office of the Special
                                            Inspector General for the Troubled Asset Relief Program” of this report.
                                                                              quarterly report to congress I JANUARY 26, 2011   15




SIGTARP RECOMMENDATIONS ON THE
OPERATION OF TARP
One of SIGTARP’s oversight responsibilities is to provide recommendations to
Treasury so that TARP programs can be designed or modified to facilitate effec-
tive oversight and transparency and to prevent fraud, waste, and abuse. Section 4:
“SIGTARP Recommendations” includes new recommendations, provides updates
on existing recommendations, and summarizes implementation measures for previ-
ous recommendations.
    This quarter, Section 4 includes a follow-up discussion of recommendations
regarding the implementation of the Small Business Lending Fund (“SBLF”) that
were first published in SIGTARP’s October 2010 Quarterly Report. SIGTARP
examines Treasury’s response to three recommendations designed to ensure the
soundness of TARP recipients that may seek to enter SBLF and to prevent TARP
recipients from receiving windfall benefits through SBLF without any relevant
increase in lending. While Treasury “generally agrees with and is implement-
ing” SIGTARP’s recommendation that all institutions applying for SBLF invest-
ment undergo a new financial health analysis, it has rejected the remaining two
SIGTARP recommendations. Those recommendations were designed to prevent
SBLF from providing windfall benefits to existing CPP participants who refinance
to SBLF and to reduce the risk of potentially needless harm to taxpayers. Section 4
reviews Treasury’s responses in detail and sets forth SIGTARP’s discussion of those
responses.
    Additionally, Section 4 provides two new SIGTARP recommendations related to
the recapitalization of Treasury’s CPP investments, or their refinancing into SBLF.
In the past, as part of its due diligence on CPP institutions seeking to recapitalize,
Treasury consulted with SIGTARP in advance of such action in order to determine
whether such institutions were the subject of an ongoing criminal investigation
by SIGTARP. Doing so gave Treasury the opportunity to avoid shifting the risk of
loss from fraud onto private investors who might participate in the restructuring
and to examine with particular care the information provided by the CPP institu-
tion. Recently, it appears that Treasury has stopped identifying these candidates
to SIGTARP in advance of a public announcement. As detailed in Section 4,
SIGTARP recommends that Treasury return to prior practice. In addition, because
similar concerns will arise when CPP recipients seek to refinance into the SBLF
program, and at the same time seek additional taxpayer dollars, SIGTARP recom-
mends that Treasury should similarly consult with SIGTARP to learn whether the
entity is the subject of an ongoing investigation.
16   special inspector general I troubled asset relief program




                                            REPORT ORGANIZATION
                                            The report is organized as follows:

                                            •	 Section 1 discusses the activities of SIGTARP.
                                            •	 Section 2 details how Treasury has spent TARP funds thus far and contains an
                                               explanation or update of each program.
                                            •	 Section 3 describes the operations and administration of the Office of Financial
                                               Stability, the office within Treasury that manages TARP.
                                            •	 Section 4 discusses SIGTARP’s recommendations to Treasury with respect to
                                               the operation of TARP.

                                                The report also includes numerous appendices containing, among other things,
                                            figures and tables detailing all TARP investments through December 31, 2010,
                                            except where otherwise noted.
            The Office of the Special
section 1
               investigations
            Inspector General for the
            Troubled Asset Relief Program
18   special inspector general I troubled asset relief program
                                                                              quarterly report to congress I JANUARY 26, 2011   19




SIGTARP CREATION AND STATUTORY AUTHORITY
The Office of the Special Inspector General for the Troubled Asset Relief Program
(“SIGTARP”) was created by Section 121 of the Emergency Economic Stabilization
Act of 2008 (“EESA”). Under EESA, SIGTARP has the responsibility, among
other things, to conduct, supervise, and coordinate audits and investigations of the
purchase, management, and sale of assets under the Troubled Asset Relief Program
(“TARP”) and, with certain limitations, other actions taken under EESA. SIGTARP
is required to report quarterly to Congress to describe SIGTARP’s activities and to
provide certain information about TARP over that preceding quarter. EESA gives
SIGTARP the authorities listed in Section 6 of the Inspector General Act of 1978,
including the power to obtain documents and other information from Federal agen-
cies and to subpoena reports, documents and other information from persons or
entities outside the Government.
    TARP investment authority expired on October 3, 2010. As a result, Treasury
cannot make new purchases or guarantees of troubled assets. This termination of
authority, however, does not affect Treasury’s ability to administer existing troubled
asset purchases and guarantees. In accordance with Section 106(e) of EESA,
Treasury may expend TARP funds after October 3, 2010, as long as it does so pur-
suant to obligations entered into before that date. SIGTARP’s oversight mandate
did not end with the expiration of Treasury’s authorization for new TARP funding.
Rather, under the authorizing provisions of EESA, SIGTARP is to carry out its
duties until the Government has sold or transferred all assets and terminated all
insurance contracts acquired under TARP. In other words, SIGTARP will remain
“on watch” as long as TARP assets remain outstanding.



SIGTARP OVERSIGHT ACTIVITIES SINCE THE
OCTOBER 2010 QUARTERLY REPORT
SIGTARP has continued to fulfill its oversight role on multiple parallel tracks:
auditing various aspects of TARP and TARP-related programs and activities; in-
vestigating allegations of fraud, waste, and abuse in TARP programs; coordinating
closely with other oversight bodies; and striving to promote transparency in TARP
programs.

SIGTARP Audit Activity
SIGTARP has initiated a total of 26 audits and two evaluations since its inception.
SIGTARP has issued a total of 13 audit reports, including two since the close of
the quarter ended September 30, 2010. On October 7, 2010, SIGTARP issued
“Selecting Fund Managers for the Legacy Securities Public-Private Investment
Fund,” and on January 13, 2011, SIGTARP issued “Extraordinary Financial
20   special inspector general I troubled asset relief program




                                            Assistance Provided to Citigroup, Inc.” In the past quarter, SIGTARP also an-
                                            nounced three new audit projects. In addition, 10 other previously announced
                                            audits and evaluations are in progress; SIGTARP anticipates releasing reports on
                                            those audits in the coming months.

                                            Selecting Fund Managers for the Legacy Securities Public-Private
                                            Investment Fund
                                            On October 7, 2010, SIGTARP released the audit report, “Selecting Fund
                                            Managers for the Legacy Securities Public-Private Investment Fund.” The report
                                            discussed the process for selecting fund managers to participate in the Public-
                                            Private Investment Program (“PPIP”). PPIP is designed to marry private capital
                                            with TARP funding to create individual investment funds, known as Public-Private
                                            Investment Funds (“PPIFs”) that purchase certain mortgage-backed securities.
                                            According to Treasury, the program was intended to “restart the market for legacy
                                            securities.”
                                                 SIGTARP found that Treasury constructed a reasonable architecture to accom-
                                            plish its objective of identifying larger firms to manage PPIFs. It hired a law firm to
                                            assist in designing the application and establishing the selection criteria. In review-
                                            ing 141 applications, Treasury received assistance from other Federal Government
                                            agencies and from an independent advisor with expertise in evaluating complex
                                            investments. Treasury conducted a multi-stage evaluation process with each stage
                                            reducing the number of applicants moving to the next stage, and performed due
                                            diligence reviews. It also adequately documented the selection process. Treasury
                                            determined, and SIGTARP agreed, that the legal structure of PPIP did not require
                                            it to use the Federal Acquisition Regulation in selecting fund managers.
                                                 While the selection process ultimately succeeded in creating nine privately
                                            managed funds with the means to purchase almost $30 billion in distressed assets,
                                            several aspects of the process are noteworthy:

                                            •	 Treasury’s published selection criteria created confusion and uncertainty among
                                               applicants. While Treasury published five criteria, it did not state how many of
                                               these criteria applicants were required to meet, or make clear how applicants
                                               could demonstrate that they met the criteria. The application introduced further
                                               uncertainty with the caveat that Treasury only “anticipated” using the five
                                               criteria, suggesting that the criteria might change after the applications were
                                               submitted. After receiving only four applications, and dozens of requests for
                                               clarification from potential applicants, Treasury responded that it would use a
                                               “holistic” approach in which “failure to meet any one criteria [would] not neces-
                                               sarily disqualify a proposal.” Internally, Treasury interpreted this modification to
                                               mean that all applicants had to meet four of the five stated criteria in order to be
                                               considered, though it did not reveal that interpretation to applicants.
                                                                              quarterly report to congress I JANUARY 26, 2011   21




•	 Treasury refined its criteria during the selection process in a way that impaired
   the transparency of the process. For example, in order for an applicant to be
   deemed as meeting the criterion that it demonstrate it had the operational
   capacity to manage funds consistent with Treasury’s investment objective,
   Treasury imposed an absolute requirement that each applicant demonstrate
   that it had a minimum of $1 billion in total assets under management. Treasury
   did not, however, disclose this change to applicants. This single, undisclosed
   requirement had the effect of reducing the applicant pool by more than 40%.
   While perhaps technically compliant with its public statement that no one
   criterion would result in disqualification, this new undisclosed threshold had
   the additional consequence that any applicants that failed to meet it would also
   automatically fail to meet a separate criterion that it have at least $10 billion in
   eligible assets, so that one strike instantly became two, and with two strikes they
   were out.
•	 Treasury’s published selection criterion that fund managers have at least $10
   billion in assets under management also risked unnecessarily discouraging ap-
   plications from smaller asset managers that might have had significant expertise.
   The eventual size of PPIP and the fact that two-thirds of the selected managers
   failed to meet the threshold suggest that it was unnecessary.
•	 Treasury gave an advantage to larger applicants with respect to the requirement
   that applicants demonstrate a capacity to raise $500 million in private capital.
   Of 13 applicants that failed to make a statement on whether or not they would
   be able to raise the capital, Treasury passed the 10 that referenced $7.5 billion
   or more in total assets under management and rejected the three that refer-
   enced between $1 billion and $3 billion in assets. After the application process
   was completed, Treasury waived the $500 million threshold for the two PPIF
   managers that could not meet it, putting into question the significance of a
   criterion that more than half of the applicants were deemed unable to meet.

     In sum, while Treasury designed and adequately documented a reasonable
selection process, the implementation of that process had several flaws. First, the
initial selection criteria created confusion among applicants; subsequent attempts
at clarification failed to remedy that confusion and were arguably misleading; and
Treasury’s undisclosed modification to one criterion impaired transparency. Second,
the emphasis on the size of potential fund managers, while perhaps understand-
able, not only threatened to discourage qualified potential applicants but also,
given the selections ultimately made, may have been unnecessary. As a result, the
taxpayer may have lost the benefit of the participation of qualified, albeit smaller,
fund managers because they were avoidably deterred from applying or unnecessar-
ily rejected.
22   special inspector general I troubled asset relief program




                                                 Finally, Treasury encouraged applicants to form partnerships with small, vet-
                                            eran-, minority-, and woman-owned private asset managers, which resulted in the
                                            inclusion of one or more minority-owned partners for eight of the nine selected
                                            fund managers. But without guidance from Treasury on either the nature or the
                                            extent of the expected role of a minority partner, applicants were left to their own
                                            interpretation, which resulted in the minority-owned businesses largely participat-
                                            ing to raise capital, with only two actually involved in managing assets, and one
                                            firm that appears to provide no assistance whatsoever.
                                                 Treasury responded to the report by letter dated October 4, 2010. In its re-
                                            sponse, Treasury described the audit’s summary of the fund manager selection
                                            process as informative and likely to be helpful in explaining that process to the pub-
                                            lic. Treasury also stated that it “strongly disagree[s] with a number of [SIGTARP’s]
                                            statements and conclusions regarding certain details of the fund manager selection
                                            process that [SIGTARP] believe[s] were not sufficient.” Treasury added that it will
                                            continue to review the report and “may respond” more fully at a later date.
                                                 As of the drafting of this report, Treasury had not provided a more complete
                                            response to the audit. As a result SIGTARP, and therefore Congress and the public
                                            at large, has no way of knowing what “statements and conclusions” Treasury sup-
                                            posedly “strongly disagrees” with in its October 4, 2010, letter. In that context,
                                            it is important to note that Treasury was given an opportunity to review a discus-
                                            sion draft of the report and to provide comments. Treasury did so, changes were
                                            made to the report as appropriate, and at the end of that process, Treasury offered
                                            no material factual objections to the draft audit report. Treasury might not agree
                                            with how the audit’s conclusions portray Treasury’s decision-making process on
                                            the selection of fund managers — without a more complete response it is difficult
                                            to know — but Treasury has not challenged the essential underlying facts upon
                                            which those conclusions are based. Indeed, Treasury’s failure to document in a
                                            more complete response the “statements” in the report to which it supposedly so
                                            “strongly” objects suggests that it simply is unable to so. SIGTARP strongly encour-
                                            ages Treasury to avoid what has become a too-frequent response to SIGTARP’s
                                            audit reports: issue a vague response at the time of publication suggesting that it
                                            disagrees with the factual foundation of the report, along with an equally vague
                                            promise to detail its objection at a later date, and then fail to do so. While perhaps
                                            serving some short-term goal, such an approach betrays Treasury’s oft-stated but
                                            insufficiently acted upon commitment to transparency.

                                            Extraordinary Financial Assistance Provided to Citigroup, Inc.
                                            (“Citigroup”)
                                            On January 13, 2011, SIGTARP released the audit report “Extraordinary Financial
                                            Assistance Provided to Citigroup, Inc.” The report examined the Government’s deci-
                                            sion to provide Citigroup extraordinary financial assistance in late November 2008,
                                                                                quarterly report to congress I JANUARY 26, 2011   23




the method of identifying the Citigroup assets that the Government would guaran-
tee as part of that assistance, and Citigroup’s termination of the assistance.
    In November 2008, even though it had received $25 billion from TARP’s
Capital Purchase Program just weeks earlier, Citigroup teetered on the brink of
failure. Federal officials, worried that Citigroup would fail absent a strong state-
ment of support from the Federal Government, and that such failure could cause
catastrophic damage to the economy, decided to rescue one of the world’s largest
financial institutions. Late on November 23, 2008, following a frantic few days
dubbed “Citi weekend,” Citigroup agreed to a Government proposal that would
provide Citigroup asset guarantees and a $20 billion capital infusion in exchange
for preferred shares of Citigroup stock. The essential purpose of the deal, as then
Treasury Secretary Henry Paulson and then Federal Reserve Bank of New York
President Timothy Geithner later confirmed to SIGTARP, was to assure the world
that the Government would not let Citigroup fail.
    SIGTARP found that the Government constructed a plan that not only
achieved the primary goal of restoring market confidence in Citigroup, but also
carefully controlled the risk of Government loss on the asset guarantee. The
Government summarily rejected Citigroup’s initial proposal for an asset guarantee
and made a take-it-or-leave it offer that Citigroup only reluctantly accepted, against
the advice of Citigroup insiders who considered the Government’s terms too ex-
pensive in light of the assistance provided. In the end, Citigroup accepted the deal
chiefly because of its expected impact on the market’s perception of Citigroup’s
viability. After the deal was announced, that impact was immediate — Citigroup’s
stock price stabilized, its access to credit improved, and the cost of insuring its debt
declined. And while the transactions hardly solved all of Citigroup’s problems —
just months later the Government was compelled to significantly restructure its
ownership interest in a manner that left it as Citigroup’s single largest common
stockholder — the Government incurred no losses and even profited on its overall
investment in Citigroup by more than $12 billion. Nevertheless, two aspects of the
Citigroup rescue bear noting.
    First, the conclusion of the various Government actors that Citigroup had to
be saved was strikingly ad hoc. While there was consensus that Citigroup was too
systemically significant to be allowed to fail, that consensus appeared to be based
as much on gut instinct and fear of the unknown as on objective criteria. Citigroup
CEO Vikram Pandit summed up the feeling at the time when he told SIGTARP
that no one knew what the systemic effects of a Citigroup failure would be, and no
one wanted to find out.
    Given the urgent nature of the crisis surrounding Citigroup, the ad hoc char-
acter of the systemic risk determination is not surprising, and SIGTARP found
no evidence that the determination was incorrect. Nevertheless, the absence of
24   special inspector general I troubled asset relief program




                                            objective criteria for reaching such a conclusion raised concerns. Then-Director
                                            of the Office of Thrift Supervision John Reich, at the Federal Deposit Insurance
                                            Corporation (“FDIC”) board meeting on November 23, 2008, in which the FDIC
                                            made its determination to proceed with the Citigroup transactions, observed that
                                            there had been “some selective creativity exercised in the determination of what
                                            is systemic and what’s not,” and that there “has been a high degree of pressure
                                            exerted in certain situations, and not in others, and I’m concerned about parity.”
                                            Concerns about “selective creativity” and “parity” could be addressed at least in part
                                            by the development, in advance of the next crisis, of clear, objective criteria and a
                                            detailed roadmap as to how those criteria should be applied. Treasury Secretary
                                            Geithner told SIGTARP that he believed creating effective, purely objective criteria
                                            for evaluating systemic risk is not possible, saying “it depends too much on the
                                            state of the world at the time. You won’t be able to make a judgment about what’s
                                            systemic and what’s not until you know the nature of the shock” the economy is
                                            undergoing. He also said that whatever criteria were developed in advance, markets
                                            and institutions would adjust and “migrate around them.”
                                                The Dodd-Frank Wall Street Reform and Consumer Protection Act (“Dodd-
                                            Frank Act”) charged the Financial Stability Oversight Council (“FSOC”) with
                                            responsibility for developing the specific criteria and analytical framework for
                                            assessing systemic significance. That process is under way. SIGTARP remains con-
                                            vinced that even if some aspects of systemic significance are necessarily subjective
                                            and dependent on the nature of the crisis at the time, an emphasis on the develop-
                                            ment of clear, objective criteria in advance of the next crisis would significantly aid
                                            decision makers burdened by enormous responsibility, extreme time pressure, and
                                            uncertain information. It is also imperative that FSOC not simply accept the adapt-
                                            ability of Wall Street firms to work around regulation, but instead maintain the
                                            flexibility to respond in kind.
                                                Second, the Government’s actions with respect to Citigroup undoubtedly con-
                                            tributed to the increased moral hazard that has been a direct byproduct of TARP.
                                            While the year-plus of Government dependence left Citigroup a stronger institu-
                                            tion, it remained, and arguably remains, an institution that is too big, too intercon-
                                            nected, and too essential to the global financial system to be allowed to fail. When
                                            the Government assured the world in 2008 that it would not let Citigroup fail, it
                                            did more than reassure troubled markets — it encouraged high-risk behavior by
                                            insulating risk-takers from the consequences of failure.
                                                Unless and until an institution such as Citigroup is either broken up, so that it
                                            is no longer a threat to the financial system, or a structure is put in place to assure
                                            that it will be left to suffer the full consequences of its own folly, the prospect of
                                            more bailouts will potentially fuel more bad behavior with potentially disastrous
                                            results. Notwithstanding the passage of the Dodd-Frank Act, which does give
                                            the FDIC new resolution authority in financial companies deemed systemically
                                                                                quarterly report to congress I JANUARY 26, 2011   25




significant, the market still gives the largest financial institutions an advantage over
smaller institutions by enabling larger firms to raise funds more cheaply, and enjoy
enhanced credit ratings based on the assumption that the Government remains as
a backstop. And because of the prospect of another Government bailout, executives
at such institutions might be motivated to take greater risks than they otherwise
would.
    The Dodd-Frank Act was intended, in part, to address the problem of institu-
tions that are “too big to fail.” Whether it will successfully address the moral
hazard effects of TARP remains to be seen, and there is much important work left
to be done. As Secretary Geithner told SIGTARP, while the Dodd-Frank Act gives
the Government “better tools,” and reduced the risk of failures, “[i]n the future
we may have to do exceptional things again” if the shock to the financial system is
sufficiently large. Secretary Geithner’s candor about the difficulty of determining
“what’s systemic and what’s not until you know the nature of the shock” and the
prospect of having to “do exceptional things again” in such an unknowable future
crisis is commendable. At the same time, it underscores a TARP legacy, the moral
hazard associated with the continued existence of institutions that remain “too big
to fail.” It also serves as a reminder that the ultimate cost of bailing out Citigroup
and other “too big to fail” institutions will remain unknown until the next financial
crisis occurs.
    Treasury responded to the report in a letter dated January 12, 2011, which
broadly concurred with the report. The FDIC responded to the report in a letter
dated January 12, 2011, which offered four “clarifications” to the report. While
SIGTARP did not incorporate the FDIC’s suggested changes, the letter was at-
tached to the audit report. The Federal Reserve responded to the report by letter
after it was issued (although the letter was dated January 12, 2011), which is repro-
duced in Appendix G. The Office of the Comptroller of the Currency stated that it
would not provide a formal response to the report.

Audits and Evaluations Underway
SIGTARP has ongoing audits and evaluations on 10 previously announced topics
and expects to issue those reports in the coming months.

Office of the Special Master Decisions on Executive Compensation
This audit is examining the decisions of the Office of the Special Master for TARP
Executive Compensation on executive compensation at firms receiving exceptional
TARP assistance. This audit assesses the criteria used by the Special Master to
evaluate executive compensation and whether the criteria were applied consistently.
26   special inspector general I troubled asset relief program




                                            Capital Purchase Program (“CPP”) Applications Receiving Conditional
                                            Approval
                                            This audit is examining those CPP applications that received preliminary approval
                                            from Treasury’s Investment Committee conditioned upon the institutions meet-
                                            ing certain requirements before funds were disbursed. One example was Colonial
                                            Bancgroup Inc. (“Colonial”), which received CPP approval conditioned on its rais-
                                            ing $300 million in private capital but was later the center of a major fraud inves-
                                            tigation initiated by SIGTARP that led to the indictment of Lee Farkas on charges
                                            that he attempted to defraud Treasury of more than $550 million in connection
                                            with its conditional approval of Colonial’s application for TARP funds. The audit
                                            assesses the basis for the decision to grant such conditional approvals and the bank
                                            regulators’ roles in such decisions; whether and how timeframes were established
                                            for meeting such conditions; and whether internal controls were in place to ensure
                                            that the conditions were met before funds were disbursed.

                                            Term Asset-Backed Securities Loan Facility (“TALF”) Collateral
                                            Monitors’ Valuation
                                            This audit is examining the Federal Reserve’s basis for hiring collateral monitors for
                                            the TALF program, the role of the collateral monitors, and the appropriateness of
                                            the approved loan amounts.

                                            Office of Financial Stability Contracting for Professional Services
                                            Undertaken at the request of Senator Tom Coburn, this audit is examining the pro-
                                            cesses Treasury uses to procure professional services in support of its management
                                            of TARP, specifically those to ensure that contract prices are fair and reasonable
                                            and that vendors’ invoices accurately reflect the work performed.

                                            CPP Exit Strategy
                                            This audit is examining the process that Treasury and Federal banking regulators
                                            established for banks to repay Treasury and exit CPP.

                                            Home Affordable Modification Program (“HAMP”) Internal Controls
                                            Building on SIGTARP’s other audit work regarding HAMP, this audit is examin-
                                            ing the extent to which Treasury has established a system of internal controls
                                            for HAMP.8 This audit is also reviewing the reasons Treasury reported erroneous
                                            re-default rates through June in its “Servicer Performance Report” and the cor-
                                            rective actions Treasury is taking to help assure its future performance reports are
                                            accurate.
                                                                              quarterly report to congress I JANUARY 26, 2011   27




Application of the HAMP Net Present Value (“NPV”) Test
This audit, conducted in response to a request from Senator Jeff Merkley and eight
other Senators, is examining the following issues: (i) whether participating loan
servicers are correctly applying the NPV test under the program; (ii) the extent to
which Treasury ensures that servicers are appropriately applying the NPV test per
HAMP guidelines when assessing borrowers for program eligibility; and (iii) the
procedures servicers follow to communicate to borrowers the reasons for NPV test
failure, as well as to identify the full range of loss mitigation options available to
such borrowers.

Hardest Hit Fund
Undertaken at the request of Representative Darrell Issa, this audit is examin-
ing (i) the extent to which Treasury applied consistent and transparent criteria,
including applicable provisions of EESA, in selecting the states and programs to
receive money under the Hardest Hit Fund; (ii) the extent to which Treasury has
determined the programs to be funded by the Hardest Hit Fund are innovative as
compared to existing Federal and state programs; (iii) whether Treasury has put
sufficient mechanisms in place to prevent waste, fraud and abuse in the Hardest
Hit Fund; and (iv) the goals and metrics Treasury has adopted and reported to the
public for the operation of the Hardest Hit Fund.

Decision-Making Process Regarding Citigroup Deferred Tax Assets
Undertaken at the request of Representative Dennis Kucinich, this evaluation is
examining (i) the rationale behind Treasury’s decision to issue Notice 2010-2 (the
“Notice”) regarding Internal Revenue Code Section 382, which limits the amount
of net operating losses a corporation experiencing a change of ownership may use
to offset future taxable income; (ii) whether Treasury was aware of the tax effect
that may result from the Notice’s issuance; (iii) the identity of principal decision
makers involved in issuing the Notice; and (iv) the extent to which Treasury’s policy
to timely dispose of TARP investments factored into the issuance decision.

Assessment of American International Group, Inc. (“AIG”) Severance
Payments
At the request of Senator Charles Grassley, SIGTARP is conducting an evaluation
and review of executive compensation regulations issued by Treasury in relation to
severance payments to certain former executives at AIG. Additionally, this evalu-
ation is examining the circumstances of an alleged conflict of interest within the
Office of the Special Master.
28   special inspector general I troubled asset relief program




                                            New Audits Underway
                                            Over the past quarter SIGTARP announced three new audit projects:

                                            Review of Treasury’s Investment in General Motors Company (“GM”)
                                            This audit is examining Treasury’s decision-making process relating to its substan-
                                            tial investment in GM, specifically (i) Treasury’s process and plans, and its support-
                                            ing analyses, for its actual and/or planned disposal of its investments in GM; and
                                            (ii) the role Treasury played in reviewing, approving, or otherwise participating in
                                            GM’s decision to acquire AmeriCredit (now GM Financial).

                                            Review of GM’s Decision to “Top Up” the Pension Plan for Hourly
                                            Workers of Delphi Automotive LLP (“Delphi”)
                                            This audit is examining GM’s decision to “top up” Delphi’s pension plan for hourly
                                            workers, including (i) Treasury’s role in GM’s decision to top up the pension plan;
                                            and (ii) whether the Administration or the Automotive Task Force pressured GM to
                                            provide additional funding for the plan.

                                            PPIP Internal Controls
                                            Undertaken at the request of Senator Claire McCaskill, this audit is examining
                                            (i) the extent and effectiveness of Treasury’s oversight and monitoring for each
                                            PPIF; (ii) the extent to which each PPIP manager’s internal controls address the
                                            compliance requirements of the limited partnership agreement and other applica-
                                            ble laws and regulations; and (iii) the extent to which Treasury and PPIF managers
                                            have implemented controls to identify, mitigate, and resolve potential conflicts of
                                            interest.

                                            SIGTARP Investigations Activity
                                            SIGTARP’s Investigations Division has developed into a highly sophisticated white-
                                            collar investigative agency. As of December 31, 2010, SIGTARP had 142 ongoing
                                            criminal and civil investigations (including investigations relating to executives at
                                            64 financial institutions that applied for and/or received funding under CPP) many
                                            in partnership with other law enforcement agencies. Since SIGTARP’s inception,
                                            its investigations have delivered substantial results, including:

                                            •	 asset recoveries of $151.8 million, with an additional estimated savings of
                                               $555.2 million through fraud prevention
                                            •	 civil or criminal actions against 45 individuals to date, including 22 senior of-
                                               ficers (CEOs, owners, founders or senior executives) of their organizations
                                            •	 criminal convictions of 13 defendants for fraud
                                            •	 civil cases naming 12 corporate entities as defendants
                                                                             quarterly report to congress I JANUARY 26, 2011   29




     SIGTARP’s investigations concern suspected TARP fraud, accounting fraud,
securities fraud, insider trading, bank fraud, mortgage fraud, mortgage servicer mis-
conduct, fraudulent advance-fee schemes, public corruption, false statements, ob-
struction of justice, theft of trade secrets, money laundering, perjury to Congress,
and tax-related investigations. While the majority of SIGTARP’s investigative activ-
ity remains confidential, over the past quarter there have been significant public
developments in several of SIGTARP’s investigations.

The Shmuckler Group, LLC (“Shmuckler Group”)
On November 18, 2010, Howard Shmuckler was arrested pursuant to a 30-count
indictment obtained by the Prince George’s County State’s Attorney’s Office in
Maryland. Shmuckler owned and operated Shmuckler Group a company located in
Vienna, Virginia, that purportedly offered mortgage modification services. He was
charged with conspiracy, theft, and operating a business without a license, all relat-
ing to an alleged mortgage modification scam that took advantage of the publicity
surrounding the TARP-supported HAMP program.
    According to a related cease and desist order issued by the Maryland
Commissioner of Financial Regulation, Shmuckler, along with two other
individuals and their affiliated companies, are alleged to have collected more than
$1.2 million in upfront fees from 372 Maryland homeowners by falsely promising
to persuade banks to modify the terms of the homeowners’ mortgages. According
to the same order, Shmuckler contracted with Nova Key LLC to market and sell
Shmuckler Group loan modification services to homeowners, including advertising
that targeted Spanish-speaking homeowners who had obtained subprime mortgages
that they could not afford and who had fallen behind on their mortgage payments.
The order further alleges that: Shmuckler and his associates falsely promised
to return upfront fees to homeowners for whom they failed to obtain modifica-
tions; falsely represented the progress of the homeowners’ loan modifications; and
directed homeowners to stop making payments on their mortgage loans and not to
contact their lenders. According to the order, many of these homeowners subse-
quently lost their homes to foreclosure.
    This case resulted from a joint investigation conducted by SIGTARP, the Office
of the State’s Attorney for Prince George’s County, and the Maryland Department
of Labor Licensing and Regulation’s Financial Regulation Division.

Residential Relief Foundation
On November 17, 2010, pursuant to court order, the Federal Trade Commission
(“FTC”) halted the operations of the Residential Relief Foundation and affiliated
companies and individuals. This action, supported by SIGTARP’s investigative ef-
forts, was based on a civil complaint filed by the FTC alleging that the defendants
violated Federal law by falsely claiming that they would obtain loan modifications
and significantly lower mortgage payments for consumers in return for upfront
30   special inspector general I troubled asset relief program




                                            fees. The complaint also charges the defendants with misrepresenting an affiliation
                                            with the Federal Government, falsely claiming to have taken reasonable and ap-
                                            propriate measures to protect consumers’ personal information from unauthorized
                                            access, and improperly disposing of consumers’ information in unsecured dump-
                                            sters, in violation of the FTC Act.
                                                Specifically, the FTC complaint alleges that the defendants falsely claimed
                                            their loan modification program could result in waiver of late payments, late fees,
                                            and legal fees; conversion of adjustable rates to fixed rates as low as 1%; reduc-
                                            tion of principal balances; and up to 40% lower mortgage payments. According to
                                            the FTC complaint, the Residential Relief Foundation used a logo similar to the
                                            Great Seal of the United States and told consumers that it is nearly impossible for
                                            homeowners to obtain mortgage modifications on their own. Claiming quick results
                                            and a high success rate, the defendants charged a $1,495 up-front fee, advised
                                            homeowners to stop making mortgage payments, and falsely claimed that reports
                                            the defendants created would enable homeowners to obtain the promised results,
                                            according to the complaint. In addition, the FTC charged that in marketing debt
                                            relief services for credit card debt, the defendants falsely told people they could
                                            become debt free in 12 to 36 months, remove late fees and penalties, and reduce
                                            debts up to 50%.
                                                At the FTC’s request, a Federal court ordered a halt to the operation, appointed
                                            a receiver, and froze the defendants’ assets, pending trial. The FTC action seeks to
                                            stop the defendants’ deceptive claims permanently and make them forfeit their ill-
                                            gotten gains. SIGTARP provided investigative support in furtherance of the FTC’s
                                            case. SIGTARP’s investigation is ongoing.

                                            Park Avenue Bank
                                            In the continuing action concerning Park Avenue Bank, on January 4, 2011,
                                            Carlos Peralta pled guilty in the U.S. District Court for the Southern District of
                                            New York to wire fraud. Peralta participated in a fraudulent investment scheme
                                            through which he caused the pastors of a church in Coral Springs, Florida to wire
                                            $103,940 from a bank account in Florida to an account at the Park Avenue Bank in
                                            Manhattan.
                                                As previously reported, on October 8, 2010, Charles Antonucci, the former
                                            president and CEO of Park Avenue Bank, pled guilty in the U.S. District Court
                                            for the Southern District of New York to offenses including securities fraud,
                                            making false statements to bank regulators, bank bribery, and embezzlement of
                                            bank funds. As noted in SIGTARP’s Quarterly Report to Congress dated April 20,
                                            2010, Antonucci was arrested in March 2010 after attempting to steal $11 mil-
                                            lion of TARP funds by, among other things, making fraudulent claims about the
                                            bank’s capital position. With his guilty plea, Antonucci became the first defendant
                                                                            quarterly report to congress I JANUARY 26, 2011   31




convicted of attempting to steal from the taxpayers’ investment in TARP. The ongo-
ing SIGTARP investigation is being conducted in partnership with the Federal
Bureau of Investigation (“FBI”), U.S. Immigration and Customs Enforcement
(“ICE”), the New York State Banking Department Criminal Investigations Bureau,
and the FDIC Office of Inspector General (“FDIC OIG”).

Omni National Bank (“Omni”)
Omni was a national bank headquartered in Atlanta. Omni failed and was taken
over by the FDIC on March 27, 2009. Prior to its failure, Omni applied for, but did
not receive, TARP funding. As part of a mortgage fraud task force that also in-
cluded the U.S. Attorney’s Office for the Northern District of Georgia, FDIC OIG,
the Office of the Inspector General for the Department of Housing and Urban
Development (“HUD OIG”), the U.S. Postal Inspection Service (“USPIS”), and the
FBI, SIGTARP participated in several investigations concerning Omni that led to
criminal charges. SIGTARP’s involvement, including an examination into whether
the various frauds had an impact on Omni’s CPP application, is ongoing.
    As a result of the investigation, on January 5, 2011, Karim W. Lawrence, an
officer and employee of Omni, pled guilty to charges of corruptly receiving commis-
sions or gifts in exchange for procuring loans.
    Previously, on August 3, 2010, Brent Merriell was sentenced to three years and
three months in prison for his role in a scheme to prompt Omni to forgive $2.2
million in loans, having pled guilty to charges of making false statements to the
FDIC and six counts of aggravated identity theft in connection with the scheme.
Additionally, Jeffery Levine, Omni’s former executive vice president, pled guilty in
January 2010 to charges of causing material overvaluations in the books, reports
and statements that were later submitted as part of Omni’s TARP application. In
addition to Merriell and Levine, Mark Anthony McBride, Christopher Loving,
and Delroy Davy pled guilty in connection with this case to mortgage fraud, mak-
ing false statements to SIGTARP Special Agents, and bank fraud and conspiracy
charges, respectively.

United Law Group (“ULG”)
As described in the April 2010 Quarterly Report, in March 2010 SIGTARP, along
with USPIS, FBI, ICE, and the Orange County District Attorney’s Office, ex-
ecuted a publicly filed search warrant obtained by the U.S. Attorney for the Central
District of California at the offices of United Law Group (“ULG”). This investiga-
tion focuses on allegations that ULG, taking advantage of the publicity surround-
ing HAMP, engaged in a mortgage modification advance-fee scheme. The search
warrant affidavit alleges that ULG charged struggling homeowners fees ranging
from $1,500 to $12,000 without performing services, while advising victims to
32   special inspector general I troubled asset relief program




                                            stop paying their mortgages and terminate contact with their lenders. The affi-
                                            davit further alleges that many ULG customers subsequently lost their homes to
                                            foreclosure.
                                                On June 30, 2010, ULG filed for bankruptcy protection. On December 20,
                                            2010, as a direct result of SIGTARP’s investigative efforts, the Honorable Robert
                                            Kwan issued a preliminary injunction assigning control of a bank account held by
                                            ULG containing client funds to ULG’s bankruptcy trustee. The bankruptcy trustee
                                            assigned to wind down the operations of ULG in Irvine, California, estimates that
                                            approximately $1 million from the seized account will be returned to the estate to
                                            serve as restitution to victims. SIGTARP’s investigation with its law enforcement
                                            partners is ongoing.

                                            Nations Housing Modification Center (“NHMC”)
                                            On October 14, 2010, Roger Jones pled guilty to conspiracy to commit wire
                                            fraud in U.S. District Court for the Southern District of California. The charges
                                            against Jones relate to his participation in an advance-fee scheme noted in previ-
                                            ous SIGTARP quarterly reports. According to his indictment, Jones and others
                                            took criminal advantage of the publicity surrounding the Administration’s mortgage
                                            modification efforts under HAMP. Operating companies under the names NHMC
                                            or “Federal Housing Modification Department,” they used fraudulent statements
                                            and representations to induce customers to pay $2,500-$3,000 to purchase loan
                                            modification services that were never delivered. For example, the indictment alleges
                                            that they mailed solicitation letters in envelopes that deceptively bore a Capitol
                                            Hill return address (in fact merely a post office box) and that were designed to
                                            mimic official Federal correspondence. Court documents allege that the fraud
                                            grossed $900,000. At his guilty plea, Jones admitted not only to participating in the
                                            conspiracy but also to making material false statements to SIGTARP agents that
                                            significantly obstructed or impeded an aspect of the SIGTARP investigation. Jones’
                                            sentencing is scheduled for early 2011.
                                                As previously reported, Glenn Steven Rosofsky and Michael Trap also pled
                                            guilty in connection with this case. Trap pled guilty in March 2010 to conspiracy to
                                            commit fraud and money laundering. Rosofsky pled guilty in June 2010 to offenses
                                            including money laundering, conspiracy to commit wire fraud, and filing a false
                                            tax return. This case was jointly investigated with the Internal Revenue Service
                                            Criminal Investigation, the FTC, the San Diego District Attorney’s Office, and the
                                            United States Attorney’s Office for the Southern District of California, with the
                                            support of the Treasury Financial Crimes Enforcement Network and the New York
                                            High Intensity Financial Crime Area.

                                            The TCW Group, Inc./The DoubleLine Funds
                                            As described in greater detail on page 88 of the January 2010 Quarterly Report,
                                            on December 4, 2009, The TCW Group, Inc. (“TCW”), one of the nine asset
                                                                              quarterly report to congress I JANUARY 26, 2011   33




managers selected by Treasury to participate in PPIP, dismissed Jeffrey Gundlach, a
“key man” under TCW’s contract with Treasury, who served as TCW’s chief invest-
ment officer and the lead portfolio manager of its PPIF. At that time, consistent
with the terms of the Limited Partnership Agreement between Treasury and TCW,
Treasury froze TCW’s PPIF and halted all fund transactions. On January 4, 2010,
TCW withdrew as a manager in PPIP and its PPIF was liquidated.
   On January 12, 2010, Gundlach and others organized The DoubleLine
Funds (“DoubleLine”), a fund management company. In an SEC filing on
December 9, 2010, DoubleLine disclosed that on January 7, 2010, TCW
“commenced litigation against [DoubleLine] in the Superior Court of the State of
California, County of Los Angeles, Central District, alleging unfair competition.”
According to the SEC filing, the suit alleges, among other things, that Gundlach
and other former TCW employees now at DoubleLine misappropriated TCW’s
confidential information and are using it to compete against TCW for assets under
management. Additionally, the filing disclosed that “employees and former em-
ployees of [DoubleLine] have been interviewed by representatives of [SIGTARP],
and by the office of the United States Attorney for the Southern District of New
York, in connection with the PPIP and in connection with the same allegations of
misappropriation of proprietary information made by [TCW] in its litigation against
[DoubleLine]. [DoubleLine] understands that the inquiry stems at least in part
from a federal grand jury inquiry.” SIGTARP’s investigation is ongoing.

SIGTARP Hotline
One of SIGTARP’s primary investigative priorities is to operate the SIGTARP
Hotline and thus provide a simple, accessible way for the American public to report
concerns, allegations, information, and evidence of violations of criminal and
civil laws in connection with TARP. From its inception in February 2009 through
December 31, 2010, the SIGTARP Hotline has received and analyzed more
than 24,000 Hotline contacts. These contacts run the gamut from expressions
of concern over the economy to serious allegations of fraud involving TARP, and
a substantial number of SIGTARP’s investigations were generated in connection
with Hotline tips. The SIGTARP Hotline can receive information anonymously.
SIGTARP honors all applicable whistleblower protections and will provide con-
fidentiality to the fullest extent possible. SIGTARP urges anyone aware of waste,
fraud or abuse involving TARP programs or funds, whether it involves the Federal
Government, state and local entities, private firms or individuals, to contact its
representatives at 877-SIG-2009 or www.sigtarp.gov.

Communications with Congress
One of the primary functions of SIGTARP is to ensure that members of Congress
remain adequately and promptly informed of developments in TARP initiatives and
of SIGTARP’s oversight activities. To fulfill that role, the Special Inspector General
and his staff meet regularly with and brief members and Congressional staff:
34   special inspector general I troubled asset relief program




                                            •	 On October 27 and 29, 2010, SIGTARP Chief of Staff Christy Romero present-
                                                ed open briefings for House and Senate staff, respectively. The focus of each
                                                briefing was SIGTARP’s October 2010 Quarterly Report.
                                                Copies of the written testimony, hearing transcripts, and a variety of other mate-
                                            rials associated with Congressional hearings since SIGTARP’s inception are posted
                                            at www.sigtarp.gov/reports.shtml.

                                            Constitutionality of the Special Master
                                            On November 2, 2009, SIGTARP sent a letter to Treasury inquiring about the
                                            constitutionality of its appointment of the Special Master for TARP Executive
                                            Compensation (“Special Master”), pursuant to the Interim Final Rule on TARP
                                            Standards for Compensation and Corporate Governance. After an exchange of
                                            letters with Treasury, on August 20, 2010, SIGTARP submitted to the Office
                                            of Legal Counsel (“OLC”), Department of Justice, a request for a legal opinion
                                            regarding the constitutionality of the Special Master under the Appointments
                                            Clause of the United States Constitution. The General Counsel of the Treasury
                                            Department joined in the request. (Copies of correspondence related to this ques-
                                            tion are in Appendix H: “Correspondence” to the October 2010 Quarterly Report
                                            to Congress.)
                                                In a November 5, 2010, memorandum, the Office of Legal Counsel expressed
                                            its opinion that the Special Master’s appointment is constitutional under the
                                            Appointments Clause of the Constitution. A copy of the memorandum is attached
                                            in Appendix G: “Correspondence.”


                                            THE SIGTARP ORGANIZATION
                                            From the day that the Special Inspector General was confirmed by the Senate,
                                            SIGTARP has worked to build its organization through various complementary
                                            strategies, leveraging the resources of other agencies, and, where appropriate
                                            and cost-effective, obtaining services through SIGTARP’s authority to contract.
                                            SIGTARP continues to make substantial progress in building its operation.

                                            Hiring
                                            As of December 31, 2010, SIGTARP had 139 full-time personnel, including one
                                            detailee from the FBI. SIGTARP’s employees hail from many Federal agencies,
                                            including the Department of Justice, FBI, the Internal Revenue Service Criminal
                                            Investigation, Air Force Office of Special Investigations, GAO, Department of
                                            Transportation, Department of Energy, the Securities and Exchange Commission,
                                            U.S. Secret Service, U.S. Postal Service, U.S. Army Criminal Investigation
                                            Command, Naval Criminal Investigative Service, Treasury-Office of the Inspector
                                            General, Department of Energy-Office of the Inspector General, Department
                                            of Transportation-Office of the Inspector General, Department of Homeland
                                                                              quarterly report to congress I JANUARY 26, 2011                    35




Security-Office of the Inspector General, FDIC OIG, Office of the Special
Inspector General for Iraq Reconstruction, and the Department of Housing and
Urban Development Office of Inspector General. SIGTARP employees also hail
from various private sector businesses and law firms. Hiring is actively ongoing.              Figure 1.1
The SIGTARP organizational chart, as of January 3, 2011, is included in                       SIGTARP FY 2010 ACTUALS
Appendix H: “Organizational Chart.”                                                           ($ MILLIONS, PERCENTAGE OF $33.5 MILLION)

                                                                                                    Other Services
Budget                                                                                                     $1.2, 4%
                                                                                             Advisory Services
SIGTARP expended $19.6 million in fiscal year 2009 and $33.5 million in fis-                             $4.6

cal year 2010. In fiscal year 2010, 51% of SIGTARP’s budget went for personnel                              14%
costs and 29% for services provided by other Government agencies, as noted in the
                                                                                                                                      Salaries and
breakdown of 2010 funding provided by Figure 1.1.                                                                              51%    Benefits $17.0
    On February 2, 2010, the Administration submitted to Congress Treasury’s                             29%
fiscal year 2011 budget request, which includes SIGTARP’s full initial request for
$49.6 million. Adjusting for the fiscal year 2011 pay raise reduction, the annual
amount has been revised to $49.4 million. Public Law 111-242, the Continuing                       Interagency           Travel/Transportation
                                                                                              Agreements $9.8            $0.9, 2%
Appropriations Act of 2011 as amended and extended through March 4, 2011,
provides $15.4 million based on an annual estimate of $36.3 million. Figure 1.2
provides a detailed breakdown of SIGTARP’s fiscal year 2011 budget, which re-
flects an adjusted total spending plan of $51 million, which includes, among other              Figure 1.2

things, portions of SIGTARP’s initial funding that have not yet been spent.                     SIGTARP FY 2011 PROPOSED
                                                                                                BUDGET
                                                                                                ($ MILLIONS, PERCENTAGE OF $51.0 MILLION)
Physical and Technical SIGTARP Infrastructure                                                               Other Services
SIGTARP occupies office space at 1801 L Street, NW, in Washington, D.C., the                                      $2.5, 5%

same office building in which most Treasury officials managing TARP are located.                    Advisory Services
                                                                                                                $7.4
To facilitate more efficient and effective investigative activities across the nation,
                                                                                                                        14%
SIGTARP has also opened regional offices in New York City, Los Angeles, San
                                                                                                  Interagency
Francisco and Atlanta.                                                                      Agreements $11.0     22%

    SIGTARP has a website, www.SIGTARP.gov, on which it posts all of its reports,
                                                                                                                                             Salaries
testimony, audits, contracts, and more. Since its inception, SIGTARP’s website has                                                    56%
                                                                                                                                             and
had more than 49 million web “hits,” and there have been more than 2.8 million                        Travel/                                Benefits
                                                                                               Transportation                                $28.7
downloads of SIGTARP’s quarterly reports, which are available on the site.9                         $1.4, 3%
36   special inspector general I troubled asset relief program
s ection 2   tarp overview
                                                                             quarterly report to congress I JANUARY 26, 2011            39




This section summarizes how the U.S. Department of the Treasury (“Treasury”) has
managed the Troubled Asset Relief Program (“TARP”). This section also reviews
TARP’s overall finances, provides updates on established TARP component pro-
grams, and gives the status of TARP executive compensation restrictions.



TARP FUNDS UPDATE
Because TARP investment authority expired on October 3, 2010, no new                         Obligations: Definite commitments that
obligations may be made with TARP funds. However, dollars that have already                  create a legal liability for the Govern-
been obligated to existing programs may still be expended. As of October 3, 2010,            ment to pay funds.
$474.8 billion had been obligated to 13 announced programs. Of the obligated
amount, as of December 31, 2010, $389.8 billion had been spent and $80.0 bil-
lion remained obligated and available to be spent. When including the January 14,
2011, recapitalization of American International Group, Inc. (“AIG”), $410.1 bil-
lion has been spent and $59.7 billion remains obligated and available to be spent.
Also, $5.0 billion was obligated under the Asset Guarantee Program (“AGP”) but
was not expended; those dollars are not available for further use.10
    Initial authorization for TARP funding came through the Emergency Economic
Stabilization Act of 2008 (“EESA”), which was signed into law on October 3,
2008.11 EESA appropriated $700 billion to “restore liquidity and stability to the fi-
nancial system of the United States.”12 On December 9, 2009, the Secretary of the
Treasury (“Treasury Secretary”) exercised the powers granted him under Section
120(b) of EESA and extended TARP through October 3, 2010.13 In accordance
with Section 106(e) of EESA, Treasury may expend TARP funds after October 3,
2010, as long as it does so pursuant to obligations entered into before that date.14
    The Dodd-Frank Wall Street Reform and Consumer Protection Act (“Dodd-
Frank Act”), which became law (Public Law 111-203) on July 21, 2010, amended
the timing and amount of TARP funding.15 The upper limit of the Treasury
Secretary’s authority to purchase and guarantee assets under TARP was reduced to
$475 billion from the original $700 billion available.
    With the expiration of TARP funding authorization, no new expenditures may
be made through the Capital Purchase Program (“CPP”), the Capital Assistance
Program (“CAP”), the Targeted Investment Program (“TIP”), AGP, the Auto
Supplier Support Program (“ASSP”), the Auto Warranty Commitment Program
(“AWCP”), the Unlocking Credit for Small Businesses (“UCSB”) initiative, or the
Community Development Capital Initiative (“CDCI”) because all obligated dollars
have been spent. For five programs — the Making Home Affordable (“MHA”) pro-
gram, the Systemically Significant Failing Institutions (“SSFI”) program, the Term
Asset-Backed Securities Loan Facility (“TALF”), the Public-Private Investment
Program (“PPIP”), and the Automotive Industry Financing Program (“AIFP”) —
dollars that were obligated but unspent as of October 3, 2010, are available to be
40   special inspector general I troubled asset relief program




                                            Table 2.1

                                            Obligations, Expenditures, and Obligations Available
                                            for Expenditure ($ Billions)
                                                                                                                                                                        Available
                                            Program Name                                          Obligation                      Expenditure                        to Be Spent
                                            Housing Programs under TARP                                  $45.6                               $1.0                             $44.6
                                            CPP                                                          204.9                              204.9                                 0.0
                                            CDCI                                                             0.6                               0.6                               0.0a
                                            SSFI                                                           69.8                              47.5                              22.3b
                                            TIP                                                            40.0                              40.0                                 0.0
                                            AGP                                                              5.0                              0.0  c
                                                                                                                                                                                 0.0c
                                            TALF                                                             4.3                               0.1                                4.2
                                            PPIP                                                           22.4                              15.6                                6.9d
                                            UCSB                                                             0.4                               0.4                                0.0
                                            Automotive Industry Support
                                                                                                           81.8                              79.7                                 2.1
                                            Programs (AIFP, ASSP, and AWCP)e
                                            Total                                                     $474.8                             $389.8                              $80.0f

                                            Notes: Numbers may not total due to rounding. Obligation figures are as of 10/3/2010 and expenditure figures are as of 12/31/2010.
                                            a
                                              CDCI obligation amount of $570.1 million. There are no remaining dollars to be spent on CDCI. Of the total obligation, $363.3 million
                                            was related to CPP conversions and $206.7 million was related to expenditures for new TARP participants or as an additional invest-
                                            ment in the CPP conversions.
                                            b
                                               Does not reflect AIG recapitalization, which resulted in the expenditure of an additional $20.3 billion. As of January 14, 2011, $2.0
                                            billion remains available to be spent.
                                            c
                                              AGP did not have an initial outlay of cash.
                                            d
                                              Total obligation of $22.4 billion and expenditure of $15.6 billion for PPIP includes $356.3 million of the initial obligation to The TCW
                                            Group, Inc. (“TCW”) that was funded. TCW subsequently repaid the funds that were invested in its PPIF; however, these dollars are not
                                            included in the amount available to be spent.
                                            e
                                              Includes $80.7 billion for AIFP, $0.6 billion for AWCP, and $0.4 billion for ASSP.
                                            f
                                              The $5 billion reduction in exposure under AGP is not included in the expenditure total since this amount was not an actual cash outlay,
                                            as noted in Note c.

                                            Source: Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-trans-
                                            actions/DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011; Treasury,
                                            response to SIGTARP data call, 1/7/2011.


                                            expended up to the obligated amount. No new obligations may be made for TARP
                                            programs. Table 2.1 provides a breakdown of program obligations, expenditures,
                                            and obligations available to be spent as of December 31, 2010. Table 2.1 lists 10
                                            TARP subprograms, instead of all 13, because it excludes CAP, which was never
                                            funded, and because Automotive Industry Support Programs include all three
                                            automotive programs.

                                            Cost Estimates
                                            Several Government agencies are responsible under EESA for generating cost
                                            estimates for TARP, including the Office of Management and Budget (“OMB”), the
                                            Congressional Budget Office (“CBO”), and Treasury, whose estimated costs are an-
                                            nually audited by the Government Accountability Office (“GAO”). Beginning with
                                            OMB’s August 2009 cost estimate of a $341 billion loss, the cost estimates have
                                                                              quarterly report to congress I JANUARY 26, 2011          41




continued to decrease.16 In the past quarter, OMB, CBO, and Treasury have each
issued new estimates.
     On October 15, 2010, OMB reduced its estimate of TARP’s cost to $113 bil-
lion, based on data as of May 31, 2010.17
     On November 29, 2010, CBO issued an updated TARP cost estimate based on
its evaluation as of November 18, 2010.18 CBO estimated that the ultimate cost of
TARP will be $25 billion.19
     On November 15, 2010, Treasury issued its fiscal year 2010 TARP audited                  Pro Forma: In finance, refers to the
agency financial statements, which contained its cost estimate as of September 30,            presentation of hypothetical financial
2010.20 Treasury estimated that the ultimate cost of TARP will be $78 billion, down           information assuming that certain
from its previous cost estimates of $101 billion on May 31, 2010, and $105 billion            events will happen.
on March 31, 2010.21 In its November document, Treasury also prepared a pro
forma TARP cost estimate based on the then proposed restructuring of Treasury’s
and the Federal Reserve’s investment in AIG under SSFI, the terms of which were
initially announced on September 30, 2010.
     According to Treasury, the effects of this restructuring are expected to reduce
the cost of SSFI to an estimated $5 billion (as opposed to a $37 billion anticipated
loss under Treasury’s traditional audited standard for assessing its potential loss
on SSFI) and the estimated lifetime cost of TARP to $46 billion.22 The pro forma
estimate assumed that Treasury’s preferred stock investment would be converted
to common stock at AIG’s market price on October 1, 2010. By the terms of the
restructuring, which closed on January 14, 2011, Treasury’s ultimate recovery of
TARP funds from AIG is expected to be realized by a sale of that common stock,
which may occur at a higher or lower market price.23
     For more information on the AIG recapitalization, see the “Systemically
Significant Failing Institutions Program” discussion in this section. The most
recent TARP program cost estimates from each agency are listed in
Table 2.2.
     According to Treasury, the highest losses from TARP are expected to come
primarily from housing programs, assistance to the automotive industry, and,
potentially, SSFI.24 OMB estimates a higher cost for SSFI and AIFP; however, its
estimates do not take into account the AIG restructuring or General Motors’ recent
initial public offering.25 A notable difference also exists between CBO’s estimate
for TARP’s housing programs, which assumes that only $12.0 billion of the $45.6
billion obligated will be spent, and Treasury’s continued assertion that it will expend
all of the obligated funds.26
42               special inspector general I troubled asset relief program




     Table 2.2

     COST (GAIN) OF TARP PROGRAMS ($ BILLIONS)
                                                                                                                                                                         Treasury Estimate,
                                                                                                                                 Treasury Estimate,                  TARP Agency Financial
                                                                                                                               Audited TARP Agency                 Report (pro forma for AIG
     Program Name                                                    OMB Estimate                     CBO Estimate                  Financial Report                        Recapitalization)
     Report issued:                                                    10/15/2010                     11/29/2010b                          11/15/2010                          11/15/2010
     Data as of:                                                        5/31/2010a                     11/18/2010                            9/30/2010                          9/30/2010c
     Housing Programs                                                               $46                             $12                                 $46                                 $46
     Capital Purchase Program                                                         (3)                           (15)                                (11)                                (11)
     Systemically Significant Failing
                                                                                      48                              14                                     37                                5
     Institutions
     Targeted Investment Program and Asset
                                                                                      (7)                             (7)                                    (8)                              (8)
     Guarantee Program
     Automotive Industry Support Programsh                                            30                              19                                     15                              15
     Term Asset Lending Facility                                                      (1)                               1                                     0                                0
     Public-Private Investment Program                                                 1                                0                                    (1)                              (1)
     Otherd                                                                            *                                *                                     *                                *
     Total                                                                       $113f                             $25e                                $78g                               $46g
     Notes: Numbers may not total due to rounding.
     a
       The estimate takes into account the statutory effects of the Dodd-Frank Act, which became law on 7/21/2010.
     b
       CBO’s estimates are derived from data as of 11/18/2010, except for the PPIP and the mortgage programs, which reflect transactions as of 10/31/2010.
     c
       Data as of 9/30/2010, with the exception of SSFI, which includes pro forma data as of 10/1/2010.
     d
       Consists of CDCI and UCSB, both of which have an estimated cost between –$500 million and $500 million.
     e
       The estimate does not include administrative costs or calculations of interest.
     f
       The estimate includes administrative costs and interest effects of $12 billion.
     g
       The estimate includes interest on re-estimates but excludes administrative costs.
     h
       Includes AIFP, ASSP, and AWCP.

     Sources: CBO Estimate: CBO, “Report on the Troubled Asset Relief Program—November 2010,” 11/2010, www.cbo.gov/ftpdocs/119xx/doc11980/11-29-TARP.pdf, accessed 11/30/2010; CBO, response
     to SIGTARP data call, 1/3/2011; OMB Estimate: OMB, “OMB Report under the Emergency Economic Stabilization Act, Section 202,” 10/15/2010, www.whitehouse.gov/sites/default/files/OMB212Sharp_
     omb_eop_gov_20101015_175127.pdf, accessed 12/14/2010; Treasury Estimate: Treasury, “Office of Financial Stability Agency Financial Report—Fiscal Year 2010,” 9/30/2010,
     www.financialstability.gov/docs/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 11/17/2010.
                                                                                quarterly report to congress I JANUARY 26, 2011                                43




FINANCIAL OVERVIEW OF TARP
                                                                                              Figure 2.1
The enactment of the Dodd-Frank Act reduced TARP’s maximum investment
                                                                                              CUMULATIVE TARP OBLIGATIONS,
authority from $698.8 billion to $475.0 billion.27 The $698.8 billion represented             EXPENDITURES, REPAYMENTS, AND
the initial $700.0 billion authorized for TARP by EESA less a $1.2 billion reduc-             REDUCTIONS IN EXPOSURE
                                                                                              ($ BILLIONS)
tion as a result of the Helping Families Save Their Homes Act of 2009.28 Treasury
has obligated $474.8 billion of the $475.0 billion. Of the total obligations, $389.8
                                                                                              $500
billion was expended as of December 31, 2010, through 13 announced programs
                                                                                                        $474.8
intended to support U.S. financial institutions, companies, and individual mortgage            400
borrowers.29                                                                                                                $389.8               $240.4
     As of December 31, 2010, 148 TARP recipients had repaid all or a portion of               300

their principal or repurchased their shares, for a total of $235.4 billion returned to         200
Treasury and a $5.0 billion reduction in Government exposure.30 As of December
31, 2010, $149.4 billion of TARP funds remained outstanding, and $80.0 billion                 100

was still available to be spent. When including the January 14, 2011, AIG recapi-
talization, an additional $20.3 billion of TARP funds is outstanding, with $59.7                      TARP                 TARP                TARP
                                                                                                      Obligationsa         Expendituresb       Repayments
billion still available to be spent.31 Figure 2.1 provides a snapshot of the cumulative                                                        and
obligations, expenditures, repayments, and exposure reductions as of December 31,                                                              Reductions
                                                                                                                                               in Exposurec
2010.
                                                                                              Notes: Numbers may not total due to rounding. Obligations
     As of December 31, 2010, the Government had also collected $35.2 billion                 reported as of 10/3/2010. Expenditures and repayments
                                                                                              and reductions in exposure reported as of 12/31/2010.
in interest, dividends, and other income, including approximately $10.2 billion               a
                                                                                                Treasury experienced a $2.6 billion loss on some
                                                                                                investments under the Capital Purchase Program (“CPP”).
in proceeds from the sale of warrants and stock received as a result of exercised             b
                                                                                                Expenditure total does not include $5.0 billion for AGP as
                                                                                                this amount was not an actual cash outlay.
warrants.32                                                                                   c
                                                                                                Repayments include $167.9 billion for CPP, $40.0 billion for
                                                                                                TIP, $26.9 billion for auto programs, and $0.6 billion for
     Most of the outstanding TARP money is in the form of equity ownership in                   PPIP. The $5.0 billion reduction in exposure under AGP is
                                                                                                not included in the expenditure total since this amount was
troubled, or previously troubled, companies. Treasury (and therefore the tax-                   not an actual cash outlay.
payer) remains a shareholder in companies that have not repaid the Government.                Sources: Treasury, Transactions Report, 12/31/2010;
                                                                                              Treasury, TARP/Financial Stability Plan Budget Table 1/3/11,
Treasury’s equity ownership is largely in two forms — common and preferred stock              accessed 1/4/11.
— although it also has received debt in the form of senior subordinated debentures.




 Common Stock: Equity ownership entitling     Preferred Stock: Equity ownership that         Senior Subordinated Debentures: Debt
 an individual to share in corporate earn-    usually pays a fixed dividend before distri-   instrument ranking below senior debt but
 ings and voting rights.                      butions for common stock owners but only       above equity with regard to investors’
                                              after payments due to debt holders and         claims on company assets or earnings.
                                              depositors. It typically confers no voting     Senior debt holders are paid in full before
                                              rights. Preferred stock also has priority      subordinated debt holders are paid. There
                                              over common stock in the distribution          may be additional distinctions of priority
                                              of assets when a bankrupt company is           among subordinated debt holders.
                                              liquidated.
44                special inspector general I troubled asset relief program




 Figure 2.2
                                                                             As of December 31, 2010, and prior to the AIG recapitalization, obligated funds
 TARP OBLIGATIONS OUTSTANDING,
                                                                         totaling $80 billion were still available to be drawn down by TARP recipients under
 REPAYMENTS, AND REDUCTIONS IN
 EXPOSURE BY SUPPORT CATEGORY                                            five of TARP’s 13 announced programs.33 TARP’s component programs fall into
 ($ BILLIONS)                                                            four categories, depending on the type of assistance offered:

 300                                                                     •	 Homeowner Support Programs — These programs are intended to help hom-
 250                                                                        eowners who are having trouble making their mortgage payments by subsidizing
 200                     $212.9                                             loan modifications, loan servicer costs, potential equity declines, and incentives
 150                                                                        for foreclosure alternatives.
 100
                                                                         •	 Financial Institution Support Programs — These programs share a common
                                                         $26.9
                                                                            stated goal of stabilizing financial markets and improving the economy.
     50                  $107.4            $0.6
          $45.6                                          $54.9           •	 Asset Support Programs — These programs attempt to support asset values
      0                                  $26.5
          Homeowner Financial   Asset                   Automotive          and market liquidity by providing funding to certain holders or purchasers of
          Support   Institution Support                 Industry            assets.
          Program a
                    Support     Programsc               Support
                    Programsb                           Programsd        •	 Automotive Industry Support Programs — These programs are intended to
                                                                            stabilize the American automotive industry and promote market stability.
             Obligations Outstanding
             Repayments and Reductions in Exposure
                                                                            Figure 2.2 shows how TARP funding is distributed among the four program
 Notes: Numbers may not total due to rounding. Obligations as of
 10/3/2010, and repayments as of 12/31/2010.                             categories.
 a
   Includes MHA.
 b
   CPP, CDCI, SSFI, TIP, and AGP. Repayments are composed of
   $167.9 billion for CPP, $40.0 billion for TIP, and a $5.0 billion
   reduction in exposure under AGP. Does not include the                 Homeowner Support Programs
   1/14/2011 recapitalizations of AIG under SSFI.
 c
   TALF, PPIP, and UCSB. Repayments are composed of                      The stated purpose of TARP’s homeowner support programs is to help homeown-
   $0.6 billion for PPIP.
 d
   AIFP, ASSP, and AWCP. Repayments are composed of                      ers and financial institutions that hold troubled housing-related assets. Although
   $25.8 billion for AIFP, $0.4 billion for ASSP, and $0.6 billion for
   AWCP.                                                                 Treasury originally committed to use $50.0 billion in TARP funds for these pro-
 Sources: Treasury, Transactions Report, 12/31/2010; Treasury,           grams, it obligated only $45.6 billion.34
 TARP/Financial Stability Plan Budget Table, 1/3/11, accessed
 1/4/11.
                                                                         •	 Making Home Affordable (“MHA”) Program — According to Treasury, this
                                                                            foreclosure mitigation effort is intended to “help bring relief to responsible
                                                                            homeowners struggling to make their mortgage payments, while preventing
                                                                            neighborhoods and communities from suffering the negative spillover effects of
                                                                            foreclosure, such as lower housing prices, increased crime, and higher taxes.”35
                                                                            MHA, for which Treasury has obligated $29.9 billion, has many components,
                                                                            including several funded through TARP: the Home Affordable Modification
                                                                            Program (“HAMP”), the Federal Housing Administration (“FHA”) HAMP loan
                                                                            modification option for FHA-insured mortgages (“Treasury FHA-HAMP”), the
                                                                            U.S. Department of Agriculture Rural Housing Service’s Rural Development
                                                                            (“RD”) HAMP (“RD-HAMP”), and the Second Lien Modification Program
                                                                            (“2MP”).36 HAMP in turn encompasses various initiatives in addition to the
                                                                            modification of first-lien mortgages, including the Home Affordable Foreclosure
                                                                            Alternatives (“HAFA”) program, the Home Price Decline Protection (“HPDP”)
                                                                            program, the Home Affordable Unemployment Program (“UP”), and the
                                                                              quarterly report to congress I JANUARY 26, 2011   45




   Principal Reduction Alternative (“PRA”) program. HAMP is intended to help
   homeowners with mortgage modifications and foreclosure-prevention efforts.37
   Additionally, part of the overall MHA obligation of $29.9 billion includes $2.7
   billion to support the Treasury/FHA Second Lien Program (“FHA2LP”), which
   complements the FHA Short Refinance program and is intended to support the
   extinguishment of second-lien loans.38
   	      As of December 31, 2010, HAMP had expended $1.0 billion of TARP
   money.39 Total expenditures in incentives and payments for HAFA were $9.5
   million in connection with 2,181 deed-in-lieu and short sale transactions.
   Expenditures in incentives and payments for 2MP were $2.9 million in con-
   nection with 141 full extinguishments, 2 partial extinguishments, and 3,114
   permanent modifications of second liens.40 As of December 31, 2010, there
   were 237,516 active permanent first-lien modifications under the completed
   TARP-funded portion of the program, an increase of 30,782 active permanent
   modifications over the past quarter.41 In addition, the Government-sponsored
   enterprises (“GSEs”) have provided 284,114 active permanent modifications
   using $655.9 million in non-TARP funds, an increase of 24,140 over the past
   quarter.42 See the “Making Home Affordable Programs” discussion in this sec-
   tion for more detailed information, including participation numbers for each of
   the MHA programs and subprograms.
•	 Housing Finance Agency (“HFA”) Hardest-Hit Fund — The stated purpose
   of this program was to provide TARP funds to create “measures to help fami-
   lies in the states that have been hit the hardest by the aftermath of the burst of
   the housing bubble.”43 Treasury obligated $7.6 billion for this program in four
   increments: an initial amount of $1.5 billion made available on June 23, 2010;
   a second amount of $600.0 million made available on August 3, 2010; a third
   amount of $2.0 billion made available on September 23, 2010; and a final $3.5
   billion made available on September 29, 2010.44 As of December 31, 2010,
   $103.6 million had been drawn down by the states for the Hardest-Hit Fund.45
   See the “Making Home Affordable Programs” discussion in this section for more
   detailed information.
•	 FHA Short Refinance — Treasury estimates that this program will use $10.8
   billion of TARP funds, which includes approximately $8.1 billion to purchase a
   letter of credit to provide loss protection on refinanced first liens. Additionally,
   to facilitate the refinancing of new FHA-insured loans under this program,
   Treasury has allocated approximately $2.7 billion in TARP funds for incentive
   payments to servicers and holders of existing second liens for full or partial
   principal extinguishments under the related FHA2LP; these funds are part of
   the overall HAMP funding of $29.9 billion, as noted above.46 As of December
   31, 2010, there had been 15 refinancings under the program.47 See the “Making
   Home Affordable Programs” discussion in this section for more detailed
   information.
46             special inspector general I troubled asset relief program




                                                      Financial Institution Support Programs
                                                      Treasury primarily invests capital directly into the financial institutions it aids.
                                                      For TARP purposes, financial institutions included banks, bank holding compa-
                                                      nies, and, if deemed critical to the financial system, some systemically significant
     Systemically Significant: Term refer-
                                                      institutions.48
     ring to any financial institution whose
     failure would impose significant losses
     on creditors and counterparties, call            •	 Capital Purchase Program (“CPP”) — Under CPP, Treasury directly pur-
     into question the financial strength of             chased preferred stock or subordinated debentures in qualifying financial insti-
     similar institutions, disrupt financial             tutions (“QFIs”).49 CPP was intended to provide funds to “stabilize and strength-
     markets, raise borrowing costs for                  en the U.S. financial system by increasing the capital base of an array of healthy,
     households and businesses, and re-                  viable institutions, enabling them [to] lend to consumers and business[es].”50
     duce household wealth (also commonly                Treasury invested $204.9 billion in 707 institutions through CPP; $167.9 billion
     used to describe institutions “too big              had been repaid as of December 31, 2010, leaving an outstanding balance of
     to fail”).                                          $37.0 billion.51 Of the repaid amount, $363.3 million was converted from CPP
                                                         investments into CDCI and therefore still represents outstanding obligations to
     Qualifying Financial Institutions (“QFIs”):
                                                         TARP.52 CPP closed on December 29, 2009.53 Treasury continues to manage
     Private and public U.S.-controlled
                                                         its portfolio of CPP investments, including, for certain struggling institutions,
     banks, savings associations, bank
                                                         converting its preferred equity ownership into a more junior form of equity
     holding companies, certain savings and
     loan holding companies, and mutual                  ownership, often at a discount to par value (which may result in a loss) in an at-
     organizations.                                      tempt to preserve some value that might be lost if these institutions were to fail.
                                                         See the “Capital Purchase Program” discussion in this section for more detailed
     Community Development Financial                     information.
     Institutions (“CDFIs”): Financial institu-       •	 Community Development Capital Initiative (“CDCI”) — Under CDCI,
     tions eligible for Treasury funding to              Treasury used TARP money to buy preferred stock or subordinated debt in
     serve urban and rural low-income                    Community Development Financial Institutions (“CDFIs”). Treasury intended
     communities through the CDFI Fund.                  for CDCI to “improve access to credit for small businesses in the country’s
     CDFIs were created in 1994 by the                   hardest-hit communities.”54 Under CDCI, TARP made capital investments in
     Riegle Community Development and
                                                         the preferred stock or subordinated debt of eligible banks, bank holding compa-
     Regulatory Improvement Act. These
                                                         nies, thrifts, and credit unions.55 Eighty-four institutions have received $570.1
     entities must be certified by Treasury;
                                                         million in funding under CDCI.56 However, 28 of these institutions converted
     certification confirms that they target
                                                         their existing CPP investment into CDCI and 10 of those that converted re-
     at least 60% of their lending and other
     economic development activities to ar-              ceived additional funding under CDCI.57
     eas underserved by traditional financial         •	 Small Business Lending Fund (“SBLF”) — On September 27, 2010, the
     institutions.                                       President signed into law the Small Business Jobs Act of 2010, which created
                                                         the $30 billion Small Business Lending Fund. The Administration intends for
                                                         the fund to stimulate small-business lending.58 Under SBLF, Treasury invests
                                                         capital in banks that have less than $10 billion in assets in return for preferred
                                                         shares, in a manner similar to that followed under CPP and CDCI, albeit
                                                         with incentives to increase certain types of lending and with fewer governance
                                                                             quarterly report to congress I JANUARY 26, 2011              47




   provisions.59 On December 20, 2010, Treasury issued guidelines under which
   CPP and CDCI recipients can refinance into SBLF.60 Although this program
   operates outside of TARP, many TARP recipients will likely convert their invest-
   ments from CPP to SBLF and thus benefit from a lower dividend rate and more
   relaxed governance restrictions.61 See the “Small Business Lending Initiatives”
   discussion in this section for more detailed information.
•	 Systemically Significant Failing Institutions Program — SSFI enabled
   Treasury to invest in systemically significant institutions to prevent them from
   failing.62 Only one firm received SSFI assistance: AIG. There were two TARP in-
   vestments in AIG. On November 25, 2008, Treasury bought $40 billion of AIG’s
   preferred stock, the proceeds of which were used to repay a portion of AIG’s
   debt to the Federal Reserve Bank of New York (“FRBNY”). Then, on April 17,
   2009, Treasury obligated approximately $29.8 billion to an equity capital facility
   that AIG has been allowed to draw on as needed.63
   	      On January 14, 2011, AIG completed a series of several integrated
   transactions, the Recapitalization Plan, with the intent to facilitate the govern-
   mental monetization of its loans and investments in AIG.64 In carrying out the
   Recapitalization Plan:
   0	 AIG repaid and terminated its revolving credit facility with FRBNY with cash
       proceeds that it had received from AIG’s sales of equity interests in two
       special purpose vehicles (“SPVs”), American International Assurance Co.,
       Ltd. (“AIA”) and American Life Insurance Company (“ALICO”).65
   0	 AIG drew down an additional $20.3 billion in available TARP funds from
       the equity capital facility and purchased an equivalent amount of FRBNY’s             Special Purpose Vehicle (“SPV”):
       preferred interest in the AIA and ALICO SPVs, which was then provided to              Off-balance-sheet legal entity that
       Treasury. At the closing of the Recapitalization Plan, AIG exercised the right        holds transferred assets presumptively
       to designate the remaining $2 billion of the TARP Series F equity capital             beyond the reach of the entities
       facility as a new Series G stand-by equity commitment available for general           providing the assets.
       corporate purposes.66 FRBNY’s remaining $6.1 billion interest in the SPVs
       was then redeemed by AIG for cash.67
   0	 AIG issued common stock in exchange for the then outstanding $49.1 billion
       in preferred stock and accrued dividends that Treasury acquired through                See the “Systemically Significant Failing
                                                                                              Institutions” portion of this section
       TARP investments in AIG and the 79.8% ownership interest in AIG (held in
                                                                                              for a detailed discussion of the AIG
       the form of preferred stock) received by FRBNY. The conversion of the TARP             transactions.
       preferred stock provided the Government with an additional incremental
       12% ownership interest in AIG, bringing the total common equity ownership
       to approximately 92.1%.68
48            special inspector general I troubled asset relief program




                                                     •	 Targeted Investment Program (“TIP”) — Through TIP, Treasury invested in
                                                        financial institutions it deemed critical to the financial system.69 There were
                                                        two expenditures under this program totaling $40 billion — the purchases of
                                                        $20 billion each of senior preferred stock in Citigroup Inc. (“Citigroup”) and
                                                        Bank of America Corp. (“Bank of America”).70 Treasury also accepted com-
                                                        mon stock warrants from each, as required by EESA. Both banks fully repaid
                                                        Treasury for their respective TIP investments.71 Treasury auctioned its Bank of
                                                        America warrants on March 3, 2010, and has announced its intention to sell
                                                        its Citigroup warrants in a public auction in the first quarter of 2011.72 See the
                                                        “Targeted Investment Program and Asset Guarantee Program” portion of this
                                                        section for more information on these two transactions.
                                                     •	 Asset Guarantee Program (“AGP”) — AGP was designed to provide insur-
                                                        ance-like protection for a select pool of mortgage-related or similar assets held
     Senior Preferred Stock: Shares that                by participants whose portfolios of distressed or illiquid assets threatened market
     give the stockholder priority dividend             confidence.73 Treasury, the Federal Deposit Insurance Corporation (“FDIC”),
     and liquidation claims over junior pre-            and the Federal Reserve offered certain loss protections in connection with
     ferred and common stockholders.                    $301 billion in troubled Citigroup assets.74 In exchange for providing the loss
                                                        protection, Treasury received $4 billion of preferred stock that was later con-
     Illiquid Assets: Assets that cannot be             verted to trust preferred securities (“TRUPS”) on a dollar-for-dollar basis. The
     quickly converted to cash.
                                                        FDIC received $3 billion of preferred stock that was similarly converted.75 On
                                                        December 23, 2009, in connection with Citigroup’s TIP repayment, Citigroup
     Trust Preferred Securities (“TRUPS”):
                                                        and the Government terminated the AGP agreement. Under the agreement,
     Securities that have both equity and
     debt characteristics, created by estab-
                                                        Treasury’s guarantee commitment was terminated with no loss on the pro-
     lishing a trust and issuing debt to it.            tected assets. In addition, Treasury agreed to cancel $1.8 billion of the TRUPS
                                                        issued by Citigroup, reducing the amount of preferred stock from $4.0 billion
     Asset-Backed Securities (“ABS”): Bonds             to $2.2 billion, in exchange for early termination of the guarantee. Additionally,
     backed by a portfolio of consumer                  the FDIC and Treasury agreed that at the close of Citigroup’s participation in
     or corporate loans, e.g., credit card,             the FDIC’s Temporary Liquidity Guarantee Program, the FDIC will transfer
     auto, or small-business loans. Financial           $800 million of TRUPS that it retained as a premium to Treasury if no loss is
     companies typically issue ABS backed               suffered.76 On September 30, 2010, Treasury announced the sale of all of its
     by existing loans in order to fund new             TRUPS for $2.2 billion in gross proceeds, which represents a profit to taxpay-
     loans for their customers.                         ers.77 See the “Targeted Investment Program and Asset Guarantee Program”
                                                        discussion in this section for more information on this program.

                                                     Asset Support Programs
                                                     The stated purpose of these programs was to support the liquidity and market value
                                                     of assets owned by financial institutions. These assets included various classes of
                                                     asset-backed securities (“ABS”) and several types of loans. Treasury’s asset support
                                                     programs sought to bolster the balance sheets of financial firms and help free capi-
                                                     tal so that these firms could extend more credit to support the economy.
                                                                             quarterly report to congress I JANUARY 26, 2011               49




•	 Term Asset-Backed Securities Loan Facility (“TALF”) — TALF was origi-
   nally designed to increase credit availability for consumers and small businesses
   through a $200 billion Federal Reserve loan program. TALF provided inves-
   tors with non-recourse loans secured by certain types of ABS, including credit
   card receivables, auto loans, equipment loans, student loans, floor plan loans,
   insurance-premium finance loans, loans guaranteed by the Small Business
   Administration (“SBA”), residential mortgage servicing advances, and
   commercial mortgage-backed securities (“CMBS”).78 The last subscription
   for newly issued CMBS was settled June 28, 2010; this marked the program’s
   closure to new loans.79 FRBNY facilitated 13 TALF subscriptions of non-
   mortgage-related ABS over the life of the program totaling approximately $59.0
                                                                                             Commercial Mortgage-Backed
   billion, with $20.5 billion of TALF borrowings outstanding as of December
                                                                                             Securities (“CMBS”): Bonds backed by
   31, 2010.80 FRBNY also conducted 13 CMBS subscriptions totaling $12.1                     one or more mortgages on commercial
   billion, with $4.2 billion in loans outstanding as of December 31, 2010.81                real estate (e.g., office buildings, rental
   Treasury originally obligated $20 billion of TARP funds to support this program           apartments, hotels).
   by providing loss protection to the loans extended by FRBNY in the event that
   a borrower surrendered the ABS collateral and walked away from the loan.82                Legacy Securities: Real estate-related
   As of December 31, 2010, there had been no surrender of collateral. Treasury              securities lingering on the balance
   reduced its obligation for TALF to $4.3 billion based on the amount of loans              sheets of financial institutions because
   outstanding at the end of the active lending phase of the program in June 2010.           of pricing difficulties that resulted from
   As of December 31, 2010, $100 million in TARP funds had been allocated                    market disruption.
   under TALF for administrative expenses.83 An overview of TALF later in this sec-
                                                                                             Residential Mortgage-Backed Securi-
   tion provides more information on these activities.
                                                                                             ties (“RMBS”): Bonds backed by a pool
•	 Public-Private Investment Program (“PPIP”) — PPIP’s goal was to restart
                                                                                             of mortgages for residential real estate
   credit markets by using a combination of private equity, matching Government
                                                                                             (e.g., home mortgages for residences
   equity, and Government debt to purchase legacy securities, i.e., CMBS and                 with up to four dwelling units).
   residential mortgage-backed securities (“RMBS”).84 Under the program, eight
   Public-Private Investment Funds (“PPIFs”) managed by private asset managers
   invested in RMBS and CMBS. Although Treasury initially pledged up to $30.0
   billion for PPIP, the obligation is now limited to $22.4 billion.85 As of December
   31, 2010, the PPIFs had drawn down $15.6 billion in debt and equity financ-
   ing from Treasury funding out of the total obligation, which includes $592.8
   million that has been repaid.86 As the PPIFs continue to make purchases, they
   will continue to have access to the remaining funding through the end of their
   respective investment periods, the last of which will close in December 2012.87
   See the “Public-Private Investment Program” discussion later in this section for
   details about the program structure and fund-manager terms.
•	 Unlocking Credit for Small Businesses (“UCSB”)/Small Business
   Administration Loan Support Initiative — In March 2009, Treasury officials
   announced that Treasury would buy up to $15 billion in securities backed by
50            special inspector general I troubled asset relief program




                                                        SBA loans under UCSB.88 Treasury entered into an agreement with two pool
                                                        assemblers, Coastal Securities, Inc. (“Coastal Securities”) and Shay Financial
                                                        Services, Inc. (“Shay Financial”).89 Under the agreements, Treasury’s agent,
                                                        Earnest Partners, purchased SBA pool certificates from Coastal Securities and
                                                        Shay Financial without confirming to the counterparties that Treasury was the
                                                        buyer.90 Treasury obligated a total of $400.0 million for UCSB and has made
     SBA Pool Certificate: Ownership                    purchases of $368.1 million in securities under the program. See the discussion
     interest in a bond backed by SBA-                  of “Unlocking Credit for Small Businesses/Small Business Administration Loan
     guaranteed loans.                                  Support” in this section for more information on the program.

                                                     Automotive Industry Financing Program (“AIFP”)
                                                     TARP’s automotive industry support through AIFP aimed to “prevent a significant
                                                     disruption of the American automotive industry, which would pose a systemic
                                                     risk to financial market stability and have a negative effect on the economy of the
                                                     United States.”91
                                                         Through AIFP, Treasury made emergency loans to Chrysler Holding LLC
                                                     (“Chrysler”), Chrysler Financial Services Americas LLC (“Chrysler Financial”),
                                                     and GM. Additionally, Treasury bought senior preferred stock from GMAC Inc.
                                                     (“GMAC”), which was later renamed Ally Financial Inc. (“Ally Financial”), and
                                                     assisted Chrysler and GM during their bankruptcy restructurings. Treasury initially
                                                     allocated $84.8 billion to AIFP, then reduced the total obligation to $81.8 billion.92
                                                     As of December 31, 2010, $79.7 billion had been disbursed through AIFP and
                                                     $26.9 billion had been repaid. These investments paid an additional $3.4 billion in
                                                     dividends, interest, and other income. These figures include the amounts related to
                                                     AIFP, ASSP, and AWCP.93
                                                         With respect to AIFP support to GM, in return for a total of $49.5 billion in
                                                     loans, Treasury received $6.7 billion in debt in New GM (which was subsequently
                                                     repaid) in addition to $2.1 billion in preferred stock and a 60.8% common equity
                                                     stake.94 On December 2, 2010, GM closed an initial public offering in which
                                                     Treasury sold a portion of its ownership stake for $13.5 billion, reducing its owner-
                                                     ship percentage to 33.3% (an amount that could be diluted should GM’s bondhold-
                                                     ers or the United Auto Workers Retiree Medical Benefits Trust exercise warrants
                                                     they received).95 On December 15, 2010, GM repurchased the $2.1 billion in
                                                     preferred stock from Treasury. Treasury’s remaining investment in GM is approxi-
                                                     mately $27.1 billion.96
                                                         With respect to AIFP support to Chrysler, Treasury provided $12.5 billion in
                                                     loans to Chrysler, Inc. (“Old Chrysler”) and Chrysler Group LLC (“New Chrysler”).
                                                     Treasury also received a 9.9% equity stake, which has been diluted to 9.2% after
                                                     Fiat recently increased its ownership interest by meeting certain performance met-
                                                     rics and which may be diluted further.97
                                                                            quarterly report to congress I JANUARY 26, 2011      51




    With respect to AIFP support to Ally Financial, Treasury invested a total of
$17.2 billion. On December 30, 2010, Treasury’s investment was restructured
to provide for a 73.8% common equity stake, $2.7 billion in TRUPS (including
amounts received in warrants that were immediately converted into additional
securities), and $5.9 billion in mandatorily convertible preferred shares.98
    Treasury provided a $1.5 billion loan to Chrysler Financial, which was fully
repaid with interest in July 2009.99
    See “Automotive Industry Support Programs” later in this section for a detailed
discussion of these companies.
    AIFP also included two subprograms:

•	 Auto Supplier Support Program (“ASSP”) — According to Treasury, this
   program was intended to provide auto suppliers “with the confidence they need
   to continue shipping their parts and the support they need to help access loans
   to pay their employees and continue their operations.”100 The original alloca-
   tion of $5.0 billion was reduced to $3.5 billion — $1.0 billion for Chrysler and
   $2.5 billion for GM.101 Of the $3.5 billion available, only $413.1 million was
   borrowed.102 After purchasing substantially all of the assets of Old GM and
   Old Chrysler, New GM and New Chrysler assumed the debts associated with
   ASSP.103 After repayment of all funds expended under ASSP, along with $115.9
   million in interest, fees, and other income, ASSP ended on April 5, 2010, for
   GM and on April 7, 2010, for Chrysler.104 See “Auto Supplier Support Program”
   in this section for more information.
•	 Auto Warranty Commitment Program (“AWCP”) — This program was
   designed to bolster consumer confidence by guaranteeing Chrysler and GM
   vehicle warranties during the companies’ restructuring through bankruptcy. It
   ended in July 2009 after Chrysler fully repaid its AWCP loan of $280.1 mil-
   lion with interest and GM repaid just the principal — $360.6 million — of its
   loan.105
    The following tables and figures summarize the status of TARP and TARP-
related initiatives:
•	 Table 2.3 — total funds subject to SIGTARP oversight as of December 31, 2010
•	 Table 2.4 — obligations/expenditures by program as of December 31, 2010                   For more information on AWCP, see
•	 Figure 2.3 — obligations/expenditures outstanding by program                              SIGTARP’s October 2009 Quarterly
•	 Figure 2.4 — obligations/expenditures outstanding, repayments, and reductions             Report, page 91.
   in exposure, by program
52   special inspector general I troubled asset relief program




                                            •	 Table 2.5 and Table 2.6 — summary of TARP terms and agreements
                                            •	 Table 2.7 — summary of largest warrant positions held by Treasury, by program,
                                               as of December 31, 2010
                                            •	 Table 2.8 — summary of dividends, interest payments, and fees received, by
                                               program, as of December 31, 2010

                                               For a report of all TARP purchases, obligations, expenditures, and revenues, see
                                            Appendix C: “Reporting Requirements.”
                                                                                                                              quarterly report to congress I JANUARY 26, 2011                                       53




Table 2.3

TOTAL FUNDS SUBJECT TO SIGTARP OVERSIGHT, AS OF 12/31/2010 ($ BILLIONS)

Program                                                     Brief Description or Participant                                                           Total Funding ($)                 TARP Funding ($)
Capital Purchase Program (“CPP”)                            Investments in 707 banks to date; received $167.9 billion                                                 $204.9                            $204.9
CLOSED                                                      in capital repayments                                                                                    ($167.9)                          ($167.9)
Automotive Industry Financing Program
                                                            GM, Chrysler, GMAC, Chrysler Financial; received                                                             80.7                               80.7
(“AIFP”)
                                                            $25.8 billion in loan repayments                                                                            (25.8)                             (25.8)
CLOSED
Auto Suppliers Support Program (“ASSP”)                     Government-backed protection for auto parts suppliers;                                                         0.4a                              0.4a
CLOSED                                                      received $0.4 billion in loan repayments                                                                      (0.4)                             (0.4)
Auto Warranty Commitment Program                            Government-backed protection for warranties of cars
                                                                                                                                                                           0.6                               0.6
(“AWCP”)                                                    sold during the GM and Chrysler bankruptcy restructuring
                                                                                                                                                                          (0.6)                             (0.6)
CLOSED                                                      periods
Unlocking Credit for Small Businesses
                                                            Purchase of securities backed by SBA loans                                                                     0.4b                              0.4b
(“UCSB”)
Systemically Significant Failing Institutions
                                                            AIG Investment                                                                                               69.8                              69.8
(“SSFI”)
Targeted Investment Program (“TIP”)                                                                                                                                      40.0                               40.0
                                                            Citigroup, Bank of America Investments
CLOSED                                                                                                                                                                  (40.0)                             (40.0)
Asset Guarantee Program (“AGP”)                                                                                                                                        301.0                                 5.0
                                                            Citigroup, asset guarantee
CLOSED                                                                                                                                                                (301.0)                               (5.0)
Term Asset-Backed Securities Loan Facility
                                           FRBNY non-recourse loans for purchase of asset-backed                                                                         71.1                                4.3c
(“TALF”)
                                           securities                                                                                                                   (46.4)                              (0.0)
CLOSED
Housing Programs under TARP                                 Modification of mortgage loans                                                                               70.6d                             45.6e
Community Development Capital Initiative
                                                            Investments in Community Development Financial
(“CDCI”)                                                                                                                                                                   0.6                               0.6
                                                            Institutions (“CDFIs”)
CLOSED
                                                                                                                                                                         29.8f                             22.4g
Public-Private Investment Program (“PPIP”) Disposition of legacy assets; Legacy Securities Program
                                                                                                                                                                          (0.6)                             (0.6)
Total Obligations                                                                                                                                                    $869.9                            $474.8

Notes: Numbers may not total due to rounding. Numbers in red represent repayments and reductions in exposure as of 12/31/2010.
a
  Treasury’s original commitment under this program was $5 billion, which was reduced to $3.5 billion effective 7/1/2009. Of the $3.5 billion available, only $413 million was borrowed.
b
  Treasury reduced commitment from $15 billion to an obligation of $400 million.
c
  Treasury reduced obligation from $20 billion to $4.3 billion.
d
  Program was initially announced as a $75 billion initiative with $50 billion funded through TARP. Treasury reduced the commitment from $50 billion to an obligation of $45.6 billion; therefore, including the
  $25 billion estimated to be spent by the Government-sponsored enterprises, the total program amount is $70.6 billion.
e
  Treasury reduced commitment from $50 billion to an obligation of $45.6 billion.
f
  PPIP funding includes $7.4 billion of private-sector equity capital. Includes $0.4 billion of initial obligations to The TCW Group, Inc., which has been repaid.
g
  Treasury reduced commitment from $30 billion to approximately $22.4 billion in debt and equity obligations to the Public-Private Investment Funds.

Sources: Treasury, Transactions Report, 12/31/2010; Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 1/16/2009, www.treasury.gov/press-center/
press-releases/Pages/hp1358.aspx, accessed 1/20/2011; FRBNY, response to SIGTARP data call, 1/5/2011; Treasury, “Making Home Affordable Updated Detailed Program Description,” 3/4/2009, www.
treasury.gov/press-center/press-releases/Documents/housing_fact_sheet.pdf, accessed 7/2/2010; Treasury, “Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended Sep-
tember 30, 2010,” 10/20/2010, www.treasury.gov/initiatives/financial-stability/investment-programs/PPIP/S-PPIP/Documents/External%20Report%20-%2009-10%20vFinal.pdf, accessed 1/20/2011.
54               special inspector general I troubled asset relief program




     Table 2.4

     OBLIGATION/EXPENDITURE LEVELS BY PROGRAM, AS OF 12/31/2010                                 ($ BILLIONS)

                                                                          Amount        Percent (%)
     Authorized Under EESA                                             $700.0
     Released Immediately                                                  $250.0             52.6%
     Released Under Presidential Certificate of Need                        100.0             21.1%
     Released Under Presidential Certificate of Need &
                                                                            350.0             73.7%
     Resolution to Disapprove Failed
     Helping Families Save Their Home Act of 2009                               (1.2)         -0.3%
     The Dodd-Frank Act                                                    (223.8)           -47.1%
     Total Released                                                       $475.0           100.0%

                                                                                          Obligation       Repaid/        Obligation/
                                                                                        as Percent        Reduced        Expenditure
     Less: Obligations by Treasury under TARPa                          Obligation      of Released       Exposure       Outstanding      Section Reference
                                                                                                                                         “Financial Institution
     Capital Purchase Program (“CPP”):                                     $204.9             43.1%        ($167.9)
                                                                                                                                         Support Programs”
     CPP Total Gross                                                      $204.9             43.1%        ($167.9)            $37.0
                                                                                                                                         “Financial Institution
     Community Development Capital Initiative (“CDCI”):                         $0.6           0.1%                ­—
                                                                                                                                         Support Programs”
     CDCI Total                                                                 $0.6          0.1%                 —            $0.6
     Systemically Significant Failing Institutions (“SSFI”) Program:                                                                     “Financial Institution
        American International Group, Inc. (“AIG”)                          $69.8             14.7%                —                     Support Programs”
     SSFI Total                                                             $69.8            14.7%                 —          $69.8
     Targeted Investment Program (“TIP”):
                                                                                                                                         “Financial Institution
        Bank of America Corporation                                         $20.0              4.2%            ($20.0)
                                                                                                                                         Support Programs”
        Citigroup, Inc.                                                         20.0           4.2%            ($20.0)
     TIP Total                                                              $40.0             8.4%             ($40.0)            —
     Asset Guarantee Program (“AGP”):                                                                                                    “Financial Institution
        Citigroup, Inc.b                                                        $5.0           1.1%             ($5.0)                   Support Programs”

     AGP Total                                                                  $5.0          1.1%              ($5.0)            —
     Term Asset-Backed Securities Loan Facility (“TALF”):                                                                                “Asset Support
        TALF LLC                                                                $4.3           0.9%                —                     Programs”

     TALF Total                                                                 $4.3          0.9%                 —            $4.3
                                                                                                                                         “Asset Support
     Unlocking Credit for Small Businesses (“UCSB”):                            $0.4           0.1%                —
                                                                                                                                         Programs”
     UCSB Total                                                                 $0.4          0.1%                 —            $0.4
                                                                                                                                        Continued on next page.
                                                                                    quarterly report to congress I JANUARY 26, 2011                 55




obligation/Expenditure Levels by Program, as of 12/31/2010                        (Billions) (Continued)

                                                                            Obligation       Repaid/        Obligation/
                                                                           as Percent       Reduced        Expenditure
Less: Obligations by Treasury under TARPa                    Obligation   of Released       Exposure       Outstanding     Section Reference
Automotive Industry Financing Program (“AIFP”):
    General Motors Corporation (“GM”)                            $49.5          10.4%          ($22.4)
                                                                                                                           “Automotive Industry
    General Motors Acceptance Corporation LLC (“GMAC”)            17.2           3.6%              —                       Support Programs”
    Chrysler Holding LLC                                          12.5           2.6%            (1.9)
    Chrysler Financial Services Americas LLCc                       1.5          0.3%            (1.5)
AIFP Total                                                       $80.7         17.0%          ($25.8)            $54.9
Automotive Supplier Support Program (“ASSP”):
    GM Suppliers Receivables LLCd                                 $0.3           0.1%           ($0.3)                     “Automotive Industry
                                                                                                                           Support Programs”
    Chrysler Holding LLCd                                           0.1          0.0%            (0.1)

ASSP Total                                                        $0.4          0.1%           ($0.4)                —
Automotive Warranty Commitment Program (“AWCP”):
                                                                                                                           “Automotive Industry
    General Motors Corporation (“GM”)                             $0.4           0.1%           ($0.4)                     Support Programs”
    Chrysler Holding LLC                                            0.3          0.1%            (0.3)
AWCP Total                                                        $0.6          0.1%           ($0.6)                —
Legacy Securities Public-Private Investment Program
(“PPIP”)
	Invesco Legacy Securities Master Fund, L.P.                      $2.6           0.5%           ($0.2)
	   Wellington Management Legacy Securities PPIF Master	
                                                                    3.4          0.7%              —
     Fund, LP
	AllianceBernstein Legacy Securities Master Fund, L.P.              3.5          0.7%              —
	Blackrock PPIF, L.P.                                               2.1          0.4%              —                       “Asset Support
                                                                                                                           Programs”
	AG GECC PPIF Master Fund, L.P.                                     3.7          0.8%              —
	    RLJ Western Asset Public/Private Master Fund, L.P.             1.9          0.4%              —
	   Marathon Legacy Securities Public-Private Investment 	
                                                                    1.4          0.3%              —
     Partnership, L.P.
	Oaktree PPIP Fund, L.P.                                            3.5          0.7%              —
	    UST/TCW Senior Mortgage Securities Fund, L.P.    e
                                                                    0.4          0.1%            (0.4)
PPIP Total                                                       $22.4          4.7%           ($0.6)            $21.8

                                                                                                                          Continued on next page.
56                special inspector general I troubled asset relief program




     obligation/Expenditure Levels by Program, as of 12/31/2010                                                             (Billions) (Continued)

                                                                                                                  Obligation               Repaid/               Obligation/
                                                                                                                 as Percent               Reduced               Expenditure
     Less: Obligations by Treasury under TARPa                                         Obligation               of Released               Exposure              Outstanding          Section Reference
     Housing Programs under TARP
          Home Affordable Modification Program (“HAMP”)
          Countrywide Home Loans Servicing LP                                                  $6.3                       1.3%
          Wells Fargo Bank, NA                                                                   5.1                      1.1%
          J.P.Morgan Chase Bank, NA                                                              3.2                      1.3%
          OneWest Bank                                                                           1.8                      0.4%                                                     “Homeowner Support
          Bank of America, N.A.                                                                  1.6                      0.3%                                                     Programs”
          GMAC Mortgage, Inc.                                                                    1.5                      0.3%
          American Home Mortgage Servicing, Inc                                                  1.3                      0.3%
          CitiMortgage, Inc.                                                                     1.1                      0.2%
          Litton Loan Servicing LP                                                               1.1                      0.2%
                Other Financial Institutions                                                     6.9                      1.5%
          Housing Finance Agency: Hardest Hit Funds Program
                                                                                                 7.6                      1.6%
          (“HFA”)
          Treasury FHA Refinance                                                                 8.1                      1.7%
     MHA Total                                                                               $45.6                       9.6%                       —                   $45.6
     TARP Obligations Subtotal                                                             $474.7                    100.0%
     TARP Repayments/Reductions in Exposure Subtotal                                                                                      ($240.4)
     TARP Obligations/Expenditures Outstanding Subtotal                                                                                                               $234.4

     Notes: Numbers affected by rounding. Numbers may not total due to rounding.
     a
       From a budgetary perspective, what Treasury has obligated to spend (e.g., signed agreements with TARP fund recipients).
     b
       Treasury committed $5 billion to Citigroup under AGP; however, the funding was conditional based on losses that could potentially be realized and may potentially never be expended.
       This amount was not an actual outlay of cash.
     c
       Treasury’s $1.5 billion loan to Chrysler Financial represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
     d
       Represents an SPV created by the manufacturer. Balance represents the maxiumum loan amount, which will be funded incrementally. Treasury’s original commitment under this program was $5 billion, but
       subsequently reduced to $3.5 billion effective 7/1/2009. Of the $3.5 billion available, only $413 million was borrowed.
     e
       Treasury selected nine fund management firms to establish PPIFs. One PPIF manager, The TCW Group, Inc., subsequently withdrew. According to Treasury, the current PPIP obligation is $22.4 billion, this
       includes $365.25 million of an initial obligation to TCW that was funded. TCW repaid the funds that were invested in their PPIF.

     Sources: Emergency Economic Stabilization Act, P.L. 110-343, 10/3/2008; Library of Congress, “A joint resolution relating to the disapproval of obligations under the Emergency Economic Stabilization
     Act of 2008,” 1/15/2009, www.thomas.loc.gov, accessed 1/25/2009; Helping Families Save Their Homes Act of 2009, P.L. 111-22, 5/20/2009; Treasury, Transactions Report, 12/31/2010; Treasury,
     response to SIGTARP data call, 10/7/2010; Treasury, Section 105(a) Report, 8/10/2010.
                                                                                                                                               quarterly report to congress I JANUARY 26, 2011                                             57




Figure 2.3
OUTSTANDING OBLIGATIONS/EXPENDITURES, BY PROGRAM, CUMULATIVE
($ BILLIONS)


$400




 300
                                                                                                                                                                                                              $0.6 CDCI
                                                                                                                                                                                                                  a
                                                                                                                                                                                                              $0.4 UCSB
                                                                                                                                                                                                                    b
                                                                                                                                                                                                             $21.8 PPIP
                                                                                                                                                                                                                    c
                                                                                                                                                                                                              $0.0 AGP
 200
                                                                                                                                                                                                             $45.6 Housing Programs
                                                                                                                                                                                                                    d
                                                                                                                                                                                                              $4.3 TALF
                                                                                                                                                                                                                  e
                                                                                                                                                                                                              $0.0 TIP
                                                                                                                                                                                                                  f
 100                                                                                                                                                                                                         $54.9 Auto Programs
                                                                                                                                                                                                                    g
                                                                                                                                                                                                             $69.8 SSFI

                             0                                                                                                                                                                                      h
                                                                                                                                                                                                             $37.0 CPP
   0
    10/31 11/30 12/31 1/31 2/28 3/31 4/30 5/31 6/30 7/31 8/31 9/30 10/31 11/30 12/31 1/31 2/28 3/31 4/30 5/31 6/30 7/31 8/31 9/30 10/31 11/30 12/31

             2008                                                        2009                                                                                       2010                                         CDCI
                                                                                                                                                                                                                 UCSB
       Notes: Numbers may not total due to rounding.                                                                                                                                                             PPIP
       a
         Treasury’s original commitment under this program was $5 billion but subsequently reduced to $3.5 billion effective 7/1/2009 and further reduced to $0.4 billion as of 4/2010.                          AGP
       b
         PPIP funding of $0.6 billion was repaid.                                                                                                                                                                Housing Programs
       c
         Treasury committed $5 billion to Citigroup under AGP; however, the funding was conditional based on losses that could potentially be realized and may potentially never be expended. This
                                                                                                                                                                                                                 TALF
         amount was not an actual cash outlay. It was never disbursed and the agreement was terminated.
       d
         TALF obligation reduced to $4.3 billion.                                                                                                                                                                TIP
       e
         TIP funding of $40 billion has been repaid.                                                                                                                                                             Auto
       f
         Auto programs include AIFP, ASSP and AWCP. The following auto-related funding had been repaid: $25.8 billion for AIFP, $0.6 billion for AWCP, and $0.4 billion for ASSP.                                Programs
       g
         Does not include the 1/14/2011 AIG recapitalization.                                                                                                                                                    SSFI
       h
         CPP funding of $167.9 billion has been repaid.                                                                                                                                                          CPP
       Sources: Treasury, Transactions Report, 12/31/2010.




                                                                                     Figure 2.4
                                                                                     OBLIGATIONS/EXPENDITURES
                                                                                     OUTSTANDING, REPAYMENTS, AND
                                                                                     REDUCTIONS IN EXPOSURE BY
                                                                                     PROGRAM
                                                                                     ($ BILLIONS, PERCENT OF $474.8 BILLION IN
                                                                                     OBLIGATIONS)

                                                                                      Auto Programsb $81.8
                                                                                                                     $26.9
                                                                                                                               SSFId $69.8
                                                                                                    $54.9


                                                                                                                                     TIP $40.0
                                                                                          $167.9
                                                                                                                                      AGP $5.0

                                                                                                                                     TALF $4.3
                                                                                                                              Housing Programs $45.6
                                                                                                          $37.0                                                      Notes: Numbers may not total due to rounding.
                                                                                                                                                                     a
                                                                                                                                                                        As of 12/31/2010, $167.9 billion of CPP funding had been
                                                                                     CPPa $204.9                      PPIPc $21.8         $22.4                        repaid.
                                                                                                                      PPIP $0.6                                      b
                                                                                                                                                                        As of 12/31/2010, $26.9 billion of Auto Programs funding had
                                                                                                                                                                       been repaid (including $0.6 billion for AWCP and $0.4 billion for
                                                                                                                                                                       ASSP).
                                                                                                   UCSB $0.4 CDCI $0.6
                                                                                                                                                                     c
                                                                                                                                                                       As of 12/31/2010, $0.6 billion of PPIP funding had been
                                                                                                                                                                       repaid.
                                                                                                                                                                     d
                                                                                                                                                                       Does not include the 1/14/2011 AIG recapitalization.
                                                                                         Obligations Outstanding
                                                                                         Repayments and Reductions in Exposure                                       Sources: Treasury, Transactions Report, 12/31/2010; Treasury,
                                                                                                                                                                     response to SIGTARP data call, 1/7/2011.
58             special inspector general I troubled asset relief program




     Table 2.5
     Debt Agreements         (CONTINued)

     TARP                   Date of        Cost            Description of         Investment                               Interest/          Term of
     Program Company        Agreement      Assigned        Investment             Information                              Dividends          Agreement
                                                                                  Each QFI may issue senior securities     7.7% for first 5   30 years
                                                                                  with an aggregate principal amount of    years; 13.8%
                                                                                  1% - 3% of its risk-weighted assets,     thereafter
                                                           Senior Subordinated
                                                                                  but not to exceed $25 billion.
                                                           Securities
     CPP -
               52 QFIs      1/14/2009a $0.5 billion
     S-Corps                                                                      Treasury will receive warrants to        13.8%              30 years
                                                           Senior Subordinated purchase an amount equal to 5% of
                                                           Security Warrants      the senior securities purchased on
                                                           that are exercised im- the date of investment.
                                                           mediately
                                                                                  This loan was funded incrementally;
                                                                                                                            For General
                                                                                  $4 billion funded on 12/31/2008,
                                                                                                                           Advances - (i) the
                                                                                  $5.4 billion funded on 1/21/2009,
                                                                                                                           greater of (a)
                                                                                  and $4 billion funded on 2/17/2009.
                                                                                                                           3-month LIBOR
                                                                                  Subsequently, this loan was then
                                                                                                                           or (b) 2% plus (ii)
                                                      Debt Obligation             amended; $2 billion on 4/22/2009
               General                                                                                                     3%; For Warrant
     AIFP                   12/31/2008 $19.8 billionb with Warrants and           and $4 billion on 5/20/2009                                   12/29/2011
               Motors                                                                                                      Advances (i) the
                                                      Additional Note             (General Advances). In addition, on
                                                                                                                           greater of (a)
                                                                                  5/27/2009, $361 million was set
                                                                                                                           3-month LIBOR for
                                                                                  aside in an SPV for the AWCP
                                                                                                                           the related interest
                                                                                  (Warranty Advances).
                                                                                                                           period or (b) 2%
                                                                                                                           plus (ii) 3.5%

                                                                                  This loan was exchanged for a por-
                                                                                  tion of GM’s common equity interest
               General                                                                                                     3-month LIBOR
     AIFP                   1/16/2009      $0.9 billion    Debt Obligation        in GMAC LLC on 5/29/2009. See                               1/16/2012
               Motors                                                                                                      + 3%
                                                                                  “Equity Agreement” table for more
                                                                                  information.

                                                                                                                           For General
                                                                                  Loan of $4 billion; Additional note of   Advances - (i)
                                                                                  $267 million (6.67% of the maximum       the greater of (a)
                                                                                  loan amount). Subsequently, this loan    3-month LIBOR
                                                                                  was then amended; $500 million on        or (b) 2% plus (ii)
                                                           Debt Obligation with   4/29/2009, this amount was never         3%; For Warrant
     AIFP      Chrysler     1/2/2009c      $4.8 billionb                                                                                        1/2/2012
                                                           Additional Note        drawn and subsequentlly de-obligated     Advances(i) the
                                                                                  (General Advances). In addition, on      greater of (a)
                                                                                  4/29/2009, $280 million was set          3-month LIBOR for
                                                                                  aside in an SPV for the AWCP, this ad-   the related interest
                                                                                  vance was repaid (Warrant Advances).     period or (b) 2%
                                                                                                                           plus (ii) 3.5%

                                                                                  Loan was funded incrementally at
                                                                                  $100 million per week until it reached
                                                                                                                           “LIBOR + 1% for
                                                                                  the maximum amount of $1.5 billion
               Chrysler                                    Debt Obligation with                                            first year LIBOR +
     AIFP                   1/16/2009      $1.5 billion                           on 4/9/2009. Additional note is $75                         1/16/2014
               Financial                                   Additional Note                                                 1.5% for remain-
                                                                                  million (5% of total loan size), which
                                                                                                                           ing years”
                                                                                  vests 20% on closing and 20% on
                                                                                  each anniversary of closing

                                                                                                                                         Continued on next page.
                                                                                        quarterly report to congress I JANUARY 26, 2011                         59




Debt Agreements    (CONTINued)

TARP              Date of        Cost            Description of         Investment                                 Interest/               Term of
Program Company   Agreement      Assigned        Investment             Information                                Dividends               Agreement

                                                                        Loan of $3.0 billion committed to
                                                                        Chrysler for its bankruptcy
                                                                                                                   (i) the greater
                                                                        period. Subsequently, this loan was                                9/30/2009,
                                                 Debt Obligation with                                              of (a) 3-month
AIFP   Chrysler   5/1/2009       $3.8 billion                           amended; $757 million was added on                                 subject to certain
                                                 Additional Note                                                   Eurodollar or (b)
                                                                        5/20/2009. Treasury funded $1.9 bil-                               conditions
                                                                                                                   2% plus (ii) 3.0%
                                                                        lion during bankruptcy period. The re-
                                                                        maining amount will be de-obligated.

                                                                                                                   For $2 billion:
                                                                                                                   (i) The 3-month
                                                                         Commitment to New CarCo Acquisi-          Eurodollar rate,
                                                                         tion LLC (renamed Chrysler Group          plus (ii) (a) 5% or,
                                                                                                                                           For $2 bil-
                                                                         LLC on or about 6/10/2009) of up          on loans extended
                                                                                                                                           lion note:
                                                                         to $6.6 billion. The total loan amount    past the original
                                                                                                                                           12/10/2011;
                                                                         is up to $7.1 billion including $500      maturity date, (b)
                                                                                                                                           provided that is-
                                                                         million of debt assumed from Trea-        6.5%. For $5.1
                                                 Debt Obligation with                                                                      suer may extend
                                                                         sury’s 1/2/2009 credit agreement          billion note: (i) The
AIFP   Chrysler   5/27/2009      $6.6 billion    Additional Note, Equity                                                                   maturity for up
                                                                         with Chrysler Holding LLC. The debt       3-month Eurodollar
                                                 Interest                                                                                  to $400 million
                                                                         obligations are secured by a first        Rate plus 7.91%
                                                                                                                                           of principal to
                                                                         priority lien on the assets of New        and (ii) an ad-
                                                                                                                                           6/10/2017 . 
                                                                         CarCo Acquisition LLC (the company        ditional $17 million
                                                                                                                                           For other notes:
                                                                         that purchased Chrysler LLC’s assets      in PIK interest per
                                                                                                                                           6/10/2017.
                                                                         in a sale pursuant to Section 363 of      quarter. For other
                                                                         the Bankruptcy Code).                     notes: 3-month
                                                                                                                   Eurodollar rate
                                                                                                                   plus 7.91%.

                                                                                                                   Originally, (i) the
                                                                                                                   greater of (a)
                                                                                                                   3-Month Eurodol-
                                                                        Original $30.1 billion funded.
                                                                                                                   lar or (b) 2%           Originally
                                                                        Amended loan documents provided
                                                                                                                   plus (ii) 3.0%.         10/31/2009,
                                                                        that $986 million of the original
                  6/3/2009,                                                                                        For amounts             for amounts
       General                                   Debt Obligation with   DIP loan was left for the old GM. In
AIFP              amended        $30.1 billion                                                                     assumed by New          assumed by New
       Motors                                    Additional Note        addition $7.1 billion was assumed
                  7/10/2009                                                                                        GM, the interest        GM, June 10,
                                                                        by NewGM of which $0.4 billion was
                                                                                                                   rates became (i)        2015, subject to
                                                                        repaid resulting in $6.7 billion remain-
                                                                                                                   the greater of (a)      acceleration
                                                                        ing outstanding.
                                                                                                                   3-month Eurodol-
                                                                                                                   lar or (b) 2% plus
                                                                                                                   (ii) 5%


                                                                                                                                           The debt obliga-
                                                                                                                                           tion for each
                                                 Debt Obligation with   Each of the loans will be funded
                  “9/30/2009                                                                                                               fund matures at
PPIP   ALL                   $20 billion         Contingent Interest    incrementally, upon demand by the          LIBOR + 1%
                  and later”                                                                                                               the earlier of the
                                                 Promissory Note        fund manager.
                                                                                                                                           dissolution of the
                                                                                                                                           fund or 10 years.

                                                                                                                                   Continued on next page.
60                 special inspector general I troubled asset relief program




     Debt Agreements                  (CONTINued)

 TARP                                Date of           Cost              Description of                Investment                                          Interest/                Term of
 Program Company                     Agreement         Assigned          Investment                    Information                                         Dividends                Agreement

                                                                                                       Each QCU may issue CDCI Senior
                                                                                                       Securities with an aggregate principal
 CDCI -                                                                                                                                                    2% for first 8
                                                                         Subordinated Debt             amount equal to not more than 3.5%
 Credit           ALL                                                                                                                                      years, 9%
                                                                         for Credit Unions             of its total assets and not more than
 Unions                                                                                                                                                    thereafter
                                                                                                       50% of the capital and surplus of the
                                                                                                       QCU.


                                                                                                       Each QFI may issue CDCI Senior
                                                                                                       Securities with an aggregate principal
                                                                                                       amount equal to not more than 5% of
                                                                                                       (i), if the QFI is a Certified Entity the
                                                                                                       risk-weighted assets of the QFI, or                 3.1% for first 8
 CDCI -                                                                  Subordinated
                  ALL                                                                                  (ii), if the QFI is not a Certified Entity,         years, 13.8%
 S-corps                                                                 Debt for S-corps
                                                                                                       the sum of the RWAs of each of the                  thereafter
                                                                                                       Certified Entities, in each case less
                                                                                                       the aggregate capital or, as the case
                                                                                                       may be, principal amount of any out-
                                                                                                       standing TARP assistance of the QFI.

     Notes: Numbers affected by rounding.
     a
       Announcement date of CPP S-Corporation Term Sheet.
     b
       Amount includes AWCP commitments.
     c
       Date from Treasury’s 1/27/2009 Transactions Report. The Security Purchase Agreement has a date of 12/31/2008.

     Sources: Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008.”
     12/31/2008. Treasury, “General Motors Corporation, Indicative Summary of Terms for Secured Term Loan Facility,” 12/19/08; Treasury, “General Motors Promissory Note,” 1/16/2009; Treasury, “Loan and
     Security Agreement By and Between Chrysler Holding LLC as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008.” 12/31/2008; Treasury, “Chrysler, Indica-
     tive Summary of Terms for Secured Term Loan Facility,” 12/19/2008; Treasury, “Chrysler LB Receivables Trust Automotive Industry Financing Program, Secured Term Loan, Summary of Terms,” 1/16/2009;
     OFS, response to SIGTARP draft report, 1/30/2009; Treasury, Transactions Report, 9/30/2010; Treasury, response to SIGTARP data call, 10/7/2010; Treasury’s “TARP Community Development Capital
     Initiative Program Agreement, CDFI Bank / Thrift Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 04/26/2010; Treasury’s “TARP Community Development Capital Initiative CDFI Credit
     Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 04/26/2010; Treasury’s “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities Summary
     of Terms of CDCI Senior Securities,” 04/26/2010.
                                                                                                   quarterly report to congress I JANUARY 26, 2011               61


Table 2.6

Equity Agreements
TARP                      Date           Cost                Description of                                                                 Term of
Program Company           of Agreement   Assigned            Investment             Investment Information                  Dividends       Agreement
                                                                                                                            5% for first
                                                             Senior Preferred       1-3% of risk-weighted assets, not to
                                                                                                                            5 years,        Perpetual
                                                             Equity                 exceed $25 billion for each QFI
CPP –                     “10/14/2008a                                                                                      9% thereafter
          286 QFIs                       $200.1 billion
Public                    and later”
                                                             Common Stock
                                                                                    15% of senior preferred amount          —               Up to 10 years
                                                             Purchase Warrants

                                                                                                                            5% for first
                                                                                    1-3% of risk-weighted assets, not
                                                             Preferred Equity                                               5 years,        Perpetual
                                                                                    to exceed $25 billion for each QFI
                                                                                                                            9% thereafter
CPP –                     “11/17/2008b
          369 QFIs                       $ 4 billion         Preferred Stock
Private                   and later”
                                                             Purchase Warrants
                                                                                    5% of preferred amount                  9%              Perpetual
                                                             that are exercised
                                                             immediately

                                                             Non-Cumulative         $41.6 billion aggregate liquidation
                                                                                                                            10%             Perpetual
                                                             Preferred Equity       preference

                                                                                    2% of issued and outstanding
          American                                                                  common stock on investment date of
SSFI      International   4/17/2009      $41.6 billionc                             11/25/08; the warrant was originally
          Group, Inc.                                        Common Stock           for 53,798,766 shares and had a
                                                                                                                            —               Up to 10 years
                                                             Purchase Warrants      $2.50 exercise price, but after the
                                                                                    6/30/09 split, it is for 2,689,938.30
                                                                                    shares and has an exercise price of
                                                                                    $50.
                                                                                    Up to $29.8 billion aggregate
                                                                                                                                            Perpetual (life of
                                                             Non-Cumulative         liquidation preference. As of
          American                                                                                                          10%             the facility is 5
                                                             Preferred Equity       9/30/09, the aggregate liqudation
SSFI      International   4/17/2009      $29.8 billiond                                                                                     years)
                                                                                    preference was $3.2 billion.
          Group, Inc.
                                                             Common Stock           150 common stock warrants out-
                                                                                                                            —               Up to 10 years
                                                             Purchase Warrants      standing; $0.00002 exercise price

                                                             Trust Preferred
                                                                                    $20 billion                             8%              Perpetual
                                                             Securities
TIP       Citigroup Inc. 12/31/2008      $20.0 billion   e

                                                                                    10% of total preferred stock issued;
                                                             Warrants                                                       —               Up to 10 years
                                                                                    $10.61 exercise price

                                                                                                                                            Converts to
                                                             Mandatorily
                                                                                                                                            common equity
                                                             Convertible Preferred $5 billion                               9%
                                                                                                                                            interest after 7
                                                             Stockf
                                                                                                                                            years
AIFP      GMAC Inc.       12/29/2008     $5.0 billion
                                                             Preferred Stock                                                                Converts to
                                                             Purchase Warrants                                                              common equity
                                                                                    5% of original preferred amount         9%
                                                             that are exercised                                                             interest after 7
                                                             immediately                                                                    years

                                                                                                                                            Converts to
                                                             Mandatorily
                                                                                                                                            common equity
                                                             Convertible            $4.5 billion                            9%
                                                                                                                                            interest after 7
                                                             Preferred Stockg
                                                                                                                                            years

                                                             Preferred Stock                                                                Converts to
AIFP      GMAC Inc.       5/21/2009      $7.5 billion        Purchase Warrants                                                              common equity
                                                                                    5% of original preferred amount         9%
                                                             that are exercised                                                             interest after 7
                                                             immediately                                                                    years

                                                             Common Equity
                                                                                    $3.0 billion                            —               Perpetual
                                                             Interestg

                                                                                                                                      Continued on next page.
62               special inspector general I troubled asset relief program




 Equity Agreements (CONTINued)
TARP                             Date                   Cost                   Description of                                                                                             Term of
Program Company                  of Agreement           Assigned               Investment                     Investment Information                                Dividends             Agreement
                                                                                                              This equity interest was obtained
                                                                                                              by exchanging a prior debt obligation
                                                                               Common Equity
AIFP          GMAC Inc.          5/29/2009              $0.9 billion                                          with General Motors. See “Debt                        —                     Perpetual
                                                                               Interest
                                                                                                              Agreements” table for more
                                                                                                              information.

                                                                               Trust Preferred
                                                                                                              $2.5 billion
                                                                               Securities
                                                                                                                                                                                          Redeemable upon
AIFP          GMAC Inc.          12/30/2009             $2.5 billion           Trust Preferred                                                                      8%                    the repayment of
                                                                               purchase warrants                                                                                          the debenture
                                                                                                              5% of trust preferred amount
                                                                               that are exercised
                                                                               immediately

                                                                               Mandatorily
                                                                               Convertible                    $1.3 billion
                                                                               Preferred Stock                                                                                            Converts to
                                                                                                                                                                                          common equity
AIFP          GMAC Inc.          12/30/2009             $1.3 billion           Preferred Stock                                                                      9%
                                                                                                                                                                                          interest after
                                                                               Purchase Warrants                                                                                          7 years
                                                                                                              5% of preferred amount
                                                                               that are exercised
                                                                               immediately


                                                                               Common Equity
AIFP          GMAC Inc.          12/30/2010             $5.5 billion                                          $5.5 billion                                                                Perpetual
                                                                               Interesth


                                                                               Trust Preferred
 AGP`         Citigroup Inc. 12/23/2009                 $2.2 billion           Securities with
                                                                               warrants

                                                                                                                                                                                          8 years with the
                                                                                                              Each of the membership interest
                                 “9/30/2009                                    Membership interest                                                                                        possibility of
PPIP          ALL                                       $10 billion                                           will be funded upon demand from                       —
                                 and later”                                    in a partnership                                                                                           extension for 2
                                                                                                              the fund manager.
                                                                                                                                                                                          additional years.

                                                                               Preferred Equity                                                                     2% for first
                                                                                                              5% of risk-weighted assets for banks
CDCI          ALL                                       $780.2 million         for banks & thrift                                                                   eight years,          Perpetual
                                                                                                              and bank holding companies.
                                                                               institutions                                                                         9% thereafter


Notes: Numbers affected by rounding.
a
  Announcement date of CPP Public Term Sheet.
b
  Announcement date of CPP Private Term Sheet.
c
  AIG exchanged Treasury’s $40 billion investment in cumulative preferred stock (obtained on 11/25/2008) for non-cumulative preferred stock, effectively cancelling the original $40 billion investment.
d
  The Equity Capital Facility was announced as a $30 billion commitment, but Treasury reduced this amount by the value of the AIGFP Retention Payment amount of $165 million.
e
  Citigroup exchanged its $20 billion senior preferred equity (obtained on 12/31/2008) for trust preferred securities.
f
  On 12/31/2009, Treasury exchanged $5.25 billion of preferred stock, which it acquired on December 29, 2009, into mandatorily convertible preferred stock (“MCP”).
g
  On 12/31/2009, Treasury converted $3.0 billion of it’s existing MCP, which was invested in May 2009, into common equity. Treasury’s equity ownership of GMAC increased from 35% to 56% due to this conversion.
h
  On 12/31/2010, Treasury converted $5.5 billion of it’s existing MCP, which was invested in May 2009, into common equity. Treasury’s equity ownership of GMAC increased from 56% to 74% due to this conversion.




 Sources: Treasury’s “TARP Capital Purchase Program Agreement, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” 10/14/2008; Treasury, “TARP Capital Purchase Program Agree-
 ment, (Non-Public QFIs, excluding S Corps and Mutual Organizations) Preferred Securities, Summary of Warrant Terms,” 11/17/2008; Treasury, “Securities Purchase Agreement dated as of November 25, 2008
 between American International Group, Inc. and United States Department of Treasury,” 11/25/2008; Treasury, “TARP AIG SSFI Investment, Senior Preferred Stock and Warrant, Summary of Senior Preferred
 Terms,” 11/25/2008; Treasury, “Securities Purchase Agreement dated as of January 15, 2009 between Citigroup, Inc. and United States Department of Treasury,” 1/15/2009; Treasury, “Citigroup, Inc. Summary
 of Terms, Eligible Asset Guarantee,” 11/23/2008; “Securities Purchase Agreement dated as of January 15, 2009 between Bank of America Corporation and United States Department of Treasury,” 1/15/2009;
 Treasury, “Bank of America Summary of Terms, Preferred Securities,” 1/16/2009; Treasury, “GMAC LLC Automotive Industry Financing Program, Preferred Membership Interests, Summary of Preferred Terms,”
 12/29/2008; Treasury, Transactions Report, 9/30/2010; Treasury, response to SIGTARP data call, 10/7/2010; Treasury’s “TARP Community Development Capital Initiative Program Agreement, CDFI Bank / Thrift
 Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 04/26/2010; Treasury’s “TARP Community Development Capital Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior
 Securities,” 04/26/2010; Treasury’s “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities Summary of Terms of CDCI Senior Securities,” 04/26/2010; Treasury’s
 “Treasury Converts Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/10; Ally Financial Inc. ( GOM ) 8−K Current report filing, Filed on 12/30/2010, Filed Period 12/30/2010.
                                                                                                                               quarterly report to congress I JANUARY 26, 2011                          63




Table 2.7

 LARGEST POSITIONS IN WARRANTS HELD BY TREASURY, BY PROGRAM, AS OF 12/31/2010
                                                                                                                                                             “In” or                     Amount
                                                                                         Current Number                                   Stock Price         “Out”           “In the Money” or
                                                                Transaction                  of Warrants                  Strike                as of        of “the         “Out of the Money”
Participant                                                     Date                         Outstanding                   Price          9/30/2010        Money?”a          as of 12/31/2010
Capital Purchase Program (“CPP”):
  Citigroup Inc.                                                10/28/2008                     210,084,034             $17.85                      $4.73        OUT                         ($13.12)
  Regions Financial Corporation                                 11/14/2008                       48,253,677            $10.88                      $7.00        OUT                           ($3.88)
  Fifth Third Bancorp                                           12/31/2008                       43,617,747            $11.72                    $14.68            IN                          $2.96
  KeyCorp                                                       11/14/2008                       35,244,361            $10.64                      $8.85        OUT                           ($1.79)
Systemically Significant Failing
Institutions (“SSFI”) Program:
  AIGb                                                          11/25/2008                         2,689,938           $50.00                    $57.62            IN                          $7.62
  AIG     b
                                                                4/17/2009                                   150          $0.00    C
                                                                                                                                                 $57.62            IN                        $57.62
Targeted Investment Program (“TIP”):
  Citigroup Inc.                                                12/31/2008                     188,501,414             $10.61                      $4.73        OUT                           ($5.88)
Asset Guarantee Program (“AGP”):
  Citigroup Inc.                                                1/16/2009                        66,531,728            $10.61                      $4.73        OUT                           ($5.88)

Notes: Numbers affected by rounding.
a
  When a stock’s current price rises above the warrant’s strike price, it is considered “in the money;” otherwise, it is considered “out of the money.”
b
  All warrant and stock data for AIG are based on the 6/30/2009 reverse stock split of 1 for 20.
c
  Strike price is $0.00002.

Sources: Treasury, Transactions Report, 12/31/2010, accessed 1/4/2011; Treasury, response to SIGTARP data call, 10/7/2010; Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com.




Table 2.8

 Dividend, Interest, distribution, and other income payments
                                         Dividend                          Interest              Distributiona                  Other Incomeb                                    Total
AGP                              $442,964,764                                    $—                            $—             $2,522,000,000                     $2,964,964,764
AIFPc                           2,274,145,655                   1,060,649,794                                    —                    15,000,000                   3,349,795,449
ASSP                                               —                 31,949,931                                  —                    84,000,000                        115,949,931
CDCI                                   1,357,307                          698,746                                —                                —                       2,056,053
CPP   d
                               10,290,114,300                        58,794,576                                  —            13,757,896,196                     24,106,805,072
PPIP                                               —                 85,276,109                  323,950,494                          20,644,319                        429,870,922
TIP                             3,004,444,444                                      —                             —              1,255,639,099                      4,260,083,543
UCSB                                               —                   3,509,375                                 —                                —                       3,509,375
Total                      $16,013,026,471                   $1,240,878,531                  $323,950,494                 $17,655,179,614                     $35,233,035,109

Note: Data as of 12/31/2010.
a
  Distributions are investment proceeds from the PPIF’s trading activities allocated to the partners, including Treasury, not later than 30 days after the end of each quarter.
b
  Other income includes Citigroup common stock gain for CPP, Citigroup payment for AGP, additional note proceeds from the auto programs, and repayments associated with the termination
of the TCW fund for PPIP.
c
  Includes AWCP.
d
  Includes $13 million fee received as part of the Popular exchange.

Source: Treasury, Transactions Report, 12/31/2010; Treasury, Section 105(a) Report, 12/10/2010, Treasury, Dividends and Interest Report, 1/10/2011; ASSP: Treasury, response to
SIGTARP data call, 10/18/2010.
64            special inspector general I troubled asset relief program




                                                     HOMEOWNER SUPPORT PROGRAMS
                                                     The Administration announced the Making Home Affordable (“MHA”) program on
                                                     February 18, 2009.106 As initially announced, the program was intended “to help as
                                                     many as three to four million financially struggling homeowners avoid foreclosure
                                                     by modifying loans to a level that is affordable for borrowers now and sustainable
                                                     over the long term.”107 MHA and related programs include four initiatives funded
                                                     by the Troubled Asset Relief Program (“TARP”): a loan modification program
                                                     (which includes distinct subprograms), a Federal Housing Administration (“FHA”)-
                                                     Treasury refinancing program, a program to support state-funded foreclosure pre-
                                                     vention programs, and a program that offers homeowners an opportunity to modify
                                                     their second mortgages to make them more affordable when their first mortgages
                                                     have already been modified. These programs, along with parallel programs at the
                                                     Government-sponsored enterprises (“GSEs”), make up what was originally an-
                                                     nounced as a $75 billion initiative.108
                                                         Of the anticipated $75 billion cost for MHA, $50 billion was originally to be
                                                     funded through TARP. Treasury has since reduced this amount to a final program
                                                     obligation of $45.6 billion for MHA and its related programs.109 TARP funds sup-
                                                     port the Home Affordable Modification Program (“HAMP”), the Second Lien
                                                     Modification Program (“2MP”), the Hardest-Hit Fund (“HHF”), and the FHA
     Loan Servicers: Companies that
                                                     Short Refinance programs, along with efforts at FHA and the U.S. Department of
     perform administrative tasks on
                                                     Agriculture’s (“USDA’s”) Rural Housing Service (“RHS”) to use HAMP to modify
     monthly mortgage payments until the
     loan is repaid. These tasks include             mortgages that those agencies insure.110
     billing, tracking, and collecting monthly           TARP funds are not used for incentive payments for modifications related to
     payments; maintaining records of                loans owned or guaranteed by the Federal National Mortgage Association (“Fannie
     payments and balances; allocating               Mae”) or the Federal Home Loan Mortgage Corporation (“Freddie Mac”). Fannie
     and distributing payment collections            Mae and Freddie Mac pay those incentives from their operating funds. When
     to investors in accordance with each            HAMP was announced, the Administration estimated that the GSEs would con-
     mortgage loan’s governing documenta-            tribute up to $25 billion to modify mortgages that they own or guarantee.111
     tion; following up on delinquencies; and            MHA and related programs include the following initiatives:
     initiating foreclosures.
                                                     •	 Home Affordable Modification Program (“HAMP”) — HAMP is intended to
     Investors: Owners of mortgage loans
                                                        encourage loan servicers (“servicers”) and investors, through incentive pay-
     or bonds backed by mortgage loans
                                                        ments, to modify eligible first-lien mortgages so that the monthly payments of
     who receive interest and principal
                                                        homeowners who are currently in default or at imminent risk of default will be
     payments from monthly mortgage
     payments. Servicers manage the                     reduced to affordable and sustainable levels. HAMP also includes the following
     cash flow from these payments and                  subprograms:
     distribute them to investors according             çç Home Price Decline Protection (“HPDP”) — HPDP is intended to encour-
     to Pooling and Servicing Agreements                   age additional investor participation and HAMP modifications in areas with
     (“PSAs”).                                             recent price declines by providing TARP-funded incentives to offset poten-
                                                           tial losses in home values.112
                                                                               quarterly report to congress I JANUARY 26, 2011            65




     çç Principal Reduction Alternative (“PRA”) — PRA is intended to encourage
          the use of principal reduction in modifications for eligible borrowers whose
          homes are worth significantly less than the remaining outstanding balances
          of their first-lien mortgage loans. It provides TARP-funded incentives to
          offset a portion of the principal reduction provided by the investor.113
     çç Home Affordable Unemployment Program (“UP”) — UP is intended to offer
          assistance to unemployed homeowners through temporary forbearance of a
          portion of their payments.114
     çç Home Affordable Foreclosure Alternatives (“HAFA”) — HAFA is intended
          to provide incentives to servicers and borrowers to pursue short sales and
                                                                                               Short Sale: Sale of a home for less
          deeds-in-lieu of foreclosure for HAMP-eligible borrowers in cases in which           than the unpaid mortgage balance. A
          the borrower is unable or unwilling to enter into a modification.115                 borrower sells the home and the lender
•	   Second Lien Modification Program (“2MP”) — 2MP is intended to modify                      collects the proceeds as full or partial
     second-lien mortgages when a corresponding first lien is modified under HAMP.             satisfaction of the unpaid mortgage
     However, the requirement to modify second liens only applies to servicers that            balance, thus avoiding the foreclosure
     executed a Servicer Participation Agreement (“SPA”) and an agreement to                   process.
     participate in 2MP prior to October 3, 2010.116 As of December 31, 2010, 17
     servicers have agreed to participate in 2MP. These servicers represent approxi-           Deed-in-Lieu of Foreclosure: Instead
     mately 67% of the second-lien servicing market.117                                        of going through foreclosure, the bor-
                                                                                               rower voluntarily surrenders the deed
•	   Agency-Insured Programs — Like their TARP counterparts, these initiatives
                                                                                               to the home to the lender, often as
     for home loans insured by FHA or guaranteed by RHS and the Department of
                                                                                               satisfaction of the unpaid mortgage
     Veterans Affairs (“VA”) offer assistance to eligible borrowers whose mortgages
                                                                                               balance.
     are backed by these agencies to reduce payments on their first-lien mortgages
     to more affordable levels.118 Treasury is providing TARP incentives to encourage          Underwater Mortgage: Mortgage loan
     modifications under the FHA and RHS modification programs.                                on which a homeowner owes more
•	   FHA Short Refinance — This initiative, which is partially supported by TARP               than the home is worth, typically as a
     funds, is intended to encourage FHA refinancing of existing underwater mort-              result of a decline in the home’s value.
     gage loans that are not presently insured by FHA. To facilitate the refinancing of
     new FHA-insured loans under this program, TARP funds will provide incentives
     to existing second-lien holders of participating servicers who agree to partial
     or full extinguishment of second liens under the Treasury/FHA Second-Lien
     Program (“FHA2LP”). The initiative also provides that Treasury, through TARP,
     will provide up to $8 billion in loss coverage on newly originated FHA first-lien
     loans.119
•	   Housing Finance Agency (“HFA”) Hardest-Hit Fund (“HHF”) — A TARP-
     funded program, HHF is intended to fund state-run foreclosure prevention
     programs in states hit hardest by the decrease in home prices and in states with
     high unemployment rates. Eighteen states and the District of Columbia have
     received approval for aid through the program.120
66            special inspector general I troubled asset relief program




                                                     Status of TARP Funds Obligated to MHA and Related
                                                     Programs
                                                     Treasury obligated $45.6 billion to support MHA and its related programs, of which
                                                     $1.0 billion, or 2.2%, has been expended as of December 31, 2010.121 Effective
                                                     October 1, 2010, Treasury established that the aggregate amount available to pay
                                                     servicer, borrower, and investor incentives under MHA-related programs would
                                                     be capped at $29.9 billion.122 The amount obligated to each MHA-participating
                                                     servicer is established pursuant to its Program Participation Cap under its SPA
                                                     with Treasury.123 Treasury set each servicer’s initial cap by estimating the number
                                                     of services expected to be performed by each servicer across all MHA and MHA-
                                                     related programs in which it participates during the term of the SPA. According to
                                                     Treasury, a servicer’s cap will be adjusted based on several factors: (1) upward or
                                                     downward, pursuant to a Servicer Cap Model that aims to reallocate from servicers
                                                     that have a relatively large amount of unused funds under their cap to servicers
                                                     with a relatively small amount of unused funds under their cap, or (2) downward,
                                                     based on Treasury’s analysis of the servicer’s eligible loan portfolio.124
                                                         Treasury announced the following program-specific cost estimates for MHA
                                                     and its related programs:

                                                     •	 Treasury has indicated that the $29.9 billion obligated to servicers is appor-
                                                        tioned among the different programs as follows:125
                                                        çç $21.4 billion will be allocated to pay borrower, servicer, and investor incen-
                                                            tives for first-lien modifications under HAMP, including approximately $2.0
                                                            billion that will be allocated to pay investor incentives under PRA.
                                                        çç $1.3 billion will be allocated to pay investor incentives under HPDP.
                                                        çç $4.1 billion will be allocated to pay incentives in connection with fore-
                                                            closure alternatives under HAFA, such as short sales or deeds-in-lieu of
                                                            foreclosure.
                                                        çç $132.6 million will be allocated to second-lien holders to modify or extin-
                                                            guish second liens under 2MP.
                                                        çç $234.4 million will be allocated under Treasury FHA-HAMP.
                                                        çç $17.8 million will be allocated under the USDA RHS’s Rural Development
                                                            HAMP (“RD-HAMP”).
     Letter of Credit: Letter from a bank               çç $2.7 billion will be allocated to pay servicer and investor incentive payments
     guaranteeing that a buyer’s payment to                 to modify or extinguish second liens as part of FHA2LP.
     a seller will be received on time and for       •	 Treasury and HUD have announced that TARP will fund up to $8.1 billion
     the correct amount. In the event that              to purchase a “letter of credit” providing up to $8.0 billion in potential loss
     the buyer is unable to make payment                coverage and pay an additional $117 million in fees under FHA Short
     on the purchase, the issuing bank is               Refinance.
     required to cover the full or remaining         •	 Treasury has obligated a total of $7.6 billion in TARP funding for HFA HHF.
     amount of the obligation.
                                                                                                                                   quarterly report to congress I JANUARY 26, 2011   67




Table 2.9

TARP allocations by homeowner Support programs,
AS OF 12/31/2010 ($ BILLIONS)
HAMP 1st Lien (Standard Modification)                                                                                                   $19.4
HAMP 1st Lien (PRA Modification)                                                                                                            2.0
HAMP 1st Lien (HPDP)                                                                                                                        1.3
HAFA                                                                                                                                        4.1
UP                                                                                                                                          ­—a
2MP                                                                                                                                         0.1
Treasury FHA-HAMP                                                                                                                           0.2
RD-HAMP                                                                                                                                    0.0b
Treasury/FHA Second Lien Program (FHA2LP)                                                                                                   2.7
FHA Short Refinance (Loss-Coverage)                                                                                                        8.1c
HHF                                                                                                                                         7.6
Total Allocations                                                                                                                      $45.6

Notes: Numbers may not total due to rounding.
a
  Treasury does not allocate TARP funds to UP.
b
  Treasury estimates that $17.8 million will be allocated to RD-HAMP.
c
  This amount includes the up to $117 million in fees Treasury will incur for the availability and usage of the $8.0 billion letter of credit.

Source: Treasury, response to SIGTARP data call, 1/4/2011.


    Table 2.9 shows the breakdown in estimated funding allocations for these
programs.
    As of December 31, 2010, Treasury has maintained SPAs with 143 of the 145
servicers that originally agreed to participate in MHA and its related programs.126
According to Treasury, of the $29.9 billion obligated to participating servicers under
their SPAs, as of December 31, 2010, $827.7 million was spent on completing per-
manent modifications of first liens (237,516 of which remain active), $2.9 million on
completing 141 full extinguishments, 2 partial extinguishments, and 3,114 perma-
nent modifications of second liens under the 2MP, and $9.5 million on incentives
for 2,181 short sales or deeds-in-lieu of foreclosure under HAFA.127 Of the combined
amount of incentive payments, according to Treasury, approximately $384.6 million
went to pay servicer incentives, $337.9 million went to pay investor incentives, and
$117.7 million went to pay borrower incentives.128 According to Treasury, TARP has
obligated $7.6 billion to state Housing Finance Agencies participating in HHF. As
of December 31, 2010, Treasury has disbursed approximately $103.6 million of this
amount to participating states, most of which has been allocated to administrative
expenses.129 As of the drafting of this report, Treasury could not provide SIGTARP
with the number of mortgage modifications completed under the program. The
remaining $8.1 billion has been obligated under FHA Short Refinance to purchase a
letter of credit to provide up to $8.0 billion in first loss coverage and to pay $117 mil-
lion in fees. According to Treasury, there have not been any defaults on the 15 loans
refinanced into FHA Short Refinance. Therefore, TARP has not incurred any losses
under the program and the line of credit has not yet been accessed.130
    Servicers of loans owned or securitized by a GSE are required to participate in
that specific GSE’s HAMP for their entire portfolio of GSE loans. Modifications of
68   special inspector general I troubled asset relief program




                                            GSE loans are covered by servicers’ contracts with the GSEs and the GSEs’ servic-
                                            ing guides. Incentive payments to servicers and borrowers participating in a GSE’s
                                            modification programs are paid from the GSE’s operating funds. It was originally
                                            estimated that total incentive and modification expenses for the GSEs would reach
                                            $25 billion under MHA, but Treasury and FHFA both declined to provide SIGTARP
                                            with an update as to whether that is still an accurate estimate. As of December 31,
                                            2010, approximately $655.9 million was spent by the GSEs on completing perma-
                                            nent modifications (284,114 of which remain active).131 Of the combined amount for
                                            participant incentives, approximately $490.3 million went to pay servicers’ incentives
                                            and approximately $165.5 million went to pay borrowers’ incentives.132 The break-
                                            down of incentive payments for TARP (non-GSE) and GSE-owned loans is shown in
                                            Table 2.10.
                                            Table 2.10

                                            Breakdown of incentive payments (TARP [non-GSE] and GSEs), As of
                                            12/31/2010 ($ MILLIONs)
                                            First Lien Modification Incentives                                                Non-GSEs                                 GSEs
                                            Servicer Incentive Payment ($1,000)                                                    $251.7                           $297.9
                                            Servicer Current Borrower Incentive Payment ($500)                                          9.4                             18.9
                                            Annual Servicer Pay for Success                                                          119.1                            173.6
                                            Investor Current Borrower Incentive Payment ($1,500)                                       27.1                                   —­­
                                            Investor Monthly Reduction Cost Sharea                                                   221.1                                    —
                                            HPDP                                                                                       87.2                                   —
                                            Annual Borrower Pay for Success                                                          111.7                            165.5
                                            FHA2LP                                                                                        —                                   —
                                            PRA 1st                                                                                       —                                   —
                                            PRA 2nd                                                                                       —                                   —
                                            RD-HAMP                                                                                      —b                                   —
                                            FHA HAMP                                                                                    0.2                                   —
                                            Total                                                                                 $827.7                           $655.9
                                            Second Lien Modification Incentives
                                            2MP servicer incentive payment                                                              1.3                                   —
                                            2MP Servicer Pay for success                                                                  —                                   —
                                            2MP Borrower Pay for success                                                                  —                                   —
                                            2MP Investor Cost share                                                                     0.4                                   —
                                            2MP Investor Extinguishment                                                                 1.3                                   —
                                            Total                                                                                     $2.9                                    —
                                            HAFA Incentives
                                            Servicer Incentive Payment                                                                  2.9                               —c
                                            Investor Reimbursement                                                                      0.8                                   —
                                            Borrower Relocation                                                                         5.8                               —c
                                            Total                                                                                     $9.5                              $—c
                                            Notes: Numbers affected by rounding.
                                            a
                                              Investor Monthly Reduction Cost Share is considered an incentive payment.
                                            b
                                              Treasury could not provide SIGTARP with RD-HAMP incentive data as of December 31, 2010.
                                            c
                                              The GSEs paid $13,200 in servicer incentives and $18,000 in borrower relocation incentives for a total of $31,200 under HAFA.
                                            Source: Treasury, responses to SIGTARP data call, 1/14/2011, 1/21/2011.
                                                                             quarterly report to congress I JANUARY 26, 2011   69




HAMP
According to Treasury, HAMP was intended “to help as many as three to four mil-
lion financially struggling homeowners avoid foreclosure by modifying loans to a
level that is affordable for borrowers now and sustainable over the long term.”133
The Administration envisioned a “shared partnership” between the Government
and investors to bring distressed borrowers’ first-lien monthly payments down to an
“affordable” level — defined as 31% of the borrower’s monthly gross income.134
    Under the program, investors are responsible for all payment reductions neces-
sary to bring a borrower’s monthly payment down to 38% of their monthly gross
income. The additional reductions needed to bring the monthly payment down to
a 31% ratio are shared between investors and the Government.135 Treasury will also
compensate investors for reducing principal on certain underwater mortgages.136
    Borrowers may be solicited for participation by their servicers or they may
request participation in HAMP by sending their servicers the following documents,
referred to as the “Initial Package”:137

•	 a “request for modification and affidavit” (“RMA”) form
•	 signed and completed requests for Federal tax return transcripts using IRS
   Forms 4506-T and 4506T-EZ (including all schedules and forms)
•	 evidence of income (employment income, rental income, etc.)

   The RMA provides the servicer with the borrower’s financial information, in-
cluding the cause of the borrower’s hardship, defined as any of the following:138

•	 reduction in or loss of income that was supporting the mortgage payment
•	 change in household financial circumstances
•	 recent or upcoming increase in the monthly mortgage payment
•	 increase in other expenses
•	 lack of sufficient cash reserves to maintain payment on the mortgage and cover
   basic living expenses
•	 excessive monthly debt payments and overextension with creditors

Trial Plan Evaluation
The servicer must verify the accuracy of the borrower’s income and other eligibility
criteria, including certification, as required by the Dodd-Frank Wall Street Reform
and Consumer Protection Act (the “Dodd-Frank Act”), that any person receiving
assistance under MHA not have been convicted, in connection with a mortgage
or real estate transaction, of fraud, money laundering, theft, tax evasion, or felony
larceny within the last 10 years, before offering the borrower a trial modification
plan.139 Borrowers enrolled in MHA trial period plans and permanent modifications
70            special inspector general I troubled asset relief program




                                                     prior to September 21, 2010, are not affected by the Dodd-Frank Act certification
                                                     requirement.140 A servicer is not required to send an initial package if, as a result of
     For more information on the borrower
     certification process required by the Dodd-     discussions with the borrower, the servicer determines that the borrower’s monthly
     Frank Act, see SIGTARP’s October 2010           first lien mortgage obligation is less than 26% of the borrower’s monthly gross
     Quarterly Report, page 83.                      income.141
                                                         After verifying eligibility and income, the servicer follows the modification steps
                                                     prescribed by HAMP guidelines to calculate a reduction in the borrower’s monthly
                                                     mortgage payment to 31% of his or her gross monthly income.142
                                                         First, the servicer capitalizes any unpaid interest and fees (i.e., adds them to the
                                                     outstanding principal balance), and will then take the following steps until the 31%
                                                     threshold is reached. First, reduce the interest rate as low as 2%. Second, extend
                                                     the term of the mortgage to a maximum of 40 years from the modification date. If
                                                     that is still insufficient, the servicer may forbear principal (defer its due date), sub-
                                                     ject to certain limits.143 The forbearance amount is not interest bearing and results
                                                     in a lump-sum payment due upon the earliest of the sale date of the property, the
                                                     payoff date of the interest-bearing mortgage balance, or the maturity date of the
                                                     mortgage.144
                                                         Servicers are allowed, but not required, to forgive principal to lower the bor-
                                                     rower’s monthly payment to achieve the debt-to-income (“DTI”) ratio goal of
     Net Present Value (“NPV”) Test:
                                                     31% on a stand-alone basis or before any of the other HAMP modification steps
     Compares the money generated by                 described above. Finally, after engaging in the modification calculations, “all loans
     modifying the terms of the mortgage             that meet HAMP eligibility criteria and are either [considered] to be in immi-
     with the amount an investor can                 nent default or delinquent [by] two or more payments must be evaluated using a
     reasonably expect to recover in a               standardized NPV test that compares the NPV result for a modification to the NPV
     foreclosure sale.                               result for no modification.”145 The NPV test uses a series of inputs that compares
                                                     the expected cash flow from a modified loan with the cash flow from the same loan
     Loan-to-Value (“LTV”) Ratio: Lending risk       with no modifications, based on certain assumptions. A positive NPV test result
     assessment ratio that financial institu-        indicates that a modified loan is more valuable to the investor than if the loan is
     tions and other lenders examine before
                                                     not modified. In that case, under HAMP rules, the servicer must offer the borrower
     approving a mortgage; calculated by
                                                     a mortgage modification. If the test generates a negative result, modification is
     dividing the outstanding amount of the
                                                     optional.146 In reviewing a borrower’s application, servicers cannot refuse to evalu-
     loan by the value of the collateral back-
                                                     ate a borrower for a modification simply because the outstanding loan currently
     ing the loan. Typically, assessments
     with high LTV ratios are generally seen         has a low loan-to-value (“LTV”) ratio. (The lower the LTV ratio is, the higher the
     as higher risk.                                 probability that a foreclosure will be more profitable to an investor than a modifica-
                                                     tion, because of the proceeds that would be realized from a foreclosure sale.) The
     Trial Modification: Under HAMP, a               servicer is required to perform and document the evaluation in a manner consistent
     period of at least three months in              with program guidelines.147
     which a borrower is given a chance                  With respect to loans owned or guaranteed by the GSEs, servicers are required
     to establish that he or she can make            to offer a trial modification if the NPV test results are equal to or greater than
     lower monthly mortgage payments.
                                                                              quarterly report to congress I JANUARY 26, 2011   71




negative $5,000. In other words, even if the NPV test indicates that a modified
mortgage would cost the GSE up to $5,000 more than foreclosure would, the ser-
vicer still must offer the modification.148

How Trial Modifications Work
Treasury originally intended that HAMP trial period modifications would last three
months; however, according to Treasury, as of December 31, 2010, of a combined
total of 152,289 (non-GSE and GSE) active trials, 39,753, or 26.1%, had lasted
more than six months.149
     During a trial period, the borrower must make at least three modified pay-
ments.150 Under a “trial period plan” (“TPP”), borrowers may qualify for a perma-
nent modification as long they make all required payments on time, are eligible,
and provide proper documentation, including a modification agreement.151 The
terms of these permanent modifications remain fixed for at least five years.152 After
five years, the loan’s interest rate can increase if the modified interest rate had
been reduced below the current 30-year conforming fixed interest rate on the date
of the initial modification. The interest rate can rise incrementally by up to 1%
per year until it reaches that rate.153 Otherwise, the modified interest rate remains
permanent.
     If the borrower misses a payment during the trial or is denied a permanent
modification for any other reason, the borrower is, in effect, left with the original
terms of the mortgage. The borrower is responsible for the difference between
the original mortgage payment amount and the reduced trial payments that were
made during the trial. In addition, the borrower may be liable for late fees that were
generated during the trial. In other words, a borrower can be assessed late fees for
failing to make the original pre-modification scheduled payments during the trial
period, even though under the trial modification the borrower is not required to
make these payments. Late fees are waived only for borrowers who receive a per-
manent modification.154

Modification Incentives
Servicers receive a one-time payment of $1,000 for each permanent modification
completed under HAMP. They receive an additional compensation amount of $500
if the borrower was current but at imminent risk of default before enrolling in the
trial plan. For borrowers whose monthly mortgage payment was reduced through
HAMP by 6% or more, servicers also receive “pay for success” payments of up to
$1,000 annually for three years if the borrower remains in good standing (defined
as less than 90 days delinquent).155
72   special inspector general I troubled asset relief program




                                                Borrowers whose monthly mortgage payment is reduced through HAMP by
                                            6% or more and who make monthly payments on time earn an annual “pay for
                                            performance” principal balance reduction.156 The annual reduction amount is up
                                            to $1,000. The servicer receives this payment and applies it toward reducing the
                                            interest-bearing mortgage loan balance. The principal balance reduction accrues
                                            monthly and is payable for each of the first five years as long as the borrower re-
                                            mains current on his or her monthly payments.157
                                                An investor is entitled to compensation, for up to five years, equal to one-half of
                                            the dollar difference between the borrower’s monthly payment (principal and inter-
                                            est) under the modification, based on 31% of gross monthly income and the lesser
                                            of (1) the borrower’s monthly principal and interest at 38% and (2) the borrower’s
                                            pre-modification monthly principal and interest payment.158 If applicable, investors
                                            also earn an extra one-time, up-front payment of $1,500 for modifying a loan that
                                            was current before the trial period (i.e., in imminent default) and whose monthly
                                            payment was reduced by at least 6%.159
                                                Investors are entitled to additional compensation through HPDP. HPDP is
                                            intended to address the fears of investors who may withhold their consent to loan
                                            modifications because of potential future declines in the value of the homes that
                                            secure the mortgages, should the modification fail and the loan go into foreclosure.
                                            In such a circumstance, the investor could suffer greater losses for offering modi-
                                            fications than under an immediate foreclosure. By providing incentive payments
                                            to mitigate that potential loss for a 24-month period, Treasury hopes to encourage
                                            more lenders and investors to modify loans.
                                                Under HPDP, Treasury has published a standard formula, based on the unpaid
                                            principal balance (“UPB”) of the mortgage, the recent decline in area home prices,
                                            and the LTV ratio, that will determine the size of the incentive payment. The pro-
                                            jected home price decline is determined by the change in surrounding-area home
                                            prices during the six months before the start of the HAMP modification.160 The
                                            HPDP incentive payments accrue monthly over a 24-month period and are paid
                                            out annually on the first and second anniversaries of the initial HAMP trial period
                                            mortgage payment. Accruals are discontinued if the borrower loses good standing
                                            under HAMP by missing three mortgage payments or if the mortgage loan is paid
                                            in full. If mortgage payments are discontinued, investors are entitled to receive
                                            all previously accrued but unpaid incentive payments.161 Under HPDP, whether a
                                            particular area suffers further declines in home prices is irrelevant. The amount
                                            of the incentive depends entirely on the estimated decline in home prices in the
                                            market over the next year, based on changes in the related home price index during
                                                                                                  quarterly report to congress I JANUARY 26, 2011   73




Table 2.11

TARP (Non-GSE) INCENTIVE PAYMENTS BY 10 LARGEST SPA SERVICERS, AS OF 12/31/2010
                                                                    Incentive         Incentive       Incentive
                                                                 Payments to       Payments to     Payments to            Total Incentive
                                    SPA Cap Limit                  Borrowers          Investors      Servicers                 Payments
Countrywide Home
                                   $6,347,772,638                $13,307,093       $34,737,482     $38,240,562              $86,285,137
Loans Servicing LP
Wells Fargo Bank, NA                5,138,964,397                   7,046,868       34,916,749       37,174,149              79,137,766
J.P. Morgan Chase
                                    3,223,425,536                  21,245,934       32,589,506       56,907,032             110,742,472
Bank, NA
OneWest Bank                        1,836,258,837                   3,957,269       18,878,211       15,119,280              37,954,760
Bank of America, N.A.               1,555,141,084                       803,086      3,812,809        4,290,272               8,906,167
GMAC Mortgage, Inc.                 1,517,898,139                   5,900,472       24,689,646       22,407,309              52,997,426
American Home Mort-
                                    1,305,990,508                   5,688,105       28,307,838       23,932,851              57,928,795
gage Servicing, Inc
Ocwen Financial
                                    1,143,252,740                   9,173,329       25,462,557       25,566,629              60,202,515
Corporation, Inc.
CitiMortgage, Inc.                  1,119,077,484                  11,160,233       27,869,950       31,504,057              70,534,240
Litton Loan
                                    1,050,782,764                   4,692,217       14,857,599       14,239,785              33,789,601
Servicing LP
Total                          $24,238,564,127                  $82,974,606       $246,122,348    $269,381,926           $598,478,879

Note: Numbers may not total due to rounding.
Source: Treasury, Transactions Report, 12/31/2010, accessed 1/5/2011.




the six months preceding the modification.162 As of December 31, 2010, according
to Treasury, approximately $87.2 million in TARP funds had been paid to investors.
Treasury was unable to identify the number of modifications for HPDP associated
with this expenditure of funds.163
    As of December 31, 2010, of the $29.9 billion in TARP funds allocated to the
143 servicers participating in HAMP SPAs, approximately 81% is allocated to only
10 servicers.164 Table 2.11 outlines these servicers’ relative progress in implement-
ing the HAMP modification programs.
74   special inspector general I troubled asset relief program




                   Table 2.12

                   HAMP SNAPSHOT, as of 12/31/2010
                   Number of HAMP Trials Started since Program Inception                     1,466,448
                   Number of Trial Modifications Cancelled                                    734,509
                   Number of Permanent Modifications Cancelled                                 58,020

                   Source: Treasury, response to SIGTARP data call, 1/21/2011.


                   Table 2.13

                   HAMP modification activity by GSE/TARP (Non-GSE), as of 12/31/2010
                                                                                                      Trials                              Permanents
                                                                 Trials             Trials     Converted to    Permanents    Permanents     Active and
                                     Trials Started          Cancelled             Active       Permanent        Cancelled       Active   Trials Active
                   GSE                       798,330           408,179            77,396           312,755         28,641       284,114       361,510
                   TARP
                                             668,118           326,330            74,893           266,895         29,379       237,516       312,409
                   (Non-GSE)
                   Total                 1,466,488             734,509           152,289           579,650         58,020      521,630       673,919

                   Source: Treasury, response to SIGTARP data call, 1/21/2011.




                                                     Modification Statistics
                                                     As of December 31, 2010, a total of 673,919 mortgages were undergoing modifica-
                                                     tion, either permanently or on a trial basis, under HAMP. Of those, 521,630 were
                                                     active permanent modifications and 152,289 were active trial modifications.165
                                                     A snapshot of HAMP modifications is shown in Table 2.12. HAMP modification
                                                     activity, broken out by GSE and TARP (non-GSE) loans, is shown in Table 2.13.

                                                     What Happens When a HAMP Modification Is Denied: Summary of Servicer
                                                     Obligations and Borrower Rights
                                                     Treasury has issued several directives governing both the obligations of servicers
                                                     and the rights of borrowers in connection with the denial of loan modification
                                                     requests. On November 3, 2010, Treasury released its most recent guidance for
                                                     participating HAMP servicers of non-GSE mortgages and loans not insured by a
                                                     Federal agency; it takes effect February 1, 2011. The new guidance reviews and
                                                     updates participating servicers’ obligations in addressing inquiries and disputes
                                                     from prospective or participating borrowers. It also discusses the requirements for
                                                     servicers concerning the content and timing of mandatory notices for borrowers
                                                     applying to HAMP.166 As of December 31, 2010, the GSEs have not adopted any of
                                                     the revisions with respect to borrower requests for reconsideration of loans that are
                                                     guaranteed by the GSE servicers. GSE program updates in this area are currently
                                                     under consideration.167

                                                     Non-Approval Notices
                                                     According to Treasury, if a borrower applying to HAMP is not approved for a
                                                                              quarterly report to congress I JANUARY 26, 2011   75




modification, the servicer must send the borrower a Non-Approval Notice explain-
ing the reasons for the decision in clear, non-technical language, with acronyms
and industry terms explained in a manner that is easily understandable.
    The Notice must contain a description of other foreclosure alternatives and
the steps necessary for the borrower to be considered for such alternatives. If the
servicer has already approved the borrower for a foreclosure alternative, the Notice
must also include information necessary for the borrower to participate in or com-
plete the alternative.168
    In cases where an NPV evaluation was performed, the Non-Approval Notice
must also include the NPV input values used to evaluate the borrower’s eligibility.169
The servicer must provide the borrower with an opportunity to correct the NPV
input values or any other information identified in the Notice that the borrower
believes is in error. The servicer may not conduct a foreclosure sale for 30 calendar
days from the date of the Non-Approval Notice or a longer period, if required, to
review supplemental material provided by the borrower in response to the Notice,
although the servicer may continue with all other steps in the foreclosure process
short of an actual sale. This foreclosure sale prohibition does not apply when the
non-approval is due to an ineligible mortgage or property, the borrower declines a
HAMP modification, or the loan was previously modified under HAMP.170
    The Non-Approval Notice must also contain a toll-free number, email address,
and mailing address of a servicer representative if the borrower wishes to dispute
the reasons for non-approval. For larger servicers, the servicer representative listed
in the notice must be independent from the servicing staff that made the under-
writing decision.171 Additionally, the Non-Approval Notice must include a tele-
phone number for the HOPE™ Hotline, a 24-hour telephone hotline that provides
assistance to borrowers at no charge.172 The notice must specifically encourage
borrowers to ask for MHA Help if they have any reason to dispute the contents of
the Non-Approval Notice.173
    The HOPE Hotline is operated by a non-profit group called the
Homeownership Preservation Foundation (“HPF”), which was contracted by
Fannie Mae in its capacity as HAMP program administrator. The Foundation is
largely an outgrowth of the mortgage servicers themselves. It started as an in-house
entity within Residential Capital, LLC, a unit of Ally Financial Inc. (the former
GMAC Inc.). Several of its board members have ties to Residential Capital, LLC,
and the group is supported by donations from large servicers. Perhaps as a result of
its origins and funding, HPF does not view itself as the homeowner advocate that
many of its users may perceive it to be. Indeed, HPF’s chairman stated in a recent
press interview, “Because we’re supported by the industry, are we really working for
the homeowner? Maintaining this neutral ground is hard to do, but we work very
hard to keep our advice neutral.”174 Of the nearly 1.8 million borrowers who have
called the hotline, 150,000, or nearly 10%, have called with questions about deni-
als. Additionally, about 170,000 callers have received free counseling.175
76   special inspector general I troubled asset relief program




                                                According to Treasury, the Hotline provides homeowners with free foreclosure
                                            prevention information and housing counseling referrals. It assists borrowers with a
                                            preliminary assessment of their eligibility for MHA programs. It also connects bor-
                                            rowers who have detailed questions about the program or a denial to MHA Help,
                                            a team of housing counselors dedicated exclusively to working with borrowers and
                                            servicers to resolve escalated MHA cases. Treasury established a similar resolution
                                            resource, the HAMP Solution Center (“HSC”), to manage escalated cases received
                                            from housing counselors, Government offices, and other third parties acting on
                                            behalf of a borrower.176 Effective February 1, 2011, staff at both of these escalation
                                            offices are directed to re-run the HAMP NPV test upon a borrower’s request, when
                                            the borrower believes that the inputs used by the servicer were inappropriate.177

                                            Requests for Reconsideration or Re-Evaluation
                                            If a homeowner who applies to participate in HAMP is not approved for a loan
                                            modification because the servicer’s analysis indicates a negative result from the
                                            HAMP NPV test, the Non-Approval Notice sent to that borrower must include
                                            an explanation of the NPV analysis and the following list of NPV inputs for that
                                            borrower:178

                                            •	   unpaid principal balance on the loan
                                            •	   interest rate
                                            •	   months delinquent
                                            •	   next reset date and interest rate (for adjustable rate mortgages)
                                            •	   current principal and interest payment (before modification)
                                            •	   monthly insurance payment
                                            •	   monthly real estate taxes
                                            •	   monthly homeowners’ association fees (if applicable)
                                            •	   borrowers’ monthly gross income
                                            •	   borrower’s total monthly obligations
                                            •	   borrower credit score
                                            •	   co-borrower credit score (if applicable)
                                            •	   zip code
                                            •	   state

                                               As of February 1, 2011, the program will require the servicer to provide the bor-
                                            rower with additional inputs, including the following:

                                            •	   value of the property the servicer used in the NPV test
                                            •	   type of property valuation
                                            •	   data collection date
                                            •	   imminent default status indicator
                                                                              quarterly report to congress I JANUARY 26, 2011   77




•	   investor code
•	   UPB at origination
•	   first payment date at origination
•	   mortgage type
•	   remaining term
•	   mortgage coverage insurance percentage
•	   date NPV evaluation was conducted
•	   UPB of the proposed HAMP modification (net of forbearance and principal
     reduction)
•	   interest rate of proposed HAMP modification
•	   amortization term of the proposed HAMP modification
•	   principal and interest payment of the proposed HAMP modification
•	   principal forbearance amount of the proposed HAMP modification
•	   principal forgiveness amount of the proposed HAMP modification
•	   modification fees paid by the investor
•	   mortgage insurance partial claim amount

    According to Treasury, the purpose of providing this information is to allow the
borrower the opportunity to correct values that may affect the analysis of his or her
eligibility. If the borrower believes one or more NPV analysis inputs is incorrect, the
borrower has 30 days from the date of the Non-Approval Notice to provide written
evidence thereof to the servicer. If the borrower wishes to submit corrections for
more than one input, the borrower must provide all such corrections at one time.
HSC or MHA Help can provide borrowers and their advocates with assistance
in evaluating disputed NPV inputs, including preliminary NPV re-evaluations
that the borrower may provide the borrower’s servicer in requesting a formal
re-evaluation.179
    According to Treasury, if the evidence submitted by the borrower is “valid and
material” (terms undefined by Treasury) to the outcome of the NPV analysis, the
servicer must perform the NPV analysis again using the corrected inputs. If the
borrower identifies such “material inaccuracies” in the NPV input values, the
servicer may proceed with intermediate steps in the foreclosure process, but may
not conduct a foreclosure sale until the inaccuracies are resolved. If the borrower’s
corrected information is verified, and the outcome of the new NPV analysis is posi-
tive, the servicer must offer a HAMP modification in accordance with the program
guidelines.
    Separately, a borrower who has been evaluated for HAMP but deemed ineligible
may request reconsideration for HAMP if the borrower experiences a change in
circumstance. According to Treasury, examples of such changes in circumstance
include material changes to the borrower’s income, illness, or divorce.180
78   special inspector general I troubled asset relief program




                                            Disputed Property Valuations
                                            Treasury guidance states that if the borrower believes the NPV test result is incor-
                                            rect because the property valuation used by the servicer differed from the actual
                                            market value of the property as of the date the NPV test was run, the borrower
                                            may submit corrected valuation information and request an NPV re-evaluation.
                                            Effective February 1, 2011, this process includes the following steps:181

                                            •	 The borrower provides the servicer a recent estimate of the property value with
                                               a reasonable basis, such as a broker’s evaluation or a Web pricing service, within
                                               30 days from the date of the Non-Approval Notice.
                                            •	 Upon receipt of the borrower’s request, the servicer must perform a preliminary
                                               NPV re-evaluation using the borrower’s estimate (along with any other mate-
                                               rial disputed inputs). If the preliminary re-evaluation generates a positive NPV
                                               result, the servicer must offer the borrower an opportunity to request that the
                                               servicer arrange for an independent appraisal of the property. According to
                                               Treasury, the appraisal will establish the fair market value of the property as of
                                               the date the NPV test was run.
                                            •	 The new appraisal must be performed by an independent third party not affili-
                                               ated with the servicer in accordance with the Uniform Standards of Professional
                                               Appraisal Practice. A new appraisal is not required if the original NPV property
                                               value input was based on an appraisal conforming to these standards, but the
                                               servicer must provide a copy to the borrower.
                                            •	 Within 15 days of being notified of a positive NPV result from the servicer’s pre-
                                               liminary re-evaluation, the borrower must make a $200 deposit against the cost
                                               of the requested re-appraisal (if necessary), with any balance of the cost of the
                                               appraisal added to the borrower’s outstanding amounts due under the mortgage
                                               — regardless of whether the new appraisal results in an offer for a modification.
                                            •	 The servicer performs a final NPV re-evaluation using the appraisal value.
                                            •	 The servicer must provide the final NPV outcome and a list of input values to
                                               the borrower.

                                            Escalated Case Management
                                            Treasury guidance requires participating MHA servicers to have written procedures
                                            and personnel in place to respond to borrower inquiries and disputes that consti-
                                            tute “escalated cases.” HSC manages such cases, and both HSC and the HOPE
                                            Hotline assist borrowers and their advocates with making preliminary assessments
                                            of MHA program eligibility and resolving disputes with servicers.
                                                HAMP’s administrative website for servicers lists the following examples of
                                            cases that represent valid reasons for escalation:182
                                                                              quarterly report to congress I JANUARY 26, 2011   79




•	 servicer refuses to stop a scheduled foreclosure sale on a borrower’s house while
   the borrower is being evaluated for HAMP
•	 servicer charges up-front fees for the modification
•	 servicer instructs the borrower to miss a payment
•	 servicer claims that it is waiting for information or guidance from Treasury (i.e.,
   Treasury is causing the delay)
•	 servicer advises the borrower to intentionally misrepresent personal or financial
   information
•	 servicer says it is not participating in HAMP, but the loan’s investor is a GSE
•	 servicer says borrower doesn’t qualify, but counselor has reason to believe that
   the borrower is eligible

    Borrowers may bring escalated cases to servicers’ attention directly, or through
HSC, MHA Help, authorized advisors, Treasury, other Federal agencies, or elected
officials.
    With respect to addressing escalated cases, servicers participating in MHA are
subject to a number of requirements:183

•	 Written procedures and personnel must be in place to respond to escalated
   cases and escalated cases must be handled in accordance with the timeliness
   requirements discussed below.
•	 Staff must be accessible directly by telephone and email, have access to all
   relevant borrower documentation, be trained on the servicer’s case escalation
   procedures, be knowledgeable about MHA Program guidelines, possess the
   necessary authority to resolve escalated cases, and be capable of sending and
   receiving documents and information in the servicing system and/or mortgage
   file to support their resolution.
•	 For larger servicers, all personnel handling escalated cases must be independent
   of those who made the initial MHA-eligibility determination.
•	 Report to HSC and MHA Help the status of referred escalated cases and, upon
   request, provide all information necessary to evaluate a borrower’s case. This
   information includes, but is not limited to, the following:184
   çç debt and income inputs, assumptions, and calculations used to evaluate the
        borrower
   çç investor/guarantor name and loan pool identification code if the reason for
        denial is “investor/guarantor not participating,” subject to mortgage trust
        disclosure laws
   çç borrower or servicer correspondence relative to applicable MHA program
        evaluation
   çç servicer-constructed timeline of events relative to applicable MHA program
        evaluation
80   special inspector general I troubled asset relief program




                                               When a servicer receives an escalated case, MHA’s “escalation resolution pro-
                                            cess” requires the servicer to review it against its own records and the data reported
                                            to HAMP in order to determine the merits of the inquiry and come to a resolution.
                                            As necessary, the servicer must review the steps taken to determine the HAMP
                                            modification payment and NPV testing.
                                               The timing of each review is subject to the following requirements:185

                                            •	 Escalated cases are date stamped upon receipt.
                                            •	 The servicer must acknowledge its receipt of the inquiry to the borrower in writ-
                                               ing within five business days.
                                            •	 The servicer must provide the borrower a case reference name or number and
                                               a toll-free “escalation contact” phone number, as well as the date by which the
                                               servicer “will resolve the case.” This date must not be 30 calendar days later
                                               than receipt of the case.
                                            •	 In the event the case is not resolved within 30 days, the servicer must provide an
                                               updated status at the end of the first 30 days and every 15 days thereafter until
                                               the case is resolved. There is no limit to the number of 15-day extensions the
                                               servicer may authorize.
                                            •	 The servicer may not conduct a scheduled foreclosure sale until the case is re-
                                               solved in accordance with all MHA program guidelines, but it may proceed with
                                               all other steps in the foreclosure process.

                                                Escalated cases are considered to be resolved when the inquiry has been re-
                                            viewed in accordance with MHA guidelines and the servicer has taken one of two
                                            actions:186

                                            •	 confirmed in writing the original rejection or identified a proposed resolution
                                               within one of the existing MHA program categories
                                            •	 in the case of a proposed resolution:
                                               çç documented and dated the proposed resolution in the servicing system
                                                   and/or mortgage file
                                               çç within 10 business days, communicated to the borrower in writing the pro-
                                                   posed resolution and next steps (e.g., trial period plan notice, modification
                                                   agreement, short sale, or deed-in-lieu agreement)
                                               çç initiated action to implement the resolution

                                                If the case was referred to the servicer by either HSC or MHA Help, the case
                                            may not be considered resolved unless HSC or MHA Help documents its concur-
                                            rence with the proposed resolution or the confirmation of the original determina-
                                            tion.187 According to Treasury, effective February 1, 2011, if the servicer declines to
                                            change its initial decision, the case will be referred directly to an on-call Treasury
                                                                              quarterly report to congress I JANUARY 26, 2011           81




staff person from the Office of Financial Stability’s Homeownership Preservation
Office.188 The Treasury employee will review the case notes and, if appropriate,
escalate the case to a more senior point of contact at the servicers for reconsidera-
tion. There is no further avenue of appeal, so that ultimately the decision remains
within the discretion of the servicer. Although Treasury maintains an ability to
impose financial sanctions on servicers who violate program rules in the form of
denying or recapturing incentives due or previously paid, as of December 31, 2010,
no such sanctions have been imposed as a result of disagreement with borrower
denials.189

Borrower NPV Calculator
As required by the Dodd-Frank Act, Treasury has announced that it is developing a
publicly available Web-based NPV calculator based on the HAMP NPV model (the
“Borrower NPV Calculator”). According to Treasury, the Borrower NPV Calculator
will assist borrowers in evaluating their potential eligibility for HAMP before apply-
ing as well as in reviewing the servicer’s NPV evaluation after a denial. According to
Treasury, the tool is scheduled to be available in spring 2011.190 In the interim, and
beginning February 1, 2011, borrowers or their advocates may request that MHA-
Help or HSC complete the NPV analysis on their behalf.191

HAFA
According to Treasury, HAFA is intended to encourage servicers to provide borrow-
ers with an alternative to foreclosure by offering financial incentives to servicers
and borrowers utilizing a streamlined process for conducting short sales or deeds-
in-lieu of foreclosure as an alternative to foreclosure.192 Under HAFA, the servicer
forfeits the ability to pursue a deficiency judgment against a borrower who uses
a short sale or deed-in-lieu when the property is worth less than the outstanding
amount on the mortgage.193 HAFA provides financial incentives and reimburse-
ments for a successful short sale or deed-in-lieu of foreclosure, including a $3,000
“relocation” incentive payment to borrowers, a $1,500 incentive payment to
servicers, and incentive payments to subordinate mortgage lien holders in exchange            Deficiency Judgment: Court order
for a release of the lien and the borrower’s liability.194 The program was announced          authorizing a lender to collect all or
on November 30, 2009, and went into effect on April 5, 2010.195                               part of an unpaid and outstanding debt
    On December 28, 2010, Treasury loosened the provisions requiring HAFA                     resulting from the borrower’s default
applicants to meet HAMP eligibility requirements related to monthly gross income              on the mortgage note securing a debt.
                                                                                              A deficiency judgment is rendered
limitations and that the borrower reside in the home as a primary residence.196
                                                                                              after the foreclosed or repossessed
As a result, effective February 1, 2011, or earlier at the discretion of the servicer,
                                                                                              property is sold when the proceeds are
because HAFA has no income requirements, servicers are no longer required by
                                                                                              insufficient to repay the full mortgage
Treasury to verify a borrower’s financial information or determine whether his or             debt.
her total monthly payment exceeds 31% of the borrower’s gross monthly income,
unless this verification is required by the investor. Under this program change,
82   special inspector general I troubled asset relief program




                                            Treasury guidance provides that a borrower must still provide sufficient evidence
                                            of hardship through completing and executing a Hardship Affidavit or Request for
                                            Modification and Affidavit (“RMA”) and that servicers must continue to indepen-
                                            dently verify a borrower’s hardship. Notwithstanding these updates, servicers retain
                                            the discretion to require borrowers to provide additional financial information or
                                            evidence of hardship.197
                                                In addition, HAFA previously required that the property be the borrower’s
                                            primary residence. Vacant properties were not eligible unless the borrower had va-
                                            cated the property less than 90 days prior to seeking HAFA assistance and the bor-
                                            rower provided documentation that the borrower was required to relocate at least
                                            100 miles from the property to accept new employment or was transferred by a cur-
                                            rent employer. Effective no later than February 1, 2011, a borrower will only need
                                            to provide documentation that the property was used as the primary residence at
                                            some point within the 12 months preceding the request for assistance.198 In other
                                            words, borrowers who have not occupied the property as their primary residence for
                                            as long as a year are now eligible to receive the $3,000 relocation incentive under
                                            the program. The property can be vacant or even rented out to a non-borrower. A
                                            borrower’s reason for relocation and the distance of that relocation from the prop-
                                            erty are thus no longer relevant.199
                                                Also effective no later than February 1, 2011, borrowers will no longer have
                                            to move out of their home at all in order to receive the $3,000 “relocation” incen-
                                            tive payment. Under these changes, after a borrower relinquishes title, the servicer
                                            can allow the borrower to remain in the home on a rental basis (referred to as a
                                            “deed-for-lease”) or allow the borrower to repurchase the property later without af-
                                            fecting the borrower’s right to receive the $3,000 “relocation” incentive payment.200
                                            Servicers will have the option to pay the borrower “relocation” incentive either
                                            upon the successful surrender of title or when the borrower vacates or repurchases
                                            the property at a future date.201 As a result, borrowers could receive a “reloca-
                                            tion” incentive payment while still remaining in the home under a deed-for-lease
                                            agreement.
                                                In addition, effective February 1, 2011, Treasury retained the maximum al-
                                            lowable aggregate payoff to all subordinate lien holders at a cap of $6,000, but
                                            removed the individual cap of 6% of the UPB of each subordinate lien that could
                                            be paid to subordinate lien holders.202 Investors will continue to receive a maximum
                                            of $2,000 for securing the release of subordinate liens. This reimbursement will be
                                            earned on a one-for-three matching basis. In other words, for every $3 in short sale
                                            or deed-in-lieu of foreclosure proceeds an investor pays to secure the release of a
                                            subordinate lien, the investor will be entitled to receive $1 in reimbursement incen-
                                            tive payments, up to the maximum of $2,000.203
                                                                             quarterly report to congress I JANUARY 26, 2011   83




     As of December 31, 2010, according to Treasury, approximately $9.5 million
from TARP had been paid to investors, borrowers, and servicers in connection
with 2,181 short sales or deeds-in-lieu completed under HAFA.204 As of October
31, 2010 (the most recent data Treasury made available to SIGTARP), according
to Treasury, the eight largest servicers alone had completed 87,004 short sales and
deed-in-lieu of foreclosure transfers outside of HAMP for borrowers whose HAMP
trial modifications had failed.205 This may be explained, in part, by the fees and
deficiency judgments that servicers are able to collect in non-HAFA transactions
from the borrower in connection with a foreclosure alternative that is not available
within HAFA.

2MP
According to Treasury, 2MP is designed to work in tandem with HAMP and to help
provide relief for borrowers with second mortgages serviced by a participating 2MP
servicer. An individual servicer does not have to service both the first and second
liens in order for the second lien to be eligible for modification under 2MP. Under
the program, when a borrower’s first lien is modified under HAMP and the servicer
of the second lien is a 2MP participant, that servicer must offer to modify the bor-
rower’s second lien. These servicers have the option of modifying the borrower’s
second lien according to “a defined protocol,” accepting a lump-sum payment
from the Treasury for full extinguishment of second-lien principal, or accepting a
lump-sum payment from Treasury in exchange for a partial extinguishment and the
modification of the remainder of the second lien according to a defined protocol.206
Lender Processing Services’ Applied Analytics Division has been contracted by the
participating servicers to match HAMP first liens with second liens.207 Treasury has
provided no mechanism for the borrower to bring a match to a servicer’s attention
or to otherwise expedite the process.
    2MP relies on existing first-lien data. Second-lien servicers, therefore, are not
required to verify any of the borrower’s financial information and do not perform a
separate NPV analysis in order to modify the second lien.
    For a second-lien modification, after capitalizing any accrued interest and
servicing advances, the servicer first reduces the interest rate, which is determined
by the nature of the loan. The interest rate for amortizing second liens (those that
require payments of both interest and principal) decreases to 1% for the first five
years of the loan. If the loan is interest-only (non-amortizing), the servicer can
either convert the interest-only payment to an interest-bearing equivalent at 1% or
retain the interest-only schedule and reduce the rate to 2% for the first five years.
In both cases, after the five-year period the rate increases to match the rate on the
84              special inspector general I troubled asset relief program




                                                                        HAMP-modified first lien. When modifying the second lien, the servicer must,
                                                                        at a minimum, extend the term to match the term of the first lien but can extend
                                                                        the term up to a maximum of 40 years. To the extent that there is forbearance or
                                                                        principal reduction for the modified first lien, the second-lien holder forbears or
                                                                        forgives the same percentage.208
                                                                            The servicer receives a $500 incentive payment upon modification of a second
                                                                        lien. If a borrower’s monthly second-lien payment is reduced by 6% or more, the
                                                                        servicer is eligible for a “pay for success” incentive of $250 annually for up to three
                                                                        years, and the borrower is eligible for an annual “pay for performance” principal
                                                                        balance reduction payment of up to $250 for up to five years.209 Investors receive a
                                                                        modification incentive payment equal to an annualized amount of 1.6% of the un-
                                                                        modified UPB, paid on a monthly basis for up to five years. If the borrower misses
                                                                        three consecutive payments on his or her modified second lien or if the associated
                                                                        first lien is no longer in good standing, no further incentive payments are made
                                                                        to the servicer.210 If the second lien is fully or partially extinguished, the investor
                                                                        receives a payment of a percentage of the amount extinguished, using the sched-
                                                                        ule shown in Table 2.14. This schedule, however, is applicable only to those loans
                                                                        that have been six months delinquent or less within the previous year. For loans
     Table 2.14                                                         that have been more than six months delinquent within the previous 12 months,
     2mp compensation per dollar of                                     investors are paid $0.06 per dollar of the UPB of second liens being extinguished,
     loan principal extinguished                                        regardless of the LTV ratio.211 As of December 31, 2010, according to Treasury, ap-
 Combined Loan-to-                            115%
                                                                        proximately $2.9 million in TARP funds had been paid to servicers and investors in
 Value Ratio (“CLTV”) < 115%                   to         > 140%
 Rangea                                       140%                      connection with 3,257 loan extinguishments and modifications under 2MP.212
 Incentive Amounts             $0.21          $0.15         $0.10
                                                                        Agency-Insured Programs
 Notes: Loans less than or equal to six months past due. For loans
 that were more than six months past delinquent within the previous     Some mortgage loans insured or guaranteed by Federal Government agencies,
 year, investors will receive $0.06 per dollar in compensation,
 regardless of the LTV ratio.                                           such as FHA, VA, and RHS, are eligible for modification. Similar to HAMP, FHA-
 a
   The LTV is the ratio of the sum of the current total UPB of the
 HAMP-modified first lien and the current total UPB of the unmodified   HAMP and RD-HAMP reduce borrowers’ monthly mortgage payments to 31% of
 second lien divided by the property value determined in connection
 with the permanent HAMP modification.                                  their gross monthly income and require borrowers to complete trial payment plans
 Source: Treasury, “MHA Handbook for Servicer of Non-GSE                before their loans are permanently modified. Subject to meeting Treasury’s eligibili-
 Mortgages, Version 3.0,” 12/2/2010, https://www.hmpadmin.
 com/portal/programs/docs/hamp_servicer/mhahandbook_30.pdf,             ty criteria, borrowers are eligible to receive a maximum $1,000 pay-for-performance
 accessed 12/6/2010.
                                                                        compensation incentive and servicers are eligible to receive a maximum $1,000
                                                                        pay-for-success compensation incentive from Treasury on mortgages in which the
                                                                        monthly payment was reduced by at least 6%.213 Incentive payments to servicers
                                                                        are paid annually for the first three years after the first anniversary of the first trial
                                                                        payment due date, as long as the loan remains in good standing and has not been
                                                                        fully repaid at the time the incentive is paid. Incentive payments to borrowers are
                                                                        paid over five years.214 Unlike HAMP, no payments are made to investors because
                                                                        they already have the benefit of a Government loan guarantee program.215 In order
                                                                        to participate in these programs, servicers that previously executed a SPA were
                                                                              quarterly report to congress I JANUARY 26, 2011   85




required to execute — by October 3, 2010 — an Amended and Restated SPA or an
additional Service Schedule that includes Treasury FHA-HAMP or RD-HAMP.216
    VA-HAMP follows the typical HAMP modification procedure, aiming to reduce
monthly mortgage payments to 31% of a borrower’s gross monthly income.217
However, VA-HAMP modifications do not have a trial period, and the modification
agreement immediately changes the installment amount of the mortgage loan.218
Treasury does not provide incentive compensation related to VA-HAMP.219 VA-
HAMP also does not require servicers to sign a SPA.220 As of December 31, 2010,
according to Treasury, approximately $239,000 in TARP funds had been paid to
servicers and borrowers in connection with 643 permanent FHA-HAMP modifica-
tions. Treasury stated that it could not provide SIGTARP with the amount of incen-
tive payments and modifications completed under RD-HAMP.221

Unemployment Program (“UP”)
The Home Affordable Unemployment Program (“UP”), which was announced on
March 26, 2010, provides temporary assistance to borrowers whose hardship is
related to unemployment.222 Under the program, borrowers who meet certain quali-
fications can receive unemployment forbearance for a portion of their mortgage
payments for at least three months, unless they find work. According to Treasury,
“[s]ervicers may extend the minimum forbearance period in increments at the
servicer’s discretion, in accordance with investor and regulatory guidelines.”223 As of
December 31, 2010, according to Treasury, 5,335 borrowers are actively participat-
ing in UP.224

Who Is Eligible
HAMP servicers are required to offer an UP forbearance plan of at least three
months to a borrower meeting HAMP minimum eligibility criteria. A borrower
must:225

•	 be HAMP eligible
•	 have a mortgage secured by a one- to four-unit property, one unit of which must
   be the borrower’s principal residence
•	 have a first-lien mortgage originated on or before January 1, 2009
•	 have a UPB for a one-unit property that is equal to or less than $729,750
   (multi-unit limits are higher)
•	 have a mortgage that was not previously modified under HAMP
•	 have not received a previous UP forbearance
86   special inspector general I troubled asset relief program




                                            •	 have requested an UP forbearance plan before the first-lien mortgage loan was
                                               seriously delinquent; i.e., three months or more overdue
                                            •	 have received unemployment benefits for up to three months before the forbear-
                                               ance period begins (pursuant to investor or regulator guidelines, servicers may
                                               require this)
                                            •	 be unemployed and receive unemployment benefits in the month the UP for-
                                               bearance period becomes effective

                                                 Borrowers enrolled in HAMP trials who lose their jobs may seek consideration
                                            under UP as long as their mortgage loan was not seriously delinquent (i.e., before
                                            three monthly payments are due and unpaid on the last day of the third month) as
                                            of the first trial period payment due date. Servicers are required to send the borrow-
                                            er a notice of all the required documentation for UP consideration. Borrowers must
                                            have at least two weeks from the date on the notice to return the documentation.
                                            Upon receipt of the returned documents, the servicer must complete the evaluation
                                            within 30 days.226 If the borrower becomes eligible for the UP forbearance plan
                                            and accepts the plan offer, the servicer must cancel the HAMP trial period plan.
                                            Eligible borrowers may request a new HAMP trial period plan after the UP forbear-
                                            ance plan is completed. A borrower who was previously determined to be ineligible
                                            for HAMP may request assessment for an UP forbearance plan if he or she meets
                                            all the eligibility criteria.227 If a borrower who is eligible for UP declines an offer
                                            for an UP forbearance plan, the servicer is not required to offer the borrower a
                                            modification under HAMP or 2MP while the borrower remains eligible for an UP
                                            forbearance plan.228

                                            How UP Works
                                            For qualifying homeowners, the mortgage payments during the forbearance period
                                            are lowered to no more than 31% of gross monthly income, including unemploy-
                                            ment benefits.229 According to Treasury, “at the discretion of the servicer, the bor-
                                            rower’s monthly mortgage payments may be suspended in full.”230 The UP forbear-
                                            ance plan is required to last a minimum of three months, unless the borrower
                                            becomes employed within that time.231
                                                If the borrower regains employment but because of reduced income still has a
                                            hardship, the borrower must be considered for HAMP. If the borrower is eligible,
                                            any missed payments prior to and during the UP forbearance plan will be capital-
                                            ized as part of the normal HAMP modification process.232 If the UP forbearance
                                            period expires and the borrower is ineligible for HAMP, the borrower may be
                                            eligible for HAMP foreclosure alternatives, such as HAFA.233
                                                                               quarterly report to congress I JANUARY 26, 2011   87




PRA	
On June 3, 2010, Treasury announced that it would implement a program intended
to provide investors with incentive payments to encourage them to forgive princi-
pal for significantly underwater mortgages. This Principal Reduction Alternative
(“PRA”) program is applicable only to non-GSE loans and therefore does not cover
loans owned, guaranteed, or insured by Freddie Mac or Fannie Mae, which have
refused to participate in the program.234 Although PRA did not officially take effect
until October 1, 2010, servicers were permitted to begin offering PRA assistance
immediately.235
    Before PRA started, servicers were allowed to forgive principal to achieve the
DTI ratio goal of 31% on a stand-alone basis or before any of the other HAMP
modification steps but did not receive additional incentive payments for doing so.236
In contrast to other HAMP programs, PRA does not require servicers to forgive
principal under any circumstances, even when doing so is deemed to offer greater
financial benefit to the investor.237

Who Is Eligible
Borrowers who meet all HAMP eligibility requirements and who owe more than
115% of their home’s value are eligible for PRA.239 According to Treasury, servicers
may (but are not required to) evaluate existing HAMP borrowers that were in
HAMP permanent modifications or existing second-lien mortgage loans modified
through 2MP retroactively for PRA assistance.240 Those that choose to do so must
develop written policies and procedures to identify existing loans that are eligible
and treat them in a consistent manner. If the servicer chooses to consider existing
HAMP borrowers for retroactive application of PRA, those loans must be evaluated
no later than January 31, 2011.

How PRA Works
Principal forbearance divides a mortgage loan into two segments, one interest-
bearing and the other not. The borrower continues to make regular principal and
interest payments on the interest-bearing segment, but no monthly payments are
due with respect to the non-interest-bearing segment. Rather, that segment, rep-
resenting the principal forbearance amount, is due as an additional lump-sum or
“balloon” payment at the earlier of the sale of the property or the eventual maturity
date of the mortgage. Under PRA, however, if the borrower remains in good stand-
ing on the first, second, and third anniversaries of the modification, the servicer will
reduce the principal balance in the separate forbearance account on each anniver-
sary in installments equal to one-third of the initial PRA forbearance amount.241
88               special inspector general I troubled asset relief program




                                                                         As previously stated, participating servicers must evaluate for PRA assistance
                                                                    every HAMP-eligible loan that has an outstanding LTV greater than 115%. The
                                                                    servicer does so by running two NPV tests — one with and one without principal
                                                                    forgiveness — using methodologies prescribed by Treasury.242 If the standard water-
                                                                    fall produces a positive NPV result, the servicer must modify the loan.243 However,
                                                                    servicers are not required to offer principal reduction, even when the NPV result
                                                                    under the alternative waterfall using principal forgiveness is positive and exceeds
                                                                    the NPV result produced using the standard waterfall; they are required simply to
                                                                    consider PRA-eligible borrowers for such assistance.244
                                                                         The two versions of the NPV test differ in the following manner: the origi-
                                                                    nal NPV test calculates investor return if the mortgage is modified according to
                                                                    the standard HAMP procedures: reducing the mortgage interest rate, extending
                                                                    the term of the loan, and forbearing principal. The alternative NPV test begins
                                                                    by reducing the outstanding principal balance to 115% of the property’s value; if
                                                                    that alone is insufficient to bring the monthly payment to 31% of the borrower’s
                                                                    monthly income, then the NPV test will continue with the standard HAMP modifi-
                                                                    cation steps.245 This NPV test then uses the reduced outstanding principal balance
                                                                    to calculate the return to investors, taking into account incentive payments and
                                                                    the annual PRA principal reductions.246 Servicers that forgive at least 5% of the
                                                                    borrower’s UPB have additional discretion in setting the terms of the modification
                                                                    because they are permitted to extend the loan’s maturity date before reducing the
                                                                    interest rate when determining the modified payment.247

                                                                    Who Gets Paid
                                                                    According to Treasury, in addition to the other incentives paid for first-lien modi-
                                                                    fications, investors are entitled to receive a percentage of each dollar of principal
                                                                    forgiven under PRA. Incentive payments are received on the first, second, and third
                                                                    anniversaries of the modification date and are paid at the same time that the previ-
Table 2.15                                                          ously forborne principal is forgiven.248 The incentive payments range from $0.06
 incentives to investors per                                        to $0.21 per dollar, depending on the level to which the outstanding LTV ratio was
 dollar of loan principal                                           reduced and the period of delinquency.249 Table 2.15 shows the schedule under
 reduced                                                            which investors are compensated for forgiving principal. The schedule provides
Mark-to-Market Loan-             105%        115%
                                                                    increasing incentive payments for the additional amount by which investors are
to-Value Ratio (“LTV”)             to         to  > 140%
Rangea                           115%        140%                   willing to reduce a mortgage’s outstanding principal balance compared with the
Incentive Amounts               $0.21       $0.15         $0.10     property’s value. This schedule is applicable only to those loans that have been six
                                                                    months delinquent or less within the previous year. For loans that have been more
Notes: Loans less than or equal to six months past due. For
loans that were more than six months past delinquent within the     than six months delinquent within the previous year, investors are paid $0.06 per
previous year, investors will receive $0.06 per dollar in compen-
sation, regardless of the LTV ratio.                                dollar of principal reduction, regardless of the LTV ratio.250
a
  The LTV is based on the pre-modified UPB of the first lien
mortgage divided by the value of the property.

Source: Treasury, “Modification of Loan with Principal Reduction
Alternative,” 6/3/2010, https://www.hmpadmin.com/[portal/
docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
                                                                              quarterly report to congress I JANUARY 26, 2011              89




    Treasury states that, although servicers may reduce the mortgage principal bal-
ance below the floor of a 105% LTV ratio, no PRA incentives will be paid for that
                                                                                              Equity Share Agreement: Agreement
portion of the principal reduction amount.251
                                                                                              that a homeowner will share future in-
    As an additional incentive, an investor may agree to reduce a borrower’s UPB as           creases in home value with a mortgage
part of an equity share agreement under which the borrower and investor agree to              investor or other party. In the context
share in the increase of the value of the property, under certain conditions. These           of mortgage loan modifications, the
include:252                                                                                   investor may reduce the borrower’s
                                                                                              UPB in return for the right to share in a
•	 The agreement may not require the borrower to make any equity share pay-                   portion of any future rise in the home’s
   ments until the loan is fully satisfied. Thus, even if the home increases in value,        value. An equity share agreement thus
   the borrower need not make any payments to the investor based on that in-                  may provide the mortgage investor
   crease in the home’s value until the mortgage loan is repaid.                              with a prospect of recovering its full in-
                                                                                              vestment, even if it provides a principal
•	 The agreement may not include a prepayment penalty, meaning that the bor-
                                                                                              reduction to the borrower. Conversely,
   rower may not be assessed fees for repaying the loan ahead of its scheduled
                                                                                              it may also provide an immediate ben-
   maturity.
                                                                                              efit to an “underwater” borrower, yet
•	 The agreement must include reasonable provisions permitting the borrower to
                                                                                              still offer that borrower some prospect
   recoup costs from improvements (for example, renovations) that increase the                of benefiting from future home price
   home’s value.                                                                              appreciation.
•	 The investor may not receive more than 50% of any increase in property value
   (after credit for improvements made by the borrower) between the date of the               For example, Dick and Jane have a
   permanent modification and the date when the loan is fully satisfied. In addi-             mortgage loan UPB of $115,000
   tion, the investor may not recover more than the amount of principal reduction             on a home that is currently worth
   minus the PRA investor incentive. Thus, the investor may not recover more                  $100,000. Dick and Jane enter into an
   than half of any future increase in the value of the home, subject to a cap                equity share agreement with their mort-
   equal to the initial reduction in UPB minus incentives received by the investor            gage investor that reduces the UPB
                                                                                              on their mortgage loan by $10,000,
   through PRA.
                                                                                              to $105,000. The investor receives a
•	 The agreement must incorporate a method for independently assessing the
                                                                                              principal reduction incentive of $2,100.
   value of the property when the loan is fully satisfied that is acceptable to both
                                                                                              A few years later, Dick and Jane sell
   the investor and the borrower. In addition, the assessment of the property value
                                                                                              their home for $120,000, which
   at the time of the permanent modification must be that obtained as part of                 represents $15,000 over the balance
   the borrower’s evaluation for a HAMP modification. Thus, the initial property              from the equity share agreement. If the
   valuation must be the same as that used for the borrower’s HAMP evaluation,                agreement calls for an equal division
   and there must be an independent method, acceptable to both the borrower                   of home price gains between borrower
   and the investor, to determine any increase in the home’s value when the loan is           and investor, the investor would re-
   ultimately repaid.                                                                         ceive half that amount, less the $2,100
                                                                                              in compensation already received
                                                                                              ($7,500 – $2,100 = $5,400). Dick
                                                                                              and Jane would receive the balance, or
                                                                                              $9,600.
90   special inspector general I troubled asset relief program




                                            FHA Short Refinance
                                            On March 26, 2010, Treasury and the Department of Housing and Urban
                                            Development (“HUD”) announced the FHA Short Refinance program, which gives
                                            borrowers the option of refinancing an underwater, non-FHA-insured mortgage
                                            into an FHA-insured mortgage at 97.75% of the home’s value. The original pro-
                                            gram announcement estimated TARP support of up to $14 billion.253 This amount
                                            has been revised downward to an estimate of $10.8 billion. This amount consists of
                                            (1) up to $8.0 billion to provide loss protection to FHA on the refinanced first liens
                                            through the purchase of a letter of credit; (2) up to $117 million in fees Treasury
                                            will incur for the availability and use of the letter of credit; and (3) an estimated
                                            allocation of $2.7 billion to make incentive payments to servicers and holders of
                                            existing second liens for full or partial principal extinguishments under the related
                                            FHA2LP.254 FHA Short Refinance is voluntary for servicers; therefore, not all
                                            underwater borrowers who qualify may be able to participate in the program.255
                                            The program was launched on September 7, 2010; FHA2LP went into effect
                                            on September 27, 2010.256 As of December 31, 2010, according to Treasury and
                                            HUD, 15 loans had been refinanced under FHA Short Refinance. There had not
                                            been any defaults on loans refinanced into FHA Short Refinance, and therefore, no
                                            losses had been incurred and the line of credit had not been accessed.257 According
                                            to Treasury, it had not made any incentive payments and no second liens had been
                                            extinguished under FHA2LP through December 31, 2010.258

                                            Who Is Eligible
                                            For a homeowner to be eligible for FHA Short Refinance, the homeowner must
                                            meet the following criteria:259

                                            •	 be current on the existing first-lien mortgage
                                            •	 be in a negative equity position
                                            •	 occupy the home as a primary residence
                                            •	 qualify for the new loan under standard FHA underwriting requirements and
                                               have a FICO credit score of at least 500.
                                            •	 have an existing loan that is not insured by FHA
                                            •	 fully document his or her income

                                               According to HUD, applications are evaluated using FHA’s TOTAL Scorecard
                                            (“TOTAL”). TOTAL evaluates the credit risk of FHA loans that are submitted to
                                            an automated underwriting system.  It is FHA’s policy that no borrower be de-
                                            nied an FHA-insured mortgage solely on the basis of a risk assessment generated
                                            by TOTAL. The lender must conduct a manual underwriting review under FHA
                                                                               quarterly report to congress I JANUARY 26, 2011   91




requirements for all loan applications that receive a “Refer” rating to assess if the
borrower can be approved. If the loan information is submitted to TOTAL and
scored “Refer,” the loan must be manually underwritten and the borrower must
meet the following additional conditions:260

•	 have a total DTI, including all recurring debt, of less than 50%
•	 have a DTI for all housing-related debt (including second liens) of less than 31%
   after refinancing

     The FHA-refinanced loan has the following characteristics:261

•	 The aggregate FHA insurance and TARP-supported loss coverage for the refi-
   nanced loan is a maximum of 97.75% of the current value of the home.
•	 The borrower’s combined mortgage debt (including all liens) is written down to
   a maximum of 115% of the current value of the home.
•	 The existing first-lien holder must write off at least 10 percent of the borrower’s
   UPB.
•	 The original first-lien investor has the option of converting any amount of the
   original mortgage that is greater than 97.75% of the value of the home to a
   subordinated second lien for up to 115% of the current value of the home. The
   balance of the mortgage above 115% is extinguished. If a second lien exists, the
   total combined mortgage amount after the refinance does not exceed 115% of
   the home’s value.

    Additionally, to be eligible under FHA2LP, second liens must meet the follow-
ing conditions:262

•	   have originated on or before January 1, 2009
•	   be immediately subordinate to the first lien before the FHA refinance
•	   require the borrower to make a monthly payment
•	   not be GSE-owned or guaranteed
•	   have a UPB of $2,500 or more on the day before the FHA refinance closing
     date
92                  special inspector general I troubled asset relief program                                                                                      92




                                                                         How FHA Short Refinance Works
                                                                         Servicers must first determine the current value of the home pursuant to FHA
                                                                         underwriting standards, which require a third-party appraisal by a HUD-approved
                                                                         appraiser. The borrower is then reviewed by TOTAL, and, if necessary, referred to a
                                                                         manual underwriting review to confirm that the borrower’s total monthly mortgage
                                                                         payment (including all payments on subordinate liens) after the refinance is not
                                                                         greater than 31% of the borrower’s gross monthly income and the total debt service,
     Table 2.16                                                          including all forms of household debt, is not greater than 50%.263 Next, the lien
     treasury fha2lp compensation                                        holders must forgive principal that is more than 115% of the value of the home.
     per dollar of loan principal                                        Although the first-lien investors must recognize a loss as a result of the mortgage
     extinguished                                                        write-down, they receive a cash payment for 97.75% of the current home value
     Mark-to-Market Loan-           105%          115%                   from the proceeds of the refinance and may maintain a subordinate second lien for
     to-Value Ratio (“LTV”)          to            to  > 140%
     Rangea                         115%          140%                   up to 17.25% of that value (for a total balance of 115% of the home’s value).264
     Incentive Amounts              $0.21        $0.15        $0.10           The 115% cap applies to all liens on the property. Under FHA2LP, existing
                                                                         second-lien holders may receive incentive payments to extinguish their debts in
     Notes: Loans less than or equal to six months past due. For
     loans that were more than six months past delinquent within the     accordance with the schedule set forth in Table 2.16, or they may negotiate with
     previous year, investors will receive $0.06 per dollar in compen-
     sation, regardless of the LTV ratio.                                the first-lien holder for a portion of the new subordinate lien loan.265 Regardless
     a
       The combined LTV is the ratio of all mortgage debt to the cur-
     rent FHA-appraised value of the property.                           of which choice second-lien holders make, the total of all liens cannot exceed the
     Source: Treasury, “Supplemental Directive 10-08: Making Home        115% cap. By obtaining a new FHA-guaranteed loan for an amount that is closer to
     Affordable Program ─ Treasury/FHA Second Lien Program
     (FHA2LP) to Support FHA Refinance of Borrowers in Negative          the current home value than their previous loan, homeowners receive the benefits
     Equity Positions,” 8/6/2010, www.hmpadmin.com/[portal/
     docs/hamp_servicer /sd1008.pdf, accessed 8/20/2010.                 of a lower monthly mortgage payment and reduction in the principal balance, im-
                                                                         proving their opportunity to achieve positive equity in their homes.266
                                                                              If a borrower defaults on a loan refinanced under FHA Short Refinance and
                                                                         submits a claim, the letter of credit purchased by TARP compensates the refi-
                                                                         nancing investor for a first percentage (originally announced as 7.75 percent, but
                                                                         currently approximately 13.4 percent) of losses on each defaulted mortgage, up
                                                                         to the maximum amount specified by the program guidelines.267 This percentage
                                                                         varies from year to year and is set according to a formula derived by the Office of
                                                                         Management and Budget.268 FHA thus is potentially responsible for the remaining
                                                                         approximately 86.6% of potential losses on each mortgage, until the earlier of either
                                                                         (i) the time that the $8.0 billion letter of credit posted by Treasury is exhausted, or
                                                                         (ii) 10 years from the issuance of the letter of credit (October 2020), at which point
                                                                         FHA will bear all of the remaining losses.269 TARP has also made an estimated al-
                                                                         location of $2.7 billion under its existing servicer caps to make incentive payments,
                                                                         subject to certain limitations, to (1) investors for preexisting second-lien balances
                                                                         that are partially or fully extinguished under FHA2LP and (2) servicers, in the
                                                                         amount of $500 for each second-lien mortgage placed into the program.270

                                                                         HFA HHF
                                                                         On February 19, 2010, the Administration announced a new housing support
                                                                         program, HHF, which was intended to promote innovative measures to protect
                                                                           quarterly report to congress I JANUARY 26, 2011   93




home values, preserve homeownership, and promote jobs and economic growth in
the states that have been hit the hardest by the housing crisis.271 The first round
of HHF was allocated $1.5 billion of the amount designated for MHA initiatives.
According to Treasury, these funds were designated for five states where the aver-
age home price, determined using the Federal Housing Finance Agency (“FHFA”)
Purchase Only Seasonally Adjusted Index, had decreased more than 20% from its
peak. The five states were Arizona, California, Florida, Michigan, and Nevada.272
Plans to use these funds were approved on June 23, 2010.273
    On March 29, 2010, Treasury expanded HHF to include five additional states
and increased the program’s potential funding by $600 million, bringing total
funding to $2.1 billion. The additional $600 million was designated for North
Carolina, Ohio, Oregon, Rhode Island, and South Carolina. Treasury indicated that
these states were selected because of their high concentrations of people living in
economically distressed areas, defined as counties in which the unemployment rate
exceeded 12%, on average, in 2009.274 Plans to use these funds were approved on
August 3, 2010.275
    On August 11, 2010, the Government pledged a third round of HHF funding of
$2 billion in additional assistance to state HFA programs that focus on unemployed
homeowners who are struggling to make their payments.276 According to Treasury,
the third funding round was limited to states that have experienced unemploy-
ment rates at or above the national average during the preceding 12 months.277
The states designated to receive funding were Alabama, California, Florida,
Georgia, Illinois, Indiana, Kentucky, Michigan, Mississippi, Nevada, New Jersey,
North Carolina, Ohio, Oregon, Rhode Island, South Carolina, and Tennessee.
Washington, D.C. will also receive funding.278 States already covered by the first
two HHF rounds of funding may use the additional resources “to support the
unemployment programs previously approved by Treasury or they may opt to imple-
ment a new unemployment program.”279 States seeking to tap HHF for the first
time were required to submit need-specific proposals that met program guidelines
to Treasury by September 1, 2010.280 Plans to use to these funds were approved on
September 23, 2010.281
    Finally, on September 29, 2010, an additional $3.5 billion was made available
to existing HHF participants, weighted by population, to be used in previously an-
nounced programs.282 Table 2.17 shows the obligation of funds and funds drawn
for states participating in the four rounds of HHF as of December 31, 2010.
According to Treasury, although as of December 31, 2010, “$103.6 million has
been drawn down by the states, only a small portion of that amount has been spent
to date by the states, and the majority of what actually has been spent has been
for permitted administrative expenses and costs associated with setting up their
programs, not just assistance to borrowers.”283
94   special inspector general I troubled asset relief program




                                            Table 2.17

                                             Hardest-Hit Funding Allocations by State,
                                             as of 12/31/2010
                                            Recipient                                                    Amount Obligated   Amount Drawn
                                            Alabama                                                         $162,521,345      $8,000,000
                                            Arizona                                                          267,766,006       6,255,000
                                            California                                                      1,975,334,096     17,490,000
                                            Florida                                                         1,057,839,136     10,450,000
                                            Georgia                                                          339,255,819       8,500,000
                                            Illinois                                                         445,603,557              —
                                            Indiana                                                          221,694,139              —
                                            Kentucky                                                         148,901,875              —
                                            Michigan                                                         498,605,738       7,725,000
                                            Mississippi                                                      101,888,323              —
                                            Nevada                                                           194,026,240       2,600,000
                                            New Jersey                                                       300,548,144              —
                                            North Carolina                                                   482,781,786      15,000,000
                                            Ohio                                                             570,395,099      11,600,000
                                            Oregon                                                           220,042,786       5,501,070
                                            Rhode Island                                                       79,351,573      3,000,000
                                            South Carolina                                                   295,431,547       7,500,000
                                            Tennessee                                                        217,315,593              —
                                            Washington, D.C.                                                   20,697,198             —
                                            Total                                                         $7,600,000,000    $103,621,070
                                            Source: Treasury, response to SIGTARP data call, 1/7/2011.




                                               The HFAs of the 18 states and the District of Columbia that can receive HHF
                                            funding each submitted proposals to Treasury, and their purpose, according to
                                            Treasury, was to “meet the unique challenges facing struggling homeowners in their
                                            respective housing markets.”284 According to Treasury, each state’s HFA will report
                                            program performance on a quarterly basis and post the reports on its website.
                                            Some states will initiate pilot programs to assess program performance before full
                                            implementation. According to Treasury, individual state laws, staffing levels of the
                                            HFAs and the relative complexity of each state’s program are some of the reasons
                                            that explain the variance in the availability of programs.285 All programs will be
                                            funded incrementally up to their obligated amounts. Treasury indicated that states
                                            can reallocate funds between programs and modify existing programs as needed,
                                            with Treasury approval, until funds are expended or returned to Treasury after
                                            December 31, 2017. Treasury informed SIGTARP that as of the drafting of this re-
                                            port, it was unable to report on the number of modifications under this program.286
                                            HHF program specifics and funding details for the participating states and the
                                            District of Columbia are shown in the following tables.
95                                                                                                                          quarterly report to congress I JANUARY 26, 2011                                   95




     HHF – State-by-State Description

      alabama
                                                                                                                                                                             Estimated Number of
     Description                                                                                                                                      Allocation           Borrowers to be Helped
     Alabama’s HFA will administer Hardest-Hit funds to subsidize eligible unemployed homeowners’
     current mortgage payments and all other mortgage-related expenses up to a total of 12
     consecutive months or $15,000 per household. Continued eligibility will be contingent upon
     homeowners remaining in their homes and their eligibility to receive unemployment compensation.                                             $135,497,105                           9,033 – 13,500
     Assistance will cease two months after the homeowner returns to work. Assistance will be in the
     form of a zero-interest loan that will be forgiven in equal annual increments based on the term of
     the loan.
     Administrative Costs                                                                                                                        $27,024,240                                           N/A
     Total                                                                                                                                     $162,521,345                           9,033 – 13,500
     Source: Treasury, “Second Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 12/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/
     hhf/DocumentsContracts_Agreements/ALABAMA%202nd%20Amendment.pdf, accessed 1/20/2011.



      Arizona
                                                                                                                                                                             Estimated Number of
     Description                                                                                                                                      Allocation           Borrowers to be Helped
     The Permanent Modification Component is designed to help homeowners avoid foreclosure by
     permanently modifying a borrower’s primary mortgage to achieve a monthly payment that does
     not exceed 31% of the borrower’s monthly income. Loan modifications may include principal
     reduction (the amount of any principal reduction provided by HHF Program funds must be matched                                              $216,800,000                             4,336 – 7,227
     by a borrower’s lender/servicer), interest rate reduction, and/or term extension. The Permanent
     Modification Component aspires to achieve a 90% success rate in modifying loans with the
     borrowers’ lenders/servicers.
     The Second Mortgage Assistance Component is designed to help homeowners avoid foreclosure
     by eliminating a second mortgage if necessary to modify the terms of the primary loan, and to
     reduce the likelihood that a borrower will re-default under the primary loan as a result of the burden                                         $7,500,000                            1,500 – 1,875
     of a second mortgage. The amount of any principal reduction must be matched by a borrower’s
     lender/servicer.
     The Temporary Modification Component is designed to help homeowners remain in their homes and
     prevent avoidable foreclosures despite loss of income due to unemployment or underemployment.
     The funds will reduce past-due payments, and provide borrowers additional time to find alternate
     employment and replace income needed to make mortgage payments. The Temporary Modification
                                                                                                                                                   $24,000,000                            2,000 – 2,857
     Component is designed to complement other components of the HHF Program. Funds available
     under the Temporary Modification Component may also be applied to remove second mortgages
     as necessary to modify the terms of the primary loan. The amount of any principal reduction must
     be matched by a borrower’s lender/servicer.
     Administrative Costs                                                                                                                        $19,466,006                                           N/A
     Total                                                                                                                                     $267,766,006                           7,836 – 11,959
     Source: Treasury, “Third Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 12/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
     DocumentsContracts_Agreements/ARIZONA%203rd%20Amendment.pdf, accessed 1/20/2011.
96                special inspector general I troubled asset relief program                                                                                                                                   96




      california
                                                                                                                                                                             Estimated Number of
                                                                                                                                                      Allocation
     Description                                                                                                                                                           Borrowers to be Helped
     The Unemployment Mortgage Assistance Program is designed to help homeowners remain in
     their homes and prevent avoidable foreclosures despite loss of income due to unemployment.
     The program subsidizes mortgage payments for up to six months, paying 100% of the monthly
     payment up to $3,000. The program is designed to assist borrowers who are currently eligible
     to receive unemployment benefits. The funds will minimize past due payments, and provide                                                    $874,995,915                                      60,531
     a borrower with additional time to find alternate employment and replace income needed to
     make their mortgage payment. The program also complements other loss mitigation programs,
     including increasing a borrower’s eligibility for an extended written forbearance plan and/or loan
     modification.
     The Mortgage Reinstatement Assistance Program pays past-due first mortgage amounts up to
                                                                                                                                                 $129,400,000                                        9,211
     $15,000. The goal of the program is for the applicable lender/servicer to match the funds.
     The Principal Reduction Program pays up to $50,000 on a one-time only basis to reduce principal
     owed on qualifying properties with negative equity. The goal of the program is for the applicable                                           $790,488,124                                      25,135
     lender/servicer to match the funds.
     The Transition Assistance Program funds would be available on a one-time-only basis up to $5,000
     per household and could be used or layered with other CalHFA Mortgage Assistance Corporation
     HHF Programs. All funds will be sent to the servicer, subject to servicer/investor approval of
                                                                                                                                                   $32,300,000                                       6,460
     short sale or deed-in-lieu of foreclosure. Funds are intended to help the borrower pay the costs of
     securing new housing (e.g., rent, moving expenses, and security deposits) and will be available for
     transition assistance counseling services.
     Administrative Costs                                                                                                                      $148,150,057                                            N/A
     Total                                                                                                                                  $1,975,334,096                                       101,337
     Source: Treasury, “Third Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 12/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
     DocumentsContracts_Agreements/Redacted%20CALIFORNIA%203rd%20Amendment.pdf, accessed 1/20/2011.




      florida
                                                                                                                                                                             Estimated Number of
                                                                                                                                                      Allocation
     Description                                                                                                                                                           Borrowers to be Helped
     The Unemployment Mortgage Assistance Program focuses on the creation of a sustainable solution
     to keep unemployed or underemployed Florida homeowners in their current homes by helping those
     who are struggling to make their current mortgage payments because of hardships sustained since
     purchasing their homes. Florida Housing will use HHF Program funds to pay up to 18 months of
                                                                                                                                                 $726,032,540                                      29,000
     mortgage payments on behalf of a qualified homeowner. This partnership will potentially extend
     the time period for homeowners to become re-employed at a salary that is sufficient to allow them
     either to resume making full mortgage payments or to qualify for a mortgage modification that will
     lower the payments and terms of the mortgage to an affordable level.
     The Mortgage Loan Reinstatement Program (“MLRP”) focuses on the creation of a sustainable
     solution to keep Florida homeowners in their current homes by helping those who are behind on
     their mortgage payments because of financial hardship sustained since purchasing the home, such
     as unemployment, substantial underemployment, death, divorce or disability. HHF Program funds
     will only be used to pay, directly to the first mortgage loan servicer, up to 180 days of arrearage                                         $242,010,846                                        9,700
     payments, to include principal and interest plus any required escrow payments (such as taxes
     and insurance), late fees and insufficient fund fees. The borrower must be able to resume current
     payments or qualify for a mortgage modification that will lower the payments and terms of the
     mortgage to an affordable level, based upon the current income.
     Administrative Costs                                                                                                                        $89,795,750                                           N/A
     Total                                                                                                                                  $1,057,839,136                                        38,700

     Source: Treasury,“Third Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 12/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
     DocumentsContracts_Agreements/Florida%203rd%20Amendment.pdf, accessed 1/20/2011.
97                                                                                                                           quarterly report to congress I JANUARY 26, 2011                                  97




      georgia
                                                                                                                                                                              Estimated Number of
                                                                                                                                                       Allocation
     Description                                                                                                                                                            Borrowers to be Helped
     The Mortgage Payment Assistance (“MPA”) program will provide loans to unemployed and
     substantially underemployed homeowners to help them remain in their homes and avoid
     preventable foreclosures, despite loss of income due to involuntary job loss. Loan proceeds will
     be used to pay mortgage payments to assist unemployed and underemployed homeowners while
     they look for new jobs or complete training for new careers as well as provide a one-time payment
                                                                                                                                                  $311,972,813                                      18,300
     to homeowners who have found new jobs in order to bring them current on their mortgage.
     Assistance will be in the form of zero-interest, nonrecourse, deferred-payment subordinate loans
     that will be forgiven 20% per year over the five-year loan. Assistance will last 18 months or two
     months beyond the date on which the homeowner secures adequate employment, whichever is
     less.
     Administrative Costs                                                                                                                         $27,283,006                                           N/A
     Total                                                                                                                                      $339,255,819                                       18,300
     Source: Treasury, “Second Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 12/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/
     hhf/DocumentsContracts_Agreements/Georgia%202nd%20Amendment.pdf, accessed 1/20/2011.



      illinois
                                                                                                                                                                              Estimated Number of
                                                                                                                                                       Allocation
     Description                                                                                                                                                            Borrowers to be Helped
     The Homeowner Emergency Loan Program (“HELP”) will assist unemployed or substantially
     underemployed homeowners by paying their mortgages for up to 18 months while they search
     for employment and/or participate in job training. Homeowners must pay the Illinois Housing
     Development Authority at least 31% of household income to remain eligible. Assistance is limited
                                                                                                                                                  $381,396,200                         16,000 – 27,000
     to 18 months or until one month after borrowers regain employment, whichever is sooner. This
     assistance will be in the form of a zero-interest, non-recourse, non-amortizing 10-year loan. Total
     assistance per homeowner will be capped at $25,000 in hardest-hit counties and $20,000 in all
     others.
     Administrative Costs                                                                                                                         $64,207,357                                           N/A
     Total                                                                                                                                      $445,603,557                         16,000 – 27,000
     Source: Treasury, “Second Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 12/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/
     hhf/DocumentsContracts_Agreements/Illinois%202nd%20Amendment.pdf, accessed 1/20/2011.



      indiana
                                                                                                                                                                              Estimated Number of
                                                                                                                                                       Allocation
     Description                                                                                                                                                            Borrowers to be Helped
     The Unemployment Bridge Program (“UBP”) will provide a monthly benefit to cover a portion of first
     mortgage payments for homeowners who are unemployed through no fault or neglect of their own,
     while they seek new employment. The program will also provide up to three months’ of assistance
     to homeowners who became delinquent while unemployed and still cannot bring their mortgage
                                                                                                                                                  $205,160,139                                        5,895
     current with income from their new jobs. Program assistance will be capped at 18 months in
     hardest-hit counties and 12 months in all others. Assistance will be provided in the form of a
     forgivable, nonrecourse, non-amortizing loan, secured by a junior lien on the property. The loan will
     be forgiven at a rate of 20% per year in years 6 through 10 of the loan.
     Administrative Costs                                                                                                                         $16,534,000                                           N/A
     Total                                                                                                                                      $221,694,139                                         5,895

     Source: Treasury, “First Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 9/29/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
     DocumentsContracts_Agreements/IN%20Redacted%201st%20Amendment.pdf, accessed 1/20/2011.
98                special inspector general I troubled asset relief program




      Kentucky
                                                                                                                                                                             Estimated Number of
                                                                                                                                                      Allocation
     Description                                                                                                                                                           Borrowers to be Helped
     The Kentucky Unemployment Bridge Program (“UBP”) will provide funds to lenders and servicers
     on behalf of qualified homeowners who are delinquent on their mortgages due to unemployment
     or substantial underemployment. Funds will be used to make 100% of the homeowner’s monthly                                                  $125,000,000                         10,000 – 15,000
     mortgage payment up to a limit of 12 months or $12,500. Assistance will be structured as a zero-
     interest loan that will be forgiven 20% each year over five years.
     Administrative Costs                                                                                                                        $23,901,875                                           N/A
     Total                                                                                                                                      $148,901,875                         10,000 – 15,000
     Source: Treasury, “Second Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 12/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/
     hhf/DocumentsContracts_Agreements/Kentucky%202nd%20Amendment.pdf, accessed 1/20/2011.



      michigan
                                                                                                                                                                             Estimated Number of
                                                                                                                                                      Allocation
     Description                                                                                                                                                           Borrowers to be Helped
     The Principal Curtailment Program will provide a one-time matching fund of up to $10,000 to
     homeowners seeking to modify their loans. The lender/servicer must agree to provide matching
                                                                                                                                                   $30,400,000                                       3,044
     forgiveness of principal overhang and to modify the reduced loan balance. Borrowers can receive
     HAMP assistance prior to or after receiving program assistance.
     Loan Rescue will provide up to $5,000 in assistance to households who can now sustain
     homeownership, catch up on delinquent payments and avoid foreclosure. The program will provide                                              $108,800,000                                      21,760
     a one-time award that will be paid directly to the lender/servicer.
     The Unemployment Mortgage Subsidy Program will assist the eligible borrower in retaining
     homeownership by subsidizing 100% or $1,500 (whichever is less) of the first mortgage payment
     due after the borrower is approved for the program, and 50% or $750 (whichever is less) of the
     subsequent 11 mortgage payments. The assistance will not exceed a total of 12 consecutive
                                                                                                                                                 $313,874,464                                      24,618
     months or $9,750. Homeowners will continue to be responsible for the remaining unsubsidized
     portion of their monthly payment. Borrowers will also be eligible for up to an additional $3,000 in
     assistance to correct a mortgage delinquency that accumulated during a period of unemployment
     prior to receiving monthly mortgage assistance.
     Administrative Costs                                                                                                                        $45,531,274                                           N/A
     Total                                                                                                                                      $498,605,738                                      49,422
     Source: Treasury, “Third Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 12/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
     DocumentsContracts_Agreements/Michigan%203rd%20Amendment%20(Redacted)%20v2.pdf, accessed 1/20/2011.



      MISSISSIPPI
                                                                                                                                                                             Estimated Number of
                                                                                                                                                      Allocation
     Description                                                                                                                                                           Borrowers to be Helped
     The Home Saver Program is offered to borrowers who are unemployed or substantially
     underemployed. The program will pay 100% of the monthly mortgage payment for up to 12 months
     and up to an additional 12 months contingent upon the borrower entering an educational program
     at his or her own expense that leads to a certification or degree from one of the state’s community
     colleges or a four-year institution if the program can be completed within 24 months. Borrowers
                                                                                                                                                   $89,123,115                                       3,800
     in designated distressed counties will receive support for up to six additional months to find a job
     after completing their educational training. Assistance may also be provided to pay up to 6 months
     of arrears accumulated during a period of unemployment or substantial underemployment. Total
     assistance per borrower will be limited to $44,000. Borrowers with income that is 120% or more
     of the state’s average income and mortgages above $271,000 will not be eligible for the program.
     Administrative Costs                                                                                                                        $12,765,208                                           N/A
     Total                                                                                                                                      $101,888,323                                        3,800
     Source: Treasury, “Second Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 12/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
     DocumentsContracts_Agreements/Mississippi%202nd%20Amendment.pdf, accessed 1/20/2011.
                                                                                                                       quarterly report to congress I JANUARY 26, 2011                                   99




 nevAda
                                                                                                                                                                        Estimated Number of
                                                                                                                                                 Allocation
                                                                                                                                                                      Borrowers to be Helped
The goal of the Principal Reduction Program is to reduce first-mortgage principal balances
throughout the State of Nevada such that the loan-to-value ratios are reduced to 115% or less and,
correspondingly, the Principal, Interest, Taxes, and Insurance (“PITI”) payment is reduced to 31%
                                                                                                                                              $75,412,387                            2,468 – 5,000
or less of the homeowner’s gross income. The program will provide a principal reduction of up to
$25,000, with a 1:1 match from the note holder if possible. The 1st Mortgage Principal Reduction
Program will assist the underemployed and income-restricted homeowner candidates.
The goal of the Second Mortgage Reduction Program is to assist families in removing the
impediment of a second lien on their property such that either a refinancing or first-mortgage
                                                                                                                                              $36,552,962                                       2,200
modification can be carried out, thus preventing foreclosure. The maximum amount of the program
will be $16,500 per dwelling and will be a one-time payment.
The Short-Sale Acceleration Program is aimed at assisting borrowers who are beginning or need
to initiate the short-sale process to relieve themselves of unsustainable mortgage burdens — even
with a material loan principal reduction. The program is expected to last up to 24 months and will
pay out a maximum of $8,025 to a qualified family. The candidates for the Short-Sale Acceleration                                              $6,175,464                                       1,371
program will have been through a HAMP or similar private bank or GSE loan modification process
and “failed” by a sufficiently material level to not even qualify for Nevada’s Principal Reduction
Program for first mortgages.
The Mortgage Assistance Program (“MAP”) is designed to keep first mortgages current for
families with an unemployed wage earner. The program will provide up to the lesser of one-third
of the principal and interest payments or a $500 supplement to the family’s monthly principal and
interest payments on the first-lien mortgage. For qualifying families, MAP payments may extend
up to six months or up to two months after employment. The payments are intended to serve as                                                  $50,906,871                                     16,969
a financial bridge to unemployed homeowners while they attempt to upgrade their work skills. All
MAP assistance will be structured as a zero-interest, forgivable nonrecourse loan. Borrowers who
sustain homeownership for 60 successive months following the end of the MAP payments will have
their payment amounts forgiven.
Administrative Costs                                                                                                                        $24,978,556                                           N/A
Total                                                                                                                                     $194,026,240                          23,008 – 25,540
Note: The Mortgage Assistance Program was added to the Nevada HFA’s existing HHF-funded programs as part of the third round of Hardest-Hit funding, approved 9/23/2010.

Source: Treasury, “Third Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 12/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
DocumentsContracts_Agreements/Redacted%20NEVADA%203rd%20Amendment.pdf, accessed 1/20/2011.



 NEW JERSEY
                                                                                                                                                                        Estimated Number of
                                                                                                                                                 Allocation
Description                                                                                                                                                           Borrowers to be Helped
The New Jersey HomeKeeper Program will provide zero-interest mortgage loans to unemployed
and substantially underemployed homeowners unable to make their mortgage payments and in
danger of losing their homes through no fault of their own. Loan proceeds will be used to cover
mortgage arrearages and/or portions of monthly mortgage payments while the homeowner looks                                                  $261,933,144                                        6,900
for work or trains for a new career. The maximum loan is $48,000 and may be available for up to
24 months. Assistance will be a zero-interest, deferred-payment, nonrecourse loan forgivable at a
rate of 20% per year after the 5th year and in full at the end of the 10th year.
Administrative Costs                                                                                                                        $38,615,000                                           N/A
Total                                                                                                                                     $300,548,144                                         6,900
Source: Treasury, “Second Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 10/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/
hhf/DocumentsContracts_Agreements/New%20Jersey%202nd%20Amendment.pdf, accessed 1/20/2011.
100                special inspector general I troubled asset relief program                                                                                                                                   100




       NORTH CAROLINA
                                                                                                                                                                              Estimated Number of
                                                                                                                                                       Allocation
      Description                                                                                                                                                           Borrowers to be Helped
      The Mortgage Payment Program (“MPP-1”) will provide zero-interest, nonrecourse, deferred-
      payment subordinate loans that will be forgiven after 10 years to homeowners who are unemployed
      or dealing with a temporary program-eligible hardship. Loan proceeds will be used to pay
      monthly mortgage and mortgage-related expenses while homeowners seek or train for new jobs.                                                   $99,400,000                                       5,750
      Homeowners in hardest-hit counties will receive up to $36,000 (not to exceed 36 months of
      assistance). Homeowners in other counties will receive up to $24,000 (not to exceed 24 months of
      assistance).
      The Mortgage Payment Program (“MPP-2”) will provide zero-interest, nonrecourse, deferred-
      payment, subordinate loans that will be forgiven after 10 years to homeowners who are
      unemployed or substantially underemployed, or in danger of losing their homes to foreclosure.
      Loan proceeds will be used to pay mortgage and mortgage-related expenses until the homeowner
                                                                                                                                                  $297,381,786                                      14,090
      secures employment or completes training for a new career. Homeowners in counties where the
      unemployment rate is higher than 11.3% will receive up to $36,000 (not to exceed 36 months of
      assistance). Homeowners in other counties will receive up to $24,000 (not to exceed 24 months of
      assistance).
      The Second Mortgage Refinance Program (“SMRP”) will provide zero-interest, nonrecourse,
      deferred-payment subordinate loans that will be forgiven after 10 years to homeowners who can no
                                                                                                                                                    $15,000,000                                       1,000
      longer afford their second mortgages because of recent unemployment, reduction in income, or
      other demonstrated financial hardships. The program will be offered only in hardest-hit counties.
      The Permanent Loan Modification Program (“PMLP”) will provide zero-interest, nonrecourse,
      deferred-payment subordinate loans that will be forgiven after 10 years. The goal of the program
      is to streamline methods of modifying homeowners’ loans whose mortgages have become
                                                                                                                                                     $8,800,000                                          440
      unsustainable as a result of a program-eligible hardship. The program will provide for a principal
      reduction with the added option of a rate decrease and/or term extension by the lender to achieve
      a monthly mortgage payment of not more than 31% of the homeowner’s monthly gross income.
      Administrative Costs                                                                                                                        $62,200,000                                           N/A
      Total                                                                                                                                     $482,781,786                                       21,280
      Source: Treasury, “Third Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 10/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
      DocumentsContracts_Agreements/North%20Carolina%203rd%20Amendment.pdf, accessed 1/20/2011.



      OHIO
                                                                                                                                                                              Estimated Number of
                                                                                                                                                       Allocation
      Description                                                                                                                                                           Borrowers to be Helped
      The Rescue Payment Assistance Program will provide assistance to homeowners who are
      delinquent on their mortgage payments due to a delay in receiving unemployment benefits,
      insufficient income, or other unforeseen circumstances, by bringing them current on delinquent
      mortgage obligations. The program will be available to eligible unemployed low- and moderate-
                                                                                                                                                  $106,904,903                                      17,835
      income homeowners throughout Ohio, up to $15,000. Rescue Payment Assistance will be
      structured as a zero-interest, five-year loan secured by the property and repayable only from equity
      proceeds of a refinance or sale. Twenty percent of the loan balance will be forgiven each year on
      the anniversary of the closing, and any remaining balance will be forgiven on December 31, 2017.
      The Partial Mortgage Payment Assistance Program supports unemployed homeowners by assisting
      them with their mortgage payments for up to 15 months while they search for a job and/or
      participate in job training. The program will be available to eligible unemployed low- and moderate-
      income homeowners throughout Ohio, up to $15,000. Assistance will be a five-year loan secured                                               $299,540,000                                      31,900
      by the property and repayable only from equity proceeds of a refinance or sale. Twenty percent of
      the loan balance will be forgiven each year on the anniversary of the closing, and any remaining
      balance will be forgiven on December 31, 2017.
      The Mortgage Modification with Principal Reduction Program will provide assistance to homeowners
      who do not qualify for existing loan modification programs due to severe negative equity. Funds
      will be used to incentivize servicers/lenders to reduce a participating underwater homeowner’s
      mortgage principal to the level necessary to achieve a target of a 115% loan-to value ratio or
      less and to achieve an affordable monthly payment equal to 31% or less of household income.                                                   $22,717,635                                       2,350
      Servicers will provide principal forbearance or forgiveness equal or greater than the program
      payment. Assistance will be a five-year loan secured by the property and repayable only from equity
      proceeds of a refinance or sale. Twenty percent of the loan balance will be forgiven each year on
      the anniversary of the closing, and any remaining balance will be forgiven on December 31, 2017.
                                                                                                                                                                                    Continued on next page.
101                                                                                                                          quarterly report to congress I JANUARY 26, 2011                                   101




       ohio     (CONTINUED)

      The Transition Assistance Program will assist homeowners whose mortgage payment exceeds the
      Affordable Monthly Payment, and/or must relocate to gain meaningful employment. The program
      requires lenders/servicers to consider a short sale or deed-in-lieu of foreclosure option. Borrowers
                                                                                                                                                    $18,013,462                                       4,900
      willing to relocate while leaving the property in sellable condition can receive a stipend. The
      program will be available to eligible low- and moderate-income homeowners throughout Ohio, up to
      the maximum benefit of $15,000.
      The Short Refinance Program will provide up to $15,000 in funds to lenders/servicers on behalf
      of homeowners who wish to refinance to a new mortgage loan in order to lower their monthly
      payment. Funds will be used to reduce the principal balance of homeowner’s mortgage, which will
                                                                                                                                                    $50,000,000                                       6,500
      incentivize lenders/servicers to match the Program payment in the form of principal forgiveness to,
      in the aggregate, reduce homeowner’s mortgage principal balance to the level necessary to qualify
      for a refinance, with a target of 95 percent to 100 percent combined loan-to-value ratio.
      Administrative Costs                                                                                                                        $73,219,099                                           N/A
      Total                                                                                                                                     $570,395,099                                       63,485
      Source: Treasury, “Third Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 12/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
      DocumentsContracts_Agreements/Ohio%203rd%20Amendment.pdf, accessed 1/20/2011.



       OREGON
                                                                                                                                                                              Estimated Number of
                                                                                                                                                       Allocation
      Description                                                                                                                                                           Borrowers to be Helped
      The Loan Modification Assistance Program will provide funds to assist financially distressed
      borrowers who are in the process of modifying their home loans. A one-time payment will be made
      to lenders/servicers to fill a financial gap limiting the homeowner’s eligibility for a loan modification.
      Funds may be used to reduce outstanding principal, pay delinquent escrow, or strategically apply
      resources to ensure an NPV test is positive. Modification must result in a loan-to-value ratio of not                                       $100,000,000                                        5,000
      more than 125%, a total debt-to-income ratio of up to 50%, and a mortgage payment of no more
      than 31% including principal, interest, taxes, and insurance. Program assistance will be a five-year
      loan in which a second lien is recorded on the property. Twenty percent of the loan will be forgiven
      each year it is outstanding. The maximum benefit per homeowner is $10,000.
      The Mortgage Payment Assistance Program will provide up to 12 months or $20,000 of mortgage
      payment assistance, whichever is used first, for unemployed or substantially underemployed
      homeowners. Program assistance will be a five-year loan in which a second lien is recorded on the                                             $67,700,000                                       3,385
      property. Twenty percent of the loan will be forgiven each year it is outstanding. The program will
      provide a maximum benefit of $20,000 per borrower.
      The Loan Preservation Assistance Program will benefit homeowners who find new jobs or recover
      from financial distress. Program assistance will ensure successful modification and pay arrears,
      delinquent escrow, or other fees incurred during a period of unemployment or financial distress.                                               $7,552,038                                       2,515
      Recipients may receive up to $20,000. Lenders/servicers will receive a one-time payment on
      behalf of the borrower and will waive administrative fees.
      The Transition Assistance Program will be offered to homeowners at imminent risk of foreclosure.
      This program will be an alternative exit point for Mortgage Payment Subsidy Program participants
      who do not get new jobs or recover from financial distress to the extent that they would benefit
                                                                                                                                                    $26,000,000                                       2,600
      from loan preservation assistance. This program will work with lender/servicer short sale and deed-
      in-lieu of foreclosure programs to help homeowners transition to affordable housing. Funds will be
      available on a one-time basis up to $3,000.
      Administrative Costs                                                                                                                        $18,790,748                                           N/A
      Total                                                                                                                                     $220,042,786                                       13,500
      Source: Treasury, “Third Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 12/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
      DocumentsContracts_Agreements/Oregon%203rd%20Amendment.pdf, accessed 1/20/2011.
102                special inspector general I troubled asset relief program                                                                                                                                   102



       RHODE ISLAND
                                                                                                                                                                              Estimated Number of
                                                                                                                                                       Allocation
      Description                                                                                                                                                           Borrowers to be Helped
      Loan Modification Assistance for HAMP Customers (“LMA-HAMP”) will provide up to $6,000 to allow
      homeowners to qualify for HAMP modifications. Lenders/servicers must first exhaust all steps
      required under the HAMP waterfall process and still not be able to modify the mortgage. Borrowers
      must have monthly mortgage payments greater than 31% of their gross monthly income and must
      be able to document financial hardship putting them at risk of foreclosure. Program assistance will
                                                                                                                                                    $10,000,000                                       1,750
      be a zero-interest five-year loan secured by the property and forgivable at 20% per year over five
      years. Lenders must agree to provide a one-to-one match and a HAMP modification agreement
      must be signed by the borrower and lender. In addition, up to $30,000 in total assistance may
      be available through the Temporary and Immediate Homeowner Assistance (TIHA) program for
      targeted homeowners at risk of foreclosure.
      Loan Modification Assistance for non-HAMP Customers (“LMA Non-HAMP”) will provide up to $6,000
      to allow homeowners to qualify for a modification. All borrowers must be able to document their
      financial hardship. Program assistance will be a zero-interest five-year loan secured by the property                                         $10,000,000                                       1,750
      and forgivable at 20% per year over five years. In addition, up to $30,000 in total assistance may
      be available through the TIHA program for targeted homeowners who are at risk of foreclosure.
      The Temporary and Immediate Homeowner Assistance (“TIHA”) program aims to help homeowners
      who can document financial hardship caused by uncontrollable increases in housing expenses or
      uncontrollable decreases in incomes that put them at risk of foreclosure. To qualify, these income
      changes must meet a specified percentage on a sliding income scale. Assistance is capped at                                                   $10,000,000                                       2,750
      $6,000 from TIHA per household and limits assistance to $12,000 when combined with LMA-HAMP
      or LMA-Non-HAMP. In special circumstances, up to $30,000 in aid may be available to targeted
      homeowners who are at risk of foreclosure.
      The Moving Forward Assistance Program (“MFA”) will offer eligible homeowners a one-time
      payment, up to $4,000, to help them stay in their homes and to facilitate a short sale or deed-in-
      lieu of foreclosure and/or to assist the homeowner with relocation. In special circumstances, up to                                            $3,500,000                                          875
      $30,000 may be available through TIHA to facilitate a short sale or deed-in-lieu of foreclosure for
      homeowners of targeted affordable properties that are at risk of foreclosure.
      The Mortgage Payment Assistance – Unemployment Program will provide up to $6,000 to help
      unemployed homeowners make partial mortgage payments while they search for a new job or
      participate in a job-training program. Homeowners will be required to contribute the greater of
      $250 or 31% of their total gross monthly household income toward their mortgage obligation.
      Homeowners can receive up to two months of assistance after securing a job as long as the                                                     $34,282,743                                       6,000
      household limit has not been reached. Program assistance will be a zero-interest loan secured by
      the property and forgivable at 20% per year over five years. When used in combination with LMA
      programs and TIHA, maximum household assistance will be capped at $14,500. When combined
      with MFA, household assistance is capped at $10,000.
      Administrative Costs                                                                                                                        $11,568,830                                           N/A
      Total                                                                                                                                       $79,351,573                                      13,125
      Source: Treasury, “Third Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 12/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
      DocumentsContracts_Agreements/Rhode%20Island%203rd%20Amendment.pdf, accessed 1/20/2011.
103                                                                                                                          quarterly report to congress I JANUARY 26, 2011                                   103



       SOUTH CAROLINA
                                                                                                                                                                              Estimated Number of
                                                                                                                                                       Allocation
      Description                                                                                                                                                           Borrowers to be Helped
      The Monthly Payment Assistance Program will help eligible homeowners make all of their monthly
      mortgage payments. The goal of the program is to bridge borrowers across a gap in employment,
      thus giving them time to become self-sustaining and avoid delinquency or foreclosure. Program
                                                                                                                                                  $157,305,000                           8,500 – 13,000
      assistance will be capped at 24 months or $36,000, depending on the unemployment rate in the
      county in which the property is located. Assistance will be a zero-interest loan forgiven over five
      years at a rate of 20% per year.
      The Direct Loan Assistance Program will assist homeowners who may have fallen behind on their
      mortgage payments, but later regained the ability to make their full payments. In many cases,
      arrears may have accrued that—until paid—place a hardship on the borrower because of the
      accumulation of late fees and other charges. This program aims to make these mortgages current,                                               $49,980,000                          7,000 – 11,000
      through a one-time payment, so the homeowner can avoid delinquency or foreclosure. Assistance
      is a one-time payment and will be capped at $10,000 per household, depending on county
      unemployment.
      The HAMP Assistance Program provides funding to homeowners applying for HAMP modifications,
      but falling just short of qualifying. Program assistance will bridge the gap so that homeowners can
      modify their mortgages to affordable levels, thus helping them avoid foreclosure. The goal of this                                             $5,000,000                            1,000 – 1,500
      program is to help borrowers become eligible for HAMP. Assistance is a one-time payment per
      borrower household and will be capped at $5,000.
      The Second Mortgage Assistance Program offers incentives to investors or, in some cases,
      funding to acquire second liens from investors unable or unwilling to modify these liens preventing
                                                                                                                                                    $11,140,563                            1,600 – 2,600
      homeowners from qualifying for HAMP. Assistance is a one-time payment per borrower household
      and will be capped at $10,000, depending on county unemployment.
      The Property Disposition Assistance Program is intended to facilitate short sales and deeds-in-lieu
      of foreclosure for homeowners who are unable to stay in their homes. Funds will also be used to
                                                                                                                                                    $18,000,000                            3,000 – 6,000
      transition families from homeownership to renting. Assistance is a one-time payment per borrower
      household and will be capped at $5,000.
      Administrative Costs                                                                                                                        $54,005,984                                           N/A
      Total                                                                                                                                     $295,431,547                          21,100 – 34,100
      Source: Treasury, “Third Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 12/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
      DocumentsContracts_Agreements/South%20Carolina%203rd%20Amendment.pdf, accessed 1/20/2011.



       TENNESSEE
                                                                                                                                                                              Estimated Number of
                                                                                                                                                       Allocation
      Description                                                                                                                                                           Borrowers to be Helped
      The Hardest Hit Fund Program will provide loans to unemployed or substantially underemployed
      homeowners who are unable to make their payments and in danger of losing their homes to
      foreclosure. Homeowners may receive assistance up to a maximum of 12 or18 months (depending
                                                                                                                                                  $191,827,012                                      11,211
      on county). Loans will be provided to homeowners until they secure employment or while they
      complete job training for a new career. Assistance will be capped at $20,000 up to 18 months in
      targeted areas and $15,000 up to 12 months in standard benefit counties.
      Administrative Costs                                                                                                                        $25,488,581                                           N/A
      Total                                                                                                                                     $217,315,593                                       11,211
      Source: Treasury, “Second Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 12/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/
      hhf/DocumentsContracts_Agreements/Tennessee%202nd%20Amendment.pdf, accessed 1/20/2011.



       WASHINGTON, D.C.
                                                                                                                                                                              Estimated Number of
                                                                                                                                                       Allocation
      Description                                                                                                                                                           Borrowers to be Helped
      The HomeSaver Program will offer lump-sum or ongoing monthly payments to Unemployment
      Insurance (UI) claimants or those who have received UI payments in the last six months. Assistance
      is capped at 15 months. The Lifeline components will offer a one-time payment of up to three
      months’ worth of mortgage payments to make the mortgage current. The Mortgage Assistance                                                      $17,466,704                              540 – 1,000
      component will offer up to 15 months’ worth of mortgage payments. The Restore component will
      be available for participants needing a one-time “catch up” payment. This will be capped at six
      months’ worth of mortgage payments.
      Administrative Costs                                                                                                                          $3,230,494                                          N/A
      Total                                                                                                                                       $20,697,198                               540 – 1,000
      Source: Treasury, “Second Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 12/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/
      hhf/DocumentsContracts_Agreements/WASHINGTON%20DC%202nd%20Amendment.pdf, accessed 1/20/2011.
104   special inspector general I troubled asset relief program




                                             FINANCIAL INSTITUTION SUPPORT PROGRAMS
                                             Treasury created six TARP programs through which it made capital investments
                                             or asset guarantees in exchange for equity in participating financial institutions.
                                             Three of the programs, the Capital Purchase Program (“CPP”), the Community
                                             Development Capital Initiative (“CDCI”), and the Capital Assistance Program
                                             (“CAP”), were open to all qualifying financial institutions (“QFIs”). The other
                                             three, the Systemically Significant Failing Institutions (“SSFI”) program, the
                                             Targeted Investment Program (“TIP”), and the Asset Guarantee Program (“AGP”),
                                             were available on a case-by-case basis to institutions that needed assistance beyond
                                             that available through CPP. To help improve the capital structure of some strug-
                                             gling TARP recipients, Treasury has agreed to modify its investment by converting
                                             the preferred stock it originally received into other forms of equity, such as com-
                                             mon stock or mandatorily convertible preferred stock.287
                                                 With the expiration of TARP funding authorization, no new investments can be
                                             made through CPP, CAP, TIP, AGP, and CDCI, but dollars that are already obli-
                                             gated may still be expended through SSFI.

                                             CPP
                                             Treasury’s stated goal for CPP was to invest in “healthy, viable institutions” as a
                                             way to promote financial stability, maintain confidence in the financial system, and
                                             enable lenders to meet the nation’s credit needs.288 CPP was a voluntary program
                                             open to all QFIs through an application process. QFIs included U.S.-controlled
                                             banks, savings associations, and certain bank and savings and loan holding
                                             companies.289
                                                 Under CPP, Treasury used TARP funds predominantly to purchase preferred
                                             equity interests in QFIs. The QFIs issued Treasury senior preferred shares that pay
                                             a 5% annual dividend for the first five years and a 9% annual dividend thereafter. In
                                             addition to the senior preferred shares, publicly traded QFIs issued Treasury war-
                                             rants to purchase common stock with an aggregate market price equal to 15% of
                                             the senior preferred share investment. Privately held QFIs issued Treasury warrants
                                             to purchase additional senior preferred stock worth 5% of Treasury’s initial pre-
                                             ferred stock investment.290 In total, Treasury invested $204.9 billion of TARP funds
                                             in 707 QFIs through CPP.291
                                                 Through December 31, 2010, CPP recipients had repaid $167.9 billion, leaving
                                             $37.0 billion outstanding. In addition, Treasury had received from CPP recipients
                                             approximately $10.4 billion in interest and dividends. Treasury also had received
                                                                                                    quarterly report to congress I JANUARY 26, 2011   105




 Figure 2.5
SNAPSHOT OF CPP FUNDS OUTSTANDING AND REPAID,
BY QUARTER
($ BILLIONS)

                          198.8
                            0.4       203.2   204.6   204.9    204.9     204.9    204.9    204.9
$200
                 177.5    198.4        70.1    70.7   121.9    135.8     146.9    152.8    167.9
                 177.5
 150
     115.0                            133.1   133.9
 100 115.0
                                                       83.0
  50                                                             69.1
                                                                          58.0     52.1
                                                                                             37.0
    0
        Q308 Q408         Q109 Q209           Q309    Q409      Q110     Q210     Q310      Q410


           CPP Funds Outstanding at Quarter’s End
           CPP Funds Repaid at Quarter’s End

Note: Numbers affected by rounding.

Sources: Treasury, Transactions Report, 12/31/2010; Treasury, response to SIGTARP vetting draft,
10/7/2010.



$6.9 billion through the sale of CPP warrants that were obtained from TARP
recipients.292 For a snapshot of CPP funds outstanding and associated repayments,
see Figure 2.5.

Status of Funds
Through CPP, Treasury purchased $204.9 billion in preferred stock and subordi-
nated debentures from 707 QFIs in 48 states, the District of Columbia, and Puerto
Rico. Although the 10 largest investments accounted for $142.6 billion of the pro-
gram, CPP made many smaller investments: 331 of 707 recipients received $10.0
million or less.293 Table 2.18 and Table 2.19 show the distribution of investments
by amount.

Repayment of Funds
Through December 31, 2010, 143 banks — including 10 with the largest CPP
investments — had repaid CPP by repurchasing from Treasury some or all of the
banks’ preferred shares.294 As of that date, Treasury had received approximately
$167.9 billion in principal repayments, leaving approximately $37.0 billion outstand-
ing.295 For a complete list of CPP share repurchases, see Appendix D: “Transaction
Detail.”
106   special inspector general I troubled asset relief program




                                             Table 2.18

                                             CPP investment summary BY TRANSACTION
                                                                                                                  Originala                   Currentb
                                             Total Investment                                               $204.9 billion                $37.0 billion
                                             Largest Capital Investment                                            25 billion                 3.5 billion
                                             Smallest Capital Investment                                    301 thousand                301 thousand
                                             Average Capital Investment                                      277.3 million                 61.0 million
                                             Median Capital Investment                                       $10.3 million                 $9.5 million
                                             Notes: Numbers affected by rounding. Data as of 12/31/2010.
                                             a
                                               These numbers are based on total Treasury CPP investment since 10/28/2008.
                                             b
                                               Amount does not include those investments that have already been repaid or are related to institutions that
                                               filed for bankruptcy protection, and is based on total investments outstanding.

                                             Source: Treasury, Transactions Report, 12/31/2010.




                                             Table 2.19
                                             CPP investment size by institution
                                                                                                                  Originala            Outstandingb
                                             $10 billion or more                                                             6                          0
                                             $1 billion to $10 billion                                                     19                           7
                                             $100 million to $1 billion                                                    57                         34
                                             Less than $100 million                                                      625                        537
                                             Total                                                                      707                         578

                                             Notes: Data as of 12/31/2010. Data is based on the institutions’ total CPP investments. There are more
                                             than 30 institutions that have received multiple transactions through CPP.
                                             a
                                               These numbers are based on total Treasury CPP investment since 10/28/2008.
                                             b
                                               Amount does not include those investments that have already been repaid or are related to institutions that
                                               filed for bankruptcy protection, and is based on total investments outstanding.
                                             Source: Treasury, Transactions Report, 12/31/2010.
                                                                                 quarterly report to congress I JANUARY 26, 2011                                 107




Program Administration
Although Treasury’s investment authority for CPP has ended, Treasury still has
significant responsibilities for managing the existing CPP portfolio, including the
following:

•	 collecting dividends and interest payments on outstanding investments
•	 monitoring the performance of outstanding investments
•	 disposing of warrants as investments are repaid
•	 selling or restructuring Treasury’s investment in some troubled financial
   institutions                                                                                Table 2.20
•	 selecting observers for recipients that have missed five quarterly dividend
                                                                                               Missed dividend/interest
   payments
                                                                                               payments by qfis, 9/30/2009
•	 potentially selecting directors for recipients that have missed six or more quar-           to 12/31/2010
                                                                                               ($ millions)
   terly dividend payments.
                                                                                                                                             Value of
                                                                                               Quarter                    Number              Unpaid
Dividends and Interest                                                                         End                         of QFIs         Amountsa,b,c
As of December 31, 2010, Treasury had earned $10.4 billion in dividends and                    9/30/2009                           38                75.7
interest on its CPP investments.296 However, as of that date, 155 QFIs had unpaid              12/31/2009                          43              137.4
dividend or interest payments to Treasury totaling approximately $276.4 million, an            3/31/2010                           67              182.0
increase from the 137 QFIs that had unpaid dividend (or interest) payments total-              6/30/2010        d
                                                                                                                                 109               209.7
ing approximately $211.3 million as of September 30, 2010. Approximately $9.8                  9/30/2010                         137               211.3

million of the unpaid amounts are non-cumulative, meaning that the institution                 12/31/2010                        155               276.4

has no legal obligation to pay Treasury unless the institution declares a dividend.297         Notes:
                                                                                               a
                                                                                                 Includes unpaid cumulative dividends, non-cumulative
    Table 2.20 shows the number of QFIs and total unpaid amount of dividend and                dividends, and Subchapter S interest payments but
                                                                                               does not include interest accrued on unpaid cumulative
interest payments by quarter from September 30, 2009, to December 31, 2010.                    dividends.
                                                                                               b
                                                                                                 Excludes institutions that missed payments but (i) had
                                                                                               fully “caught up” on missed payments at the end of
                                                                                               the quarter reported in column 1 or (ii) had repaid their
Treasury’s Policy on Missed Dividend and Interest Payments                                     investment amounts and exited CPP.
                                                                                               c
                                                                                                  Includes institutions that missed payments and
Under the terms of the preferred shares held by Treasury as a result of its CPP in-            (i) entered into a recapitalization or restructuring plan
                                                                                               with Treasury; (ii) Treasury sold the CPP investment to a
vestments, in certain circumstances, such as when a participant misses six quarter-            third party, or otherwise disposed of the investment to
                                                                                               facilitate the sale of the institution to a third party without
ly payments, Treasury has the right to appoint up to two additional members to the             receiving full repayment of unpaid dividends; (iii) filed for
                                                                                               bankruptcy relief; or (iv) had a subsidiary bank fail.
institution’s board of directors.298 According to Treasury, it continues to prioritize in-     d
                                                                                                  Includes four QFIs and their missed payments not
                                                                                               reported in Treasury’s “Capital Purchase Program Missed
stitutions for nominating directors in part based on whether its investment exceeds            Dividends & Interest Payments” as of 6/30/2010 but
                                                                                               reported in Treasury’s “Cumulative Dividends, Interest and
$25 million. Treasury has engaged an executive search firm to find a list of candi-            Distributions Report” as of the same date. The four QFIs
                                                                                               are CIT, Pacific Coast National Bancorp, UCBH Holdings,
dates suitable to act as members to the institution’s board of directors.299 According         Inc., and Midwest Banc Holdings, Inc.
to Treasury, it “evaluates its CPP investments on an ongoing basis with the help of            Sources: Treasury, “Capital Purchase Program Missed
                                                                                               Dividends & Interest Payments,” 12/31/2010; Treasury,
outside advisors, including external asset managers. The external asset managers               “Cumulative Dividends, Interest and Distributions Report,”
                                                                                               6/30/2010; Treasury, responses to SIGTARP data call,
provide a valuation for each CPP investment” that results in Treasury assigning the            10/7/2009, 1/12/2010, 4/8/2010 and 6/30/2010;
                                                                                               SIGTARP Quarterly Report to Congress 1/30/2010;
institution a credit score.300 For those that have unfavorable credit scores, including        SIGTARP, January 2010 Quarterly Report, 1/30/2010;
                                                                                               SIGTARP, April 2010 Quarterly Report, 4/20/2010;
any institution that has missed more than three dividend (or interest) payments,               SIGTARP, July 2010 Quarterly Report, 7/21/2010;
                                                                                               SIGTARP, October 2010 Quarterly Report, 10/26/2010.
Treasury has stated that the “asset manager dedicates more resources to monitoring
the institution and may talk to the institution on a more frequent basis.”301
108   special inspector general I troubled asset relief program




                                                 Treasury has further stated that it would seek permission from institutions that
                                             miss five dividend (or interest) payments to send observers to the institutions’ board
                                             meetings.302 According to Treasury, the observers would be selected from the Office
                                             of Financial Stability (“OFS”) and assigned to “gain a better understanding of the
                                             institution’s condition and challenges and to observe how the board is addressing
                                             the situation.” Their participation would be limited to inquiring about distributed
                                             materials, presentations, and actions proposed or taken during the meetings, as
                                             well as addressing any questions concerning their role.303
                                                 When Treasury’s right to nominate a new board member becomes effective, it
                                             evaluates the institution’s condition and health and the functioning of its board,
                                             including the information gathered by observers, to determine whether additional
                                             directors are necessary.304 According to Treasury, recruiting qualified directors uses
                                             significant taxpayer resources.305 These directors will not represent Treasury but
                                             will have the same fiduciary duties to shareholders as all other directors. They will
                                             be compensated by the institution in a similar manner as other directors.306 As of
                                             December 31, 2010, Treasury “had not appointed members to any [CPP] institu-
                                             tion’s board” and had sent observers to 24 CPP recipients.307
                                                 According to Treasury, as of December 31, 2010, 19 QFIs had missed at least
                                             six dividend payments (up from eight last quarter) and 17 banks had missed five
                                             dividend payments totaling $94.2 million.308 Table 2.21 lists CPP recipients that
                                             had unpaid dividend (or interest) payments as of December 31, 2010. SIGTARP
                                             and Treasury do not use the same methodology to report unpaid dividend and
                                             interest payments. For example, Treasury generally excludes institutions from its
                                             “non-current” reporting: (i) that entered into a recapitalization or restructuring with
                                             Treasury; (ii) for which Treasury sold the CPP investment to a third party, or oth-
                                             erwise disposed of the investment to facilitate the sale of the institution to a third
                                             party; (iii) that filed for bankruptcy relief; or (iv) that had a subsidiary bank fail.309
                                             SIGTARP generally includes such activity in Table 2.21 under “Value of Unpaid
                                             Amounts” with the value set as of the date of the bankruptcy, restructuring, or
                                             other event that relieves the institution of the legal obligation to continue to make
                                             dividend payments. SIGTARP, unlike Treasury, does not include in its table institu-
                                             tions that have “caught up” by making previously missed dividend and interest
                                             payments.310 For a complete list of CPP recipients and institutions making dividend
                                             or interest payments, see Appendix D: “Transaction Detail.”
                                                                     quarterly report to congress I JANUARY 26, 2011             109

Table 2.21

 CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS,* AS OF 12/31/2010          (continued)

                                                                                                   Value of
                                               Dividend or Payment        Number of                 Missed Value of Unpaid
Institution Name                               Type3                       Payments              Payments1    Amounts1, 2, 3
Saigon National Bank                           Non-Cumulative                       8             $138,758          $138,758
Anchor BanCorp Wisconsin, Inc.7                Cumulative                           7            9,854,167         9,854,167
Blue Valley Ban Corp 7                         Cumulative                           7            1,903,125         1,903,125
Lone Star Bank     7
                                               Non-Cumulative                       7              297,242             297,242
OneUnited Bank7                                Non-Cumulative                       7            1,055,513         1,055,513
Seacoast Banking Corporation of Florida7       Cumulative                           7            4,375,000         4,375,000
United American Bank7                          Non-Cumulative                       7              823,177             823,177
Central Pacific Financial Corp.    7
                                               Cumulative                           6           10,125,000        10,125,000
Centrue Financial Corporation7                 Cumulative                           6            2,450,100         2,450,100
Citizens Bancorp       7
                                               Cumulative                           6              850,200             850,200
Dickinson Financial Corporation II7            Cumulative                           6           11,939,880        11,939,880
First Banks, Inc.7                             Cumulative                           6           24,148,950        24,148,950
Georgia Primary Bank       7
                                               Non-Cumulative                       6              377,413             377,413
Grand Mountain Bancshares, Inc.                Cumulative                           6              244,970             244,970
Idaho Bancorp  7
                                               Cumulative                           6              564,075             564,075
One Georgia Bank7                              Non-Cumulative                       6              455,453             455,453
Pacific City Financial Corporation     7
                                               Cumulative                           6            1,324,350         1,324,350
Premier Service Bank7                          Non-Cumulative                       6              323,972             323,972
Royal Bancshares of Pennsylvania, Inc.     7
                                               Cumulative                           6            2,280,525         2,280,525
Cascade Financial Corporation                  Cumulative                           5            2,435,625         2,435,625
Citizens Bank & Trust Company                  Non-Cumulative                       5              163,500             163,500
Citizens Commerce Bancshares, Inc.             Cumulative                           5              429,188             429,188
Commonwealth Business Bank                     Non-Cumulative                       5              524,625             524,625
FC Holdings, Inc.                              Cumulative                           5            1,433,475         1,433,475
Heritage Commerce Corp7                        Cumulative                           5            2,500,000         2,500,000
Integra Bank Corporation       7
                                               Cumulative                           5            5,224,125         5,224,125
Northern States Financial Corporation          Cumulative                           5            1,075,688         1,075,688
Omega Capital Corp.                            Cumulative                           5              191,863             191,863
Pacific International Bancorp Inc              Cumulative                           5              406,250             406,250
Pathway Bancorp7                               Cumulative                           5              253,863             253,863
Premierwest Bancorp        7
                                               Cumulative                           5            2,587,500         2,587,500
Ridgestone Financial Services, Inc.            Cumulative                           5              742,563             742,563
Rising Sun Bancorp                             Cumulative                           5              407,575             407,575
Rogers Bancshares, Inc.        7
                                               Cumulative                           5            1,703,125         1,703,125
Syringa Bancorp                                Cumulative                           5              559,728             559,728
The Freeport State Bank                        Non-Cumulative                       5               20,500              20,500
Alliance Financial Services, Inc.*             Interest                             4              755,100             755,100
BNCCORP, Inc.                                  Cumulative                           4            1,095,100         1,095,100
Cecil Bancorp, Inc.                            Cumulative                           4              578,000             578,000
Central Virginia Bankshares, Inc.              Cumulative                           4              569,250             569,250
Citizens Bancshares Co. (MO)                   Cumulative                           4            1,362,000         1,362,000
Citizens Republic Bancorp, Inc.                Cumulative                           4           15,000,000        15,000,000
                                                                                                       Continued on next page.
110             special inspector general I troubled asset relief program



       CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS,* AS OF 12/31/2010              (continued)

                                                                                                         Value of
                                                                Dividend or Payment   Number of           Missed Value of Unpaid
      Institution Name                                          Type3                  Payments        Payments1    Amounts1, 2, 3
      City National Bancshares Corporation                      Cumulative                   4           471,950          471,950
      Community 1st Bank                                        Non-Cumulative               4           115,464          115,464
      Congaree Bancshares, Inc.**                               Cumulative                   4           223,763          179,010
      Duke Financial Group, Inc.*                               Interest                     4         1,006,800        1,006,800
      Fidelity Federal Bancorp                                  Cumulative                   4           352,799          352,799
      First Federal Bancshares of Arkansas, Inc.                Cumulative                   4           825,000          825,000
      First Security Group, Inc.                                Cumulative                   4         1,650,000        1,650,000
      First Sound Bank                                          Non-Cumulative               4           370,000          370,000
      First Southwest Bancorporation, Inc.                      Cumulative                   4           299,750          299,750
      FPB Bancorp, Inc. (FL)                                    Cumulative                   4           290,000          290,000
      Heartland Bancshares, Inc.                                Cumulative                   4           372,320          372,320
      Intermountain Community Bancorp                           Cumulative                   4         1,350,000        1,350,000
      Intervest Bancshares Corporation                          Cumulative                   4         1,250,000        1,250,000
      Investors Financial Corporation of Pettis County, Inc.*   Interest                     4           335,600          335,600
      Maryland Financial Bank                                   Non-Cumulative               4            92,650           92,650
      Midwest Banc Holdings, Inc.****   ,4
                                                                Cumulative                   4         4,239,200        4,239,200
      Monarch Community Bancorp, Inc.                           Cumulative                   4           339,250          339,250
      Patterson Bancshares, Inc                                 Cumulative                   4           201,150          201,150
      Peninsula Bank Holding Co.**                              Cumulative                   4           312,500          237,500
      Pierce County Bancorp****                                 Cumulative                   4           370,600          370,600
      Presidio Bank                                             Non-Cumulative               4           561,344          561,344
      Tennessee Valley Financial Holdings, Inc.                 Cumulative                   4           166,799          166,799
      The Bank of Currituck*****                                Non-Cumulative               4           219,140          219,140
      U.S. Century Bank                                         Non-Cumulative               4         2,737,880        2,737,880
      Bankers’ Bank of the West Bancorp, Inc.                   Cumulative                   3           516,623          516,623
      Bridgeview Bancorp, Inc.                                  Cumulative                   3         1,553,250        1,553,250
      First Community Bancshares, Inc (KS)                      Cumulative                   3           604,950          604,950
      First Trust Corporation*                                  Interest                     3         1,130,653        1,130,653
      FNB United Corp.                                          Cumulative                   3         1,931,250        1,931,250
      Gold Canyon Bank                                          Non-Cumulative               3            63,503           63,503
      Goldwater Bank, N.A.**                                    Non-Cumulative               3           174,900          104,940
      Gregg Bancshares, Inc.                                    Cumulative                   3            33,705           33,705
      Heritage Oaks Bancorp                                     Cumulative                   3           787,500          787,500
      Independent Bank Corporation***                           Cumulative                   3         3,960,421        3,960,421
      Madison Financial Corporation                             Cumulative                   3           137,783          137,783
      Midtown Bank & Trust Company**                            Non-Cumulative               3           284,590          213,443
      Millennium Bancorp, Inc.**                                Cumulative                   3           395,670          296,753
      Northwest Bancorporation, Inc.                            Cumulative                   3           429,188          429,188
      Patapsco Bancorp, Inc.                                    Cumulative                   3           245,250          245,250
      Plumas Bancorp                                            Cumulative                   3           448,088          448,088
      Prairie Star Bancshares, Inc.                             Cumulative                   3           114,450          114,450
      Premier Bank Holding Company                              Cumulative                   3           388,313          388,313
                                                                                                            Continued on next page.
                                                                    quarterly report to congress I JANUARY 26, 2011             111



 CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS,* AS OF 12/31/2010         (continued)

                                                                                                 Value of
                                              Dividend or Payment        Number of                Missed Value of Unpaid
Institution Name                              Type3                       Payments             Payments1    Amounts1, 2, 3
Santa Clara Valley Bank, N.A.                 Non-Cumulative                      3               118,538             118,538
Sonoma Valley Bancorp****                     Cumulative                          3               353,715             353,715
Stonebridge Financial Corp.                   Cumulative                          3               454,550             454,550
TCB Holding Company                           Cumulative                          3               485,917             485,917
The Connecticut Bank and Trust Company        Non-Cumulative                      3               178,573             178,573
Timberland Bancorp, Inc.                      Cumulative                          3               631,870             631,870
Treaty Oak Bancorp, Inc.                      Cumulative                          3               135,340             135,340
Valley Financial Corporation                  Cumulative                          3               608,253             608,253
1st FS Corporation                            Cumulative                          2               409,225             409,225
Alaska Pacific Bancshares, Inc.               Cumulative                          2               119,525             119,525
Berkshire Bancorp, Inc.                       Cumulative                          2                78,825              78,825
Blue Ridge Bancshares, Inc.                   Cumulative                          2               327,000             327,000
BNB Financial Services Corporation            Cumulative                          2               204,375             204,375
Boscobel Bancorp, Inc *                       Interest                            2               234,312             234,312
Broadway Financial Corporation                Cumulative                          2               375,000             375,000
Cadence Financial Corporation*****            Cumulative                          2             1,100,000        1,100,000
Capital Commerce Bancorp, Inc.                Cumulative                          2               138,975             138,975
CBS Banc-Corp                                 Cumulative                          2               662,175             662,175
CIT Group Inc.****, 5                         Cumulative                          2            29,125,000       29,125,000
Community Bankers Trust Corporation           Cumulative                          2               442,000             442,000
Covenant Financial Corporation                Cumulative                          2               136,250             136,250
First BanCorp (PR)***, 8                      Cumulative                          2            26,775,001       26,775,001
First Community Bank Corporation of America   Cumulative                          2               267,125             267,125
Fresno First Bank                             Non-Cumulative                      2                33,357              33,357
Harbor Bankshares Corporation**               Cumulative                          2               340,000             170,000
HomeTown Bankshares Corporation               Cumulative                          2               266,830             266,830
Legacy Bancorp, Inc.                          Cumulative                          2               137,450             137,450
Market Bancorporation, Inc.                   Cumulative                          2                56,135              56,135
Mercantile Bank Corporation                   Cumulative                          2               525,000             525,000
Metropolitan Bank Group, Inc (Archer Bank)    Cumulative                          2             1,949,070        1,949,070
MS Financial, Inc.                            Cumulative                          2               210,441             210,441
NC Bancorp, Inc.                              Cumulative                          2               187,480             187,480
Pacific Coast National Bancorp****            Cumulative                          2               112,270             112,270
Pinnacle Bank Holding Company                 Cumulative                          2               119,580             119,580
Premier Financial Corp*                       Interest                            2               266,310             266,310
Provident Community Bancshares, Inc.          Cumulative                          2               231,650             231,650
Superior Bancorp Inc.***                      Cumulative                          2             1,735,781        1,735,781
The Queensborough Company                     Cumulative                          2               327,000             327,000
Trinity Capital Corporation                   Cumulative                          2               974,893             974,893
Western Community Bancshares, Inc.            Cumulative                          2               199,999             199,999
CalWest Bancorp                               Cumulative                          1                63,443              63,443
CB Holding Corp.                              Cumulative                          1                56,060              56,060
                                                                                                     Continued on next page.
112                 special inspector general I troubled asset relief program




       CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS,* AS OF 12/31/2010                                                                           (continued)

                                                                                                                                                                                   Value of
                                                                                         Dividend or Payment                                   Number of                            Missed Value of Unpaid
      Institution Name                                                                   Type3                                                  Payments                         Payments1    Amounts1, 2, 3
      Central Federal Corporation                                                        Cumulative                                                          1                        90,313                     90,313
      Colonial American Bank                                                             Non-Cumulative                                                      1                          7,828                      7,828
      CSRA Bank Corp.                                                                    Cumulative                                                          1                        32,700                     32,700
      Exchange Bank                                                                      Non-Cumulative                                                      1                      585,875                    585,875
      FBHC Holding Company*                                                              Interest                                                            1                        61,563                     61,563
      First Financial Service Corporation                                                Cumulative                                                          1                      250,000                    250,000
      First United Corporation                                                           Cumulative                                                          1                      375,000                    375,000
      Florida Bank Group, Inc.                                                           Cumulative                                                          1                      278,928                    278,928
      Fort Lee Federal Savings Bank                                                      Non-Cumulative                                                      1                        17,713                     17,713
      Great River Holding Company*                                                       Interest                                                            1                      176,190                    176,190
      Green Bankshares, Inc.                                                             Cumulative                                                          1                      903,475                    903,475
      Liberty Shares, Inc.                                                               Cumulative                                                          1                      235,440                    235,440
      Marine Bank & Trust Company                                                        Non-Cumulative                                                      1                        40,875                     40,875
      MetroCorp Bancshares, Inc.**                                                       Cumulative                                                          1                    1,687,500                    562,500
      Old Second Bancorp, Inc.                                                           Cumulative                                                          1                      912,500                    912,500
      Pacific Commerce Bank**                                                            Non-Cumulative                                                      1                        87,279                     31,961
      Premier Financial Bancorp, Inc.                                                    Cumulative                                                          1                      278,150                    278,150
      Regent Bancorp, Inc**                                                              Cumulative                                                          1                      272,005                    136,003
      Santa Lucia Bancorp                                                                Cumulative                                                          1                        50,000                     50,000
      Spirit BankCorp, Inc.                                                              Cumulative                                                          1                      408,750                    408,750
      Tidelands Bancshares, Inc                                                          Cumulative                                                          1                      180,600                    180,600
      Tifton Banking Company****                                                         Non-Cumulative                                                      1                        51,775                     51,775
      UCBH Holdings, Inc.****                                                            Cumulative                                                          1                    3,734,213                 3,734,213
      Community Bank of the Bay            6
                                                                                         Non-Cumulative                                      Not Provided                             72,549                     72,549
      Hampton Roads Bankshares, Inc.***, 9                                               Cumulative                                          Not Provided                         4,017,350                 4,017,350
      Pacific Capital Bancorp***, 8, 9                                                   Cumulative                                          Not Provided                       13,547,550                13,547,550
      Sterling Financial Corporation (WA)***, 9                                          Cumulative                                          Not Provided                       18,937,500                18,937,500
      The South Financial Group, Inc.*****              ,9
                                                                                         Cumulative                                          Not Provided                       13,012,500                13,012,500
      TIB Financial Corp*****, 9                                                         Cumulative                                          Not Provided                         1,850,000                 1,850,000
      Total                                                                                                                                                               $278,214,963               $276,368,865

      Notes: Numbers may not total due to rounding. Approximately $9.8 million of the $276.4 million in unpaid CPP dividend/interest payments are non-cumulative and Treasury has no legal right to missed
      dividends that are non-cumulative.
      	     * 	“Missed Interest Payments” occur when a Subchapter S recipient fails to pay Treasury interest on a subordinated debenture in a timely manner.
      	 ** 	Partial payments made after the due date.
      	 *** 	Completed an exchange with Treasury. For an exchange of mandatorily convertible preferred stock or trust preferred securities, dividend payments normally continue to accrue. For an exchange of
               mandatorily preferred stock for common stock, no additional preferred dividend payments will accrue.
      	 **** 	Filed for bankruptcy or subsidiary bank failed. For completed bankruptcy proceedings, Treasury’s investment was extinguished and no additional dividend payments will accrue. For bank failures,
               Treasury may elect to file claims with bank receivers to collect current and/or future unpaid dividends.
      *****	Treasury sold or is selling CPP investment to the institution or a third party. No additional preferred dividend payments will accrue after a sale, absent an agreement to the contrary.
      1
        	Includes unpaid cumulative dividends, non-cumulative dividends, and Subchapter S interest payments but does not include interest accrued on unpaid cumulative dividends.
      2	
         Excludes institutions that missed payments but (i) had fully “caught up” on missed payments before 12/31/2010, or (ii) had repaid their investment amounts and exited CPP.
      3
        	Includes institutions that missed payments and (i) entered into a recapitalization or restructure with Treasury; (ii) Treasury sold the CPP investment to a third party, or otherwise disposed of the investment to
         facilitate the sale of the institution to a third party without receiving full repayment of unpaid dividends; (iii) filed for bankruptcy relief; or (iv) had a subsidiary bank fail.
      4
        	For Midwest Banc Holdings, Inc., the missed number of payments is the number last reported from SIGTARP’s April 2010 Quarterly Report, prior to bankruptcy filing; the value of missed payments is from
         Treasury’s response to SIGTARP data call, 10/13/2010; and the value of unpaid amounts is the unpaid amount.
      5
        	For CIT Group Inc., the number of payments is from the number last reported from SIGTARP’s January 2010 Quarterly Report, shortly after the bankruptcy filing; the value of missed payments is from
         Treasury’s response to SIGTARP data call, 10/13/2010; and the value of unpaid amounts is the unpaid amount.
      6
        	Community Bank of the Bay transferred into CDCI. Treasury reported an outstanding balance on the unpaid dividends but did not provide the related number of missed payments, therefore it is listed in this
         table as “Not Provided.”
      7
        	Treasury has assigned an observer to the institution’s board of directors.
      8
        	Treasury has a contractual right to assign an observer to the institution’s board of directors but has not exercised this right.
      9	
         Number of payments is “Not Provided” because Treasury reports the number of missed payments as “0” (zero); however, these institutions have remaining unpaid amounts.

      Sources: Treasury, Dividends and Interest Report, 12/31/2010; Treasury, response to SIGTARP data call, 1/7/2011; SIGTARP, January 2010 Quarterly Report, 1/30/2010; SIGTARP, April 2010 Quarterly
      Report, 4/20/2010.
                                                                              quarterly report to congress I JANUARY 26, 2011          113




Warrant Disposition
As required by EESA, Treasury receives warrants when it invests in troubled assets
from financial institutions, with an exception for certain small institutions. With
respect to financial institutions with publicly traded securities, these warrants give
Treasury the right, but not the obligation, to purchase a certain number of shares of
common stock at a predetermined price.311 Because the warrants rise in value as a
company’s share price rises, they permit Treasury (and the taxpayer) to benefit from
a firm’s potential recovery.312 For publicly traded institutions, the warrants received
by Treasury under CPP allowed Treasury to purchase additional shares of common
stock in a number equal to 15% of the value of the original CPP investment at a
specified exercise price.313 Treasury’s warrants constitute assets with a fair market         Exercise Price: Preset price at which
value that Treasury estimates using relevant market quotes, financial models, and/            a warrant holder may purchase each
or third-party valuations.314                                                                 share. For warrants in publicly traded
    For publicly traded participants, Treasury received warrants to purchase                  institutions issued through CPP, this
common stock that expire 10 years from the date of the CPP investment. As of                  was based on the average stock price
                                                                                              during the 20 days before the date
December 31, 2010, Treasury had not exercised any of these warrants.315 For pri-
                                                                                              that Treasury granted preliminary CPP
vately held institutions, Treasury received warrants to purchase additional preferred
                                                                                              participation approval.
stock or debt in an amount equal to 5% of the CPP investment. Treasury exercised
these warrants immediately.316
                                                                                             For more information on warrant
Repurchase of Warrants by Financial Institutions                                             disposition, see SIGTARP’s Audit Report of
Upon repaying its CPP investment, a recipient may seek to negotiate with Treasury            May 10, 2010, “Assessing Treasury’s Process
to buy back its warrants. As of December 31, 2010, 46 publicly traded institutions           to Sell Warrants Received from TARP
had bought back $3.1 billion worth of warrants, of which $319,659 was purchased              Recipients.”
this quarter. As of that same date, 30 privately held institutions, the warrants of
which had been immediately exercised, bought back the resulting additional pre-
ferred shares for a total of $12.7 million, of which $1.3 million was bought back
this quarter.317 Table 2.22 lists publicly traded institutions that have repaid TARP
and repurchased warrants as of December 31, 2010. Table 2.23 lists privately held
institutions that had done so as of the same date.318
114   special inspector general I troubled asset relief program




                               Table 2.22

                               CPP WARRANT SALES AND REPURCHASES (PUBLIC), AS OF 12/31/2010
                                                                                             Number of Warrants   Amount of Repurchase
                               Repurchase Date      Institution                                   Repurchased            ($ Thousands)
                               7/22/2009            The Goldman Sachs Group, Inc.                    12,205,045             $1,100,000.0
                               8/12/2009            Morgan Stanley                                   65,245,759                950,000.0
                               7/29/2009            American Express Company                         24,264,129                340,000.0
                               7/7/2010             Discover Financial Services                      20,500,413                172,000.0
                               7/15/2009            U.S. Bancorp                                     32,679,102                139,000.0
                               8/5/2009             BNYM                                             14,516,129                136,000.0
                               8/26/2009            Northern Trust Corporation                        3,824,624                 87,000.0
                               7/22/2009            BB&T Corp.                                       13,902,573                 67,010.4
                               7/8/2009             State Street Corporationa                         2,788,104                 60,000.0
                               4/7/2010             City National Corporation                         1,128,668                 18,500.0
                               9/8/2010             Fulton Financial Corporation                      5,509,756                 10,800.0
                               12/30/2009           Trustmark Corporation                             1,647,931                 10,000.0
                               6/16/2010            SVB Financial Group       a
                                                                                                       354,058                    6,820.0
                               5/27/2009            FirstMerit Corporation                             952,260                    5,025.0
                               9/8/2010             The Bancorp, Inc. a
                                                                                                       980,203                    4,754.0
                               3/31/2010            Umpqua Holdings Corp.a                            1,110,898                   4,500.0
                               9/1/2010             Columbia Banking System, Inc.a                     398,023                    3,301.6
                               6/24/2009            First Niagara Financial Groupa                     953,096                    2,700.0
                               11/24/2009           Bank of the Ozarks, Inc.                           379,811                    2,650.0
                               5/27/2009            Independent Bank Corp.                             481,664                    2,200.0
                               5/27/2009            Sun Bancorp, Inc.                                 1,620,545                   2,100.0
                               4/7/2010             First Litchfield Financial Corporation             199,203                    1,488.0
                               9/30/2009            Bancorp Rhode Island, Inc.                         303,083                    1,400.0
                               6/24/2009            SCBT Financial Corporation                         192,967                    1,400.0
                               10/28/2009           CVB Financial Corp    a
                                                                                                       834,761                    1,307.0
                               5/20/2009            Iberiabank Corporationa                            813,008                    1,200.0
                               5/08/2009            Old National Bancorp                               138,490                    1,200.0
                                                                                                                    Continued on next page.
                                                                                                                         quarterly report to congress I JANUARY 26, 2011   115




CPP WARRANT SALES AND REPURCHASES (PUBLIC), AS OF 12/31/2010                                                              (continued)
                                                                                  Number of Warrants                   Amount of Repurchase
Repurchase Date              Institution                                               Repurchased                            ($ Thousands)
6/24/2009                    Berkshire Hills Bancorp, Inc.                                          226,330                                  1,040.0
12/23/2009                   WesBanco, Inc.                                                         439,282                                     950.0
6/17/2009                    Alliance Financial Corporation                                         173,069                                     900.0
12/30/2009                   Flushing Financial Corporation         a
                                                                                                    375,806                                     900.0
6/30/2009                    HF Financial Corp., Sioux Falls                                        302,419                                     650.0
12/16/2009                   Wainwright Bank & Trust Company                                        390,071                                     568.7
12/16/2009                   LSB Corporation                                                        209,497                                     560.0
                             Union First Market Bankshares
12/23/2009                   Corporation (Union Bankshares                                          211,318                                     450.0
                             Corporation)a
2/3/2010                     OceanFirst Financial Corp.a                                            190,427                                     430.8

9/1/2010                     Citizens & Northern Corporation                                        194,794                                     400.0
9/30/2010                    South Financial Group Inc.        b
                                                                                                10,106,796                                      400.0
12/1/2010                    Central Jersey Bancorp                                                 268,621                                     319.7
6/24/2009                    Somerset Hills Bancorp                                                 163,065                                     275.0
2/10/2010                    Monarch Financial Holdings, Inc.a                                      132,353                                     260.0
7/28/2010                    Bar Harbor Banksharesa                                                   52,455                                    250.0
9/2/2009                     Old Line Bancshares, Inc.                                              141,892                                     225.0
10/28/2009                   Centerstate Banks of Florida Inc.          a
                                                                                                    125,413                                     212.0
10/14/2009                   Manhattan Bancorp                                                        29,480                                      63.4
9/30/2010                    TIB Financialb                                                      1,106,389                                        40.0
Total                                                                                       222,763,780                             $3,141,250.6

Notes: Numbers may not total due to rounding. This table represents warrants for common stock issued to Treasury by publicly traded TARP recipients.
Treasury may hold one warrant for millions of underlying shares rather than millions of warrants of an individual financial institution.
a
  This institution reduced its original amount of warrants issued through a qualified equity offering.
b
  Warrant sales to third parties.
Source: Treasury, Transactions Report, 1/4/2011; Treasury, responses to SIGTARP data call, 1/4/2011, 1/7/2011, and 1/20/2011.
116   special inspector general I troubled asset relief program                                                                                                                                     116




                  Table 2.23

                  CPP REPURCHASES of preferred shares resulting from immediate exercise of warrants
                  (private), AS OF 12/31/2010
                                                                                                                               Number of Shares                 Amount of Repurchase
                  Repurchase Date                    Institution                                                                  Repurchased                          ($ Thousands)
                  9/29/2010                          Community Bancshares of Mississippi, Inc. b                                           2,600,000                                 $2,600.0
                  9/29/2010                          BancPlus Corporation         b
                                                                                                                                           2,400,000                                  2,400.0
                  9/29/2010                          State Capital Corporation b                                                              750,000                                    750.0
                  4/15/2009                          Centra Financial Holdings, Inc.                                                          750,000                                    750.0
                  5/27/2009                          First Manitowoc Bancorp, Inc.                                                            600,000                                    600.0
                  6/16/2010                          First Southern Bancorp, Inc.                                                             545,000                                    545.0
                  9/29/2010                          Security Capital Corporation           b
                                                                                                                                              522,000                                    522.0
                  12/23/2009                         Midland States Bancorp, Inc.                                                             509,000                                    509.0
                  11/18/2009                         1st United Bancorp, Inc.                                                                 500,000                                    500.0
                  9/29/2010                          PSB Financial Corporation          b
                                                                                                                                              464,000                                    464.0
                  9/17/2010                          First Eagle Bancshares, Inc.a,b                                                          375,000                                    375.0
                  11/24/2010                         Leader Bancorp, Inc.                                                                     292,000                                    292.0
                  4/22/2009                          First ULB Corp.                                                                          245,000                                    245.0
                  9/29/2010                          First Vemon Bankshares, Inc. b                                                           245,000                                    245.0
                  12/30/2010                         Capital Bancorp, Inc.                                                                    235,000                                    235.0
                  12/3/2010                          The Bank of Currituckc                                                                   201,000                                    201.0
                  4/21/2010                          Hilltop Community Bancorp, Inc.                                                          200,000                                    200.0
                  5/19/2010                          Texas National Bancorporation                                                            199,000                                    199.0
                  12/8/2010                          California Oaks State Bank                                                               165,000                                    165.0
                  6/16/2010                          FPB Financial Corp.                                                                      162,000                                    162.0
                  10/6/2010                          Frontier Bancshares, Inc. a,                                                             150,000                                    150.0
                  12/29/2010                         Surrey Bancorp/Surrey Bank & Trust                                                       100,000                                    100.0
                  12/29/2010                         Nationwide Bankshares, Inc. a                                                            100,000                                    100.0
                  9/29/2010                          Lafayette    b
                                                                                                                                              100,000                                    100.0
                  9/24/2010                          First Choice Bank b                                                                      110,000                                    110.0
                  12/15/2010                         Signature Bancshares, Inc. a                                                               85,000                                     85.0
                  4/14/2010                          First State Bank of Mobeetie                                                               37,000                                     37.0
                  11/10/2009                         Midwest Regional Bancorp, Inc.                                                             35,000                                     35.0
                  7/14/2010                          Green City Bancshares, Inc.                                                                33,000                                     33.0
                  12/29/2010                         Haviland Bancshares, Inc.                                                                  21,000                                     21.0
                  Total                                                                                                                 12,730,000                                $12,730.0

                  Notes: Numbers may not total due to rounding. This table represents the preferred shares held by Treasury as a result of the exercise of warrants issued by non-publicly traded
                  TARP recipients. These warrants were exercised immediately upon the transaction date. Treasury may hold one warrant for millions of underlying shares rather than millions of
                  warrants of an individual financial institution.
                  a
                    S-Corporation Institution; issued subordinated debt instead of preferred stock.
                  b
                    Transferred to CDCI.
                  c
                    For The Bank of Currituck, the Transactions Report listed “N/A” for the final disposition date, description, and proceeds.

                  Sources: Treasury, Transactions Report, 1/4/2011; Treasury, responses to SIGTARP data call, 1/4/2011 and 1/7/2011.
                                                                                 quarterly report to congress I JANUARY 26, 2011               117




Treasury Warrant Auctions
If Treasury and the repaying QFI cannot agree upon the price for the institution’s
repurchase of its warrants, Treasury may conduct a public offering to auction the                Dutch Auction: A Treasury warrant auc-
warrants.319 In November 2009, Treasury began using a “modified Dutch auction”                   tion (which has multiple bidders bidding
to sell the warrants publicly.320 On the announced auction date, potential investors             for different quantities of the asset) in
(which may include the CPP recipient) submit bids to the auction agent that man-                 which the accepted price is set at the
ages the sale (for CPP-related warrants, Deutsche Bank) at specified increments                  lowest bid of the group of high bidders
above a minimum price set by Treasury.321 Once the auction agent receives all bids,              whose collective bids fulfill the amount
it determines the final price and distributes the warrants to the winning bidders.322            of shares offered by Treasury. As an
    Treasury did not conduct any warrant auctions this quarter. Through December                 example, three investors place bids to
                                                                                                 own a portion of 100 shares offered by
31, 2010, Treasury held 16 public auctions for warrants it received under CPP and
                                                                                                 the issuer:
TIP, raising a total of approximately $5 billion.323 Final closing information for all
auctions is shown in Table 2.24.
                                                                                                 Bidder A wants 50 shares at $4/share.
                                                                                                 Bidder B wants 50 shares at $3/share.
CPP Restructurings and Recapitalizations                                                         Bidder C wants 50 shares at $2/share.
Certain CPP institutions continue to experience high losses and financial difficul-              The seller selects Bidders A and B as
ties, resulting in inadequate capital or liquidity. To avoid insolvency or improve the           the two highest bidders, and their col-
quality of capital, these institutions may ask Treasury to convert its CPP preferred             lective bids consume the 100 shares
shares into a more junior form of equity or accept a lower valuation, resulting in               offered. The winning price is $3, which
Treasury taking a discount or loss. If a CPP institution is undercapitalized and/or              is what both bidders pay per share.
in danger of becoming insolvent, it may propose to Treasury a restructuring (or re-              Bidder C’s bid is not filled.
capitalization) plan to avoid failure (or to attract private capital) and to “attempt to
preserve value” for Treasury’s investment.324 Treasury may also sell its investment in           Auction Agent: Firm (such as an invest-
                                                                                                 ment bank) that buys a series of securi-
a troubled institution to a third party at a discount in order to facilitate that party’s
                                                                                                 ties from an institution for resale.
acquisition of a troubled institution. Although Treasury may incur partial losses
on its investment in the course of these transactions, it has explained to SIGTARP
                                                                                                 Undercapitalized: Condition in which a
that such an outcome may be deemed necessary to avoid the total loss of Treasury’s
                                                                                                 financial institution does not meet its
investment that would occur if the institution failed.325                                        regulator’s requirements for sufficient
    Under these circumstances, the CPP participant will ask Treasury for a formal                capital to operate under a defined level
review of its proposal. The proposal will detail the institution’s recapitalization              of adverse conditions.
plan and may estimate how much capital the institution plans to raise from private
investors and whether Treasury and other preferred shareholders will convert their               Due Diligence: Appropriate level of
preferred stock to common stock. The proposal may also involve a proposed dis-                   attention or care a reasonable person
count on the conversion to common stock, although Treasury does not realize any                  should take before entering into an
loss until it disposes of the stock.326 In other words, Treasury will not know whether           agreement or a transaction with an-
a loss will occur, or the extent of such a loss, until it actually sells the common              other party. In finance, it often refers to
                                                                                                 the process of conducting an audit or
stock it receives as part of the exchange. According to Treasury, when it receives
                                                                                                 review of the institution before initiating
such a request, it asks one of the external asset managers that it has hired to ana-
                                                                                                 a transaction.
lyze the proposal and perform due diligence on the institution.327 The external asset
manager interviews the institution’s managers, gathers non-public information, and
118           special inspector general I troubled asset relief program                                                                                        118




      Table 2.24

      Treasury Auctions, As of 12/31/2010
                                                                         Number of
                                                                          Warrants      Minimum Bid                               Proceeds to Treasury
                                                Auction Date               Offered            Price            Selling Price               ($ Millions)
      Hartford Financial Services Group           9/21/2010             52,093,973              $10.50                $13.70                        $713.7
      Lincoln National Corporation                9/16/2020             13,049,451               13.50                 16.60                         216.6
      eSterling Bancshares Inc.                     6/9/2010              2,615,557                0.85                  1.15                           3.0
      First Financial Bancorp                       6/2/2010                465,117                4.00                  6.70                           3.1
      Wells Fargo and Company                     5/20/2010            110,261,688                 6.50                  7.70                        849.0
      Valley National Bancorp                     5/18/2010               2,532,542                1.70                  2.20                           5.6
      Comerica Inc.                                 5/6/2010            11,479,592               15.00                 16.00                         183.7
      PNC Financial Service Group, Inc.           4/29/2010             16,885,192               15.00                 19.20                         324.2
      Texas Capital Bancshares, Inc.              3/11/2010                 758,086                6.50                  6.50                           6.7
      Signature Bank                              3/10/2010                 595,829              16.00                 19.00                           11.3
      Washington Federal, Inc.                      3/9/2010              1,707,456                5.00                  5.00                          15.6
      Bank of America A Auction (TIP)               3/3/2010           150,375,940                 7.00                  8.35                      1,255.6
      Bank of America B Auction (CPP)               3/3/2010           121,792,790                 1.50                  2.55                        310.6
      TCF Financial                              12/15/2009               3,199,988                1.50                  3.00                           9.6
      JPMorgan Chase                             12/10/2009             88,401,697                 8.00                10.75                         950.3
      Capital One                                 12/3/2009             12,657,960                 7.50                11.75                         148.7
      Total                                                          588,872,858                                                                 $5,007.3

      Note: Numbers affected by rounding.

      Sources: Treasury, response to data call, 1/7/2011; The PNC Financial Services Group, Inc., “Final Prospectus Supplement,” 4/29/2010, www.sec.gov/
      Archives/edgar/data/713676/000119312510101032/d424b5.htm, accessed 6/30/2010; Valley National Bancorp, “Final Prospectus Supplement,”
      5/18/2010, www.sec.gov/Archives/edgar/data/714310/000119312510123896/d424b5.htm, accessed 6/30/2010; Comerica Incorporated, “Final Prospec-
      tus Supplement,” 5/6/2010, www.sec.gov/Archives/edgar/data/28412/000119312510112107/d424b5.htm, accessed 6/30/2010; Wells Fargo and Compa-
      ny, “Definitive Prospectus Supplement,” 5/20/2010, www.sec.gov/Archives/edgar/data/72971/000119312510126208/d424b5.htm, accessed 6/30/2010;
      First Financial Bancorp, “Prospectus Supplement,” 6/2/2010, www.sec.gov/Archives/edgar/data/708955/000114420410031630/v187278_424b5.htm,
      accessed 6/30/2010; Sterling Bancshares, Inc., “Prospectus Supplement,” 6/9/2010, www.sec.gov/Archives/edgar/data/891098/000119312510137258/
      d424b5.htm, accessed 6/30/2010 ;Signature Bank, “Prospectus Supplement,” 3/10/2010, files.shareholder.com/downloads/SBNY/865263367x0x358381/
      E87182B5-A552-43DD-9499-8B56F79AEFD0/8-K__Reg_FD_Offering_Circular.pdf, accessed 3/11/2010; Texas Capital Bancshares, Inc., “Prospectus Supple-
      ment,” 3/11/2010, www.sec.gov/Archives/edgar/data/1077428/000095012310023800/d71405ae424b5.htm, accessed 3/12/2010; Bank of America,
      “Form 8-K,” 3/3/2010, www.sec.gov/Archives/edgar/data/70858/000119312510051260/d8k.htm, accessed 3/4/2010; Bank of America, “Prospectus
      Supplement,” 3/1/2010, www.sec.gov/Archives/edgar/data/70858/000119312510044940/d424b7.htm, accessed 3/4/2010; Bank of America, “Prospec-
      tus Supplement,” 3/1/2010, www.sec.gov/Archives/edgar/data/70858/000119312510044945/d424b7.htm, accessed 3/4/2010; Washington Federal,
      Inc., “Prospectus Supplement,” 3/9/2010, www.sec.gov/Archives/edgar/data/936528/000119312510052062/d424b5.htm, accessed 3/10/2010; TCF
      Financial, “Prospectus Supplement,” 12/16/2009, www.sec.gov/Archives/edgar/data/814184/000104746909010786/a2195869z424b5.htm, accessed
      12/29/2009; JPMorgan Chase, “Prospectus Supplement,” 12/11/2009, www.sec.gov/Archives/edgar/data/19617/000119312509251466/d424b5.htm,
      accessed 12/29/2009; Capital One Financial, “Prospectus Supplement,” 12/3/2009, www.sec.gov/Archives/edgar/data/927628/000119312509247252/
      d424b5.htm, accessed 12/4/2009; Treasury, Transactions Report, 6/30/2010; Hartford Financial Services Group, Prospectus Supplement to Prospectus filed
      with the SEC 8/4/2010, www.sec.gov/Archives/edgar/data/874766/000095012310087985/y86606b5e424b5.htm, accessed 10/7/2010; Hartford Finan-
      cial Services Group, 8-K, 9/27/2010, www.sec.gov/Archives/edgar/data/874766/000095012310089083/y86713e8vk.htm, accessed 10/7/2010; Hartford
      Financial Services Group, Underwriting Agreement, 8/21/2010, www.sec.gov/Archives/edgar/data/874766/000095012310089083/y86713exv1w1.htm,
      accessed 10/7/2010; Treasury, Transactions Report, 9/27/2010; Treasury Press Release, “Treasury Announces Pricing of Public Offering to Purchase
      Common Stock of The Hartford Financial Services Group, Inc.,” 9/22/2010, www.treasury.gov/press-center/press-releases/Pages/tg865.aspx, ac-
      cessed 9/22/2010; Lincoln National Corporation, Prospectus Supplement to Prospectus filed with SEC 3/10/2009, www.sec.gov/Archives/edgar/
      data/59558/000119312510211941/d424b5.htm, accessed 10/7/2010; Lincoln National Corporation, 8-K, 9/22/2010, www.sec.gov/Archives/edgar/
      data/59558/000119312510214540/d8k.htm, accessed 10/7/2010.
119                                                                                               quarterly report to congress I JANUARY 26, 2011                119




      conducts loan-loss estimates and capital structure analysis. The manager submits
      its evaluation to Treasury, which in turn decides whether to restructure its CPP
      investment.328
          Table 2.25 shows all CPP restructurings and recapitalizations through
      December 31, 2010.


  Table 2.25

       Treasury Restructurings, Recapitalizations, and Sales, As of 12/31/2010                                   ($ MILLIONS) (contiNued)
                                 Pre-Exchange Investment                                                      Exchange
                                                                                       Amount                                                         (Loss)/
                                                                                   Received by                                          Discount     Gain on
      Institution        Date         Amount Security Type           Date             Treasury Security Type                             Percent   Exchangea
                                                                                                    7.7 billion shares of
                         10/28/2008 $25,000.0   Preferred Stock      9/11/2009      $25,000.0                                                0%            $0
                                                                                                    Common Stock
      Citigroup Inc. b

                                                7.7 billion shares   4/26/2010 –
                                                                                    $31,852.4       Cash                                    N/Ac     $6,852.4
                                                of Common Stock      12/10/2010
      Bank of
                      2/6/2009           $4.0   Preferred Stock      12/3/2010            $1.7      Cash                                    58%         ($2.3)
      Currituck
      South Financial
      Group, Inc/
                      12/5/2008        $347.0   Preferred Stock      9/30/2010         $130.6       Cash                                    62%       ($216.4)
      Toronto
      Dominion  f


      TIB Financial
                      12/5/2008         $37.0   Preferred Stock      9/30/2010          $12.2       Cash                                    67%        ($24.8)
      Corp.f
                                                                                                    Mandatorily Convertible Preferred
                         12/31/2008     $80.3   Preferred Stock      8/12/2010          $80.3                                                0%            $0
                                                                                                    Stock
      Hampton Roads
      Banksharese                               Mandatorily
                         9/30/2010      $80.3   Convertible          Closed             $51.7       Common Stock                            36%        ($28.6)
                                                Preferred Stock
                                                                                                    Mandatorily Convertible Preferred
                         11/21/2008    $180.6   Preferred Stock      7/26/2010         $195.0       Stock ($14,411,000 in accrued            0%            $0
      Pacific Capital                                                                               and unpaid dividends)
      Bancorpe                                  Mandatorily
                         9/27/2010     $195.0   Convertible          Closed            $306.7       Common Stock                            N/A        $126.1
                                                Preferred Stock
                                                                                                    Mandatorily Convertible Preferred
                         1/16/2009     $400.0   Preferred Stock      7/20/2010         $424.2       Stock ($24,174,000 in accrued            0%            $0
      First                                                                                         and unpaid dividends)
      BanCorpd                                  Mandatorily                             N/A for
                         7/20/2010     $424.2   Convertible          Pending           pending      Common Stock                            25%       ($106.1)
                                                Preferred Stock                    transactions
                                                                                         $46.4      Trust Preferred Securities
      First Merchants 2/20/2009        $116.0   Preferred Stock      6/30/2010                                                               0%            $0
                                                                                         $69.6      Preferred Stock
                                                                                                    Mandatorily Convertible Preferred
                         12/5/2008     $303.0   Preferred Stock      4/29/2010         $303.0                                                0%            $0
      Sterling                                                                                      Stock
      Financial                                 Mandatorily
      Corporatione       8/26/2010     $303.0   Convertible          Closed            $261.3       Common Stock                            14%        ($41.7)
                                                Preferred Stock
                                                                                                                                            Continued on next page.
120                 special inspector general I troubled asset relief program                                                                                                                                               120




       Treasury Restructurings, Recapitalizations, and Sales, As of 12/31/2010                                                                            ($ MILLIONS) (contiNued)
                                           Pre-Exchange Investment                                                                                    Exchange
                                                                                                                        Amount                                                                                (Loss)/
                                                                                                                    Received by                                                           Discount           Gain on
      Institution           Date                    Amount Security Type                        Date                   Treasury Security Type                                              Percent         Exchangea
                                                                                                                                         Mandatorily Convertible Preferred
                            12/12/2008                 $72.0      Preferred Stock               4/16/2010                   $74.4        Stock ($2,426,000 in accrued                              0%                  $0
      Independent                                                                                                                        and unpaid dividends)
      Bank
      Corporationd                                                Mandatorily                                            N/A for
                            4/16/2010                  $74.4      Convertible                   Pending                 pending          Common Stock                                            25%             ($18.7)
                                                                  Preferred Stock                                   transactions
      Superior
                            12/5/2008                  $69.0      Preferred Stock               12/11/2009                  $69.0        Trust Preferred Securities                                0%                  $0
      Bancorp, Inc.j
      Popular, Inc.i        12/5/2008                $935.0       Preferred Stock               8/24/2009                  $935.0        Trust Preferred Securities                                0%                  $0
      Cadence
      Financial             1/9/2009                   $44.0      Preferred Stock               Pendingh                    $38.0        Cash                                                    14%               ($6.0)
      Corporationg

      Notes: Numbers may not total due to rounding.
      a
        For transactions that are pending, gain or loss is calculated based on the amount the discount would be as of the date of the agreement. For closed transactions, gain or loss is calculated as of the date of
        actual conversion.
      b
        As of 12/31/2010, Treasury sold 7.7 billion shares of Citigroup common stock for cash. See “Citigroup Update” discussion in this section for more detailed information.
      c
        N/A means not applicable.
      d
        The institution is in the process of completing requirements that would allow it to convert Treasury’s preferred stock to common stock at a value less than it originally held based on the original terms of the
        exchange. However, the final loss or gain will depend on the market price of the common stock at the conversion date.
      e
        Although a discount is incurred when Treasury’s preferred stock is converted to common stock, Treasury does not realize any loss or gain until it disposes of the stock.
      f
        Treasury has sold its preferred stock for cash.
      g
        Treasury’s sale of its preferred stock for cash is pending.Treasury does not realize any loss or gain until it disposes of the stock.
      h
        Governing agreement executed 10/6/2010; required shareholder approval pending on 12/31/2010.
      i
         Popular, Inc. paid a $13 million exchange fee in connection with this transaction.
      j
         Trust Preferred Securities issued by Superior Capital Trust II, administrative trustee for Superior Bancorp, Inc.

      Sources: Treasury, Transactions Report, 12/31/2010; Treasury response to SIGTARP data call, 10/14/2010; SIGTARP, October 2010 Quarterly Report, 10/26/2010; Treasury Section 105(a) Report,
      9/30/2010; SEC, “Cadence Financial Corporation 8-K,” www.snl.com/Cache/10192484.pdf?O=3&IID=1018635&OSID=9&FID=10192484, accessed 10/22/2010; Treasury Press Release, “Taxpayers
      Receive $10.5 Billion in Proceeds Today from Final Sale of Treasury Department Citigroup Common Stock,” 12/10/2010, www.treasury.gov/press-releases/Pages/tg1000.aspx, accessed 1/17/10.
121                                                                                                                               quarterly report to congress I JANUARY 26, 2011   121




      Table 2.26

      CPP Citigroup Common Stock Disposition, AS OF 12/31/2010
                                                            Number of Shares                  Average Share Price                          Gross Proceeds
      Date                                                         (Millions)                           (Dollars)a                              ($ Billions)
      4/26/2010 to 5/26/2010                                                   1,500                                $4.12                                   $6.2
      5/26/2010 to 6/30/2010                                                   1,109                                  3.90                                    4.3
      7/23/2010 to 7/31/2010 b                                                   226                                  4.12                                      .9
      8/1/2010 to 8/31/2010             b
                                                                                 680                                  3.85                                    2.6
      9/1/2010 to 9/30/2010 b                                                    594                                  3.90                                    2.3
      10/1/2010 to 10/31/2010                                                    302                                  4.14                                    1.3
      11/1/2010 to 12/6/2010                c
                                                                                 864                                  4.40                                    3.8
      12/10/2010                                                               2,417                                  4.35                                  10.5
      Total                                                                   7,692                                 $4.14                                 $31.9
      Notes: Numbers may not total due to rounding.
      a
        Average price for all sales of Citigroup common stock made by Treasury over the course of the corresponding period.
      b
        Treasury reported monthly sales figures for July, August, and October in the Section 105(a) Report, and monthly sales figures for September in its response
      to SIGTARP’s data call on 10/21/2010.
      c
        Sales figures are calculated based on the difference between total sales figures from all sales activity and the sum of sales figures reported from
      4/26/2010 to 10/31/2010 and sales figures reported on 12/10/2010.
      Sources: Treasury, Transactions Report, 12/8/2010; Treasury, Section 105(a) Report, 8/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/
      reports/105/Documents105/August%202010%20105%28a%29%20Report_final_9%2010%2010.pdf, accessed 1/18/2011; Treasury, Section 105(a) Re-
      port, 7/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/July%202010%20105%28a%29%20Report_Final.
      pdf, accessed 1/18/2011; Treasury, Section 105(a) Report, 9/30/2010; Treasury, Section 105(a) Report, 10/2010, www.treasury.gov/initiatives/financial-
      stability/briefing-room/reports/105/Documents105/October%20105%28a%29%20Report.pdf, accessed 1/18/2011;
      Treasury, Section 105(a) Report, 11/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/October%20
      105%28a%29%20Report.pdf, accessed 1/18/2011; Treasury, Transactions Report, 12/31/2010.




      Citigroup Update
      On October 28, 2008, Treasury made a $25 billion investment in preferred shares
      of Citigroup Inc. (“Citigroup”) under CPP.329 On June 9, 2009, at the request of
      Citigroup, Treasury agreed to an exchange in which Treasury converted its pre-
      ferred shares to 7.7 billion shares of Citigroup common stock, with a market price
      of $3.25 per share.330
           On March 16, 2010, Treasury announced that it would sell the Citigroup
      common stock it held as a result of its CPP investment.331 On March 29, 2010,
      Treasury stated that, under a prearranged written trading plan, it would sell its
      Citigroup common shares in an “orderly and measured fashion” over the course
      of 2010, subject to market conditions.332 From April 26, 2010, through December
      10, 2010, Treasury sold all of its 7.7 billion shares of Citigroup common stock for
      approximately $31.85 billion, which represents a gain of $6.85 billion.333 As of
      December 31, 2010, Treasury no longer owned Citigroup common stock. Treasury
      still holds warrants for Citigroup common stock and has announced its intention
      to sell those warrants in the first quarter of 2011.334 Table 2.26 shows all sales of
      Citigroup common stock.
           Citigroup participated in two other TARP programs, AGP and TIP. For all three
      programs, Treasury realized a gain to taxpayers of approximately $12 billion.335
122   special inspector general I troubled asset relief program




                                             Recent Exchanges and Sales
                                             Bank of Currituck
                                             On February 6, 2009, Treasury invested $4 million in Bank of Currituck, Moyock,
                                             North Carolina (“Currituck”) through CPP in return for preferred stock and war-
                                             rants.336 On July 16, 2010, TowneBank of Portsmouth, Virginia (“TowneBank”)
                                             announced it had agreed to pay Currituck $10 million for banking offices in North
                                             Carolina, a large part of Currituck’s loan portfolio, and all deposit accounts. The
                                             agreement was subject to adjustments and conditions including regulatory and
                                             shareholder approval.337
                                                 On November 5, 2010, Treasury agreed to sell its preferred stock to Currituck
                                             for $1.7 million subject to the fulfillment of certain conditions, including the
                                             purchase of Currituck by TowneBank.338 On December 3, 2010, TowneBank an-
                                             nounced the acquisition of Currituck’s banking offices, loan portfolio of approxi-
                                             mately $86 million, and deposit accounts of approximately $155 million. Under the
                                             terms of the transaction, Currituck received approximately $8 million, surrendered
                                             its banking charter, and agreed to manage certain distressed loans and other assets
                                             under the name “Currituck Resolution Properties, Inc.”339
                                                 On December 3, 2010, Treasury announced that Currituck had fulfilled the
                                             conditions of the sale of preferred stock following the purchase of Currituck by
                                             TowneBank.340 This resulted in a loss to Treasury of $2.3 million.

                                             Central Pacific Financial Corp.
                                             On January 9, 2009, Treasury invested $135 million in Central Pacific Financial
                                             Corp., Honolulu, Hawaii (“Central Pacific”) through CPP in return for preferred
                                             stock and warrants.341 On November 4, 2010, Central Pacific entered into two
                                             separate investment agreements with an affiliate of the Carlyle Group and an af-
                                             filiate of Anchorage Capital Group, L.L.C. pursuant to which each investor would
                                             invest approximately $98 million in common stock. Both investment commitments
                                             are subject to certain conditions, including the exchange of Treasury’s preferred
                                             stock for common stock at a discount, plus 100% of the amount of unpaid divi-
                                             dends. The investment agreements are part of an overall plan to raise at least $325
                                             million of new capital.342
                                                  According to Central Pacific, Treasury issued a letter on December 16, 2010,
                                             and “agreed to consent to an exchange” of its preferred stock into common stock
                                             for approximately 37.5% of the original amount of stock, plus unpaid dividends.
                                             According to Central Pacific, the price at which Treasury’s preferred stock would
                                             exchange into common stock is the lesser of $0.50 per share or the lowest price
                                             at which capital is raised as part of Central Pacific’s recapitalization plan. The
                                                                             quarterly report to congress I JANUARY 26, 2011          123




exchange is subject to certain conditions including execution of a definitive ex-
change agreement.343 However, as of the drafting of this report, Treasury has made
no public disclosure of the arrangement.
    If Central Pacific and Treasury execute definitive documentation and Central
Pacific satisfies the conditions described in such documentation, Treasury’s pre-
ferred stock may be converted to common stock at a 37.5% discount.

Update on Previously Announced Exchanges
First BanCorp
On January 16, 2009, Treasury invested $400 million in First BanCorp, San Juan,
Puerto Rico (“First BanCorp”) through CPP in return for preferred stock and war-
rants.344 On July 20, 2010, Treasury exchanged its entire CPP investment for an
equal amount of newly issued mandatorily convertible preferred shares (“MCP”)                Mandatorily Convertible Preferred
plus additional MCP in an amount equal to accrued and unpaid dividends, which                Shares (“MCP”): Preferred shares that
was approximately $24.2 million.345 The MCP has a 5% annual dividend rate until              can be converted to common stock
January 16, 2014, after which the rate becomes 9%.346                                        at the issuer’s discretion if specific
                                                                                             criteria are met by a certain date.
    Pursuant to the initial terms of the exchange, the MCP carried a discount
equal to 35% of the liquidation preference of Treasury’s initial CPP investment.
The MCP may convert into First BanCorp common stock contingent upon First
BanCorp fulfilling several requirements, including an exchange of all of the com-
pany’s non-Treasury-owned preferred stock for common stock and the company
raising $500 million through the sale of common shares.347 On August 26, 2010,
First BanCorp announced that one exchange requirement had been fulfilled when
it completed a tender offer with holders of its preferred stock for common shares.348
On September 16, 2010, First BanCorp filed a registration statement with the
Securities and Exchange Commission (“SEC”) to sell at least $500 million of its
common stock to investors.349
    On December 1, 2010, First BanCorp announced that Treasury had agreed to
lower the required common equity that First BanCorp needed to raise to convert
Treasury’s MCP to common stock from $500 million to $350 million. In addition,
as part of the amended agreement, the discount applicable to the MCP was low-
ered from 35% to 25%. Based on the conversion price on the agreement date, the
discount change would raise the number of common shares received by Treasury
from approximately 380.2 million shares to approximately 438.7 million shares;
however, the final number of shares is subject to adjustment.350 The exchange re-
mains subject to First BanCorp fulfilling the remaining requirements, and the final
loss or gain from this exchange depends on the market price of the common stock
at the time Treasury disposes of its interests.
124   special inspector general I troubled asset relief program                                                                    124




                                             CPP Recipients: Bankrupt or With Failed Subsidiary Banks
                                             Despite Treasury’s stated goal of limiting CPP investments to “healthy and viable
                                             institutions,” a number of CPP participants went bankrupt or had a subsidiary bank
                                             fail, as indicated in Table 2.27.351

                                             Closure of Pierce County Bancorp
                                             On January 23, 2009, Treasury invested $6.8 million in Pierce County Bancorp,
                                             Tacoma, Washington (“Pierce County”) under CPP in exchange for preferred
                                             stock and warrants.352 On December 4, 2009, the Federal Reserve issued a
                                             cease-and-desist order against Pierce County and its subsidiary bank.353 On June
                                             10, 2010, the Federal Reserve issued a “prompt and corrective action directive”
                                             to Pierce County’s subsidiary bank on the basis that the bank was significantly
                                             undercapitalized.354
                                                 On November 5, 2010, the Washington Department of Financial Institutions
                                             closed Pierce County’s subsidiary bank, and the FDIC was named receiver. The
                                             FDIC entered into a purchase and assumption agreement with the Heritage Bank,
                                             Olympia, Washington, to assume all the deposits of Pierce County’s subsidiary
                                             bank.355 The FDIC estimates that the cost to the Deposit Insurance Fund will be
                                             $21.3 million.356 All of Treasury’s TARP investment in Pierce County is expected to
                                             be lost.357

                                             Closure of Tifton Banking Company
                                             On April 17, 2009, Treasury invested $3.8 million in Tifton Banking Company,
                                             Tifton, Georgia (“Tifton”) under CPP in exchange for preferred stock and
                                             warrants.358
                                                 On November 12, 2010, the Georgia Department of Banking & Finance closed
                                             Tifton, and the FDIC was named receiver. The FDIC entered into a purchase and
                                             assumption agreement with Ameris Bank, Moultrie, Georgia, to assume all the
                                             deposits of Tifton.359 The FDIC estimates that the cost to the Deposit Insurance
                                             Fund will be $24.6 million.360 All of Treasury’s TARP investment in Tifton is ex-
                                             pected to be lost.361
                                                                                                                         quarterly report to congress I JANUARY 26, 2011   125




Table 2.27

 CPP recipients: Bankrupt oR with failed subsidiary banks                                                       ($ Millions)
                                   Initial
                                Invested          Investment                                             Bankruptcy/                            Subsidiary
Institution Name                 Amount                 Date                                Status       Failure Dateb                               Bank
UCBH Holdings Inc.,                                                             In bankruptcy;                                United Commercial Bank,
                                  $298.7         11/14/2008                                                 11/6/2009
San Francisco, CA                                                        subsidiary bank failed                                      San Francisco, CA
Midwest Banc                                                                                                                    Midwest Bank and Trust
                                                                                In bankruptcy;              5/14/2010
Holdings, Inc.,                      89.4 a       12/5/2008                                                                        Company, Elmwood
                                                                         subsidiary bank failed
Melrose Park, IL                                                                                                                              Park, IL
                                                             Bankruptcy proceedings
                                                            completed with no recov-
CIT Group Inc., New
                                  2,330.0        12/31/2008  ery to Treasury’s invest-                      11/1/2009
York, NY
                                                               ment; subsidiary bank                                                         CIT Bank, Salt
                                                                       remains active                                                         Lake City, UT
                                                                          Bankruptcy proceed-
Pacific Coast Na-                                                      ings completed with no
tional Bancorp, San                     4.1       1/16/2009             recovery to Treasury’s            11/13/2009
                                                                                                                                 Pacific Coast National
Clemente, CA                                                            investment; subsidiary
                                                                                                                               Bank, San Clemente, CA
                                                                                   bank failed
Sonoma Valley                                                                    Winding down
Bancorp, Sonoma,                        8.7       2/20/2009              operations; subsidiary             8/20/2010                    Sonoma Valley
CA                                                                                  bank failed                                       Bank, Sonoma, CA
Pierce County
                                                                                                                              Pierce Commercial Bank,
Bancorp,                                6.8       1/23/2009              Subsidiary bank failed             11/5/2010
                                                                                                                                         Tacoma, WA
Tacoma, WA
Tifton Banking
Company,                                3.8       4/17/2009                                   Failed      11/12/2010                                      N/A
Tifton, GA
TOTAL                          $2,741.5

Notes: Numbers may not total due to rounding.
a
  $89,874,000 was the amount of Treasury’s investment prior to bankruptcy. On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest
Banc Holdings, Inc. (MBHI) for $89,388,000 of MCP, which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previ-
ously accrued and unpaid dividends.
b
  Date is earlier of bankruptcy filing by holding company or failure of subsidiary bank.

Sources: Treasury, Transactions Report, 12/31/2010; FDIC, “Failed Bank List,” no date, www.fdic.gov/bank/individual/failed/banklist.html, accessed 9/15/2010;
FDIC, “Institution Directory,” no date, www2.fdic.gov/idasp/main.asp, accessed 9/15/2010;CIT, “CIT Board of Directors Approves Proceeding with Prepackaged
Plan of Reorganization with Overwhelming Support of Debtholders,” 11/1/2009, www.cit.com/media-room/press-releases/index.htm, accessed 12/10/2009;
Pacific Coast National Bancorp, 8K, 12/17/2009, www.sec.gov/Archives/edgar/data/1302502/000092708909000240/pcnb-8k122209.htm, accessed
9/15/2010; Sonoma Valley Bancorp, 8K, 8/20/2010, www.sec.gov/Archives/edgar/data/1120427/000112042710000040/form8k_receivership.htm,
accessed 9/15/2010; Midwest Banc Holdings, Inc., 8K, 8/20/2010, www.sec.gov/Archives/edgar/data/1051379/000095012310081020/c60029e8vk.
htm, accessed 9/22/2010; UCBH Holdings, Inc., 8K, 11/6/2009, www.sec.gov/Archives/edgar/data/1061580/000095012309062531/f54084e8vk.htm,
accessed 9/15/2010; FDIC Press Release, “Heritage Bank, Olympia, Washington, Assumes All of the Deposits of Pierce Commercial Bank, Tacoma, Washington,”
11/5/2010, www.fdic.gov/news/news/press/2010/pr10244.html, accessed 11/20/2010; FDIC Press Release, “Ameris Bank, Moultrie, Georgia, Acquires All of
the Deposits of Two Georgia Institutions,” 11/12/2010, www.fdic.gov/news/news/press/2010/pr10249.html, accessed 11/21/2010.
126             special inspector general I troubled asset relief program




                                                       Small-Business Lending Initiatives
                                                       Treasury has taken steps to launch two programs that it describes as small-business
      Qualifying Financial Institutions (“QFIs”):
                                                       lending initiatives. Both are similar to TARP’s CPP in that they involve Treasury
      Private and public U.S.-controlled
      banks, savings associations, bank                purchases of preferred shares or subordinated debt in certain qualifying financial
      holding companies, certain savings               institutions (“QFIs”). The first, CDCI, uses TARP money. The second, a Small
      and loan companies, and mutual                   Business Lending Fund (“SBLF”), authorized by statute on September 27, 2010,
      organizations.                                   operates outside of TARP but will likely involve many current TARP recipients.362
                                                       On December 20, 2010, Treasury released SBLF guidelines for insured depository
      Community Development Financial Insti-           institutions, bank holding companies, and credit unions. The materials include
      tutions (“CDFIs”): Financial institutions        requirements for those institutions seeking to refinance existing TARP investments
      eligible for Treasury funding to serve           into SBLF.
      urban and rural low-income communi-
      ties through the CDFI Fund. CDFIs were
                                                       CDCI
      created in 1994 by the Riegle Com-
                                                       The Administration announced CDCI on October 21, 2009. According to Treasury,
      munity Development and Regulatory
                                                       it was intended to help small businesses obtain credit.363 Under CDCI, TARP
      Improvement Act. These entities must
                                                       made capital investments in the preferred stock or subordinated debt of eligible
      be certified by Treasury; certification
      confirms they target at least 60% of             banks, bank holding companies, thrifts, and credit unions certified as Community
      their lending and other economic devel-          Development Financial Institutions (“CDFIs”) by Treasury. According to Treasury,
      opment activities to areas underserved           these lower-cost capital investments were intended to strengthen the capital base
      by traditional financial institutions.           of CDFIs and enable them to make more loans in low- and moderate-income
                                                       communities.364
      Risk-weighted Assets: Risk-based mea-                CDCI was open to certified, qualifying CDFIs or financial institutions that
      sure of total assets held by a financial         applied for CDFI status by April 30, 2010.365 According to Treasury, CPP-
      institution. Assets are assigned broad           participating CDFIs that were in good standing could exchange their CPP invest-
      risk categories. The amount in each              ments for CDCI investments.366 Each application for new or incremental funds had
      risk category is then multiplied by a
                                                       to be reviewed by the institution’s Federal regulator and approved by Treasury.367
      risk factor associated with that catego-
                                                       CDCI closed to new investments on September 30, 2010.368
      ry. The sum of the resulting weighted
      values from each of the risk categories
                                                       Terms for Senior Securities and Dividends
      is the bank’s total risk-weighted assets.
                                                       An eligible bank, bank holding company, or thrift could apply to receive capital in
      Subchapter S-corporation (“S-corpo-              an amount up to 5% of its risk-weighted assets. A credit union (which is a member-
      ration”): Corporate form that passes             owned, nonprofit financial institution with a capital and governance structure
      corporate income, losses, deductions,            different from that of for-profit banks) could apply for Government funding of up
      and credit through to shareholders for           to 3.5% of its total assets — roughly equivalent to the 5% of risk-weighted assets
      Federal tax purposes. Shareholders of            applicable to banks.369 Participating credit unions and subchapter S-corporations
      S-corporations report the flow-through           (“S-corporations”) issued subordinated debt to Treasury in lieu of the preferred
      of income and losses on their personal           stock issued by other CDFI participants.370 Many CDFI investments have an
      tax returns and are taxed at their indi-         initial dividend rate of 2%, which increases to 9% after eight years. Participating
      vidual income tax rates.
                                                       S-corporations pay an initial rate of 3.1% for eight years, which then increases to
                                                       13.8%.371
                                                                                                   quarterly report to congress I JANUARY 26, 2011   127




    A CDFI participating in CPP had the opportunity to request to convert those
shares into CDCI shares, thereby reducing the annual dividend rate it pays the
Government from 5% to as low as 2%.372
    According to Treasury, CDFIs were not required to issue warrants because of
the de minimis exception in EESA granting Treasury the authority to waive the war-
rant requirement for qualifying institutions in which Treasury invested
$100 million or less.373
    If during the application process a CDFI’s primary regulator deemed it to be un-
dercapitalized or to have “quality of capital issues,” the CDFI had the opportunity
to raise private capital to achieve adequate capital levels. Treasury would match the
private capital raised on a dollar-for-dollar basis, up to a total of 5% of the financial
institution’s risk-weighted assets. In such cases, private investors had to agree to
assume any losses before Treasury.374

CDCI Investment Update
Treasury invested $570.1 million of the $780.2 million it originally allocated for
CDCI.374a Treasury made investments in 84 institutions under the program — 36
banks or bank holding companies and 48 credit unions.374b Of these 84 invest-
ments, 28 were conversions from CPP while the remaining 56 were not CPP
participants. As of December 31, 2010, Treasury had received $1.4 million in
dividends and $0.7 million in interest from CDCI recipients. One institution,
Premier Bancorp, Inc., Wilmette, Illinois (which converted its $6.8 million
investment from CPP), has already missed a payment of $53,744.36 which was
due on November 15, 2010.375
    A summary of CDCI investments is included in Table 2.28. A list of all CDCI
investments is included in Appendix D: “Transaction Detail.”

Table 2.28

CDCI Investment summary as of 12/31/2010 ($ millions)

                                                                      Additional          CDCI
                                             Number                    Amounts      Investment
                      Number of           Converted   Amount         Provided to   in Non-CPP    Investment
Institution           Institutions         from CPP from CPP        CPP Banks a        Banks b      Amount
Banks                              36                 28   $363.3        $100.7         $36.1       $500.1
Credit Unions                      48                 —        —             —           69.9          69.9
Total                             84                  28   $363.3       $100.7        $106.0        $570.1

Notes: Numbers may not total due to rounding.
a
  CDCI institutions that previously borrowed from CPP.
b
  CDCI institutions with no previous borrowing from CPP.

Source: Treasury, Transactions Report, 12/31/2010.
128            special inspector general I troubled asset relief program




                                                      Small Business Lending Fund (“SBLF”)
                                                      SBLF is intended to allow Treasury “to make capital investments in eligible institu-
                                                      tions in order to increase the availability of credit for small businesses.”376 President
                                                      Obama signed the Small Business Jobs Act of 2010 (“Small Business Jobs Act”),
                                                      which provided for the establishment of SBLF, on September 27, 2010.377
                                                          Under SBLF, an eligible financial institution can receive a capital investment
                                                      totaling up to 3% or 5% of its risk-weighted assets, depending on its size. To be
      Bank Holding Company (“BHC”):                   eligible, the institution must have less than $10 billion in total assets.378 Bank
      Company that owns and/or controls               holding companies (“BHCs”) must contribute at least 90% of any SBLF funding
      one or more U.S. banks.                         they receive to their insured depository institution subsidiaries that originate small
                                                      business loans.379
                                                          The initial 5% annual dividend or interest rate would drop 1% for every 2.5%
                                                      increase in the institution’s Qualified Small Business Lending as defined by SBLF
                                                      over two years, subject to a minimum rate of 1%.380 If an institution achieves
                                                      this lending increase during an initial two-year adjustment period, the decreased
                                                      dividend holds for four and a half years from Treasury’s investment date.381 If the
                                                      institution does not increase its small-business lending in the first two years, the
                                                      rate rises to 7%.382 In addition, CPP banks that refinance into SBLF, and fail to
                                                      increase small business lending after two years following their entry into SBLF, will
                                                      be subject to an additional 2% annual fee that will last from the fifth anniversary
                                                      of their CPP investment date until 4.5 years after Treasury’s SBLF investment, at
      Call Reports: Reports of condition              which time the dividend rate for all SBLF participants becomes 9%.383
      and income that are required to be                  SBLF participants will be required to supplement their quarterly Call Reports
      filed quarterly with financial regula-          with additional reporting on their Qualified Small Business Lending.384 In addi-
      tory authorities by insured depository          tion, SBLF participants must certify their adherence to anti-money-laundering
      institutions operating in the U.S. These        requirements before receiving their investment, and must submit annual certifica-
      reports, which generally contain a bal-         tions from their auditors regarding their supplemental reports on Qualified Small
      ance sheet, an income statement, and            Business Lending and their adherence to requisite borrower standards.385
      supporting schedules, are commonly
                                                          Qualified Small Business Lending under SBLF’s terms includes:386
      referred to as Call Reports.

                                                      •	   commercial and industrial loans to small businesses
                                                      •	   loans secured by owner-occupied nonfarm, nonresidential real estate
                                                      •	   loans to finance agricultural production and other loans to farmers
                                                      •	   loans secured by farmland

                                                           So long as:

                                                      •	 the original loan amount is $10 million or less
                                                      •	 the business receiving the loan does not exceed $50 million in annual
                                                         revenues387
                                                                                                                     quarterly report to congress I JANUARY 26, 2011   129




    These criteria differ from the Call Report categories of “loans to small busi-
nesses” and “loans to small farms.” According to Treasury, the SBLF definition will
include many of the business loans made by many community banks.388 In addi-
tion, no portion of lending guaranteed or assumed by the Federal Government or
third party will be deemed Qualified Small Business Lending, including the insured
portions of SBA loans.389
    According to the governing provisions of the Small Business Jobs Act, increases
in Qualified Small Business Lending will be compared to a “baseline” equal to the
average amount of such lending an SBLF participant had outstanding for the four
calendar quarters ending June 30, 2010 (adjustments will be made to exclude loans
obtained through mergers or loan purchases).390 Participating banks will qualify
for reduced dividend rates to the extent their Qualified Small Business Lending
outstanding exceeds baseline levels. The dividend rate for any quarter is determined
according to lending levels measured two calendar quarters previously. As a result,
a bank may receive a reduced dividend rate based on increases in lending that oc-
curred before receiving any SBLF funding.391 Treasury, for example, provided the
scenario in Table 2.29 under which a bank could set its initial dividend at 3%.
    SBLF capital investments are in the form of senior perpetual non-cumulative
preferred stock, meaning that participants will have no obligation to make quarterly
payments as scheduled or pay off previously missed payments.392 SBLF does, how-
ever, specify some requirements for participants that miss dividend payments:393

•	 The SBLF participant’s CEO and CFO must provide Treasury written notice,
   including the rationale of the board of directors for not declaring a dividend.
•	 After a missed payment, no share repurchases or dividends on securities equal
   to or lower than the SBLF preferred stock in seniority are permitted during the
   quarter of the missed payment or for three quarters thereafter (SBLF partici-
   pating banks may otherwise repurchase shares or increase dividends subject to
   certain capital adequacy restrictions).




 Table 2.29

sample Calculation of initial SBLF dividend rate
Baseline Qualified Small Business Lending (average quarterly amount
                                                                                                  $100 million
outstanding for the period 7/1/2009 to 6/30/2010)
Qualified Small Business Lending (amount outstanding as of 12/31/2010)                            $105 million
Percentage Increase in Qualified Small Business Lending                                           5%
Initial Dividend Rate                                                                             3%

Source: Treasury, “SBLF – Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/
Documents/SBLF_Getting_Started_Guide_Final.pdf, accessed 12/21/2010.
130            special inspector general I troubled asset relief program




                                                      •	 After the SBLF participant has missed four dividend payments (whether or not
                                                         consecutive), unless it was prohibited by its regulator from paying dividends, the
                                                         bank’s board of directors must certify in writing that the bank used best efforts
                                                         to declare and pay its quarterly dividends in a manner consistent with safe and
                                                         sound banking practices and the directors’ fiduciary obligation.
                                                      •	 After the SBLF participant has missed five dividend payments (whether or not
                                                         consecutive), Treasury will have the right to appoint a representative to serve as
                                                         an observer on the participant’s board of directors.
                                                      •	 After the SBLF participant has missed six dividend payments (whether or not
                                                         consecutive), if the SBLF investment is $25 million or more, Treasury will
                                                         have the right to elect two directors to the bank’s board of directors. This right
                                                         will expire when full dividends have been paid for four consecutive subsequent
                                                         dividend periods.

                                                          Although this program operates outside of TARP, many TARP recipients under
                                                      the CPP program will likely seek to refinance their investments and thus benefit
                                                      from lower dividend rates, non-cumulative dividends, and fewer governance provi-
                                                      sions and restrictions.394 On December 20, 2010, Treasury issued guidance, dis-
                                                      cussed below, under which CPP and CDCI recipients can refinance into SBLF.395
                                                      See Section 4: “SIGTARP Recommendations” of this report for SIGTARP’s recom-
                                                      mendations to Treasury concerning how SBLF is applied to current TARP recipi-
                                                      ents and, in particular, Treasury’s rejection of two important taxpayer-protecting
                                                      recommendations advanced by SIGTARP.

                                                      SBLF Program Implementation for Banks
                                                      On December 20, 2010, Treasury announced terms under which insured deposi-
                                                      tory institutions, bank holding companies, and savings and loan holding companies
                                                      (hereinafter “banks”) may request funds under SBLF.396 As of December 31, 2010,
      Mutual Depository Institution: Any U.S.         terms for mutual depository institutions, S-corporations, and community develop-
      bank, U.S. savings association, bank            ment loan funds had not been released.397 Banks are eligible to apply to receive
      holding company, or savings and loan            funds under SBLF if they met the size criteria outlined above as of December 31,
      holding company organized in a mutual           2009. A bank is not eligible, however, if it is on the FDIC’s problem bank list or if it
      form. Savings associations organized            has been removed from that list in the 90 days preceding its application to SBLF.398
      as mutual institutions issue no capital         Treasury will also consult with Federal and, where applicable, state regulators con-
      stock and therefore have no stockhold-
                                                      cerning the bank’s financial condition and whether it is eligible to receive funding
      ers. Mutual savings associations build
                                                      under SBLF.399 Additional eligibility restrictions pertaining to institutions refinanc-
      capital almost exclusively through
                                                      ing from CPP or CDCI are discussed below.
      retained earnings.
                                                          Banks may apply to participate until March 31, 2011.400 Prospective partici-
                                                      pants in SBLF must submit an application form, available at www.treasury.gov/
                                                      SBLF. As a part of the application, each applicant must submit a “small business
                                                                               quarterly report to congress I JANUARY 26, 2011            131




lending plan” of approximately two pages to its primary Federal regulator and to its
state regulator, if applicable.401 The plan must address the following points:402

•	 how the bank will use the funds to increase small business lending in the com-             For more information on how financial
                                                                                              institutions are divided between various
   munity in which it does business
                                                                                              primary Federal regulators, see SIGTARP’s
•	 the anticipated increase in small business lending as a result of the receipt of
                                                                                              January 2010 Quarterly Report, pages
   funds, and                                                                                 62–63.
•	 proposed outreach and advertising efforts to inform members of the community
   about how to apply for small business loans

    As was the case with CPP applicants, Treasury will coordinate with the bank’s
primary Federal regulator, as well as the state banking regulator in the case of state-
chartered banks, in evaluating the SBLF application. In particular, according to
Treasury, the views of these regulators will be taken into account when determining
whether the bank is eligible to participate in SBLF.403
    If Treasury determines that a bank is eligible and qualified to receive funds
under SBLF, it will give preliminary approval to the application. In some cases,
where a bank would not otherwise receive approval for participation, that prelimi-
nary approval may be contingent on the bank raising matching funds from a private
source. After preliminary approval, the bank maintains the option to decline par-
ticipation in SBLF until it signs a definitive agreement with Treasury.404 If Treasury
determines that a bank is not eligible to receive funds under SBLF, Treasury will
consider that application to be withdrawn.405
    According to Treasury, the applications of current CPP or CDCI participants
will be evaluated under the same processes used for other applicants.406 However,
Treasury has outlined additional terms for banks that previously received invest-
ments under CPP or CDCI and are seeking to refinance into SBLF:407

•	 Banks that participate in SBLF cannot continue to participate in CPP or CDCI.
•	 Banks that use SBLF to refinance their CPP or CDCI investments must redeem
   all outstanding preferred stock issued under those programs on or before the
   date of Treasury’s SBLF investment. Banks may use the SBLF funding to meet
   this requirement.
•	 Banks must be in material compliance with all the terms, conditions, and cov-
   enants of CPP or CDCI in order to refinance through SBLF.
•	 Banks must be current in their dividend payments and must pay any accrued
   and unpaid dividends due to Treasury under CPP or CDCI. In addition, banks
   cannot have missed more than one previous dividend payment under CPP or
   CDCI (defined as a payment submitted more than 60 days late).
•	 Preliminary approval will not consider any matching funds the applicant raises
   from a private source.
132   special inspector general I troubled asset relief program




                                                Additional specific terms apply to banks that previously received investments
                                             under CPP:

                                             •	 Two years after refinancing to SBLF funding, a CPP recipient bank must have
                                                increased its small business lending relative to the baseline level of small busi-
                                                ness lending as defined in the Small Business Loans Act. If it has not, then in
                                                addition to its SBLF dividends (which would reset to 7%) the bank must pay
                                                Treasury an additional “lending incentive fee” equal to 2% per annum of its then
                                                outstanding SBLF investment, starting on the fifth anniversary of Treasury’s
                                                CPP investment. The lending incentive fee will be in effect until four and a half
                                                years after the SBLF investment (i.e., the time at which the SBLF dividend rate
                                                for all participants rises to 9%). This fee does not apply to a bank that redeemed,
                                                or applied to redeem, its CPP investment as of December 16, 2010.
                                             •	 Banks are not required to repurchase warrants from Treasury that were provided
                                                as a condition of receiving funds under CPP. Treasury does not require banks to
                                                issue warrants for participation in SBLF.
                                                                               quarterly report to congress I JANUARY 26, 2011              133




Systemically Significant Failing Institutions Program
According to Treasury, the Systemically Significant Failing Institutions (“SSFI”)
program was established to “provide stability and prevent disruptions to financial
markets from the failure of institutions that are critical to the functioning of the
nation’s financial system.”408 Through SSFI, Treasury obligated $69.8 billion to
American International Group, Inc. (“AIG”), the program’s sole participant.409

Status of SSFI Funds
On November 25, 2008, Treasury made an initial $40 billion investment in AIG.
In return, Treasury received AIG Series D cumulative preferred stock and warrants
to purchase AIG common stock.410 On April 17, 2009, AIG and Treasury signed a
securities exchange agreement under which Treasury exchanged the Series D
cumulative preferred stock, which required AIG to make quarterly dividend pay-                 Cumulative Preferred Stock: Stock
ments, for less valuable and less liquid Series E non-cumulative preferred stock,              requiring a defined dividend payment. If
which did not require AIG to make quarterly dividend payments. Additionally, on                the company does not pay the dividend
April 17, 2009, Treasury committed to fund an equity capital facility under which              on schedule, it still owes the missed
AIG could draw down up to $29.8 billion in exchange for Series F non-cumulative                dividend to the stock’s owner.
preferred stock and additional warrants.411 According to Treasury, through January
                                                                                               Non-Cumulative Preferred Stock: Pre-
14, 2011, AIG had drawn down all but $2 billion of the Series F equity capi-
                                                                                               ferred stock with a defined dividend,
tal facility, which it then converted to a new $2 billion Series G stand-by equity
                                                                                               without the obligation to pay missed
commitment.412
                                                                                               dividends.

Dividend Payments                                                                              Equity Capital Facility: Commitment to
As of December 31, 2010, AIG had not paid or had failed to declare dividends                   invest equity capital in a firm under cer-
for eight consecutive quarters, for a total of $7.9 billion in missed or undeclared            tain future conditions. An equity facility
dividend payments.413 Under the documents governing Treasury’s preferred shares                when drawn down is an investment
in AIG, AIG did not have to pay Treasury the dividend payments it skipped. Instead,            that increases the provider’s ownership
failure to pay dividends for four consecutive quarters on the Series E preferred               stake in the company. The investor
stock gave Treasury the right to appoint to AIG’s board either two directors or a              may be able to recover the amount in-
number (rounded upward) of directors equal to 20% of all AIG directors, whichever              vested by selling their ownership stake
                                                                                               to other investors at a later date.
is greater.414 On April 1, 2010, Treasury appointed Donald H. Layton and Ronald A.
Rittenmeyer as directors of AIG.415
                                                                                               Revolving Credit Facility: Line of credit
                                                                                               for which borrowers pay a commit-
Federal Reserve Credit Facility Reduction                                                      ment fee, allowing them to repeatedly
In September 2008, FRBNY extended an $85 billion revolving credit facility to AIG              draw down funds up to a guaranteed
in an effort to stabilize the company. In return, AIG committed 79.8% of its voting            maximum amount. The amount of avail-
equity to a trust for the sole benefit of the U.S. Treasury.416 The terms of the credit        able credit decreases and increases as
facility included a high interest rate and increased AIG’s debt ratios significantly.          funds are borrowed and then repaid.
Servicing this debt contributed to AIG’s financial troubles and put downward
pressure on its credit rating.417 Federal officials feared that future downgrades in
AIG’s credit rating could have “catastrophic” effects on the company, forcing it into
bankruptcy.418
134             special inspector general I troubled asset relief program




                                                          FRBNY and Treasury determined that this possibility posed a threat to the
                                                       nation’s financial system and decided that additional transactions were necessary
                                                       to modify the revolving credit facility.419 In November 2008, FRBNY and Treasury
                                                       took the following actions to stabilize AIG’s operations:420

                                                       •	 Treasury purchased $40 billion in AIG preferred shares under TARP, the pro-
                                                          ceeds of which went directly to FRBNY to pay down a portion of the existing
                                                          revolving credit facility. After that payment, the total amount available to AIG
      Special Purpose Vehicle (“SPV”):                    under FRBNY’s revolving credit facility was reduced from $85 billion to $60
      Off-balance-sheet legal entity that                 billion.
      holds transferred assets presumptively
                                                       •	 FRBNY created Maiden Lane II, a special purpose vehicle (“SPV”), to which
      beyond the reach of the entities that
                                                          FRBNY lent $19.5 billion to fund the purchase of residential mortgage-backed
      provide the assets.
                                                          securities from the securities-lending portfolios of several of AIG’s U.S.-
                                                          regulated insurance subsidiaries, in order to help relieve liquidity pressures
  For more on the creation of the Maiden                  stemming from their security-lending programs.
  Lane III SPV see SIGTARP Audit Report,               •	 FRBNY created Maiden Lane III, another SPV, to which FRBNY lent $24.3
  “Factors Affecting Payments to AIG’s                    billion to buy from AIG’s counterparties collateralized debt obligations that
  Counterparties,” dated November 17, 2009.               underlie credit default swap contracts written by AIG.

                                                            On March 2, 2009, Treasury and the Federal Reserve announced a restructur-
                                                       ing of Government assistance to AIG that was designed to strengthen the com-
                                                       pany’s capital position. The measures included an authorization from the Federal
                                                       Reserve for FRBNY to acquire up to $26 billion of preferred equity interests in
                                                       two SPVs formed to hold two of AIG’s largest foreign life insurance subsidiaries
                                                       (American International Assurance Co., Ltd. [“AIA”] and American Life Insurance
                                                       Company [“ALICO”]). The SPVs’ creation also facilitated the independence of
                                                       these two subsidiaries in anticipation of a sale or initial public offering (“IPO”).421
                                                            On December 1, 2009, FRBNY received $16 billion in preferred equity inter-
                                                       ests in AIA Aurora LLC (“AIA SPV”) and $9 billion in the ALICO Holdings LLC
                                                       (“ALICO SPV”). This action decreased the outstanding principal balance of AIG’s
                                                       revolving credit facility by $25 billion and reduced its total facility borrowing capac-
                                                       ity from $60 billion to $35 billion.422 Under the transaction’s original terms, with
                                                       limited exceptions, all proceeds from the voluntary sale, public offering, or other
                                                       liquidation of the assets or businesses held by the SPVs had to be used first to fully
                                                       redeem FRBNY’s interests in the SPVs and then to reduce the outstanding revolv-
      For more on AIG’s Federal Reserve
                                                       ing credit facility.423 After a series of additional payments, from March 12, 2010, to
      credit facility reduction transaction, see       December 31, 2010, the borrowing capacity was reduced to approximately $25.1
      SIGTARP’s January 2010 Quarterly                 billion and AIG’s total outstanding principal and interest balance under the revolv-
      Report, page 73.                                 ing credit facility was $20.3 billion.424
                                                                              quarterly report to congress I JANUARY 26, 2011            135




Sale of Business Assets
On September 30, 2010, AIG announced that it had entered into a definitive sale
agreement with Prudential Financial Inc. for the sale of its two Japanese-based life
insurance subsidiaries, AIG Star Life Insurance Co., Ltd. (“Star”), and AIG Edison
Life Insurance Company (“Edison”), for a total of $4.8 billion.425 The sale is subject
to regulatory approval and is expected to close in the first quarter of 2011.
     On October 29, 2010, AIG completed an IPO of 8.1 billion shares of AIA
Group Ltd (“AIA”) including the exercise of an over-allotment option for approxi-             Over-Allotment: A provision in some
mately 1.1 billion shares.426 AIG stated that the gross proceeds from the IPO were            underwriting contracts allowing the
$20.5 billion. Upon completion of the IPO, AIG still owned approximately 33% of               underwriter to sell more shares to
AIA’s outstanding shares, which will continue to be held in the AIA SPV. AIG is               investors than were originally agreed
precluded from selling or hedging any of its remaining shares in AIA until October            upon. In an underwriting agreement,
                                                                                              the underwriter agrees with the is-
18, 2011, and from selling or hedging more than half of its remaining shares of AIA
                                                                                              suer of a security to place a certain
until April 18, 2012.427
                                                                                              amount with investors. If demand for
     On November 1, 2010, AIG finalized the sale of ALICO to MetLife Inc. AIG
                                                                                              the security exceeds the underwriter’s
received $16.2 billion through the sale of ALICO, $7.2 billion of which was paid
                                                                                              supply, the over-allotment option allows
in cash and $9 billion in equity interests in MetLife. These equity interests will be         the underwriter to sell more shares and
held in the ALICO SPV and will be sold over time, subject to market conditions,               increase the amount of proceeds the
following the expiration of a series of agreed-upon minimum holding periods.428 On            issuer receives from the IPO.
January 12, 2011, AIG accepted a $2.2 billion cash offer for 97.6% of its Taiwan
life insurance unit, Nan Shan Life Insurance Co., from Ruen Chen Investment
Holding Co., Ltd., subject to regulatory approval.429
     Effective January 14, 2011, the cash proceeds from the AIA and ALICO asset
sales were disbursed to FRBNY as part of the Recapitalization Plan, discussed be-
low. For a summary of AIG asset sales in excess of $1 billion, see Table 2.30.

AIG Recapitalization Plan
On January 14, 2011, AIG completed a series of several integrated transactions,
the Recapitalization Plan, which was definitively outlined in a Master Transaction
Agreement dated December 8, 2010. The Recapitalization Plan was based
on a plan originally announced on September 30, 2010.430 AIG executed the
Recapitalization Plan with Treasury, FRBNY, the AIG Credit Facility Trust (“AIG
Trust”) (the entity in which FRBNY placed the management of the 79.8% equity
interest in AIG issued as a condition of the FRBNY credit facility), ALICO SPV,
and AIA SPV to recapitalize itself with the intent to repay the Federal Government’s
loans and investments in AIG.431
    Execution of the Recapitalization Plan included three main steps: the repay-
ment and termination of the FRBNY revolving credit facility, the repurchase and
exchange of Government interests in the AIA and ALICO SPVs, and the conversion
of Treasury’s and the AIG Trust’s preferred shares to common stock.
136   special inspector general I troubled asset relief program




                                             Table 2.30

                                             AIG ASSET SALES IN EXCESS of $1 Billion
                                             AIG Asset                                          Gross Proceeds                  Date             Buyer or Public
                                                                                                                                                 Public: Initial Public
                                             AIA (sold 67%)*                                    $20.5 billion                   10/29/10
                                                                                                                                                 Offering
                                                                                                $7.2 billion cash
                                             ALICO                                              $9 billion MetLife              11/1/2010 Buyer: MetLife, Inc.
                                                                                                equity interests
                                             AIG Star Life Insurance and AIG Edison                                                              Buyer: Prudential
                                                                                                $4.8 billion                    TBD
                                             Life Insurance                                                                                      Financial, Inc.
                                                                                                                                                 Buyer: Ruen Chen
                                             Nan Shan Life Insurance Co. (sold
                                                                                                $2.2 billion                    TBD              Investment Holding
                                             97.6%)*
                                                                                                                                                 Co., Ltd.

                                             *approximate

                                             Source: AIG, “AIG Enters Into Agreement To Sell Star and Edison Life Companies,” 9/30/2010, www.aigcorporate.com/news-
                                             room/index.html, accessed 12/9/2010; SEC, “8-K American International Group,” 10/22/2010, www.sec.gov/Archives/edgar/
                                             data/5272/000095012310095032/y87334e8vk.htm, accessed 12/22/10; AIG, “AIG Raises Nearly $37 Billion In Two Transactions
                                             To Repay Government,” 11/1/2010, http://ir.aigcorporate.com/External.File?t=2&item=g7rqBLVLuv81UAmrh20Mp/lptmOSyzUBWuL-
                                             0HcUb4QPW7icXt6tSsNcMErV4ODIOk1KW0aD3/sacvpSe5qek1w==, accessed 12/9/2010; SEC, “10-Q American International
                                             Group,” 10/29/2010, http://www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed
                                             1/18/11; AIG, “AIG Raises Nearly $37 Billion In Two Transactions To Repay Government,” 11/1/2010, http://ir.aigcorporate.com/
                                             External.File?t=2&item=g7rqBLVLuv81UAmrh20Mp/lptmOSyzUBWuL0HcUb4QPW7icXt6tSsNcMErV4ODIOk1KW0aD3/sacvpSe-
                                             5qek1w==, accessed 1/18/2011; AIG, “AIG Enters Into Agreement To Sell Nan Shan To Taiwan-Based Consortium Led By The Ruentex
                                             Group,” 1/12/2011, http://ir.aigcorporate.com/External.File?t=2&item=g7rqBLVLuv81UAmrh20Mp2GDwAh4Ju2qNKZiaQ+LC4eLA/
                                             wD8wJ898T+OGLtuOD53u0EV2e/b6wq8HGwkVuaVQ==, accessed 1/18/2011.



                                                 With the exception of AIG’s pledge of its equity and residual interests in Maiden
                                             Lane II and Maiden Lane III to secure Treasury’s interest in the SPVs, Maiden
                                             Lane II and Maiden Lane III were excluded from AIG’s recapitalization plan and
                                             will continue to have ongoing obligations. As of December 31, 2010, those obliga-
                                             tions totaled $13.5 billion and $14.1 billion, respectively, to FRBNY.432 Additionally,
                                             the warrants received by Treasury for its investments in AIG in November 2008
                                             and April 2009 were unaffected by the terms of the Recapitalization Plan.433

                                             Repayment and Termination of FRBNY Revolving Credit Facility
                                             The initial step of the Recapitalization Plan was the repayment of $20.7 billion in
                                             secured debt outstanding as of January 14, 2011, which included interest and fees,
                                             under AIG’s revolving credit facility provided by FRBNY.434 Treasury announced
                                             that AIG fully repaid this debt using a portion of the cash proceeds from the AIA
                                             IPO and the sale of ALICO.435

                                             Repurchase and Exchange of Government Interests in AIA and ALICO
                                             SPVs
                                             In the next step of the Recapitalization Plan, AIG drew $20.3 billion of the remain-
                                             ing available funds under the TARP Series F equity capital facility (which had
                                             $22.3 billion still available as of December 31, 2010) to repurchase an equivalent
                                             amount of FRBNY’s preferred interests in the AIA and ALICO SPVs, which were
                                             immediately provided to Treasury in return for cancelling the $20.3 billion of newly
                                             drawn Series F preferred shares. In other words, Treasury effectively purchased,
                                                                             quarterly report to congress I JANUARY 26, 2011   137




from FRBNY, $20.3 billion of its interest in the SPVs.436 The remaining amount of
FRBNY’s holdings in the AIA and ALICO SPVs, $6.1 billion, was redeemed by AIG
with cash proceeds from the AIA IPO and the ALICO sale.437
    The remaining available TARP funds, approximately $2 billion, were used to
create a new stand-by equity commitment through the issuance of Series G pre-
ferred stock, which will be available for future draw-down by AIG.438
    The remaining preferred SPV interests will be secured by the following:439

•	 AIG’s remaining shares in AIA post-IPO (approximately 33% of AIA’s outstand-
   ing shares)
•	 The non-cash proceeds from the sale of ALICO to MetLife, Inc.440
•	 AIG’s equity and residual interests in Maiden Lane II and III
•	 AIG’s ownership interest in Star and Edison
•	 The proceeds of the sale of Nan Shan Life Insurance Company, Ltd.
•	 AIG’s ownership interest in International Lease Finance Corporation (“ILFC”)441

    AIG expects to repay Treasury for its preferred interest in the SPVs through pro-
ceeds from the future sales of some or all of these assets. If the proceeds from the
sales of all the assets securing the SPVs are insufficient to fully redeem Treasury’s
interests in the AIA and ALICO SPVs, Treasury will recognize a loss in the amount
of the shortfall.

Conversion of Treasury’s and the AIG Trust’s Preferred Shares to
Common Stock
In connection with the transactions described above, as of January 14, 2011, AIG
extinguished all of the prior outstanding preferred shares held by the Government
and issued 1.655 billion shares of common stock, representing 92.1% of the
common stock of AIG.442 Under the exchange plan:

•	 The 79.8% ownership stake in AIG received by FRBNY that was held as Series
   C preferred shares by the AIG Trust was converted into 562.9 million shares of
   AIG common stock and the trust was terminated. This was diluted to approxi-
   mately a 31% ownership interest at the conclusion of the Recapitalization Plan.
•	 $49.1 billion of the $69.4 billion in outstanding Series E and F preferred shares
   held by Treasury in return for TARP funding was retired and converted into ap-
   proximately 1.1 billion shares of AIG common stock, representing approximately
   61% of AIG’s post-transaction common equity. This included a $1.6 billion
   obligation for unpaid dividends.
•	 AIG’s existing 143 million common shares outstanding remain, but were diluted
   from approximately a 20% ownership interest to approximately 8% after the
   Recapitalization Plan took effect.
138   special inspector general I troubled asset relief program




                                             •	 AIG issued, on January 14, 2011, existing non-Government common sharehold-
                                                ers 10-year warrants to purchase up to a cumulative total of 75 million shares of
                                                common stock at a strike price of approximately $45.00 per share.443

                                             Treasury’s Rights under the Exchange Plan
                                             As part of the exchange, AIG entered into an agreement with Treasury that grants
                                             Treasury registration rights with respect to the shares of AIG common stock. Under
                                             the rights agreement, until Treasury’s ownership of AIG’s voting securities falls be-
                                             low 33%, AIG will have to obtain Treasury’s consent over the terms, conditions, and
                                             pricing of any equity offering, including any primary offering by AIG. Additionally,
                                             AIG is required to pay Treasury’s expenses for the registration of shares and under-
                                             writing fees, up to 1% of the amount offered by Treasury.444

                                             Recapitalization Plan Closing Conditions
                                             At the closing on January 14, 2011, AIG completed all steps in the Recapitalization
                                             Plan445 Table 2.31 describes the closing conditions defined in the Recapitalization
                                             Plan.

                                             Table 2.31

                                             Conditions for the Recapitalization Plan Closing
                                             1. The proceeds from the SPVs and other asset sales must be sufficient to repay the remaining
                                                principal, accrued and unpaid interest, fees, and other amounts owed to the FRBNY credit facility
                                                in full.
                                             2. FRBNY shall have received evidence reasonably satisfactory to it that after the recapitalization
                                                FRBNY would not hold AIA/ALICO preferred interests having an aggregate liquidation preference in
                                                excess of $2 billion.
                                             3. Shareholder approval for the issuance of AIG common stock and Series G preferred stock.
                                             4. The rating profile of AIG and its principal operating subsidiaries (Chartis, Inc. and SunAmerica
                                                Financial Group), taking into account the recapitalization, must be reasonably acceptable to
                                                FRBNY, Treasury, the AIG Trust, and AIG.
                                             5. AIG must have in place at the closing available cash and third-party financing commitments in
                                                amounts and on terms reasonably acceptable to FRBNY, Treasury, and AIG.
                                             6. AIG must not draw more than $2 billion of the Series F, after the date the parties announce the
                                                recapitalization and prior to the closing, unless waived by FRBNY and Treasury.
                                             7. AIG must have achieved its year-end 2010 targets for the de-risking of
                                                AIG’s Financial Products Unit.
                                             8. Absence of any law or order prohibiting the closing and receipt of all material regulatory approvals
                                                and material third-party consents required to consummate the recapitalization.
                                             9. Approval for listing of the shares of AIG common stock on the New York Stock Exchange.
                                             10. AIG, Treasury, FRBNY, and the AIG Trust must perform all covenants of the recapitalization plan
                                                 and ensure the accuracy of all representations and warranties made by each.
                                             Source: Master Transaction Agreement, 12/08/2010.
                                                                                                                             quarterly report to congress I JANUARY 26, 2011   139




     For a summary of investments in AIG as of January 14, 2011, see Table 2.32.

Table 2.32
AIG INVESTMENT SUMMARY AS OF 1/14/2011                                           ($ Billions)
                                                                       Authorized                High-Water              Outstanding
                                                                        Capacitya                     Markb                  Balance
FRBNY Revolving Credit Facility                                              $25.1                    $72.3c                       $0.0
Maiden Lane II      f
                                                                               22.5                      19.5                      13.2
Maiden Lane IIIf                                                               30.0                      24.4                      14.1
AIA SPV   d
                                                                               16.0                      16.7                      16.9
ALICO SPVd                                                                       9.0                       9.4                      3.4
Series E Preferred Stock                                                       40.0                      41.6                       0.0
Series F Equity Capital Facility                                               29.8                      29.8                       0.0
Series G Stand-by Equity Commitment                                              2.0                       2.0                      2.0
Common Stock (cost basis)e                                                                                                         47.5
Total                                                                                                                             97.1

Notes: Numbers affected by rounding.
a
  Amount does not include those investments that have already been repaid and is based on current authorized capacity.
b
  High-water mark means the highest outstanding balance (principal balance and accrued dividends/interest) during the entire history of
the investment as of the respective date.
c
  Authorized capacity was previously $85 billion.
d
  Ownership of the preferred interests transferred from FRBNY to Treasury effective 1/14/2011, after $6.1 billion of FRBNY’s interests
were redeemed by AIG for cash. For purposes of this table, at Treasury’s suggestion, all $6.1 billion of these repayments have been
credited to the ALICO SPV.
e
  $(40.0 + 7.5) billion = Series C + Series E + Series F converted to 1.655 billion shares. Excludes $1.6 billion in dividends that were
paid in the form of additional preferred shares.
f
  Outstanding balance as of 1/12/2011.

Sources: Treasury, response to SIGTARP data call, 1/11/2011; Treasury vetting response 1/19/2011; FRBNY, “Factors Affecting
Reserve Balances,” 1/11/2011 www.federalreserve.gov/releases/h41/Current/, accessed 1/12/2011.




Recent AIG Credit Developments
On November 30, 2010, AIG sold a total of $2.0 billion in corporate bonds. The
debt was divided into two maturities, $0.5 billion of 3.65% notes due in January
2014 and $1.5 billion of 6.40% notes due in December 2020.446 The issuance
received A3 and A- ratings from Moody’s Investors Service and Standard & Poor’s,
respectively. AIG will use the proceeds from the sale of the bonds for general cor-
porate purposes, in accordance with its agreement with FRBNY.447 The November
2010 sale was the first new debt issued by AIG since before it started to receive
Government assistance in September 2008.
     On December 23, 2010, AIG entered into two credit agreements totaling $3
billion. This was split equally between a three-year facility for $1.5 billion and
another $1.5 billion shorter-term credit agreement that matures in slightly less than
a year. Thirty-six banks participated in the facilities. Additionally, AIG secured a
Letter of Credit through its wholly owned subsidiary Chartis Inc., for $1.3 billion.448
140   special inspector general I troubled asset relief program




                                             Loss Estimates
                                             Before the announcement of the Recapitalization Plan, Treasury’s most recent loss
                                             estimate for AIG under TARP, dated March 31, 2010, was $45.2 billion.449 This
                                             estimate, like others before it, accounted for a broad range of factors that might af-
                                             fect the value of Treasury’s holdings, including the comparison of several different
                                             data points based on a variety of different inputs and factors.450
                                                 Following Treasury’s announcement of the Recapitalization Plan in its October
                                             5, 2010, TARP Two-Year Retrospective, it offered a loss estimate of $5.1 billion.
                                             This estimate valued shares based on a number of assumptions, including the
                                             completion of the Recapitalization Plan and AIG’s closing stock price on October
                                             1, 2010.451 While Treasury disclosed the use of its market closing price methodol-
                                             ogy, Treasury did not disclose at that time that the market closing price methodol-
                                             ogy represented a change from that used in previous estimates. Subsequently, on
                                             November 15, 2010, Treasury’s audited Agency Financial Report for fiscal year
                                             2010 reported a $36.9 billion estimated lifetime cost for TARP’s AIG investment,
                                             as of September 30, 2010, using the older methodology, reflecting a reduction
                                             in anticipated losses of $8.3 billion over the preceding six months. The audited
                                             report also included the $5.1 billion pro forma estimate from its TARP Two-Year
                                             Retrospective.452 In its November 2010 Report on the Troubled Asset Relief Program,
                                             the Congressional Budget Office estimated a lifetime cost of $14 billion for TARP’s
                                             investment in AIG.453 OMB’s most recent estimate, released in October 2010,
                                             was for a lifetime cost of TARP’s investment in AIG of $48 billion. This estimate,
                                             however, was as of May 2010 and did not take into consideration the terms of the
                                             Recapitalization Plan.454 All of these estimates are exclusive of the expected return
                                             that will be realized on the sale of the equity interests, which then totaled 79.8% of
                                             AIG’s common equity, that FRBNY received in September 2008 when it extended
                                             the revolving credit facility to AIG.

                                             Retention of Greenhill & Co. LLC as Advisor to Treasury
                                             On November 18, 2010, Treasury retained Greenhill & Co., LLC (“Greenhill”),
                                             which it described as an independent investment bank focused on providing
                                             financial advice on significant mergers, acquisitions, restructurings, financings,
                                             and capital raisings, to advise it on the management and disposition of Treasury’s
                                             investments in AIG. Among the firm’s responsibilities will be providing valuations
                                             of Treasury’s AIG investments, advising and monitoring restructuring strategies
                                             before disposition of specific investments, reporting on performance, and analyz-
                                             ing and reviewing alternatives for the best strategy, structure, and timing to dispose
                                             of Treasury’s investment. The initial term of the contract is for 18 months, but
                                             Treasury may extend Greenhill’s mandate beyond the initial expiration date for
                                                                               quarterly report to congress I JANUARY 26, 2011             141




an additional six months. For the first year of the contract, Greenhill will receive
$500,000 per month, and subsequently, $175,000 per month until May 2012 for a
total of $7.1 million.455

Targeted Investment Program and Asset Guarantee Program
Treasury invested a total of $40 billion in two financial institutions, Citigroup
Inc. (“Citigroup”) and Bank of America Corp. (“Bank of America”), through the
Targeted Investment Program (“TIP”). Treasury invested $20 billion in Citigroup
on December 31, 2008, and $20 billion in Bank of America on January 16, 2009,
in return for preferred shares paying quarterly dividends at an annual rate of 8%
and warrants from each institution.456 According to Treasury, TIP’s goal was to
“strengthen the economy and protect American jobs, savings, and retirement secu-
rity [where] the loss of confidence in a financial institution could result in signifi-
cant market disruptions that threaten the financial strength of similarly situated
financial institutions.”457 Both banks repaid TIP by December 2009.458 On March
3, 2010, Treasury auctioned the Bank of America warrants it received under TIP
for $1.25 billion.459 Although Treasury still holds warrants in Citigroup, on January
14, 2011, Treasury announced its intention to sell the Citigroup warrants in a pub-
lic auction in the first quarter of 2011. TIP is effectively closed.460
     Under the Asset Guarantee Program (“AGP”), Treasury, the Federal Deposit
Insurance Corporation (“FDIC”), the Federal Reserve, and Citigroup agreed to
provide loss protection on a pool of Citigroup assets valued at approximately $301
billion. In return, as a premium, the Government received warrants to purchase
Citigroup common stock and $7 billion in preferred stock. The preferred stock was
subsequently exchanged for trust preferred securities (“TRUPS”).                               Trust Preferred Securities (“TRUPS”):
     Treasury received $4 billion of the TRUPS and the FDIC received $3 bil-                   Securities that have both equity and
lion.461 Although Treasury’s asset guarantee was not a direct cash investment, it              debt characteristics created by estab-
exposed taxpayers to a potential TARP loss of $5 billion. On December 23, 2009,                lishing a trust and issuing debt to it.
in connection with Citigroup’s TIP repayment, Citigroup and Treasury terminated
the AGP agreement. Although at the time of termination the asset pool suffered
a $10.2 billion loss, this number was below the agreed-upon deductible and the                  For more information on the asset
                                                                                                guarantee program, see SIGTARP
Government suffered no loss.462
                                                                                                Audit Report “Extraordinary Financial
     Treasury agreed to cancel $1.8 billion of the TRUPS issued by Citigroup,                   Assistance Provided to Citigroup, Inc.,”
reducing the premium it received from $4.0 billion to $2.2 billion, in exchange for             dated January 13, 2011.
the early termination of the loss protection. The FDIC retained all of its $3 billion
in securities.463 Under the termination agreement, however, the FDIC will transfer
up to $800 million of those securities to Treasury if Citigroup’s participation in the
FDIC’s Temporary Liquidity Guarantee Program closes without a loss.464
     On September 29, 2010, Treasury entered into an agreement with Citigroup
to exchange the entire $2.2 billion in Citigroup TRUPS that it held under AGP for
142   special inspector general I troubled asset relief program




                                             new TRUPS. Because the interest rate necessary to receive par value was below
                                             the interest rate paid by Citigroup to Treasury, Citigroup increased the principal
                                             amount of the securities sold by Treasury an additional $12 million, thereby en-
                                             abling Treasury to receive an additional $12 million in proceeds from the
                                             $2.2 billion sale of the Citigroup TRUPS, which occurred on September 30, 2010.
                                             This sale did not include the $800 million in AGP TRUPS held by the FDIC for
                                             Treasury’s benefit. The sale also did not include warrants for Citigroup’s common
                                             stock that were issued as part of Citigroup’s participation in AGP. Any proceeds
                                             from the ultimate sale of those securities will represent additional gains to the
                                             taxpayer. According to Treasury, it has realized a profit of approximately $12 billion
                                             over the course of Citigroup’s participation in AGP, TIP, and CPP.465
                                                 Bank of America announced a similar asset guarantee agreement with respect
                                             to approximately $118 billion in Bank of America assets, but the final agreement
                                             was never executed. At the time Bank of America exited TARP, however, it agreed
                                             to pay $425 million to the Government as a termination fee.466 Of this $425 mil-
                                             lion, $276 million was paid to Treasury, $92 million was paid to the FDIC, and
                                             $57 million was paid to the Federal Reserve.467
                                                                              quarterly report to congress I JANUARY 26, 2011          143




ASSET SUPPORT PROGRAMS
Three TARP programs have focused on supporting markets for specific asset
classes: the Term Asset-Backed Securities Loan Facility (“TALF”), the Public-
                                                                                              Non-Recourse Loan: Secured loan in
Private Investment Program (“PPIP”), and the Unlocking Credit for Small
                                                                                              which the borrower is relieved of the
Businesses (“UCSB”) program.
                                                                                              obligation to repay the loan upon sur-
    As initially announced, TALF was designed to support asset-backed securi-                 rendering the collateral.
ties (“ABS”) transactions by providing investors up to $200 billion in
non-recourse loans through the Federal Reserve Bank of New York (“FRBNY”)
to purchase non-mortgage-backed ABS and commercial mortgage-backed
securities (“CMBS”). The program was supported by up to $20 billion in TARP
funds to be used if borrowers surrendered the ABS purchased through the pro-
gram and walked away from their loans. The TARP obligation was subsequently
reduced to $4.3 billion. TALF ultimately provided $71.1 billion in Federal
Reserve financing by the time the program closed to new loans.
    PPIP uses a combination of private equity, Government equity, and
Government debt through TARP to facilitate purchases of legacy mortgage-
backed securities (“MBS”) held by financial institutions. In July 2009, Treasury
announced the selection of nine Public-Private Investment Fund (“PPIF”) man-
agers and a total potential commitment of $30 billion in TARP funds.468 The
actual funding of that commitment depended on how much private capital the
PPIF managers raised. After the fund-raising period was completed, Treasury’s
PPIP obligation was capped at $22.4 billion. The PPIF managers are currently
purchasing investments and managing their portfolios.
    Through the UCSB loan support initiative, Treasury launched a program
to purchase SBA 7(a) securities, which are securitized small-business loans.
Treasury originally committed $15 billion to the program; the commitment was
subsequently lowered several times. By the time the program closed, it had made
a total of $368.1 million in purchases.469



TALF
TALF, which was announced in November 2008, issued loans collateralized by
eligible ABS.470 According to FRBNY, “the ABS markets historically have funded
a substantial share of credit to consumers and businesses,” and TALF was “de-
signed to increase credit availability and support economic activity by facilitating
renewed issuance of consumer and business ABS.”471 The program was extended
to eligible newly issued CMBS in June 2009 and to eligible legacy CMBS in July
2009.472 TALF closed to new lending in June 2010.
144            special inspector general I troubled asset relief program




                                                          TALF is divided into two parts:473

                                                      •	 a lending program, TALF, that originated non-recourse loans to eligible borrow-
      Collateral: Asset pledged by a                     ers using eligible ABS and CMBS as collateral
      borrower to a lender until a loan is            •	 an asset disposition facility, TALF LLC, that purchases the collateral from
      repaid. Generally, if the borrower                 FRBNY if borrowers choose to surrender it and walk away from their loans or if
      defaults on the loan, the lender gains             the collateral is seized in the event of default
      ownership of the pledged asset and
      may sell it to satisfy the debt. In TALF,            TALF, which was managed and substantially funded by FRBNY, closed its lend-
      the ABS or CMBS purchased with                  ing program with the last non-mortgage-backed ABS and legacy CMBS subscrip-
      the TALF loan is the collateral that is         tions closing on March 11, 2010, and March 29, 2010, respectively,474 and the last
      posted with FRBNY.                              subscription for newly issued CMBS closed on June 28, 2010.475
                                                           The asset disposition facility, TALF LLC, is managed by FRBNY and remains
      Synthetic ABS: Security deriving its
                                                      in operation.476 TALF LLC charges FRBNY a fee for the commitment to purchase
      value and cash flow from sources other
                                                      any collateral surrendered by the borrowers. TALF LLC’s funding comes first from
      than conventional debt, equities, or
                                                      that fee, which is derived from the principal balance of each outstanding TALF
      commodities — for example, credit
      derivatives.                                    program loan.477 In the event that such funding proves insufficient, funding would
                                                      then come from TARP, which is obligated to lend up to the authorized limit in
      Nationally Recognized Statistical Rating        subordinated debt from TALF LLC.478 TARP’s original TALF obligation was $20
      Organization (“NRSRO”): Credit rating           billion, to support up to $200 billion in TALF loans. However, when TALF’s lend-
      agency registered with the SEC. Credit          ing phase ended in June 2010 with $42.5 billion in loans outstanding, Treasury and
      rating agencies provide their opinion of        the Federal Reserve agreed to reduce the TARP obligation to $4.3 billion.479 The
      the creditworthiness of companies and           TARP money is available for TALF LLC to use to purchase surrendered assets from
      the financial obligations issued by com-        FRBNY and may offset losses associated with disposing of the surrendered assets.
      panies. The ratings distinguish between         As of December 31, 2010, $24.7 billion in TALF loans were outstanding.480 No
      investment grade and non–investment
                                                      TALF loans were in default and consequently no collateral was purchased by TALF
      grade equity and debt obligations.
                                                      LLC.481

                                                      Lending Program
                                                      TALF’s lending program made secured loans to eligible borrowers.482 The loans
                                                      were issued with terms of three or five years and were available for non-mortgage-
                                                      backed ABS, newly issued CMBS, and legacy CMBS.483
                                                          To be eligible for TALF, the non-mortgage-backed ABS had to meet certain
                                                      criteria, including the following:484

                                                      •	 be U.S.-dollar-denominated cash (not synthetic ABS)
                                                      •	 bear short-term and long-term credit ratings of the highest investment grade
                                                         (e.g., AAA) from two or more major nationally recognized statistical rating
                                                         organizations (“NRSROs”) identified by FRBNY as eligible to rate non-mort-
                                                         gage-backed ABS collateral for TALF loans
                                                      •	 not bear a long-term credit rating less than the highest rating by a major
                                                         NRSRO
                                                                               quarterly report to congress I JANUARY 26, 2011               145




•	 have all or substantially all of the underlying loans originate in the United States
•	 have any one of the following types of underlying loans: automobile, stu-
   dent, credit card, equipment, dealer floor plan, insurance premium finance,
   small-business fully guaranteed by SBA as to principal and interest, or receiv-            For a discussion of the credit rating agency
   ables related to residential mortgage servicing advances (“servicing advance               industry and an analysis of the impact of
   receivables”)                                                                              NRSROs on TARP and the overall finan-
                                                                                              cial market, see SIGTARP’s October 2009
•	 not have collateral backed by loans originated or securitized by the TALF bor-
                                                                                              Quarterly Report, pages 113-148.
   rower or one of its affiliates

   To qualify as TALF collateral, newly issued CMBS and legacy CMBS had
to meet numerous requirements, some of which were the same for both CMBS
types:485

•	 evidence an interest in a trust fund that consists of fully funded mortgage loans
   and not other CMBS, other securities, interest rate swap or cap instruments, or
   other hedging instruments
•	 possess a credit rating of the highest long-term investment grade from at least
   two rating agencies identified by FRBNY as eligible to rate CMBS collateral for
   TALF loans, and not possess a credit rating below the highest investment grade
   from any of those agencies
•	 offer principal and interest payments
•	 have been issued by any institution other than a Government-sponsored enter-
   prise (“GSE”) or an agency or instrumentality of the U.S. Government
•	 include a mortgage or similar instrument on a fee or lease-hold interest in one
   or more income-generating commercial properties

   Some minor, but important, differences existed between eligible newly issued
CMBS and eligible legacy CMBS. Newly issued CMBS had to meet the following
requirements:486

•	 evidence first-priority mortgage loans that were current in payment at the time
   of securitization
•	 not be junior to other securities with claims on the same pool of loans
•	 have 95% or more of the dollar amount of the underlying credit exposures origi-
   nated by a U.S.-organized entity or a U.S. branch or agency of a foreign bank

   Legacy CMBS had to meet the following requirements:487

•	 not have been junior to other securities with claims on the same pool of loans at
   the time the CMBS was issued
•	 have at least 95% of the underlying properties, in terms of the related loan prin-
   cipal balance, located in the United States or its territories
146            special inspector general I troubled asset relief program




                                                          The final maturity date of loans in the TALF portfolio is March 30, 2015.488
                                                      TALF loans are non-recourse (unless the borrower breaches any representations,
                                                      warranties, or covenants), which means that FRBNY cannot hold the borrower
                                                      liable for any losses beyond the surrender of any assets pledged as collateral.489

                                                      Loan Terms
      TALF Agent: Financial institution that          TALF participants were required to use a TALF agent to apply for a TALF loan.490
      is party to the TALF Master Loan and            Once the collateral (the particular asset-backed security financed by the TALF
      Security Agreement and that occasion-           loan) was deemed eligible by FRBNY, the collateral was assigned a haircut.
      ally acts as an agent for the borrower.         Haircuts, which represent the amount of money put up by the borrower (the bor-
      TALF agents include primary and                 rower’s “skin in the game”), were required for all TALF loans.491 Haircuts for non-
      nonprimary broker-dealers.                      mortgage-backed ABS varied based on the riskiness and maturity of the collateral,
                                                      and generally ranged between 5% and 16% for non-mortgage-backed ABS with
      Haircut: Difference between the value
                                                      average lives of five years or less.492 The haircut for legacy and newly issued CMBS
      of the collateral and the value of the
                                                      was generally 15% of par but increased above that amount if the average life of the
      loan (the loan value is less than the
                                                      CMBS was greater than five years.493
      collateral value).
                                                          FRBNY lent each borrower the amount of the market price of the pledged col-
      Skin in the Game: Equity stake in an            lateral minus the haircut, subject to certain limitations.494 The borrower delivered
      investment; down payment; the amount            the collateral to the custodian bank, which collects payments generated by the
      an investor can lose.                           collateral and distributes them to FRBNY (representing the borrower’s payment of
                                                      interest on the TALF loan).495 Any excess payments from the collateral above the
      Custodian Bank: Bank holding the                interest due and payable to FRBNY on the loan go to the TALF borrower.496
      collateral and managing accounts for                Because the loans are non-recourse, the risk for any borrower is limited to the
      FRBNY; for TALF the custodian is Bank           haircut and any additional principal that may be paid down on the TALF loan. If
      of New York Mellon.                             the securities pledged as collateral are worth less than the loan balance when the
                                                      loan is due, the borrower would likely surrender the collateral rather than pay the
                                                      loan balance. The Government would then be at risk for potential losses equal to
                                                      the difference between the loan balance and the value of the collateral.497
                                                                                                                        quarterly report to congress I JANUARY 26, 2011      147




TALF Loan Subscriptions
The final TALF loans collateralized by non-mortgage-backed ABS were settled on
March 11, 2010.498 TALF provided $59.0 billion of non-mortgage-backed ABS
loans during the lending phase of the program. Of all such loans settled,
$20.5 billion was outstanding as of December 31, 2010.499 Table 2.33 lists all
settled TALF loans collateralized by non-mortgage-backed ABS, by ABS sector.
    The final subscription for TALF CMBS loans was settled June 28, 2010. TALF
provided $12.1 billion of CMBS loans during the lending phase of the program.500
Of all such loans settled, $4.2 billion was outstanding as of December 31, 2010.501
Table 2.34 includes all TALF CMBS loans that have been settled.


Table 2.33

TALF Loans Settled by ABS Sector (Non-mortgage-backed Collateral)                                                                    ($ Billions)
                                       1st Quarter            2nd Quarter              3rd Quarter              4th Quarter          1st Quarter
ABS Sector                                   2009                   2009                     2009                     2009                 2010                      Total
Auto Loans                                        $1.9                    $6.1                    $4.5                    $0.2                  $0.1                $12.8
Credit Card Receivables                            2.8                    12.4                      8.4                     1.8                  0.9                 26.3
Equipment Loans                                      —                      1.0                     0.1                     0.3                  0.2                  1.6
Floor Plan Loans                                     —                       —                      1.0                     1.5                  1.4                  3.9
Premium Finance                                      —                      0.5                     0.5                      —                   1.0                  2.0
Servicing Advance Receiv-
                                                     —                      0.4                     0.1                     0.6                  0.1                  1.3
ables
Small-Business Loans                                 —                      0.1                     0.4                     0.9                  0.7                  2.2
Student Loans                                        —                      2.5                     3.6                     1.0                  1.8                  8.9
Total                                            $4.7                  $23.0                    $18.7                     $6.4                 $6.1                 $59.0

Notes: Numbers may not total due to rounding. Data as of 12/31/2010.The first subscription in the program was in March 2009; therefore, the first quarter of 2009
represents one subscription while the remaining quarters represent three subscriptions.
Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed 1/13/2011; FRBNY,
“Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/TALF_recent_operations.html, accessed 1/13/2011.


Table 2.34

TALF LOANS SETTLED (CMBS COLLATERAL)                                     ($ Billions)
                                           2nd Quarter             3rd Quarter           4th Quarter         1st Quarter           2nd Quarter
Type of Collateral Assets                        2009                    2009                  2009                2010                  2010                        Total
Newly Issued CMBS                                       $—                     $—                   $0.1                 $—                     $—                   $ 0.1
Legacy CMBS                                              —                     4.1                   4.5                  3.3                     —                  12.0
Total                                                   $—                   $4.1                  $4.6                $3.3                     $—                  $12.1

Notes: Numbers may not total due to rounding. Data as of 12/31/2010. The second quarter of 2009 was only for legacy CMBS, while the second quarter of 2010 was only
for newly issued CMBS.
Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 10/5/2010; FRBNY, “Term
Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/CMBS_recent_operations.html, accessed 1/13/2011.
148            special inspector general I troubled asset relief program




                                                     Asset Disposition Facility
                                                     When FRBNY created TALF LLC, the facility that is used to purchase collateral
                                                     received by FRBNY if TALF borrowers walk away from their loans, TARP loaned
                                                     the facility $100 million. Of this initial funding, $15.8 million was allocated to
                                                     cover administrative costs.502 TARP will continue to fund TALF LLC, as needed,
                                                     until its entire $4.3 billion obligation has been funded, all TALF loans are retired,
                                                     or the loan commitment term expires. Any additional funds, if needed, will be pro-
                                                     vided by a loan from FRBNY that will be collateralized by the assets of TALF LLC
                                                     and will be senior to the TARP loan.503 Payments by TALF LLC from the proceeds
                                                     of its holdings will be made in the following order:504

                                                     •	   operating expenses of TALF LLC
                                                     •	   principal due to FRBNY and funding of FRBNY’s senior loan commitment
                                                     •	   principal due to Treasury
                                                     •	   interest due to FRBNY
                                                     •	   interest due to Treasury
                                                     •	   other secured obligations

                                                          Any remaining money will be shared by Treasury (90%) and FRBNY (10%).505

                                                     TALF Disclosures
                                                     On December 1, 2010, the Federal Reserve posted on its website detailed informa-
                                                     tion on the 177 TALF loans, including the names of all the borrowers from the
                                                     TALF program (some of which share a parent company); each borrower’s city, state,
                                                     and country; the name of any material investor in the borrower (defined as a 10%
                                                     or greater beneficial ownership interest in any class of security of a borrower); the
                                                     amount of the loan; the amount outstanding as of September 30, 2010; the loan
                                                     date; the loan maturity date; the date of full repayment (if applicable); the date of
                                                     loan assignment (if applicable); the loan rate (fixed or floating); the market value of
      For the complete list of TALF borrowers,       the collateral associated with the loan at the time the loan was extended; the name
      refer to the FRBNY website: www.federal-       of the issuer of the ABS collateral associated with the loan; and the collateral asset
      reserve.gov/newsevents/reform_talf.htm.        class and subclass.506
                                                         As of December 31, 2010, $46.4 billion in TALF loans had been repaid.
                                                     According to FRBNY, the $24.7 billion in TALF loans that have not been repaid in
                                                     full are current in their payments.507
                                                                            quarterly report to congress I JANUARY 26, 2011          149




Current Status
As of December 31, 2010, no collateral had been surrendered or purchased by
TALF LLC.508 As of the same date, TALF LLC had assets of $665 million.509 That
amount includes the $100 million in initial TARP funding.510 The remainder con-
sists of interest payments and interest income earned from permitted investments.
From its February 4, 2009, formation through December 31, 2010, TALF LLC had
spent approximately $1.4 million on administration.511
    When TALF closed for new loans in June 2010, FRBNY’s responsibilities under
the program shifted primarily to portfolio management, which includes the follow-
ing duties:512

•	 maintaining documentation
•	 overseeing the custodian that is responsible for holding ABS collateral
•	 calculating and collecting principal and interest on TALF loans
•	 disbursing excess spread to TALF borrowers in accordance with the governing              Excess Spread: Funds left over after
   documents                                                                                required payments and other con-
•	 monitoring the TALF portfolio                                                            tractual obligations have been met. In
•	 collecting and managing collateral assets if a borrower defaults or surrenders the       TALF it is the difference between the
                                                                                            periodic amount of interest paid out
   collateral in lieu of repayment
                                                                                            by the collateral and the amount of
•	 paying TALF LLC interest that borrowers pay FRBNY on TALF loans, in excess
                                                                                            interest charged by FRBNY on the non-
   of FRBNY’s cost of funding
                                                                                            recourse loan provided to the borrower
                                                                                            to purchase the collateral.
150             special inspector general I troubled asset relief program




                                                       Public-Private Investment Program
                                                       According to Treasury, the purpose of the Public-Private Investment Program
                                                       (“PPIP”) is to purchase legacy securities from financial institutions through Public-
      Legacy Securities: Real estate-related           Private Investment Funds (“PPIFs”). PPIFs are partnerships, formed specifically
      securities that remain on the balance            for this program, that invest in mortgage-backed securities using equity capital
      sheets of financial institutions because         from private-sector investors combined with TARP equity and debt. A private-
      of pricing difficulties that resulted from       sector fund management firm oversees each PPIF on behalf of these investors.
      market disruption.                               According to Treasury, the aim of PPIP was to “restart the market for legacy securi-
                                                       ties, allowing banks and other financial institutions to free up capital and stimulate
      Equity: Investment that represents an            the extension of new credit.”513
      ownership interest in a business.
                                                           Treasury selected nine fund management firms to establish PPIFs. One PPIF
                                                       manager, The TCW Group, Inc. (“TCW”), subsequently withdrew. Private inves-
      Debt: Investment in a business that is
                                                       tors and Treasury co-invested in the PPIFs to purchase legacy securities from
      required to be paid back to the inves-
      tor, usually with interest.
                                                       financial institutions. The fund managers raised private-sector capital. Treasury
                                                       matched the private-sector equity dollar for dollar and provided debt financing in
                                                       the amount of the total combined equity. Each PPIF manager was also required to
      For more information on the selection of         invest at least $20 million of its own money in the PPIF.514 Each PPIF is approxi-
      PPIF managers, see SIGTARP’s October
                                                       mately 75% TARP funded. PPIP was designed as an eight-year program but, under
      7, 2010, audit entitled “Selecting Fund
                                                       certain circumstances, Treasury can terminate it early or extend it for up to two
      Managers for the Legacy Securities Public-
      Private Investment Program.”                     additional years.515
                                                           The intent of the program is for the PPIFs to purchase securities from banks,
      For more information on the withdrawal of        insurance companies, mutual funds, pension funds, and other eligible financial
      TCW as a PPIF manager, see SIGTARP’s             institutions, as defined in EESA.516 Treasury, the PPIF managers, and the private
      January 2010 Quarterly Report, page 88.
                                                       investors share PPIF profits on a pro rata basis based on their limited partnership
                                                       interests. PPIF losses are also shared on a pro rata basis, up to each participant’s
                                                       investment amount.517 In addition to its pro rata share, Treasury received warrants
      Pro Rata: Refers to dividing something
                                                       in each PPIF, as mandated by EESA.518
      among a group of participants accord-
      ing to the proportionate share that
      each participant holds as a part of the
      whole.

      Limited Partnership: Partnership in
      which there is at least one partner
      whose liability is limited to the amount
      invested (limited partner) and at least
      one partner whose liability extends
      beyond monetary investment (general
      partner).
                                                                              quarterly report to congress I JANUARY 26, 2011         151




    The securities eligible for purchase by PPIFs (“eligible assets”) are supported by
                                                                                              Non-Agency Residential Mortgage-
real estate-related loans, including non-agency residential mortgage-backed securi-
                                                                                              Backed Securities (“non-agency
ties (“non-agency RMBS”) and commercial mortgage-backed securities (“CMBS”)                   RMBS”): Financial instrument backed
that meet the following criteria:519                                                          by a group of residential real estate
                                                                                              mortgages not guaranteed or owned
•	 issued before January 1, 2009 (legacy)                                                     by a Government-sponsored enterprise
•	 bearing an original AAA or equivalent rating from two or more credit rating                (“GSE”), such as the Federal National
   agencies designated as nationally recognized statistical rating organizations              Mortgage Association (“Fannie Mae”)
   (“NRSROs”)                                                                                 or the Federal Home Loan Mortgage
•	 secured directly by actual mortgages, leases, or other assets, not other securities        Corporation (“Freddie Mac”).
   (other than certain swap positions, as determined by Treasury)
•	 located primarily in the United States (the loans and other assets that secure the
   non-agency RMBS and CMBS)
•	 purchased from financial institutions that are eligible for TARP participation

Legacy Securities Program Process
The following steps describe the process by which funds participate in the Legacy
Securities Program:520

1.	 Fund managers applied to Treasury to participate in the program.
2.	 Pre-qualified fund managers raised the necessary private capital for the PPIFs.
3.	 Treasury matched the capital raised, dollar for dollar, up to a preset maximum.
    Treasury also received warrants so it could benefit further if the PPIFs turn a
    profit.
4.	 Fund managers may borrow additional funds from Treasury up to 100% of the
    total equity investment (including the amount invested by Treasury).
5.	 Each fund manager purchases and manages the legacy securities and provides
    monthly reports to its investors, including Treasury.

    Obligated funds are not given immediately to PPIF managers. Instead, PPIF
managers send a notice to Treasury and the private investors requesting portions of
obligated contributions in order to purchase specific investments or to pay certain
expenses and debts of the partnerships.521 When the funds are delivered, the PPIF
is said to have “drawn down” on the obligation.522

PPIF Purchasing Power
During the capital-raising period, the eight PPIP fund managers raised $7.4 billion
of private-sector equity capital, which Treasury matched with a dollar-for-dollar
obligation for a total of $14.7 billion in equity capital. Treasury also obligated
$14.7 billion of debt financing, resulting in $29.4 billion of PPIF purchasing
power. As of December 31, 2010, the current PPIFs have drawn down a total of
152             special inspector general I troubled asset relief program




                                                                          approximately $20.4 billion, including private-sector equity capital and TARP
                                                                          funding of equity and debt, to purchase PPIP-eligible assets. The assets purchased
                                                                          have been valued by Bank of New York Mellon, operating as administrative agent,
                                                                          valuation agent, and custodian for PPIP, at $21.5 billion.523 Treasury has expended
                                                                          a total of $15.6 billion for PPIP, including $15.2 billion for the eight active PPIFs
                                                                          and $356.3 million for TCW.
                                                                               The fund-raising stage for PPIFs is now complete. PPIF managers had six
                                                                          months from the closing date of their first private-sector fund raising to raise
                                                                          additional private-sector equity.524 Although Treasury initially pledged up to $30
                                                                          billion for PPIP, the fund managers did not raise enough private-sector capital
                                                                          for Treasury’s combination of matching funds and debt financing to reach that
                                                                          amount. Treasury’s total obligation is now limited to $22.4 billion, which includes
                                                                          $22.1 billion for active PPIFs, and $356.3 million disbursed to TCW, which TCW
                                                                          repaid.525
                                                                               Notwithstanding the expiration of TARP’s purchasing authority on October 3,
                                                                          2010, each active PPIF manager has up to three years from closing its first private-
                                                                          sector equity contribution (the investment period) to draw upon the TARP funds
                                                                          obligated for the PPIF.526 The last of the three-year investment periods expires in
                                                                          December 2012. Table 2.35 shows all equity and debt obligated for active PPIFs
                                                                          under the program.


      Table 2.35

      Public-private investment program, AS OF 12/31/2010                                                         ($ Billions)
                                                                                    Private-Sector                  Treasury                                           Total Purchasing
                                                                                    Equity Capital                    Equity             Treasury Debt                           Power
      AG GECC PPIF Master Fund, L.P.                                                               $1.2                    $1.2                         $2.5                              $5.0
      AllianceBernstein Legacy Securities Master Fund, L.P.                                          1.2                    1.2                           2.3                               4.6
      BlackRock PPIF, L.P.                                                                           0.7                    0.7                           1.4                               2.8
      Invesco Legacy Securities Master Fund, L.P.                                                    0.9                    0.9                           1.7                               3.4
      Marathon Legacy Securities Public-Private Investment                                           0.5                    0.5                           0.9                               1.9
      Partnership, L.P.
      Oaktree PPIP Fund, Inc.                                                                        1.2                    1.2                           2.3                               4.6
      RLJ Western Asset Public/Private Master Fund, L.P.                                             0.6                    0.6                           1.2                               2.5
      Wellington Management Legacy Securities PPIF Master                                            1.1                    1.1                           2.3                               4.6
      Fund, LP
      Current Totals                                                                               $7.4                   $7.4                       $14.7                            $29.4a

      Notes: Numbers affected by rounding.
      a
        Treasury initially obligated $0.4 billion to TCW. The $0.4 billion was paid to TCW, and TCW subsequently repaid the funds that were invested in its PPIF. As this PPIF has closed, the
        amount is not included in the total purchasing power.

      Source: PPIF Monthly Performance Reports submitted by each PPIF manager, December 2010, received 1/18/2011.
                                                                                                                          quarterly report to congress I JANUARY 26, 2011   153




Fund Performance
Each PPIF’s performance — its gross and net returns since inception — as re-
ported by PPIF managers, is listed inTable 2.36. The returns are calculated based
on a methodology requested by Treasury. Each PPIF has three years to buy legacy
securities on behalf of its private and Government investors. The program strives to
maintain “predominantly a long-term buy and hold strategy.”527
   The data in Table 2.36 constitutes a snapshot of the funds’ performance during
the quarter ended December 31, 2010, and may not predict the funds’ perfor-
mance over the long term. According to some PPIF managers, it would be pre-
mature to draw any long-term conclusions because, among other reasons, some
managers have not fully executed their investment strategies or fully drawn down
Treasury’s capital or debt obligations.




Table 2.36

 PPIF investment status, AS OF 12/31/2010
                                                                                                                     Cumulative           Net Internal Rate
                                                                           1-Month                3-Month                  Since           of Return Since
                                                                            Return                 Return              Inception                  Inception
Manager                                                                  (percent)a             (percent)a            (percent)a                 (percent)b
AG GECC PPIF Master                                      Gross                   4.73                 15.08                  65.85                            60.48
Fund, L.P.                                               Net                     4.71                 15.00                  63.62                            59.69
AllianceBernstein Legacy                                 Gross                   1.12                   7.06                 37.83                            39.27
Securities Master Fund, L.P.                             Net                     1.02                   6.76                 34.99                            37.38
                                                         Gross                   0.64                   5.47                 43.87                            37.43
BlackRock PPIF, L.P.
                                                         Net                     0.56                   5.21                 41.60                            35.68
Invesco Legacy Securities Master Fund,                   Gross                 (0.02)                   5.36                 37.92                            32.67
L.P.                                                     Net                   (0.14)                   5.03                 34.83                            30.77
Marathon Legacy Securities Public-Private Gross                                  2.64                   9.16                 40.92                            44.88
Investment Partnership, L.P.              Net                                    2.56                   8.89                 37.21                            42.81
                                                         Gross                   4.90                   9.85                 25.09                            31.73
Oaktree PPIP Fund, Inc.
                                                         Net                     4.76                   9.29                 19.23                            27.82
RLJ Western Asset Public/Private Master                  Gross                   0.86                   7.07                 38.19                            36.47
Fund, L.P.                                               Net                     0.76                   6.79                 36.17                            34.83
Wellington Management Legacy Securities Gross                                    0.78                   6.34                 26.42                            25.36
PPIF Master Fund, LP                    Net                                      0.68                   6.06                 24.35                            23.81

Notes: The performance indicators are listed as reported by the PPIF managers without further analysis by SIGTARP. The net returns include the deduction of
management fees and partnership expenses attributable to Treasury.
a
  Time-weighted, geometrically linked returns.
b
  Dollar-weighted rate of return.

Source: PPIF Monthly Performance Reports submitted by each PPIF manager, December 2010, received 01/18/2011.
154                  special inspector general I troubled asset relief program




  Figure 2.6                                                     According to their agreements with Treasury, PPIF managers may trade in both
  AGGREGATE COMPOSITION OF PPIF                              RMBS and CMBS, except for Oaktree PPIP Fund, Inc., which may purchase
  PURCHASES, AS OF 12/31/2010                                only CMBS.528 Figure 2.6 shows the collective value of securities purchased by all
  Percentage of $21.5 Billion
                                                             PPIFs as of December 31, 2010, broken down by RMBS and CMBS.
              CMBS                                               PPIF investments can be classified by underlying asset type. For non-agency
                      19%                                    RMBS, the underlying assets are mortgages for residences with up to four dwelling
                                                             units; all non-agency RMBS investments are considered residential. For CMBS,
                                               RMBS
                                                             the assets are commercial real estate mortgages: office, retail, multi-family, hotel,
                                   81%
                                                             industrial (such as warehouses), mobile home parks, mixed-use (combination of
                                                             commercial and residential), and self-storage. Figure 2.7 breaks down CMBS
                                                             investment distribution by sector. The aggregate CMBS portfolio had large concen-
                                                             trations in office (30%) and retail (25%) loans.
  Notes: Numbers affected by rounding. Calculated based on
  monthly data supplied by the PPIF managers.
                                                                 Non-agency RMBS and CMBS can be classified by the degree of estimated
  Source: PPIF Monthly Performance Reports, December 2010.
                                                             default risk (sometimes referred to as “quality”). Investors are most concerned
                                                             about whether borrowers will default and the underlying collateral will be sold at a
                                                             loss. Estimated risk, or quality, attempts to measure the likelihood of that outcome.
  Figure 2.7                                                 There are no universal standards for ranking mortgage quality, and the designations
                                                             vary depending on context. In general, the highest-quality rankings are granted to
  AGGREGATE CMBS PURCHASES BY
  SECTOR, AS OF 12/31/2010                                   mortgages that have the strictest requirements regarding borrower credit, com-
  Percentage of $4.1 Billion                                 pleteness of documentation, and underwriting standards. Treasury characterizes
                           Other                             these investment-quality levels of risk for the types of mortgage loans that support
                           11%                               non-agency RMBS as follows:529
  Lodging/
     Hotel           16%                 30%     Office      •	 Prime — mortgage loan made to a borrower with good credit that generally
                                                                meets the lender’s strictest underwriting criteria. Non-agency prime loans gener-
      Industrial 5%
                                                                ally exceed the dollar amount eligible for purchase by GSEs (jumbo loans) but
      Multi-family    13%                                       may include lower-balance loans as well.
                                   25%

                                     Retail                  •	 Alt-A — mortgage loan made to a borrower with good credit but with limited
                                                                documentation or other characteristics that do not meet the standards for prime
  Notes: Numbers affected by rounding. Calculated based on
  monthly data supplied by the PPIF managers.                   loans. An Alt-A loan may have a borrower with a lower credit rating, a higher
  Source: PPIF Monthly Performance Reports, December 2010.      loan-to-value ratio, or limited or no documentation, compared with a prime
                                                                loan.
                                                             •	 Subprime — mortgage loan made to a borrower with a poor credit rating.
                                                             •	 Option Adjustable Rate Mortgage (“ARM”) — mortgage loan that gives the
                                                                borrower a set of choices about how much interest and principal to pay each
                                                                month. This may result in negative amortization (an increasing loan principal
                                                                balance over time).
                                                             •	 Other (RMBS) — RMBS that do not meet the definitions for prime, Alt-A,
                                                                subprime, or option ARM but meet the definition of “eligible assets” above.
                                                                                                            quarterly report to congress I JANUARY 26, 2011   155




   Treasury characterizes CMBS according to the degree of “credit enhancement”
supporting them:530

•	 Super Senior — most senior originally rated AAA bonds in a CMBS securitiza-
   tion with the highest level of credit enhancement. Credit enhancement refers to
   the percentage of the underlying mortgage pool by balance that must be written
   down before the bond suffers any losses. Super senior bonds often compose
   approximately 70% of a securitization and, therefore, have approximately 30%
   credit enhancement at issuance.
•	 AM (Mezzanine) — mezzanine-level originally rated AAA bond. Creditors
   receive interest and principal payments after super senior creditors but before
   junior creditors.531 AM bonds often compose approximately 10% of a CMBS
   securitization.
•	 AJ (Junior) — the most junior bond in a CMBS securitization that attained a
   AAA rating at issuance.
•	 Other (CMBS) — CMBS that do not meet the definitions for super senior,
   AM, or AJ but meet the definition of “eligible assets” above.

  Figure 2.8 and Figure 2.9 show the distribution of non-agency RMBS and
CMBS investments held in PPIP by respective risk levels, as reported by PPIF
managers.


Figure 2.8                                                 Figure 2.9
AGGREGATE RMBS PURCHASES BY                                AGGREGATE CMBS PURCHASES BY
QUALITY, AS OF 12/31/2010                                  QUALITY, AS OF 12/31/2010
Percentage of $17.3 Billion                                Percentage of $4.1 Billion
                     a
       Other RMBS <1%

               Option ARM                                                                Super Senior

                                                              Other                     14%
  Subprime               7%
                  10%                                         (CMBS)        21%

                                      37% Prime

                                                                                               38% AM (Mezzanine)
       Alt-A      46%                                      AJ (Junior)   27%




Notes: Numbers affected by rounding. Calculated based on   Notes: Numbers affected by rounding. Calculated based on
monthly data supplied by the PPIF managers.                monthly data supplied by the PPIF managers.
aThe actual percentage for “Other RMBS” is 0.21%.

                                                           Source: PPIF Monthly Performance Reports, December 2010.
Source: PPIF Monthly Performance Reports, December 2010.
156   special inspector general I troubled asset relief program




                                                Non-agency RMBS and CMBS can be classified geographically, according to
                                             the states where the underlying mortgages are held. Figure 2.10 and Figure 2.11
                                             show the states with the greatest representation in the underlying non-agency
                                             RMBS and CMBS investments in PPIFs, as reported by PPIF managers.
                                                Non-agency RMBS and CMBS can also be classified by the delinquency of
                                             the underlying mortgages. Figure 2.12 and Figure 2.13 show the distribution of
                                             non-agency RMBS and CMBS investments held in PPIP by delinquency levels, as
                                             reported by PPIF managers.

                                              Figure 2.10                                                   Figure 2.11
                                              AGGREGATE GEOGRAPHICAL                                        AGGREGATE GEOGRAPHICAL
                                              DISTRIBUTION — PERCENT OF                                     DISTRIBUTION — PERCENT OF
                                              TOTAL RMBS, AS OF 12/31/2010                                  TOTAL CMBS, AS OF 12/31/2010
                                                 40%        43%                                                15%
                                                                                                                          16%

                                                 30%
                                                                                                               10%
                                                                                                                                       11%
                                                 20%
                                                                                                                                                    7%          8%
                                                                                                                 5%
                                                 10%
                                                                        8%
                                                                                    5%                             0
                                                     0                                         3%
                                                            CA          FL          NY          VA                         CA          NY           FL          TX

                                                                                                            Notes: Only states with largest representation shown. Calculated
                                              Notes: Only states with the largest representation shown.
                                                                                                            based on monthly data supplied by the PPIF managers.
                                              Calculated based on monthly data supplied by PPIF managers.
                                                                                                            Source: PPIF Monthly Performance Reports, December 2010.
                                              Source: PPIF Monthly Performance Reports, December 2010.



                                              Figure 2.12                                                   Figure 2.13
                                             AGGREGATE AVERAGE RMBS                                         AGGREGATE AVERAGE CMBS
                                             DELINQUENCIES BY MARKET VALUE,                                 DELINQUENCIES BY MARKET VALUE,
                                             AS OF 12/31/2010                                               AS OF 12/31/2010
                                             Percentage of $17.3 Billion                                    Percentage of $4.1 Billion

                                             60+ Days
                                                                                                                1% 30 Days          60+ Days
                                             (FCL/REO included)
                                                                                                                                    9%
                                                                 28%



                                             30+ Days     3%                       69%      Current

                                                                                                                                            90%           Current



                                             Notes: Numbers affected by rounding. Calculated based on       Notes: Numbers affected by rounding. Calculated based on
                                             monthly data supplied by the PPIF managers.                    monthly data supplied by the PPIF managers.

                                             Source: PPIF Monthly Performance Reports, December 2010.       Source: PPIF Monthly Performance Reports, December 2010.
                                                                             quarterly report to congress I JANUARY 26, 2011           157




Unlocking Credit for Small Businesses (“UCSB”)/Small
Business Administration (“SBA”) Loan Support Initiative
On March 16, 2009, Treasury announced the Unlocking Credit for Small Businesses
(“UCSB”) program, designed to encourage banks to increase lending to small busi-             7(a) Loan Program: SBA loan program
nesses. Treasury stated that, through UCSB, it would purchase up to $15 billion in           guaranteeing a percentage of loans for
securities backed by pools of loans from two SBA programs: the 7(a) Loan Program             small businesses that cannot otherwise
and the 504 Community Development Loan Program.532 Treasury later lowered the                obtain conventional loans at reasonable
amount available to purchase securities under UCSB to $400 million.533                       terms.
    Treasury never purchased any 504 Community Development Loan-backed
securities through UCSB.534 Treasury initiated the 7(a) portion of the program               504 Community Development Loan
                                                                                             Program: SBA program combining
and signed contracts with two pool assemblers, Coastal Securities, Inc. (“Coastal
                                                                                             Government-guaranteed loans with
Securities”) on March 2, 2010, and Shay Financial Services, Inc. (“Shay Financial”)
                                                                                             private-sector mortgages to provide
on August 27, 2010.535 Under the governing agreement, Earnest Partners, on behalf
                                                                                             loans of up to $10 million for commu-
of Treasury, purchased SBA pool certificates from Coastal Securities and Shay
                                                                                             nity development.
Financial without confirming to the counterparties that Treasury was the buyer.536
    From March 19, 2010, to September 28, 2010, Treasury purchased 31 floating-              Pool Assemblers: Firms authorized
rate 7(a) securities from Coastal Securities and Shay Financial for a total of approxi-      to create and market pools of SBA-
mately $368.1 million.537 Table 2.37 shows the CUSIPs and investment amounts for             guaranteed loans.
the securities Treasury bought.
                                                                                             SBA Pool Certificates: Ownership
                                                                                             interest in a bond backed by SBA-
                                                                                             guaranteed loans.



                                                                                             For more information on SBA 7(a) Loan
                                                                                             Program mechanics and TARP support
                                                                                             for the program, see SIGTARP’s April
                                                                                             2010 Quarterly Report, pages 105-106.
158   special inspector general I troubled asset relief program




                Table 2.37

                 floating-rate SBA 7(A) Securities                                 ($ Millions)
                Trade Date                                    CUSIP                                  Pool Assembler                       Investment Amount a
                3/19/2010                                     83164KYN7                              Coastal Securities                                 $4.4
                3/19/2010                                     83165ADC5                              Coastal Securities                                  8.3
                3/19/2010                                     83165ADE1                              Coastal Securities                                  8.7
                4/8/2010                                      83165AD84                              Coastal Securities                                 26.0
                4/8/2010                                      83164KZH9                              Coastal Securities                                  9.6
                5/11/2010                                     83165AEE0                              Coastal Securities                                 11.5
                5/11/2010                                     83164K2Q5                              Coastal Securities                                 14.2
                5/11/2010                                     83165AED2                              Coastal Securities                                  9.7
                5/25/2010                                     83164K3B7                              Coastal Securities                                  9.3
                5/25/2010                                     83165AEK6                              Coastal Securities                                 18.8
                6/17/2010                                     83165AEQ3                              Coastal Securities                                 38.3
                6/17/2010                                     83165AEP5                              Coastal Securities                                 31.7
                7/14/2010                                     83164K3Y7                              Coastal Securities                                  6.4
                7/14/2010                                     83164K4J9                              Coastal Securities                                  7.5
                7/14/2010                                     83165AE42                              Coastal Securities                                  14.8
                7/29/2010                                     83164K4E0                              Coastal Securities                                   2.8
                7/29/2010                                     83164K4M2                              Coastal Securities                                  10.4
                8/17/2010                                     83165AEZ3                              Coastal Securities                                   9.2
                8/17/2010                                     83165AFB5                              Coastal Securities                                   5.5
                8/17/2010                                     83165AE91                              Coastal Securities                                  11.1
                8/31/2010                                     83165AEW0                              Shay Financial                                      10.3
                8/31/2010                                     83165AFA7                              Shay Financial                                      11.7
                8/31/2010                                     83164K5H2                              Coastal Securities                                   7.3
                9/14/2010                                     83165AFC3                              Shay Financial                                      10.0
                9/14/2010                                     83165AFK5                              Shay Financial                                       8.9
                9/14/2010                                     83164K5F6                              Coastal Securities                                   6.1
                9/14/2010                                     83164K5L3                              Coastal Securities                                   6.4
                9/28/2010                                     83164K5M1                              Coastal Securities                                   3.8
                9/28/2010                                     83165AFQ2                              Coastal Securities                                  13.1
                9/28/2010                                     83165AFM1                              Shay Financial                                      15.3
                9/28/2010                                     83165AFT6                              Shay Financial                                      17.1
                Total Investment Amount                                                                                                               $368.1

                Notes: Numbers affected by rounding.
                a
                  Investment amounts may include accrued principal and interest.

                Sources: Treasury, Transactions Report, 12/31/2010; Treasury, responses to SIGTARP data call, 12/16/2010 and 1/14/2011.
                                                                             quarterly report to congress I JANUARY 26, 2011   159




AUTOMOTIVE INDUSTRY SUPPORT PROGRAMS
During the financial crisis, Treasury, through TARP, launched three automo-
tive industry support programs: the Automotive Industry Financing Program
(“AIFP”), the Auto Supplier Support Program (“ASSP”), and the Auto Warranty
Commitment Program (“AWCP”). According to Treasury, these programs were
established “to prevent a significant disruption of the American automotive indus-
try that poses a systemic risk to financial market stability and will have a negative
effect on the economy of the United States.”538
    AIFP has not expended any TARP funds for the automotive industry since
December 30, 2009, when GMAC Inc. (“GMAC”), now Ally Financial Inc. (“Ally
Financial”), received a $3.8 billion capital infusion.539 ASSP, designed to “ensure
that automotive suppliers receive compensation for their services and products,”
was terminated in April 2010 after all $413.1 million in loans made through it were
fully repaid.540 AWCP, a $640.7 million program, was designed to assure car buyers
that the warranties on any vehicles purchased during the bankruptcies of General
Motors Corp. (“Old GM”) and Chrysler LLC (“Old Chrysler”) would be guaran-
teed by the Government. It was terminated in July 2009 after all loans under the
program were fully repaid upon the companies’ emergence from bankruptcy.541
    Treasury initially obligated approximately $84.8 billion through these three
programs to Old GM and General Motors Company (“New GM” or “GM”), Ally
Financial, the Chrysler entities (Chrysler Holding LLC [now called CGI Holding
LLC], Old Chrysler, and Chrysler Group LLC [“New Chrysler”]), and Chrysler
Financial Services Americas LLC (“Chrysler Financial”).542 Treasury originally
obligated $5.0 billion under ASSP but adjusted this amount to $413.1 million to
reflect actual borrowings, thereby reducing the total obligation for all automotive
industry support programs to approximately $81.8 billion (including approximately
$2.1 billion in still undrawn loan obligations to New Chrysler).543 As of December
31, 2010, Treasury had received approximately $26.9 billion in principal and
$3.4 billion in dividends and interest.544 As a result of these payments, old loan
conversions (into common equity), and post-bankruptcy restructurings, Treasury
now holds 33.3% of the common equity in New GM; a debt instrument of ap-
proximately $985.8 million from Old GM; a loan of approximately $7.1 billion to
New Chrysler and 9.2% of the common equity in New Chrysler; and $8.6 billion in
senior equity and 73.8% of the common equity in Ally Financial.545
160   special inspector general I troubled asset relief program




                                             Table 2.38

                                              TARP Automotive programs expenditures and payments,
                                              AS OF 12/31/2010 ($ BILLIONS)
                                                                                                                              Chrysler          Ally Financial/
                                                                                             Chrysler              GMd        Financial                  GMAC                 Total
                                             Pre-Bankruptcy
                                                    AIFP                                           $4.0          $19.4               $1.5                    $17.2            $42.1
                                                    ASSPa                                            0.1             0.3                                                            0.4
                                                    AWCP                                             0.3             0.4                                                            0.6
                                                    Subtotal                                      $4.4          $20.1               $1.5                    $17.2             $43.1
                                             In-Bankruptcy (DIP Financing)
                                                    AIFP                                           $1.9          $30.1                                                        $32.0
                                                    Subtotal                                      $1.9          $30.1                                                         $32.0
                                             Post-Bankruptcy (Working Capital)
                                                    AIFP                                          $4.6b                                                                         $4.6
                                                    Subtotal                                      $4.6                                                                          $4.6
                                             Subtotals by Program:
                                                    AIFP                                                                                                                      $78.6
                                                    ASSP                                                                                                                            0.4
                                                    AWCP                                                                                                                            0.6
                                             Total Expenditures                                 $10.9           $50.2               $1.5                    $17.2             $79.7
                                             Principal Repayments to
                                                                                                ($2.4)        ($23.0)             ($1.5)                      $ —c         ($26.9)
                                             Treasury
                                             Net Expenditures                                     $8.5          $27.1               $ —c                    $17.2             $52.8

                                             Notes: Numbers may not total due to rounding.
                                             a
                                               The final commitment and repayment amounts reflect the total funds expended under the ASSP loans. Treasury initially obligated
                                               $5.0 billion under ASSP. Treasury adjusted its obligation to $0.4 billion.
                                             b
                                                Chrysler has not drawn down approximately $2.07 billion of its $6.642 billion post-bankruptcy working capital loan from Treasury.
                                             c
                                               This symbol indicates a value of zero.
                                             d
                                               Including Treasury’s sale of a total of 412.3 million common shares for $13.5 billion as part of the IPO.

                                             Source: Treasury, Transactions Report, 12/31/2010.



                                                 Treasury’s investments in these three programs and the companies’ payments of
                                             principal are summarized in Table 2.38 and categorized by the timing of the invest-
                                             ment in relation to the companies’ progression through bankruptcy.

                                             Automotive Industry Financing Program
                                             Treasury provided $80.7 billion through AIFP to support automakers and their
                                             financing arms in order to “avoid a disorderly bankruptcy of one or more automo-
                                             tive companies.”546 As of December 31, 2010, Treasury had received approximately
                                             $3.4 billion in dividends and interest payments from participating companies.547
                                             Of AIFP-related loan principal repayments and share sale proceeds, Treasury has
                                             received approximately $22.4 billion from New GM (including Treasury’s sale of a
                                             total of 412.3 million common shares for $13.5 billion as part of the initial public
                                             offering [“IPO”] as discussed below); $1.9 billion from the Chrysler entities; and
                                             $1.5 billion from Chrysler Financial. As discussed below, additional payments of
                                             $640.7 million and $413.1 million, respectively, were received under AWCP and
                                             ASSP.548
                                                                             quarterly report to congress I JANUARY 26, 2011             161




GM
Through December 31, 2010, Treasury had provided approximately $49.5 billion to
GM through AIFP. Of that amount, $19.4 billion was provided before bankruptcy
and $30.1 billion was provided as debtor-in-possession (“DIP”) financing during
bankruptcy. During bankruptcy proceedings, most of Treasury’s pre-bankruptcy and
DIP financing loans to Old GM were used to purchase common or preferred stock
in New GM (the company that purchased substantially all of the assets of Old GM              Debtor-in-Possession (“DIP”): Company
pursuant to Section 363 of the Bankruptcy Code) or debt assumed by New GM. As                operating under Chapter 11 bank-
a result, Treasury’s GM investment was converted to a 60.8% common equity stake              ruptcy protection that technically still
in New GM, $2.1 billion in preferred stock in New GM, and a $7.1 billion loan to             owns its assets but is operating them
New GM ($6.7 billion through AIFP and $360.6 million through AWCP). As part                  to maximize the benefit to its creditors.
of a credit agreement with Treasury, $16.4 billion of the DIP money was set in an
                                                                                             VEBA: Tax-free, post-retirement medical
escrow account that GM could access only with Treasury’s permission. Separately,
                                                                                             expense account used by retirees and
approximately $985.8 million in loans was left to facilitate the orderly wind-down
                                                                                             their eligible dependents to pay for any
and liquidation of Old GM.549 Through the GM IPO, described in further detail be-
                                                                                             eligible medical expenses.
low, Treasury sold a total of 412.3 million shares of common stock for net proceeds
of $13.5 billion, after taking into account approximately $102.1 million in under-
writing fees associated with the IPO.550 As a result of the IPO, Treasury reduced
its ownership position in New GM common shares to approximately 500.1 million
shares, resulting in a decrease in ownership from 60.8% to 33.3%.551
    In addition to selling a portion of its common shares in New GM through the
IPO, on October 28, 2010, Treasury accepted an offer from New GM to repur-
chase the $2.1 billion in Series A preferred stock (83.9 million shares) issued to
Treasury as part of GM’s bankruptcy restructuring, conditioned on the closing of
the IPO. On December 15, 2010, New GM repurchased these preferred shares
at a price per share of $25.50 for total proceeds of $2.14 billion.552 The share sale
price included a 2% premium to the liquidation price of $25.00 and resulted in a
capital gain to Treasury of approximately $41.9 million.553
    Under the terms of Section 363 of the Bankruptcy Code governing the sale
of certain assets from Old GM to New GM, the United Auto Workers’ (“UAW”)
Retiree Medical Benefits Trust (the “VEBA Trust”), bondholders from Old GM,
Treasury, the national government of Canada, and the provincial government of
Ontario became the owners of New GM.554

Debt Repayments
New GM repaid the $6.7 billion loan provided through AIFP with interest, us-
ing the previously mentioned $16.4 billion escrow account that had been funded
originally with TARP funds provided to GM during its bankruptcy. What remained
in escrow was released to New GM without restrictions with the final debt payment
in April 2010.555 A separate $985.8 million loan was left behind with Old GM for
wind-down costs associated with its liquidation. As of December 31, 2010, the GM
162   special inspector general I troubled asset relief program




                                             entities had made approximately $778.3 million in dividend and interest payments
                                             to Treasury.556

                                             GM IPO
                                             GM Files Amended S-1 Registration Statement in Preparation for IPO
                                             On August 18, 2010, GM filed a registration statement for an IPO with the
                                             Securities and Exchange Commission (“SEC”). The documents included a pro-
                                             spectus relating to the offering of GM’s common stock and of newly issued Series B
                                             mandatorily convertible preferred shares (“MCP”).557 The prospectus also outlined
                                             certain aspects of GM’s global business operations and risks facing the company.
                                             As is typical in an IPO, the prospectus listed a series of risks for potential pur-
                                             chasers of the IPO. These included, but were not limited to, warnings about the
                                             following:558

                                             •	 the ability of several members of the new executive management team, who
                                                had no experience in the automotive industry, to learn the automotive industry
                                                quickly
                                             •	 the risk that GM’s plan to reduce the number of its retail channels and brands
                                                and to consolidate its dealer network may reduce its total sales volume and mar-
                                                ket share, and not result in anticipated cost savings
                                             •	 a large debt overhang from unfunded pension liabilities
                                             •	 a lack of effective internal controls for disclosure and financial reporting, which
                                                could jeopardize the implementation of the company’s business plan
                                             •	 the reduced compensation for its most highly paid executives as a result of its
                                                status as an exceptional assistance recipient of TARP funds, which may adverse-
                                                ly affect GM’s ability to hire and retain salaried employees
                                             •	 the ability of GM Financial, GM’s recently acquired captive financial arm, to
                                                support additional sales and leasing to consumers requiring subprime vehicle
                                                financing
                                             •	 Treasury’s continued ownership of a substantial interest in GM following the
                                                IPO, and the possibility that its interests may differ from those of GM’s other
                                                stockholders
                                             •	 purchasing shareholders’ inability to sue Treasury under the common law doc-
                                                trine of sovereign immunity559

                                                 On November 3, 2010, GM filed an amended registration statement that listed
                                             Treasury, the governments of Canada and Ontario, and the UAW VEBA Trust as
                                             selling stock holders of common stock, and GM as the sole seller of the MCP of-
                                             fered in the IPO.560 The prospectus included in the November 3, 2010, filing stated
                                             that GM’s Board of Directors had agreed to a three-for-one common stock split,
                                             which became effective November 1, 2010.561 The split increased GM’s common
                                                                                                                           quarterly report to congress I JANUARY 26, 2011   163




shares outstanding from 500 million to 1.5 billion. Of these outstanding shares,
Treasury’s 304.1 million in common shares split, to equal 912.4 million in shares
(60.8% ownership in the company).562

GM IPO Results and GM’s Repurchase of Series A Preferred Shares
from Treasury
On November 17, 2010, GM’s amended registration statement setting the
final price and size of the IPO was declared effective by the SEC. GM registered
549.7 million shares of common stock priced at $33.00 per share and 100 million
shares of Series B MCP priced at $50.00 per share, to include shares made avail-
able to cover the underwriters’ over-allotment option. Although GM did not sell any
shares of its common stock in the offering, it received $5.0 billion in proceeds from
its sale of MCP, which carry a 4.75% annual dividend rate. Each of these shares
will be converted automatically on December 1, 2013, into between 1.26 and 1.51
shares of GM’s common stock, subject to certain provisions.563
     According to Treasury, upon the exercising of the over-allotment options in
full on November 26, 2010, 549.7 million common shares had been sold for
$18.1 billion in gross proceeds, bringing the total offering proceeds to $23.1
billion including New GM’s sale of MCP.564 As part of the IPO, Treasury sold a
total of 412.3 million common shares for $13.5 billion in net proceeds (after taking
into account underwriting fees associated with the IPO), reducing its number of
shares to 500.1 million and its ownership in GM to 33.3%.565 Following the IPO,
on December 15, 2010, New GM repurchased Treasury’s $2.1 billion in Series
A preferred stock, for total proceeds of $2.14 billion.566 Table 2.39 shows the four
largest holders’ remaining common equity investments in GM pre- and post-IPO.


Table 2.39
 Common equity share holdings in GM prior to ipo and post-ipo,
 as of 12/31/2010
                                                                Shares Prior to IPO
Financial Institution                                               (w/o Warrants)                              Shares Post IPO
United States Department of the Treasury                                  912,394,068                                500,065,254
Canada GEN Investment Corp.                                               175,105,932                                140,084,746
UAW VEBA Trusta                                                           262,500,000                                160,150,000
Old GM Bondholdersb                                                       150,000,000                                150,000,000

Notes:
a
  Under the terms of the UST Credit Agreement, on July 10, 2009, the UAW VEBA Trust received a warrant to acquire an additional
  45,454,545 shares in GM common equity. The warrant is exercisable at any time prior to December 31, 2015, with an exercise price
  of $42.31 per share.
b
  Under the terms of the UST Credit Agreement, on July 10, 2009, the Old GM bondholders received two warrants, each to acquire
  136,363,635 shares in GM common equity. The first tranche of warrants issued to the Old GM bondholders is exercisable at any time
  prior to July 10, 2016, with an exercise price of $10.00 per share. The second tranche of warrants issued to MLC is exercisable at any
  time prior to July 10, 2019, with an exercise price of $18.33 per share.

Source: SEC, “General Motors: Amendment No. 9 to Form S-1,” 11/17/2010, www.sec.gov/Archives/edgar/data/1467858/
000119312510262471/ds1a.htm#rom45833_12, accessed 1/5/2011.
164                 special inspector general I troubled asset relief program




  Figure 2.14
                                                                      The breakdown of ownership in GM’s common equity following the IPO is shown
  POST-IPO OWNERSHIP IN NEW GM
                                                                      in Figure 2.14.
      Third-Party
       Investors
                                                                          To recoup its total investment in New GM, Treasury will need to recover an
                                                United States
                                                                      additional $27.1 billion in proceeds, which translates to an average of $54.28 per
                37%                   33%
                                                Department            share on its remaining common shares, not taking into account dividend or interest
                                                of the
                                                Treasury              payments received from New GM and other fees or costs associated with selling
                                                                      the shares.567 The break-even price — $54.28 per share — is calculated by dividing
                     10%            9%                                the $27.1 billion that Treasury extended to GM (but that was still outstanding after
                            11%
                                               Canada GEN             the IPO and repurchase of the Series A preferred shares [including a $41.9 million
          Old GM                               Investment
          Bondholders      UAW VEBA            Corporation            gain]) by the 500.1 million remaining shares. If the $778.3 million in dividend
                           Trust
                                                                      and interest payments received by Treasury is included in this computation, then
                                                                      Treasury will need to recover an additional $26.4 billion in proceeds, which trans-
  Notes: Numbers may not total due to rounding. Ownership             lates into a break-even price of $52.72 per share, not taking into account other
  percentages are shown prior to the exercising of any warrants for
  additional shares by the UAW or Old GM bondholders.                 fees or costs associated with selling the shares. The net break-even price — not
  Source: SEC, “General Motors Company: Amendment No. 9 to Form       including dividends and interest — before the IPO was $44.59 per share, making
  S-1 Registration Statement,” 12/3/2010, www.sec.gov/Archives/
  edgar/data/1467858/000119312510262471/ds1a.htm#rom458               the “loss,” or difference per share, $11.59 (with the IPO shares priced at $33.00)
  33_12.
                                                                      for a total of $4.8 billion. If dividends and interest are included, the “loss” would
                                                                      be $10.74 per share for a total of $4.4 billion.568 Table 2.40 provides a cost-basis
                                                                      analysis of Treasury’s remaining investments in GM following the IPO.
                                                                          Treasury and the other selling stockholders are restricted from selling additional


                                                                      Table 2.40

                                                                      Treasury holdings in General motors entities, Pre- and post-IPO
                                                                      and repurchase of preferred shares on a cost basis ($ BILLIONS)
                                                                                                                                                                   Post-IPO and
                                                                                                                          Pre-IPO                          Repurchase of Preferred Shares
                                                                                                           Old GM            New GM              Total         Old GM            New GM                Total
                                                                      Debt (Outstanding Loans)                   1.0                 0.0           1.0               1.0                 0.0             1.0
                                                                      Preferred Equity     a
                                                                                                                 0.0                 2.1           2.1               0.0                 0.0             0.0
                                                                      Common Equityb                             0.0               39.7          39.7                0.0               26.2            26.2
                                                                      Total                                      1.0               41.8          42.8                1.0               26.2            27.1

                                                                      Notes: Numbers may not total due to rounding.
                                                                      a
                                                                        On December 15, 2010, New GM repurchased 83.9 million Series A preferred shares for $2.14 billion, representing a $41.9 million
                                                                        gain on Treasury’s investment amount.
                                                                      b
                                                                        The dollar value of Treasury’s equity investment represents the cost basis of remaining loans made to GM pre- and post-bankruptcy
                                                                        minus all subsequent debt repayments, dividend and interest payments received, and proceeds from preferred share and common
                                                                        equity sales. Using the market value of Treasury’s remaining 500.1 million shares, the value of Treasury’s common equity investments
                                                                        was $18.4 billion as of December 31, 2010.

                                                                      Sources: Treasury, Transactions Report, 1/4/2011; Treasury Press Release, “General Motors Repays Taxpayer’s $2.1 billion, Completing
                                                                      Repurchase of Treasury Preferred Stock,” 12/15/2010, accessed 1/13/2010; SEC, “General Motors Company: Amendment No. 9 to
                                                                      Form S-1 Registration Statement,” 12/3/2010, accessed 12/13/2010; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s),
                                                                      www.capitaliq/com, accessed 1/12/2011.
                                                                                                                              quarterly report to congress I JANUARY 26, 2011   165




common shares for six months after November 17, 2010, subject to the terms of
the lock-up agreements described in the prospectus.569 As of the drafting of this
report, Treasury had not made a public statement articulating its specific plans for
the future disposition of its common stock holdings in New GM.

Chrysler
Through October 3, 2010, Treasury had made approximately $12.5 billion available
to Chrysler directly through AIFP in three stages to three corporate entities:
$4 billion before bankruptcy to CGI Holding LLC, the parent company of Old
Chrysler, the bankrupt entity; $1.9 billion in DIP financing to Old Chrysler during
bankruptcy; and $6.6 billion to New Chrysler, the company formed post-bankrupt-
cy that purchased most of Old Chrysler’s assets through a working capital facility.570
As of December 31, 2010, New Chrysler had drawn down only approximately
$4.6 billion of the $6.6 billion post-bankruptcy working capital facility it received
from Treasury.571
    On April 30, 2010, following the bankruptcy court’s approval of the liquidation
plan for Old Chrysler, the $1.9 billion DIP loan was extinguished without repay-
ment. In return, Treasury retained the right to recover proceeds from the sale of
assets that were collateral for the DIP loan from a liquidation trust that received
all of Old Chrysler’s remaining assets.572 As of December 31, 2010, Treasury had
recovered approximately $48.1 million from asset sales.573 Of the $4 billion lent to
Old Chrysler’s parent company, CGI Holding LLC, before bankruptcy, $500 mil-
lion of the debt was assumed by New Chrysler while the remaining $3.5 billion was
held by CGI Holding LLC.574 On May 14, 2010, CGI Holding LLC repaid $1.9 bil-
lion of the $3.5 billion loan in full satisfaction of its outstanding obligations under
Table 2.41

Treasury holdings in the Chrysler entities, AS OF 12/31/2010                                                               ($ BILLIONS)
                                             Initial                                                                 Outstanding
Original Treasury                      Investment             Subsequent                                    Treasury Investments
Commitment                                Amount              Transactions                                      in New Chryslera
                                                $4.0         $0.5 transferred to New Chrysler                                        $0.5
Pre-Bankruptcy Loan to
CGI Holding LLC                                              1.9 repaid to Treasury                                                    0.0
                                                             1.6 Unpaidb                                                               1.6
DIP Financing to                                  1.9        0.05 repaid to Treasury                                                   0.0
Old Chrysler                                                 1.84 Unpaidb                                                            1.84
Loan to New Chrysler                             4.6c        None                                                                      4.6
Total                                                                                                                                $8.5

Notes: Numbers may not total due to rounding.
a
  This column represents the total dollar value of funding provided to Chrysler that would be required to be paid back in order for Treasury
to break even on its investments in the company.
b
  Treasury received a 9.9% common equity stake in New Chrysler upon execution of the $6.642 billion post-bankruptcy loan agreement in
consideration for loans it had extended to Chrysler.
c
  As of December 31, 2010, Chrysler had not drawn down $2.07 billion of the $6.642 billion post-bankruptcy loan it received from
Treasury.

Source: Treasury, Transactions Report, 12/31/2010.
166             special inspector general I troubled asset relief program




                                                                   AIFP.575 In consideration for its assistance to Chrysler, Treasury received 9.9%
                                                                   of the common equity in New Chrysler. Additionally, Treasury holds
                                                                   $7.1 billion in loans, composed of the $6.6 billion in post-bankruptcy financing
                                                                   (including $2.07 billion in undrawn obligations) and the $500 million in debt as-
                                                                   sumed by New Chrysler from the original $4 billion loan to CGI Holding LLC.576
                                                                   Table 2.41 provides the status of Treasury’s original investments in the Chrysler
                                                                   entities.
                                                                       On July 10, 2009, as part of the AWCP wind-down, Treasury received a pay-
                                                                   ment from CGI Holding LLC of approximately $280.1 million for principal it had
                                                                   received through AWCP upon New Chrysler’s exit from bankruptcy.577
                                                                       On April 7, 2010, as part of the scheduled termination of ASSP, Treasury
                                                                   received payment from New Chrysler for the full $123.1 million in principal it
                                                                   had received through the program as well as $50.3 million in additional fees and
                                                                   interest.578
                                                                       On January 10, 2011, Fiat North America LLC (“Fiat”) automatically increased
                                                                   its ownership of New Chrysler’s common equity from 20% to 25% by meeting
                                                                   a Government requirement to build a new fuel-efficient engine in the United
                                                                   States.579 Fiat has the opportunity to increase its stake to 35% upon the successful
                                                                   completion of two additional performance-related criteria. Following the increase
                                                                   in Fiat’s ownership stake in New Chrysler, Treasury’s ownership interest in New
                                                                   Chrysler’s common equity decreased from 9.9% to 9.2%, with the remaining owner-
  Figure 2.15
                                                                   ship split between the UAW VEBA Trust’s 63.5% and the Canadian Government’s
  OWNERSHIP IN NEW CHRYSLER
                                                                   2.3%.580 Figure 2.15 represents the allocation of ownership in New Chrysler’s com-
  Government of Canada 2%                                          mon equity following the increase in Fiat’s ownership. The ownership percentages
  United States                                                    shown in Figure 2.15 will change if Fiat meets additional performance criteria, and
  Department of the
  Treasury
                                                                   exercises an option to purchase additional equity, which could eventually result in
                         9%                                        Fiat increasing its ownership interest from 25% to 51%.581 However, Fiat’s owner-
                                                                   ship is capped at 49.9% until the loans to the U.S. and Canadian governments are
         Fiat   25%                                                repaid in full.582 Table 2.42 below shows these potential increases in Fiat’s owner-
                                                    UAW
                                          64%       VEBA           ship of Chrysler.
                                                    Trust

                                                                   Table 2.42

                                                                   potential Fiat stakeholder actions and equity stake
  Notes: Numbers may not total due to rounding. Ownership          Action                                                                                        Increase in Equity of Chrysler
  percentages are shown prior to Fiat meeting additional           Sales and Revenue Growth Outside of NAFTA                                                                                             5%
  performance metrics, which would allow it to increase its
  ownership in New Chrysler.                                       Develop a 40 MPG vehicle with Fiat technology                                                                                         5%
  Source: Treasury, response to SIGTARP draft report, 1/14/2011.   Option to acquire interest after Fiat’s aggregate principal
                                                                                                                                                                                                         16%
                                                                   amount of Government loans falls below $4 billion

                                                                   Notes: In any of the events above, Fiat’s ownership interest will increase through dilution of the other members’ equity interests.
                                                                   Until the Government loans have been repaid in full, Fiat cannot obtain a majority stake in the company.

                                                                   Source: Chrysler Group LLC, “Chrysler Group LLC 2009 Audited Financial Statement,” 4/21/2010, www.chryslergroupllc.com/news/
                                                                   archive/2010/04/21/2009_audited_financial_statement, accessed 10/18/2010.
                                                                              quarterly report to congress I JANUARY 26, 2011   167




    As of December 31, 2010, New Chrysler had made approximately $511.3 million
in quarterly interest payments to Treasury.583

Automotive Financing Companies
Ally Financial/GMAC
On December 29, 2008, Treasury purchased $5 billion in senior preferred equity
from GMAC and received an additional $250 million in preferred shares through
warrants that Treasury exercised immediately at a cost of $2.5 million.584 On the
same day, Treasury also agreed to lend up to $1 billion to Old GM in order to
increase Old GM’s ownership interest in GMAC. In January 2009, Old GM bor-
rowed $884 million, which it invested in GMAC.585 In May 2009, Treasury ex-
changed that $884 million note for a 35.4% common equity ownership in GMAC,
thereby giving Treasury the right to appoint two directors to GMAC’s board.586
    On May 21, 2009, Treasury made an additional investment in GMAC when it
purchased $7.5 billion of MCP and received warrants that Treasury immediately
exercised for an additional $375 million in MCP at an additional cost of approxi-
mately $75,000.587 On December 30, 2009, Treasury invested another $3.8 billion
in GMAC, consisting of approximately $2.5 billion in trust preferred securities
(“TRUPS”) and approximately $1.3 billion in MCP. Treasury also received war-
rants, which were immediately exercised, to purchase an additional $127 million in
TRUPS and $62.5 million in MCP at an additional cost of approximately $1,270
and $12,500, respectively.588 Additionally, Treasury converted $3 billion of its
MCP into GMAC common stock, increasing its common equity ownership from
35.4% to 56.3%. This gave Treasury the right to appoint two additional directors to
GMAC’s board, potentially bringing the total number of Treasury-appointed direc-
tors to four.589 On May 10, 2010, GMAC changed its name to Ally Financial Inc.590
    On December 30, 2010, Treasury announced the conversion of $5.5 billion of
its MCP in Ally Financial to common equity. This conversion increased Treasury’s
ownership stake in Ally Financial’s common equity from 56.3% to 73.8%. In addi-
tion, Treasury continues to hold $5.9 billion of MCP and $2.7 billion in TRUPS.
According to Treasury, the rate at which it completed its most recent conversion
of MCP to common shares in Ally Financial was determined according to Ally’s
unaudited quarterly financial statement as of September 30, 2010. According to
Treasury, the conversion aims to stabilize Ally Financial through the addition of
common equity to its capital structure and allowing it easier access to both eq-
uity and debt financing in private capital markets. The move is also intended to
facilitate any future efforts on the part of Treasury to reduce its investment in Ally
Financial through the sale of its common equity holdings in the company.591 As
a result, Treasury will no longer receive the quarterly dividend payments that Ally
Financial was required to pay on the $5.5 billion of MCP.
168              special inspector general I troubled asset relief program




                                                                         As a result of the conversion, Treasury has the right to appoint two additional
                                                                     directors, for a total of six, to Ally Financial’s board, and the size of the board will
                                                                     be increased to 11 members.592 As of December 31, 2010, Treasury has appointed
                                                                     three directors but has not exercised its right to fill its remaining three director
                                                                     positions.593 Treasury is currently vetting candidates and expects to name the fourth
                                                                     director in January 2011.594 The conversion of $5.5 billion of Treasury’s MCP di-
                                                                     luted the shares of other existing shareholders in Ally Financial. Following the con-
                                                                     version, the private equity firm Cerberus Capital Management, L.P. (“Cerberus”)
                                                                     held 8.9%, third-party investors collectively held 7.4%, an independently managed
  Figure 2.16                                                        trust owned by New GM held 5.9%, and New GM directly held a 4.0% stake in Ally
  OWNERSHIP IN ALLY FINANCIAL/GMAC                                   Financial’s common equity.595 Figure 2.16 shows the breakdown of common equity
                                                                     ownership in Ally Financial as of December 31, 2010.
                 New GM 4%
      GM Trust
                                                                         As of December 31, 2010, Treasury had invested a total of approximately
  Third-Party                                                        $17.2 billion in GMAC for 73.8% of Ally Financial’s common stock, $2.54 bil-
   Investors             6%
                    7%                                               lion in TRUPS, and $5.3 billion in MCP securities.596 In return for its investment,
  Cerberus       9%                                  United States   Treasury was also granted warrants, which it executed immediately at a cost of
                                           74%       Department      $91,285, to purchase securities with a par value of approximately $815 million:
                                                     of the
                                                     Treasury        $250 million in preferred shares (which were later converted to MCP), $438 mil-
                                                                     lion in additional MCP, and $127 million in TRUPS. This brings Treasury’s total
                                                                     holdings in Ally Financial securities to a par value of approximately $18.0 billion,
                                                                     for which it expended approximately $17.2 billion in TARP funds.597 Table 2.43
  Note: Numbers may not total due to rounding.
                                                                     summarizes Treasury’s Ally Financial holdings.
  Source: SEC, “Ally Financial: Form 8-K,” 12/10/2010; SEC, “Ally
  Financial: Form 8-K,” 10/5/2010                                        As of December 31, 2010, Ally Financial had made approximately $2.0 billion
                                                                     in dividend and interest payments to Treasury.598

                                                                     Table 2.43

                                                                      Treasury holdings in Ally Financial (formerly GMAC)
                                                                      AS OF 9/30/2010 and 12/31/2010 ($ BILLIONS)
                                                                                                                                                      9/30/10 Total                     12/31/10 Total
                                                                     Mandatorily Convertible Preferred Shares (MCP)a                                               $11.4                                 $5.9
                                                                     Trust Preferred Securities (TRUPS)            b
                                                                                                                                                                       2.7                                 2.7
                                                                     Common Equity                                                                                    3.9c                                9.4d
                                                                     Totale                                                                                        $18.0                               $18.0
                                                                     Notes: Numbers affected by rounding.
                                                                     a
                                                                       This figure includes three separate tranches of MCP acquired via the exercise of warrants: $250 million in warrants that were exercised
                                                                       to acquire preferred shares that were later converted to MCP on December 30, 2009, $375 million in MCP warrants exercised on May
                                                                       21, 2009, and $63 million in MCP warrants exercised on December 30, 2009.
                                                                     b
                                                                       This figure includes $127 million in warrants exercised on December 30, 2009.
                                                                     c
                                                                       The dollar value of Treasury’s 56.3% stake in Ally Financial’s common equity is based on the costs to acquire such a stake, including the
                                                                       conversion of the GM rights loan of $884 million in May 2009 and the $3 billion of MCP in December 2009.
                                                                     d
                                                                       The dollar value of Treasury’s 73.8% stake in Ally Financial’s common equity is based on the costs to acquire such a stake, including
                                                                       the conversion of the GM rights loan of $884 million in May 2009, the $3 billion of MCP in December 2009, and the $5.5 billion of
                                                                       MCP in December 2010.
                                                                     e
                                                                       This figure includes $815 million in shares acquired by the exercise of the warrants discussed above. These warrants were exercised
                                                                       at an aggregate cost of $16,270 to the taxpayer.

                                                                     Sources: For aggregate holdings, see Treasury Press Release, “Treasury Converts Nearly Half of its Ally Preferred Shares to Common
                                                                     Stock,” 12/30/2010, www.treasury.gov/press-center/press-releases/Pages/tg1014.aspx, accessed 1/3/2011 and Ally Financial, Form
                                                                     8-K, 1/5/2010, http://biz.yahoo.com/e/100105/gjm8-k.html, accessed 9/29/2010.
                                                                              quarterly report to congress I JANUARY 26, 2011   169




Chrysler Financial
In January 2009, Treasury loaned Chrysler Financial $1.5 billion under AIFP to
support Chrysler Financial’s retail lending. On July 14, 2009, Chrysler Financial
fully repaid the loan in addition to approximately $7.4 million in interest
payments.599

Auto Supplier Support Program (“ASSP”)
On March 19, 2009, Treasury announced a commitment of $5.0 billion to ASSP to
“help stabilize the automotive supply base and restore credit flows in a critical sec-
tor of the American economy.”600 Because of concerns about the auto manufactur-
ers’ ability to pay their invoices, suppliers had not been able to borrow from banks
by using their receivables as collateral. ASSP enabled automotive parts suppliers to
access Government-backed protection for money owed to them for the products
they shipped to manufacturers.
    The total commitment of $5.0 billion was reduced to $3.5 billion on July 8,
2009 — $2.5 billion for GM and $1.0 billion for Chrysler.601 Of the $3.5 billion
reduced commitment to GM and Chrysler, approximately $413.1 million was actu-
ally expended. Because the actual expenditure was lower than initially anticipated,
Treasury reduced its obligation under ASSP to $413.1 million. Treasury received
a total of $413.1 million in ASSP loan repayments — $290.0 million from GM
and approximately $123.1 million from Chrysler.602 Additionally, Treasury received
$115.9 million in fees and interest payments — $65.6 million from GM and
$50.3 million from Chrysler.603 ASSP was terminated on April 5, 2010, for GM and
April 7, 2010, for Chrysler.604 All loans made under this program have been repaid
with interest.

Auto Warranty Commitment Program (“AWCP”)
AWCP was designed to bolster consumer confidence by guaranteeing Chrysler
and GM vehicle warranties during the companies’ restructuring in bankruptcy.605
Treasury funded $640.7 million toward this program — $360.6 million for GM
and $280.1 million for Chrysler.606 On July 10, 2009, the companies fully repaid
Treasury upon their exit from bankruptcy.607
170            special inspector general I troubled asset relief program




                                                      EXECUTIVE COMPENSATION
                                                      TARP recipients are subject to executive compensation restrictions. The original
                                                      executive compensation rules set forth in Section 111 of EESA were amended in
                                                      February 2009 in the American Recovery and Reinvestment Act of 2009 (“ARRA”)
                                                      and have been interpreted and implemented by Treasury regulations and notices.608
                                                      On June 10, 2009, Treasury released its Interim Final Rule on TARP Standards for
                                                      Compensation and Corporate Governance (the “Rule”), which “implement[s] the
                                                      ARRA provisions, consolidates all of the executive-compensation-related provisions
                                                      that are specifically directed at TARP recipients into a single rule (superseding
      Exceptional Assistance Recipients:              all prior rules and guidance), and utilizes the discretion granted to the [Treasury]
      Companies that receive assistance               Secretary under the ARRA to adopt additional standards, some of which are adapt-
      under SSFI, TIP, and AIFP. Current              ed from principles set forth” in guidance provided by Treasury in February 2009.609
      recipients are AIG, Chrysler, GM, and               The Rule applies to institutions that meet its definition of a TARP recipient as
      Ally Financial (formerly GMAC).                 well as any entity that owns at least 50% of any TARP recipient. As long as a TARP
                                                      recipient has an outstanding “obligation” to Treasury (as defined by ARRA, this
                                                      does not include warrants to purchase common stock), it must abide by the Rule.610
      For more information on the Rule and            The Rule also specifically subjects exceptional assistance recipients to enhanced
      a summary of the timeline of TARP               restrictions designed to “maximize long-term shareholder value and protect taxpayer
      executive compensation restrictions, see        interests.”611
      SIGTARP’s July 2009 Quarterly Report,               Some program participants are exempt from the Rule:
      page 118.

      For more information on executive               •	 TALF recipients, because they did not directly receive TARP assistance (instead,
      compensation issues and findings, refer            TARP funds are available to purchase collateral surrendered to TALF)612
      to SIGTARP audits: “Despite Evolving            •	 PPIFs, because they have no employees. In addition, PPIF investors and asset
      Rules on Executive Compensation,                   managers are exempt because the program’s terms prohibit any single private
      SIGTARP Survey Provides Insights                   entity from owning more than 9.9% of any such fund and, therefore, fall below
      on Compliance,” issued August 19,
                                                         the 50% ownership threshold613
      2009, and “Extent of Federal Agencies’
      Oversight of AIG Compensation Varied,           •	 Making Home Affordable (“MHA”) program participants, because they are
      and Important Challenges Remain,” is-              statutorily exempt
      sued October 14, 2009.
                                                      Special Master
                                                      Treasury created the Office of the Special Master for TARP Executive
                                                      Compensation on June 15, 2009, and appointed Kenneth R. Feinberg to the posi-
                                                      tion of Special Master; Mr. Feinberg was succeeded by Ms. Patricia Geoghegan,
      Senior Executive Officers (“SEOs”):
                                                      who became Acting Special Master on September 10, 2010.614 The Special Master’s
      “Named executive officers” of TARP re-
                                                      responsibilities include the following:615
      cipients as defined under Federal secu-
      rities law, which generally includes the
      principal executive officer, the principal      •	 Top 25 Reviews — review and approve compensation structures and payments
      financial officer, and the next three              for the five senior executive officers (“SEOs”) and the next 20 most highly paid
      most highly compensated officers.                  employees at institutions that received exceptional financial assistance
                                                                                quarterly report to congress I JANUARY 26, 2011              171




•	 Top 26 through 100 Reviews — review and approve compensation structures
   for the next 75 highest-paid employees at institutions that received exceptional
   financial assistance (employees who are not in the top 25 but are executive of-
   ficers or among the top 100 most highly compensated employees fall into this
   category)
                                                                                                 The Special Master “Look Back”
•	 Prior Payment Reviews — review bonuses, retention awards, and other com-                      Review was completed on July 23,
   pensation paid to SEOs and the 20 next most highly compensated employees of                   2010, and is discussed in SIGTARP’s
   each entity that received TARP assistance from the date the entity first received             October 2010 Quarterly Report on
   TARP assistance until February 17, 2009, and seek to negotiate reimbursements                 pages 153-154.
   where the payment was determined to be inconsistent with the purposes of
   EESA or TARP, or otherwise contrary to the public interest
•	 Interpretation — provide advisory opinions with respect to the Rule’s applica-               Public Interest: Regulatory standard
                                                                                                that the Special Master is required
   tion and whether compensation payments and structures were consistent with
                                                                                                to apply in making determinations. It
   the purposes of EESA or TARP, or otherwise contrary to the public interest
                                                                                                refers to the determination of whether
                                                                                                TARP-recipient compensation plans are
Exceptional Assistance Recipients                                                               aligned with the best interests of the
As of December 31, 2010, only AIG, Chrysler, GM, and Ally Financial (formerly                   U.S. taxpayer, based on a balancing of
GMAC) were still considered exceptional assistance recipients.616 Citigroup and                 specific principles set forth in the Rule.
Bank of America had been considered exceptional assistance recipients because
each participated in TIP, but they no longer fall under this designation because of
repayments each made in December 2009.617 Citigroup was released from all of                     For the specific principles used in
its obligations under the Rule after Treasury completed the sale of its remaining                reviewing compensation plans, see
Citigroup common stock holdings in December 2010.618 Chrysler Financial was                      SIGTARP’s July 2009 Quarterly
released from all its obligations under the Rule after it repaid its $1.5 billion loan           Report, pages 122–123.
under AIFP and its parent company, CGI Holding LLC, repaid $1.9 billion of its
original $4 billion TARP loan under AIFP to Treasury on May 14, 2010, in full
satisfaction of its outstanding obligations to Treasury.619
172   special inspector general I troubled asset relief program
               TARP OPERATIONS AND
S ec tio n 3
               ADMINISTRATION
174   special inspector general I troubled asset relief program
                                                                                        quarterly report to congress I january 26, 2011   175




Under the Emergency Economic Stabilization Act of 2008 (“EESA”), Congress
authorized the Secretary of the Treasury (“Treasury Secretary”) to create the
operational and administrative mechanisms to carry out the Troubled Asset Relief
Program (“TARP”). EESA established the Office of Financial Stability (“OFS”)
within the U.S. Department of the Treasury (“Treasury”). OFS is responsible for
administering TARP.620 Treasury has authority to establish program vehicles, issue
regulations, directly hire or appoint employees, enter into contracts, and designate
financial institutions as financial agents of the Government.621 In addition to using
permanent and interim staff, OFS relies on contractors and financial agents for
legal services, investment consulting, accounting, and other key services.


TARP Administrative and Program
Expenditures
According to Treasury, as of December 31, 2010, it had spent $159.9 million on
TARP administrative costs and $481.4 million on programmatic expenditures, for
a total of $641.4 million. As of December 31, 2010, Treasury has obligated
$194.0 million for TARP administrative costs and $788.4 million in programmatic
expenditures for a total of $982.4 million.622 Treasury reported that it has employed
97 career civil servants, 121 term appointees, and 33 detailees, for a total of 251 full-
time employees.623 Table 3.1 provides a summary of the expenditures and obligations
for TARP administrative costs through December 31, 2010. These costs are catego-
rized as “personnel services” and “non-personnel services,” with a few exceptions.


Table 3.1

TARP Administrative expenditures and obligations                    (continued)
                                           Obligations for Period   Expenditures for Period
Budget Object Class Title
                                            Ending 12/31/2010          Ending 12/31/2010
Personnel Services
Personnel Compensation & Services                   $52,472,809                   $52,246,279
Total Personnel Services                           $52,472,809                    $52,246,279


Non-Personnel Services
Travel & Transportation of Persons                     $912,003                       $894,706
Transportation of Things                                  11,960                         11,960
Rents, Communications, Utilities & Misc.                753,885
                                                                                       461,529
Charges
Printing & Reproduction                                      395                             395
Other Services                                      138,895,064                   105,402,551
                                                                            Continued on next page.
176   special inspector general I troubled asset relief program




                                             TARP Administrative expenditures and obligations                                                (continued)
                                                                                                   Obligations for Period                     Expenditures for Period
                                             Budget Object Class Title
                                                                                                    Ending 12/31/2010                            Ending 12/31/2010
                                             Supplies & Materials                                                      711,721                                      702,371
                                             Equipment                                                                 232,054                                      222,675
                                             Land & Structures                                                                  —                                            —
                                             Dividends and Interest                                                            29                                           29
                                             Total Non-Personnel Services                                     $141,517,111                                 $107,696,216
                                             Grand Total                                                      $193,989,920                                 $159,942,495

                                             Notes: Numbers affected by rounding. The cost associated with “Other Services” under TARP Administrative Expenditures and Obliga-
                                             tions iscomposed of administrative services including financial, administrative, IT, and legal (non-programmatic) support.

                                             Source: Treasury, response to SIGTARP data call, 1/7/2011.




                                                Table 3.2 provides a summary of the programmatic expenditures, which include
                                             costs to hire financial agents and contractors, and obligations through December
                                             31, 2010.



                                             Current Contractors and Financial
                                             Agents
                                             As of December 31, 2010, Treasury had retained 73 private vendors: 16 financial
                                             agents and 57 contractors, to help administer TARP.624 Table 3.2 lists service pro-
                                             viders retained as of December 31, 2010. Although Treasury informed SIGTARP
                                             that it “does not track” the number of individuals who provide services under its
                                             agreements, the number likely dwarfs the 251 that Treasury has identified as work-
                                             ing for OFS.625 For example, on October 14, 2010, the Congressional Oversight
                                             Panel (“COP”) reported that “Fannie Mae alone currently has 600 employees work-
                                             ing to fulfill its TARP commitments.”626 To streamline and expedite contract solici-
                                             tation, EESA allowed the Treasury Secretary to waive specific Federal Acquisition
                                             Regulations for urgent and compelling circumstances.627
                                                                                           quarterly report to congress I january 26, 2011       177




Table 3.2

OFS SERVICE CONTRACTS           (CONTINUED)                                                                                                   
                                                                                            Type of                Obligated       Expended
Date         Vendor                                 Purpose                                 Transaction                Value           Value
                                                    Legal services for the
10/10/2008   Simpson Thacher & Bartlett MNP LLP                                             Contract               $931,090         $931,090
                                                    implementation of TARP
10/11/2008   Ennis Knupp & Associates Inc           Investment and Advisory Services        Contract               2,715,965       2,470,242
             The Bank of New York Mellon
10/14/2008                                          Custodian                               Financial Agent       37,203,764      25,164,758
             Corporation
10/16/2008   PricewaterhouseCoopers                 Internal control services               Contract              31,017,937      24,849,026
                                                    For Process Mapping Consulting          Interagency
10/17/2008   Turner Consulting Group, Inc.                                                                             9,000                 —
                                                    Services                                Agreement
10/18/2008   Ernst & Young LLP                      Accounting Services                     Contract              13,997,968      11,312,846
                                                    Legal services for the Capital
10/29/2008   Hughes Hubbard & Reed LLP                                                      Contract               3,060,921       2,835,357
                                                    Purchase Program
                                                    Legal services for the Capital
10/29/2008   Squire, Sanders & Dempsey LLP                                                  Contract               5,787,939       2,687,999
                                                    Purchase Program
10/31/2008   Lindholm & Associates, Inc             Human resources services                Contract                 751,302         614,963
                                               Legal services related to auto
11/7/2008    Sonnenschein Nath & Rosenthal LLP                                              Contract               2,722,326       2,702,441
                                               industry loans
                                                                                            Interagency
11/9/2008    Internal Revenue Service (IRS)         Detailees                                                         97,239          97,239
                                                                                            Agreement
                                                                                            Interagency
11/14/2008   Internal Revenue Service (IRS)         CSC Systems & Solutions LLC                                        8,095            8,095
                                                                                            Agreement
             Department of the Treasury -                                                   Interagency
11/25/2008                                          Administrative Support                                        16,512,820      15,394,425
             Departmental Offices                                                           Agreement
             Alcohol and Tobacco Tax and            IAA - TTB Development, management Interagency
12/3/2008                                                                                                             67,489          67,489
             Trade Bureau                           and operation of SharePoint       Agreement
                                                                                            Interagency
12/5/2008    Washington Post                        Subscription Service for 4 users                                     395                 —
                                                                                            Agreement
12/10/2008   Thacher Proffitt & Wood                Legal Advisory - Auto Industry          Contract                       —                 —
                                                    Legal Services for the purchase
12/10/2008   Sonnenschein Nath & Rosenthal LLP                                              Contract                 249,999         102,769
                                                    of asset-backed securities
                                                                                            Interagency
12/15/2008   Office of Thrift Supervision (OTS)     Detailees                                                        225,547         164,823
                                                                                            Agreement
             Department of Housing and Urban                                                Interagency
12/16/2008                                          Detailees                                                        142,863         124,773
             Development                                                                    Agreement
                                                                                            Interagency
12/22/2008   Office of Thrift Supervision (OTS)     Detailees                                                        103,871                 —
                                                                                            Agreement
12/24/2008   Cushman and Wakefield of VA Inc        Painting Services for TARP Offices      Contract                   8,750            8,750
             Securities and Exchange                                                        Interagency
1/6/2009                                            Detailees                                                         30,417          30,416
             Commission U.S.                                                                Agreement
1/7/2009     Colonial Parking Inc.                  Lease of parking spaces                 Contract                 275,650         127,146
1/27/2009    Cadwalader Wickersham & Taft LLP       Bankruptcy Legal Services               Contract                 409,955         409,955
1/27/2009    Whitaker Brothers Bus Machines Inc     Paper Shredder                          Contract                   3,213            3,213
                                                                                            Interagency
1/30/2009    Comptroller of the Currency            Detailees                                                        561,568         501,118
                                                                                            Agreement
                                                   IAA - GAO required by P.L. 110-343
                                                                                            Interagency
2/2/2009     U.S. Government Accountability Office to conduct certain activities related                           7,459,049       7,459,049
                                                                                            Agreement
                                                   to TARP
                                                                                            Interagency
2/3/2009     Internal Revenue Service               Detailees                                                        242,499         242,499
                                                                                            Agreement
                                                                                                                       Continued on next page.
178          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS            (CONTINUED)                                                                                          
                                                                                               Type of             Obligated      Expended
      Date        Vendor                                Purpose                                Transaction             Value          Value
                                                        Temporary Services for Document
      2/9/2009    Pat Taylor & Associates, Inc          Production, FOIA Assistance, and       Contract            $692,108        $692,108
                                                        Program Support
                                                        Initiate Interim Legal Services in sup-
      2/12/2009   Locke Lord Bissell & Liddell LLP      port of Treasury Investments under      Contract            272,243         272,243
                                                        EESA
                                                        Homeownership Preservation
      2/18/2009   Fannie Mae                                                                   Financial Agent   254,202,000    145,311,940
                                                        Program
                                                        Homeownership Preservation
      2/18/2009   Freddie Mac                                                                  Financial Agent   156,744,000     88,327,693
                                                        Program
      2/20/2009   Simpson Thacher & Bartlett MNP LLP Capital Assistance Program (I)            Contract            2,047,872      1,530,023
                                                        Capital Assistance Program (II) Legal
      2/20/2009   Venable LLP                                                                 Contract             1,394,724      1,394,724
                                                        Services
                                                                                               Interagency
      2/20/2009   Financial Clerk U.S. Senate           Congressional Oversight Panel                              3,394,348      3,394,348
                                                                                               Agreement
                                                                                               Interagency
      2/20/2009   Office of Thrift Supervision (OTS)   Detailees                                                    226,931         189,533
                                                                                               Agreement
                                                                                               Interagency
      2/26/2009   Securities and Exchange Commission Detailees                                                       18,531          18,531
                                                                                               Agreement
                                                                                               Interagency
      2/27/2009   Pension Benefit Guaranty Corporation Rothschild, Inc.                                            7,750,000      7,750,000
                                                                                               Agreement
                                                       Management Consulting relating to
      3/6/2009    The Boston Consulting Group                                                  Contract             991,169         991,169
                                                       the Auto industry
      3/16/2009   Earnest Partners                     Small Business Assistance Program       Financial Agent     2,550,000      1,917,915
                                                                                               Interagency
      3/23/2009   Heery International Inc.             Architects                                                         —               —
                                                                                               Agreement
      3/30/2009   Cadwalader Wickersham & Taft LLP     Auto Investment Legal Services          Contract           17,482,165     17,392,786
      3/30/2009   Haynes and Boone, LLP                Auto Investment Legal Services          Contract             345,746         345,746
      3/30/2009   Sonnenschein Nath & Rosenthal LLP Auto Investment Legal services             Contract            1,834,193      1,834,193
                                                       SBA Initiative Legal Services - Con-
      3/30/2009   Bingham McCutchen LLP                tract Novated to TOFS-10-D-0001         Contract             149,349         126,631
                                                       with Bingham McCutcheon
      3/31/2009   FI Consulting Inc                    Credit Reform Modeling and Analysis Contract                1,867,047      1,711,031
                                                                                               Interagency
      4/3/2009    American Furniture Rentals Inc.      Facilities - furniture rental                                 35,187          25,808
                                                                                               Agreement
                                                       Management Consulting relating to
      4/3/2009    The Boston Consulting Group                                                  Contract            4,100,195      4,099,923
                                                       the Auto industry
      4/17/2009   Herman Miller, Inc                   Aeron Chairs                            Contract              53,799          53,799
                                                                                               Interagency
      4/17/2009   Bureau of Engraving and Printing     Detailees                                                     45,822          45,822
                                                                                               Agreement
      4/21/2009   AllianceBernstein LP                 Asset Management Services               Financial Agent    33,288,445     23,917,820
      4/21/2009   FSI Group, LLC                       Asset Management Services               Financial Agent    18,212,500     12,639,338
      4/21/2009   Piedmont Investment Advisors, LLC    Asset Management Services               Financial Agent     8,955,000      5,967,375
                                                                                               Interagency
      4/30/2009   Department of State                  Detailees                                                     45,492          45,492
                                                                                               Agreement
                                                                                               Interagency
      5/5/2009    Federal Reserve Board                Detailees                                                     48,422          48,422
                                                                                               Agreement
                                                                                                                      Continued on next page.
                                                                                       quarterly report to congress I january 26, 2011        179




OFS SERVICE CONTRACTS         (CONTINUED)                                                                                                 
                                                                                         Type of                Obligated       Expended
Date        Vendor                              Purpose                                  Transaction                Value           Value
            Department of the Treasury – U.S.   “Making Home Affordable” Logo            Interagency
5/13/2009                                                                                                           $975             $325
            Mint                                Search                                   Agreement
                                                Executive Search Services - Chief
5/14/2009   KnowledgeBank Inc.                                                           Contract                124,340          124,340
                                                Homeownership Officer
                                                Freedom of Information Act (FOIA)
5/15/2009   Phacil, Inc                                                                  Contract                103,425           90,301
                                                Analysts
                                                                                         Interagency
5/20/2009   Securities and Exchange Commission Detailees                                                         430,000          430,000
                                                                                         Agreement
                                                                                         Interagency
5/22/2009   Department of Justice - ATF         Detailees                                                        243,778          243,740
                                                                                         Agreement
                                                Legal services for work under
5/26/2009   Anderson, McCoy & Orta              Treasury’s Public Private Investment     Contract              4,068,834        2,300,434
                                                Funds (PPIF) program
                                               Legal services for work under
5/26/2009   Simpson Thacher & Bartlett MNP LLP Treasury’s Public Private Investment      Contract              7,849,026        3,413,653
                                               Funds (PPIF) program
                                                                                         Interagency
6/9/2009    Financial Management Services       Gartner, Inc.                                                     93,292           89,436
                                                                                         Agreement
                                                                                         Interagency
6/29/2009   Department of the Interior          Federal Consulting Group (Foresee)                                49,000           49,000
                                                                                         Agreement
                                                Payment to liquidate claim - contract Interagency
7/15/2009   Judicial Watch                                                                                          1,500            1,500
                                                protest                               Agreement
                                                Executive search services for the
7/17/2009   Korn/Ferry International                                                  Contract                    75,017           75,017
                                                OFS Chief Investment Officer position
7/30/2009   Cadwalader Wickersham & Taft LLP    Restructuring Legal Services             Contract              2,049,979        1,278,696
7/30/2009   Debevoise & Plimpton LLP            Restructuring Legal Services             Contract                159,175             1,683
            Fox, Hefter, Swibel, Levin &
7/30/2009                                       Restructuring Legal Services             Contract                 84,125           24,770
            Carol, LLP
                                                                                         Interagency
8/10/2009   Department of Justice - ATF         Detailees                                                         63,218           54,679
                                                                                         Agreement
            National Aeronautics and Space                                               Interagency
8/10/2009                                       Detailees                                                        146,986          140,889
            Administration (NASA)                                                        Agreement
                                                Executive Compensation Data
8/18/2009   Mercer LLC                                                                   Contract                   3,000            3,000
                                                Subscription
                                                                                         Interagency
8/25/2009   Department of Justice - ATF         Detailees                                                         63,494           63,248
                                                                                         Agreement
9/2/2009    Knowledge Mosaic Inc.               SEC filings subscription service         Contract                   5,000            5,000
                                                Executive Compensation Data
9/10/2009   Equilar, Inc.                                                                Contract                 59,990           59,990
                                                Subscription
9/11/2009   PricewaterhouseCoopers              PPIP compliance                          Contract              1,448,537        1,365,137
                                                                                         Interagency
9/18/2009   Treasury Franchise Fund             BPD                                                              436,054          436,054
                                                                                         Agreement
                                                                                         Interagency
9/30/2009   Immixtechnology Inc.                EnCase eDiscovery ProSuite                                       210,184                 —
                                                                                         Agreement
                                                                                         Interagency
9/30/2009   Immixtechnology Inc.                Guidance Inc                                                     108,000                 —
                                                                                         Agreement
                                                                                                                    Continued on next page.
180          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS            (CONTINUED)                                                                                           
                                                                                                 Type of            Obligated      Expended
      Date         Vendor                                 Purpose                                Transaction            Value          Value
      9/30/2009    NNA INC.                               Newspaper delivery                     Contract             $8,479          $8,220
                                                          SNL Unlimited, a web-based
      9/30/2009    SNL Financial LC                                                              Contract            260,000         260,000
                                                          financial analytics service
                                                          SBA Initiative Legal Services - Con-
      11/2/2009    Bingham McCutchen LLP1                 tract Novated from TOFS-09-D-0005      Contract            273,006         143,893
                                                          with McKee Nelson
                   Department of the Treasury -                                                  Interagency
      11/29/2009                                          Administrative Support                                   23,682,061     16,636,521
                   Departmental Offices                                                          Agreement
                                                                                                 Interagency
      12/16/2009   Internal Revenue Service               Detailees                                                   46,202               —
                                                                                                 Agreement
      12/22/2009   Avondale Investments LLC               Asset Management Services              Financial Agent    1,562,500        737,500
      12/22/2009   Bell Rock Capital, LLC                 Asset Management Services              Financial Agent    1,535,000        703,750
      12/22/2009   Howe Barnes Hoefer & Arnett, Inc       Asset Management Services              Financial Agent    2,856,438      1,243,938
      12/22/2009   KBW Asset Management, Inc              Asset Management Services              Financial Agent    7,905,833      4,995,833
      12/22/2009   Lombardia Capital Partners, LLC        Asset Management Services              Financial Agent    2,450,000      1,262,500
                   Paradigm Asset Management Co.,
      12/22/2009                                          Asset Management Services              Financial Agent    2,387,250      1,237,250
                   LLC
                                                          Document Production services and
      12/22/2009   Hughes Hubbard & Reed LLP                                                     Contract           1,097,205        649,762
                                                          Litigation Support
                                                         IAA - GAO required by P.L. 110-343
                                                                                                 Interagency
      1/14/2010    U.S. Government Accountability Office to conduct certain activities related                      7,304,722      7,304,722
                                                                                                 Agreement
                                                         to TARP
                   Association of Government
      1/15/2010                                           CEAR Program Application               Contract               5,000           5,000
                   Accountants
                                                                                                 Interagency
      2/16/2010    Internal Revenue Service               Detailees                                                   52,742          52,742
                                                                                                 Agreement
                                                          FNMA IR2 Assessment - OFS task
      2/16/2010    The MITRE Corporation                                                         Contract            777,604         726,465
                                                          order on Treasury Mitre Contract
                                                                                                 Interagency
      2/18/2010    Treasury Franchise Fund                BPD                                                       1,221,140      1,221,140
                                                                                                 Agreement
      3/8/2010     Qualx Corporation                      FOIA Support Services                  Contract            510,438         230,438
                                                                                                 Interagency
      3/22/2010    Financial Management Services          Gartner, Inc.                                               73,750          73,750
                                                                                                 Agreement
                                                                                                 Interagency
      3/26/2010    Federal Maritime Commission (FMC)      Detailees                                                  159,141         159,141
                                                                                                 Agreement
      3/29/2010    Morgan Stanley                         Disposition Agent Services             Financial Agent   23,577,000              —
                                                                                                 Interagency
      4/2/2010     Financial Clerk U.S. Senate            Congressional Oversight Panel                             4,797,556      4,797,556
                                                                                                 Agreement
      4/8/2010     Squire, Sanders & Dempsey LLP          Housing Legal Services                 Contract           1,229,350        670,097
      4/12/2010    Ennis Knupp & Associates Inc           Investment Consulting Services         Contract           3,040,150        254,000
                                                          Data and Document Management
      4/22/2010    Digital Management Inc                                                        Contract                  —               —
                                                          Consulting Services
                                                          Data and Document Management
      4/22/2010    MicroLink, LLC                                                                Contract           4,275,596      1,309,945
                                                          Consulting Services
                                                          Data and Document Management
      4/23/2010    RDA Corporation                                                               Contract           1,277,134              —
                                                          Consulting Services
                                                                                                 Interagency
      5/4/2010     Internal Revenue Service               Training - Bulux CON 120                                     1,320            1,320
                                                                                                 Agreement
                                                                                                                       Continued on next page.
                                                                                               quarterly report to congress I january 26, 2011   181




OFS SERVICE CONTRACTS           (CONTINUED)                                                                                               
                                                                                         Type of                Obligated       Expended
Date        Vendor                                Purpose                                Transaction                Value           Value
5/17/2010   Greenhill & Co., Inc.a                Structuring and Disposition Services   Financial Agent      $7,050,000         $737,500
5/17/2010   Lazard Fréres & Co. LLC               Transaction Structuring Services       Financial Agent       7,500,000        3,283,333
                                                  Accurint subscription services for
6/24/2010   Reed Elsevier Inc (dba LexisNexis)                                           Contract                   8,208            2,736
                                                  one year - 4 users
                                                  Financial Institution Mgmt & Modeling
6/30/2010   The George Washington University                                            Contract                    5,000            5,000
                                                  - Training course (J.Talley)
                                                  Program Compliance Support
7/21/2010   Navigant Consulting                                                          Contract                      —                —
                                                  Services
                                                  Program Compliance Support
7/21/2010   Regis and Associates PC                                                      Contract                      —                —
                                                  Services
7/22/2010   Schiff Hardin LLP                     Housing Legal Services                 Contract                537,375           98,091
                                                  Program Compliance Support
7/22/2010   Ernst & Young LLP                                                            Contract                      —                —
                                                  Services
                                                  Program Compliance Support
7/22/2010   PricewaterhouseCoopers                                                       Contract                      —                —
                                                  Services
7/27/2010   West Publishing Corporation           Subscription Service for 4 users       Contract                   6,722            5,972
                                                  Omnibus procurement for legal
8/6/2010    Alston & Bird LLP                                                            Contract                      —                —
                                                  services
                                                  Omnibus procurement for legal
8/6/2010    Cadwalader Wickersham & Taft LLP                                             Contract              3,246,209          604,589
                                                  services
            Fox, Hefter, Swibel, Levin & Carol,   Omnibus procurement for legal
8/6/2010                                                                                 Contract                      —                —
            LLP                                   services
                                                  Omnibus procurement for legal
8/6/2010    Haynes and Boone, LLP                                                        Contract                      —                —
                                                  services
                                                  Omnibus procurement for legal
8/6/2010    Hughes Hubbard & Reed LLP                                                    Contract                 56,580           20,547
                                                  services
                                                  Omnibus procurement for legal
8/6/2010    Love & Long LLP                                                              Contract                      —                —
                                                  services
                                                  Omnibus procurement for legal
8/6/2010    Orrick Herrington Sutcliffe LLP                                              Contract                      —                —
                                                  services
            Paul, Weiss, Rifkind, Wharton &       Omnibus procurement for legal
8/6/2010                                                                                 Contract              2,357,411                —
            Garrison LLP                          services
                                                  Omnibus procurement for legal
8/6/2010    Perkins Coie LLP                                                             Contract                      —                —
                                                  services
                                                  Omnibus procurement for legal
8/6/2010    Seyfarth Shaw LLP                                                            Contract                      —                —
                                                  services
            Shulman, Rogers, Gandal, Pordy        Omnibus procurement for legal
8/6/2010                                                                                 Contract                      —                —
            & Ecker, PA                           services
                                                  Omnibus procurement for legal
8/6/2010    Sullivan Cove Reign Enterprises JV                                           Contract                      —                —
                                                  services
                                                  Omnibus procurement for legal
8/6/2010    Venable LLP                                                                  Contract                      —                —
                                                  services
8/12/2010   Knowledge Mosaic Inc.                 SEC filings subscription service       Contract                   5,000            5,000
            Department of Housing and Urban                                              Interagency
8/30/2010                                         Detailees                                                       29,915           29,915
            Development                                                                  Agreement
                                                                                                                    Continued on next page.
182                special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS                         (CONTINUED)                                                                                                                                         
                                                                                                                                 Type of                           Obligated              Expended
      Date                 Vendor                                             Purpose                                            Transaction                           Value                  Value
                                                                              One-year subscription (3 users) to
                                                                              the CQ Today Breaking
      9/1/2010             CQ-Roll Call Inc.                                  News & Schedules, CQ Congressio- Contract                                                $7,500                  $7,500
                                                                              nal & Financial
                                                                              Transcripts, CQ Custom Email Alerts
      9/17/2010            Bingham McCutchen LLP                              SBA 7(a) Security Purchase Program Contract                                              19,975                  13,689
                                                                              Program Operations Support
                                                                              Services/project management,
      9/27/2010            Davis Audrey Robinette                                                                                Contract                            677,731                   74,953
                                                                              scanning/document management/
                                                                              correspondence
                           Department of the Treasury -                                                                          Interagency
      9/30/2010                                                               Administrative Support                                                                 671,731                 435,323
                           Departmental Offices                                                                                  Agreement
                                                                              GSA Task Order for procurement
                                                                              books - FAR, T&M, Government
      9/30/2010            CCH Incorporated                                                                                      Contract                                2,430                        —
                                                                              Contracts Reference, World Class
                                                                              Contracting
                                                                                                                                 Interagency
      10/1/2010            Financial Clerk U.S. Senate                        Congressional Oversight Panel                                                       5,200,000               1,138,080
                                                                                                                                 Agreement
      10/8/2010            Management Concepts Inc                            Training Course - 11107705                         Contract                                  995                        —
      10/8/2010            Management Concepts Inc                            Training Course - Analytic Boot                    Contract                                1,500                        —
      10/8/2010            Management Concepts Inc                            Training Course - CON 216                          Contract                                1,025                   1,025
      10/8/2010            Management Concepts Inc                            Training Course - CON 217                          Contract                                1,025                   1,025
      10/8/2010            Management Concepts Inc                            Training Course - CON 217                          Contract                                1,025                   1,025
      10/8/2010            Management Concepts Inc                            Training Course - CON 218                          Contract                                2,214                        —
      10/8/2010            Management Concepts Inc                            Training Course - CON 218                          Contract                                2,214                        —
      10/8/2010            Management Concepts Inc                            Training Course - CON 218                          Contract                                2,214                        —
      10/14/2010           Management Concepts Inc                            Intern                                             Contract                              12,975                  12,975
                                                                 IAA - GAO required by P.L. 110-343
                                                                                                                                 Interagency
      10/26/2010           U.S. Government Accountability Office to conduct certain activities related                                                            7,600,000               1,575,300
                                                                                                                                 Agreement
                                                                 to TARP
                                                                              FNMA IR2 Assessment - OFS task
                                                                              order on Treasury Mitre Contract for
      11/8/2010            The MITRE Corporation                                                                                 Contract                         1,007,050                    85,998
                                                                              cost and data validation services
                                                                              related to HAMP FA
                                                                              Acquisition Support Services - PSD
      12/2/2010            Addx Corporation                                                                         Contract                                         768,653                          —
                                                                              TARP (action is an order against BPA)
      Total                                                                                                                                                $788,371,141 $481,430,846

      Notes: Numbers may not total due to rounding. At year-end, OFS validated the matrix against source documents, resulting in modification of award date. At year-end, a matrix entry that included
      several Interagency Agreements (IAAs) bundled together was split up to show the individual IAAs. For IDIQ contracts, 0 is obligated if no task orders have been awarded.
      1McKee Nelson Contract, TOFS-09-D-0005, was novated to Bingham McCutchen.
      a
        On 5/17/2010, Greenhill & Co., LLC was approved as a vendor. On 11/18/2010, as described more fully in Section 2: “Systemically Significant Failing Institutions,” Greenhill & Co., LLC signed a
      contract to provide structuring and disposition services to the U.S. Treasury relating to AIG recapitalization.

      Source: Treasury, response to SIGTARP data call, 1/11/2011.
Se ction 4   SIGtarp recommendations
184   special inspector general I troubled asset relief program
                                                                               quarterly report to congress I JANUARY 26, 2011          185




One of the critical responsibilities of the Office of the Special Inspector General
for the Troubled Asset Relief Program (“SIGTARP”) is to provide recommendations
to the U.S. Department of the Treasury (“Treasury”) and other Federal agencies
managing Troubled Asset Relief Program (“TARP”) initiatives so that the various
TARP-related programs can be designed or modified to facilitate transparency and
effective oversight and to prevent fraud, waste, and abuse. SIGTARP has made
such recommendations in its quarterly reports to Congress and in many of its audit
reports. This section discusses developments with respect to SIGTARP’s prior
recommendations, introduces new recommendations relating to the recapitaliza-
tion and refinancing of Capital Purchase Program (“CPP”) participants, and, in
the table at the end of this section, summarizes SIGTARP’s recommendations
from past quarters and notes the extent of their implementation. Appendix G:
“Correspondence” includes Treasury’s written responses to recommendations ref-
erenced in SIGTARP’s Quarterly Report to Congress dated October 26, 2010 (the
“October 2010 Quarterly Report”).


Recommendations Regarding
Implementation of the Small Business
Lending Fund
In the October 2010 Quarterly Report, SIGTARP reported three recommendations                  For more information on SBLF, see pages
regarding the Small Business Lending Fund (“SBLF”). Authorized by the Small                   127–132 of this report.
Business Jobs Act of 2010, which was signed by the President on September 27,
2010, SBLF is intended to allow Treasury “to make capital investments in eligible
institutions in order to increase the availability of credit for small businesses.” See
the SBLF discussion in Section 2: “TARP Overview” in this report.
    Although SBLF will be managed outside TARP and does not explicitly include
SIGTARP oversight, it does require Treasury to issue regulations and other guid-
ance “to permit eligible institutions to refinance securities issued to Treasury
under” existing TARP programs. SBLF is limited to those institutions with less
than $10 billion in total assets. Because many current participants in TARP’s CPP
are likely to seek to refinance their CPP capital through SBLF, SIGTARP provided
three recommendations with respect to any such refinancing process. Treasury
responded to these recommendations by letter dated January 18, 2011, a copy of
which is included in Appendix G: “Correspondence.” Each recommendation, along
with Treasury’s response and SIGTARP’s response, is discussed below.

First, when Treasury considers whether to accept an existing CPP partici-
pant into SBLF, because conditions for many of the relevant institutions have
changed dramatically since they were approved for CPP, Treasury and the
186   special inspector general I troubled asset relief program




                                             bank regulators should conduct a new analysis of whether the applying institu-
                                             tion is sufficiently healthy and viable to warrant participation in SBLF.
                                                 Much like applicants to CPP, SBLF applicants must demonstrate to their regu-
                                             lator that they have the financial ability to participate in the program and repay the
                                             investment. In formulating this recommendation, SIGTARP observed that a CPP
                                             participant deemed healthy and viable at the time of its CPP application may not
                                             remain so when it applies to SBLF at a later date. It makes little sense to convert
                                             a bank to SBLF (a program intended to spur increased lending) if the institution
                                             does not have the necessary capital to support such increased lending. Treasury has
                                             indicated that it “generally agrees with and is implementing this recommendation.”
                                             SIGTARP will monitor Treasury’s adoption of this recommendation in an upcom-
                                             ing audit on the process Treasury uses to refinance CPP participants into SBLF.

                                             Second, for similar reasons, when Treasury conducts the new analysis of an
                                             institution’s health and viability, the existing CPP preferred shares should not
                                             be counted as part of the institution’s capital base.
                                                 The financial health and viability of institutions applying to CPP was typically
                                             evaluated without accounting for the anticipated CPP investment. This approach
                                             fulfilled Treasury’s commitment to provide CPP funding for only healthy and viable
                                             institutions, maximized the likelihood that an institution was in a capital position to
                                             be able to use CPP funds to originate lending as opposed to shoring up its capital
                                             base, and limited the Government’s investment to those institutions that had the
                                             best chance of repaying it later. In SIGTARP’s view, the application of a CPP recipi-
                                             ent seeking to refinance to SBLF should be evaluated in precisely the same way. An
                                             institution that would not have an adequate capital base but for the Government’s
                                             CPP investment would be less likely to have the necessary capital to support
                                             increased lending. For a weaker CPP institution that is only adequately capital-
                                             ized because of TARP funds, the incentives in SBLF to increase its lending volume
                                             could result in more speculative lending that imposes greater risks of loss on the
                                             taxpayer. SIGTARP has serious concerns about the prospect of converting a weaker
                                             institution from CPP and TARP, which are characterized by strong oversight from
                                             multiple oversight bodies, periodic monitoring, and other governance and capital
                                             controls to protect the taxpayers’ interest, to a program with less stringent gover-
                                             nance provisions and fewer taxpayer safeguards. Doing so would be contrary to the
                                             taxpayers’ interest and do nothing to advance the stated goals of SBLF.
                                                 Treasury has rejected this recommendation, citing its belief that current CPP
                                             participants may be unfairly disadvantaged in their SBLF applications if their exist-
                                             ing CPP investments are not counted as part of their capital base. Treasury states
                                             that many such institutions have used their CPP capital to extend new loans to tax-
                                             payers and small businesses. According to Treasury, considering these loans without
                                                                              quarterly report to congress I JANUARY 26, 2011   187




the benefit of the CPP capital to support the loans would “effectively punish” CPP
participants for engaging in the very lending Treasury has encouraged.
    Treasury also argues that SBLF “already provides substantial hurdles that
CPP recipients must overcome” that don’t apply to other applicants. Specifically,
Treasury states that while it will consider the effect of “matched” private funds
when evaluating other SBLF applications, it will not do so for CPP participants,
and, unlike other applicants, “many CPP participants will have to increase their
lending without the benefit of any additional capital — as they will be refinanc-
ing their outstanding CPP investments, rather than obtaining new capital, under
SBLF.”
    Treasury’s professed desire to avoid “punishing” CPP recipients seeking to
convert to SBLF wildly misses the mark. CPP banks do not have some absolute
right to benefit from SBLF, particularly if they are not well suited to meet its goals.
The SBLF program is intended to incentivize new lending by already well capital-
ized banks with surplus capital provided by taxpayers and the prospect of very low
dividend rates. For banks not already participating in CPP and judged healthy
without the benefit of Government funds, that combination may well produce the
desired result — increased lending to qualifying businesses. But for banks that cur-
rently benefit from a CPP investment and that would not be adequately capitalized
without it, the calculus is quite different.
    First, for such banks, the goal of providing Governmental capital to incen-
tivize lending would have already been met and a refinance would result in all
risk and no gain. If, as Treasury anticipates, a CPP recipient would be unable to
meet the necessary capital threshold for SBLF because it already committed its
Government-supplied capital to increase lending, there is simply no objective rea-
son to allow such an institution to convert to SBLF. Treasury would have already
achieved its policy goal with respect to that institution. Further, when such an
institution converts to SBLF, the taxpayers’ position will be significantly prejudiced
and the CPP bank will receive a significant and unnecessary subsidy. Taxpayers,
who previously were benefitting from the institution’s required 5% CPP dividend
payments — Congress assured that CPP recipients that seek to refinance to SBLF
must have missed no more than one dividend payment — will now be paid a divi-
dend rate as low as 1%. And while for bank holding companies, which composed
more than four out of every five of the 578 institutions still in CPP as of December
31, 2010, dividend payments are cumulative, meaning that the payments are
required and missed dividend payments accrue and are still owed, Treasury made
dividend payments under SBLF non-cumulative for all participants, meaning that
they are optional and non-accruing, conferring a windfall upon CPP recipients pay-
ing cumulative dividends that refinance into SBLF. While SIGTARP is not critical
of this decision (which was driven by changes in capital requirements mandated by
188   special inspector general I troubled asset relief program




                                             the Dodd-Frank Wall Street Reform and Consumer Protection Act), it does result in
                                             increased risk to taxpayers given a recent research study that found that institutions
                                             in CPP that have non-cumulative dividends (non-bank holding companies) are more
                                             likely to skip their payments than are those that have cumulative dividend require-
                                             ments. In addition, taxpayers will lose the benefit of significant capital-protecting
                                             provisions required by CPP, such as limits on executive compensation, stock repur-
                                             chases, and dividend increases. It may make sense to confer these benefits on a CPP
                                             recipient by permitting it to refinance into SBLF if it has enough excess capital to
                                             achieve SBLF’s policy goal of increased small business lending. In contrast, by con-
                                             verting TARP recipients to SBLF that could not stand on their own without taxpayer
                                             assistance, Treasury will be providing them a substantial subsidy at the taxpayers’
                                             expense while receiving little in return.
                                                 Second, providing a new lending incentive of decreased dividend payments to
                                             CPP recipients not prepared to stand on their own without existing Government
                                             assistance risks encouraging overly risky loans by banks that may not have sufficient
                                             capital to support such lending, thus putting the taxpayers’ investment at further risk.
                                             In short, Treasury’s decision to permit institutions seeking to refinance from CPP to
                                             SBLF to count their CPP funding as part of their capital base both prejudices the
                                             taxpayers’ interest and renders Treasury vulnerable to the criticism that it is using
                                             its authority to adopt SBLF regulations as much as a way to wind down TARP, by
                                             removing from the program banks that otherwise would not or could not repay their
                                             assistance, as to increase small business lending.

                                             Third, Treasury should take steps to prevent institutions that are refinancing
                                             into SBLF from CPP from securing windfall dividend reductions without any
                                             relevant increase in lending.
                                                 The program as currently designed gives CPP recipients who refinance into SBLF
                                             the opportunity for an immediate decreased dividend rate based on an increase in
                                             lending prior to ever taking part in SBLF. Pursuant to SBLF, the initial 5% annual
                                             dividend rate could drop to as low as 1% on the basis of increased lending compared
                                             to a “baseline” of the institution’s average quarterly small business lending from July
                                             1, 2009, through June 30, 2010. As explained in more detail in the October 2010
                                             Quarterly Report, and as acknowledged by Treasury in its published guidelines for
                                             SBLF, a CPP participant that refinances into SBLF could benefit substantially from
                                             reduced dividend payments on its public investment, even if the SBLF incentive
                                             played no role in increasing its lending. Because the initial dividend rate is based on
                                             the difference between the baseline and the lending reflected in the call report data
                                             published in the quarter immediately before the SBLF investment, these lenders
                                             could be rewarded simply for sustaining recent increases in their lending arising
                                             from an improving economy and the previous benefit of CPP funds, factors that have
                                             nothing to do with SBLF. In its SBLF “Getting Started Guide,” Treasury provides the
                                                                                     quarterly report to congress I JANUARY 26, 2011   189




following example, under which the SBLF funding is received in the second quarter
of 2011:

Baseline Qualified Small Business Lending (average quarterly amount
                                                                      $100 million
outstanding for the year ending 6/30/2010)
Qualified Small Business Lending (quarterly outstanding amount as of
                                                                     $105 million
12/31/2010)
Percentage Increase in Qualified Small Business Lending               5%
Initial Dividend Rate                                                 3%



    This immediate reduction from the 5% dividend rate under CPP to 3% under
SBLF would be a complete windfall unrelated to the SBLF incentive — the increase
in lending preceded SBLF. Because of this anomaly, SIGTARP has recommended
that when issuing regulations or other guidance under SBLF, Treasury implement
measures designed to negate the windfall that could accrue to CPP participants
seeking refinancing under the new program, such as imposing a refinancing fee that
would approximate the difference in dividend rates between CPP and SBLF unless
and until the institution actually increases its small business lending after entering
the program.
    Treasury has rejected this recommendation as well, suggesting first that its adop-
tion would subvert the will of Congress, which created this method of calculating
the baseline and initial dividend rate, and second, that SIGTARP’s recommenda-
tion “may not be helpful” because “it is unclear that using the statutorily mandated
baseline will lead to anomalies.” In other words, while Treasury acknowledges at least
the possibility of an undeserved windfall to CPP recipients, it refuses to address it by
ascribing to Congress the intent to deliver such a windfall. SIGTARP continues to
believe that Treasury has both the authority and the obligation to prevent CPP recipi-
ents from securing undeserved dividend reductions simply by transferring into SBLF.
     Wisely, Congress gave Treasury the authority it needs to address this sort of com-
plex problem by directing the Secretary to “issue regulations and other guidance to
permit eligible institutions to refinance securities issued under” TARP. The intent of
this provision is clear: to empower Treasury to fashion rules that treat CPP recipients
differently from other SBLF applicants — and for good reason. Institutions seeking
to convert to SBLF, in contrast to new applicants, have already received the benefit
of Government funding, may have already increased their lending as a result, are
already obligated to pay dividends to the taxpayer, and are already subject to signifi-
cant controls. While there may be a need for Treasury and Congress to make certain
aspects of SBLF attractive to certain banks in order to overcome the potential stigma
of participating in a Government program, no such enticement is necessary for a
CPP participant bank. If Congress intended for Treasury to apply the exact same
provisions to CPP applicants as other SBLF applicants, it easily could have directed
190   special inspector general I troubled asset relief program




                                             Treasury to do so. Instead it directed Treasury to treat these entities differently
                                             when appropriate.
                                                 Indeed, Treasury’s claimed reluctance to depart from the statutory text for CPP
                                             recipients is belied by its actions elsewhere under SBLF, which recognize Congress’
                                             plain intent that it protect the taxpayers’ interest as appropriate for CPP recipients.
                                             For example, as Treasury itself noted in its response to SIGTARP’s second recom-
                                             mendation above, although the SBLF legislation explicitly permits applicants to
                                             raise matching private funds to support their applications, Treasury has employed
                                             its discretion to treat CPP applicants differently, stating that it “will not consider
                                             ‘matched’ [private] funds when making SBLF investment decisions.” An even more
                                             striking example is Treasury’s decision to institute the exact same type of windfall
                                             penalty on CPP recipients on the back end of the program in another context,
                                             requiring an additional 2% annual payment on CPP recipients, commencing on the
                                             five-year anniversary date of their receipt of CPP funding, which do not increase
                                             funding after two years in the program. This provision, presumably adopted so that
                                             CPP banks that do not increase lending will pay the same dividend rate in SBLF
                                             that they would if they stayed in CPP after five years, is indistinguishable from the
                                             front-end protection recommended by SIGTARP. Treasury’s selective citation to the
                                             statute as a justification for not preventing a windfall to CPP recipients, simply put,
                                             is wholly unpersuasive.
                                                 Treasury’s second contention is based on its “understand[ing] that quarterly
                                             variations in small business lending often result from seasonal effects,” meaning
                                             that for certain institutions lending rates may regularly move up and down depend-
                                             ing on the season and the nature of their business. According to Treasury, if a CPP
                                             applicant experiences a pre-application increase in lending relative to the baseline
                                             that is seasonally based, then the lending level captured in the initial rate would be
                                             artificially high and would smooth out in subsequent quarters as lending season-
                                             ally decreased. As a result, according to Treasury, any potential windfall would be
                                             ultimately addressed by the seasonal cycle.
                                                 The central flaw in Treasury’s reasoning is that, at most, it suggests that for
                                             some CPP banks — those that face material seasonal lending effects and that hap-
                                             pen to have hit high season in the precise quarter that determines their initial divi-
                                             dend rate — the instant windfall dividend reduction may be limited over the course
                                             of their participation in SBLF. This ignores all the other CPP banks — those either
                                             not prone to “seasonal effects” or those whose initial dividend-rate-setting lending
                                             quarter is not their high lending season. For all of those banks, the real possibility
                                             remains that they will receive a substantial windfall simply for sustaining recent
                                             increases in their lending arising out of an improving economy and the previous
                                             benefit of CPP funds, factors that have nothing to do with SBLF. And even for
                                             the CPP banks that fit Treasury’s example, they will still receive a windfall at least
                                                                                quarterly report to congress I JANUARY 26, 2011   191




initially, and in no case would they be worse off by converting to SBLF if Treasury
were to adopt SIGTARP’s recommendation. At worst they would eventually return
to the same 5% dividend rate they currently pay under CPP and still benefit from
all of the other advantages of refinancing, such as non-cumulative dividends, a
lower initial rate and potentially lower rates in the future, and fewer restrictions. In
sum, Treasury should not let the hypothetical seasonal lender be the tail that wags
the dog of potential CPP windfalls. To best protect the taxpayer, Treasury should
adopt SIGTARP’s recommendation. In doing so, it certainly could fashion a remedy
to both protect against its perceived concerns about seasonal lending and to pre-
vent an unwarranted windfall to a TARP recipient at taxpayer expense. SIGTARP
reiterates its offer to discuss with Treasury such potential remedies.


RECOMMENDATIONS REGARDING CPP
RESTRUCTURINGS AND RECAPITALIZATIONS AND
RELATED SBLF RECOMMENDATION
As discussed more extensively in Section 2: “TARP Overview” of this report, a
CPP recipient that is in danger of becoming insolvent may propose to Treasury a
restructuring or recapitalization of Treasury’s CPP investment to make it easier for
the institution to attract private capital. These transactions may result in Treasury
taking a haircut on its CPP investment, and Treasury often requires the CPP re-
cipient to raise capital from private entities before it will consummate the transac-
tion. Treasury has explained to SIGTARP that it enters into these transactions in
an attempt to avoid the total loss of Treasury’s investment that would occur if the
institution failed. After Treasury receives a restructuring proposal from a CPP in-
stitution, it performs due diligence on the institution. Previously, as part of its due
diligence, Treasury shared with SIGTARP, in advance of the transaction, the iden-
tity of the candidate and details of the proposed transaction in order to determine
if the candidate is the subject of an ongoing criminal investigation by SIGTARP.
Recently, it has appeared that Treasury has stopped identifying these candidates to
SIGTARP in advance of a public announcement.
     Although not all of SIGTARP’s investigations will lead to the filing of criminal
or civil charges, Treasury’s apparent reluctance to take the relatively simple step of
consulting with SIGTARP to determine whether the CPP participant is currently
under investigation for an ongoing fraud creates unwarranted and unnecessary risk.
First, because these transactions are often designed to attract new capital from
private investors, if there is an ongoing fraud Treasury will essentially be shifting
the risk of loss from that fraud off of its books and onto those of unknowing private
investors. This is particularly dangerous given the potential that the market may
perceive Treasury’s participation in such a transaction as an endorsement of the
192   special inspector general I troubled asset relief program




                                             viability of the institution after the transaction is completed. Second, the informa-
                                             tion received from the subject CPP participant by Treasury as it conducts its due
                                             diligence may be tainted by fraud, potentially compromising Treasury’s decision-
                                             making process.
                                                 A similar concern will arise when CPP recipients seek to refinance into the
                                             SBLF program and at the same time seek additional taxpayer dollars. In those
                                             cases, in order to protect against taxpayer dollars being needlessly put at risk,
                                             Treasury should similarly consult with SIGTARP to learn whether the entity is the
                                             subject of an ongoing investigation.
                                                 Recommendations:

                                             •	 SIGTARP recommends that Treasury, as part of its due diligence concerning
                                                any proposed restructuring, recapitalization, or sale of its investment to a third
                                                party, provide to SIGTARP the identity of the CPP institution and the details of
                                                the proposed transaction.
                                             •	 When a CPP participant refinances into SBLF and seeks additional taxpayer
                                                funds, SIGTARP recommends that Treasury provide to SIGTARP the identity of
                                                the institution and details of the proposed additional SBLF investment.

                                                 Should Treasury adopt these recommendations, SIGTARP would then be able
                                             to share information about the investigation, on a strictly confidential basis, with
                                             certain Treasury personnel so that Treasury could be better informed before com-
                                             pleting such transactions.
                                                 SIGTARP provided a draft of these recommendations to Treasury on January
                                             14, 2011. As of the drafting of this report, Treasury had not responded.
SIGTARP Recommendations Table                    (continued)
                                                                                                                Partially      In         Not
         Recommendation                                                                         Implemented   Implemented   Process   Implemented TBD/NA Comments
         Treasury should include language in the automobile industry transaction term
1    *   sheet acknowledging SIGTARP’s oversight role and expressly giving SIGTARP                   x
         access to relevant documents and personnel.
         Treasury should include language in new TARP agreements to facilitate
         compliance and oversight. Specifically, SIGTARP recommends that each program
         participant should (1) acknowledge explicitly the jurisdiction and authority of                                                                Although Treasury has made
         SIGTARP and other oversight bodies, as relevant, to oversee compliance of                                                                      substantial efforts to comply with
         the conditions contained in the agreement in question, (2) establish internal                                                                  this recommendation in many
2    *                                                                                                             x
         controls with respect to that condition, (3) report periodically to the Compliance                                                             of its agreements, there have
         department of the Office of Financial Stability (“OFS-Compliance”) regarding the                                                               been exceptions, including in its
         implementation of those controls and its compliance with the condition, and                                                                    agreements with servicers in MHA.
         (4) provide a signed certification from an appropriate senior official to OFS-
         Compliance that such report is accurate.
         All existing TARP agreements, as well as those governing new transactions,
3    *                                                                                               x
         should be posted on the Treasury website as soon as possible.
         Treasury should require all TARP recipients to report on the actual use of TARP
4    *                                                                                               x
         funds.
5    *   Treasury quickly determines its going-forward valuation methodology.                        x
         Treasury begins to develop an overall investment strategy to address its portfolio
6    *                                                                                               x
         of stocks and decide whether it intends to exercise warrants of common stock.
         In formulating the structure of TALF, Treasury should consider requiring, before
                                                                                                                                                        The Federal Reserve adopted
         committing TARP funds to the program, that certain minimum underwriting
7    *                                                                                               x                                                  mechanisms that address this
         standards and/or other fraud prevention mechanisms be put in place with respect
                                                                                                                                                        recommendation.
         to the ABS and/or the assets underlying the ABS used for collateral.
         Agreements with TALF participants should include an acknowledgment that:
         (1) they are subject to the oversight of OFS-Compliance and SIGTARP, (2) with
         respect to any condition imposed as part of TALF, that the party on which the
8    *                                                                                                                                    x
         condition is imposed is required to establish internal controls with respect to each
         condition, report periodically on such compliance, and provide a certification with
         respect to such compliance.
                                                                                                                                                        This recommendation was
         Treasury should give careful consideration before agreeing to the expansion
                                                                                                                                                        implemented with respect to
9    *   of TALF to include MBS without a full review of risks that may be involved and              x
                                                                                                                                                        CMBS, and the Federal Reserve did
         without considering certain minimum fraud protections.
                                                                                                                                                        not expand TALF to RMBS.
                                                                                                                                                        This recommendation was
         Treasury should oppose any expansion of TALF to legacy MBS without significant
                                                                                                                                                        implemented with respect to
10   *   modifications to the program to ensure a full assessment of risks associated with           x
                                                                                                                                                        CMBS, and the Federal Reserve did
         such an expansion.
                                                                                                                                                        not expand TALF to RMBS.
                                                                                                                                                        Treasury has formalized its
         Treasury should formalize its valuation strategy and begin providing values of the
11                                                                                                   x                                                  valuation strategy and regularly
         TARP investments to the public.
                                                                                                                                                        publishes its estimates.
                                                                                                                                                                      Continued on next page.
                                                                                                                                                                                                quarterly report to congress I JANUARY 26, 2011
                                                                                                                                                                                                193
                                                                                                                                                                                               194
SIGTARP Recommendations Table                     (continued)
                                                                                                               Partially      In         Not
         Recommendation                                                                        Implemented   Implemented   Process   Implemented TBD/NA Comments
                                                                                                                                                       On December 1, 2010, the Federal
                                                                                                                                                       Reserve publicly disclosed the
                                                                                                                                                       identities of all TALF borrowers and
         Treasury and the Federal Reserve should provide to SIGTARP, for public
12   *                                                                                                                                             x   that there had been no surrender of
         disclosure, the identity of the borrowers who surrender collateral in TALF.
                                                                                                                                                       collateral. SIGTARP will continue to
                                                                                                                                                       monitor disclosures if a collateral
                                                                                                                                                       surrender takes place.
         In TALF, Treasury should dispense with rating agency determinations and require
         a security-by-security screening for each legacy RMBS. Treasury should refuse to
                                                                                                                                                       The Federal Reserve announced
         participate if the program is not designed so that RMBS, whether new or legacy,
                                                                                                                                                       that RMBS were ineligible for
13   *   will be rejected as collateral if the loans backing particular RMBS do not meet                                                           x
                                                                                                                                                       TALF loans, rendering this
         certain baseline underwriting criteria or are in categories that have been proven
                                                                                                                                                       recommendation moot.
         to be riddled with fraud, including certain undocumented subprime residential
         mortgages.
                                                                                                                                                       This recommendation was
         In TALF, Treasury should require significantly higher haircuts for all MBS, with
                                                                                                                                                       implemented with respect to
14   *   particularly high haircuts for legacy RMBS, or other equally effective mitigation          x
                                                                                                                                                       CMBS, and the Federal Reserve did
         efforts.
                                                                                                                                                       not expand TALF to RMBS.
                                                                                                                                                                                               special inspector general I troubled asset relief program




                                                                                                                                                       The Federal Reserve adopted
         Treasury should require additional anti-fraud and credit protection provisions,                                                               mechanisms that address this
15   *   specific to all MBS, before participating in an expanded TALF, including minimum           x                                                  recommendation with respect to
         underwriting standards and other fraud prevention measures.                                                                                   CMBS, and did not expand TALF to
                                                                                                                                                       RMBS.
         Treasury should design a robust compliance protocol with complete access
16   *   rights to all TALF transaction participants for itself, SIGTARP, and other relevant                                             x
         oversight bodies.
         Treasury should not allow Legacy Securities PPIFs to invest in TALF unless
17   *                                                                                              x
         significant mitigating measures are included to address these dangers.
         All TALF modeling and decisions, whether on haircuts or any other credit or fraud
         loss mechanisms, should account for potential losses to Government interests
18   *                                                                                              x
         broadly, including TARP funds, and not just potential losses to the Federal
         Reserve.
         Treasury should address the confusion and uncertainty on executive
19   *                                                                                              x
         compensation by immediately issuing the required regulations.
                                                                                                                                                                     Continued on next page.
SIGTARP Recommendations Table                     (continued)
                                                                                                                Partially      In         Not
         Recommendation                                                                         Implemented   Implemented   Process   Implemented TBD/NA Comments
                                                                                                                                                        According to Treasury, OFS-
         Treasury should significantly increase the staffing levels of OFS-Compliance
                                                                                                                                                        Compliance has increased its
20       and ensure the timely development and implementation of an integrated risk                                            x
                                                                                                                                                        staffing level and continues its
         management and compliance program.
                                                                                                                                                        effort to recruit candidates.
         Treasury should require CAP participants to (1) establish an internal control to
         monitor their actual use of TARP funds, (2) provide periodic reporting on their
         actual use of TARP funds, (3) certify to OFS-Compliance, under the penalty of                                                                  Treasury closed the program with
         criminal sanction, that the report is accurate, that the same criteria of internal                                                             no investments having been made,
21   *                                                                                                                                              x
         controls and regular certified reports should be applied to all conditions imposed                                                             rendering this recommendation
         on CAP participants, and (4) acknowledge explicitly the jurisdiction and authority                                                             moot.
         of SIGTARP and other oversight bodies, as appropriate, to oversee conditions
         contained in the agreement.
         Treasury should impose strict conflict-of-interest rules upon PPIF managers                                                                    Treasury has adopted some
         across all programs that specifically address whether and to what extent the                                                                   significant conflict-of-interest rules
22   *   managers can (1) invest PPIF funds in legacy assets that they hold or manage on                           x                                    related to this recommendation,
         behalf of themselves or their clients or (2) conduct PPIF transactions with entities                                                           but has failed to impose other
         in which they have invested on behalf of themselves or others.                                                                                 significant safeguards.
                                                                                                                                                        Treasury’s agreements with
                                                                                                                                                        PPIF managers include investor-
         Treasury should require that all PPIF fund managers (1) have stringent investor-                                                               screening procedures such
         screening procedures, including comprehensive “Know Your Customer”                                                                             as “Know Your Customer”
         requirements at least as rigorous as that of a commercial bank or retail                                                                       requirements. Treasury has agreed
         brokerage operation to prevent money laundering and the participation of actors                                                                that it will have access to any
23   *                                                                                                             x
         prone to abusing the system, and (2) be required to provide Treasury with the                                                                  information in a fund manager’s
         identities of all the beneficial owners of the private interests in the fund so that                                                           possession relating to beneficial
         Treasury can do appropriate diligence to ensure that investors in the funds are                                                                owners. However, Treasury did not
         legitimate.                                                                                                                                    impose an affirmative requirement
                                                                                                                                                        that managers obtain and maintain
                                                                                                                                                        beneficial owner information.
         Treasury should require most-favored-nation clauses, PPIF managers to
24   *   acknowledge that they owe Treasury a fiduciary duty, and that each manager                  x
         adopt a robust ethics policy and compliance apparatus.
                                                                                                                                                        Treasury has decided to
                                                                                                                                                        adopt this important SIGTARP
                                                                                                                                                        recommendation and stated that
                                                                                                                                                        its program administrator Fannie
                                                                                                                                                        Mae conducted a pilot program
                                                                                                                                                        to verify owner occupancy.
         Treasury should require servicers in MHA to submit third-party verified evidence
                                                                                                                                                        However, as discussed in Section
25       that the applicant is residing in the subject property before funding a mortgage                                      x
                                                                                                                                                        2 of this report, the residency
         modification.
                                                                                                                                                        requirement for HAFA transactions
                                                                                                                                                        has been significantly loosened
                                                                                                                                                        so that the borrower only needs
                                                                                                                                                        to demonstrate that he lived in
                                                                                                                                                        the residence in the preceding 12
                                                                                                                                                                                                  quarterly report to congress I JANUARY 26, 2011




                                                                                                                                                        months.
                                                                                                                                                                        Continued on next page.
                                                                                                                                                                                                  195
                                                                                                                                                                                                196
SIGTARP Recommendations Table                     (continued)
                                                                                                                Partially      In         Not
         Recommendation                                                                         Implemented   Implemented   Process   Implemented TBD/NA Comments
         In MHA, Treasury should require a closing-like procedure be conducted that
         would include (1) a closing warning sheet that would warn the applicant of
         the consequences of fraud; (2) the notarized signature and thumbprint of
         each participant; (3) mandatory collection, copying, and retention of copies                                                                   See discussion in Section 5:
         of identification documents of all participants in the transaction; (4) verbal                                                                 “SIGTARP Recommendations” of
26   *                                                                                                             x
         and written warnings regarding hidden fees and payments so that applicants                                                                     SIGTARP’s October 2009 Quarterly
         are made fully aware of them; (5) the benefits to which they are entitled                                                                      Report.
         under the program (to prevent a corrupt servicer from collecting payments
         from the Government and not passing the full amount of the subsidies to the
         homeowners); and (6) the fact that no fee should be charged for the modification.
                                                                                                                                                        Treasury stated that it is working
                                                                                                                                                        with its program administrator
                                                                                                                                                        Fannie Mae to test a new fraud
         Additional anti-fraud protections should be adopted in MHA to verify the identity                                                              detection program and working
         of the participants in the transaction and to address the potential for servicers to                                                           with its compliance agent Freddie
27                                                                                                                             x
         steal from individuals receiving Government subsidies without applying them for                                                                Mac to develop procedures
         the benefit of the homeowner.                                                                                                                  designed to address this
                                                                                                                                                        recommendation. SIGTARP will
                                                                                                                                                        continue to monitor implementation
                                                                                                                                                        of this recommendation.
                                                                                                                                                        Treasury has rejected SIGTARP’s
                                                                                                                                                                                                special inspector general I troubled asset relief program




                                                                                                                                                        recommendation and does not
         In MHA, Treasury should require the servicer to compare the income reported on
                                                                                                                                                        require income reported on the
28   *   a mortgage modification application with the income reported on the original loan                                                x
                                                                                                                                                        modification application to be
         applications.
                                                                                                                                                        compared to income reported on
                                                                                                                                                        the original loan application.
         In MHA, Treasury should require that verifiable, third-party information be obtained
29   *                                                                                               x
         to confirm an applicant’s income before any modification payments are made.
                                                                                                                                                        Rather than deferring payment
                                                                                                                                                        of the incentive until after the
                                                                                                                                                        homeowner has verifiably made
         In MHA, Treasury should defer payment of the $1,000 incentive to the servicer                                                                  a minimum number of payments
30   *   until after the homeowner has verifiably made a minimum number of payments                                                       x             on his permanent modification,
         under the mortgage modification program.                                                                                                       Treasury will pay the incentive
                                                                                                                                                        after the servicer represents that
                                                                                                                                                        the homeowner has made three
                                                                                                                                                        payments during the trial period.
         In MHA, Treasury should proactively educate homeowners about the nature of the
31   *   program, warn them about modification rescue fraudsters, and publicize that no              x
         fee is necessary to participate in the program.
                                                                                                                                                                      Continued on next page.
SIGTARP Recommendations Table                    (continued)
                                                                                                            Partially      In         Not
         Recommendation                                                                     Implemented   Implemented   Process   Implemented TBD/NA Comments
                                                                                                                                                    While Treasury’s program
                                                                                                                                                    administrator, Fannie Mae, has
                                                                                                                                                    developed a HAMP system
                                                                                                                                                    of record that maintains the
                                                                                                                                                    servicers’ and investors’ names
         In MHA, Treasury should require its agents to keep track of the names and
                                                                                                                                                    and participating borrowers’
32   *   identifying information for each participant in each mortgage modification                            x
                                                                                                                                                    personally identifiable information,
         transaction and to maintain a database of such information.
                                                                                                                                                    such as names and addresses,
                                                                                                                                                    the database is not constructed to
                                                                                                                                                    maintain other information that may
                                                                                                                                                    assist in detecting insiders who are
                                                                                                                                                    committing large-scale fraud.
                                                                                                                                                    Treasury has refused to adopt
         Treasury should require the imposition of strict information barriers or “walls”
                                                                                                                                                    this significant anti-fraud measure
         between the PPIF managers making investment decisions on behalf of the PPIF
33   *                                                                                                                                x             designed to prevent conflicts of
         and those employees of the fund management company who manage non-PPIF
                                                                                                                                                    interest. This represents a material
         funds.
                                                                                                                                                    deficiency in the program.
                                                                                                                                                    Treasury has committed to publish
                                                                                                                                                    on a quarterly basis certain high-
                                                                                                                                                    level information about aggregated
                                                                                                                                                    purchases by the PPIFs, but not
         Treasury should periodically disclose PPIF trading activity and require PPIF
                                                                                                                                                    within seven days of the close
         managers to disclose to SIGTARP, within seven days of the close of the quarter,
34   *                                                                                                                                x             of the quarter. Treasury has
         all trading activity, holdings, and valuations so that SIGTARP may disclose such
                                                                                                                                                    not committed to providing full
         information, subject to reasonable protections, in its quarterly reports.
                                                                                                                                                    transparency to show where public
                                                                                                                                                    dollars are invested by requiring
                                                                                                                                                    periodic disclosure of every trade
                                                                                                                                                    in the PPIFs.
                                                                                                                                                    Despite that there has been fifteen
                                                                                                                                                    months of trading by the PPIFs,
                                                                                                                                                    Treasury stated that it is still
                                                                                                                                                    difficult to specify a benchmark by
                                                                                                                                                    which performance of a PPIF can
                                                                                                                                                    be measured. Treasury stated that
                                                                                                                                                    it will begin to review each PPIF’s
         Treasury should define appropriate metrics and an evaluation system should be
                                                                                                                                                    net internal rate of return relative
35       put in place to monitor the effectiveness of the PPIF managers, both to ensure                                               x
                                                                                                                                                    to the returns each PPIF manager
         they are fulfilling the terms of their agreements and to measure performance.
                                                                                                                                                    proposed to Treasury and to private
                                                                                                                                                    PPIF investors. Treasury stated that
                                                                                                                                                    it is still looking for a subcontractor
                                                                                                                                                    to assist with providing analytics
                                                                                                                                                    and metrics on the PPIF portfolio.
                                                                                                                                                    SIGTARP will continue to monitor
                                                                                                                                                    Treasury’s progress in this area.
                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                              quarterly report to congress I JANUARY 26, 2011
                                                                                                                                                                                              197
                                                                                                                                                                                                 198
SIGTARP Recommendations Table                     (continued)
                                                                                                                Partially      In         Not
         Recommendation                                                                         Implemented   Implemented   Process   Implemented TBD/NA Comments
                                                                                                                                                        Treasury has refused to adopt this
                                                                                                                                                        recommendation, relying solely
                                                                                                                                                        on Treasury’s right to end the
         The conditions that give Treasury “cause” to remove a PPIF manager should
                                                                                                                                                        investment period after 12 months.
         be expanded to include a manager’s performance below a certain standard
36   *                                                                                                                                    x             During this time the PPIF manager’s
         benchmark, or if Treasury concludes that the manager has materially violated
                                                                                                                                                        performance may continue to fall
         compliance or ethical rules.
                                                                                                                                                        below a standard benchmark,
                                                                                                                                                        potentially putting significant
                                                                                                                                                        Government funds at risk.
         Treasury should require PPIF managers to disclose to Treasury, as part of the
37   *   Watch List process, not only information about holdings in eligible assets but also         x
         holdings in related assets or exposures to related liabilities.
                                                                                                                                                        Treasury has agreed that it can
                                                                                                                                                        have access to any information
                                                                                                                                                        in a fund manager’s possession
                                                                                                                                                        relating to beneficial owners.
                                                                                                                                                        However, Treasury is not making
                                                                                                                                                        an affirmative requirement that
         Treasury should require PPIF managers to obtain and maintain information about
                                                                                                                                                        managers obtain and maintain
38       the beneficial ownership of all of the private equity interests, and Treasury should                                             x
                                                                                                                                                        beneficial owner information.
         have the unilateral ability to prohibit participation of private equity investors.
                                                                                                                                                        Treasury will not adopt the
                                                                                                                                                                                                 special inspector general I troubled asset relief program




                                                                                                                                                        recommendation to give itself
                                                                                                                                                        unilateral ability to deny access
                                                                                                                                                        to or remove an investor, stating
                                                                                                                                                        that such a right would deter
                                                                                                                                                        participation.
         Treasury and FRBNY should (1) examine Moody’s assertions that some credit
         rating agencies are using lower standards to give a potential TALF security the
39   *   necessary AAA rating and (2) develop mechanisms to ensure that acceptance of                x
         collateral in TALF is not unduly influenced by the improper incentives to overrate
         that exist among the credit agencies.
         Treasury should more explicitly document the vote of each Investment Committee
40   *                                                                                               x
         member for all decisions related to the investment of TARP funds.
         Treasury should improve existing control systems to document the occurrence
         and nature of external phone calls and in-person meetings about actual and
41   *                                                                                               x
         potential recipients of funding under the CPP and other similar TARP-assistance
         programs to which they may be part of the decision making.
         The Secretary of the Treasury should direct the Special Master to work with
         FRBNY officials in understanding AIG compensation programs and retention
42   *                                                                                               x
         challenges before developing future compensation decisions that may affect both
         institutions’ ability to get repaid by AIG for Federal assistance provided.
                                                                                                                                                        Treasury stated that it does not
         Treasury should establish policies to guide any similar future decisions to take
                                                                                                                                                        anticipate taking a substantial
         a substantial ownership position in financial institutions that would require an
43   *                                                                                                                                              x   percentage ownership position
         advance review so that Treasury can be reasonably aware of the obligations and
                                                                                                                                                        in any other financial institution
         challenges facing such institutions.
                                                                                                                                                        pursuant to EESA.
                                                                                                                                                                       Continued on next page.
SIGTARP Recommendations Table                     (continued)
                                                                                                               Partially      In         Not
         Recommendation                                                                        Implemented   Implemented   Process   Implemented TBD/NA Comments
         Treasury should establish policies to guide decision making in determining                                                                    Treasury has agreed to work
44   *   whether it is appropriate to defer to another agency when making TARP                                    x                                    closely with other Federal agencies
         programming decisions where more than one Federal agency is involved.                                                                         that are involved in TARP.
                                                                                                                                                       Despite SIGTARP’s repeated
         Treasury should rectify the confusion that its own statements have caused for                                                                 highlighting of this essential
         HAMP by prominently disclosing its goals and estimates (updated over time, as                                                                 transparency and effectiveness
45                                                                                                                                       x
         necessary) of how many homeowners the program will help through permanent                                                                     measure, Treasury has refused to
         modifications and report monthly on its progress toward meeting that goal.                                                                    disclose clear and relevant goals
                                                                                                                                                       and estimates for the program.
         Treasury should develop other performance metrics and publicly report against
         them to measure over time the implementation and success of HAMP. For                                                                         Although Treasury has increased its
         example, Treasury could set goals and publicly report against those goals for                                                                 reporting of servicer performance,
46       servicer processing times, modifications as a proportion of a servicer’s loans                           x                                    it has not identified goals for each
         in default, modifications as a proportion of foreclosures generally, rates of how                                                             metric and measured performance
         many borrowers fall out of the program prior to permanent modification, and                                                                   against those goals.
         re-default rates.
         Treasury should undertake a sustained public service campaign as soon as
         possible, both to reach additional borrowers who could benefit from the program
47                                                                                                  x
         and to arm the public with complete, accurate information – this will help to avoid
         confusion and delay, and prevent fraud and abuse.
         Treasury should reconsider its position that allows servicers to substitute
48       alternative forms of income verification based on subjective determinations by                                                  x
         the servicer.
                                                                                                                                                       Treasury has adopted some
         Treasury should re-examine HAMP’s structure to ensure that it is adequately                                                                   programs to assist underwater
         minimizing the risk of re-default stemming from non-mortgage debt, second liens,                                                              mortgages to address concerns
49                                                                                                                x
         partial interest rate resets after the five-year modifications end, and from many                                                             of negative equity but has not
         borrowers being underwater.                                                                                                                   addressed other factors contained
                                                                                                                                                       in this recommendation.
                                                                                                                                                       Treasury has stated that it has
         Treasury should institute careful screening before putting additional capital                                                                 implemented this recommendation.
50       through CDCI into an institution with insufficient capital to ensure that the TARP         x                                                  SIGTARP will examine Treasury’s
         matching funds are not flowing into an institution that is on the verge of failure.                                                           implementation of the
                                                                                                                                                       recommendation.
                                                                                                                                                       Treasury has stated that it has
         Treasury should develop a robust procedure to audit and verify the bona fides of                                                              implemented this recommendation.
51       any purported capital raise in CDCI and to establish adequate controls to verify           x                                                  SIGTARP will examine Treasury’s
         the source, amount and closing of all claimed private investments.                                                                            implementation of the
                                                                                                                                                       recommendation.
         Treasury should revise CDCI terms to clarify that Treasury inspection and copy
         rights continue until the entire CDCI investment is terminated. Additionally,
52       consistent with recommendations made in connection with other TARP programs,               x
         the terms should be revised to provide expressly that SIGTARP shall have access
         to the CDFI’s records equal to that of Treasury.
                                                                                                                                                                                               quarterly report to congress I JANUARY 26, 2011




         Treasury should consider more frequent surveys of a CDCI participant’s use of
53       TARP funds than annually as currently contemplated. Quarterly surveys would                                                     x
         more effectively emphasize the purpose of CDCI.
                                                                                                                                                                     Continued on next page.
                                                                                                                                                                                               199
                                                                                                                                                                                                 200
SIGTARP Recommendations Table                      (continued)
                                                                                                                Partially      In         Not
         Recommendation                                                                         Implemented   Implemented   Process   Implemented TBD/NA Comments
                                                                                                                                                        Treasury has indicated that it has
         Treasury should ensure that more detail is captured by the Warrant Committee                                                                   implemented this recommendation.
         meeting minutes. At a minimum, the minutes should include the members’                                                                         Although the detail of the minutes
54                                                                                                   x
         qualitative considerations regarding the reasons bids were accepted or rejected                                                                has improved, Treasury is still not
         within fair market value ranges.                                                                                                               identifying how each member of the
                                                                                                                                                        committee casts his or her vote.
                                                                                                                                                        Treasury has agreed to document
                                                                                                                                                        the dates, participants, and subject
         Treasury should document in detail the substance of all communications with
55                                                                                                                                        x             line of calls. It has refused to
         recipients concerning warrant repurchases.
                                                                                                                                                        document the substance of such
                                                                                                                                                        conversations.
                                                                                                                                                        Treasury has indicated that it is in
                                                                                                                                                        the process of memorializing broad
                                                                                                                                                        procedures designed to address
                                                                                                                                                        this recommendation, including
                                                                                                                                                        a policy to discuss only warrant
         Treasury should develop and follow guidelines and internal controls concerning                                                                 valuation inputs and methodologies
         how warrant repurchase negotiations will be pursued, including the degree and                                                                  prior to receiving a bid, generally
56                                                                                                                             x
         nature of information to be shared with repurchasing institutions concerning                                                                   to limit discussion to valuation
         Treasury’s valuation of the warrants.                                                                                                          ranges after receiving approval
                                                                                                                                                                                                 special inspector general I troubled asset relief program




                                                                                                                                                        from the Warrant Committee, and
                                                                                                                                                        to note the provision of any added
                                                                                                                                                        information in the Committee
                                                                                                                                                        minutes.

                                                                                                                                                        Although Treasury largely continues
                                                                                                                                                        to rely on self-reporting, stating
                                                                                                                                                        that it only plans to conduct
                                                                                                                                                        independent testing where they
         Treasury should promptly take steps to verify TARP participants’ conformance                                                                   have particular concerns as to
57   *   to their obligations, not only by ensuring that they have adequate compliance                             x                                    a TARP recipient’s compliance
         procedures but also by independently testing participants’ compliance.                                                                         procedures or testing results,
                                                                                                                                                        Treasury has conducted
                                                                                                                                                        independent testing of compliance
                                                                                                                                                        obligations during two recent
                                                                                                                                                        compliance reviews.
         Treasury should develop guidelines that apply consistently across TARP
                                                                                                                                                        Treasury states that it intends to
58       participants for when a violation is sufficiently material to merit reporting, or in                                  x
                                                                                                                                                        develop standard guidelines.
         the alternative require that all violations be reported.
         For each HAMP-related program and subprogram, Treasury should publish the
                                                                                                                                                        Treasury has provided anticipated
         anticipated costs and expected participation in each and that, after each program
59                                                                                                                 x                                    costs, but not expected
         is launched, it report monthly as to the program’s performance against these
                                                                                                                                                        participation.
         expectations.
                                                                                                                                                                       Continued on next page.
SIGTARP Recommendations Table                           (continued)
                                                                                                                       Partially      In         Not
           Recommendation                                                                              Implemented   Implemented   Process   Implemented TBD/NA Comments
                                                                                                                                                               Treasury plans to maintain the
           Treasury should re-evaluate the voluntary nature of its principal reduction program
                                                                                                                                                               voluntary nature of the program,
           and, irrespective of whether it is discretionary or mandatory, consider changes
                                                                                                                                                               providing an explanation that on
60    *    to better maximize its effectiveness, ensure to the greatest extent possible                                                                    x
                                                                                                                                                               its face seems unpersuasive to
           the consistent treatment of similarly situated borrowers, and address potential
                                                                                                                                                               SIGTARP. SIGTARP will continue to
           conflict of interest issues.
                                                                                                                                                               monitor performance.
           Treasury should adopt a uniform appraisal process across all HAMP and
61         HAMP-related short-sale and principal reduction programs consistent with FHA’s                                                        x
           procedures.
                                                                                                                                                               Treasury plans to maintain the
                                                                                                                                                               existing minimum term, providing
           Treasury should reconsider the length of the minimum term of HAMP’s                                                                                 an explanation that on its face
62                                                                                                                                                         x
           unemployment forbearance program.                                                                                                                   seems unpersuasive to SIGTARP.
                                                                                                                                                               SIGTARP will continue to monitor
                                                                                                                                                               performance.
           Treasury should launch a broad-based information campaign, including public
           service announcements in target markets that focus on warnings about potential
63                                                                                                          x
           fraud, and include conspicuous fraud warnings whenever it makes broad public
           announcements about the program.
           When Treasury considers whether to accept an existing CPP participant
           into SBLF, because conditions for many of the relevant institutions have
64         changed dramatically since they were approved for CPP, Treasury and the                          x                                                  See discussion in this section.
           bank regulators should conduct a new analysis of whether the applying institution
           is sufficiently healthy and viable to warrant participation in SBLF.
           When Treasury conducts the new analysis of an
65         institution’s health and viability, the existing CPP preferred shares should not                                                      x             See discussion in this section.
           be counted as part of the institution’s capital base.
           Treasury should take steps to prevent institutions that are refinancing
66         into the SBLF from CPP from securing windfall dividend reductions without                                                             x             See discussion in this section.
           any relevant increase in lending.

Note: * Indicates that Treasury considers the recommendation closed and will take no further action.
                                                                                                                                                                                                   quarterly report to congress I JANUARY 26, 2011
                                                                                                                                                                                                   201
202              special inspector general I troubled asset relief program



      1. 	    Treasury Press Release, “Secretary of the Treasury Timothy F. Geithner Written Testimony before the Congressional Oversight Panel,” 6/22/2010, www.
              treasury.gov/press-center/press-releases/Pages/tg754.aspx, accessed 1/20/2011.
      2. 	    Federal Reserve Bank of Kansas City, “It’s Not Over ’Til It’s Over: Leadership and Financial Regulation,” 10/10/2010, www.kansascityfed.org/speechbio/
              hoenigpdf/william-taylor-hoenig-10-10-10.pdf, accessed 1/20/2010.
      3. 	    Congressman Bachus Statement on Dodd-Frank Regulatory Bill, 6/30/2010, http://bachus.house.gov/index.php?option=com_content&task=view&id
              =1034&Itemid=108, accessed 1/20/2010; House Financial Services Committee, “What’s REALLY in the Dodd-Frank Financial Reform Bill? Lots of
              Bailouts,” no date, http://financialservices.house.gov/singlepages.aspx?NewsID=1730, accessed 1/20/2010.
      4. 	    FDIC, “Remarks by FDIC Chairman Sheila C. Bair: The Financial Crisis and Regulatory Reform to the AICPA - SIFMA National Conference on the
              Securities Industry; New York, NY,” 11/17/2010, www.fdic.gov/news/news/speeches/chairman/spnov1710.html, accessed 1/20/2011.
      5. 	    Congressional Oversight Panel, “December Oversight Report,” 12/14/2010, http://cop.senate.gov/documents/cop-121410-report.pdf, accessed
              1/20/2010.
      6. 	    SIGTARP audit report, “Factors Affecting the Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/reports/
              audit/2010/Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 1/21/2011; GAO, “Troubled Asset Relief
              Program-Home Affordable Modification Program Continues to Face Implementation Challenges,” 3/25/2010, www.gao.gov/new.items/d10556t.pdf,
              accessed 1/20/2011; Congressional Oversight Panel, “Evaluating Progress of TARP Foreclosure Mitigation Programs,” 4/14/2010, http://cop.senate.gov/
              reports/library/report-041410-cop, accessed 1/21/2011.
      7. 	    Congressional Oversight Panel, “December Oversight Report: A Review of Treasury’s Foreclosure Prevention Programs,” 12/14/2010, http://cop.senate.
              gov/documents/cop-121410-report.pdf, accessed 1/20/2011.
      8. 	    See, for example, SIGTARP’s audit report “Factors Affecting Implementation of the Home Affordable Modification Program,” published March 25,
              2010.
      9. 	    In October 2009 Treasury started to encounter challenges with its website counting system, and, as a result, changed to a new system in January 2010.
              SIGTARP has calculated the total number of website hits reported herein based on the number reported to SIGTARP as of September 30, 2009,
              plus an archived number provided by Treasury for October–December 2009 and information generated from Treasury’s new system from January–
              September 2010.
      10. 	   Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011; Treasury, response to SIGTARP
              data call, 1/7/2011.
      11. 	   Emergency Economic Stabilization Act of 2008, P.L.110-343, 10/3/2008, p. 1.
      12. 	   Emergency Economic Stabilization Act of 2008, P.L.110-343, 10/3/2008, pp. 2, 16.
      13. 	   Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit Strategy for
              TARP,” 12/9/2009, www.treasury.gov/press-center/press-releases/Pages/tg433.aspx, accessed 12/9/2010.
      14. 	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 9.
      15. 	   The White House Blog, “President Obama Signs Wall Street Reform: ‘No Easy Task,’” 7/21/2010, www.whitehouse.gov/blog/2010/07/21/presidento-
              bama-signs-wall-street-reform-no-easy-task, accessed 8/24/2010; Library of Congress, Bill Summary & Status, 111th Congress, 2009-2010, H.R. 4173,
              no date, thomas.loc.gov/cgi-bin/bdquery/z?d111:H.R.4173, accessed 8/27/2010.
      16. 	   Office of Management and Budget, “Mid-Session Review, Budget of the U.S. Government – Fiscal Year 2011,” 7/23/2010, www.whitehouse.gov/sites/
              default/files/omb/budget/fy2011/assets/11msr.pdf, accessed 8/19/2010.
      17. 	   Office of Management and Budget, “OMB Report under the Emergency Economic Stabilization Act, Section 202,” 10/15/2010, www.whitehouse.gov/
              sites/default/files/OMB212Sharp_omb_eop_gov_20101015_175127.pdf, accessed 12/14/2010.
      18. 	   Congressional Budget Office, “Director’s Blog, Report on the Troubled Asset Relief Program—November 2010,” 11/29/2010, cboblog.cbo.gov/?p=1647,
              accessed 12/2/2010.
      19. 	   Congressional Budget Office, “Report on the Troubled Asset Relief Program—November 2010,” 11/2010, www.cbo.gov/ftpdocs/119xx/doc11980/11-
              29-TARP.pdf, accessed 11/30/2010.
      20. 	   GAO, “Office of Financial Stability (Troubled Asset Relief Program) Fiscal Years 2010 and 2009 Financial Statements,” 11/15/2010, www.gao.gov/new.
              items/d11174.pdf, accessed 1/19/2011; Treasury, “Office of Financial Stability Agency Financial Report—Fiscal Year 2010,” 9/30/2010, www.treasury.
              gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/17/2011.
      21. 	   Treasury, “Office of Financial Stability Agency Financial Report—Fiscal Year 2010,” 9/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-
              room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/17/2011.
      22. 	   Congressional Budget Office, “Report on the Troubled Asset Relief Program—November 2010,” 11/2010, www.cbo.gov/ftpdocs/119xx/doc11980/11-
              29-TARP.pdf, accessed 11/30/2010.
      23. 	   Treasury, “Office of Financial Stability Agency Financial Report—Fiscal Year 2010,” 9/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-
              room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/17/2011.
      24. 	   Congressional Budget Office, “Report on the Troubled Asset Relief Program—November 2010,” 11/2010, www.cbo.gov/ftpdocs/119xx/doc11980/11-
              29-TARP.pdf, accessed 11/30/2010.
      25. 	   Treasury, “Office of Financial Stability Agency Financial Report—Fiscal Year 2010,” 9/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-
              room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/17/2011; OMB, “OMB Report under the Emergency
              Economic Stabilization Act, Section 202,” 10/15/2010, www.whitehouse.gov/sites/default/files/OMB212Sharp_omb_eop_gov_20101015_175127.pdf,
              accessed 12/14/2010.
      26. 	   Congressional Budget Office, “Report on the Troubled Asset Relief Program—November 2010,” 11/2010, www.cbo.gov/ftpdocs/119xx/doc11980/11-
              29-TARP.pdf, accessed 11/30/2010.
      27. 	   Treasury, Section 105(a) Report, 8/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/July%202010%20
              105(a)%20Report_Final.pdf, accessed 1/17/2011; Helping Families Save Their Homes Act of 2009, P.L. 111-022, 5/20/2009, p. 12.
      28. 	   Treasury, Section 105(a) Report, 8/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/July%202010%20
              105(a)%20Report_Final.pdf, accessed 1/17/2011; Helping Families Save Their Homes Act of 2009, P.L. 111-022, 5/20/2009, p. 12.
      29. 	   Treasury, response to SIGTARP data call, 1/4/2011.
                                                                                               quarterly report to congress I january 26, 2011                    203


30. 	 As of December 31, 2010, 148 TARP recipients in various programs had repaid their TARP funds. Under CPP, 143 TARP recipients had repaid a total
      of $167.9 billion. Chrysler Financial LLC, General Motors, and Chrysler had repaid TARP funds under AIFP totaling $26.9 billion. Under TIP, Bank
      of America and Citigroup had repaid $40 billion. Under PPIP, two PPIFs repaid a total of $592.8 million. Treasury and Citigroup also terminated their
      agreement under AGP, reducing Treasury’s exposure by $5 billion. Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-
      stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed
      1/16/2011.
31. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011; Treasury, response to SIGTARP
      data call, 1/7/2011.
32. 	 Treasury, Section 105(a) Report, 1/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/December%20
      105(a)%20Report%20FINAL.pdf, accessed 1/17/2011; Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/brief-
      ing-room/reports/tarp-transactions/DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011.
33. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011; Treasury, response to SIGTARP
      data call, 1/7/2011.
34. 	 Treasury, response to SIGTARP data call, 1/4/2011.
35. 	 Treasury Press Release, “Relief for Responsible Homeowners One Step Closer Under New Treasury Guidelines,” 3/4/2009, www.treasury.gov/press-
      center/press-releases/Pages/tg48.aspx, accessed 1/17/2011.
36. 	 Treasury, “Office of Financial Stability Agency Financial Report – 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/re-
      ports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/17/2011.
37. 	 Treasury, “Home Affordable Modification Program — Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 12/9/2010.
38. 	 Treasury, “Office of Financial Stability: Agency Financial Report – 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/re-
      ports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/17/2011.
39. 	 Treasury, response to SIGTARP data call, 1/21/2011.
40. 	 Treasury, response to SIGTARP data call, 1/21/2011.
41. 	 Treasury, response to SIGTARP data call, 1/21/2011.
42. 	 Treasury, response to SIGTARP data call, 1/21/2011.
43. 	 Treasury, “Housing Finance Agency Innovation Fund for the Hardest Hit Housing Markets,” 3/5/2010, www.makinghomeaffordable.gov/docs/HFA%20
      FAQ%20--%20030510%20FINAL%20(Clean).pdf, accessed 7/12/2010.
44. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011; Treasury, “Update to the HFA
      Hardest Hit Fund Frequently Asked Questions,” 3/29/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/Documents/
      Hardest20Hit20public20QA20020292010.pdf, accessed 1/17/2011; Treasury, “Housing Finance Agency Innovation Fund for the Hardest Hit Housing
      Markets,” 3/5/2010, www.makinghomeaffordable.gov/docs/HFA%20FAQ%20--%20030510%20FINAL%20(Clean).pdf, accessed 7/12/2010; Treasury
      Press Release, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
      with Unemployment,” 8/11/2010, ustreas.gov/press/releases/tg823.htm, accessed 1/17/2011.
45. 	 Treasury, response to SIGTARP draft report, 1/11/2011.
46. 	 Treasury, response to SIGTARP data call, 10/7/2010.
47. 	 Treasury, response to SIGTARP data call, 1/21/2011.
48. 	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 3.
49. 	 Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/investment-programs/cpp/Pages/capital-
      purchaseprogram.aspx, accessed 1/17/2011.
50. 	 Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/investment-programs/cpp/Pages/capital-
      purchaseprogram.aspx, accessed 1/17/2011.
51. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011.
52. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011.
53. 	 Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit Strategy
      for TARP,” 12/9/2009, www.treasury.gov/press-center/press-releases/Pages/tg433.aspx, accessed 1/17/2011; for date CPP was closed, see last in-
      vestment date in Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011.
54. 	 Treasury, response to SIGTARP draft report, 10/8/2010.
55. 	 Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/cdci/Documents/
      CDCI20FAQs20Updated.pdf, accessed 1/17/2011.
56. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011.
57. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011.
58. 	 White House, “President Obama Signs Small Business Jobs Act – Learn What’s In It,” 9/27/2010, www.whitehouse.gov/blog/2010/09/27/presidento-
      bama-signs-small-business-jobs-act-learn-whats-it, accessed 9/28/2010.
59. 	 Small Business Lending Act, P.L. 111-240, 9/27/2010, p. 84.
60. 	 Small Business Lending Act, P.L. 111-240, 9/27/2010, p. 89.
61. 	 Small Business Lending Act, P.L. 111-240, 9/27/2010, p. 91.
62. 	 Treasury, “Programs,” 5/7/2009, www.treasury.gov/initiatives/financial-stability/investment-programs/AIG/Pages/default.aspx, accessed 1/17/2011.
63. 	 The $40 billion Series D cumulative preferred shares were effectively converted to $41.6 billion Series E non-cumulative preferred without any cash
      outlay by Treasury. Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011.
204             special inspector general I troubled asset relief program



      64. 	 Treasury, “Master Transaction Agreement,” 12/8/2010, www.treasury.gov/initiatives/financial-stability/investment-programs/AIG/Documents/Master.
            Transaction.Agt.with.Attachments.pdf, accessed 12/22/2010.
      65. 	 FRBNY, response to SIGTARP vetting draft, 1/12/2011.
      66. 	 American International Group, Inc. 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed
            12/22/2010
      67. 	 American International Group, Inc. 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed
            12/22/2010.
      68. 	 American International Group, Inc. 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed
            12/22/2010; Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011; Treasury, Transactions Report,
            1/14/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/1-18-11%20
            Transactions%20Report%20as%20of%201-13-11.pdf, accessed 1/19/2011.
      69. 	 OFS, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/OFS%20
            AFR%2009_24.pdf, accessed 7/7/2010.
      70. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011.
      71. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011.
      72. 	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 1/14/2011, www.treasury.gov/press-center/
            press-releases/Pages/tg1023.aspx, accessed 1/18/2011; Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/brief-
            ing-room/reports/tarp-transactions/DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011.
      73. 	 OFS, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/OFS%20
            AFR%2009_24.pdf, accessed 7/7/2010.
      74. 	 Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 12/16/2009, www.treasury.gov/press-center/
            press-releases/Pages/hp1358.aspx, accessed 1/17/2011.
      75. 	 Senate, “Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Authorization to Provide Residual Financing to
            Citigroup, Inc. For a Designated Asset Pool,” 11/23/2008, www.banking.senate.gov/public/_files/Sec129ReportCitigroupDec12008.pdf, accessed
            8/19/2010.
      76. 	 Treasury, Section 105(a) Report, 1/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/December%20
            105(a)%20Report%20FINAL.pdf, accessed 1/17/2011.
      77. 	 Treasury, response to SIGTARP vetting draft, 10/8/2010.
      78. 	 Board of Governors of the Federal Reserve System Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.
            htm, accessed 8/23/2010.
      79. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 8/23/2010.
      80. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed 8/23/2010;
      	     FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/TALF_recent_opera-
            tions.html, accessed 8/24/2010; FRBNY, response to SIGTARP data call, 1/5/2011.
      81. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 8/23/2010;
            FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/CMBS_recent_operations.
            html, accessed 8/24/2010; FRBNY, response to SIGTARP data call, 1/5/2011.
      82. 	 Board of Governors of the Federal Reserve System Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.
            htm, accessed 8/23/2010.
      83. 	 FRBNY, response to SIGTARP data call, 1/5/2011.
      84. 	 Treasury, “Road to Stability — Legacy Securities Public-Private Investment Program,” 10/20/2010, www.treasury.gov/initiatives/financial-stability/invest-
            ment-programs/ppip/s-ppip/Pages/legacysecurities.aspx, accessed 1/17/2011.
      85. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011; Treasury, response to SIGTARP
            data call, 10/7/2010.
      86. 	 Treasury, response to SIGTARP draft report, 1/11/2011; Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/brief-
            ing-room/reports/tarp-transactions/DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011.
      87. 	 Treasury, response to SIGTARP draft report, 10/8/2010.
      88. 	 Treasury Press Release, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/tg58.aspx,
            accessed 12/8/2010.
      89. 	 Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 3/2/2010, www.trea-
            sury.gov/initiatives/financial-stability/investment-programs/cbli/Small-Business/Documents_Contracts_Agreements/Coastal%20Securities,%20Inc.pdf,
            accessed 1/7/2011; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed
            8/27/2010, www.treasury.gov/initiatives/financial-stability/investment-programs/cbli/Small-Business/Documents_Contracts_Agreements/Executed%20
            Copy%20of%20Shay%20Financial%20Services,%20Inc.%20MPA%20(73485877_2).pdf, accessed 1/7/2011.
      90. 	 Treasury, “Financial Agency Agreement for Asset Management Services for SBA Related Loans and Securities,” 3/16/2009, www.treasury.gov/initia-
            tives/financial-stability/about/procurement/faa/Financial_Agency_Agreements/TARP%20FAA%20SBA%20Asset%20Manager%20-%20Final%20to%20
            be%20posted.pdf, accessed 1/17/2011; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA
            Pool Assemblers,” signed 3/2/2010, www.treasury.gov/initiatives/financial-stability/investment-programs/cbli/Small-Business/Documents_Contracts_
            Agreements/Coastal%20Securities,%20Inc.pdf, accessed 1/17/2011; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior
            Securities Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/investment-programs/cbli/Small-Business/
            Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20MPA%20(73485877_2).pdf, accessed
            1/17/2011.
                                                                                               quarterly report to congress I january 26, 2011                     205


91. 	 Treasury, “Guidelines for Automotive Industry Financing Program,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/aifp/
       Documents_Contracts_Agreements/AIFP_guidelines.pdf, accessed 1/17/2011.
92. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011.
93. 	 Treasury, Dividends and Interest Report, 1/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
       DocumentsDividendsInterest/December%202010%20Dividends%20Interest%20Report.pdf, accessed 1/21/11.
94. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011.
95. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011.
96. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011; Treasury, response to SIGTARP
       draft report, 1/14/2011.
97. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011; Treasury, response to SIGTARP
       draft report, 1/14/2011.
98. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011.
99. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011.
100. 	 Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry at a Time of Crisis,” no date, www.treasury.gov/press-center/press-releases/
       Documents/supplier_support_program_3_18.pdf, accessed 8/23/2010.
101. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011.
102. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011.
103. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011.
104. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011; Congressional Oversight Panel,
       “Accounting for the Troubled Asset Relief Program,” 6/10/2010, cop.senate.gov/documents/cop-061010-report.pdf, accessed 8/15/2010.
105. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011.
106. 	 Treasury Press Release, “Homeowner Affordability and Stability Plan: Executive Summary,” no date, www.treasury.gov/press-center/press-releases/Pages/
       tg33.aspx, accessed 1/17/2011.
107. 	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 12/9/2010.
108. 	 Treasury, “Making Home Affordable Updated Detailed Program Description,” no date, www.treasury.gov/press-center/press-releases/Documents/hous-
       ing_fact_sheet.pdf, accessed 7/2/2010.
109. 	 Treasury, TARP/Financial Stability Plan Budget Table, 10/4/2010, accessed 10/7/2010.
110. 	 Treasury, “Office of Financial Stability Agency Financial Report – 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/re-
       ports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/17/2011.
111. 	 Congressional Budget Office, “Report on the Troubled Asset Relief Program,” 3/2010, www.cbo.gov/ftpdocs/112xx/doc11227/03-17-TARP.pdf, accessed
       8/18/2010.
112. 	 Treasury, “Obama Administration Announces New Details on Making Home Affordable Program,” 5/14/2009, http://makinghomeaffordable.gov/
       pr_051409.html, accessed 1/18/2011.
113. 	 Fannie Mae, response to SIGTARP vetting draft, 10/6/2010.
114. 	 Treasury, “MHA Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
       mhahandbook_30.pdf, accessed 12/6/2010.
115. 	 Treasury, “Home Affordable Foreclosure Alternatives Program: Overview,” no date, www.hmpadmin.com/portal/programs/foreclosure_alternatives.jsp,
       accessed 12/19/2010.
116. 	 Treasury, “MHA Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
       mhahandbook_30.pdf, accessed 12/6/2010.
117. 	 Treasury, response to SIGTARP data call, 1/21/2011.
118. 	 FHA HAMP: Treasury, “Home Affordable Modification Program – Modifications of Loans Insured by the Federal Housing Administration (FHA),”
       3/26/2010, www.hmpadmin.com/portal/programs/docs/fha_hamp/sd1003.pdf, accessed 8/18/2010; Treasury, “Supplemental Directive 10-10: Home
       Affordable Unemployment Program-Modifications of Loans Guaranteed by the Rural Housing Service,” 9/17/2010, www.hmpadmin.com/portal/pro-
       grams/docs/rd_hamp/sd1010.pdf, accessed 9/21/2010; Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-
       6,” 5/24/2010, www.benefits.va.gov/homeloans/circulars/26_10_6.pdf, accessed 9/30/2010.
119. 	 Treasury, “Office of Financial Stability Agency Financial Report – 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/re-
       ports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/17/2011.
120. 	 Treasury, “Office of Financial Stability: Agency Financial Report – 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/re-
       ports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/17/2011, accessed 12/9/2010.
121. 	 Treasury, TARP/Financial Stability Plan Budget Table, 1/4/2011, accessed 1/12/2011.
122. 	 Treasury, Transactions Report, 9/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/9-30-10%20Transactions%20Report%20as%20of%209-28-10.pdf, accessed 1/17/2011.
206             special inspector general I troubled asset relief program



      123. 	 Treasury, “Supplemental Directive 10-13: Program Participation Cap Adjustment Pursuant to the Servicer Cap Model,” 10/1/2010, www.hmpadmin.
             com/portal/programs/docs/hamp_servicer/sd1013.pdf, accessed 10/5/2010.
      124. 	 Treasury, “Supplemental Directive 10-13: Program Participation Cap Adjustment Pursuant to the Servicer Cap Model,” 10/1/2010, www.hmpadmin.
             com/portal/programs/docs/hamp_servicer/sd1013.pdf, accessed 10/5/2010.
      125. 	 Treasury, response to SIGTARP data call, 1/4/2011.
      126. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/17/2011.
      127. 	 Treasury, response to SIGTARP data call, 1/21/2011.
      128. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/17/2011.
      129. 	 Treasury, response to SIGTARP draft report, 1/11/2011.
      130. 	 Treasury, response to SIGTARP data call, 1/5/2011; HUD, conference call, 1/14/2011.
      131. 	 Treasury, response to SIGTARP data call, 1/21/2011.
      132. 	 Treasury, response to SIGTARP data call, 1/13/2011.
      133. 	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 3/1/2010.
      134. 	 Treasury, “Making Home Affordable – Updated Detailed Program Description,” 3/4/2009, www.treasury.gov/press-center/press-releases/Documents/
             housing_fact_sheet.pdf, accessed 1/17/2011.
      135. 	 Treasury, “MHA Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
             mhahandbook_30.pdf, accessed 12/6/2010.
      136. 	 Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/
             HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
      137. 	 Treasury, “Supplemental Directive 10-09: MHA Program – Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/programs/docs/hamp_ser-
             vicer/sd1009.pdf, accessed 12/9/2010.
      138. 	 Treasury, “Supplemental Directive 10-09: MHA Program – Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/programs/docs/hamp_ser-
             vicer/sd1009.pdf, accessed 12/9/2010.
      139. 	 Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/
             docs/HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 3/26/2010; Treasury, “Supplemental Directive 10-11: Making
             Home Affordable Program - Dodd-Frank Certification,” 9/21/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1011.pdf, accessed
             12/2/2010.
      140. 	 Treasury, “Supplemental Directive 10-11: Making Home Affordable Program - Dodd-Frank Certification,” 9/21/2010, www.hmpadmin.com/portal/pro-
             grams/docs/hamp_servicer/sd1011.pdf, accessed 12/2/2010.
      141. 	 Treasury, “Supplemental Directive 10-16: Making Home Affordable Program-Policy Update,” 11/23/2010, www.hmpadmin.com/portal/programs/docs/
             hamp_servicer/sd1016.pdf, accessed 12/22/2010.
      142. 	 Treasury, “Supplemental Directive 09-01: Introduction of the Home Affordable Modification Program,” 4/6/2009, www.hmpadmin.com/portal/pro-
             grams/docs/hamp_servicer/sd0901.pdf, accessed 7/2/2010.
      143. 	 Treasury, “Handbook for Servicers of Non-GSE Mortgages Version 3.0,” 12/2/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/mhah-
             andbook_30.pdf, accessed 12/22/2010.
      144. 	 Treasury, “Supplemental Directive 10-09: MHA Program – Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/programs/docs/hamp_ser-
             vicer/sd1009.pdf, accessed 12/9/2010.
      145. 	 Treasury, “Supplemental Directive 10-09: MHA Program – Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/programs/docs/hamp_ser-
             vicer/sd1009.pdf, accessed 9/7/2010.
      146. 	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, http://sigtarp.gov/reports/audit/2010/Factors_
             Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 3/25/2010.
      147. 	 Treasury, “Handbook for Servicers of Non-GSE Mortgages Version 3.0,” 12/2/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/mhah-
             andbook_30.pdf, accessed 12/22/2010.
      148. 	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, http://sigtarp.gov/reports/audit/2010/Factors_
             Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 3/25/2010.
      149. 	 Treasury, response to SIGTARP data call, 1/21/2011.
      150. 	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, http://sigtarp.gov/reports/audit/2010/Factors_
             Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 3/25/2010.
      151. 	 Treasury, “Supplemental Directive 10-09: MHA Program – Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/programs/docs/hamp_ser-
             vicer/sd1009.pdf, accessed 9/7/2010.
      152. 	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, http://sigtarp.gov/reports/audit/2010/Factors_
             Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 3/25/2010.
      153. 	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, http://sigtarp.gov/reports/audit/2010/Factors_
             Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 3/25/2010.
      154. 	 Treasury, “MHA Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
             mhahandbook_30.pdf, accessed 12/6/2010.
      155. 	 Treasury, “MHA Handbook for Servicers of Non-GSE Mortgages, Version 2.0,” 9/22/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
             mhahandbook_20.pdf, accessed 9/30/2010.
      156. 	 Treasury, “Supplemental Directive 10-09: MHA Program – Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/programs/docs/hamp_ser-
             vicer/sd1009.pdf, accessed 9/7/2010.
      157. 	 Treasury, “Supplemental Directive 10-09: MHA Program – Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/programs/docs/hamp_ser-
             vicer/sd1009.pdf, accessed 9/7/2010.
      158. 	 Treasury, “Supplemental Directive 09-01: Introduction of the Home Affordable Modification Program,” 4/6/2009, www.hmpadmin.com/portal/pro-
             grams/docs/hamp_servicer/sd0901.pdf, accessed 7/12/2010.
                                                                                          quarterly report to congress I january 26, 2011               207


159. 	 Treasury, “MHA Handbook for Servicers of Non-GSE Mortgages, Version 2.0,” 9/22/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
       mhahandbook_20.pdf, accessed 9/30/2010.
160. 	 Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program – Home Price Decline Protection Incentives,” 7/31/2009, www.
       hmpadmin.com/portal/programs/docs/hamp_servicer/sd0904.pdf, accessed 9/23/2010.
161. 	 Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program – Home Price Decline Protection Incentives,” 7/31/2009, www.
       hmpadmin.com/portal/programs/docs/hamp_servicer/sd0904.pdf, accessed 9/23/2010.
162. 	 Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program – Home Price Decline Protection Incentives,” 7/31/2009, www.
       hmpadmin.com/portal/programs/docs/hamp_servicer/sd0904.pdf, accessed 9/23/2010.
163. 	 Treasury, response to SIGTARP data call, 1/21/2011.
164. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/17/2011.
165. 	 Treasury, response to SIGTARP data call, 1/21/2011.
166. 	 Treasury, “Supplemental Directive 10-15: Making Home Affordable Program – Case Escalation Process/Dodd-Frank Act NPV Notices,” 11/3/2010,
       www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1015.pdf, accessed 12/13/2010.
167. 	 FHFA, response to SIGTARP draft report, 1/12/2011.
168. 	 Treasury, “Supplemental Directive 10-15: Making Home Affordable Program – Case Escalation Process/Dodd-Frank Act NPV Notices,” 11/3/2010,
       www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1015.pdf, accessed 12/13/2010.
169. 	 Treasury, “Supplemental Directive 10-15: Making Home Affordable Program – Case Escalation Process/Dodd-Frank Act NPV Notices,” 11/3/2010,
       www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1015.pdf, accessed 12/13/2010.
170. 	 Treasury, “Supplemental Directive 10-15: Making Home Affordable Program – Case Escalation Process/Dodd-Frank Act NPV Notices,” 11/3/2010,
       www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1015.pdf, accessed 12/13/2010.
171. 	 Treasury, “Supplemental Directive 10-15: Making Home Affordable Program – Case Escalation Process/Dodd-Frank Act NPV Notices,” 11/3/2010,
       www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1015.pdf, accessed 12/13/2010.
172. 	 Treasury, “Supplemental Directive 10-15: Making Home Affordable Program – Case Escalation Process/Dodd-Frank Act NPV Notices,” 11/3/2010,
       www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1015.pdf, accessed 12/13/2010.
173. 	 Treasury, “Supplemental Directive 10-15: Making Home Affordable Program – Case Escalation Process/Dodd-Frank Act NPV Notices,” 11/3/2010,
       www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1015.pdf, accessed 12/13/2010.
174. 	 American Banker, “Lender Tie to Borrower Aid: How a Fox was sent to guard HAMP house,” 12/20/2010, www.americanbanker.com/news/how-a-fox-
       was-sent-to-guard-the-hamp-house-1030121-1.html, accessed 1/4/2011.
175. 	 American Banker, “Lender Tie to Borrower Aid: How a Fox was sent to guard HAMP house,” 12/20/2010, www.americanbanker.com/news/how-a-fox-
       was-sent-to-guard-the-hamp-house-1030121-1.html, accessed 1/4/2011.
176. 	 Treasury, “Handbook for Servicers of Non-GSE Mortgages Version 3.0,” 12/2/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/mhah-
       andbook_30.pdf, accessed 12/22/2010.
177. 	 Treasury, “Supplemental Directive 10-15: Making Home Affordable Program – Case Escalation Process/Dodd-Frank Act NPV Notices,” 11/3/2010,
       www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1015.pdf, accessed 12/13/2010.
178. 	 Treasury, “MHA Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
       mhahandbook_30.pdf, accessed 12/6/2010.
179. 	 Treasury, “MHA Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
       mhahandbook_30.pdf, accessed 12/6/2010.
180. 	 Treasury, “MHA Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
       mhahandbook_30.pdf, accessed 12/6/2010.
181. 	 Treasury, “MHA Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
       mhahandbook_30.pdf, accessed 12/6/2010.
182. 	 MHA, “Administrative Website for Servicers: Counselor Escalation Process,” no date, www.hmpadmin.com/portal/resources/escalation.jsp, accessed
       12/13/2010.
183. 	 Treasury, “MHA Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
       mhahandbook_30.pdf, accessed 12/6/2010.
184. 	 Treasury, “MHA Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
       mhahandbook_30.pdf, accessed 12/6/2010.
185. 	 Treasury, “MHA Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
       mhahandbook_30.pdf, accessed 12/6/2010.
186. 	 Treasury, “MHA Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
       mhahandbook_30.pdf, accessed 12/6/2010.
187. 	 Treasury, “MHA Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
       mhahandbook_30.pdf, accessed 12/6/2010.
188. 	 Treasury, response to SIGTARP draft report, 1/12/2011.
189. 	 Treasury, response to SIGTARP draft report, 1/12/2011.
190. 	 Treasury, “Supplemental Directive 10-15: Making Home Affordable Program – Case Escalation Process/Dodd-Frank Act NPV Notices,” 11/3/2010,
       www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1015.pdf, accessed 12/13/2010.
191. 	 Treasury, response to SIGTARP draft report, 1/12/2011.
192. 	 Treasury, “MHA Handbook for Servicer of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
       mhahandbook_30.pdf, accessed 12/6/2010.
193. 	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/programs/docs/
       hafa/sd0909r.pdf, accessed 3/29/2010.
194. 	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/programs/docs/
       hafa/sd0909r.pdf, accessed 3/29/2010.
208            special inspector general I troubled asset relief program



      195. 	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/programs/docs/
             hafa/sd0909r.pdf, accessed 3/29/2010; Treasury, “HAMP Update – New Program Offers Borrowers Foreclosure Alternatives,” 11/30/2009,
             www.hmpadmin.com/portal/news/docs/2009/hampupdate113009.pdf, accessed 1/19/2011.
      196. 	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program – Policy Update,” 12/28/2010, www.hmpadmin.com/
             portal/programs/docs/hafa/sd1018.pdf, accessed 1/4/2011.
      197. 	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program – Policy Update,” 12/28/2010, www.hmpadmin.com/
             portal/programs/docs/hafa/sd1018.pdf, accessed 1/4/2011.
      198. 	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program – Policy Update,” 12/28/2010, www.hmpadmin.com/
             portal/programs/docs/hafa/sd1018.pdf, accessed 1/4/2011.
      199. 	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program – Policy Update,” 12/28/2010, www.hmpadmin.com/
             portal/programs/docs/hafa/sd1018.pdf, accessed 1/4/2011.
      200. 	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program – Policy Update,” 12/28/2010, www.hmpadmin.com/
             portal/programs/docs/hafa/sd1018.pdf, accessed 1/4/2011.
      201. 	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program – Policy Update,” 12/28/2010, www.hmpadmin.com/
             portal/programs/docs/hafa/sd1018.pdf, accessed 1/4/2011.
      202. 	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program – Policy Update,” 12/28/2010, www.hmpadmin.com/
             portal/programs/docs/hafa/sd1018.pdf, accessed 1/4/2011.
      203. 	 Treasury, “MHA Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
             mhahandbook_30.pdf, accessed 1/4/2010.
      204. 	 Treasury, response to SIGTARP data call, 1/21/2011.
      205. 	 Treasury, “November 2010 Making Home Affordable Program Report,” 12/22/2010, www.treasury.gov/initiatives/financial-stability/results/MHA-
             Reports/Documents/Nov%202010%20MHA%20Report.pdf, accessed 1/21/2011.
      206. 	 Treasury, “MHA Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
             mhahandbook_30.pdf, accessed 1/4/2010.
      207. 	 Treasury, “MHA Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
             mhahandbook_30.pdf, accessed 1/4/2010.
      208. 	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/portal/
             programs/docs/second_lien/sd0905r.pdf, accessed 3/28/2010.
      209. 	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/portal/
             programs/docs/second_lien/sd0905r.pdf, accessed 3/28/2010.
      210. 	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/portal/
             programs/docs/second_lien/sd0905r.pdf, accessed 10/10/2010.
      211. 	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/portal/
             programs/docs/second_lien/sd0905r.pdf, accessed 3/28/2010.
      212. 	 Treasury, response to SIGTARP data call, 1/21/2011.
      213. 	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program – Modifications of Loans Guaranteed by the Rural Housing
             Service,” 9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 9/21/2010.
      214. 	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program – Modifications of Loans Guaranteed by the Rural Housing
             Service,” 9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 9/21/2010.
      215. 	 Treasury, “Supplemental Directive 10-03: Home Affordable Modification Program – Modifications of Loans Insured by the Federal Housing
             Administration (FHA),” 3/26/2010, www.hmpadmin.com/portal/programs/docs/fha_hamp/sd1003.pdf, accessed 3/29/2010.
      216. 	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program – Modifications of Loans Guaranteed by the Rural Housing
             Service,” 9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 9/21/2010.
      217. 	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/circu-
             lars/26_10_6.pdf, accessed 9/30/2010.
      218. 	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/circu-
             lars/26_10_6.pdf, accessed 9/30/2010.
      219. 	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program – Modifications of Loans Guaranteed by the Rural Housing
             Service,” 9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 9/21/2010.
      220. 	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/circu-
             lars/26_10_6.pdf, accessed 9/30/2010.
      221. 	 Treasury, response to SIGTARP data call, 1/21/2011.
      222. 	 Treasury Press Release, “Housing Program Enhancements Offer Additional Options for Struggling Homeowners,” 3/26/2010, www.treasury.gov/press-
             center/press-releases/Pages/tg614.aspx, accessed 1/17/2011.
      223. 	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/programs/docs/hamp_
             servicer/sd1004.pdf, accessed 6/1/2010.
      224. 	 Treasury, response to SIGTARP data call, 1/21/2011.
      225. 	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/programs/docs/hamp_
             servicer/sd1004.pdf, accessed 6/1/2010.
      226. 	 Treasury, “Supplemental Directive 10-16: Making Home Affordable Program-Policy Update,” 11/23/2010, www.hmpadmin.com/portal/programs/docs/
             hamp_servicer/sd1016.pdf, accessed 12/22/2010.
      227. 	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/programs/docs/hamp_
             servicer/sd1004.pdf, accessed 6/1/2010.
      228. 	 Treasury, “MHA Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
             mhahandbook_30.pdf, accessed 12/6/2010.
      229. 	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/programs/docs/hamp_
             servicer/sd1004.pdf, accessed 6/1/2010.
                                                                                               quarterly report to congress I january 26, 2011                     209



230. 	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/programs/docs/hamp_
       servicer/sd1004.pdf, p. 4, accessed 6/1/2010.
231. 	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/programs/docs/hamp_
       servicer/sd1004.pdf, accessed 6/1/2010.
232. 	 Treasury, “MHA Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
       mhahandbook_30.pdf, accessed 12/6/2010.
233. 	 Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/
       HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
234. 	 Treasury, “HAMP: Modification of Loans with Principal Reduction Alternative,” no date, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
       praoverviewnongse.pdf, accessed 6/3/2010.
235. 	 Treasury, “HAMP: Modification of Loans with Principal Reduction Alternative,” no date, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
       praoverviewnongse.pdf accessed 6/3/2010.
236. 	 Treasury, “Supplemental Directive 09-01: Introduction of the Home Affordable Modification Program,” 4/6/2010, www.hmpadmin.com/portal/pro-
       grams/docs/hamp_servicer/sd0901.pdf, accessed 7/2/2010.
237. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/pro-
       grams/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
239. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/pro-
       grams/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
240. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/pro-
       grams/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
241. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/pro-
       grams/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
242. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/pro-
       grams/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
243. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/pro-
       grams/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
244. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/pro-
       grams/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
245. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/pro-
       grams/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
246. 	 Treasury, “Supplemental Directive 10-09: MHA Program – Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/programs/docs/hamp_ser-
       vicer/sd1009.pdf, accessed 9/7/2010.
247. 	 Treasury, “Supplemental Directive 10-14: MHA Program – Principal Reduction Alternative Update,” 12/22/2010, www.hmpadmin.com/portal/pro-
       grams/docs/hamp_servicer/sd1014.pdf, accessed 12/22/2010.
248. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/pro-
       grams/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
249. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/pro-
       grams/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
250. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/pro-
       grams/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
251. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/pro-
       grams/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
252. 	 Treasury, “Supplemental Directive 10-14: MHA Program -- Principal Reduction Alternative Update,” 12/22/2010, www.hmpadmin.com/portal/pro-
       grams/docs/hamp_servicer/sd1014.pdf, accessed 12/22/2010.
253. 	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/FHA_
       Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
254. 	 Treasury, response to SIGTARP data call, 10/22/2010; Treasury, Transactions Report, 9/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-
       room/reports/tarp-transactions/DocumentsTARPTransactions/9-30-10%20Transactions%20Report%20as%20of%209-28-10.pdf, accessed 10/5/2010.
255. 	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/FHA_
       Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
256. 	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 9/14/2010; Treasury,
       “Supplemental Directive 10-12: Making Home Affordable Program – Treasury/FHA Second Lien Program (FHA2LP) Effective Date,” 9/24/2010, www.
       hmpadmin.com/portal/programs/docs/hamp_servicer/sd1012.pdf, accessed 9/25/2010.
257. 	 HUD, response to SIGTARP data call, 1/14/2011.
258. 	 HUD, response to SIGTARP data call, 1/5/2011.
259. 	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 9/14/2010; HUD,
       response to SIGTARP draft report, 1/10/2011.
260. 	 HUD, response to SIGTARP vetting draft, 1/19/2011.
261. 	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 9/14/2010; Treasury,
       “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/FHA_
       Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
262. 	 Treasury, “Supplemental Directive 10-08: Making Home Affordable Program – Treasury/FHA Second Lien Program (FHA2LP) to Support FHA
       Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1008.pdf, accessed
       12/9/2010.
263. 	 HUD, response to SIGTARP draft report, 1/10/2011.
210             special inspector general I troubled asset relief program




      264. 	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/FHA_
             Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
      265. 	 Treasury, “Supplemental Directive 10-08: Making Home Affordable Program – Treasury/FHA Second Lien Program (FHA2LP) to Support FHA
             Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1008.pdf, accessed
             12/9/2010.
      266. 	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/FHA_
             Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
      267. 	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/FHA_
             Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
      268. 	 HUD, response to SIGTARP draft report, 1/19/2011.
      269. 	 HUD, response to SIGTARP draft report, 1/12/2011.
      270. 	 Treasury, “Supplemental Directive 10-08: Making Home Affordable Program – Treasury/FHA Second Lien Program (FHA2LP) to Support FHA
             Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1008.pdf, accessed
             8/20/2010.
      271. 	 Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.makinghomeaffordable.gov/pr_03052010.html, accessed 3/8/2010.
      272. 	 Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.makinghomeaffordable.gov/pr_03052010.html, accessed 3/8/2010.
      273. 	 Treasury, Transactions Report, 9/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/9-30-10%20Transactions%20Report%20as%20of%209-28-10.pdf, accessed 1/17/2011.
      274. 	 Treasury, “Administration Announces Second Round of Assistance for Hardest-Hit Housing Markets,” 3/29/2010, www.treasury.gov/press-center/press-
             releases/Pages/tg618.aspx, accessed 1/18/2011.
      275. 	 Treasury, Transactions Report, 9/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/9-30-10%20Transactions%20Report%20as%20of%209-28-10.pdf, accessed 1/17/2011.
      276. 	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling with
             Unemployment,” 8/11/2010, http://portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
             1/18/2011.
      277. 	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling with
             Unemployment,” 8/11/2010, http://portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
             1/18/2011.
      278. 	 Treasury, Section 105(a) Report, 9/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/August%20
             2010%20105(a)%20Report_final_9%2010%2010.pdf, accessed 9/13/2010.
      279. 	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling with
             Unemployment,” 8/11/2010, http://portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
             1/18/2011.
      280. 	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling with
             Unemployment,” 8/11/2010, http://portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
             1/18/2011.
      281. 	 Treasury, Transactions Report, 9/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/9-30-10%20Transactions%20Report%20as%20of%209-28-10.pdf, accessed 1/17/2011.
      282. 	 Treasury, “TARP: Two Year Retrospective,” 10/5/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/
             TARP%20Two%20Year%20Retrospective_10%2005%2010_transmittal%20letter.pdf, accessed 10/6/2010.
      283. 	 Treasury, response to SIGTARP data call, 1/7/2011.
      284. 	 Treasury, “Obama Administration Approves State Plans for the Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Program,” 6/23/2010,
             www.treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 6/24/2010.
      285. 	 OFS, conference call, 6/14/2010.
      286. 	 Treasury, response to SIGTARP data call, 1/21/2011.
      287. 	 OFS conference call, 3/19/2009.
      288. 	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/investment-
             programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 1/17/2011.
      289. 	 Treasury, “Investment Programs, Capital Purchase Program,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/investment-programs/cpp/Pages/
             capitalpurchaseprogram.aspx, accessed 1/17/2011.
      290. 	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/investment-
             programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 1/17/2011.
      291. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011.
      292. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/17/2011; Treasury, “Investment Programs,
             Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/investment-programs/cpp/Pages/capitalpur-
             chaseprogram.aspx, accessed 1/17/2011.
      293. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/17/2011.
      294. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/17/2011.
      295. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/17/2011.
      296. 	 Treasury, Dividends and Interest Report, 1/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
             DocumentsDividendsInterest/December%202010%20Dividends%20Interest%20Report.pdf, accessed 1/21/2011.
                                                                                              quarterly report to congress I january 26, 2011                   211


297. 	 Treasury, response to SIGTARP vetting draft, 1/11/2011; Treasury, response to SIGTARP data call, 1/12/2011, Capital Purchase Program (CPP)
       Missed Dividends & Interest Payments, 12/31/2010, accessed 1/15/2011; SIGTARP, CPP-Related Missed Dividend & Interest Payments, 12/31/2010,
       accessed 1/15/2011; Treasury and SIGTARP Methodology for Missed Dividends & Interest, 12/31/2010, accessed 1/20/2011.
298. 	 Treasury, “Frequently Asked Questions, Capital Purchase Program (CPP), Related to Missed Dividend (or Interest), Payments and Director
       Nomination,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/cpp/Documents/CPP%20Directors%20FAQs.pdf, accessed
       1/17/2011.
299. 	 Treasury, response to SIGTARP data call, 1/10/2011.
300. 	 OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-stability/invest-
       ment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/17/2011.
301. 	 Treasury, response to SIGTARP data call, 10/6/2010; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no
       date, www.treasury.gov/initiatives/financial-stability/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf,
       accessed 1/17/2011.
302. 	 OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-stability/invest-
       ment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/17/2011.
303. 	 OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-stability/invest-
       ment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/17/2011.
304. 	 OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-stability/invest-
       ment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/17/2011.
305. 	 OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-stability/invest-
       ment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/17/2011.
306. 	 OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-stability/invest-
       ment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/17/2011.
307. 	 Treasury, response to SIGTARP data call, 1/7/2011.
308. 	 Treasury, Dividend and Interest Report, 1/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
       DocumentsDividendsInterest/December%202010%20Dividends%20Interest%20Report.pdf, accessed 1/21/2011; Treasury, response to SIGTARP data
       call, 1/12/2011, Capital Purchase Program (CPP) Missed Dividends & Interest Payments, 12/31/2010, accessed 1/21/2011.
309. 	 Treasury, response to SIGTARP data call, 1/12/2011, Capital Purchase Program (CPP) Missed Dividends & Interest Payments, 12/31/2010.
310. 	 Treasury, Capital Purchase Program (CPP) Missed Dividends & Interest Payments, 12/31/2010; SIGTARP, CPP-Related Missed Dividend & Interest
       Payments, 12/31/2010; Treasury and SIGTARP Methodology for Missed Dividends & Interest, 12/31/2010.
311. 	 Treasury, “Decoder,” no date, www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed 1/17/2011.
312. 	 Treasury, Warrant Disposition Report, 6/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/other/DocumentsOther/TARP%20
       Warrant%20Disposition%20Report%20v4.pdf, accessed 1/17/2011.
313. 	 Treasury Press Release, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.trea-
       sury.gov/press-center/press-releases/Pages/200962612255225533.aspx, accessed 1/17/2011.
314. 	 Treasury Press Release, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.trea-
       sury.gov/press-center/press-releases/Pages/200962612255225533.aspx, accessed 1/17/2011.
315. 	 Treasury Press Release, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.trea-
       sury.gov/press-center/press-releases/Pages/200962612255225533.aspx, accessed 1/17/2011; Treasury, Transactions Report, 10/8/2010, www.treasury.
       gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/10-8-10%20Transactions%20Report%20as%20
       of%2010-6-10.pdf, accessed 1/17/2011.
316. 	 Treasury Press Release, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.
       treasury.gov/press-center/press-releases/Pages/200962612255225533.aspx, accessed 1/17/2011; Treasury Press Release, 6/29/2009, “Treasury
       Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” www.treasury.gov/press-center/press-releases/
       Pages/200962612255225533.aspx, accessed 1/17/2011; Treasury Press Release, “Treasury Announces Warrant Repurchase and Disposition Process for
       the Capital Purchase Program,” 6/26/2009, www.treasury.gov/press-center/press-releases/Pages/200962612255225533.aspx, accessed 1/17/2011.
317. 	 Treasury, response to SIGTARP data call, 1/11/2011.
318. 	 Treasury, response to SIGTARP data call, 1/11/2011.
319. 	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/press-
       center/press-releases/Pages/200962612255225533.aspx, accessed 1/17/2011.
320. 	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010), www.
       treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 1/17/2011.
321. 	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 2/18/2010, www.treasury.gov/press-center/
       press-releases/Pages/tg415.aspx, accessed 1/17/2011.
322. 	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 2/18/2010, www.treasury.gov/press-center/
       press-releases/Pages/tg415.aspx, accessed 1/17/2011.
323. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011; Treasury, response to SIGTARP
       data call, 1/4/2011.
324. 	 OFS, conference call, 3/19/2010; Treasury, response to SIGTARP data call, 10/8/2010.
325. 	 OFS, conference call, 3/19/2010.
326. 	 Treasury, response to SIGTARP draft report, 1/14/2011.
327. 	 OFS, conference call, 3/19/2010.
328. 	 OFS, conference call, 3/19/2010.
329. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/17/2011.
212             special inspector general I troubled asset relief program



      330. 	 Treasury, Section 105(a) Report, 9/30/2010, Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/
             reports/tarp-transactions/DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/17/2011; Treasury
             Press Release, “Treasury Announces Plan to Sell Citigroup Common Stock,” 3/29/2010, www.treasury.gov/press-center/press-releases/Pages/tg615.aspx,
             accessed 1/17/2011.
      331. 	 Treasury Press Release, “Written Testimony of Herbert M. Allison, Jr., Assistant Secretary for Financial Stability Domestic Policy Subcommittee of the
             Oversight and Government Reform Committee,” 12/17/2009, www.treasury.gov/press-center/press-releases/Pages/tg453.aspx, accessed 1/17/2011.
      332. 	 Treasury Press Release, “Treasury Announces Plan to Sell Citigroup Common Stock,” 3/29/2010, www.treasury.gov/press-center/press-releases/Pages/
             tg615.aspx, accessed 1/17/2011.
      333. 	 Treasury Press Release, “Taxpayers Receive $10.5 Billion in Proceeds Today from Final Sale of Treasury Department Citigroup Common Stock,”
             12/10/2010, www.treasury.gov/press-center/press-releases/Pages/tg1000.aspx, accessed 1/17/2011; Treasury Press Release, “Treasury Announces
             Pricing of Citigroup Common Stock Offering,” 12/7/2010, www.treasury.gov/press-center/press-releases/Pages/TG995.aspx, accessed 1/17/2011;
             Treasury, Section 105(a) Report, 11/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/November%20
             105%28a%29%20FINAL.pdf, accessed 1/17/2011.
      334. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/17/2011; Treasury, Section 105(a) Report,
             11/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/November%20105%28a%29%20FINAL.pdf, ac-
             cessed 1/17/2011; Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 1/14/2011, www.treasury.
             gov/press-center/press-releases/Pages/tg1023.aspx, accessed 1/18/2011.
      335. 	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/reports/audit/2011/Extraordinary%20
             Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 1/17/2011.
      336. 	 Treasury, Transactions Report, 12/6/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/12-8-10%20Transactions%20Report%20as%20of%2012-6-10.pdf, accessed 1/17/2011.
      337. 	 TowneBank, 8-K, 7/22/2010, www.townebank.com/top_navigation_links/investor_relations/?snl=documents, accessed 12/21/2010; TowneBank, 8-K,
             7/22/2010, www.snl.com/Cache/9845355.PDF?D=&O=PDF&IID=4050678&OSID=9&Y=&T=&FID=9845355, accessed 12/22/2010.
      338. 	 Treasury, Section 105(a) Report, 11/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/November%20
             105%28a%29%20FINAL.pdf, accessed 1/17/2011; TowneBank Press Release, “TowneBank Announces Completion of the Bank of Currituck
             Acquisition,” 12/3/2010, www.townebank.com/images/cache/tmp4cfd172105250_PressRelease-TowneBankofCurrituck.pdf, accessed 12/20/2010.
      339. 	 TowneBank, 8-K, 12/3/2010, www.townebank.com/top_navigation_links/investor_relations/?snl=documents, accessed 12/21/2010; TowneBank
             Press Release, “TowneBank Announces Completion of the Bank of Currituck Acquisition,” 12/3/2010, www.townebank.com/images/cache/tmp-
             4cfd172105250_PressRelease-TowneBankofCurrituck.pdf, accessed 12/20/2010.
      340. 	 Treasury, Transactions Report, 12/6/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/12-8-10%20Transactions%20Report%20as%20of%2012-6-10.pdf, accessed 1/17/2011.
      341. 	 Treasury, Transactions Report, 12/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/12-16-10%20Transactions%20Report%20as%20of%2012-15-10.pdf, accessed 1/17/2011.
      342. 	 Central Pacific, 8-K, 11/4/2010, www.sec.gov/Archives/edgar/data/701347/000070134710000055/form8-k.htm, accessed 12/21/2010.
      343. 	 Central Pacific, 8-K, 12/20/2010, www.sec.gov/Archives/edgar/data/701347/000070134710000064/form8-k.htm, accessed 12/21/2010.
      344. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/17/2011.
      345. 	 First BanCorp, 8-K, 7/7/2010, www.sec.gov/Archives/edgar/data/1057706/000129993310002613/htm_38264.htm, accessed 9/7/2010; Treasury, re-
             sponse to SIGTARP data call, 10/8/2010; Treasury, Transactions Report, 1/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/
             tarp-transactions/DocumentsTARPTransactions/1-14-11%20Transactions%20Report%20as%20of%201-12-11.pdf, accessed 1/17/2011.
      346. 	 First BanCorp, 8-K, 7/7/2010, www.sec.gov/Archives/edgar/data/1057706/000129993310002613/htm_38264.htm, accessed 9/7/2010;
             Treasury, Transactions Report, 10/4/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/10-4-10%20Transactions%20Report%20as%20of%209-30-10.pdf, accessed 1/17/2011.
      347. 	 First BanCorp, 8-K, 7/7/2010, www.sec.gov/Archives/edgar/data/1057706/000129993310002613/htm_38264.htm, accessed 9/7/2010; First BanCorp,
             8-K, 9/16/2010, www.sec.gov/Archives/edgar/data/1057706/000095012310086491/g24648sv1.htm, accessed 9/16/2010.
      348. 	 First BanCorp, 8-K, 8/26/2010, www.sec.gov/Archives/edgar/data/1057706/000129993310003214/exhibit1.htm, accessed 9/16/2010.
      349. 	 First BanCorp, S-1, 9/16/2010, www.sec.gov/Archives/edgar/data/1057706/000095012310086491/g24648sv1.htm, accessed 9/17/2010.
      350. 	 First BanCorp, 8-K, 12/1/2010, www.sec.gov/Archives/edgar/data/1057706/000129993310004272/htm_39923.htm, accessed 12/3/2010.
      351. 	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/investment-
             programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 1/17/2011.
      352. 	 Treasury, Transactions Report, 11/19/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/11-19-10%20Transactions%20Report%20as%20of%2011-17-10.pdf, accessed 1/17/2011.
      353. 	 Federal Reserve, In the Matter of Pierce Commercial Bank, Docket No. 10-115-PCA-SM, Prompt Corrective Action, June 10, 2010,
             www.federalreserve.gov/newsevents/press/enforcement/enf20100615b1.pdf, accessed 12/12/2010.
      354. 	 Federal Reserve, In the Matter of Pierce Commercial Bank, Docket No. 10-115-PCA-SM, Prompt Corrective Action, June 10, 2010,
             www.federalreserve.gov/newsevents/press/enforcement/enf20100615b1.pdf, accessed 12/12/2010.
      355. 	 FDIC Press Release, “Heritage Bank, Olympia, Washington, Assumes All of the Deposits of Pierce Commercial Bank, Tacoma, Washington,”
             11/5/2010, www.fdic.gov/news/news/press/2010/pr10244.html, accessed 11/20/2010.
      356. 	 FDIC Press Release, “Heritage Bank, Olympia, Washington, Assumes All of the Deposits of Pierce Commercial Bank, Tacoma, Washington,”
             11/5/2010, www.fdic.gov/news/news/press/2010/pr10244.html, accessed 11/20/2010.
      357. 	 Treasury, response to SIGTARP conference call, 12/3/2010.
      358. 	 Treasury, Transactions Report, 11/19/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/11-19-10%20Transactions%20Report%20as%20of%2011-17-10.pdf, accessed 1/17/2011.
      359. 	 FDIC Press Release, “Ameris Bank, Moultrie, Georgia, Acquires All of the Deposits of Two Georgia Institutions,” 11/12/2010, www.fdic.gov/news/news/
             press/2010/pr10249.html, accessed 11/21/2010.
                                                                                               quarterly report to congress I january 26, 2011                    213


360. 	 FDIC Press Release, “Ameris Bank, Moultrie, Georgia, Acquires All of the Deposits of Two Georgia Institutions,” 11/12/2010, www.fdic.gov/news/news/
       press/2010/pr10249.html, accessed 11/21/2010.
361. 	 Treasury, response to SIGTARP conference call, 12/3/2010.
362. 	 Treasury, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial Institutions,” 2/3/2010, www.
       treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 1/17/2011; Treasury, Section 105(a) Report, 3/10/2010, www.treasury.gov/initiatives/
       financial-stability/briefing-room/reports/105/Documents105/Monthly%20Report_February2010.pdf, accessed 1/18/2011; Small Business Lending Act,
       P.L. 111-240, 9/27/2010.
363. 	 White House Press Release, “Remarks by the President on Small Business Initiatives,” 10/21/2010, www.whitehouse.gov/the-press-office/remarks-
       president-small-business-initiatives-landover-md, accessed 1/18/2011.
364. 	 Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/cdci/Documents/
       CDCI20FAQs20Updated.pdf, accessed 1/18/2011; Treasury, “Community Development Capital Initiative,” 6/4/2010, www.treasury.gov/initiatives/
       financial-stability/investment-programs/cdci/Pages/comdev.aspx, accessed 1/18/2011; Treasury, Section 105(a) Report, 3/10/2010, www.treasury.gov/
       initiatives/financial-stability/briefing-room/reports/105/Documents105/Monthly%20Report_February2010.pdf, accessed 1/18/2011.
365. 	 Treasury, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in 84 Community Development Financial
       Institutions in Underserved Areas,” 9/30/2010, www.cdfifund.gov/docs/2010/tarp/FINAL%20CDCI-TARP%20Release%209-30-10.pdf, accessed
       1/18/2011.
366. 	 Treasury, “Community Development Capital Initiative,” 6/4/2010, www.treasury.gov/initiatives/financial-stability/investment-programs/cdci/Pages/com-
       dev.aspx, accessed 1/18/2011.
367. 	 Treasury, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial Institutions,” 2/3/2010,
       www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 1/18/2011.
368. 	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Pages/default.aspx, accessed
       1/18/2011.
369. 	 Treasury, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial Institutions,” 2/3/2010, www.
       treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 1/17/2011.
370. 	 Treasury, “Community Development Capital Initiative,” 6/4/2010, www.treasury.gov/initiatives/financial-stability/investment-programs/cdci/Pages/
       comdev.aspx, accessed 1/18/2011; Treasury, “Application Guidelines for TARP Community Development Capital Initiative,” no date, www.treasury.gov/
       initiatives/financial-stability/investment-programs/cdci/Documents/Bank20Thrift20CDCI20Application20Updated20Form.pdf, accessed 1/18/2011.
371. 	 Treasury, “Community Development Capital Initiative CDFI Credit Unions Senior Securities – Term Sheet,” no date, www.treasury.gov/initiatives/
       financial-stability/investment-programs/cdci/Documents/CDCI20Credit20Union20Term20Sheet20042610.pdf, accessed 1/18/2011; Treasury,
       “Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities – Term Sheet,” no date, www.treasury.gov/initiatives/
       financial-stability/investment-programs/cdci/Documents/CDCI20S20Corp20Term20Sheet.pdf, accessed 1/18/2011.
372. 	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial Institutions,”
       2/3/2010,
       www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 1/18/2011.
373. 	 Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/cdci/Documents/
       CDCI20FAQs20Updated.pdf, accessed 1/18/2011.
374. 	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial Institutions,”
       2/3/2010, http://www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 1/18/2011.
374a.	 Treasury, TARP/Financial Stability Plan Budget Table, 1/3/2011, accessed 1/4/2011.
374b.	Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/16/2011.
375. 	 Treasury, Dividends and Interest Report, 1/10/2011, www.financialstability.gov/docs/dividends-interest-reports/December%202010%20Dividends%20
       &%20Interest%20Report.pdf, accessed 1/14/2011; Treasury, response to SIGTARP data call, 1/12/2011.
376. 	 Small Business Lending Act, P.L. 111-240, 9/27/2010.
377. 	 Small Business Lending Act, P.L. 111-240, 9/27/2010.
378. 	 Small Business Lending Act, P.L. 111-240, 9/27/2010.
379. 	 Treasury, “SBLF – Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_
       Started_Guide_Final.pdf, accessed 1/18/2011.
380. 	 Small Business Lending Act, P.L. 111-240, 9/27/2010.
381. 	 Small Business Lending Act, P.L. 111-240, 9/27/2010.
382. 	 Small Business Lending Act, P.L. 111-240, 9/27/2010.
383. 	 Small Business Lending Act, P.L. 111-240, 9/27/2010, p. 87; Treasury, “Small Business Lending Fund, Senior Preferred Stock – Summary of Terms for
       Current CPP and CDCI Participants,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Refinancing_Term_Sheet_Final.pdf
       pdf, accessed 1/18/2011.
384. 	 Treasury, “SBLF – Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_
       Started_Guide_Final.pdf, accessed 1/18/2011.
385. 	 Treasury, “SBLF – Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_
       Started_Guide_Final.pdf, accessed 1/18/2011.
386. 	 Treasury, “SBLF – Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_
       Started_Guide_Final.pdf, accessed 1/18/2011.
387. 	 Treasury, “SBLF – Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_
       Started_Guide_Final.pdf, accessed 1/18/2011.
388. 	 Treasury, “SBLF – Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_
       Started_Guide_Final.pdf, accessed 1/18/2011.
389. 	 Treasury, “SBLF – Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_
       Started_Guide_Final.pdf, accessed 1/18/2011.
214             special inspector general I troubled asset relief program



      390. 	 Treasury, “SBLF – Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_
             Started_Guide_Final.pdf, accessed 1/18/2011.
      391. 	 Treasury, “SBLF – Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_
             Started_Guide_Final.pdf, accessed 1/18/2011.
      392. 	 Treasury, “SBLF – Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_
             Started_Guide_Final.pdf, accessed 1/18/2011.
      393. 	 Treasury, “SBLF – Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_
             Started_Guide_Final.pdf, accessed 1/18/2011.
      394. 	 Small Business Lending Act, P.L. 111-240, 9/27/2010.
      395. 	 Treasury, “Resource Center – Small Business Lending Fund,” 12/20/2010, www.treasury.gov/resource-center/sb-programs/Pages/Small-Business-
             Lending-Fund.aspx, accessed 12/21/2010.
      396. 	 Treasury, “Resource Center – Small Business Lending Fund,” 12/20/2010, www.treasury.gov/resource-center/sb-programs/Pages/Small-Business-
             Lending-Fund.aspx, accessed 12/21/2010; Treasury, “SBLF – Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/
             sb-programs/Documents/SBLF_Getting_Started_Guide_Final.pdf, accessed 1/18/2011.
      397. 	 Treasury, “SBLF – Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_
             Started_Guide_Final.pdf, accessed 1/18/2011.
      398. 	 Treasury, “SBLF – Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_
             Started_Guide_Final.pdf, accessed 1/18/2011.
      399. 	 Treasury, “SBLF – Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_
             Started_Guide_Final.pdf, accessed 1/19/2011.
      400. 	 Treasury, “SBLF – Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_
             Started_Guide_Final.pdf, accessed 1/18/2011.
      401. 	 Treasury, “SBLF – Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_
             Started_Guide_Final.pdf, accessed 1/18/2011.
      402. 	 Treasury, “SBLF – Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_
             Started_Guide_Final.pdf, accessed 1/18/2011.
      403. 	 Treasury, “SBLF – Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_
             Started_Guide_Final.pdf, accessed 1/18/2011.
      404. 	 Treasury, “SBLF – Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_
             Started_Guide_Final.pdf, accessed 1/18/2011.
      405. 	 Treasury, “SBLF – Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_
             Started_Guide_Final.pdf, accessed 1/18/2011.
      406. 	 Treasury, “SBLF – Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_
             Started_Guide_Final.pdf, accessed 1/18/2011.
      407. 	 Treasury, “Small Business Lending Fund, Senior Preferred Stock – Summary of Terms for Current CPP and CDCI Participants,” no date, www.trea-
             sury.gov/resource-center/sb-programs/Documents/SBLF_Refinancing_Term_Sheet_Final.pdf, accessed 12/21/2010; Treasury, “SBLF – Getting Started
             Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_Started_Guide_Final.pdf, accessed
             1/18/2011.
      408. 	 GAO,“Troubled Asset Relief Program One Year Later, Actions Are Needed to Address Remaining Transparency and Accountability Challenges,” October
             2009, www.gao.gov/new.items/d1016.pdf, accessed 1/19/2011.
      409. 	 Treasury, response to SIGTARP data call, 10/8/2010.
      410. 	 Treasury, Section 105(a) Report, 12/5/2008, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/TARPfirst-
             105report.pdf, accessed 1/18/2011;Treasury, Transactions Report, 1/18/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-
             transactions/DocumentsTARPTransactions/1-18-11%20Transactions%20Report%20as%20of%201-13-11.pdf, accessed 1/18/2011.
      411. 	 Treasury, Transactions Report, 1/18/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-18-11%20Transactions%20Report%20as%20of%201-13-11.pdf, accessed 1/18/2011.
      412. 	 FRBNY and Treasury vetting response, 1/19/2011.
      413. 	 Treasury, response to SIGTARP data call, 1/11/2011.
      414. 	 Treasury, AIG Term Sheet, 3/2/2009, www.treasury.gov/press-center/press-releases/Documents/030209_aig_term_sheet.pdf, accessed 1/18/2011.
      415. 	 Treasury Press Release, “Treasury Names Two Appointees to AIG’s Board of Directors,” 4/1/2010, www.treasury.gov/press-center/press-releases/Pages/
             tg623.aspx, accessed 1/18/2011.
      416. 	 FRBNY, “Credit Agreement dated as of September 22, 2008, between American International Group, Inc., as Borrower and Federal Reserve Bank of
             New York, as Lender,” 9/22/2008, www.newyorkfed.org/aboutthefed/aig/pdf/original_credit_agreement.pdf, accessed 1/18/2011; AIG, 10-K,
             www.sec.gov/Archives/edgar/data/5272/000104746910001465/a2196553z10-k.htm, accessed 1/18/2011.
      417. 	 SIGTARP, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/reports/audit/2009/Factors_Affecting_Efforts_to_Limit_
             Payments_to_AIG_Counterparties.pdf, accessed 1/18/2011.
      418. 	 SIGTARP, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/reports/audit/2009/Factors_Affecting_Efforts_to_Limit_
             Payments_to_AIG_Counterparties.pdf, accessed 1/18/2011.
      419. 	 SIGTARP, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/reports/audit/2009/Factors_Affecting_Efforts_to_Limit_
             Payments_to_AIG_Counterparties.pdf, accessed 1/18/2011.
      420. 	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 1/18/2011; FRBNY, “Maiden Lane II,” no date,
             www.newyorkfed.org/markets/maidenlane2.html, accessed 12/9/2010; FRBNY, “Maiden Lane III,” no date, www.newyorkfed.org/markets/maidenlane3.
             html, accessed 1/18/2011.
      421. 	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 1/18/2011.
      422. 	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 1/18/2011.
                                                                                           quarterly report to congress I january 26, 2011                 215


423. 	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 1/18/2011.
424. 	 FRBNY and Treasury vetting response, 1/19/2011.
425. 	 AIG Press Release, “AIG Enters Into Agreement To Sell Star and Edison Life Companies,” 9/30/2010, www.aigcorporate.com/newsroom/index.html,
       accessed 12/9/2010.
426. 	 SEC, “8-K American International Group,” 10/22/2010, www.sec.gov/Archives/edgar/data/5272/000095012310095032/y87334e8vk.htm, accessed
       12/22/2010; AIG, “AIG Raises Nearly $37 Billion In Two Transactions To Repay Government,” 11/1/2010, http://ir.aigcorporate.com/External.File?t=2
       &item=g7rqBLVLuv81UAmrh20Mp/lptmOSyzUBWuL0HcUb4QPW7icXt6tSsNcMErV4ODIOk1KW0aD3/sacvpSe5qek1w==, accessed 12/9/2010.
427. 	 SEC, “10-Q American International Group,” 10/29/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed
       1/18/2011.
428. 	 AIG, “AIG Raises Nearly $37 Billion In Two Transactions To Repay Government,” 11/1/2010, http://ir.aigcorporate.com/External.File?t=2&item=g7rqB
       LVLuv81UAmrh20Mp/lptmOSyzUBWuL0HcUb4QPW7icXt6tSsNcMErV4ODIOk1KW0aD3/sacvpSe5qek1w==, accessed 1/18/2011.
429. 	 AIG, “AIG Enters Into Agreement To Sell Nan Shan To Taiwan-Based Consortium Led By The Ruentex Group,” 1/12/2011, http://ir.aigcorporate.com/
       External.File?t=2&item=g7rqBLVLuv81UAmrh20Mp2GDwAh4Ju2qNKZiaQ+LC4eLA/wD8wJ898T+OGLtuOD53u0EV2e/b6wq8HGwkVuaVQ==,
       accessed 1/18/2011.
430. 	 SEC, “8-K American International Group,” 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed
       1/18/2011; AIG, 8-K, 1/14/2011, http://services.corporate-ir.net/SEC.Enhanced/SecCapsule.aspx?c=76115&fid=7312014, accessed 1/18/2011.
431. 	 FRBNY, “Master Transaction Agreement,” 12/8/2010, www.ny.frb.org/aboutthefed/aig/pdf/master_transaction_agreement.pdf, accessed 1/18/2011.
432. 	 FRBNY, “Actions Related to AIG: Financial Information,” no date, http://www.newyorkfed.org/aboutthefed/aig/financial_information.html, accessed
       1/18/2011.
433. 	 SEC, “8-K American International Group,” 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed
       1/18/2011.
434. 	 FRBNY, “Actions Related to AIG: Financial Information,” no date, www.newyorkfed.org/aboutthefed/aig/financial_information.html, accessed
       1/18/2011.
435. 	 Treasury Press Release, “Treasury Update on AIG Investment Valuation” 11/1/2010, www.treasury.gov/press-center/press-releases/Pages/pr_11012010.
       aspx, accessed 1/18/2011.
436. 	 SEC, “8-K American International Group,” 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed
       1/18/2011.
437. 	 SEC, “8-K American International Group,” 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed
       1/18/2011.
438. 	 SEC, “8-K American International Group,” 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed
       1/18/2011.
439. 	 SEC, “8-K American International Group,” 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed
       11/18/2011. FRBNY vetting response, 1/19/2011.
440. 	 SIGTARP AIG Repayment Plan Briefing 10/06/2010.
441. 	 Treasury Press Release, “Treasury Update on AIG Investment Valuation,” 11/1/2010, www.financialstability.gov/latest/pr_11012010.html, accessed
       12/16/2010.
442. 	 SEC, “8-K American International Group,” 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed
       11/18/2011.
443. 	 SEC, “8-K American International Group,” 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed
       1/18/2011; Treasury, Section 105(a) Report, 1/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
       December%20105(a)%20Report%20FINAL.pdf, accessed 1/11/2011.
444. 	 SEC, “8-K American International Group,” 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed
       1/18/2011.
445. 	 SEC, “8-K American International Group,” 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed
       1/18/2011.
446. 	 SEC, “AIG Debt Offering Circular,” 11/30/2010, www.sec.gov/Archives/edgar/data/5272/000095012310109867/y88045fwfwp.htm, accessed
       1/18/2011; SEC, “AIG Debt Offering Circular,” 11/30/2010, www.sec.gov/Archives/edgar/data/5272/000095012310109866/y88045fwp.htm, accessed
       1/18/2011.
447. 	 SEC, “Preliminary Prospectus,” 11/30/2010, www.sec.gov/Archives/edgar/data/5272/000095012310109603/y87995e424b5.htm#105, accessed
       1/18/2011.
448. 	 AIG, 8-K, 12/27/2011, www.sec.gov/Archives/edgar/data/5272/000095012310116364/y88703e8vk.htm, accessed 1/18/2011; AIG, “AIG Announces $3
       Billion Credit Facility,”12/27/2010, http://ir.aigcorporate.com/External.File?t=2&item=g7rqBLVLuv81UAmrh20Mp9m1MP/Hj1REReCuK9wqEfBs8C
       ORecvsIwnrzhnqai2J/6RqZY7+grTjQdY1h2wLuQ==, accessed 1/18/2011.
449. 	 Treasury Estimate: Treasury, “Office of Financial Stability Agency Financial Report—Fiscal Year 2010,” 9/30/2010, www.treasury.gov/initiatives/
       financial-stability/briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/18/2011.
450. 	 Treasury, “Methodology to Calculate Estimated TARP Costs,” no date, www.treasury.gov/initiatives/financial-stability/about/Documents/
       Methodology%20to%20Calculate%20Estimated%20TARP%20Cost_FINAL.pdf, accessed 1/18/2011.
451. 	 Treasury, “Troubled Asset Relief Program – Two Year Retrospective,” 10/2010, www.treasury.gov/press-center/news/Documents/TARP%20Two%20
       Year%20Retrospective_10%2005%2010_transmittal%20letter.pdf, accessed 1/18/2011.
452. 	 Treasury Estimate: Treasury, “Office of Financial Stability Agency Financial Report—Fiscal Year 2010,” 9/30/2010, www.treasury.gov/initiatives/
       financial-stability/briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/18/2011.
453. 	 Congressional Budget Office, “Report on the Troubled Asset Relief Program—November 2010,” 11/2010, www.cbo.gov/ftpdocs/119xx/doc11980/11-
       29-TARP.pdf, accessed 1/18/2011.
454. 	 Office of Management and Budget, “OMB Report under the Emergency Economic Stabilization Act, Section 202,” 10/15/2010, www.whitehouse.gov/
       sites/default/files/OMB212Sharp_omb_eop_gov_20101015_175127.pdf, accessed 1/18/2011.
216             special inspector general I troubled asset relief program



      455. 	 Treasury, “Financial Agency Agreement For Capital Markets Disposition Services For A Portfolio Of Assets,” www.treasury.gov/initiatives/financial-
             stability/about/procurement/faa/Financial_Agency_Agreements/Website%20FAA%20Greenhill%20Co.pdf, accessed 1/21/2011.
      456. 	 Treasury Press Release, “Treasury, Federal Reserve and the FDIC Provide Assistance to Bank of America,” 1/16/2009, www.treasury.gov/press-center/
             press-releases/Pages/hp1356.aspx, accessed 1/18/2011; Treasury, “Securities Purchase Agreement,” 12/29/2008, www.treasury.gov/initiatives/financial-
             stability/investment-programs/tip/Documents_Contracts_Agreements/Citigroup_12312008.pdf, accessed 1/18/2011.
      457. 	 Treasury, “Guidelines for Targeted Investment Program,” 11/20/2009, www.treasury.gov/initiatives/financial-stability/investment-programs/tip/Pages/
             targetedinvestmentprogram.aspx, accessed 1/18/2011.
      458. 	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/December%20
             105(a)_final_1-11-10.pdf, accessed 1/18/2011.
      459. 	 Treasury, “Warrant Disposition Report,” 8/4/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/other/DocumentsOther/TARP_
             WRRTDISP_80310.pdf, accessed 1/18/2011.
      460. 	 Treasury, Section 105(a) Report, 1/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/December%20
             105(a)%20Report%20FINAL.pdf, accessed 1/18/2011.
      461. 	 Citigroup, 8-K, 1/16/2009, www.sec.gov/Archives/edgar/data/831001/000095010309000098/dp12291_8k.htm, accessed 1/18/2011; Citigroup, 10-Q,
             6/30/2009, www.citigroup.com/citi/fin/data/q0902c.pdf?ieNocache=21, accessed 1/18/2011.
      462. 	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, http://www.sigtarp.gov/reports/audit/2011/Extraordinary%20
             Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 1/14/2011.
      463. 	 Treasury, “Citigroup Termination Agreement,” 12/23/2009, www.treasury.gov/initiatives/financial-stability/investment-programs/agp/Documents/Citi%20
             AGP%20Termination%20Agreement%20-%20Fully%20Executed%20Version.pdf, accessed 1/18/2011.
      464. 	 Treasury Press Release, “Treasury Announces Public Offering of Citigroup Agp Trups,” 9/29/2010, www.treasury.gov/press-center/press-releases/Pages/
             tg876.aspx, accessed 1/18/2011.
      465. 	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, http://www.sigtarp.gov/reports/audit/2011/Extraordinary%20
             Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 1/14/2011.
      466. 	 Bank of America, 8-K, 9/22/2009, www.sec.gov/Archives/edgar/data/70858/000119312509195594/d8k.htm, accessed 1/17/2011.
      467. 	 Bank of America, “Termination Agreement,” 9/21/2009, www.treasury.gov/initiatives/financial-stability/investment-programs/agp/Documents/BofA%20
             -%20Termination%20Agreement%20-%20executed.pdf, accessed 1/17/2011.
      468. 	 Treasury, “Legacy Securities Program,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/ppip/s-ppip/Pages/legacysecurities.
             aspx, accessed 1/21/2010.
      469. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/5/2011.
      470. 	 Federal Reserve Press Release, “Federal Reserve announces the creation of the Term Asset-Backed Securities Loan Facility (TALF),” 11/25/2008, www.
             federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 6/24/2010.
      471. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq.html,
             accessed 6/10/2010.
      472. 	 Federal Reserve Press Release, “Federal Reserve announces expansion of eligible collateral under Term Asset-Backed Securities Loan Facility,”
             5/1/2009, www.federalreserve.gov/newsevents/press/monetary/20090501a.htm, accessed 6/25/2010; Federal Reserve Press Release, “Federal Reserve
             announces that certain high-quality commercial mortgage-backed securities will become eligible collateral under TALF,” 5/19/2009,
             www.federalreserve.gov/newsevents/press/monetary/20090519b.htm, accessed 7/10/2010.
      473. 	 Federal Reserve, “Lending Facilities to Support Overall Market Liquidity,” 3/2010, www.federalreserve.gov/monetarypolicy/clbs_lendingfacili-
             ties_201003.htm, accessed 8/17/2010.
      474. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed 7/10/2010;
             FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/CMBS_recent_operations.html, accessed
             6/15/2010; FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_
             print.html, accessed 6/30/2010.
      475. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 7/1/2010.
      476. 	 FRBNY, response to SIGTARP data call, 7/9/2010.
      477. 	 FRBNY, response to SIGTARP draft report, 1/11/2011.
      478. 	 FRBNY, “2009 Annual Report,” 6/2010, www.newyorkfed.org/aboutthefed/annual/annual09/annual.pdf, accessed 7/1/2010.
      479. 	 Federal Reserve Press Release, “Federal Reserve announces agreement with Treasury regarding reduction of credit protection provided for TALF,”
             7/20/2010, www.federalreserve.gov/newsevents/press/monetary/20100720a.htm, accessed 8/18/2010; FRBNY, response to SIGTARP data call,
             7/12/2010.
      480. 	 FRBNY, response to SIGTARP data call, 1/5/2011.
      481. 	 OFS, response to SIGTARP draft report, 1/11/2011.
      482. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
             html, accessed 6/30/2010.
      483. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq.html,
             accessed 6/10/2010; Federal Reserve, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/
             TALF_Terms_print.html, accessed 6/30/2010.
      484. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
             html, accessed 6/30/2010.
      485. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
             html, accessed 6/30/2010.
      486. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
             html, accessed 6/30/2010.
      487. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
             html, accessed 6/30/2010.
                                                                                             quarterly report to congress I january 26, 2011                   217


488. 	 FRBNY, response to SIGTARP data call, 7/8/2010.
489. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq.html, ac-
       cessed 6/10/2010.
490. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
       html, accessed 6/30/2010.
491. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq.html, ac-
       cessed 6/10/2010.
492. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq.html,
       accessed 6/10/2010; Federal Reserve, Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet, 12/2009, www.
       federalreserve.gov/monetarypolicy/files/monthlyclbsreport200912.pdf, accessed 7/1/2010.
493. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq.html, ac-
       cessed 6/10/2010.
494. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq.html, ac-
       cessed 6/10/2010.
495. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq.html, ac-
       cessed 6/10/2010.
496. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
       html, accessed 6/30/2010.
497. 	 Federal Reserve, response to SIGTARP draft report, 7/9/2010.
498. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed 7/1/2010.
499. 	 FRBNY, response to SIGTARP data call, 1/5/2011.
500. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 9/10/2010.
501. 	 FRBNY, response to SIGTARP data call, 1/5/2011.
502. 	 OFS, FRBNY, response to SIGTARP draft report, 4/9/2009; Federal Reserve, response to SIGTARP draft report, 7/9/2010.
503. 	 Treasury, “Security and Intercreditor Agreement dated as of March 3, 2009 among TALF LLC, as Borrower, FRBNY, as Senior Lender, United States
       Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral Agent,” 3/3/2009,
       www.treasury.gov/initiatives/financial-stability/investment-programs/cbli/Documents_Contracts_Agreements/SPV-Sec-Agt.pdf, accessed 6/29/2010;
       Federal Reserve, response to SIGTARP draft report, 7/9/2010.
504. 	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 7/1/2010, www.federalreserve.gov/releases/h41/Current, note 8, accessed 7/7/2010.
505. 	 Treasury, “Security and Intercreditor Agreement dated as of March 3, 2009, among TALF LLC, as Borrower, FRBNY, as Senior Lender, United States
       Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral Agent,” 3/3/2009,
       www.treasury.gov/initiatives/financial-stability/investment-programs/cbli/Documents_Contracts_Agreements/SPV-Sec-Agt.pdf, accessed 6/29/2010.
506. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF),” 12/1/2010, www.federalreserve.gov/newsevents/reform_talf.htm, accessed
       12/3/2010.
507. 	 FRBNY, response to SIGTARP data call, 1/5/2011.
508. 	 FRBNY, response to SIGTARP data call, 1/5/2011.
509. 	 Federal Reserve, “Factors Affecting Reserve Balances,” 12/30/2010, www.federalreserve.gov/releases/h41/20101230/, accessed 1/11/2011.
510. 	 Federal Reserve, response to SIGTARP draft report, 10/7/2010.
511. 	 Formation Date: Federal Reserve, “TALF LLC, Financial Statements for the Period February 4, 2009, to December 31, 2009, and Independent
       Auditors’ Report,” 4/21/2010, www.federalreserve.gov/monetarypolicy/files/BSTTALFLLCfinstmt2009.pdf, accessed 6/25/2010, p. 7; Amounts: FRBNY,
       response to SIGTARP data call, 1/5/2011.
512. 	 Federal Reserve, response to SIGTARP draft report, 4/8/2010.
513. 	 Treasury Press Release, “Treasury Department Provides Updated Guidance on Legacy Securities Public-Private Investment Program,” 4/6/2009, www.
       treasury.gov/initiatives/financial-stability/investment-programs/ppip/s-ppip/Documents/ProgramGuidelinesS-PPIP.pdf, accessed 12/8/2010.
514. 	 Treasury Press Release, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,”
       7/8/2009, www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 12/8/2010.
515. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/ppip/s-
       ppip/Documents/AB%20Complete%20LPA%20(redacted).pdf, accessed 8/17/2010.
516. 	 Treasury, “Legacy Securities Public-Private Investment Program, OVERVIEW,” 7/23/2010, www.treasury.gov/initiatives/financial-stability/investment-
       programs/ppip/s-ppip/Pages/legacysecurities.aspx, accessed 8/17/2010.
517. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/ppip/s-
       ppip/Documents/AB%20Complete%20LPA%20(redacted).pdf, accessed 8/17/2010.
518. 	 Treasury, “Legacy Securities Public-Private Investment Funds (PPIFs) Frequently Asked Questions,” 3/23/2009, www.treasury.gov/press-center/press-
       releases/Documents/legacy_securities_faqs.pdf, accessed 12/8/2010.
519. 	 Treasury, “Legacy Securities Public-Private Investment Funds (PPIFs) Frequently Asked Questions,” 3/23/2009, www.treasury.gov/press-center/press-
       releases/Documents/legacy_securities_faqs.pdf, accessed 12/8/2010.
520. 	 Treasury, “Legacy Securities Public-Private Investment Funds (PPIFs) Frequently Asked Questions,” 3/23/2009, www.treasury.gov/press-center/press-
       releases/Documents/legacy_securities_faqs.pdf, accessed 12/8/2010; “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.
       gov/initiatives/financial-stability/investment-programs/ppip/s-ppip/Documents/AB%20Complete%20LPA%20(redacted).pdf, accessed 12/14/2009.
521. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/ppip/s-
       ppip/Documents/AB%20Complete%20LPA%20(redacted).pdf, accessed 12/14/2009.
522. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/ppip/s-
       ppip/Documents/AB%20Complete%20LPA%20(redacted).pdf, accessed 12/14/2009.
523. 	 Treasury, response to SIGTARP draft report, 1/11/2011; Treasury, “Legacy Securities Public-Private Investment Program: Program Update – Month
       Ended June 30, 2009,” received 7/15/2010; Treasury, “Legacy Securities Public-Private Investment Program,” 10/20/2010, www.treasury.gov/initiatives/
       financial-stability/investment-programs/ppip/s-ppip/Pages/legacysecurities.aspx, accessed 12/20/2010.
218             special inspector general I troubled asset relief program



      524. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/ppip/s-
             ppip/Documents/AB%20Complete%20LPA%20(redacted).pdf, accessed 12/14/2009.	
      525. 	 Treasury, Transactions Report, 1/4/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Pages/default.aspx, ac-
             cessed 1/5/2011; Treasury, response to SIGTARP data call, 10/7/2010.
      526. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/ppip/s-
             ppip/Documents/AB%20Complete%20LPA%20(redacted).pdf, accessed 12/14/2009.
      527. 	 Treasury Press Release, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,”
             7/8/2009, www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 12/8/2010.
      528. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/ppip/s-
             ppip/Documents/AB%20Complete%20LPA%20(redacted).pdf, accessed 6/8/2010.
      529. 	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended June 30, 2010,” 7/19/2010, www.treasury.gov/
             initiatives/financial-stability/investment-programs/ppip/s-ppip/Documents/111.pdf, p. 8, accessed 8/17/2010; Treasury, response to SIGTARP data call,
             10/7/2010.
      530. 	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended June 30, 2010,” 7/19/2010, www.treasury.gov/
             initiatives/financial-stability/investment-programs/ppip/s-ppip/Documents/111.pdf, p. 8, accessed 8/17/2010; Treasury, response to SIGTARP data call,
             6/30/2010.
      531. 	 Congressional Oversight Panel, “August Oversight Report, The Continued Risk of Troubled Assets,” 8/11/2009, http://cop.senate.gov/documents/cop-
             081109-report.pdf, accessed 8/18/2010.
      532. 	 Treasury Press Release, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/tg58.aspx,
             accessed 1/17/2011; SBA, “Q&A for Small Business Owners,” no date, www.sba.gov/idc/groups/public/documents/sba_homepage/recovery_act_faqs.pdf,
             accessed 1/17/2011.
      533. 	 Treasury, Section 105(a) Report, 8/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/July%202010%20
             105(a)%20Report_Final.pdf, accessed 1/17/2011.
      534. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/17/2011.
      535. 	 Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 3/2/2010, www.trea-
             sury.gov/initiatives/financial-stability/investment-programs/cbli/Small-Business/Documents_Contracts_Agreements/Coastal%20Securities,%20Inc.pdf,
             accessed 1/17/2011; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed
             8/27/2010, www.treasury.gov/initiatives/financial-stability/investment-programs/cbli/Small-Business/Documents_Contracts_Agreements/Executed%20
             Copy%20of%20Shay%20Financial%20Services,%20Inc.%20MPA%20(73485877_2).pdf, accessed 1/17/2011.
      536. 	 Treasury, Section 105(a) Report, 8/10/2009, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/
             Documents105/105areport_072009.pdf, accessed 1/17/2011; OFS, response to SIGTARP draft report, 1/11/2011.
      537. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/17/2011.
      538. 	 Treasury, “Automotive Industry Financing Program,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/aifp/Pages/autopro-
             gram.aspx, accessed 9/2/2009.
      539. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/4/2011.
      540. 	 Treasury, response to SIGTARP vetting draft, 10/8/2009; Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/
             briefing-room/reports/105/Documents105/April%202010%20105(a)%20report_final.pdf, accessed 6/1/2010.
      541. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/4/2011.
      542. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/4/2011.
      543. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/4/2011; Treasury, “TARP: Agency Financial
             Report – Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2010%20
             OFS%20AFR%20Nov%2015.pdf, accessed 11/17/2010.
      544. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/4/2011; Treasury, Dividends and Interest
             Report, 1/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/DocumentsDividendsInterest/December%20
             2010%20Dividends%20&%20Interest%20Report.pdf, accessed 1/11/2011.
      545. 	 Treasury Press Release, “Treasury Converts Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010, www.treasury.gov/press-center/
             press-releases/Pages/tg1014.aspx, accessed 1/3/2011.
      546. 	 Treasury, “Automotive Industry Financing Program,” 9/4/2009, www.financialstability.gov/roadtostability/autoprogram.html, accessed
             8/15/2010; Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/4/2011.
      547. 	 Treasury, Dividends and Interest Report, 1/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
             DocumentsDividendsInterest/December%202010%20Dividends%20&%20Interest%20Report.pdf, accessed 1/11/2011.
      548. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/4/2011.
      549. 	 SIGTARP, “Additional Insight on Use of Troubled Asset Relief Program Funds,” 12/10/2009, www.sigtarp.gov/reports/audit/2009/Additional_Insight_
             on_Use_of_Troubled_Asset_Relief_Program_Funds.pdf, p. 10, accessed 8/17/2010.
      550. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/4/2011.
      551. 	 Treasury Press Release, “Taxpayers Receive Additional $1.8 Billion in Proceeds from GM IPO: Exercise of Over-allotment Option Brings Total Taxpayer
             Proceeds from GM IPO to $13.5 Billion,” 12/2/2010, www.treasury.gov/press-center/press-releases/Pages/tg992.aspx, accessed 12/3/2010.
                                                                                               quarterly report to congress I january 26, 2011                    219


552. 	 Treasury Press Release, “General Motors Repays Taxpayers $2.1 Billion, Completing Repurchase of Treasury Preferred Stock,” 12/15/2010, www.
       treasury.gov/press-center/press-releases/Pages/tg1006.aspx, accessed 1/17/2011.
553. 	 Treasury Press Release, “General Motors Repays Taxpayers $2.1 Billion, Completing Repurchase of Treasury Preferred Stock,” 12/15/2010, www.
       treasury.gov/press-center/press-releases/Pages/tg1006.aspx, accessed 1/17/2011.
554. 	 Treasury Press Release, “Written Testimony of Herbert M. Allison, Jr., Assistant Secretary for Financial Stability Domestic Policy Subcommittee of the
       Oversight and Government Reform Committee,” 12/17/2009, www.treasury.gov/press-center/press-releases/Pages/tg453.aspx, accessed 3/10/2010.
555. 	 GM, Form 10-Q, 8/16/2010, http://phx.corporate-ir.net/phoenix.zhtml?c=231169&p=irol-SECText&TEXT=aHR0cDovL2lyLmludC53ZXN0bGF3YnVz
       aW5lc3MuY29tL2RvY3VtZW50L3YxLzAwMDExOTMxMjUtMTAtMTg5OTY4L3htbA%3d%3d, accessed 8/31/2010.
556. 	 Treasury, Dividends and Interest Report, 1/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
       DocumentsDividendsInterest/December%202010%20Dividends%20&%20Interest%20Report.pdf, accessed 1/11/2011.
557. 	 SEC, “General Motors Company: Form S-1 Registration Statement,” 8/18/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510192195/
       ds1.htm, accessed 12/15/2010.
558. 	 SEC, “General Motors Company: Form S-1 Registration Statement,” 8/18/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510192195/
       ds1.htm, accessed 12/15/2010.
559. 	 CRS Report for Congress, “Federal Tort Claims Act 95-717,” updated 12/11/2007.
560. 	 SEC, “General Motors Company: Amendment No. 9 to Form S-1 Registration Statement,” 12/3/2010, www.sec.gov/Archives/edgar/
       data/1467858/000119312510262471/ds1a.htm#rom45833_12, accessed 12/13/2010.
561. 	 SEC, “General Motors Company: Form 8-K,” 11/3/2010, http://services.corporateir.net/SEC/Document.Service? id=P3VybD1odHRwOi8vaXluaW50Ln
       dlc3RsYXdidXNpbmVzcy5jb20vZG9jd W1bnQvdjEvMDAwMTE5MzEyNS0xMC, accessed 1/21/2011.
562. 	 SEC, “General Motors Company, Amendment No. 4 to Form S-1,” 10/29/2010, http://services.corporate-ir.net/SEC/Document.
       Service?id=P3VybD1odHRwOi8vaXIuaW50Lndlc3RsYXdidXNpbmVzcy5jb20vZG9jdW1lbnQvdjEvMDAwMTE5MzEyNS
       0xMC0yNDAyNTMvZG9jL0dlbmVyYWxNb3RvcnNDb21wYW55X1MxQV8yMDEwMTAyOS5wZGYmdHlwZT0yJmZuPUdlbmVyYWxN-
       b3RvcnNDb21wYW55X1MxQV8yMDEwMTAyOS5wZGY=, accessed 12/15/2010; SEC, “General Motors Company: Amendment No. 9 to Form
       S-1 Registration Statement,” 12/3/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510262471/ds1a.htm#rom45833_12, accessed
       12/13/2010; SEC, “General Motors Company: Amendment No. 9 to Form S-1 Registration Statement,” 12/3/2010, www.sec.gov/Archives/edgar/
       data/1467858/000119312510262471/ds1a.htm#rom45833_12, accessed 12/13/2010.
563. 	 SEC, “General Motors Company: Form 424B1,” 11/18/2010, http://services.corporate-ir.net/SEC/Document.
       Service?id=P3VybD1odHRwOi8vaXIuaW50Lndlc3RsYXdidXNpbmVzcy5jb20vZG9jdW1lbnQvdj
       EvMDAwMTE5MzEyNS0xMC0yNjM2MzUvZG9jL0dlbmVyYWxNb3RvcnNDb21wYW55XzQyN
       EIxXzIwMTAxMTE4LnBkZiZ0eXBlPTImZm49R2VuZXJhbE1vdG9yc0NvbXBhbnlfNDI0QjFfMjAxMDExMTgucGRm, accessed 12/15/2010.
564. 	 General Motors Press Release, “General Motors Announces Underwriters’ Exercise of Overallotment Options,” 11/26/2010, www.gm.com/news-article.
       jsp?id=/content/Pages/news/us/en/2010/Nov/1126_exercise.html, accessed 12/15/2010.
565. 	 SEC, “General Motors Company: Amendment No. 9 to Form S-1 Registration Statement,” 12/3/2010, www.sec.gov/Archives/edgar/
       data/1467858/000119312510262471/ds1a.htm#rom45833_12, accessed 12/13/2010.
566. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 12/13/2010.
567. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/4/2011; SEC, “General Motors Company:
       Amendment No. 9 to Form S-1 Registration Statement,” 12/3/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510262471/ds1a.
       htm#rom45833_12, accessed 12/13/2010.
568. 	 SEC, “General Motors Company: Form 424B1,” 11/18/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510263635/d424b1.htm, accessed
       12/22/2010; SIGTARP Letter to the Honorable Charles E. Grassley, 8/30/2010, accessed 12/22/2010; SIGTARP Email Regarding Autos Calculations,
       12/22/2010, accessed 12/22/2010.
569. 	 SEC, “General Motors Company: Form 424B1,” 11/18/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510263635/d424b1.htmp.
       256–257, accessed 1/21/2011.
570. 	 Treasury, Transactions Report, 9/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/10-4-10%20Transactions%20Report%20as%20of%209-30-10.pdf, accessed 10/11/2010.
571. 	 Treasury, response to SIGTARP data call, 10/14/2010.
572. 	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%202010%20
       105(a)%20report_final.pdf, accessed 12/9/2010.
573. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/4/2011.
574. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/4/2011.
575. 	 Treasury Press Release, “Chrysler Financial parent company repays $1.9 billion in settlement of original Chrysler loan,” 5/15/2010, www.treasury.gov/
       press-center/press-releases/Pages/tg700.aspx, accessed 6/27/2010.
576. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/4/2011; Treasury, “TARP: Agency Financial
       Report – Fiscal Year 2010,” www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20
       Nov%2015.pdf, 11/15/2010, accessed 11/17/2010.
577. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/4/2011.
578. 	 Treasury, response to SIGTARP data call, 7/9/2010; Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-
       room/reports/tarp-transactions/DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/4/2011.
579. 	 Treasury, response to SIGTARP draft report, 1/14/2011.
580. 	 Treasury, response to SIGTARP draft report, 1/14/2011.
220             special inspector general I troubled asset relief program



      581. 	 Chrysler Group LLC, “Chrysler Group LLC 2009 Audited Financial Statement,” 4/21/2010, www.chryslergroupllc.com/news/ar-
             chive/2010/04/21/2009_audited_financial_statement, accessed 10/18/2010.
      582. 	 Chrysler Group LLC, “Chrysler Group LLC 2009 Audited Financial Statement,” 4/21/2010, www.chryslergroupllc.com/news/ar-
             chive/2010/04/21/2009_audited_financial_statement, accessed 10/18/2010.
      583. 	 Treasury, Dividends and Interest Report, 1/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
             DocumentsDividendsInterest/December%202010%20Dividends%20&%20Interest%20Report.pdf, accessed 1/11/2011.
      584. 	 Ally Financial, Form 10-K, 2/27/2009, http://google.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchFilingHtmlSection1?SectionID=6442618-
             129208-141191&SessionID=SNHoHeDu1Wnqz77, accessed 9/29/2010.
      585. 	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%202010%20
             105(a)%20report_final.pdf, accessed 12/9/2010.
      586. 	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%202010%20
             105(a)%20report_final.pdf, accessed 12/9/2010.
      587. 	 Ally Financial, Form 8-K, 5/22/1010, www.ally.com/about/investor/sec-filings/?term=*&start=106, accessed 10/17/2010; Treasury, Section 105(a)
             Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%202010%20105(a)%20report_final.
             pdf, accessed 12/9/2010.
      588. 	 Ally Financial, Form 8-K, 1/5/2010, http://biz.yahoo.com/e/100105/gjm8-k.html, accessed 9/29/2010.
      589. 	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%202010%20
             105(a)%20report_final.pdf, accessed 12/9/2010.
      590. 	 SEC, “GMAC Inc. Form 8-K,” 5/13/2010, www.sec.gov/Archives/edgar/data/40729/000114420410025354/v183596_8-k.htm, accessed 8/15/2010.
      591. 	 Treasury Press Release, “Treasury Converts Nearly Half of its Ally Preferred Shares to Common Stock,” 12/30/2010, www.treasury.gov/press-center/
             press-releases/Pages/tg1014.aspx, accessed 1/3/2011.
      592. 	 Ally Financial, SEC Filings, Form 8-K, 12/30/2010, www.ally.com/about/investor/sec-filings/index.html, accessed 1/3/2011.
      593. 	 Ally Financial, SEC Filings, Form 8-K, 12/30/2010, www.ally.com/about/investor/sec-filings/index.html, accessed 1/3/2011; Treasury Press Release,
             “Treasury Names Appointee to Ally Board of Directors,” 5/26/2010, www.treasury.gov/press-center/press-releases/Pages/tg720.aspx, accessed 6/1/2010.
      594. 	 Treasury, response to SIGTARP data call, 1/7/2011.
      595. 	 Ally Financial, Form 8-K, 1/5/2010, http://biz.yahoo.com/e/100105/gjm8-k.html, accessed 9/29/2010; Ally Financial, SEC Filings, Form 8-K,
             12/30/2010, www.ally.com/about/investor/sec-filings/index.html, accessed 1/3/2011; Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initia-
             tives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-
             11.pdf, accessed 1/4/2011.
      596. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/4/2011.
      597. 	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%202010%20
             105(a)%20report_final.pdf, accessed 12/9/2010.
      598. 	 Treasury, Dividends and Interest Report, 1/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
             DocumentsDividendsInterest/December%202010%20Dividends%20&%20Interest%20Report.pdf, accessed 1/11/2011.
      599. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/4/2011; Treasury, Dividends and Interest
             Reports, 11/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/DocumentsDividendsInterest/October%20
             2010%20Dividends%20&%20Interest%20Report.pdf, accessed 1/17/2011.
      600. 	 Treasury Press Release, “Treasury Announces Auto Supplier Support Programs,” 3/19/2009, www.financialstability.gov/latest/auto3_18.html, accessed
             12/9/2010.
      601. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/4/2011.
      602. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/4/2011.
      603. 	 Treasury, response to SIGTARP data call, 7/9/2010.
      604. 	 Congressional Oversight Panel, “Accounting for the Troubled Asset Relief Program,” 6/10/2010, http://cop.senate/gov/documents/cop-061010-report.
             pdf, accessed 8/15/2010.
      605. 	 Treasury, “TARP: Agency Financial Report – Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agen-
             cy_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/14/2011.
      606. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/4/2011.
      607. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/4/2011.
      608. 	 American Recovery and Reinvestment Act of 2009, P.L. 111-5, 2/13/2009.
      609. 	 Treasury Press Release, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/press-
             center/press-releases/Pages/tg165.aspx, accessed 1/17/2011; Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009,
             www.treasury.gov/press-center/press-releases/Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed 1/17/2011.
      610. 	 Treasury Press Release, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/press-center/press-releases/
             Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed 1/17/2011.
      611. 	 Treasury Press Release, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/press-center/press-releases/
             Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed 1/17/2011.
      612. 	 Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/press-center/press-releases/Documents/ec%20
             ifr%20fr%20web%206.9.09tg164.pdf, accessed 1/17/2011.
      613. 	 Treasury, “Legacy Securities Public-Private Investment Program,” 7/8/2009, www.treas.tpaq.treasury.gov/press/releases/reports/legacy_securities_faqs.
             pdf, accessed 9/13/2010.
                                                                                              quarterly report to congress I january 26, 2011                    221


614. 	 Treasury, response to SIGTARP data call, 10/6/2010. Financial Stability Oversight Board, “Quarterly Report to Congress,” 9/30/2010, www.treasury.gov/
       initiatives/financial-stability/about/Oversight/FSOB/Reports/FINSOB%20Quarterly%20Report%20(093010).pdf, accessed 1/19/2011.
615. 	 Treasury Press Release, “Special Master for Executive Compensation,” 9/4/2009, www.treasury.gov/press-center/press-releases/Pages/tg329.aspx, ac-
       cessed 1/17/2011.
616. 	 Treasury, response to SIGTARP data call, 1/7/2011.
617. 	 Treasury, “Determination Regarding Citigroup’s December 23, 2009, TARP Repayment – Citigroup,” 12/23/2009, www.treasury.gov/initiatives/financial-
       stability/about/Industry_Oversight/executive-compensation/Documents/20091223%20Citigroup%20Supplemental%20Determination%20Letter.pdf,
       accessed 1/17/2011.
618. 	 Treasury Press Release, “Treasury Announces Pricing of Citigroup Common Stock Offering – Treasury Exits Citigroup Common Stock Position Netting
       a Cumulative Profit for Taxpayers of $12.0 Billion,” 12/7/2010, www.treasury.gov/press-center/press-releases/Pages/TG995.aspx, accessed 1/17/2011;
       Treasury, Section 105(a) Report, 11/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/November%20
       105%28a%29%20FINAL.pdf, accessed 1/17/2011. Treasury, response to SIGTARP data call, 10/22/2010.
619. 	 Treasury Press Release, “Chrysler Financial Parent Company Repays $1.9 Billion in Settlement of Original Chrysler Loan,” 5/17/2010, www.treasury.
       gov/press-center/press-releases/Pages/tg700.aspx, accessed 1/17/2011; Treasury, Transactions Report,11/18/2010, www.treasury.gov/initiatives/financial-
       stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/11-18-10%20Transactions%20Report%20as%20of%2011-16-10.pdf,
       accessed 1/17/2011.
620. 	 Emergency Economic Stablization Act of 2008, P.L. 110-343, 10/3/2008.
621. 	 Emergency Economic Stablization Act of 2008, P.L. 110-343, 10/3/2008.
622. 	 Treasury, response to SIGTARP data call, 1/11/2011.
623. 	 Treasury, response to SIGTARP data call, 1/7/2011.
624. 	 Treasury, response to SIGTARP data call, 1/11/2011.
625. 	 Treasury, response to SIGTARP data call, 1/7/2011.
626. 	 Congressional Oversight Panel, “Examining Treasury’s Use of Financial Crisis Contracting Authority,” 10/14/2010, http://cop.senate.gov/documents/
       cop-101410-report.pdf, accessed 10/18/2010.
627. 	 Emergency Economic Stablization Act of 2008, P.L. 110-343, 10/3/2008.
222             Appendix a I glossary I JANUARY 26, 2011




      glossary
      This appendix provides a glossary of terms that are used throughout the context of this report.


      504 Community Development Loan Program: SBA program combining                       Deficiency Judgment: Court order authorizing a lender to collect all or part
      Government-guaranteed loans with private-sector mortgages to provide loans          of an unpaid and outstanding debt resulting from the borrower’s default on
      of up to $10 million for community development.		                                   the mortgage note securing a debt. A deficiency judgment is rendered after
                                                                                          the foreclosed or repossessed property is sold when the proceeds are insuf-
      7(a) Loan Program: SBA loan program guaranteeing a percentage of loans              ficient to repay the full mortgage debt.		
      for small businesses that cannot otherwise obtain conventional loans at
      reasonable terms. 		                                                                Direct Private Placement: Sale of securities to investors that meet
                                                                                          minimum net worth and sophistication requirements, thereby receiving an
      Asset-Backed Securities (“ABS”): Bonds backed by a portfolio of consumer            exemption from normal SEC registration requirements.		
      or corporate loans, e.g., credit card, auto, or small-business loans. Financial
      companies typically issue ABS backed by existing loans in order to fund new         Due Diligence: Appropriate level of attention or care a reasonable person
      loans for their customers.		                                                        should take before entering into an agreement or a transaction with another
                                                                                          party. In finance, often refers to the process of conducting an audit or review
      Auction Agent: Firms (such as investment banks) that buy a series of securi-        of the institution before initiating a transaction.		
      ties from one institution for resale.		
                                                                                          Dutch Auction: For a Treasury warrant auction (which has multiple bid-
      Bank Holding Company: Company that owns and/or controls one or more                 ders bidding for different quantities of the asset) the accepted price is set at
      U.S. banks. 		                                                                      the lowest bid of the group of high bidders whose collective bids fulfill the
      Call Reports: Reports of Condition and Income that are required to be filed         amount offered by Treasury. As an example, three investors place bids to own
      quarterly with financial regulatory authorities by insured depository institu-      a portion of 100 shares offered by the issuer:
      tions operating in the U.S. These reports, which generally contain a balance        •	   Bidder A wants 50 shares at $4/share
      sheet, an income statement, and supporting schedules, are commonly                  •	   Bidder B wants 50 shares at $3/share
      referred to as Call Reports.		                                                      •	   Bidder C wants 50 shares at $2/share
      Collateral: Asset pledged by a borrower to a lender until a loan is repaid.         The seller selects Bidders A and B as the two highest bidders, and their col-
      Generally, if the borrower defaults on the loan, the lender gains ownership         lective bids consume the 100 shares offered. The winning price is $3, which
      of the pledged asset and may sell it to satisfy the debt. In TALF, the ABS or       is what both bidders pay per share. Bidder C’s bid is not filled.
      CMBS that is purchased with the TALF loan is the collateral that is posted
      with FRBNY.		                                                                       Equity: Investment that represents an ownership interest in a business. 	
      Commercial Mortgage-Backed Securities (“CMBS”): Bonds backed by                     Equity Capital Facility: Commitment to invest equity capital in a firm
      one or more mortgages on commercial real estate (e.g., office buildings,            under certain future conditions. An equity facility when drawn down is an
      rental apartments, hotels).		                                                       investment that increases the provider’s ownership stake in the company. The
                                                                                          investor may be able to recover the amount invested by selling their owner-
      Common Stock: Equity ownership entitling an individual to share in corpo-           ship stake to other investors at a later date.		
      rate earnings and voting rights.		
                                                                                          Equity Share Agreement: Agreements that a homeowner will share future
      Community Development Financial Institutions (“CDFIs”): Financial                   increases in home value with a mortgage investor or other party. In the
      institutions eligible for Treasury funding to serve urban and rural low-income      context of mortgage loan modifications, the investor may reduce the bor-
      communities through the CDFI Fund. CDFIs were created in 1994 by the                rower’s UPB in return for the right to share in a portion of any future rise in
      Riegle Community Development and Regulatory Improvement Act. These                  the home’s value. An equity share agreement thus may provide the mortgage
      entities must be certified by Treasury; certification confirms they target at       investor with a prospect of recovering its full investment, even if it provides
      least 60% of their lending and other economic development activities to areas       a principal reduction to the borrower. Conversely, it may also provide an
      underserved by traditional financial institutions.		                                immediate benefit to an “underwater” borrower, yet still offer that borrower
      Cumulative Preferred Stock: Stock requiring a defined dividend payment.             some prospect of benefiting from future home price appreciation.		
      If the company does not pay the dividend on schedule, it still owes the             Exceptional Assistance Recipients: Companies receiving assistance under
      missed dividend to the preferred stock’s owner.		                                   SSFI, TIP, and AIFP. Current recipients are AIG, Chrysler, GM, and Ally
      Custodian Bank: Bank holding the collateral and managing accounts for               Financial (formerly GMAC).		
      FRBNY; for TALF the custodian is Bank of New York Mellon.		                         Excess Spread: Funds left over after required payments and other contrac-
      Debt: Investment in a business that is required to be paid back to the inves-       tual obligations have been met. In TALF it is the difference between the peri-
      tor, usually with interest.		                                                       odic amount of interest paid out by the collateral and the amount of interest
                                                                                          charged by FRBNY on the non-recourse loan provided to the borrower to
      Debtor-in-Possession (“DIP”): Company operating under Chapter 11 bank-              purchase the collateral.		
      ruptcy protection that technically still owns its assets but is operating them to
      maximize the benefit to its creditors. 		                                           Exercise Price: Preset price at which the warrant holder may purchase each
                                                                                          share. For warrants in publicly traded institutions issued through CPP, this
      Deed-in-Lieu of Foreclosure: Instead of going through foreclosure, the              was based on the average stock price during the 20 days before the date that
      borrower voluntarily surrenders the deed to the home to the lender, often as        Treasury granted preliminary CPP participation approval.		
      satisfaction of the unpaid mortgage balance. 		
                                                                                                             glossary I Appendix A I JANUARY 26, 2011                 223




Haircut: Difference between the value of the collateral and the value of the       Non-Recourse Loan: Secured loan in which the borrower is relieved of the
loan (the loan value is less than the collateral value).		                         obligation to repay the loan upon surrendering the collateral.		
Illiquid Assets: Assets that cannot be quickly converted to cash. 		               Obligations: Definite commitments that create a legal liability for the
                                                                                   Government to pay funds.		
Investors: Owners of mortgage loans or bonds backed by mortgage loans
who receive interest and principal payments from monthly mortgage pay-             Over-allotment: A provision in some underwriting contracts allowing the
ments. Servicers manage the cash flow from these payments and distribute           underwriter to sell more shares to investors than were originally agreed upon.
them to investors according to Pooling and Servicing Agreements (“PSAs”).          In an underwriting agreement, the underwriter agrees with the issuer of a
                                                                                   security to place a certain amount with investors. If demand for the security
Legacy Securities: Real estate-related securities that remain on the balance       exceeds the underwriter’s supply, the over-allotment option allows the un-
sheets of financial institutions because of pricing difficulties that resulted     derwriter to sell more shares and increase the amount of proceeds the issuer
from market disruption.		                                                          receives from the IPO. 		
Letter of Credit: Letter from a bank guaranteeing that a buyer’s payment to        Pool Assemblers: Firms authorized to create and market pools of SBA-
a seller will be received on time and for the correct amount. In the event that    guaranteed loans.		
the buyer is unable to make payment on the purchase, the issuing bank is
required to cover the full or remaining amount of the obligation.		                Preferred Stock: Equity ownership that usually pays a fixed dividend before
                                                                                   distributions for common stock owners but only after payments due to hold-
Limited Partnership: Partnership in which there is at least one partner            ers of debt and depositors. It typically confers no voting rights. Preferred
whose liability is limited to the amount invested (limited partner) and at least   stock also has priority over common stock in the distribution of assets when a
one partner whose liability extends beyond monetary investment (general            bankrupt company is liquidated.		
partner).		
                                                                                   Pro Forma: In finance, refers to the presentation of hypothetical financial
Loan Servicers: Companies that perform administrative tasks on monthly             information assuming that certain assumptions will happen.		
mortgage payments until the loan is repaid. These tasks include billing,
tracking, and collecting monthly payments; maintaining records of payments         Pro Rata: Refers to dividing something among a group of participants ac-
and balances; allocating and distributing payment collections to investors in      cording to the proportionate share that each participant holds as a part of the
accordance with each mortgage loan’s governing documentation; following            whole.		
up on delinquencies; and initiating foreclosures. 		
                                                                                   Public Interest: Regulatory standard that the Special Master is required to
Loan-to-Value (“LTV”) Ratio: Lending risk assessment ratio that finan-             apply in making determinations. It refers to the determination of whether
cial institutions and other lenders examine before approving a mortgage;           TARP-recipient compensation plans are aligned with the best interests of
calculated by dividing the outstanding amount of the loan by the value of the      the U.S. taxpayer, based on a balancing of specific principles set forth in the
collateral backing the loan. Typically, assessments with high LTV ratios are       Rule.		
generally seen as higher risk.		
                                                                                   Qualifying Financial Institutions (“QFIs”): Private and public U.S.-
Mandatorily Convertible Preferred Shares (“MCP”): Preferred share that             controlled banks, savings associations, bank holding companies, certain
can be converted to common stock at the issuer’s discretion if specific criteria   savings and loan holding companies, and mutual organizations.		
are met by a certain date.		
                                                                                   Residential Mortgage-Backed Securities (“RMBS”): Bonds backed by a
Mutual Depository Institution: Any U.S. bank, U.S. savings association,            pool of mortgages for residential real estate (e.g., home mortgages for resi-
bank holding company, or savings and loan holding company organized in a           dences with up to four dwelling units). 	
mutual form. Savings associations organized as mutual institutions issue no
capital stock and therefore have no stockholders. Mutual savings associations      Revolving Credit Facility: Line of credit for which borrowers pay a commit-
build capital almost exclusively through retained earnings.		                      ment fee, allowing them to repeatedly draw down funds up to a guaranteed
                                                                                   maximum amount. The amount of available credit decreases and increases as
Nationally Recognized Statistical Rating Organization (“NRSRO”):                   funds are borrowed and then repaid.		
Credit rating agency registered with the SEC. Credit rating agencies provide
their opinion on the creditworthiness of companies and the financial obliga-       Risk-weighted Assets: Risk-based measure of total assets held by a financial
tions issued by companies. The ratings distinguish between investment grade        institution. Assets are assigned broad risk categories. The amount in each risk
and non-investment grade equity and debt obligations.	                             category is then multiplied by a risk factor associated with that category. The
                                                                                   sum of the resulting weighted values from each of the risk categories is the
Net Present Value (“NPV”) Test: Compares the money generated by modi-              bank’s total risk-weighted assets. 		
fying the terms of the mortgage with the amount an investor can reasonably
expect to recover in a foreclosure sale.		                                         SBA Pool Certificate: Ownership interest in a bond backed by SBA-
                                                                                   guaranteed loans.		
Non-Agency Residential Mortgage-Backed Securities (“non-agency
RMBS”): Financial instrument backed by a group of residential real estate          Senior Executive Officers (“SEOs”): “Named executive officer” of a TARP
mortgages not guaranteed or owned by a Government-sponsored enterprise             recipient as defined under Federal securities law, which generally includes
(“GSE”), such as the Federal National Mortgage Association (“Fannie Mae”)          the principal executive officer, principal financial officer, and the next three
or the Federal Home Loan Mortgage Corporation (“Freddie Mac”).                     most highly compensated officers.		

Non-Cumulative Preferred Stock: Preferred stock with a defined dividend,           Senior Preferred Stock: Shares that give the stockholder priority dividend
without the obligation to pay missed dividends.		                                  and liquidation claims over junior preferred and common stockholders.	
224                Appendix a I glossary I JANUARY 26, 2011




      Senior Subordinated Debentures: Debt instrument ranking below senior                                  U.S. Department of Housing and Urban Development, “Glossary,” no date, www.hud.gov/offices/hsg/
                                                                                                            sfh/buying/glossary.cfm, accessed 4/8/2009.
      debt but above equity with regard to investors’ claims on company assets
      or earnings. Senior debt holders are paid in full before subordinated debt                            Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
                                                                                                            1/18/2011.
      holders are paid. There may be additional distinctions of priority among
                                                                                                            Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
      subordinated debt holders.		                                                                          1/18/2011.
      Short Sale: Sale of a home for less than the unpaid mortgage balance. A                               FDIC, “Credit Card Securitization Manual,” no date, www.fdic.gov/regulations/examinations/credit_
                                                                                                            card_securitization/glossary.html, accessed 10/212010.
      borrower sells the home and the lender collects the proceeds as full or partial
      satisfaction of the unpaid mortgage balance, thus avoiding the foreclosure                            Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
                                                                                                            1/18/2011.
      process. 		
                                                                                                            Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
      Skin in the Game: Equity stake in an investment; down payment; the                                    1/18/2011.
      amount an investor can lose.		                                                                        Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
                                                                                                            1/18/2011.
      Special Purpose Vehicle (“SPV”): Off-balance-sheet legal entity that holds                            SBA, “Notice of Changes to SBA Secondary Market Program,” 9/21/2004, www.sba.gov/idc/
      transferred assets presumptively beyond the reach of the entities providing                           groups/public/documents/sba_program_office/bank_notice_of_changes.htm, accessed 9/25/2010.
      the assets.		                                                                                         Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
                                                                                                            1/18/2011, as changed by SIGTARP.
      Subchapter S-corporation (“S-corporation”): Corporate form that passes                                Treasury, “Special Master Feinberg Testimony before the House Committee on Oversight and Govern-
      corporate income, losses, deductions, and credit through to shareholders for                          ment Reform,” 10/28/2009, www.treasury.gov/press-center/press-releases/Pages/tg334.aspx,
      Federal tax purposes. Shareholders of S-corporations report the flow-through                          accessed 1/18/2011.
      of income and losses on their personal tax returns and are taxed at their                             Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009,
                                                                                                            www.treasury.gov/press-center/press-releases/Pages/tg165.aspx, accessed 1/18/2011.
      individual income tax rates.		
                                                                                                            Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009,
      Synthetic ABS: Security deriving its value and cash flow from sources other                           www.treasury.gov/press-center/press-releases/Pages/tg165.aspx, accessed 1/18/2011.
      than conventional debt, equities, or commodities — for example, credit                                FDIC, “Credit Card Securitization Manual,” no date, www.fdic.gov/regulations/examinations/credit_
      derivatives.		                                                                                        card_securitization/glossary.html, accessed 4/8/2009.
                                                                                                            Board of Governors of the the Federal Reserve System, “Bank Holding Companies,” no date,
      Systemically Significant: Term referring to any financial institution whose                           www.fedpartnership.gov/bank-life-cycle/manage-transition/bank-holding-companies.cfm, accessed
      failure would impose significant losses on creditors and counterparties, call                         1/20/2011.
      into question the financial strength of similar institutions, disrupt financial                       GAO, “Troubled Asset Relief Program: Third Quarter 2010 Update of Government Assistance Provided
                                                                                                            to AIG and Description of Recent Execution of Recapitalization Plan,” 1/20/2011, www.gao.gov/new.
      markets, raise borrowing costs for households and businesses, and reduce
                                                                                                            items/d1146.pdf, accessed 1/20/2011.
      household wealth (also commonly used to describe institutions “too big to
                                                                                                            Treasury, “Examinations of Mutual Savings Associations,” 11/1/2001, www.ots.treas.gov/_
      fail”).		                                                                                             files/25153.pdf, accessed 1/20/2011.

      TALF Agent: Financial institution that is party to the TALF Master Loan and                           Treasury, “Fact Sheet: Unlocking Credit for Small Businesses,’” no date, www.treasury.gov/initia-
                                                                                                            tives/financial-stability/investment-programs/sbli/Pages/unlockingCreditforSmallBusinesses.aspx,
      Security Agreement and that occasionally acts as an agent for the borrower.                           accessed 1/20/2011.
      TALF agents include primary and nonprimary broker-dealers.		                                          FDIC, “FDIC Law, Regulations, Related Acts,” no date, www.fdic.gov/regulations/laws/
                                                                                                            rules/2000-4600.html, accessed 1/20/2011.
      Trial Modification: Under HAMP, a period of at least three months in
                                                                                                            Treasury, “Fact Sheet: Unlocking Credit for Small Businesses,’” no date, www.treasury.gov/initia-
      which a borrower is given a chance to establish that he or she can make
                                                                                                            tives/financial-stability/investment-programs/sbli/Pages/unlockingCreditforSmallBusinesses.aspx,
      lower monthly mortgage payments.		                                                                    accessed 1/20/2011.
                                                                                                            Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
      Trust Preferred Securities (“TRUPS”): Securities that have both equity and
                                                                                                            1/18/2011.
      debt characteristics, created by establishing a trust and issuing debt to it.	
                                                                                                            Federal Reserve Board, Federal Reserve Banks Operating Circular No. 8: Collateral, www.frbservices.
      Undercapitalized: Condition in which a financial institution does not meet                            org, accessed 1/28/2009.

      its regulator’s requirements for sufficient capital to operate under a defined                        IRS, “Glossary of Offshore Terms,” No date, www.irs.gov/businesses/small/article/0,,id=106572,00.
                                                                                                            html, accessed 4/8/2009.
      level of adverse conditions. 		
                                                                                                            GAO, “TROUBLED ASSET RELIEF PROGRAM Treasury Needs to Strengthen Its Decision-Making Pro-
      Underwater Mortgage: Mortgage loan on which a homeowner owes more                                     cess on the Term Asset-Backed Securities Loan Facility,” 2/2010, www.gao.gov/new.items/d1025.
                                                                                                            pdf, accessed 10/20/2010.
      than the home is worth, typically as a result of a decline in the home’s value.	
                                                                                                            FRBNY, “TALF FAQ’s,” 9/1/2009, www.newyorkfed.org/markets/talf_faq.html, accessed 9/1/2009.
      VEBA: Tax-free, post-retirement medical expense account used by retirees                              SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,”
      and their eligible dependents to pay for any eligible medical expenses.		                             3/25/2010, http://sigtarp.gov/reports/audit/2010/Factors_Affecting_Implementation_of_the_
                                                                                                            Home_Affordable_Modification_Program.pdf, accessed 03/28/2010.
                                                                                                            SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,”
      Sources:                                                                                              3/25/2010, http://sigtarp.gov/reports/audit/2010/Factors_Affecting_Implementation_of_the_
      U.S. Census Bureau, “Residential Finance Survey, Glossary Of RFS Terms And Definitions,” no date,     Home_Affordable_Modification_Program.pdf, accessed 03/28/2010.
      www.census.gov/hhes/www/rfs/glossary.html#l, accessed 10/20/2010.
                                                                                                            USDA, “Glossary,” no date, www.rurdev.usda.gov/regs/handbook/hb-1-3565/w6gloss.pdf, accessed
      GAO, “Principles of Federal Appropriations Law, Third Edition, Volume II,” 01/2004, www.gao.gov/      4/8/2009.
      special.pubs/d06382sp.pdf — page 7-3, accessed 10/20/2010.
                                                                                                            Treasury, “Supplemental Directive 10-14: Making Home Affordable Program — Principal Reduction
      Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed   Alternative Update,” 10/15/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
      1/18/2011.                                                                                            sd1014.pdf, accessed 1/19/2011.
                                                                                Acronyms and abbreviations I Appendix B I january 26, 2011             225




Acronyms and Abbreviations

2MP                  Second Lien Modification Program                    FBI                    Federal Bureau of Investigation
ABS                  asset-backed securities                             FDIC                   Federal Deposit Insurance Corporation
AGP                  Asset Guarantee Program                             FDIC OIG               Office of the Inspector General of the Federal
                                                                                                Deposit Insurance Corporation
AIA                  American International Assurance Co., Ltd.
                                                                         FHA                    Federal Housing Administration
AIFP                 Automotive Industry Financing Program
                                                                         FHA2LP                 Federal Housing Administration Second Lien
AIG                  American International Group, Inc.
                                                                                                Program
AIG Trust            AIG Credit Facility Trust
                                                                         FHFA                   Federal Housing Finance Agency
ALICO                American Life Insurance Company
                                                                         Fiat                   Fiat North America LLC
ARM                  adjustable rate mortgage
                                                                         First BanCorp          First BanCorp, San Juan, Puerto Rico
ARRA                 American Recovery and Reinvestment Act of 2009
                                                                         FRBNY                  Federal Reserve Bank of New York
ASSP                 Auto Supplier Support Program
                                                                         Freddie Mac            Federal Home Loan Mortgage Corporation
AWCP                 Auto Warranty Commitment Program
                                                                         FSOC                   Financial Stability Oversight Council
Bank of America      Bank of America Corporation
                                                                         FTC                    Federal Trade Commission
BHC                  bank holding company
                                                                         GAO                    Government Accountability Office
BlackRock            BlackRock Financial Management, Inc.
                                                                         GM                     General Motors Company
CAP                  Capital Assistance Program
                                                                         GMAC                   GMAC Inc.
CBO                  Congressional Budget Office
                                                                         GSE                    Government-sponsored enterprise
CDCI                 Community Development Capital Initiative
                                                                         HAFA                   Home Affordable Foreclosure Alternatives program
CDFI                 Community Development Financial Institution
                                                                         HAMP                   Home Affordable Modification Program
Central Pacific      Central Pacific Financial Corp., Honolulu, Hawaii
                                                                         HFA                    Housing Finance Agency
CEO                  chief executive officer
                                                                         HHF                    Hardest-Hit Fund
Cerberus             Cerberus Capital Management, L.P.
                                                                         HPDP                   Home Price Decline Protection program
Chrysler Financial   Chrysler Financial Services Americas LLC
                                                                         HSC                    HAMP Solution Center
CMBS                 commercial mortgage-backed securities
                                                                         HUD                    Department of Housing and Urban Development
Colonial             Colonial Bancgroup
                                                                         HUD OIG                Office of the Inspector General of the Department of
COP                  Congressional Oversight Panel                                              Housing and Urban Development
CPP 	                Capital Purchase Program                            ICE                    U.S. Immigration and Customs Enforcement
Currituck            Bank of Currituck, Moyock, North Carolina           ILFC                   International Lease Finance Corporation
DIP                  debtor-in-possession                                IPO                    initial public offering
Dodd-Frank Act       Dodd-Frank Wall Street Reform and Consumer          IRS                    Internal Revenue Service
                     Protection Act
                                                                         LTV                    loan-to-value ratio
DOJ                  Department of Justice
                                                                         MBS                    mortgage-backed securities
DTI                  debt-to-income ratio
                                                                         MCP                    mandatorily convertible preferred shares
Edison               AIG Edison Life Insurance Company
                                                                         MHA                    Making Home Affordable program
EESA                 Emergency Economic Stabilization Act of 2008
                                                                         NHMC                   Nations Housing Modification Center
Fannie Mae           Federal National Mortgage Association
                                                                         NPV                    net present value
226              Appendix B I Acronyms and abbreviations I january 26, 2011




      NRSRO                  nationally recognized statistical rating organization   Treasury   Department of the Treasury
      OFS                    Office of Financial Stability                           TRUPS      trust preferred securities
      OMB                    Office of Management and Budget                         UAW        United Auto Workers
      Pierce County          Pierce County Bancorp, Tacoma, Washington               UCSB       Unlocking Credit for Small Businesses initiative
      PPIF                   Public-Private Investment Fund                          ULG        United Law Group
      PPIP                   Public-Private Investment Program                       UP         Home Affordable Unemployment Program
      PRA                    Principal Reduction Alternative program                 USDA       U.S. Department of Agriculture
      QFI                    qualifying financial institution                        USPIS      U.S. Postal Inspection Service
      RD-HAMP                Rural Development Home Affordable Modification          VA         Department of Veterans Affairs
                             Program
                                                                                     VEBA       Retiree Medical Benefits Trust
      RHS                    Rural Housing Service
      RMA                    request for modification and affidavit
      RMBS                   residential mortgage-backed securities
      S&P                    Standard & Poor’s
      SBA                    Small Business Administration
      SBLF                   Small Business Lending Fund
      SEC                    Securities and Exchange Commission
      SEO                    senior executive officer
      SIGTARP                Special Inspector General for the Troubled Asset
                             Relief Program
      SPA                    Servicer Participation Agreement
      Special Master         Office of the Special Master for the Troubled Asset
                             Relief Program
      SPV                    special purpose vehicle
      SS/DIL                 short sales/deed-in-lieu of foreclosure
      SSFI                   Systemically Significant Failing Institutions program
      Star                   AIG Star Life Insurance Co., Ltd.
      TALF                   Term Asset-Backed Securities Loan Facility
      TARP                   Troubled Asset Relief Program
      TCW                    The TCW Group, Inc.
      the Rule               Interim Final Rule on TARP Standards for Compensa-
                             tion and Corporate Governance
      Tifton                 Tifton Banking Company, Tifton, Georgia
      TIP                    Targeted Investment Program
      TOTAL                  FHA TOTAL Scorecard
      TowneBank              TowneBank, Portsmouth, Virginia
      TPP                    trial period plan
                                                                                         Reporting Requirements I Appendix C I JANUARY 26, 2011              227




Reporting Requirements
This appendix provides Treasury’s responses to data call questions regarding the reporting requirements of the Special
Inspector General for the Troubled Asset Relief Program outlined in EESA Section 121, as well as a cross-reference to related
data presented in this report and prior reports. Italic style indicates narrative taken verbatim from source documents.

     EESA        EESA Reporting                                                                                                            SIGTARP
 #   Section     Requirement          Treasury Response to SIGTARP Data Call                                                               Report Section
 1   Section     A description of     Treasury’s authority to make new financial commitments under TARP ended on October 3,                Section 2:
     121(c)(A)   the categories of    2010.                                                                                                “TARP Overview”
                 troubled assets
                 purchased or         Below are program descriptions from Treasury’s www.treasury.gov/initiatives/financial-               Appendix D:
                 otherwise procured   stability/Pages/default.aspx website, as of 12/31/2010:                                              “Transaction
                 by the Treasury                                                                                                           Detail”
                 Secretary.
                                      CPP: Treasury created the Capital Purchase Program (CPP) in October 2008 to stabilize the
                                      financial system by providing capital to viable financial institutions of all sizes throughout the
                                      nation. With a strengthened capital base, financial institutions have an increased capacity to
                                      lend to U.S. businesses and consumers and to support the U.S. economy.
                                      SSFI: Systemically Significant Failing Institution Program (SSFI) was established to provide
                                      stability and prevent disruptions to financial markets from the failure of institutions that are
                                      critical to the functioning of the nation’s financial system.
                                      AGP: The Asset Guarantee Program (AGP) provides government assurances for assets held
                                      by financial institutions that are critical to the functioning of the nation’s financial system,
                                      which face a risk of losing the critical confidence that is needed for them to continue to lend
                                      to other banks.
                                      TIP: Treasury created the Targeted Investment Program (TIP) to stabilize the financial sys-
                                      tem by making investments in institutions that are critical to the functioning of the financial
                                      system. This program focuses on the complex relationships and reliance of institutions
                                      within the financial system. Investments made through the TIP seek to avoid significant mar-
                                      ket disruptions resulting from the deterioration of one financial institution that can threaten
                                      other financial institutions and impair broader financial markets and pose a threat to the
                                      overall economy.
                                      TALF: The TALF is designed to increase credit availability and support economic activity
                                      by facilitating renewed issuance of consumer and small business ABS at more normal
                                      interest rate spreads… Under the TALF, the Federal Reserve Bank of New York (FRBNY) will
                                      provide non-recourse funding to any eligible borrower owning eligible collateral... The U.S.
                                      Treasury’s Troubled Assets Relief Program (TARP) may purchase $4.3 billion of subordi-
                                      nated debt in an SPV created by the FRBNY. The SPV will purchase and manage any assets
                                      received by the FRBNY in connection with any TALF loans. Residual returns from the SPV will
                                      be shared between the FRBNY and the U.S. Treasury.
                                      PPIP: The Legacy Securities Public-Private Investment Program (“S-PPIP”) is designed to
                                      purchase troubled legacy securities that are central to the problems currently impacting the
                                      U.S. financial system. Under this program, Treasury will invest equity and debt in multiple
                                      Public-Private Investment Funds (“PPIFs”) established with private sector fund managers and
                                      private sector investors for the purpose of purchasing eligible assets. PPIF managers will
                                      invest in securities backed directly by mortgages that span the residential credit spectrum
                                      (e.g., prime, Alt-A, subprime mortgages) as well as the commercial mortgage market.
                                      CDCI: In February 2010, Treasury announced the Community Development Capital Initiative
                                      (CDCI) to improve access to credit for small businesses. Through this TARP program, Trea-
                                      sury will invest lower-cost capital in Community Development Financial Institutions (CDFIs)
                                      that lend to small businesses in the country’s hardest-hit communities.
228           Appendix C I Reporting Requirements I JANUARY 26, 2011




          EESA        EESA Reporting                                                                                                           SIGTARP
      #   Section     Requirement             Treasury Response to SIGTARP Data Call                                                           Report Section
                                              SBLF: [SBLF] was established on September 27, 2010 to allow Treasury to make capital
                                              investments in eligible institutions in order to increase the availability of credit for small
                                              businesses.
                                              UCSB: The Treasury Department will begin making direct purchases of securities backed by
                                              SBA loans to get the credit market moving again, and it will stand ready to purchase new
                                              securities to ensure that community banks and credit unions feel confident in extending new
                                              loans to local businesses.
                                              AIFP: The objective of [AIFP] is to prevent a significant disruption of the American auto-
                                              motive industry, which would pose a systemic risk to financial market stability and have
                                              a negative effect on the economy of the United States... [Through AIFP, Treasury has
                                              provided] loans or equity investments to General Motors, GMAC, Chrysler, and Chrysler
                                              Financial in order to avoid a disorderly bankruptcy of one or more auto companies; such an
                                              event would pose a systemic risk to the country’s financial system. Treasury’s loans to the
                                              automobile industry forged a path for these companies to go through orderly restructurings
                                              and achieve viability.
                                              ASSP: [ASSP was created to] provide up to $5 billion in financing, giving suppliers the
                                              confidence they need to continue shipping parts, pay their employees and continue their
                                              operations.
                                              AWCP: The Treasury Department announced an innovative new program to give consumers
                                              who are considering new car purchases the confidence that even while Chrysler and GM
                                              were restructuring in bankruptcy, their warrantees will be honored. This program is part
                                              of the Administration’s broader program to stabilize the auto industry and stand behind a
                                              restructuring effort that will result in stronger, more competitive and viable American car
                                              companies.
                                              HAMP (a program under MHA): The Home Affordable Modification Program has a simple
                                              goal: reduce the amount homeowners owe per month to sustainable levels to stabilize
                                              communities. This program will bring together lenders, investors, servicers, borrowers,
                                              and the government, so that all stakeholders share in the cost of ensuring that responsible
                                              homeowners can afford their monthly mortgage payments – helping to reach up to 3 to 4
                                              million at-risk borrowers in all segments of the mortgage market, reducing foreclosures,
                                              and helping to avoid further downward pressures on overall home prices.
      2   Section     A listing of the        Treasury’s authority to make new financial commitments under TARP ended on                       Appendix D:
          121(c)(B)   troubled assets         October 3, 2010.                                                                                 “Transaction
                      purchased in each                                                                                                        Detail”
                      such category           Information on all transactions as well as additional information about these programs and
                      described under         related purchases is available in the transaction reports and monthly 105(a) reports posted
                      Section 121(c)(A).      at www.treasury.gov/initiatives/financial-stability/briefing-room/Pages/briefing-room.aspx.
                                              Information regarding all transactions through the end of December 2010 is available at
                                              the aforementioned link in a transaction report dated December 30, 2010. No additional
                                              transactions occurred between December 30, 2010 and December 31, 2010.
      3   Section     An explanation of       Treasury’s authority to make new financial commitments under TARP ended on                       Section 2: “TARP
          121(c)(C)   the reasons the         October 3, 2010.                                                                                 Overview”
                      Treasury Secretary
                      deemed it neces-                                                                                                         Appendix C:
                      sary to purchase                                                                                                         “Reporting
                      each such troubled                                                                                                       Requirements”
                      asset.                                                                                                                   of prior SIGTARP
                                                                                                                                               Quarterly Reports
                                                                                                                                               to Congress
      4   Section     A listing of each       See #2 above                                                                                     See #2
          121(c)(D)   financial institution
                      from which such
                      troubled assets
                      were purchased.
                                                                                         Reporting Requirements I Appendix C I JANUARY 26, 2011              229



    EESA        EESA Reporting                                                                                                           SIGTARP
#   Section     Requirement            Treasury Response to SIGTARP Data Call                                                            Report Section
5   Section     A listing of and       There have been no new PPIP fund managers hired between October 1, 2010 and                       Section 2:
    121(c)(E)   detailed biographi-    December 31, 2010.                                                                                “Public Private
                cal information on                                                                                                       Investment
                each person or         On November 18, 2010, the Treasury engaged Greenhill & Co. LLC (Greenhill) as a financial         Program”
                entity hired to man-   agent to provide certain services relating to the management and disposition of American
                age such troubled      International Group, Inc. (AIG) investments acquired pursuant to the Emergency Economic           Appendix C:
                assets.                Stability Act of 2008 (EESA). Greenhill is a global financial services firm providing invest-     “Reporting
                                       ment banking and advice on mergers, acquisitions, restructurings, financings and capital          Requirements”
                                       raisings to corporations, partnerships, institutions and governments.                             of prior SIGTARP
                                       Greenhill, acting as Treasury’s transaction structuring agent, will perform various services      Quarterly Reports
                                       related to the management and disposition of such investments, including:                         to Congress
                                       •	 Analyzing, reviewing and documenting financial, corporate, and business information
                                          related to potential transactions,
                                       •	 Reporting on the potential performance of designated investments and their disposition
                                          given a range of market scenarios and transaction structure,
                                       •	 Analyzing and reviewing disposition alternatives and structures including the use of
                                          underwriters, brokers or other capital market advisors for the best means and structure
                                          to dispose of assets, and,
                                       •	 Maintaining a compliance program designed to detect and prevent violations of Federal
                                          securities laws, and identifying, documenting, and enforcing controls to mitigate conflicts
                                          of interest.
                                       Additionally, Greenhill is required to permit the Treasury’s internal and external auditors, or
                                       other governmental oversight entities, to audit books and records related to their services
                                       provided to Treasury under the terms of their Financial Agency Agreement (FAA) with the
                                       Treasury. The FAA is available on our website at www.financialstability.gov/impact/contract-
                                       Detail2.html.


6   Section     A current estimate     The transaction reports also capture detailed information about troubled asset purchases,         Table C.1;
    121(c)(F)   of the total amount    price paid, and the amount of troubled assets currently on Treasury’s books. The latest           Section 2: “TARP
                of troubled assets     transaction reports are available on OFS’ website at www.financialstability.gov/latest/report-    Overview”
                purchased pursuant     sanddocs.html. Information regarding all transactions through the end of December 2010 is
                to any program         available at the aforementioned link in a transaction report dated December 30, 2010. No          Appendix D:
                established under      additional transactions occurred between December 30, 2010 and December 31, 2010.                 “Transaction
                Section 101, the                                                                                                         Detail”
                amount of troubled     Information on the repayments of Treasury’s investments under the CPP and proceeds from
                assets on the          the sale of warrants are available within Treasury’s press releases, transactions reports and
                books of Treasury,     Section 105(a) Monthly Congressional Reports at the following links:
                the amount of          www.treasury.gov/initiatives/financial-stability/briefing-room/Pages/press-releases.aspx
                troubled assets
                sold, and the profit   www.treasury.gov/initiatives/financial-stability/briefing-room/reports/Pages/Home.aspx
                and loss incurred
                on each sale or
                disposition of each
                such troubled
                asset.
7   Section     A listing of the       Treasury’s authority to make new financial commitments under TARP ended on October 3,             Section 2:
    121(c)(G)   insurance contracts    2010. As such, Treasury cannot issue any new insurance contracts after this date.                 “TARP Overview”
                issued under Sec-
                tion 102.                                                                                                                Section 2:
                                                                                                                                         “Targeted Invest-
                                                                                                                                         ment Program and
                                                                                                                                         Asset Guarantee
                                                                                                                                         Program”
230               Appendix C I Reporting Requirements I JANUARY 26, 2011



      Table C.1
           EESA             EESA Reporting                                                                                                                                    SIGTARP
       # Section            Requirement                Treasury Response to SIGTARP Data Call                                                                                 Report Section
      8      Section        A detailed state-          Treasury’s authority to make new financial commitments under TARP ended on October 3,                                  Table C.1;
             121(f)         ment of all pur-           2010.                                                                                                                  Section 2:
                            chases, obligations,                                                                                                                              “TARP Overview”
                            expenditures, and          Treasury provides information about TARP obligations, expenditures and revenues in sepa-
                            revenues associ-           rate transaction reports available on Treasury’s public website at www.treasury.gov/                                   Section 3: “TARP
                            ated with any pro-         initiatives/financial-stability/briefing-room/Pages/briefing-room.aspx. Information regarding                          Operations and
                            gram established           all transactions through the end of December 2010 is available at the aforementioned link                              Administration”
                            by the Secretary of        in a transaction report dated December 30, 2010. No additional transactions occurred
                                                                                                                                                                              Appendix D:
                            the Treasury under         between December 30, 2010 and December 31, 2010.
                                                                                                                                                                              “Transaction
                            Sections 101 and
                                                                                                                                                                              Detail”
                            102.
      Sources: Treasury, responses to SIGTARP data call, 1/5/2011 and 1/7/2011; Program Descriptions: Treasury, “Programs” webpage,
      www.treasury.gov/initiatives/financial-stability/investment-programs/Pages/default.aspx, accessed 12/31/2010; ASSP: “Treasury Announces Auto Suppliers Support Program,” 3/19/2009,
      www.treasury.gov/press-center/press-releases/Pages/tg64.aspx, accessed 12/31/2010; AWCP: “Obama Administration’s New Warrantee Commitment Program,” no date,
      www.whitehouse.gov/assets/documents/Warrantee_Commitment_Program.pdf, accessed 12/31/2010; TALF: Federal Reserve,
      “Term Asset-Backed Securities Loan Facility (TALF) Frequently Asked Questions,” no date, www.federalreserve.gov/newsevents/press/monetary/monetary20090303a2.pdf,
      accessed 12/31/2010; SBLF: Small Business Lending Act, P.L. 111-240, 9/27/2010; MHA “Housing Programs,” no date,
      www.treasury.gov/initiatives/financial-stability/housing-programs/mha/Pages/default.aspx, accessed 12/31/2010.
      			
      			




           TOTAL AMOUNT OF TROUBLED ASSETS PURCHASED AND HELD ON TREASURY’S BOOKS, AS OF 12/31/2010 ($ BILLIONS)
                                                                                                                                                                                            On Treasury’s
                                                                                                                         Obligationsa                                Expendedb                    Booksc
          Capital Purchase Program (“CPP”)                                                                                    $204.89                                   $204.89                   $36.96
          Systemically Significant Failing Institutions (“SSFI”)                                                                 69.84                                      47.54                  47.54
          Home Affordable Modification Program (“HAMP”)                                                                          45.62                                        1.00                  1.00
          Targeted Investment Program (“TIP”)                                                                                    40.00                                      40.00                    —
          Automotive Industry Financing Program (“AIFP”)                                                                         81.76                                      79.69                  52.83
          Asset Guarantee Program (“AGP”)                                                                                          5.00                                        —                     —
          Consumer and Business Lending Initiative (“CBLI”)
              Term Asset-Backed Securities Loan Facility (“TALF”)                                                                  4.30                                       0.10                  0.10
              Small Business Lending Program                                                                                        —                                          —                     —
              Unlocking Credit for Small Businesses (“UCSB”)                                                                       0.37                                       0.37                  0.37
              Community Development Capital Initiative (“CDCI”)                                                                    0.57                                       0.21                  0.21
          Legacy Securities Public-Private Investment Program (“PPIP”)                                                           22.41                                      15.56                  14.97
          Total                                                                                                              $474.76                                    $389.36                 $153.98
          Notes: Numbers affected by rounding.
          a
            For purposes of this table, “Obligations” refers to “Face Value Obligations” on the Treasury TARP/Financial Stability Plan Budget Table (“TARP Budget” as of 1/4/2011).
          b
            “Expended” refers to “Face Value Disbursed/Outlays,” defined as “TARP cash that has left the Treasury, according to the TARP budget.”
          c
            “On Treasury’s Books” calculated as “Face Value Disbursed/Outlays” net of repayments per the Transactions Report if they do not appear to be already netted out.

          Sources: Repayments data: Treasury, Transactions Report, 1/4/2011; all other data: Treasury, response to SIGTARP data call, 1/4/2011.
table d.1

CPP Transaction Detail, as of 12/31/2010                                                     (CONTINUED)


                                                                                               Capital Repayment Details                                                    Final Disposition                                             Warrant and Market Data for Publicly Traded Companie

                                                                                           Capital            Capital      Remaining       Final                    Final      Stock Price Market Capitalization     Strike Price       Current     Amount “In the                          Interest/
Purchase                                     Investment                                 Repayment          Repayment         Capital Disposition              Disposition            as of   as of 12/31/2010               as of   Outstanding   Money” or “Out of   In or Out of   Dividends Paid
Date         Institution                     Description            Investment Amount        Date             Amount         Amount        Date    Note15      Proceeds       12/31/2010            (in millions)   12/31/2010a       Warrantsa       the Money”e     the Moneye         to Treasury
             1st Constitution Bancorp,       Preferred Stock w/
12/23/2008                                                               $12,000,000    10/27/2010       $12,000,000              —                                                  $8.56                $39.14           $8.15       220,745               $0.41             IN       $1,106,667
             Cranbury, NJ4                   Warrants
             1st Enterprise Bank,            Preferred Stock w/
2/13/2009                                                                 $4,400,000
             Los Angeles, CA2                Exercised Warrants
                                                                                                                                                                                                                                                                                          $699,315
             1st Enterprise Bank,
12/11/2009                                   Preferred Stock              $6,000,000
             Los Angeles, CA2, 10a
             1st FS Corporation,             Preferred Stock w/
11/14/2008                                                               $16,369,000                                                                                                 $0.40                 $2.04           $8.87       276,815              ($8.47)          OUT        $1,229,949
             Hendersonville, NC              Warrants
             1st Source Corporation,         Preferred Stock w/
1/23/2009                                                               $111,000,000    12/29/2010      $111,000,000              —                                                 $20.24              $489.87           $19.87       837,947               $0.37             IN      $10,730,000
             South Bend, IN4                 Warrants
             1st United Bancorp, Inc.,       Preferred Stock w/
3/13/2009                                                                $10,000,000    11/18/2009       $10,000,000              — 11/18/2009         R       $500,000                                                                                                                   $370,903
             Boca Raton, FL2, 4, 7           Exercised Warrants
             AB&T Financial Corporation,     Preferred Stock w/
1/23/2009                                                                 $3,500,000                                                                                                 $2.00                 $5.34           $6.55        80,153              ($4.55)          OUT          $316,944
             Gastonia, NC                    Warrants
                                             Preferred Stock w/
1/30/2009    Adbanc, Inc, Ogallala, NE2                                  $12,720,000                                                                                                                                                                                                    $1,242,055
                                             Exercised Warrants
             Alarion Financial Services, Inc., Preferred Stock w/
1/23/2009                                                                 $6,514,000                                                                                                                                                                                                      $643,017
             Ocala, FL2                        Exercised Warrants
             Alaska Pacific Bancshares,      Preferred Stock w/
2/6/2009                                                                  $4,781,000                                                                                                 $6.00                 $3.92           $4.08       175,772               $1.92             IN         $304,789
             Inc., Juneau, AK                Warrants
             Alliance Bancshares, Inc.,      Preferred Stock w/
6/26/2009                                                                 $2,986,000                                                                                                                                                                                                      $225,534
             Dalton, GA2                     Exercised Warrants
           Alliance Financial Corporation, Preferred Stock w/
12/19/2008                                                               $26,918,000     5/13/2009       $26,918,000              — 6/17/2009          R       $900,000             $32.35              $152.17                                                                           $538,360
           Syracuse, NY4                   Warrants
                                               Subordinated
             Alliance Financial Services Inc.,
6/26/2009                                      Debentures w/             $12,000,000                                                                                                                                                                                                      $388,742
             Saint Paul, MN8
                                               Exercised Warrants
             Allied First Bancorp, Inc.,     Preferred Stock w/
4/24/2009                                                                 $3,652,000                                                                                                                                                                                                      $310,218
             Oswego, IL2                     Exercised Warrants
             Alpine Banks of Colorado,       Preferred Stock w/
3/27/2009                                                                $70,000,000                                                                                                                                                                                                    $6,231,166
             Glenwood Springs, CO2           Exercised Warrants
             AMB Financial Corp.,            Preferred Stock w/
1/30/2009                                                                 $3,674,000                                                                                                                                                                                                      $358,799
             Munster, IN2                    Exercised Warrants
             AmeriBank Holding Company,      Preferred Stock w/
3/6/2009                                                                  $2,492,000                                                                                                                                                                                                      $229,813
             Collinsville, OK2               Exercised Warrants

             American Express Company,       Preferred Stock w/
1/9/2009                                                              $3,388,890,000     6/17/2009    $3,388,890,000              — 7/29/2009          R    $340,000,000            $42.92           $51,665.55                                                                        $74,367,308
             New York, NY4                   Warrants
             American Premier Bancorp,       Preferred Stock w/
5/29/2009                                                                 $1,800,000                                                                                                                                                                                                      $143,335
             Arcadia, CA2                    Exercised Warrants
             American State Bancshares,      Preferred Stock w/
1/9/2009                                                                  $6,000,000                                                                                                                                                                                                      $604,950
             Inc., Great Bend, KS2           Exercised Warrants
                                             Preferred Stock w/
11/21/2008 Ameris Bancorp, Moultrie, GA                                  $52,000,000                                                                                                $10.54              $249.01           $11.17       698,554              ($0.63)          OUT        $5,156,667
                                             Warrants
           AmeriServ Financial, Inc,         Preferred Stock w/
12/19/2008                                                               $21,000,000                                                                                                 $1.58                $33.53           $2.40     1,312,500              ($0.82)          OUT        $2,000,833
           Johnstown, PA                     Warrants
                                             Subordinated
             AmFirst Financial Services,
8/21/2009                                    Debentures w/                $5,000,000                                                                                                                                                                                                      $517,385
             Inc., McCook, NE8
                                             Exercised Warrants
             Anchor BanCorp Wisconsin        Preferred Stock w/
1/30/2009                                                               $110,000,000                                                                                                 $1.20                $26.02           $2.23     7,399,103              ($1.03)          OUT                  —
             Inc., Madison, WI               Warrants
             Annapolis Bancorp, Inc.,        Preferred Stock w/
1/30/2009                                                                 $8,152,000                                                                                                 $4.32                $16.93           $4.08       299,706               $0.24             IN         $730,283
             Annapolis, MD                   Warrants
             Associated Banc-Corp,           Preferred Stock w/
11/21/2008                                                              $525,000,000                                                                                                $15.15             $2,621.83          $19.77     3,983,308              ($4.62)          OUT       $52,062,500
             Green Bay, WI                   Warrants
           Atlantic Bancshares, Inc.,        Preferred Stock w/
12/29/2009                                                                $2,000,000                                                                                                                                                                                                       $95,520
           Bluffton, SC2, 10                 Exercised Warrants
             Avenue Financial Holdings,      Preferred Stock w/
2/27/2009                                                                 $7,400,000                                                                                                                                                                                                      $692,332
             Inc., Nashville, TN2            Exercised Warrants
             BancIndependent, Inc.,          Preferred Stock w/
                                                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I january 26, 2011




3/13/2009                                                                $21,100,000                                                                                                                                                                                                    $1,922,972
             Sheffield, AL2                  Exercised Warrants
             Bancorp Financial, Inc.,        Preferred Stock w/
7/10/2009                                                                $13,669,000                                                                                                                                                                                                      $970,472
             Oak Brook, IL2, 10              Exercised Warrants

                                                                                                                                                                                                                                                                             Continued on next page.
                                                                                                                                                                                                                                                                                                        231
CPP Transaction Detail, as of 12/31/2010                                                             (CONTINUED)                                                                                                                                                                                                 232

                                                                                                       Capital Repayment Details                                                    Final Disposition                                             Warrant and Market Data for Publicly Traded Companie

                                                                                                   Capital            Capital      Remaining       Final                    Final      Stock Price Market Capitalization     Strike Price       Current     Amount “In the                           Interest/
Purchase                                          Investment                                    Repayment          Repayment         Capital Disposition              Disposition            as of   as of 12/31/2010               as of   Outstanding   Money” or “Out of   In or Out of    Dividends Paid
Date         Institution                          Description               Investment Amount        Date             Amount         Amount        Date    Note15      Proceeds       12/31/2010            (in millions)   12/31/2010a       Warrantsa       the Money”e     the Moneye          to Treasury
             Bancorp Rhode Island, Inc.,          Preferred Stock w/
12/19/2008                                                                       $30,000,000     8/5/2009        $30,000,000              — 9/30/2009          R      $1,400,000            $29.09              $135.97                                                                            $941,667
             Providence, RI4                      Warrants
             BancPlus Corporation,                     Preferred Stock w/
2/20/2009                                                                        $48,000,000    9/29/2010        $48,000,000              — 9/29/2010          R      $2,400,000                                                                                                                 $4,207,399
             Ridgeland, MS2, 4, 7, 30 - 9/29/2010, 30a Exercised Warrants
                                                  Preferred Stock w/
4/3/2009     BancStar, Inc., Festus, MO2                                          $8,600,000                                                                                                                                                                                                       $757,732
                                                  Exercised Warrants
           BancTrust Financial Group,             Preferred Stock w/
12/19/2008                                                                       $50,000,000                                                                                                 $2.67                $47.22          $10.26       730,994              ($7.59)          OUT         $4,763,889
           Inc., Mobile, AL                       Warrants
             Bank Financial Services, Inc.,       Preferred Stock w/
8/14/2009                                                                         $1,004,000                                                                                                                                                                                                        $68,527
             Eden Prarie, MN2                     Exercised Warrants
             Bank of America Corporation,         Preferred Stock w/
1/9/2009                                                                     $10,000,000,000    12/9/2009    $10,000,000,000              —    3/3/2010        A    $124,228,646
             Charlotte, NC1a, 1b, 4               Warrants
                                                                                                                                                                                            $13.34          $134,535.86                                                                      $1,293,750,000
             Bank of America Corporation,         Preferred Stock w/
10/28/2008                                                                   $15,000,000,000    12/9/2009    $15,000,000,000              —    3/3/2010        A    $186,342,969
             Charlotte, NC1b, 4                   Warrants
             Bank of Commerce,                    Preferred Stock w/
1/16/2009                                                                         $3,000,000                                                                                                                                                                                                       $299,296
             Charlotte, NC2                       Exercised Warrants
             Bank of Commerce Holdings,           Preferred Stock w/
11/14/2008                                                                       $17,000,000                                                                                                 $4.25                $72.21           $6.29       405,405              ($2.04)          OUT         $1,702,361
             Redding, CA                          Warrants
             Bank of George,                      Preferred Stock w/
3/13/2009                                                                         $2,672,000                                                                                                                                                                                                       $243,576
             Las Vegas, NV2                       Exercised Warrants
                                                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I january 26, 2011




             Bank of Marin Bancorp,               Preferred Stock w/
12/5/2008                                                                        $28,000,000    3/31/2009        $28,000,000              —                                                 $35.00              $184.45           $27.18       154,521               $7.82             IN          $451,111
             Novato, CA4, k                       Warrants
             Bank of the Carolinas                Preferred Stock w/
4/17/2009                                                                        $13,179,000                                                                                                 $2.50                 $9.74           $4.16       475,204              ($1.66)          OUT         $1,039,677
             Corporation, Mocksville, NC          Warrants
             Bank of the Ozarks, Inc.,            Preferred Stock w/
12/12/2008                                                                       $75,000,000    11/4/2009        $75,000,000              — 11/24/2009         R      $2,650,000            $43.35              $736.52                                                                          $3,354,167
             Little Rock, AR4                     Warrants
             Bankers’ Bank of the West            Preferred Stock w/
1/30/2009                                                                        $12,639,000                                                                                                                                                                                                       $717,532
             Bancorp, Inc., Denver, CO2           Exercised Warrants
             BankFirst Capital Corporation,       Preferred Stock w/
1/23/2009                                                                        $15,500,000                                                                                                                                                                                                     $1,529,937
             Macon, MS2                           Exercised Warrants
             BankGreenville,                      Preferred Stock w/
2/13/2009                                                                         $1,000,000                                                                                                                                                                                                        $95,678
             Greenville, SC2                      Exercised Warrants
             Banner Corporation,                  Preferred Stock w/
11/21/2008                                                                      $124,000,000                                                                                                 $2.32              $259.98           $10.89     1,707,989              ($8.57)          OUT       $12,296,667
             Walla Walla, WA                      Warrants
             Banner County Ban                    Preferred Stock w/
2/6/2009                                                                            $795,000                                                                                                                                                                                                        $76,946
             Corporation, Harrisburg, NE2         Exercised Warrants
             Bar Harbor Bankshares,               Preferred Stock w/
1/16/2009                                                                        $18,751,000    2/24/2010        $18,751,000              — 7/28/2010          R       $250,000             $29.05              $110.54                                                                          $1,036,514
             Bar Harbor, ME5                      Warrants
             BB&T Corp.,                          Preferred Stock w/
11/14/2008                                                                    $3,133,640,000    6/17/2009     $3,133,640,000              — 7/22/2009          R     $67,010,402            $26.29           $18,238.21                                                                        $92,703,517
             Winston-Salem, NC4                   Warrants
             BCB Holding Company, Inc.,           Preferred Stock w/
4/3/2009                                                                          $1,706,000                                                                                                                                                                                                       $150,270
             Theodore, AL2                        Exercised Warrants
           BCSB Bancorp, Inc.,                    Preferred Stock w/
12/23/2008                                                                       $10,800,000                                                                                                $11.30                $36.07           $8.83       183,465               $2.47             IN        $1,023,000
           Baltimore, MD                          Warrants
             Beach Business Bank,                 Preferred Stock w/
1/30/2009                                                                         $6,000,000                                                                                                                                                                                                       $585,875
             Manhattan Beach, CA2                 Exercised Warrants
             Berkshire Bancorp, Inc.,             Preferred Stock w/
6/12/2009                                                                         $2,892,000                                                                                                                                                                                                       $145,826
             Wyomissing, PA2                      Exercised Warrants
           Berkshire Hills Bancorp,               Preferred Stock w/
12/19/2008                                                                       $40,000,000    5/27/2009        $40,000,000              — 6/24/2009          R      $1,040,000            $22.11              $310.40                                                                            $877,778
           Inc., Pittsfield, MA4                  Warrants
             Bern Bancshares, Inc.,               Preferred Stock w/
2/13/2009                                                                           $985,000                                                                                                                                                                                                        $94,361
             Bern, KS2                            Exercised Warrants
             Birmingham Bloomfield
                                                  Preferred Stock w/
4/24/2009    Bancshares, Inc,                                                     $1,635,000
                                                  Exercised Warrants
             Birmingham, MI2
                                                                                                                                                                                                                                                                                                   $218,102
           Birmingham Bloomfield
12/18/2009 Bancshares, Inc,                       Preferred Stock                 $1,744,000
           Birmingham, MI2, 10a
                                                  Subordinated Deben-
             Biscayne Bancshares, Inc.,
6/19/2009                                         tures w/ Exercised              $6,400,000                                                                                                                                                                                                       $734,843
             Coconut Grove, FL8, 10
                                                  Warrants

                                                                                                                                                                                                                                                                                     Continued on next page.
CPP Transaction Detail, as of 12/31/2010                                                      (CONTINUED)


                                                                                                Capital Repayment Details                                                  Final Disposition                                             Warrant and Market Data for Publicly Traded Companie

                                                                                            Capital            Capital      Remaining       Final                  Final      Stock Price Market Capitalization     Strike Price       Current     Amount “In the                          Interest/
Purchase                                       Investment                                Repayment          Repayment         Capital Disposition            Disposition            as of   as of 12/31/2010               as of   Outstanding   Money” or “Out of   In or Out of   Dividends Paid
Date         Institution                       Description           Investment Amount        Date             Amount         Amount        Date    Note15    Proceeds       12/31/2010            (in millions)   12/31/2010a       Warrantsa       the Money”e     the Moneye         to Treasury
             Blackhawk Bancorp, Inc.,          Preferred Stock w/
3/13/2009                                                                 $10,000,000                                                                                                                                                                                                    $911,361
             Beloit, WI2                       Exercised Warrants
             Blackridge Financial, Inc.,       Preferred Stock w/
5/22/2009                                                                  $5,000,000                                                                                                                                                                                                    $403,451
             Fargo, ND2                        Exercised Warrants
             Blue Ridge Bancshares, Inc.,      Preferred Stock w/
3/6/2009                                                                  $12,000,000                                                                                                                                                                                                    $779,350
             Independence, MO2                 Exercised Warrants
             Blue River Bancshares, Inc.,      Preferred Stock w/
3/6/2009                                                                   $5,000,000                                                                                                                                                                                                    $460,980
             Shelbyville, IN2                  Exercised Warrants
             Blue Valley Ban Corp,             Preferred Stock w/
12/5/2008                                                                 $21,750,000                                                                                               $6.50                $18.32          $29.37       111,083             ($22.87)          OUT          $211,458
             Overland Park, KS                 Warrants
             BNB Financial Services            Preferred Stock w/
4/17/2009                                                                  $7,500,000                                                                                                                                                                                                    $440,542
             Corporation, New York, NY2        Exercised Warrants
                                               Preferred Stock w/
12/5/2008    BNC Bancorp, Thomasville, NC                                 $31,260,000                                                                                               $9.00                $81.37           $8.63       543,337               $0.37             IN       $3,039,167
                                               Warrants
             BNC Financial Group, Inc.,        Preferred Stock w/
2/27/2009                                                                  $4,797,000                                                                                                                                                                                                    $448,822
             New Canaan, CT2                   Exercised Warrants
                                               Preferred Stock w/
1/16/2009    BNCCORP, Inc., Bismarck, ND2                                 $20,093,000                                                                                                                                                                                                    $909,542
                                               Exercised Warrants
             BOH Holdings, Inc.,               Preferred Stock w/
3/6/2009                                                                  $10,000,000                                                                                                                                                                                                    $921,958
             Houston, TX2                      Exercised Warrants
                                               Subordinated Deben-
             Boscobel Bancorp, Inc,
5/15/2009                                      tures w/ Exercised          $5,586,000                                                                                                                                                                                                    $468,624
             Boscobel, WI8
                                               Warrants

                                                                                          1/13/2010       $50,000,000 $104,000,000
             Boston Private Financial          Preferred Stock w/
11/21/2008                                                               $154,000,000                                                                                               $6.55              $500.94            $8.00    $2,887,500              ($1.45)          OUT       $11,022,222
             Holdings, Inc., Boston, MA4       Warrants
                                                                                          6/16/2010      $104,000,000              —

             Bridge Capital Holdings,          Preferred Stock w/
12/23/2008                                                                $23,864,000                                                                                               $8.70                $95.40           $9.03       396,412              ($0.33)          OUT        $2,260,451
             San Jose, CA                      Warrants
             Bridgeview Bancorp, Inc.,         Preferred Stock w/
12/19/2008                                                                $38,000,000                                                                                                                                                                                                  $2,393,156
             Bridgeview, IL2                   Exercised Warrants
           Broadway Financial Corporation,
11/14/2008                                 Preferred Stock                 $9,000,000
           Los Angeles, CA3a - 11/24/2009
                                                                                                                                                                                    $2.43                 $4.24                                                                          $810,417
             Broadway Financial Corporation,
12/4/2009                                    Preferred Stock               $6,000,000
             Los Angeles, CA3, 10a
                                               Subordinated Deben-
             Brogan Bankshares, Inc.,
5/15/2009                                      tures w/ Exercised          $2,400,000                                                                                                                                                                                                    $302,040
             Kaukauna, WI8
                                               Warrants
             Brotherhood Bancshares, Inc., Preferred Stock w/
7/17/2009                                                                 $11,000,000                                                                                                                                                                                                    $796,003
             Kansas City, KS2              Exercised Warrants
             Business Bancshares, Inc.,        Preferred Stock w/
4/24/2009                                                                 $15,000,000                                                                                                                                                                                                  $1,273,938
             Clayton, MO2                      Exercised Warrants
                                               Preferred Stock w/
3/13/2009    Butler Point, Inc., Catlin, IL2                                 $607,000                                                                                                                                                                                                     $55,267
                                               Exercised Warrants
             C&F Financial Corporation,        Preferred Stock w/
1/9/2009                                                                  $20,000,000                                                                                              $22.31                $68.89          $17.91       167,504               $4.40             IN       $1,850,000
             West Point, VA                    Warrants
             Cache Valley Banking Company,
12/18/2009                                 Preferred Stock                 $4,640,000
             Logan, UT2, 10a
                                                                                                                                                                                                                                                                                         $702,853
             Cache Valley Banking Company, Preferred Stock w/
12/23/2008                                                                 $4,767,000
             Logan, UT2                    Exercised Warrants
             Cadence Financial Corporation, Preferred Stock w/
1/9/2009                                                                  $44,000,000                                                                                               $2.46                $29.30           $5.76     1,145,833              ($3.30)          OUT        $2,970,000
             Starkville, MS33               Warrants
             California Bank of Commerce,      Preferred Stock w/
2/27/2009                                                                  $4,000,000                                                                                                                                                                                                    $374,233
             Lafayette, CA2                    Exercised Warrants
             California Oaks State Bank,       Preferred Stock w/
1/23/2009                                                                  $3,300,000     12/8/2010        $3,300,000              — 12/8/2010          R     $165,000                                                                                                                   $337,219
             Thousand Oaks, CA2, 4, 7          Exercised Warrants
             Calvert Financial Corporation,    Preferred Stock w/
1/23/2009                                                                  $1,037,000                                                                                                                                                                                                    $102,383
             Ashland, MO2                      Exercised Warrants
             CalWest Bancorp, Rancho           Preferred Stock w/
1/23/2009                                                                  $4,656,000                                                                                                                                                                                                    $396,164
             Santa Margarita, CA2              Exercised Warrants
                                                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I january 26, 2011




             Capital Bancorp, Inc.,            Preferred Stock w/
12/23/2008                                                                 $4,700,000    12/30/2010        $4,700,000              — 12/30/2010         R     $235,000                                                                                                                   $517,281
             Rockville, MD2, 4, 7              Exercised Warrants
           Capital Bank Corporation,           Preferred Stock w/
12/12/2008                                                                $41,279,000                                                                                               $2.49                $32.07           $8.26       749,619              ($5.77)          OUT        $3,973,104
           Raleigh, NC                         Warrants

                                                                                                                                                                                                                                                                            Continued on next page.
                                                                                                                                                                                                                                                                                                       233
CPP Transaction Detail, as of 12/31/2010                                                        (CONTINUED)                                                                                                                                                                                                234

                                                                                                  Capital Repayment Details                                                    Final Disposition                                             Warrant and Market Data for Publicly Traded Companie

                                                                                              Capital            Capital      Remaining       Final                    Final      Stock Price Market Capitalization     Strike Price       Current     Amount “In the                          Interest/
Purchase                                         Investment                                Repayment          Repayment         Capital Disposition              Disposition            as of   as of 12/31/2010               as of   Outstanding   Money” or “Out of   In or Out of   Dividends Paid
Date          Institution                        Description           Investment Amount        Date             Amount         Amount        Date    Note15      Proceeds       12/31/2010            (in millions)   12/31/2010a       Warrantsa       the Money”e     the Moneye         to Treasury
              Capital Commerce Bancorp,          Preferred Stock w/
4/10/2009                                                                    $5,100,000                                                                                                                                                                                                      $304,973
              Inc., Milwaukee, WI2               Exercised Warrants
           Capital One Financial                 Preferred Stock w/
11/14/2008                                                               $3,555,199,000     6/17/2009    $3,555,199,000              — 12/3/2009          A    $148,731,030            $42.56           $19,446.77                                                                      $105,174,638
           Corporation, McLean, VA4              Warrants
              Capital Pacific Bancorp,           Preferred Stock w/
12/23/2008                                                                   $4,000,000                                                                                                                                                                                                      $412,989
              Portland, OR2                      Exercised Warrants
                                                 Subordinated Deben-
              Cardinal Bancorp II, Inc.,
10/23/2009                                       tures w/ Exercised          $6,251,000                                                                                                                                                                                                      $556,578
              Washington, MO8
                                                 Warrants
              Carolina Bank Holdings, Inc.,      Preferred Stock w/
1/9/2009                                                                    $16,000,000                                                                                                 $3.15                $10.67           $6.71       357,675              ($3.56)          OUT        $1,480,000
              Greensboro, NC                     Warrants
              Carolina Trust Bank,               Preferred Stock w/
2/6/2009                                                                     $4,000,000                                                                                                 $3.45                 $8.74           $6.90        86,957              ($3.45)          OUT          $355,000
              Lincolnton, NC                     Warrants
              Carrollton Bancorp,                Preferred Stock w/
2/13/2009                                                                    $9,201,000                                                                                                 $4.31                $11.09           $6.72       205,379              ($2.41)          OUT          $807,643
              Baltimore, MD                      Warrants
              Carver Bancorp, Inc,
1/16/2009                                        Preferred Stock            $18,980,000     8/27/2010       $18,980,000              —                                                                                                                                                     $1,531,581
              New York, NY3, 4, 30 - 8/27/2010
              Cascade Financial Corporation, Preferred Stock w/
11/21/2008                                                                  $38,970,000                                                                                                 $0.46                 $5.64           $6.77       863,442              ($6.31)          OUT        $1,428,900
              Everett, WA                    Warrants
              Cathay General Bancorp,            Preferred Stock w/
12/5/2008                                                                  $258,000,000                                                                                                $16.70             $1,311.38          $20.96     1,846,374              ($4.26)          OUT       $25,083,333
              Los Angeles, CA                    Warrants
                                                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I january 26, 2011




              Catskill Hudson Bancorp, Inc,      Preferred Stock w/
2/27/2009                                                                    $3,000,000
              Rock Hill, NY2                     Exercised Warrants
                                                                                                                                                                                                                                                                                             $446,814
              Catskill Hudson Bancorp,           Preferred Stock w/
12/22/2009                                                                   $3,500,000
              Inc, Rock Hill, NY2, 10a           Exercised Warrants
                                                 Preferred Stock w/
5/29/2009     CB Holding Corp., Aledo, IL2                                   $4,114,000                                                                                                                                                                                                      $271,580
                                                 Exercised Warrants
              CBB Bancorp,                       Preferred Stock w/
2/20/2009                                                                    $2,644,000
              Cartersville, GA2                  Exercised Warrants
                                                                                                                                                                                                                                                                                             $327,076
           CBB Bancorp,
12/29/2009                                       Preferred Stock             $1,753,000
           Cartersville, GA2, 10a
              CBS Banc-Corp., Russellville,      Preferred Stock w/
3/27/2009                                                                   $24,300,000                                                                                                                                                                                                    $1,500,930
              AL2                                Exercised Warrants
                                           Preferred Stock w/
12/23/2008 Cecil Bancorp, Inc., Elkton, MD                                  $11,560,000                                                                                                 $3.20                $11.83           $6.63       261,538              ($3.43)          OUT          $516,989
                                           Warrants
              CedarStone Bank,                   Preferred Stock w/
2/6/2009                                                                     $3,564,000                                                                                                                                                                                                      $344,741
              Lebanon, TN2                       Exercised Warrants
              Center Bancorp, Inc.,              Preferred Stock w/
1/9/2009                                                                    $10,000,000                                                                                                 $8.15              $132.76            $8.65        86,705              ($0.50)          OUT          $925,000
              Union, NJ                          Warrants
              Center Financial Corporation,      Preferred Stock w/
12/12/2008                                                                  $55,000,000                                                                                                 $7.58              $302.54            $9.54       432,390              ($1.96)          OUT        $5,293,750
              Los Angeles, CAb                   Warrants
                                                 Preferred Stock w/
5/1/2009      CenterBank, Milford, OH2, b                                    $2,250,000                                                                                                                                                                                                      $188,776
                                                 Exercised Warrants
              Centerstate Banks of Florida       Preferred Stock w/
11/21/2008                                                                  $27,875,000     9/30/2009       $27,875,000              — 10/28/2009         R       $212,000              $7.92              $237.64                                                                         $1,196,303
              Inc., Davenport, FL5, 9            Warrants
              Centra Financial Holdings,         Preferred Stock w/
1/16/2009                                                                   $15,000,000     3/31/2009       $15,000,000              — 4/15/2009          R       $750,000                                                                                                                   $172,938
              Inc., Morgantown, WV2, 4, 7        Exercised Warrants
              Central Bancorp, Inc.,             Preferred Stock w/
2/27/2009                                                                   $22,500,000                                                                                                                                                                                                    $2,105,063
              Garland, TX2                       Exercised Warrants
              Central Bancorp, Inc.,             Preferred Stock w/
12/5/2008                                                                   $10,000,000                                                                                                $13.78                $22.97           $6.39       234,742               $7.39             IN         $972,222
              Somerville, MA                     Warrants
              Central Bancshares, Inc.,          Preferred Stock w/
1/30/2009                                                                    $5,800,000                                                                                                                                                                                                      $566,346
              Houston, TX2                       Exercised Warrants
              Central Community Corporation, Preferred Stock w/
2/20/2009                                                                   $22,000,000                                                                                                                                                                                                    $2,081,597
              Temple, TX2                    Exercised Warrants
              Central Federal Corporation,       Preferred Stock w/
12/5/2008                                                                    $7,225,000                                                                                                 $0.51                 $2.11           $3.22       336,568              ($2.71)          OUT          $612,118
              Fairlawn, OH                       Warrants
              Central Jersey Bancorp,            Preferred Stock w/
12/23/2008                                                                  $11,300,000    11/24/2010       $11,300,000              — 12/1/2010          R       $319,659              $7.49                $70.00           $6.31       268,621               $1.18             IN       $1,084,486
              Oakhurst, NJ4                      Warrants
              Central Pacific Financial Corp., Preferred Stock w/
1/9/2009                                                                   $135,000,000                                                                                                 $1.53                $46.46          $12.77     1,585,748             ($11.24)          OUT        $2,362,500
              Honolulu, HI                     Warrants
              Central Valley Community           Preferred Stock w/
1/30/2009                                                                    $7,000,000                                                                                                 $5.63                $52.73           $6.64        79,067              ($1.01)          OUT          $627,083
              Bancorp, Fresno, CAb               Warrants
              Central Virginia Bankshares,       Preferred Stock w/
1/30/2009                                                                   $11,385,000                                                                                                 $0.83                 $2.18           $6.48       263,542              ($5.65)          OUT          $450,656
              Inc., Powhatan, VA                 Warrants

                                                                                                                                                                                                                                                                                Continued on next page.
CPP Transaction Detail, as of 12/31/2010                                                     (CONTINUED)


                                                                                               Capital Repayment Details                                                   Final Disposition                                              Warrant and Market Data for Publicly Traded Companie

                                                                                           Capital            Capital      Remaining       Final                   Final      Stock Price Market Capitalization     Strike Price       Current     Amount “In the                          Interest/
Purchase                                      Investment                                Repayment          Repayment         Capital Disposition             Disposition            as of   as of 12/31/2010               as of   Outstanding   Money” or “Out of   In or Out of   Dividends Paid
Date         Institution                      Description           Investment Amount        Date             Amount         Amount        Date    Note15     Proceeds       12/31/2010            (in millions)   12/31/2010a       Warrantsa       the Money”e     the Moneye         to Treasury
             Centric Financial Corporation,   Preferred Stock w/
12/18/2009                                                                $6,056,000                                                                                                                                                                                                     $289,922
             Harrisburg, PA2, 10              Exercised Warrants
             Centrix Bank & Trust, Bedford, Preferred Stock w/
2/6/2009                                                                  $7,500,000                                                                                                                                                                                                     $725,531
             NH2                            Exercised Warrants
             Centrue Financial Corporation, Preferred Stock w/
1/9/2009                                                                 $32,668,000                                                                                                $0.98                 $5.93           $9.64       508,320              ($8.66)          OUT          $571,690
             St. Louis, MO                  Warrants
                                              Subordinated Deben-
             Century Financial Services
6/19/2009                                     tures w/ Exercised         $10,000,000                                                                                                                                                                                                   $1,179,261
             Corporation, Santa Fe, NM8
                                              Warrants
                                              Subordinated Deben-
             Chambers Bancshares, Inc.,
5/29/2009                                     tures w/ Exercised         $19,817,000                                                                                                                                                                                                   $2,429,341
             Danville, AR8
                                              Warrants
             Chicago Shore Corporation,       Preferred Stock w/
7/31/2009                                                                 $7,000,000                                                                                                                                                                                                     $492,771
             Chicago, IL2                     Exercised Warrants
           CIT Group Inc.,                    Contingent Value
12/31/2008                                                            $2,330,000,000      2/8/2010                $0              —                                                $47.10             $9,431.78                                                                       $43,687,500
           New York, NY16                     Rights
             Citigroup Inc.,                  Common Stock w/
10/28/2008                                                           $25,000,000,000                 $25,000,000,000              —                                                 $4.73          $137,404.61           $17.85    210,084,034            ($13.12)          OUT     $932,291,667
             New York, NY11, 23 - 5/26/2010   Warrants
             Citizens & Northern              Preferred Stock w/
1/16/2009                                                                $26,440,000      8/4/2010       $26,440,000              —    9/1/2010        R      $400,000             $14.86              $180.44                                                                         $2,049,100
             Corporation, Wellsboro, PA4      Warrants
             Citizens Bancorp,                Preferred Stock w/
12/23/2008                                                               $10,400,000                                                                                                                                                                                                     $223,571
             Nevada City, CA2                 Exercised Warrants
             Citizens Bancshares Co.,         Preferred Stock w/
5/29/2009                                                                $24,990,000                                                                                                                                                                                                     $628,033
             Chillicothe, MO2                 Exercised Warrants
             Citizens Bancshares
3/6/2009     Corporation, Atlanta, GA3, 4,    Preferred Stock             $7,462,000     8/13/2010        $7,462,000              —                                                                                                                                                      $535,813
             30 - 8/13/2010


             Citizens Bank & Trust            Preferred Stock w/
3/20/2009                                                                 $2,400,000                                                                                                                                                                                                      $52,683
             Company, Covington, LA2          Exercised Warrants
             Citizens Commerce
                                              Preferred Stock w/
2/6/2009     Bancshares, Inc.,                                            $6,300,000                                                                                                                                                                                                     $180,259
                                              Exercised Warrants
             Versailles, KY2
           Citizens Community Bank,           Preferred Stock w/
12/23/2008                                                                $3,000,000                                                                                                                                                                                                     $309,742
           South Hill, VA2                    Exercised Warrants
           Citizens First Corporation,        Preferred Stock w/
12/19/2008                                                                $8,779,000                                                                                                $7.62                $15.00           $5.18       254,218               $2.44             IN         $836,444
           Bowling Green, KY                  Warrants
             Citizens Republic Bancorp, Inc., Preferred Stock w/
12/12/2008                                                              $300,000,000                                                                                                $0.62              $244.21            $2.56     17,578,125             ($1.95)          OUT       $13,875,000
             Flint, MI                        Warrants
             Citizens South Banking           Preferred Stock w/
12/12/2008                                                               $20,500,000                                                                                                $4.34                $47.58           $7.17       450,314              ($2.83)          OUT        $1,973,125
             Corporation, Gastonia, NCg       Warrants
             City National Bancshares
4/10/2009                                     Preferred Stock             $9,439,000                                                                                                                                                                                                     $281,859
             Corporation, Newark, NJ2, 3

                                                                                        12/30/2009      $200,000,000 $200,000,000      4/7/2010        R    $18,500,000
             City National Corporation,       Preferred Stock w/
11/21/2008                                                              $400,000,000                                                                                               $61.36             $3,197.96                                                                       $23,916,667
             Beverly Hills, CA4               Warrants
                                                                                          3/3/2010      $200,000,000              —

             Clover Community Bankshares, Preferred Stock w/
3/27/2009                                                                 $3,000,000                                                                                                                                                                                                     $267,050
             Inc., Clover, SC2            Exercised Warrants
             Coastal Banking Company,         Preferred Stock w/
12/5/2008                                                                 $9,950,000                                                                                                $2.40                 $6.21           $7.26       205,579              ($4.86)          OUT          $967,361
             Inc., Fernandina Beach, FL       Warrants
             CoastalSouth Bancshares, Inc., Preferred Stock w/
8/28/2009                                                                $16,015,000                                                                                                                                                                                                   $1,024,461
             Hilton Head Island, SC2, 10    Exercised Warrants
             CoBiz Financial Inc.,            Preferred Stock w/
12/19/2008                                                               $64,450,000                                                                                                $6.08              $224.00           $10.79       895,968              ($4.71)          OUT        $6,140,653
             Denver, CO                       Warrants
             Codorus Valley Bancorp,          Preferred Stock w/
1/9/2009                                                                 $16,500,000                                                                                                $9.50                $38.95           $9.38       263,859               $0.12             IN       $1,526,250
             Inc., York, PA                   Warrants
             ColoEast Bankshares, Inc.,       Preferred Stock w/
2/13/2009                                                                $10,000,000                                                                                                                                                                                                     $956,778
             Lamar, CO2                       Exercised Warrants
             Colonial American Bank,          Preferred Stock w/
3/27/2009                                                                   $574,000                                                                                                                                                                                                      $43,313
             West Conshohocken, PA2           Exercised Warrants
                                                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I january 26, 2011




             Colony Bankcorp, Inc.,           Preferred Stock w/
1/9/2009                                                                 $28,000,000                                                                                                $4.03                $34.03           $8.40       500,000              ($4.37)          OUT        $2,590,000
             Fitzgerald, GA                   Warrants

                                                                                                                                                                                                                                                                            Continued on next page.
                                                                                                                                                                                                                                                                                                       235
CPP Transaction Detail, as of 12/31/2010                                                      (CONTINUED)                                                                                                                                                                                                236

                                                                                                Capital Repayment Details                                                    Final Disposition                                             Warrant and Market Data for Publicly Traded Companie

                                                                                            Capital            Capital      Remaining       Final                    Final      Stock Price Market Capitalization     Strike Price       Current     Amount “In the                          Interest/
Purchase                                       Investment                                Repayment          Repayment         Capital Disposition              Disposition            as of   as of 12/31/2010               as of   Outstanding   Money” or “Out of   In or Out of   Dividends Paid
Date         Institution                       Description           Investment Amount        Date             Amount         Amount        Date    Note15      Proceeds       12/31/2010            (in millions)   12/31/2010a       Warrantsa       the Money”e     the Moneye         to Treasury
             Columbia Banking System,          Preferred Stock w/
11/21/2008                                                                $76,898,000    8/11/2010        $76,898,000              —    9/1/2010        R      $3,301,647            $21.06              $828.40                                                                         $6,621,772
             Inc., Tacoma, WA4, 9              Warrants
             Columbine Capital Corp.,          Preferred Stock w/
2/27/2009                                                                  $2,260,000                                                                                                                                                                                                      $211,442
             Buena Vista, CO2                  Exercised Warrants
                                        4      Preferred Stock w/
11/14/2008 Comerica Inc., Dallas, TX                                   $2,250,000,000    3/17/2010     $2,250,000,000              —    5/6/2010        A    $183,673,472            $42.24             $7,455.02                                                                     $150,937,500
                                               Warrants
             Commerce National Bank,           Preferred Stock w/
1/9/2009                                                                   $5,000,000    10/7/2009         $5,000,000              —                                                  $5.55                $14.54           $8.60        87,209              ($3.05)          OUT           $36,111
             Newport Beach, CA4                Warrants
                                               Subordinated Deben-
             Commonwealth Bancshares,
5/22/2009                                      tures w/ Exercised         $20,400,000                                                                                                                                                                                                    $2,534,065
             Inc., Louisville, KY8
                                               Warrants
             Commonwealth Business             Preferred Stock w/
1/23/2009                                                                  $7,701,000                                                                                                                                                                                                      $235,498
             Bank, Los Angeles, CA2            Exercised Warrants
             Community 1st Bank,               Preferred Stock w/
1/16/2009                                                                  $2,550,000                                                                                                                                                                                                      $139,020
             Roseville, CA2                    Exercised Warrants
             Community Bancshares of           Preferred Stock w/
3/6/2009                                                                     $500,000                                                                                                                                                                                                       $46,098
             Kansas, Inc., Goff, KS2           Exercised Warrants
             Community Bancshares of
                                              Preferred Stock w/
9/11/2009    Mississippi, Inc., Brandon, MS2,                             $52,000,000    9/29/2010        $52,000,000              — 9/29/2010          R      $2,600,000                                                                                                                $2,975,700
             4, 7, 30 - 9/29/2010, 30a        Exercised Warrants

             Community Bancshares, Inc.,       Preferred Stock w/
                                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I january 26, 2011




7/24/2009                                                                  $3,872,000                                                                                                                                                                                                      $266,952
             Kingman, AZ2, 10                  Exercised Warrants
             Community Bank of the Bay,
1/16/2009                                      Preferred Stock             $1,747,000    9/29/2010         $1,747,000              —                                                                                                                                                        $76,189
             Oakland, CA3, 4, 30 - 9/29/2010
             Community Bank Shares of          Preferred Stock w/
5/29/2009                                                                 $19,468,000                                                                                                 $9.62                $31.67           $7.56       386,270               $2.06             IN       $1,422,245
             Indiana, Inc., New Albany, IN     Warrants
             Community Bankers Trust           Preferred Stock w/
12/19/2008                                                                $17,680,000                                                                                                 $1.05                $22.54           $3.40       780,000              ($2.35)          OUT        $1,242,511
             Corporation, Glen Allen, VA       Warrants
             Community Business Bank,          Preferred Stock w/
2/27/2009                                                                  $3,976,000                                                                                                                                                                                                      $372,019
             West Sacramento, CA2              Exercised Warrants
             Community Financial               Preferred Stock w/
12/19/2008                                                                $12,643,000                                                                                                 $3.48                $15.18           $5.40       351,194              ($1.92)          OUT        $1,204,597
             Corporation, Staunton, VA         Warrants
             Community Financial Shares,       Preferred Stock w/
5/15/2009                                                                  $6,970,000                                                                                                                                                                                                      $569,865
             Inc., Glen Ellyn, IL2             Exercised Warrants
             Community First Bancshares        Preferred Stock w/
3/20/2009                                                                 $20,000,000                                                                                                                                                                                                    $1,801,528
             Inc., Union City, TN2             Exercised Warrants
             Community First Bancshares,       Preferred Stock w/
4/3/2009                                                                  $12,725,000                                                                                                                                                                                                    $1,121,142
             Inc., Harrison, AR2               Exercised Warrants
             Community First Inc.,             Preferred Stock w/
2/27/2009                                                                 $17,806,000                                                                                                                                                                                                    $1,665,853
             Columbia, TN2                     Exercised Warrants
             Community Holding Company of
                                          Preferred Stock w/
2/6/2009     Florida, Inc.,                                                $1,050,000                                                                                                                                                                                                      $101,176
                                          Exercised Warrants
             Miramar Beach, FL2
           Community Investors Bancorp, Preferred Stock w/
12/23/2008                                                                 $2,600,000                                                                                                                                                                                                      $268,443
           Inc., Bucyrus, OH2           Exercised Warrants
             Community Partners Bancorp, Preferred Stock w/
1/30/2009                                                                  $9,000,000                                                                                                 $4.70                $35.80           $4.33       311,972               $0.37             IN         $806,250
             Middletown, NJg             Warrants
                                               Subordinated Deben-
             Community Pride Bank
11/13/2009                                     tures w/ Exercised          $4,400,000                                                                                                                                                                                                      $358,999
             Corporation, Ham Lake, MN8, 10
                                               Warrants
             Community Trust Financial         Preferred Stock w/
1/9/2009                                                                  $24,000,000                                                                                                                                                                                                    $2,419,800
             Corporation, Ruston, LA2          Exercised Warrants
           Community West Bancshares,          Preferred Stock w/
12/19/2008                                                                $15,600,000                                                                                                 $3.60                $21.29           $4.49       521,158              ($0.89)          OUT        $1,486,333
           Goleta, CA                          Warrants
             Congaree Bancshares, Inc.,        Preferred Stock w/
1/9/2009                                                                   $3,285,000                                                                                                                                                                                                      $152,159
             Cayce, SC2                        Exercised Warrants
             Corning Savings and Loan          Preferred Stock w/
2/13/2009                                                                    $638,000                                                                                                                                                                                                       $61,058
             Association, Corning, AR2         Exercised Warrants
             Country Bank Shares, Inc.,        Preferred Stock w/
1/30/2009                                                                  $7,525,000                                                                                                                                                                                                      $734,745
             Milford, NE2                      Exercised Warrants
             Covenant Financial Corporation, Preferred Stock w/
6/5/2009                                                                   $5,000,000                                                                                                                                                                                                      $257,361
             Clarksdale, MS2                 Exercised Warrants
             Crazy Woman Creek Bancorp, Preferred Stock w/
2/20/2009                                                                  $3,100,000                                                                                                                                                                                                      $293,316
             Inc., Buffalo, WY2         Exercised Warrants

                                                                                                                                                                                                                                                                              Continued on next page.
CPP Transaction Detail, as of 12/31/2010                                                         (CONTINUED)


                                                                                                   Capital Repayment Details                                                    Final Disposition                                             Warrant and Market Data for Publicly Traded Companie

                                                                                               Capital            Capital      Remaining       Final                    Final      Stock Price Market Capitalization     Strike Price       Current     Amount “In the                          Interest/
Purchase                                          Investment                                Repayment          Repayment         Capital Disposition              Disposition            as of   as of 12/31/2010               as of   Outstanding   Money” or “Out of   In or Out of   Dividends Paid
Date         Institution                          Description           Investment Amount        Date             Amount         Amount        Date    Note15      Proceeds       12/31/2010            (in millions)   12/31/2010a       Warrantsa       the Money”e     the Moneye         to Treasury
             Crescent Financial Corporation, Preferred Stock w/
1/9/2009                                                                     $24,900,000                                                                                                 $2.24                $21.65           $4.48       833,705              ($2.24)          OUT        $2,303,250
             Cary, NC                        Warrants
             Crosstown Holding Company,           Preferred Stock w/
1/23/2009                                                                    $10,650,000                                                                                                                                                                                                    $1,051,296
             Blaine, MN2                          Exercised Warrants
                                              2   Preferred Stock w/
3/27/2009    CSRA Bank Corp., Wrens, GA                                       $2,400,000                                                                                                                                                                                                      $180,940
                                                  Exercised Warrants

                                                                                             8/26/2009       $97,500,000    $32,500,000 10/28/2009         R      $1,307,000
             CVB Financial Corp,                  Preferred Stock w/
12/5/2008                                                                   $130,000,000                                                                                                 $8.67              $918.31                                                                         $4,739,583
             Ontario, CA4, 9                      Warrants
                                                                                              9/2/2009       $32,500,000              —

                                                  Preferred Stock w/
2/27/2009    D.L. Evans Bancorp, Burley, ID2                                 $19,891,000                                                                                                                                                                                                    $1,861,039
                                                  Exercised Warrants
                                              Subordinated Deben-
             Deerfield Financial Corporation,
5/15/2009                                     tures w/ Exercised              $2,639,000                                                                                                                                                                                                      $332,129
             Deerfield, WI8
                                              Warrants
                                                  Preferred Stock w/
12/4/2009    Delmar Bancorp, Delmar, MD2                                      $9,000,000                                                                                                                                                                                                      $464,613
                                                  Exercised Warrants
             DeSoto County Bank,                  Preferred Stock w/
2/13/2009                                                                     $1,173,000
             Horn Lake, MS2                       Exercised Warrants
                                                                                                                                                                                                                                                                                              $178,469
           DeSoto County Bank,
12/29/2009                                        Preferred Stock             $1,508,000
           Horn Lake, MS2, 10a
                                                  Subordinated Deben-
             Diamond Bancorp, Inc.,
5/22/2009                                         tures w/ Exercised         $20,445,000                                                                                                                                                                                                    $2,539,603
             Washington, MO8
                                                  Warrants
             Dickinson Financial
                                                  Preferred Stock w/
1/16/2009    Corporation II,                                                $146,053,000                                                                                                                                                                                                    $2,631,197
                                                  Exercised Warrants
             Kansas City, MO2
             Discover Financial Services,         Preferred Stock w/
3/13/2009                                                                 $1,224,558,000     4/21/2010    $1,224,558,000              —    7/7/2010        R    $172,000,000            $18.53           $10,092.96                                                                        $67,690,844
             Riverwoods, IL4                      Warrants
             DNB Financial Corporation,           Preferred Stock w/
1/30/2009                                                                    $11,750,000                                                                                                 $9.00                $23.84           $9.46       186,311              ($0.46)          OUT        $1,052,604
             Downingtown, PA                      Warrants
                                                  Subordinated Deben-
             Duke Financial Group, Inc.,
6/19/2009                                         tures w/ Exercised         $12,000,000                                                                                                                                                                                                      $408,316
             Minneapolis, MN8
                                                  Warrants
             Eagle Bancorp, Inc.,                 Preferred Stock w/
12/5/2008                                                                    $38,235,000    12/23/2009       $15,000,000    $23,235,000                                                 $14.43              $283.95            $7.44       385,434               $6.99             IN       $3,046,459
             Bethesda, MD5, b                     Warrants
             East West Bancorp,                   Preferred Stock w/
12/5/2008                                                                   $306,546,000    12/29/2010      $306,546,000              —                                                 $19.55             $2,893.50          $15.15     1,517,555               $4.40             IN      $31,676,420
             Pasadena, CA4                        Warrants
             Eastern Virginia Bankshares,         Preferred Stock w/
1/9/2009                                                                     $24,000,000                                                                                                 $3.83                $22.84           $9.63       373,832              ($5.80)          OUT        $2,220,000
             Inc., Tappahannock, VA               Warrants
             ECB Bancorp, Inc.,                   Preferred Stock w/
1/16/2009                                                                    $17,949,000                                                                                                $13.47                $38.39          $18.57       144,984              ($5.10)          OUT        $1,642,833
             Engelhard, NC                        Warrants
             Emclaire Financial Corp.,            Preferred Stock w/
12/23/2008                                                                    $7,500,000                                                                                                $16.35                $23.82          $22.45        50,111              ($6.10)          OUT          $710,417
             Emlenton, PA                         Warrants
             Encore Bancshares Inc.,              Preferred Stock w/
12/5/2008                                                                    $34,000,000                                                                                                $10.26              $116.96           $14.01       364,026              ($3.75)          OUT        $3,305,556
             Houston, TX                          Warrants
             Enterprise Financial Services        Preferred Stock w/
12/19/2008                                                                   $35,000,000                                                                                                $10.46              $155.37           $16.20       324,074              ($5.74)          OUT        $3,334,722
             Corp., St. Louis, MO                 Warrants
             Enterprise Financial Services        Preferred Stock w/
6/12/2009                                                                     $4,000,000                                                                                                                                                                                                      $310,650
             Group, Inc., Allison Park, PA2       Exercised Warrants
             Equity Bancshares, Inc.,             Preferred Stock w/
1/30/2009                                                                     $8,750,000                                                                                                                                                                                                      $854,482
             Wichita, KS2                         Exercised Warrants
           Exchange Bank,                         Preferred Stock w/
12/19/2008                                                                   $43,000,000                                                                                                                                                                                                    $3,879,794
           Santa Rosa, CA2                        Exercised Warrants
                                                  Subordinated Deben-
             F & C Bancorp, Inc.,
5/22/2009                                         tures w/ Exercised          $2,993,000                                                                                                                                                                                                      $371,859
             Holden, MO8
                                                  Warrants
             F & M Bancshares, Inc.,              Preferred Stock w/
1/30/2009                                                                     $4,609,000
             Trezevant, TN2                       Exercised Warrants
                                                                                                                                                                                                                                                                                              $631,146
             F & M Bancshares, Inc.,
11/6/2009                                         Preferred Stock             $3,535,000
             Trezevant, TN2, 10a
                                                                                                                                                                                                                                                                                                            Transaction detail I Appendix D I january 26, 2011




             F & M Financial Corporation,         Preferred Stock w/
2/6/2009                                                                     $17,000,000                                                                                                                                                                                                    $1,644,538
             Salisbury, NC2                       Exercised Warrants
             F&M Financial Corporation,           Preferred Stock w/
2/13/2009                                                                    $17,243,000                                                                                                                                                                                                    $1,649,748
             Clarksville, TN2                     Exercised Warrants

                                                                                                                                                                                                                                                                                 Continued on next page.
                                                                                                                                                                                                                                                                                                            237
CPP Transaction Detail, as of 12/31/2010                                                        (CONTINUED)                                                                                                                                                                                              238

                                                                                                  Capital Repayment Details                                                  Final Disposition                                             Warrant and Market Data for Publicly Traded Companie

                                                                                              Capital            Capital      Remaining       Final                  Final      Stock Price Market Capitalization     Strike Price       Current     Amount “In the                          Interest/
Purchase                                        Investment                                 Repayment          Repayment         Capital Disposition            Disposition            as of   as of 12/31/2010               as of   Outstanding   Money” or “Out of   In or Out of   Dividends Paid
Date          Institution                       Description            Investment Amount        Date             Amount         Amount        Date    Note15    Proceeds       12/31/2010            (in millions)   12/31/2010a       Warrantsa       the Money”e     the Moneye         to Treasury
              F.N.B. Corporation,               Preferred Stock w/
1/9/2009                                                                   $100,000,000     9/9/2009       $100,000,000              —                                                $9.82             $1,125.78          $11.52       651,042              ($1.70)          OUT        $3,333,333
              Hermitage, PA4, b                 Warrants
              Farmers & Merchants            Preferred Stock w/
3/6/2009                                                                    $11,000,000                                                                                                                                                                                                  $1,014,155
              Bancshares, Inc., Houston, TX2 Exercised Warrants
              Farmers & Merchants Financial Preferred Stock w/
3/20/2009                                                                      $442,000                                                                                                                                                                                                     $39,799
              Corporation, Argonia, KS2     Exercised Warrants
                                                Preferred Stock w/
1/23/2009     Farmers Bank, Windsor, VA2                                     $8,752,000                                                                                                                                                                                                    $863,936
                                                Exercised Warrants
              Farmers Capital Bank              Preferred Stock w/
1/9/2009                                                                    $30,000,000                                                                                               $4.88                $36.13          $20.09       223,992             ($15.21)          OUT        $2,775,000
              Corporation, Frankfort, KY        Warrants
                                                Subordinated Deben-
              Farmers Enterprises, Inc.,
6/19/2009                                       tures w/ Exercised          $12,000,000                                                                                                                                                                                                  $1,415,116
              Great Bend, KS8
                                                Warrants
              Farmers State Bankshares, Inc., Preferred Stock w/
3/20/2009                                                                      $700,000                                                                                                                                                                                                     $63,797
              Holton, KS2                     Exercised Warrants
                                                Subordinated Deben-
              FBHC Holding Company,
12/29/2009                                      tures w/ Exercised           $3,035,000                                                                                                                                                                                                    $154,592
              Boulder, CO8, 10
                                                Warrants
                                              Preferred Stock w/
6/26/2009     FC Holdings, Inc., Houston, TX2                               $21,042,000                                                                                                                                                                                                    $156,090
                                              Exercised Warrants
              FCB Bancorp, Inc.,                Preferred Stock w/
                                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I january 26, 2011




12/19/2008                                                                   $9,294,000                                                                                                                                                                                                    $965,260
              Louisville, KY2                   Exercised Warrants
                                                Preferred Stock w/
12/19/2008 FFW Corporation, Wabash, IN2                                      $7,289,000                                                                                                                                                                                                    $756,906
                                                Exercised Warrants
                                                Subordinated Deben-
              Fidelity Bancorp, Inc,
5/29/2009                                       tures w/ Exercised           $3,942,000                                                                                                                                                                                                    $483,220
              Baton Rouge, LA8
                                                Warrants
              Fidelity Bancorp, Inc.,           Preferred Stock w/
12/12/2008                                                                   $7,000,000                                                                                               $5.67                $17.29           $8.65       121,387              ($2.98)          OUT          $673,750
              Pittsburgh, PA                    Warrants
           Fidelity Federal Bancorp,            Preferred Stock w/
11/13/2009                                                                   $6,657,000                                                                                                                                                                                                            —
           Evansville, IN2, 10                  Exercised Warrants
           Fidelity Financial Corporation,      Preferred Stock w/
12/19/2008                                                                  $36,282,000                                                                                                                                                                                                  $3,767,969
           Wichita, KS2                         Exercised Warrants
              Fidelity Resources Company,       Preferred Stock w/
6/26/2009                                                                    $3,000,000                                                                                                                                                                                                    $226,629
              Plano, TX2                        Exercised Warrants
           Fidelity Southern Corporation,       Preferred Stock w/
12/19/2008                                                                  $48,200,000                                                                                               $6.98                $74.41           $3.07     2,358,719               $3.92             IN       $4,592,389
           Atlanta, GAg                         Warrants
           Fifth Third Bancorp,                 Preferred Stock w/
12/31/2008                                                               $3,408,000,000                                                                                              $14.68           $11,689.44           $11.72    43,617,747               $2.96             IN    $340,800,000
           Cincinnati, OH                       Warrants
              Financial Institutions, Inc.,     Preferred Stock w/
12/23/2008                                                                  $37,515,000                                                                                              $18.97              $207.36           $14.88       378,175               $4.09             IN       $3,553,505
              Warsaw, NY                        Warrants
              Financial Security Corporation, Preferred Stock w/
2/13/2009                                                                    $5,000,000                                                                                                                                                                                                    $478,389
              Basin, WY2                      Exercised Warrants
                                                Subordinated Deben-
              Financial Services of Winger,
7/31/2009                                       tures w/ Exercised           $3,742,000                                                                                                                                                                                                    $392,137
              Inc., Winger, MN8, 10
                                                Warrants
              First Advantage Bancshares        Preferred Stock w/
5/22/2009                                                                    $1,177,000                                                                                                                                                                                                     $94,992
              Inc., Coon Rapids, MN2            Exercised Warrants
              First Alliance Bancshares, Inc., Preferred Stock w/
6/26/2009                                                                    $3,422,000                                                                                                                                                                                                    $258,496
              Cordova, TN2                     Exercised Warrants
              First American Bank               Subordinated Deben-
7/24/2009     Corporation, Elk Grove            tures w/ Exercised          $50,000,000                                                                                                                                                                                                  $5,488,475
              Village, IL8                      Warrants
              First American International
3/13/2009     Corp., Brooklyn, NY3, 4,          Preferred Stock             $17,000,000    8/13/2010        $17,000,000              —                                                                                                                                                   $1,204,167
              30 - 8/13/2010


                                                Preferred Stock w/
1/9/2009      First Bancorp, Troy, NC                                       $65,000,000                                                                                              $15.31              $257.16           $15.82       616,308              ($0.51)          OUT        $6,012,500
                                                Warrants
                                                Mandatorily Convert-
              First BanCorp,
1/16/2009                                       ible Preferred Stock       $424,174,000                                                                                               $6.90              $147.00            $0.73     5,842,259               $6.17             IN       $6,611,111
              San Juan, PR28 - 7/20/2010, i
                                                w/ Warrants
              First BancTrust Corporation,      Preferred Stock w/
2/20/2009                                                                    $7,350,000                                                                                                                                                                                                    $695,521
              Paris, IL2                        Exercised Warrants
              First Bank of Charleston, Inc.,   Preferred Stock w/
2/6/2009                                                                     $3,345,000                                                                                                                                                                                                    $323,547
              Charleston, WV2                   Exercised Warrants

                                                                                                                                                                                                                                                                              Continued on next page.
CPP Transaction Detail, as of 12/31/2010                                                               (CONTINUED)


                                                                                                         Capital Repayment Details                                                  Final Disposition                                             Warrant and Market Data for Publicly Traded Companie

                                                                                                     Capital            Capital      Remaining       Final                  Final      Stock Price Market Capitalization     Strike Price       Current     Amount “In the                          Interest/
Purchase                                           Investment                                     Repayment          Repayment         Capital Disposition            Disposition            as of   as of 12/31/2010               as of   Outstanding   Money” or “Out of   In or Out of   Dividends Paid
Date          Institution                          Description                Investment Amount        Date             Amount         Amount        Date    Note15    Proceeds       12/31/2010            (in millions)   12/31/2010a       Warrantsa       the Money”e     the Moneye         to Treasury
              First Bankers Trustshares, Inc., Preferred Stock w/
1/16/2009                                                                          $10,000,000                                                                                                                                                                                                    $997,653
              Quincy, IL2                      Exercised Warrants
                                                   Preferred Stock w/
12/31/2008 First Banks, Inc., Clayton, MO2                                        $295,400,000                                                                                                                                                                                                  $6,037,238
                                                   Exercised Warrants
              First Busey Corporation,             Preferred Stock w/
3/6/2009                                                                          $100,000,000                                                                                               $4.70              $311.99           $13.07       573,833              ($8.37)          OUT        $8,458,333
              Urbana, ILb                          Warrants
              First Business Bank, N.A.,           Preferred Stock w/
4/10/2009                                                                           $2,211,000
              San Diego, CA2                       Exercised Warrants
                                                                                                                                                                                                                                                                                                  $286,791
              First Business Bank, N.A.,
12/11/2009                                         Preferred Stock                  $2,032,000
              San Diego, CA2, 10a
              First California Financial Group, Preferred Stock w/
12/19/2008                                                                         $25,000,000                                                                                               $2.80                $78.88           $6.26       599,042              ($3.46)          OUT        $2,381,944
              Inc, Westlake Village, CA         Warrants
              First Capital Bancorp, Inc.,         Preferred Stock w/
4/3/2009                                                                           $10,958,000                                                                                               $3.61                $10.73           $6.55       250,947              ($2.94)          OUT          $885,772
              Glen Ellen, VA                       Warrants
              First Choice Bank, Cerritos,         Preferred Stock w/
2/13/2009                                                                           $2,200,000     9/24/2010        $2,200,000              — 9/24/2010          R     $110,000
              CA2, 4, 7, 30 - 9/24/2010, 30a       Exercised Warrants
                                                                                                                                                                                                                                                                                                  $300,643
              First Choice Bank, Cerritos,
12/22/2009                                         Preferred Stock                  $2,836,000     9/24/2010        $2,836,000              —
              CA2, 4, 10a, 30 - 9/24/2010
              First Citizens Banc Corp,            Preferred Stock w/
1/23/2009                                                                          $23,184,000                                                                                               $3.98                $30.68           $7.41       469,312              ($3.43)          OUT        $2,099,440
              Sandusky, OH                         Warrants
              First Colebrook Bancorp, Inc.,       Preferred Stock w/
3/20/2009                                                                           $4,500,000                                                                                                                                                                                                    $405,344
              Colebrook, NH2                       Exercised Warrants
              First Community Bancshares,          Preferred Stock w/
5/15/2009                                                                          $14,800,000                                                                                                                                                                                                    $604,950
              Inc, Overland Park, KS2, b           Exercised Warrants
           First Community Bank
                                                   Preferred Stock w/
12/23/2008 Corporation of America,                                                 $10,685,000                                                                                               $1.22                 $6.66           $7.02       228,312              ($5.80)          OUT          $744,982
                                                   Warrants
           Pinellas Park, FL
              First Community Bankshares           Preferred Stock w/
11/21/2008                                                                         $41,500,000      7/8/2009       $41,500,000              —                                               $14.94              $266.45           $35.26        88,273             ($20.32)          OUT        $1,308,403
              Inc., Bluefield, VA5                 Warrants
           First Community Corporation,            Preferred Stock w/
11/21/2008                                                                         $11,350,000                                                                                               $5.78                $18.88           $8.69       195,915              ($2.91)          OUT        $1,125,542
           Lexington, SC                           Warrants
           First Community Financial               Preferred Stock w/
12/11/2009                                                                         $22,000,000                                                                                                                                                                                                  $1,112,406
           Partners, Inc., Joliet, IL2             Exercised Warrants
              First Defiance Financial Corp.,      Preferred Stock w/
12/5/2008                                                                          $37,000,000                                                                                              $11.90                $96.60          $10.08       550,595               $1.82             IN       $3,597,222
              Defiance, OH                         Warrants
                                                        Subordinated Deben-
              First Eagle Bancshares, Inc.,
9/11/2009                                               tures w/ Exercised          $7,500,000     9/17/2010        $7,500,000              — 9/17/2010          R     $375,000                                                                                                                   $639,738
              Hanover Park, IL4, 8, 30 - 9/17/2010, 30a
                                                        Warrants
              First Express of Nebraska, Inc., Preferred Stock w/
2/6/2009                                                                            $5,000,000                                                                                                                                                                                                    $483,688
              Gering, NE2                      Exercised Warrants
              First Federal Bancshares of          Preferred Stock w/
3/6/2009                                                                           $16,500,000                                                                                               $1.50                 $7.26           $7.69       321,847              ($6.19)          OUT          $570,625
              Arkansas, Inc., Harrison, AR         Warrants
           First Financial Bancorp,                Preferred Stock w/
12/23/2008                                                                         $80,000,000     2/24/2010       $80,000,000              —    6/2/2010        A    $3,116,284            $18.48             $1,072.91                                                                        $4,677,778
           Cincinnati, OH5, 9                      Warrants
                                                Subordinated Deben-
              First Financial Bancshares, Inc.,
6/12/2009                                       tures w/ Exercised                  $3,756,000                                                                                                                                                                                                    $434,349
              Lawrence, KS8, 10
                                                Warrants
              First Financial Holdings Inc.,       Preferred Stock w/
12/5/2008                                                                          $65,000,000                                                                                              $11.51              $190.23           $20.17       241,696              ($8.66)          OUT        $6,319,444
              Charleston, SCb                      Warrants
              First Financial Service        Preferred Stock w/
1/9/2009                                                                           $20,000,000                                                                                               $4.07                $19.23          $13.89       215,983              ($9.82)          OUT        $1,600,000
              Corporation, Elizabethtown, KY Warrants
           First Freedom Bancshares, Inc., Preferred Stock w/
12/22/2009                                                                          $8,700,000                                                                                                                                                                                                    $411,367
           Lebanon, TN2, 10                Exercised Warrants
              First Gothenburg Bancshares,         Preferred Stock w/
2/27/2009                                                                           $7,570,000                                                                                                                                                                                                    $708,558
              Inc., Gothenburg, NE2                Exercised Warrants
              First Guaranty Bancshares,           Preferred Stock w/
8/28/2009                                                                          $20,699,000                                                                                                                                                                                                  $1,368,842
              Inc., Hammond, LA2                   Exercised Warrants
           First Horizon National                  Preferred Stock w/
11/14/2008                                                                        $866,540,000    12/22/2010      $866,540,000              —                                               $11.78             $3,073.05           $8.92    14,578,136               $2.86             IN      $91,227,406
           Corporation, Memphis, TN4, g            Warrants
              First Independence Corporation,
8/28/2009                                     Preferred Stock                       $3,223,000                                                                                                                                                                                                    $195,618
              Detroit, MI2, 3
                                                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I january 26, 2011




              First Intercontinental Bank,         Preferred Stock w/
3/13/2009                                                                           $6,398,000                                                                                                                                                                                                    $583,104
              Doraville, GA2                       Exercised Warrants

                                                                                                                                                                                                                                                                                     Continued on next page.
                                                                                                                                                                                                                                                                                                                239
                                                                                                                                                                                                                                                                                                                240
CPP Transaction Detail, as of 12/31/2010                                                               (CONTINUED)


                                                                                                         Capital Repayment Details                                                  Final Disposition                                             Warrant and Market Data for Publicly Traded Companie

                                                                                                     Capital            Capital      Remaining       Final                  Final      Stock Price Market Capitalization     Strike Price       Current     Amount “In the                          Interest/
Purchase                                            Investment                                    Repayment          Repayment         Capital Disposition            Disposition            as of   as of 12/31/2010               as of   Outstanding   Money” or “Out of   In or Out of   Dividends Paid
Date          Institution                           Description               Investment Amount        Date             Amount         Amount        Date    Note15    Proceeds       12/31/2010            (in millions)   12/31/2010a       Warrantsa       the Money”e     the Moneye         to Treasury
              First Litchfield Financial            Preferred Stock w/
12/12/2008                                                                         $10,000,000      4/7/2010       $10,000,000              —    4/7/2010        R    $1,488,046                                                                                                                  $659,722
              Corporation, Litchfield, CT4          Warrants

              First M&F Corporation,                Preferred Stock w/
2/27/2009                                                                          $30,000,000     9/29/2010       $30,000,000              —                                                $3.74                $34.03           $8.77       513,113              ($5.03)          OUT        $2,383,333
              Kosciusko, MS4, 30 - 9/29/2010        Warrants

              First Manitowoc Bancorp, Inc., Preferred Stock w/
1/16/2009                                                                          $12,000,000     5/27/2009       $12,000,000              — 5/27/2009          R     $600,000                                                                                                                   $237,983
              Manitowoc, WI2, 4, 7           Exercised Warrants
              First Menasha Bancshares, Inc., Preferred Stock w/
2/13/2009                                                                           $4,797,000                                                                                                                                                                                                    $458,990
              Neenah, WI2                     Exercised Warrants
              First Merchants Corporation,          Preferred Stock w/
2/20/2009                                                                          $69,600,000
              Muncie, IN27                          Warrants
                                                                                                                                                                                             $8.86              $226.57           $17.55       991,453              ($8.69)          OUT       $10,069,444
              First Merchants Corporation,          Trust Preferred Secu-
2/20/2009                                                                          $46,400,000
              Muncie, IN27                          rities w/ Warrants
              First Midwest Bancorp, Inc.,          Preferred Stock w/
12/5/2008                                                                         $193,000,000                                                                                              $11.52              $853.09           $22.18     1,305,230             ($10.66)          OUT       $18,763,889
              Itasca, IL                            Warrants
              First National Corporation,           Preferred Stock w/
3/13/2009                                                                          $13,900,000                                                                                                                                                                                                  $1,266,792
              Strasburg, VA2                        Exercised Warrants
              First NBC Bank Holding                Preferred Stock w/
3/20/2009                                                                          $17,836,000                                                                                                                                                                                                  $1,606,632
              Company, New Orleans, LA2             Exercised Warrants
           First Niagara Financial Group,           Preferred Stock w/
11/21/2008                                                                        $184,011,000     5/27/2009      $184,011,000              — 6/24/2009          R    $2,700,000            $13.98             $2,923.20                                                                        $4,753,618
           Lockport, NY5, 9                         Warrants
              First Northern Community              Preferred Stock w/
                                                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I january 26, 2011




3/13/2009                                                                          $17,390,000                                                                                               $4.50                $40.79           $7.39       352,977              ($2.89)          OUT        $1,453,997
              Bancorp, Dixon, CA                    Warrants
           First PacTrust Bancorp, Inc.,            Preferred Stock w/
11/21/2008                                                                         $19,300,000    12/15/2010       $19,300,000              —                                               $13.27              $128.69           $10.31       280,795               $2.96             IN       $1,994,333
           Chula Vista, CA4                         Warrants
              First Place Financial Corp.,          Preferred Stock w/
3/13/2009                                                                          $72,927,000                                                                                               $2.61                $44.30           $2.98     3,670,822              ($0.37)          OUT        $6,097,507
              Warren, OH                            Warrants
              First Priority Financial Corp.,       Preferred Stock w/
2/20/2009                                                                           $4,579,000
              Malvern, PA2                          Exercised Warrants
                                                                                                                                                                                                                                                                                                  $641,999
              First Priority Financial Corp.,
12/18/2009                                          Preferred Stock                 $4,596,000
              Malvern, PA2, 10a
              First Reliance Bancshares, Inc., Preferred Stock w/
3/6/2009                                                                           $15,349,000                                                                                                                                                                                                  $1,415,046
              Florence, SC2                    Exercised Warrants
                                                    Preferred Stock w/
1/30/2009     First Resource Bank, Exton, PA2                                       $2,600,000
                                                    Exercised Warrants
                                                                                                                                                                                                                                                                                                  $366,002
              First Resource Bank, Exton,
12/11/2009                                          Preferred Stock                 $2,417,000
              PA2, 10a
              First Security Group, Inc.,           Preferred Stock w/
1/9/2009                                                                           $33,000,000                                                                                               $0.90                $14.78           $6.01       823,627              ($5.11)          OUT        $1,402,500
              Chattanooga, TN                       Warrants
                                                    Preferred Stock w/
12/23/2008 First Sound Bank, Seattle, WA                                            $7,400,000                                                                                               $0.05                 $0.11           $9.73       114,080              ($9.68)          OUT          $330,944
                                                    Warrants
                                                    Subordinated Deben-
              First South Bancorp, Inc.,
7/17/2009                                           tures w/ Exercised             $50,000,000                                                                                                                                                                                                  $5,570,027
              Lexington, TN8
                                                    Warrants
              First Southern Bancorp, Inc.,         Preferred Stock w/
1/30/2009                                                                          $10,900,000     6/16/2010       $10,900,000              — 6/16/2010          R     $545,000                                                                                                                   $818,468
              Boca Raton, FL2, 4, 7                 Exercised Warrants
              First Southwest Bancorporation, Preferred Stock w/
3/6/2009                                                                            $5,500,000                                                                                                                                                                                                    $207,327
              Inc., Alamosa, CO2              Exercised Warrants
              First State Bank of Mobeetie,         Preferred Stock w/
2/27/2009                                                                             $731,000     4/14/2010          $731,000              — 4/14/2010          R      $37,000                                                                                                                    $45,087
              Mobeetie, TX2, 4, 7                   Exercised Warrants
              First Texas BHC, Inc.,                Preferred Stock w/
3/6/2009                                                                           $13,533,000                                                                                                                                                                                                  $1,247,739
              Fort Worth, TX2                       Exercised Warrants
                                                    Subordinated Deben-
              First Trust Corporation,
6/5/2009                                            tures w/ Exercised             $17,969,000                                                                                                                                                                                                  $1,046,896
              New Orleans, LA8
                                                    Warrants
              First ULB Corp.,                      Preferred Stock w/
1/23/2009                                                                           $4,900,000     4/22/2009        $4,900,000              — 4/22/2009          R     $245,000                                                                                                                    $66,021
              Oakland, CA2, 4, 7                    Exercised Warrants
              First United Corporation,             Preferred Stock w/
1/30/2009                                                                          $30,000,000                                                                                               $3.43                $21.13          $13.79       326,323             ($10.36)          OUT        $2,312,500
              Oakland, MD                           Warrants

              First Vernon Bancshares, Inc., Preferred Stock w/
6/12/2009                                                                           $6,000,000     9/29/2010        $6,000,000              — 9/29/2010          R     $245,000                                                                                                                   $417,770
              Vernon, AL2, 4, 7, 10, 30 - 9/29/2010, 30a Exercised Warrants

              First Western Financial, Inc.,        Preferred Stock w/
2/6/2009                                                                            $8,559,000
              Denver, CO2                           Exercised Warrants
                                                                                                                                                                                                                                                                                                $1,379,130
           First Western Financial, Inc.,
12/11/2009                                          Preferred Stock                $11,881,000
           Denver, CO2, 10a

                                                                                                                                                                                                                                                                                     Continued on next page.
CPP Transaction Detail, as of 12/31/2010                                                         (CONTINUED)


                                                                                                   Capital Repayment Details                                                   Final Disposition                                             Warrant and Market Data for Publicly Traded Companie

                                                                                               Capital            Capital      Remaining       Final                   Final      Stock Price Market Capitalization     Strike Price       Current     Amount “In the                          Interest/
Purchase                                          Investment                                Repayment          Repayment         Capital Disposition             Disposition            as of   as of 12/31/2010               as of   Outstanding   Money” or “Out of   In or Out of   Dividends Paid
Date         Institution                          Description           Investment Amount        Date             Amount         Amount        Date    Note15     Proceeds       12/31/2010            (in millions)   12/31/2010a       Warrantsa       the Money”e     the Moneye         to Treasury
                                                  Preferred Stock w/
1/30/2009    Firstbank Corporation, Alma, MI                                 $33,000,000                                                                                                $5.86                $45.66           $8.55       578,947              ($2.69)          OUT        $2,956,250
                                                  Warrants
             FirstMerit Corporation,              Preferred Stock w/
1/9/2009                                                                    $125,000,000     4/22/2009      $125,000,000               — 5/27/2009         R     $5,025,000            $19.79             $2,153.17                                                                        $1,788,194
             Akron, OH4                           Warrants
                                              Preferred Stock w/
                                              j
1/30/2009    Flagstar Bancorp, Inc., Troy, MI                               $266,657,000                                                                                                $1.63              $439.00            $6.20     6,451,379              ($4.57)          OUT       $23,888,022
                                              Warrants
             Florida Bank Group, Inc.,            Preferred Stock w/
7/24/2009                                                                    $20,471,000                                                                                                                                                                                                   $1,180,793
             Tampa, FL2                           Exercised Warrants
             Florida Business BancGroup,          Preferred Stock w/
2/20/2009                                                                     $9,495,000                                                                                                                                                                                                     $898,438
             Inc., Tampa, FL2                     Exercised Warrants

           Flushing Financial Corporation, Preferred Stock w/
12/19/2008                                                                   $70,000,000    10/28/2009       $70,000,000               — 12/30/2009        R      $900,000             $14.00              $437.33                                                                         $3,004,167
           Lake Success, NY5, 9            Warrants

             FNB Bancorp, South San               Preferred Stock w/
2/27/2009                                                                    $12,000,000                                                                                                                                                                                                   $1,122,700
             Francisco, CA2                       Exercised Warrants
             FNB United Corp.,                    Preferred Stock w/
2/13/2009                                                                    $51,500,000                                                                                                $0.33                 $3.71           $3.50     2,207,143              ($3.18)          OUT        $2,589,305
             Asheboro, NC                         Warrants
             Foresight Financial Group, Inc., Preferred Stock w/
5/15/2009                                                                    $15,000,000                                                                                                                                                                                                   $1,226,250
             Rockford, IL2                    Exercised Warrants
             Fort Lee Federal Savings Bank, Preferred Stock w/
5/22/2009                                                                     $1,300,000                                                                                                                                                                                                      $87,185
             Fort Lee, NJ2                  Exercised Warrants
             Fortune Financial Corporation, Preferred Stock w/
4/3/2009                                                                      $3,100,000                                                                                                                                                                                                     $273,136
             Arnold, MO2                    Exercised Warrants
             FPB Bancorp, Inc.,                   Preferred Stock w/
12/5/2008                                                                     $5,800,000                                                                                                $1.02                 $2.10           $4.75       183,158              ($3.73)          OUT          $273,889
             Port St. Lucie, FL                   Warrants
             FPB Financial Corp.,                 Preferred Stock w/
1/23/2009                                                                                   12/16/2009        $1,000,000       $2,240,000 6/16/2010        R      $162,000
             Hammond, LA2, 4, 7                   Exercised Warrants
                                                                              $3,240,000                                                                                                                                                                                                     $221,722
             FPB Financial Corp.,                 Preferred Stock w/
1/23/2009                                                                                    6/16/2010        $2,240,000               —
             Hammond, LA2, 4                      Exercised Warrants
             Franklin Bancorp, Inc.,              Preferred Stock w/
5/22/2009                                                                     $5,097,000                                                                                                                                                                                                     $411,298
             Washington, MO2                      Exercised Warrants
                                                  Subordinated Deben-
             Freeport Bancshares, Inc.,
5/8/2009                                          tures w/ Exercised          $3,000,000                                                                                                                                                                                                     $382,443
             Freeport, IL8
                                                  Warrants
                                                  Subordinated Deben-
             Fremont Bancorporation,
6/26/2009                                         tures w/ Exercised         $35,000,000                                                                                                                                                                                                   $4,070,330
             Fremont, CA8
                                                  Warrants
                                                  Preferred Stock w/
1/23/2009    Fresno First Bank, Fresno, CA2                                   $1,968,000                                                                                                                                                                                                     $160,830
                                                  Exercised Warrants

                                                                                            11/24/2009        $1,600,000       $1,400,000
                                                  Subordinated Deben-
             Frontier Bancshares, Inc.,
4/24/2009                                         tures w/ Exercised          $3,000,000                                                                                                                                                                                                     $258,192
             Austin, TX4, 8
                                                  Warrants                                   10/6/2010        $1,400,000               — 10/6/2010         R      $150,000


             Fulton Financial Corporation,        Preferred Stock w/
12/23/2008                                                                  $376,500,000     7/14/2010      $376,500,000               —    9/8/2010       R    $10,800,000            $10.34             $2,057.15                                                                       $29,335,625
             Lancaster, PA4                       Warrants
             Gateway Bancshares, Inc.,            Preferred Stock w/
5/8/2009                                                                      $6,000,000                                                                                                                                                                                                     $496,858
             Ringgold, GA2                        Exercised Warrants
             Georgia Commerce Bancshares, Preferred Stock w/
2/6/2009                                                                      $8,700,000                                                                                                                                                                                                     $841,616
             Inc., Atlanta, GA2           Exercised Warrants
             Georgia Primary Bank,                Preferred Stock w/
5/1/2009                                                                      $4,500,000                                                                                                                                                                                                             —
             Atlanta, GA2                         Exercised Warrants
             Germantown Capital
                                                  Preferred Stock w/
3/6/2009     Corporation, Inc.,                                               $4,967,000                                                                                                                                                                                                     $457,883
                                                  Exercised Warrants
             Germantown, TN2
             Gold Canyon Bank,                    Preferred Stock w/
6/26/2009                                                                     $1,607,000                                                                                                                                                                                                      $53,860
             Gold Canyon, AZ2, 10                 Exercised Warrants
             Goldwater Bank, N.A.,                Preferred Stock w/
1/30/2009                                                                     $2,568,000                                                                                                                                                                                                     $145,750
             Scottsdale, AZ2                      Exercised Warrants
             Grand Capital Corporation,           Preferred Stock w/
4/24/2009                                                                     $4,000,000                                                                                                                                                                                                     $339,717
             Tulsa, OK2                           Exercised Warrants
                                                                                                                                                                                                                                                                                                           Transaction detail I Appendix D I january 26, 2011




                                                                                                                                                                                                                                                                                Continued on next page.
                                                                                                                                                                                                                                                                                                           241
                                                                                                                                                                                                                                                                                                             242
 CPP Transaction Detail, as of 12/31/2010                                                         (CONTINUED)


                                                                                                    Capital Repayment Details                                                    Final Disposition                                             Warrant and Market Data for Publicly Traded Companie

                                                                                                Capital            Capital      Remaining       Final                    Final      Stock Price Market Capitalization     Strike Price       Current     Amount “In the                          Interest/
Purchase                                           Investment                                Repayment          Repayment         Capital Disposition              Disposition            as of   as of 12/31/2010               as of   Outstanding   Money” or “Out of   In or Out of   Dividends Paid
Date          Institution                          Description           Investment Amount        Date             Amount         Amount        Date    Note15      Proceeds       12/31/2010            (in millions)   12/31/2010a       Warrantsa       the Money”e     the Moneye         to Treasury
                                                   Subordinated Deben-
              Grand Financial Corporation,
9/25/2009                                          tures w/ Exercised          $2,443,320                                                                                                                                                                                                      $233,439
              Hattiesburg, MS8
                                                   Warrants
              First Defiance Financial Corp.,      Preferred Stock w/
5/29/2009                                                                      $3,076,000                                                                                                                                                                                                              —
              Defiance, OH                         Exercised Warrants

              GrandSouth Bancorporation,           Preferred Stock w/
1/9/2009                                                                       $9,000,000
              Greenville, SC2                      Exercised Warrants
                                                                                                                                                                                                                                                                                             $1,200,556
              GrandSouth Bancorporation,
12/11/2009                                         Preferred Stock             $6,319,000
              Greenville, SC2, 10a

                                                   Subordinated
              Great River Holding Company,
7/17/2009                                          Debentures w/               $8,400,000                                                                                                                                                                                                      $759,575
              Baxter, MN8
                                                   Exercised Warrants
              Great Southern Bancorp,              Preferred Stock w/
12/5/2008                                                                     $58,000,000                                                                                                $23.59              $317.19            $9.57       909,091              $14.02             IN       $5,638,889
              Springfield, MO                      Warrants
              Green Bankshares, Inc.,              Preferred Stock w/
12/23/2008                                                                    $72,278,000                                                                                                 $3.20                $42.21          $17.06       635,504             ($13.86)          OUT        $5,942,858
              Greeneville, TN                      Warrants
              Green Circle Investments, Inc., Preferred Stock w/
2/27/2009                                                                      $2,400,000                                                                                                                                                                                                      $224,540
              Clive, IA2                      Exercised Warrants
              Green City Bancshares, Inc.,         Preferred Stock w/
2/27/2009                                                                        $651,000     7/14/2010          $651,000              — 7/14/2010          R        $33,000                                                                                                                    $49,037
              Green City, MO2, 4, 7                Exercised Warrants
                                                                                                                                                                                                                                                                                                             Appendix D I Transaction Detail I january 26, 2011




              Greer Bancshares Incorporated, Preferred Stock w/
1/30/2009                                                                      $9,993,000                                                                                                                                                                                                      $975,831
              Greer, SC2                     Exercised Warrants
              Gregg Bancshares, Inc.,              Preferred Stock w/
2/13/2009                                                                        $825,000                                                                                                                                                                                                       $45,190
              Ozark, MO2                           Exercised Warrants
              Guaranty Bancorp, Inc.,              Preferred Stock w/
2/20/2009                                                                      $6,920,000                                                                                                                                                                                                      $654,757
              Woodsville, NH2                      Exercised Warrants
              Guaranty Capital Corporation,        Subordinated
9/25/2009                                                                     $14,000,000     7/30/2010       $14,000,000              —                                                                                                                                                       $913,299
              Belzoni, MS3, 4, 8, 30 - 7/30/2010   Debentures
              Guaranty Federal Bancshares, Preferred Stock w/
1/30/2009                                                                     $17,000,000                                                                                                 $4.76                $12.62           $5.55       459,459              ($0.79)          OUT        $1,522,917
              Inc., Springfield, MO        Warrants
              GulfSouth Private Bank,              Preferred Stock w/
9/25/2009                                                                      $7,500,000                                                                                                                                                                                                      $757,380
              Destin, FL10, 21                     Exercised Warrants
              Gulfstream Bancshares, Inc.,         Preferred Stock w/
6/26/2009                                                                      $7,500,000                                                                                                                                                                                                      $566,573
              Stuart, FL2                          Exercised Warrants
              Hamilton State Bancshares,           Preferred Stock w/
2/20/2009                                                                      $7,000,000                                                                                                                                                                                                      $662,327
              Hoschton, GA2                        Exercised Warrants
           Hampton Roads Bankshares,               Common Stock w/
12/31/2008                                                                    $80,347,000                                                                                                 $0.52              $356.03            $0.40     1,325,858               $0.12             IN       $2,510,844
           Inc., Norfolk, VA31-9/30/2010, i        Warrants
              Harbor Bankshares Corporation,
7/17/2009                                    Preferred Stock                   $6,800,000                                                                                                                                                                                                      $282,744
              Baltimore, MD2, 3
              Hartford Financial Services          Preferred Stock w/
6/26/2009                                                                  $3,400,000,000     3/31/2010    $3,400,000,000              — 9/21/2010          A    $713,687,430            $26.49           $11,775.89                                                                      $129,861,111
              Group, Inc., Hartford, CT4           Warrants
              Haviland Bancshares, Inc.,           Preferred Stock w/
3/13/2009                                                                        $425,000    12/29/2010          $425,000              — 12/29/2010         R        $21,000                                                                                                                    $41,524
              Haviland, KS2, 4, 7                  Exercised Warrants
              Hawthorn Bancshares, Inc.,           Preferred Stock w/
12/19/2008                                                                    $30,255,000                                                                                                 $8.60                $38.48          $17.10       265,471              ($8.50)          OUT        $2,882,630
              Lee’s Summit, MOg                    Warrants
              HCSB Financial Corporation,          Preferred Stock w/
3/6/2009                                                                      $12,895,000                                                                                                 $2.37                 $8.98          $21.09        91,714             ($18.72)          OUT        $1,090,702
              Loris, SC                            Warrants
              Heartland Bancshares, Inc.,          Preferred Stock w/
9/11/2009                                                                      $7,000,000                                                                                                                                                                                                       $66,190
              Franklin, IN2, 10                    Exercised Warrants
           Heartland Financial USA, Inc.,          Preferred Stock w/
12/19/2008                                                                    $81,698,000                                                                                                $17.46              $286.20           $20.10       609,687              ($2.64)          OUT        $7,784,004
           Dubuque, IA                             Warrants
              Heritage Bankshares, Inc.,           Preferred Stock w/
9/25/2009                                                                     $10,103,000                                                                                                                                                                                                      $606,367
              Norfolk, VA2, 10                     Exercised Warrants
           Heritage Commerce Corp.,                Preferred Stock w/
11/21/2008                                                                    $40,000,000                                                                                                 $4.50              $118.05           $12.96       462,963              ($8.46)          OUT        $1,466,667
           San Jose, CA                            Warrants
           Heritage Financial Corporation, Preferred Stock w/
11/21/2008                                                                    $24,000,000    12/22/2010       $24,000,000              —                                                 $13.92              $208.94           $13.04       138,037               $0.88             IN       $2,503,333
           Olympia, WA4, b                 Warrants
              Heritage Oaks Bancorp,               Preferred Stock w/
3/20/2009                                                                     $21,000,000                                                                                                 $3.29                $82.52           $5.15       611,650              ($1.86)          OUT          $947,916
              Paso Robles, CA                      Warrants
           HF Financial Corp.,                     Preferred Stock w/
11/21/2008                                                                    $25,000,000      6/3/2009       $25,000,000              — 6/30/2009          R       $650,000             $10.80                $75.20                                                                          $666,667
           Sioux Falls, SD4                        Warrants

                                                                                                                                                                                                                                                                                  Continued on next page.
 CPP Transaction Detail, as of 12/31/2010                                                                  (CONTINUED)


                                                                                                             Capital Repayment Details                                                  Final Disposition                                             Warrant and Market Data for Publicly Traded Companie

                                                                                                         Capital            Capital      Remaining       Final                  Final      Stock Price Market Capitalization     Strike Price       Current     Amount “In the                          Interest/
Purchase                                                     Investment                               Repayment          Repayment         Capital Disposition            Disposition            as of   as of 12/31/2010               as of   Outstanding   Money” or “Out of   In or Out of   Dividends Paid
Date            Institution                                  Description          Investment Amount        Date             Amount         Amount        Date    Note15    Proceeds       12/31/2010            (in millions)   12/31/2010a       Warrantsa       the Money”e     the Moneye         to Treasury

                Highlands Bancorp, Inc.
                                                             Preferred Stock w/
5/8/2009        (Highlands State Bank),                                                 $3,091,000
                                                             Exercised Warrants
                Vernon, NJ2, 13 - 8/31/2010
                                                                                                                                                                                                                                                                                                      $302,972
           Highlands Bancorp, Inc.
12/22/2009 (Highlands State Bank),                           Preferred Stock            $2,359,000
           Vernon, NJ2, 10a, 13 - 8/31/2010
                Highlands Independent          Preferred Stock w/
3/6/2009                                                                                $6,700,000                                                                                                                                                                                                    $617,712
                Bancshares, Inc., Sebring, FL2 Exercised Warrants
                Hilltop Community Bancorp,                   Preferred Stock w/
1/30/2009                                                                               $4,000,000     4/21/2010        $4,000,000              — 4/21/2010          R     $200,000                                                                                                                   $267,050
                Inc., Summit, NJ2, 4, 7                      Exercised Warrants
           HMN Financial, Inc.,                              Preferred Stock w/
12/23/2008                                                                             $26,000,000                                                                                               $2.81                $12.11           $4.68       833,333              ($1.87)          OUT        $2,462,778
           Rochester, MN                                     Warrants
                Home Bancshares, Inc.,                       Preferred Stock w/
1/16/2009                                                                              $50,000,000                                                                                              $22.03              $626.58           $23.66       158,472              ($1.63)          OUT        $4,576,389
                Conway, ARf                                  Warrants
                Hometown Bancorp of                          Preferred Stock w/
2/20/2009                                                                               $3,250,000                                                                                                                                                                                                    $307,587
                Alabama, Inc., Oneonta, AL2                  Exercised Warrants
                Hometown Bancshares, Inc.,                   Preferred Stock w/
2/13/2009                                                                               $1,900,000                                                                                                                                                                                                    $181,788
                Corbin, KY2                                  Exercised Warrants
                HomeTown Bankshares                          Preferred Stock w/
9/18/2009                                                                              $10,000,000                                                                                                                                                                                                    $351,326
                Corporation, Roanoke, VA2, 10                Exercised Warrants
           HopFed Bancorp,                                   Preferred Stock w/
12/12/2008                                                                             $18,400,000                                                                                               $9.04                $66.32          $11.10       248,692              ($2.06)          OUT        $1,771,000
           Hopkinsville, KYg                                 Warrants
                Horizon Bancorp,                             Preferred Stock w/
12/19/2008                                                                             $25,000,000    11/10/2010        $6,250,000    $18,750,000                                               $26.60                $87.81          $17.68       212,104               $8.92             IN       $2,377,604
                Michigan City, IN4                           Warrants
                Howard Bancorp, Inc.,                        Preferred Stock w/
2/27/2009                                                                               $5,983,000                                                                                                                                                                                                    $559,736
                Ellicott City, MD2                           Exercised Warrants
                HPK Financial Corporation,                   Preferred Stock w/
5/1/2009                                                                                $4,000,000
                Chicago, IL2                                 Exercised Warrants
                                                                                                                                                                                                                                                                                                      $599,899
                HPK Financial Corporation,                   Preferred Stock w/
11/13/2009                                                                              $5,000,000
                Chicago, IL2, 10a                            Exercised Warrants
                Huntington Bancshares,                       Preferred Stock w/
11/14/2008                                                                          $1,398,071,000    12/22/2010    $1,398,071,000              —                                                $6.87             $5,930.62           $8.90    23,562,994              ($2.03)          OUT     $147,185,809
                Columbus, OH4                                Warrants
                Hyperion Bank,                               Preferred Stock w/
2/6/2009                                                                                $1,552,000                                                                                                                                                                                                    $150,201
                Philadelphia, PA2                            Exercised Warrants
                                                     2, 10   Preferred Stock w/
9/18/2009       IA Bancorp, Inc., Iselin, NJ                                            $5,976,000                                                                                                                                                                                                    $364,771
                                                             Exercised Warrants
                IBC Bancorp, Inc.,                           Subordinated
5/15/2009                                                                               $4,205,000     9/10/2010        $4,205,000              —                                                                                                                                                     $427,216
                Chicago, IL3, 4, 8, 30 - 9/10/2010           Debentures
                Iberiabank Corporation,                      Preferred Stock w/
12/5/2008                                                                              $90,000,000     3/31/2009       $90,000,000              — 5/20/2009          R    $1,200,000            $59.13             $1,589.18                                                                        $1,450,000
                Lafayette, LA5,9                             Warrants
                                                             Preferred Stock w/
3/27/2009       IBT Bancorp, Inc., Irving, TX2                                          $2,295,000                                                                                                                                                                                                    $204,330
                                                             Exercised Warrants
                IBW Financial Corporation,
3/13/2009       Washington,                                  Preferred Stock            $6,000,000      9/3/2010        $6,000,000              —                                                                                                                                                     $453,067
                DC2, 3a - 11/13/2009, 4, 30 - 9/3/2010
                                                    2        Preferred Stock w/
3/6/2009        ICB Financial, Ontario, CA                                              $6,000,000                                                                                                                                                                                                    $553,175
                                                             Exercised Warrants
                                                             Preferred Stock w/
1/16/2009       Idaho Bancorp, Boise, ID2                                               $6,900,000                                                                                                                                                                                                    $124,306
                                                             Exercised Warrants
                Illinois State Bancorp, Inc.,                Preferred Stock w/
5/22/2009                                                                               $6,272,000
                Chicago, IL2                                 Exercised Warrants
                                                                                                                                                                                                                                                                                                      $688,966
                Illinois State Bancorp, Inc.,                Preferred Stock w/
12/29/2009                                                                              $4,000,000
                Chicago, IL2, 10, a                          Exercised Warrants
                Independence Bank, East                      Preferred Stock w/
1/9/2009                                                                                $1,065,000                                                                                                                                                                                                    $107,337
                Greenwich, RI2                               Exercised Warrants
                Independent Bank Corp.,                      Preferred Stock w/
1/9/2009                                                                               $78,158,000     4/22/2009       $78,158,000              — 5/27/2009          R    $2,200,000            $27.05              $573.57                                                                         $1,118,094
                Rockland, MA4                                Warrants
                                         Mandatorily Convert-
           Independent Bank Corporation,
12/12/2008                               ible Preferred Stock                          $74,426,000                                                                                               $1.30                 $9.77           $7.23       346,154              ($5.93)          OUT        $2,430,000
           Ionia, MI22, i, j
                                         w/ Warrants
                                                             Preferred Stock w/
                                                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I january 26, 2011




4/24/2009       Indiana Bank Corp., Dana, IN2                                           $1,312,000                                                                                                                                                                                                    $111,484
                                                             Exercised Warrants
           Indiana Community Bancorp,                        Preferred Stock w/
12/12/2008                                                                             $21,500,000                                                                                              $17.25                $58.39          $17.09       188,707               $0.16             IN       $2,069,375
           Columbus, IN                                      Warrants

                                                                                                                                                                                                                                                                                         Continued on next page.
                                                                                                                                                                                                                                                                                                                    243
CPP Transaction Detail, as of 12/31/2010                                                                (CONTINUED)                                                                                                                                                                                                244

                                                                                                          Capital Repayment Details                                                    Final Disposition                                             Warrant and Market Data for Publicly Traded Companie

                                                                                                      Capital            Capital      Remaining       Final                    Final      Stock Price Market Capitalization     Strike Price       Current     Amount “In the                          Interest/
Purchase                                                  Investment                               Repayment          Repayment         Capital Disposition              Disposition            as of   as of 12/31/2010               as of   Outstanding   Money” or “Out of   In or Out of   Dividends Paid
Date         Institution                                  Description          Investment Amount        Date             Amount         Amount        Date    Note15      Proceeds       12/31/2010            (in millions)   12/31/2010a       Warrantsa       the Money”e     the Moneye         to Treasury
             Integra Bank Corporation,                    Preferred Stock w/
2/27/2009                                                                           $83,586,000                                                                                                 $0.78                $16.43           $1.69     7,418,876              ($0.91)          OUT        $1,950,340
             Evansville, IN                               Warrants
           Intermountain Community                        Preferred Stock w/
12/19/2008                                                                          $27,000,000                                                                                                 $1.48                $12.42           $6.20       653,226              ($4.72)          OUT        $1,222,500
           Bancorp, Sandpoint, ID                         Warrants
           International Bancshares                       Preferred Stock w/
12/23/2008                                                                         $216,000,000                                                                                                $20.03             $1,356.15          $24.43     1,326,238              ($4.40)          OUT       $20,460,000
           Corporation, Laredo, TX                        Warrants
             Intervest Bancshares                         Preferred Stock w/
12/23/2008                                                                          $25,000,000                                                                                                 $2.93                $60.97           $5.42       691,882              ($2.49)          OUT        $1,118,056
             Corporation, New York, NY                    Warrants
             Investors Financial Corporation Subordinated Deben-
5/8/2009     of Pettis County, Inc.,         tures w/ Exercised                      $4,000,000                                                                                                                                                                                                      $174,325
             Sedalia, MO8                    Warrants
             JPMorgan Chase & Co.,                        Preferred Stock w/
10/28/2008                                                                      $25,000,000,000     6/17/2009   $25,000,000,000              — 12/10/2009         A    $950,318,243            $42.42          $165,827.46                                                                      $795,138,889
             New York, NY4                                Warrants
             Katahdin Bankshares Corp.,                   Preferred Stock w/
1/30/2009                                                                           $10,449,000                                                                                                                                                                                                    $1,020,229
             Houlton, ME2                                 Exercised Warrants
                                                          Preferred Stock w/
11/14/2008 KeyCorp, Cleveland, OH                                                $2,500,000,000                                                                                                 $8.85             $7,792.17          $10.64    35,244,361              ($1.79)          OUT     $250,347,222
                                                          Warrants
             Kirksville Bancorp, Inc.,                    Preferred Stock w/
3/20/2009                                                                              $470,000                                                                                                                                                                                                       $42,410
             Kirksville, MO2                              Exercised Warrants
             KS Bancorp, Inc.,                            Preferred Stock w/
8/21/2009                                                                            $4,000,000                                                                                                                                                                                                      $268,867
             Smithfield, NC2                              Exercised Warrants
                                                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I january 26, 2011




             Lafayette Bancorp, Inc.,                     Preferred Stock w/
2/20/2009                                                                            $1,998,000     9/29/2010        $1,998,000              — 9/29/2010          R       $100,000
             Oxford, MS2, 4, 7, 30 - 9/29/2010, 30a       Exercised Warrants
                                                                                                                                                                                                                                                                                                     $267,134
             Lafayette Bancorp, Inc.,
12/29/2009                                                Preferred Stock            $2,453,000     9/29/2010        $2,453,000              —
             Oxford, MS2, 4, 10a, 30 - 9/29/2010
             Lakeland Bancorp, Inc.,                      Preferred Stock w/
2/6/2009                                                                            $59,000,000      8/4/2010       $20,000,000    $39,000,000                                                 $10.97              $263.98            $9.32       949,571               $1.65             IN       $4,955,694
             Oak Ridge, NJ4                               Warrants
             Lakeland Financial Corporation, Preferred Stock w/
2/27/2009                                                                           $56,044,000      6/9/2010       $56,044,000              —                                                 $21.46              $346.21           $21.20       198,269               $0.26             IN       $3,596,156
             Warsaw, IN5, b                  Warrants
             Layton Park Financial Group,                 Preferred Stock w/
12/18/2009                                                                           $3,000,000                                                                                                                                                                                                      $148,513
             Milwaukee, WI2                               Exercised Warrants
                                               4          Preferred Stock w/
1/9/2009     LCNB Corp., Lebanon, OH                                                $13,400,000    10/21/2009       $13,400,000              —                                                 $11.95                $79.91           $9.26       217,063               $2.69             IN         $524,833
                                                          Warrants
             Leader Bancorp, Inc.,                        Preferred Stock w/
12/23/2008                                                                           $5,830,000    11/24/2010        $5,830,000              — 11/24/2010         R       $292,000                                                                                                                   $609,961
             Arlington, MA2, 4, 7                         Exercised Warrants
             Legacy Bancorp, Inc.,
1/30/2009                                                 Preferred Stock            $5,498,000                                                                                                                                                                                                      $355,079
             Milwaukee, WI3
             Liberty Bancshares, Inc.,                    Preferred Stock w/
1/23/2009                                                                           $57,500,000                                                                                                                                                                                                    $5,675,570
             Jonesboro, AR2                               Exercised Warrants
             Liberty Bancshares, Inc.,                    Preferred Stock w/
2/13/2009                                                                           $21,900,000                                                                                                                                                                                                    $2,095,343
             Springfield, MO2                             Exercised Warrants
             Liberty Bancshares, Inc.,                    Preferred Stock w/
12/4/2009                                                                            $6,500,000                                                                                                                                                                                                      $324,556
             Fort Worth, TX2, 10                          Exercised Warrants
             Liberty Financial Services, Inc.,
2/6/2009                                         Preferred Stock                     $5,645,000     9/24/2010        $5,645,000              —                                                                                                                                                       $461,009
             New Orleans, LA3, 4, 30 - 9/24/2010
             Liberty Shares, Inc.,                        Preferred Stock w/
2/20/2009                                                                           $17,280,000                                                                                                                                                                                                    $1,399,560
             Hinesville, GA2                              Exercised Warrants
             Lincoln National Corporation,                Preferred Stock w/
7/10/2009                                                                          $950,000,000     6/30/2010      $950,000,000              — 9/16/2010          A    $216,620,887            $27.81             $8,809.12                                                                       $46,180,555
             Radnor, PA4                                  Warrants
                                                          Preferred Stock w/
12/12/2008 LNB Bancorp Inc., Lorain, OH                                             $25,223,000                                                                                                 $4.97                $38.89           $6.74       561,343              ($1.77)          OUT        $2,427,714
                                                          Warrants
                                                      2   Preferred Stock w/
2/6/2009     Lone Star Bank, Houston, TX                                             $3,072,000                                                                                                                                                                                                              —
                                                          Exercised Warrants
             LSB Corporation, North                       Preferred Stock w/
12/12/2008                                                                          $15,000,000    11/18/2009       $15,000,000              — 12/16/2009         R       $560,000             $20.95                $94.40                                                                          $700,000
             Andover, MA4                                 Warrants
             M&F Bancorp, Inc., Durham,
6/26/2009                                                 Preferred Stock           $11,735,000     8/20/2010       $11,735,000              —                                                                                                                                                       $674,763
             NC2, 3, 4, 10, 30 - 8/20/2010
           M&T Bank Corporation,                          Preferred Stock w/
12/23/2008                                                                         $600,000,000                                                                                                $87.05           $10,391.85           $73.86     1,218,522              $13.19             IN      $62,514,583
           Buffalo, NYd                                   Warrants

                                                                                                                                                                                                                                                                                        Continued on next page.
CPP Transaction Detail, as of 12/31/2010                                                      (CONTINUED)


                                                                                                Capital Repayment Details                                                  Final Disposition                                             Warrant and Market Data for Publicly Traded Companie

                                                                                            Capital            Capital      Remaining       Final                  Final      Stock Price Market Capitalization     Strike Price       Current     Amount “In the                          Interest/
Purchase                                       Investment                                Repayment          Repayment         Capital Disposition            Disposition            as of   as of 12/31/2010               as of   Outstanding   Money” or “Out of   In or Out of   Dividends Paid
Date         Institution                       Description           Investment Amount        Date             Amount         Amount        Date    Note15    Proceeds       12/31/2010            (in millions)   12/31/2010a       Warrantsa       the Money”e     the Moneye         to Treasury
           M&T Bank Corporation
                                               Preferred Stock w/
11/14/2008 (Provident Bancshares Corp.),                                 $151,500,000                                                                                              $87.05           $10,391.85           $55.76       407,542              $31.29             IN       $9,489,792
                                               Warrants
           Baltimore, MD
             Mackinac Financial Corporation, Preferred Stock w/
4/24/2009                                                                 $11,000,000                                                                                               $4.58                $15.66           $4.35       379,310               $0.23             IN         $857,083
             Manistique, MI                  Warrants

             Madison Financial Corporation, Preferred Stock w/
3/13/2009                                                                  $3,370,000                                                                                                                                                                                                    $169,422
             Richmond, KY2                  Exercised Warrants


                                               Preferred Stock w/
12/23/2008 Magna Bank, Memphis, TN2, 4                                    $13,795,000    11/24/2009        $3,455,000    $10,340,000                                                                                                                                                   $1,255,907
                                               Exercised Warrants


             Mainline Bancorp, Inc.,           Preferred Stock w/
12/29/2009                                                                 $4,500,000                                                                                                                                                                                                    $215,275
             Ebensburg, PA2                    Exercised Warrants

             MainSource Financial Group,       Preferred Stock w/
1/16/2009                                                                 $57,000,000                                                                                              $10.41              $209.62           $14.95       571,906              ($4.54)          OUT        $5,217,083
             Inc., Greensburg, IN              Warrants
             Manhattan Bancorp,                Preferred Stock w/
12/5/2008                                                                  $1,700,000     9/16/2009        $1,700,000              — 10/14/2009         R      $63,364              $5.25                $20.54                                                                           $66,347
             El Segundo, CA4                   Warrants

                                               Subordinated Deben-
             Manhattan Bancshares, Inc.,
6/19/2009                                      tures w/ Exercised          $2,639,000                                                                                                                                                                                                    $311,217
             Manhattan, IL8
                                               Warrants


             Marine Bank & Trust Company, Preferred Stock w/
3/6/2009                                                                   $3,000,000                                                                                                                                                                                                    $235,713
             Vero Beach, FL2              Exercised Warrants


             Market Bancorporation, Inc.,      Preferred Stock w/
2/20/2009                                                                  $2,060,000                                                                                                                                                                                                    $138,778
             New Market, MN2                   Exercised Warrants


                                               Subordinated Deben-
             Market Street Bancshares,
5/15/2009                                      tures w/ Exercised         $20,300,000                                                                                                                                                                                                  $2,554,755
             Inc., Mt. Vernon, IL8
                                               Warrants


             Marquette National Corporation, Preferred Stock w/
12/19/2008                                                                $35,500,000                                                                                                                                                                                                  $3,686,774
             Chicago, IL2                    Exercised Warrants

             Marshall & Ilsley Corporation,    Preferred Stock w/
11/14/2008                                                             $1,715,000,000                                                                                               $6.92             $3,656.60          $18.62    13,815,789             ($11.70)          OUT     $171,738,194
             Milwaukee, WI                     Warrants

             Maryland Financial Bank,          Preferred Stock w/
3/27/2009                                                                  $1,700,000                                                                                                                                                                                                     $58,678
             Towson, MD2                       Exercised Warrants

                                               Preferred Stock w/
12/5/2008    MB Financial Inc., Chicago, ILb                             $196,000,000                                                                                              $17.32              $934.48           $29.05       506,024             ($11.73)          OUT       $19,055,556
                                               Warrants

             McLeod Bancshares, Inc.,          Preferred Stock w/
11/20/2009                                                                 $6,000,000                                                                                                                                                                                                    $322,458
             Shorewood, MN2                    Exercised Warrants


             Medallion Bank,                   Preferred Stock w/
2/27/2009                                                                 $11,800,000
             Salt Lake City, UT2               Exercised Warrants
                                                                                                                                                                                                                                                                                       $1,543,492
             Medallion Bank,                   Preferred Stock w/
12/22/2009                                                                 $9,698,000
             Salt Lake City, UT2, 10a          Exercised Warrants

             Mercantile Bank Corporation,      Preferred Stock w/
5/15/2009                                                                 $21,000,000                                                                                               $8.20                $70.50           $5.11       616,438               $3.09             IN       $1,050,000
             Grand Rapids, MI                  Warrants

             Mercantile Capital Corp.,         Preferred Stock w/
2/6/2009                                                                   $3,500,000                                                                                                                                                                                                    $338,581
             Boston, MA2                       Exercised Warrants
                                                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I january 26, 2011




                                                                                                                                                                                                                                                                            Continued on next page.
                                                                                                                                                                                                                                                                                                       245
 CPP Transaction Detail, as of 12/31/2010                                                       (CONTINUED)                                                                                                                                                                                                246

                                                                                                  Capital Repayment Details                                                    Final Disposition                                             Warrant and Market Data for Publicly Traded Companie

                                                                                              Capital            Capital      Remaining       Final                    Final      Stock Price Market Capitalization     Strike Price       Current     Amount “In the                          Interest/
Purchase                                        Investment                                 Repayment          Repayment         Capital Disposition              Disposition            as of   as of 12/31/2010               as of   Outstanding   Money” or “Out of   In or Out of   Dividends Paid
Date            Institution                     Description            Investment Amount        Date             Amount         Amount        Date    Note15      Proceeds       12/31/2010            (in millions)   12/31/2010a       Warrantsa       the Money”e     the Moneye         to Treasury

                Merchants and Manufacturers     Preferred Stock w/
6/19/2009                                                                    $3,510,000                                                                                                                                                                                                      $268,939
                Bank Corporation, Joliet, IL2   Exercised Warrants

                Merchants and Planters          Preferred Stock w/
3/6/2009                                                                     $1,881,000                                                                                                                                                                                                      $173,413
                Bancshares, Inc., Toone, TN2    Exercised Warrants
                                            2   Preferred Stock w/
2/13/2009       Meridian Bank, Devon, PA                                     $6,200,000
                                                Exercised Warrants                                                                                                                                                                                                                           $887,076
12/11/2009 Meridian Bank, Devon, PA2, 10, a Preferred Stock                  $6,335,000
                                                Preferred Stock w/
1/30/2009       Metro City Bank, Doraville, GA2                              $7,700,000                                                                                                                                                                                                      $751,873
                                                Exercised Warrants
                MetroCorp Bancshares, Inc.,     Preferred Stock w/
1/16/2009                                                                   $45,000,000                                                                                                 $3.63                $48.02           $8.75       771,429              ($5.12)          OUT        $3,570,156
                Houston, TX                     Warrants
                Metropolitan Bank Group, Inc., Preferred Stock w/
6/26/2009                                                                   $71,526,000                                                                                                                                                                                                    $3,454,185
                Chicago, IL2                   Exercised Warrants
                Metropolitan Capital Bancorp,   Preferred Stock w/
4/10/2009                                                                    $2,040,000
                Inc., Chicago, IL2              Exercised Warrants
                                                                                                                                                                                                                                                                                             $293,349
                Metropolitan Capital Bancorp,
11/20/2009                                      Preferred Stock              $2,348,000
                Inc., Chicago, IL2, 10a
                Mid Penn Bancorp, Inc.,         Preferred Stock w/
12/19/2008                                                                  $10,000,000                                                                                                 $7.50                $26.10          $20.52        73,099             ($13.02)          OUT          $952,778
                Millersburg, PA                 Warrants
                                                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I january 26, 2011




                Middleburg Financial            Preferred Stock w/
1/30/2009                                                                   $22,000,000    12/23/2009       $22,000,000              —                                                 $14.26                $98.91          $15.85       104,101              ($1.59)          OUT          $986,944
                Corporation, Middleburg, VA5    Warrants
                Midland States Bancorp, Inc.,   Preferred Stock w/
1/23/2009                                                                   $10,189,000    12/23/2009       $10,189,000              — 12/23/2009         R       $509,000                                                                                                                   $508,989
                Effingham, IL2, 4, 7            Exercised Warrants
                MidSouth Bancorp, Inc.,         Preferred Stock w/
1/9/2009                                                                    $20,000,000                                                                                                $15.36              $149.38           $14.37       104,384               $0.99             IN       $1,850,000
                Lafayette, LAb                  Warrants
                Midtown Bank & Trust Company, Preferred Stock w/
2/27/2009                                                                    $5,222,000                                                                                                                                                                                                      $275,105
                Atlanta, GA2                  Exercised Warrants
                                                Mandatorily Convert-
                Midwest Banc Holdings, Inc.,
12/5/2008                                       ible Preferred Stock        $89,388,000                                                                                                                       $0.11           $0.31     4,282,020              ($0.31)          OUT          $824,289
                Melrose Park, IL14, 20, i
                                                w/ Warrants
                Midwest Regional Bancorp, Inc., Preferred Stock w/
2/13/2009                                                                      $700,000    11/10/2009          $700,000              — 11/10/2009         R        $35,000                                                                                                                    $28,294
                Festus, MO2, 4, 7               Exercised Warrants
                MidWestOne Financial Group,     Preferred Stock w/
2/6/2009                                                                    $16,000,000                                                                                                $15.11              $130.16           $12.08       198,675               $3.03             IN       $1,420,000
                Inc., Iowa City, IA             Warrants
                Mid-Wisconsin Financial         Preferred Stock w/
2/20/2009                                                                   $10,000,000                                                                                                                                                                                                      $946,181
                Services, Inc., Medford, WI2    Exercised Warrants
                Millennium Bancorp, Inc.,       Preferred Stock w/
4/3/2009                                                                     $7,260,000                                                                                                                                                                                                      $343,053
                Edwards, CO2                    Exercised Warrants
                Mission Community Bancorp,
1/9/2009                                        Preferred Stock              $5,116,000                                                                                                                                                                                                      $473,230
                San Luis Obispo, CA3
           Mission Valley Bancorp,
12/23/2008                                      Preferred Stock              $5,500,000     8/20/2010        $5,500,000              —                                                                                                                                                       $456,042
           Sun Valley, CA3, 4, 30 - 8/20/2010
           Monadnock Bancorp, Inc.,             Preferred Stock w/
12/19/2008                                                                   $1,834,000                                                                                                                                                                                                      $190,517
           Peterborough, NH2                    Exercised Warrants
                Monarch Community Bancorp, Preferred Stock w/
2/6/2009                                                                     $6,785,000                                                                                                 $1.21                 $2.47           $3.90       260,962              ($2.69)          OUT          $262,919
                Inc., Coldwater, MI        Warrants
           Monarch Financial Holdings,          Preferred Stock w/
12/19/2008                                                                  $14,700,000    12/23/2009       $14,700,000              — 2/10/2010          R       $260,000              $7.80                $46.05                                                                          $743,167
           Inc., Chesapeake, VA5, 9             Warrants
                Moneytree Corporation,          Preferred Stock w/
3/13/2009                                                                    $9,516,000                                                                                                                                                                                                      $867,281
                Lenoir City, TN2                Exercised Warrants
                Monument Bank,                  Preferred Stock w/
1/30/2009                                                                    $4,734,000                                                                                                                                                                                                      $462,303
                Bethesda, MD2                   Exercised Warrants
                                         Preferred Stock w/
10/28/2008 Morgan Stanley, New York, NY4                                $10,000,000,000     6/17/2009   $10,000,000,000              — 8/12/2009          R    $950,000,000            $27.21           $41,165.38                                                                      $318,055,555
                                         Warrants
                Morrill Bancshares, Inc.,       Preferred Stock w/
1/16/2009                                                                   $13,000,000                                                                                                                                                                                                    $1,296,949
                Merriam, KS2                    Exercised Warrants
                Moscow Bancshares, Inc.,        Preferred Stock w/
1/23/2009                                                                    $6,216,000                                                                                                                                                                                                      $613,587
                Moscow, TN2                     Exercised Warrants
                Mountain Valley Bancshares,     Preferred Stock w/
9/25/2009                                                                    $3,300,000                                                                                                                                                                                                      $204,829
                Inc., Cleveland, GA2            Exercised Warrants
                MS Financial, Inc.,             Preferred Stock w/
3/27/2009                                                                    $7,723,000                                                                                                                                                                                                      $477,009
                Kingwood, TX2                   Exercised Warrants

                                                                                                                                                                                                                                                                                Continued on next page.
CPP Transaction Detail, as of 12/31/2010                                                         (CONTINUED)


                                                                                                   Capital Repayment Details                                                   Final Disposition                                             Warrant and Market Data for Publicly Traded Companie

                                                                                               Capital            Capital      Remaining       Final                   Final      Stock Price Market Capitalization     Strike Price       Current     Amount “In the                          Interest/
Purchase                                          Investment                                Repayment          Repayment         Capital Disposition             Disposition            as of   as of 12/31/2010               as of   Outstanding   Money” or “Out of   In or Out of   Dividends Paid
Date         Institution                          Description           Investment Amount        Date             Amount         Amount        Date    Note15     Proceeds       12/31/2010            (in millions)   12/31/2010a       Warrantsa       the Money”e     the Moneye         to Treasury
             MutualFirst Financial, Inc.,         Preferred Stock w/
12/23/2008                                                                   $32,382,000                                                                                                $9.30                $64.96           $7.77       625,135               $1.53             IN       $3,067,295
             Muncie, IN                           Warrants
             Naples Bancorp, Inc.,                Preferred Stock w/
3/27/2009                                                                     $4,000,000                                                                                                                                                                                                     $356,067
             Naples, FL2                          Exercised Warrants
           Nara Bancorp, Inc.,                    Preferred Stock w/
11/21/2008                                                                   $67,000,000                                                                                                $9.86              $374.21            $9.64       521,266               $0.21             IN       $6,644,167
           Los Angeles, CAb                       Warrants
             National Bancshares, Inc.,           Preferred Stock w/
2/27/2009                                                                    $24,664,000                                                                                                                                                                                                   $2,307,492
             Bettendorf, IA2                      Exercised Warrants
           National Penn Bancshares, Inc., Preferred Stock w/
12/12/2008                                                                  $150,000,000                                                                                                $8.03             $1,097.18          $15.30       735,294              ($7.27)          OUT       $14,437,500
           Boyertown, PAb                  Warrants
                                                  Subordinated Deben-
             Nationwide Bankshares, Inc.,
12/11/2009                                        tures w/ Exercised          $2,000,000    12/29/2010        $2,000,000              — 12/29/2010         R      $100,000                                                                                                                   $176,190
             West Point, NE4, 7, 8
                                                  Warrants
                                                  Preferred Stock w/
6/26/2009    NC Bancorp, Inc., Chicago, IL2                                   $6,880,000                                                                                                                                                                                                     $332,256
                                                  Exercised Warrants
           NCAL Bancorp,                          Preferred Stock w/
12/19/2008                                                                   $10,000,000                                                                                                                                                                                                   $1,038,528
           Los Angeles, CA2                       Exercised Warrants
                                                  Subordinated Deben-
             NEMO Bancshares Inc.,
6/19/2009                                         tures w/ Exercised          $2,330,000                                                                                                                                                                                                     $274,865
             Madison, MO8
                                                  Warrants
             New Hampshire Thrift          Preferred Stock w/
1/16/2009                                                                    $10,000,000                                                                                               $12.55                $72.46           $8.14       184,275               $4.41             IN         $915,278
             Bancshares, Inc., Newport, NH Warrants
             New York Private Bank & Trust Preferred Stock w/
1/9/2009                                                                    $267,274,000                                                                                                                                                                                                  $26,947,951
             Corporation, New York, NY2    Exercised Warrants
             NewBridge Bancorp,                   Preferred Stock w/
12/12/2008                                                                   $52,372,000                                                                                                $4.70                $73.58           $3.06     2,567,255               $1.64             IN       $5,040,805
             Greensboro, NC                       Warrants
             Nicolet Bankshares, Inc.,            Preferred Stock w/
12/23/2008                                                                   $14,964,000                                                                                                                                                                                                   $1,544,957
             Green Bay, WI2                       Exercised Warrants
             North Central Bancshares, Inc., Preferred Stock w/
1/9/2009                                                                     $10,200,000                                                                                               $16.69                $22.55          $15.43        99,157               $1.26             IN         $943,500
             Fort Dodge, IA                  Warrants
           Northeast Bancorp,                     Preferred Stock w/
12/12/2008                                                                    $4,227,000                                                                                               $15.43                $35.97           $9.33        67,958               $6.10             IN         $406,849
           Lewiston, ME                           Warrants
             Northern State Bank,                 Preferred Stock w/
5/15/2009                                                                     $1,341,000
             Closter, NJ2                         Exercised Warrants
                                                                                                                                                                                                                                                                                             $165,483
             Northern State Bank,
12/18/2009                                        Preferred Stock             $1,230,000
             Closter, NJ2, 10a
             Northern States Financial            Preferred Stock w/
2/20/2009                                                                    $17,211,000                                                                                                $1.65                 $6.72           $4.42       584,084              ($2.77)          OUT          $418,323
             Corporation, Waukegan, IL            Warrants
             Northern Trust Corporation,          Preferred Stock w/
11/14/2008                                                                $1,576,000,000     6/17/2009    $1,576,000,000              — 8/26/2009          R    $87,000,000            $55.41           $13,419.97                                                                        $46,623,333
             Chicago, IL4                         Warrants
             Northway Financial, Inc.,            Preferred Stock w/
1/30/2009                                                                    $10,000,000                                                                                                                                                                                                     $976,458
             Berlin, NH2                          Exercised Warrants
             Northwest Bancorporation, Inc., Preferred Stock w/
2/13/2009                                                                    $10,500,000                                                                                                                                                                                                     $575,430
             Spokane, WA2                    Exercised Warrants
             Northwest Commercial Bank,           Preferred Stock w/
2/13/2009                                                                     $1,992,000                                                                                                                                                                                                     $190,653
             Lakewood, WA2                        Exercised Warrants
             Oak Ridge Financial Services,        Preferred Stock w/
1/30/2009                                                                     $7,700,000                                                                                                $4.42                 $7.92           $7.05       163,830              ($2.63)          OUT          $689,792
             Inc., Oak Ridge, NC                  Warrants
             Oak Valley Bancorp,                  Preferred Stock w/
12/5/2008                                                                    $13,500,000                                                                                                $5.90                $45.44           $5.78       350,346               $0.12             IN       $1,312,500
             Oakdale, CA                          Warrants
             OceanFirst Financial Corp.,          Preferred Stock w/
1/16/2009                                                                    $38,263,000    12/30/2009       $38,263,000              —    2/3/2010        R      $430,797             $12.87              $242.25                                                                         $1,828,122
             Toms River, NJ5, 9                   Warrants
                                           Preferred Stock w/
                                              2
1/30/2009    Ojai Community Bank, Ojai, CA                                    $2,080,000                                                                                                                                                                                                     $203,103
                                           Exercised Warrants
             Old Line Bancshares, Inc.,           Preferred Stock w/
12/5/2008                                                                     $7,000,000     7/15/2009        $7,000,000              —    9/2/2009        R      $225,000              $8.06                $31.32                                                                          $213,889
             Bowie, MD4                           Warrants
             Old National Bancorp,                Preferred Stock w/
12/12/2008                                                                  $100,000,000     3/31/2009      $100,000,000              —    5/8/2009        R     $1,200,000            $11.89             $1,036.53                                                                        $1,513,889
             Evansville, IN4                      Warrants
             Old Second Bancorp, Inc.,            Preferred Stock w/
1/16/2009                                                                    $73,000,000                                                                                                $1.70                $23.65          $13.43       815,339             ($11.73)          OUT        $5,769,028
             Aurora, IL                           Warrants
             Omega Capital Corp.,                 Preferred Stock w/
4/17/2009                                                                     $2,816,000                                                                                                                                                                                                      $50,311
                                                                                                                                                                                                                                                                                                           Transaction detail I Appendix D I january 26, 2011




             Lakewood, CO2                        Exercised Warrants
                                                  Preferred Stock w/
5/8/2009     One Georgia Bank, Atlanta, GA2                                   $5,500,000                                                                                                                                                                                                             —
                                                  Exercised Warrants

                                                                                                                                                                                                                                                                                Continued on next page.
                                                                                                                                                                                                                                                                                                           247
CPP Transaction Detail, as of 12/31/2010                                                             (CONTINUED)                                                                                                                                                                                              248

                                                                                                       Capital Repayment Details                                                  Final Disposition                                             Warrant and Market Data for Publicly Traded Companie

                                                                                                   Capital            Capital      Remaining       Final                  Final      Stock Price Market Capitalization     Strike Price       Current     Amount “In the                          Interest/
Purchase                                              Investment                                Repayment          Repayment         Capital Disposition            Disposition            as of   as of 12/31/2010               as of   Outstanding   Money” or “Out of   In or Out of   Dividends Paid
Date         Institution                              Description           Investment Amount        Date             Amount         Amount        Date    Note15    Proceeds       12/31/2010            (in millions)   12/31/2010a       Warrantsa       the Money”e     the Moneye         to Treasury
                                                      Subordinated Deben-
             OneFinancial Corporation,
6/5/2009                                              tures w/ Exercised         $17,300,000                                                                                                                                                                                                  $2,027,993
             Little Rock, AR8, 10
                                                      Warrants
                                               2, 3
12/19/2008 OneUnited Bank, Boston, MA                 Preferred Stock            $12,063,000                                                                                                                                                                                                     $93,823
             Oregon Bancorp, Inc.,                    Preferred Stock w/
4/24/2009                                                                         $3,216,000                                                                                                                                                                                                    $273,160
             Salem, OR2                               Exercised Warrants
                                                      Subordinated Deben-
             OSB Financial Services, Inc.,
5/1/2009                                              tures w/ Exercised          $6,100,000                                                                                                                                                                                                    $802,390
             Orange, TX8
                                                      Warrants
             Pacific Capital Bancorp,                 Common Stock w/
11/21/2008                                                                      $195,045,000                                                                                              $28.26              $929.87           $20.00        15,120               $8.26             IN       $2,107,397
             Santa Barbara, CA29 - 9/24/2010, i       Warrants
           Pacific City Financial        Preferred Stock w/
12/19/2008                                                                       $16,200,000                                                                                                                                                                                                    $358,065
           Corporation, Los Angeles, CA2 Exercised Warrants
           Pacific Coast Bankers’         Preferred Stock w/
12/23/2008                                                                       $11,600,000                                                                                                                                                                                                  $1,197,668
           Bancshares, San Francisco, CA2 Exercised Warrants
             Pacific Coast National Bancorp, Preferred Stock w/
1/16/2009                                                                         $4,120,000    2/11/2010                  —              —                                                                                                                                                      $18,088
             San Clemente, CA2, 19           Exercised Warrants
           Pacific Commerce Bank,                     Preferred Stock w/
12/23/2008                                                                        $4,060,000                                                                                                                                                                                                    $387,223
           Los Angeles, CA2                           Exercised Warrants
             Pacific International Bancorp,           Preferred Stock w/
12/12/2008                                                                        $6,500,000                                                                                               $3.90                 $7.80           $7.63       127,785              ($3.73)          OUT          $219,375
                                                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I january 26, 2011




             Seattle, WA                              Warrants
             Park Bancorporation, Inc.,               Preferred Stock w/
3/6/2009                                                                         $23,200,000                                                                                                                                                                                                  $2,138,943
             Madison, WI2                             Exercised Warrants
             Park National Corporation,               Preferred Stock w/
12/23/2008                                                                      $100,000,000                                                                                              $72.67             $1,113.81          $65.97       227,376               $6.70             IN       $9,472,222
             Newark, OH                               Warrants
                                                      Preferred Stock w/
1/30/2009    Parke Bancorp, Inc., Sewell, NJg                                    $16,288,000                                                                                              $10.00                $44.40           $7.41       329,757               $2.59             IN       $1,459,133
                                                      Warrants
           Parkvale Financial Corporation, Preferred Stock w/
12/23/2008                                                                       $31,762,000                                                                                               $9.18                $50.76          $12.66       376,327              ($3.48)          OUT        $3,008,567
           Monroeville, PA                 Warrants
             Pascack Bancorp, Inc.
                                                      Preferred Stock w/
2/6/2009     (Pascack Community Bank),                                            $3,756,000                                                                                                                                                                                                    $363,378
                                                      Exercised Warrants
             Westwood, NJ2, 13 - 2/10/2010
           Patapsco Bancorp, Inc.,                    Preferred Stock w/
12/19/2008                                                                        $6,000,000                                                                                                                                                                                                    $377,867
           Dundalk, MD2                               Exercised Warrants
             Pathfinder Bancorp, Inc.,                Preferred Stock w/
9/11/2009                                                                         $6,771,000                                                                                               $8.50                $21.12           $6.58       154,354               $1.92             IN         $398,737
             Oswego, NY                               Warrants
                                                      Preferred Stock w/
3/27/2009    Pathway Bancorp, Cairo, NE2                                          $3,727,000                                                                                                                                                                                                     $77,852
                                                      Exercised Warrants
           Patriot Bancshares, Inc.,                  Preferred Stock w/
12/19/2008                                                                       $26,038,000                                                                                                                                                                                                  $2,704,136
           Houston, TX2                               Exercised Warrants
             Patterson Bancshares, Inc,               Preferred Stock w/
4/17/2009                                                                         $3,690,000                                                                                                                                                                                                    $116,220
             Patterson, LA2                           Exercised Warrants
             Peapack-Gladstone Financial              Preferred Stock w/
1/9/2009                                                                         $28,685,000     1/6/2010         $7,172,000    $21,513,000                                               $13.05              $114.68           $28.63       150,296             ($15.58)          OUT        $2,345,565
             Corporation, Gladstone, NJ4, g           Warrants
             Peninsula Bank Holding Co.,              Preferred Stock w/
1/30/2009                                                                         $6,000,000                                                                                               $6.10                $11.29          $11.02        81,670              ($4.92)          OUT          $300,000
             Palo Alto, CA                            Warrants
             Penn Liberty Financial Corp.,            Preferred Stock w/
4/17/2009                                                                         $9,960,000                                                                                                                                                                                                    $856,449
             Wayne, PA2                               Exercised Warrants
                                          Preferred Stock w/
2/13/2009    Peoples Bancorp, Lynden, WA2                                        $18,000,000                                                                                                                                                                                                  $1,722,200
                                          Exercised Warrants
             Peoples Bancorp Inc.,                    Preferred Stock w/
1/30/2009                                                                        $39,000,000                                                                                              $15.65              $164.33           $18.66       313,505              ($3.01)          OUT        $3,493,750
             Marietta, OH                             Warrants
             Peoples Bancorp of North                 Preferred Stock w/
12/23/2008                                                                       $25,054,000                                                                                               $5.25                $29.10          $10.52       357,234              ($5.27)          OUT        $2,373,171
             Carolina, Inc., Newton, NC               Warrants
             Peoples Bancorporation, Inc.,            Preferred Stock w/
4/24/2009                                                                        $12,660,000                                                                                                                                                                                                  $1,075,203
             Easley, SC2                              Exercised Warrants
             Peoples Bancshares of TN, Inc, Preferred Stock w/
3/20/2009                                                                         $3,900,000                                                                                                                                                                                                    $351,298
             Madisonville, TN2              Exercised Warrants
             PeoplesSouth Bancshares, Inc., Preferred Stock w/
3/6/2009                                                                         $12,325,000                                                                                                                                                                                                  $1,136,276
             Colquitt, GA2                  Exercised Warrants
             PFSB Bancorporation, Inc.,               Preferred Stock w/
9/11/2009                                                                         $1,500,000                                                                                                                                                                                                     $95,859
             Pigeon Falls, WI2, 10                    Exercised Warrants
             PGB Holdings, Inc.,
2/6/2009                                              Preferred Stock             $3,000,000    8/13/2010         $3,000,000              —                                                                                                                                                     $227,917
             Chicago, IL3, 4, 30 - 8/13/2010
             Pierce County Bancorp,                   Preferred Stock w/
1/23/2009                                                                         $6,800,000                                                                                                                                                                                                    $207,948
             Tacoma, WA2, 25                          Exercised Warrants

                                                                                                                                                                                                                                                                                   Continued on next page.
CPP Transaction Detail, as of 12/31/2010                                                              (CONTINUED)


                                                                                                        Capital Repayment Details                                                  Final Disposition                                             Warrant and Market Data for Publicly Traded Companie

                                                                                                    Capital            Capital      Remaining       Final                  Final      Stock Price Market Capitalization     Strike Price       Current     Amount “In the                          Interest/
Purchase                                             Investment                                  Repayment          Repayment         Capital Disposition            Disposition            as of   as of 12/31/2010               as of   Outstanding   Money” or “Out of   In or Out of   Dividends Paid
Date          Institution                            Description             Investment Amount        Date             Amount         Amount        Date    Note15    Proceeds       12/31/2010            (in millions)   12/31/2010a       Warrantsa       the Money”e     the Moneye         to Treasury
              Pinnacle Bank Holding           Preferred Stock w/
3/6/2009                                                                           $4,389,000                                                                                                                                                                                                    $284,999
              Company, Inc., Orange City, FL2 Exercised Warrants
           Pinnacle Financial Partners, Inc.,Preferred Stock w/
12/12/2008                                                                        $95,000,000                                                                                              $13.58              $457.10           $26.64       267,455             ($13.06)          OUT        $9,143,750
           Nashville, TNb                    Warrants
           Plains Capital Corporation,               Preferred Stock w/
12/19/2008                                                                        $87,631,000                                                                                                                                                                                                  $9,100,800
           Dallas, TX2                               Exercised Warrants
                                                     Subordinated Deben-
              Plato Holdings Inc.,
7/17/2009                                            tures w/ Exercised            $2,500,000                                                                                                                                                                                                    $275,203
              Saint Paul, MN8, 10
                                                     Warrants
                                                     Preferred Stock w/
1/30/2009     Plumas Bancorp, Quincy, CA                                          $11,949,000                                                                                               $2.34                $11.18           $7.54       237,712              ($5.20)          OUT          $622,344
                                                     Warrants
                                                     Trust Preferred Secu-
12/5/2008     Popular, Inc., San Juan, PR12                                      $935,000,000                                                                                               $3.14             $3,211.22           $6.70    20,932,836              ($3.56)          OUT       $78,046,528
                                                     rities w/ Warrants
           Porter Bancorp Inc.,                      Preferred Stock w/
11/21/2008                                                                        $35,000,000                                                                                              $10.31              $137.72           $16.68       314,820              ($6.37)          OUT        $3,470,833
           Louisville, KYg                           Warrants
              Prairie Star Bancshares, Inc.,         Preferred Stock w/
4/3/2009                                                                           $2,800,000                                                                                                                                                                                                    $132,253
              Olathe, KS2                            Exercised Warrants
              Premier Bancorp, Inc.,                 Subordinated
5/8/2009                                                                           $6,784,000    8/13/2010         $6,784,000              —                                                                                                                                                     $660,215
              Wilmette, IL3, 4, 8, 30 - 8/13/2010    Debentures
              Premier Bank Holding Company, Preferred Stock w/
3/20/2009                                                                          $9,500,000                                                                                                                                                                                                    $467,413
              Tallahassee, FL2              Exercised Warrants
              Premier Financial Bancorp, Inc., Preferred Stock w/
10/2/2009                                                                         $22,252,000                                                                                               $6.40                $50.80           $5.31       628,588               $1.09             IN         $967,344
              Huntington, WV                   Warrants
                                                     Subordinated Deben-
              Premier Financial Corp,
5/22/2009                                            tures w/ Exercised            $6,349,000                                                                                                                                                                                                    $522,263
              Dubuque, IA8
                                                     Warrants
              Premier Service Bank,                  Preferred Stock w/
2/20/2009                                                                          $4,000,000                                                                                                                                                                                                     $54,500
              Riverside, CA2                         Exercised Warrants
              PremierWest Bancorp,                   Preferred Stock w/
2/13/2009                                                                         $41,400,000                                                                                               $0.34                $34.12           $5.70     1,090,385              ($5.36)          OUT        $1,046,500
              Medford, ORg                           Warrants
              Presidio Bank,                         Preferred Stock w/
11/20/2009                                                                        $10,800,000                                                                                                                                                                                                            —
              San Francisco, CA2, 10                 Exercised Warrants
              Princeton National Bancorp,            Preferred Stock w/
1/23/2009                                                                         $25,083,000                                                                                               $3.64                $12.07          $24.27       155,025             ($20.63)          OUT        $2,271,405
              Inc., Princeton, IL                    Warrants
              Private Bancorporation, Inc.,          Preferred Stock w/
2/27/2009                                                                          $4,960,000
              Minneapolis, MN2                       Exercised Warrants
                                                                                                                                                                                                                                                                                                 $607,215
              Private Bancorporation, Inc.,
12/29/2009                                           Preferred Stock               $3,262,000
              Minneapolis, MN2, 10a
              PrivateBancorp, Inc., Chicago, Preferred Stock w/
1/30/2009                                                                        $243,815,000                                                                                              $14.38             $1,026.48          $28.35       645,013             ($13.97)          OUT       $21,841,760
              ILb                            Warrants
              Providence Bank,                       Preferred Stock w/
10/2/2009                                                                          $4,000,000                                                                                                                                                                                                    $241,520
              Rocky Mount, NC2, 10                   Exercised Warrants
              Provident Community             Preferred Stock w/
3/13/2009                                                                          $9,266,000                                                                                               $0.66                 $1.18           $7.77       178,880              ($7.11)          OUT          $543,091
              Bancshares, Inc., Rock Hill, SC Warrants

              PSB Financial Corporation,             Preferred Stock w/
2/27/2009                                                                          $9,270,000    9/29/2010         $9,270,000              — 9/29/2010          R     $464,000                                                                                                                   $802,802
              Many, LA2, 4, 7, 30 - 9/29/2010, 30a   Exercised Warrants

              Puget Sound Bank,                      Preferred Stock w/
1/16/2009                                                                          $4,500,000                                                                                                                                                                                                    $448,944
              Bellevue, WA2                          Exercised Warrants
              Pulaski Financial Corp,                Preferred Stock w/
1/16/2009                                                                         $32,538,000                                                                                               $7.58                $82.38           $6.27       778,421               $1.31             IN       $2,978,131
              Creve Coeur, MO                        Warrants
                                                     Preferred Stock w/
2/13/2009     QCR Holdings, Inc., Moline, IL                                      $38,237,000                                                                                               $7.14                $32.91          $10.99       521,888              ($3.85)          OUT        $3,356,359
                                                     Warrants
              Randolph Bank & Trust                  Preferred Stock w/
10/30/2009                                                                         $6,229,000                                                                                                                                                                                                    $353,583
              Company, Asheboro, NC2                 Exercised Warrants
              RCB Financial Corporation,             Preferred Stock w/
6/19/2009                                                                          $8,900,000                                                                                                                                                                                                    $659,374
              Rome, GA2, 10                          Exercised Warrants
              Redwood Capital Bancorp,               Preferred Stock w/
1/16/2009                                                                          $3,800,000                                                                                                                                                                                                    $379,108
              Eureka, CA2                            Exercised Warrants
              Redwood Financial Inc.,                Preferred Stock w/
1/9/2009                                                                           $2,995,000                                                                                                                                                                                                    $302,013
              Redwood Falls, MN2                     Exercised Warrants
                                                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I january 26, 2011




              Regent Bancorp, Inc.,                  Preferred Stock w/
3/6/2009                                                                           $9,982,000                                                                                                                                                                                                    $784,282
              Davie, FL2                             Exercised Warrants

                                                                                                                                                                                                                                                                                    Continued on next page.
                                                                                                                                                                                                                                                                                                               249
CPP Transaction Detail, as of 12/31/2010                                                      (CONTINUED)                                                                                                                                                                                              250

                                                                                                Capital Repayment Details                                                  Final Disposition                                             Warrant and Market Data for Publicly Traded Companie

                                                                                            Capital            Capital      Remaining       Final                  Final      Stock Price Market Capitalization     Strike Price       Current     Amount “In the                          Interest/
Purchase                                       Investment                                Repayment          Repayment         Capital Disposition            Disposition            as of   as of 12/31/2010               as of   Outstanding   Money” or “Out of   In or Out of   Dividends Paid
Date         Institution                       Description           Investment Amount        Date             Amount         Amount        Date    Note15    Proceeds       12/31/2010            (in millions)   12/31/2010a       Warrantsa       the Money”e     the Moneye         to Treasury
             Regent Capital Corporation,       Preferred Stock w/
2/27/2009                                                                  $2,655,000                                                                                                                                                                                                    $248,436
             Nowata, OK2                       Exercised Warrants
           Regents Bancshares, Inc.,           Preferred Stock w/
10/23/2009                                                                $12,700,000                                                                                                                                                                                                    $710,191
           Vancouver, WA2, 10                  Exercised Warrants
             Regional Bankshares, Inc.,        Preferred Stock w/
2/13/2009                                                                  $1,500,000                                                                                                                                                                                                    $143,517
             Hartsville, SC2                   Exercised Warrants
             Regions Financial Corporation, Preferred Stock w/
11/14/2008                                                             $3,500,000,000                                                                                               $7.00             $8,792.59          $10.88    48,253,677              ($3.88)          OUT     $350,486,111
             Birmingham, AL                 Warrants
             Reliance Bancshares, Inc.,        Preferred Stock w/
2/13/2009                                                                 $40,000,000                                                                                                                                                                                                  $3,827,111
             Frontenac, MO2                    Exercised Warrants
             Ridgestone Financial Services, Preferred Stock w/
2/27/2009                                                                 $10,900,000                                                                                                                                                                                                    $277,224
             Inc., Brookfield, WI2          Exercised Warrants
             Rising Sun Bancorp,               Preferred Stock w/
1/9/2009                                                                   $5,983,000                                                                                                                                                                                                    $195,637
             Rising Sun, MD2                   Exercised Warrants
                                               Subordinated Deben-
             River Valley Bancorporation,
6/12/2009                                      tures w/ Exercised         $15,000,000                                                                                                                                                                                                  $1,793,363
             Inc., Wausau, WI8
                                               Warrants
                                               Subordinated Deben-
             Riverside Bancshares, Inc.,
5/15/2009                                      tures w/ Exercised          $1,100,000                                                                                                                                                                                                    $138,435
             Little Rock, AR8
                                               Warrants
             Rogers Bancshares, Inc.,          Preferred Stock w/
                                                                                                                                                                                                                                                                                                       Appendix D I Transaction Detail I january 26, 2011




1/30/2009                                                                 $25,000,000                                                                                                                                                                                                    $738,021
             Little Rock, AR2                  Exercised Warrants
             Royal Bancshares of              Preferred Stock w/
2/20/2009                                                                 $30,407,000                                                                                               $1.40                $17.50           $4.13     1,104,370              ($2.73)          OUT          $358,971
             Pennsylvania, Inc., Narberth, PA Warrants
                                               Preferred Stock w/
1/16/2009    S&T Bancorp, Indiana, PA                                    $108,676,000                                                                                              $22.59              $629.15           $31.53       517,012              ($8.94)          OUT        $9,946,873
                                               Warrants
             Saigon National Bank,             Preferred Stock w/
12/23/2008                                                                 $1,549,000                                                                                                                                                                                                            —
             Westminster, CA2                  Exercised Warrants
             Salisbury Bancorp, Inc.,          Preferred Stock w/
3/13/2009                                                                  $8,816,000                                                                                              $25.22                $42.57          $22.93        57,671               $2.29             IN         $737,116
             Lakeville, CT                     Warrants

                                                                                          7/21/2010       $41,547,000    $41,547,000
             Sandy Spring Bancorp, Inc.,       Preferred Stock w/
12/5/2008                                                                 $83,094,000                                                                                              $18.43              $442.52           $19.13       651,547              ($0.70)          OUT        $7,593,868
             Olney, MD4                        Warrants
                                                                                         12/15/2010       $41,547,000              —

             Santa Clara Valley Bank, N.A.,    Preferred Stock w/
2/13/2009                                                                  $2,900,000                                                                                                                                                                                                    $158,928
             Santa Paula, CA2                  Exercised Warrants
           Santa Lucia Bancorp,                Preferred Stock w/
12/19/2008                                                                 $4,000,000                                                                                               $2.00                 $4.01          $15.75        38,107             ($13.75)          OUT          $331,111
           Atascadero, CAg                     Warrants
             SBT Bancorp, Inc.,                Preferred Stock w/
3/27/2009                                                                  $4,000,000                                                                                                                                                                                                    $356,067
             Simsbury, CT2                     Exercised Warrants
             SCBT Financial Corporation,       Preferred Stock w/
1/16/2009                                                                 $64,779,000     5/20/2009       $64,779,000              — 6/24/2009          R    $1,400,000            $32.75              $418.74                                                                         $1,115,639
             Columbia, SC4                     Warrants
             Seacoast Banking Corporation Preferred Stock w/
12/19/2008                                                                $50,000,000                                                                                               $1.46              $136.44            $6.36       589,623              ($4.90)          OUT          $388,889
             of Florida, Stuart, FLb      Warrants
             Seacoast Commerce Bank,           Preferred Stock w/
12/23/2008                                                                 $1,800,000                                                                                                                                                                                                    $185,845
             Chula Vista, CA2                  Exercised Warrants
             Security Bancshares of Pulaski Preferred Stock w/
2/13/2009                                                                  $2,152,000                                                                                                                                                                                                    $205,962
             County, Inc., Waynesville, MO2 Exercised Warrants
             Security Business Bancorp,        Preferred Stock w/
1/9/2009                                                                   $5,803,000                                                                                                                                                                                                    $585,063
             San Diego, CA2                    Exercised Warrants
             Security California Bancorp,      Preferred Stock w/
1/9/2009                                                                   $6,815,000                                                                                                                                                                                                    $687,165
             Riverside, CA2                    Exercised Warrants
             Security Capital Corporation,
                                               Preferred Stock w/
6/26/2009    Batesville, MS2, 4, 7, 10, 30 -                              $17,388,000     9/29/2010       $17,388,000              — 9/29/2010          R     $522,000                                                                                                                 $1,153,111
             9/29/2010, 30a                    Exercised Warrants

             Security Federal Corporation,     Preferred Stock w/
12/19/2008                                                                $18,000,000     9/29/2010       $18,000,000              —                                               $12.00                $34.33          $19.57       137,966              ($7.57)          OUT        $1,600,000
             Aiken, SC4, 30 - 9/29/2010        Warrants
             Security State Bancshares, Inc., Preferred Stock w/
2/20/2009                                                                 $12,500,000                                                                                                                                                                                                  $1,182,725
             Charleston, MO2                  Exercised Warrants
                                               Subordinated Deben-
             Security State Bank Holding-
5/1/2009                                       tures w/ Exercised         $10,750,000                                                                                                                                                                                                  $1,414,005
             Company, Jamestown, ND8
                                               Warrants
           Severn Bancorp, Inc.,               Preferred Stock w/
11/21/2008                                                                $23,393,000                                                                                               $3.45                $34.73           $6.30       556,976              ($2.85)          OUT        $2,319,806
           Annapolis, MD                       Warrants
             Shore Bancshares, Inc.,           Preferred Stock w/
1/9/2009                                                                  $25,000,000     4/15/2009       $25,000,000              —                                               $10.54                $88.99          $21.68       172,970             ($11.14)          OUT          $333,333
             Easton, MD4                       Warrants

                                                                                                                                                                                                                                                                            Continued on next page.
CPP Transaction Detail, as of 12/31/2010                                                         (CONTINUED)


                                                                                                   Capital Repayment Details                                                   Final Disposition                                             Warrant and Market Data for Publicly Traded Companie

                                                                                               Capital            Capital      Remaining       Final                   Final      Stock Price Market Capitalization     Strike Price       Current     Amount “In the                          Interest/
Purchase                                          Investment                                Repayment          Repayment         Capital Disposition             Disposition            as of   as of 12/31/2010               as of   Outstanding   Money” or “Out of   In or Out of   Dividends Paid
Date         Institution                          Description           Investment Amount        Date             Amount         Amount        Date    Note15     Proceeds       12/31/2010            (in millions)   12/31/2010a       Warrantsa       the Money”e     the Moneye         to Treasury
                                                  Subordinated Deben-
             Signature Bancshares, Inc.,
6/26/2009                                         tures w/ Exercised          $1,700,000    12/15/2010        $1,700,000              — 12/15/2010         R       $85,000                                                                                                                   $209,588
             Dallas, TX4, 7, 8
                                                  Warrants
                                                  Preferred Stock w/
12/12/2008 Signature Bank, New York, NY4                                    $120,000,000     3/31/2009      $120,000,000              — 3/10/2010          A    $11,320,751            $50.06             $2,032.09                                                                        $1,816,667
                                                  Warrants
             Somerset Hills Bancorp,              Preferred Stock w/
1/16/2009                                                                     $7,414,000     5/20/2009        $7,414,000              — 6/24/2009          R      $275,000              $9.02                $48.91                                                                          $127,686
             Bernardsville, NJ4                   Warrants
             Sonoma Valley Bancorp,               Preferred Stock w/
2/20/2009                                                                     $8,653,000                                                                                                                                                                                                     $347,164
             Sonoma, CA2, 25                      Exercised Warrants
             Sound Banking Company,               Preferred Stock w/
1/9/2009                                                                      $3,070,000                                                                                                                                                                                                     $309,616
             Morehead City, NC2                   Exercised Warrants
             South Financial Group, Inc.,         Preferred Stock w/
12/5/2008                                                                   $347,000,000     9/30/2010      $130,179,219              — 9/30/2010          R      $400,000              $0.28                $68.50                                                                       $16,386,111
             Greenville, SC26 - 9/30/2010         Warrants
             SouthCrest Financial Group,          Preferred Stock w/
7/17/2009                                                                    $12,900,000                                                                                                                                                                                                     $933,494
             Inc., Fayetteville, GA2              Exercised Warrants
             Southern Bancorp, Inc.,
1/16/2009                                         Preferred Stock            $11,000,000      8/6/2010       $11,000,000              —                                                                                                                                                      $855,556
             Arkadelphia, AR3, 4, 30 - 8/6/2010
             Southern Community Financial Preferred Stock w/
12/5/2008                                                                    $42,750,000                                                                                                $1.11                $18.66           $3.95     1,623,418              ($2.84)          OUT        $4,156,250
             Corp., Winston-Salem, NC     Warrants
             Southern First Bancshares, Inc., Preferred Stock w/
2/27/2009                                                                    $17,299,000                                                                                                $7.46                $23.45           $7.85       330,554              ($0.39)          OUT        $1,484,831
             Greenville, SC                   Warrants
             Southern Heritage Bancshares, Preferred Stock w/
5/15/2009                                                                     $4,862,000                                                                                                                                                                                                     $397,455
             Inc., Cleveland, TN2          Exercised Warrants
             Southern Illinois Bancorp, Inc., Preferred Stock w/
1/23/2009                                                                     $5,000,000                                                                                                                                                                                                     $493,528
             Carmi, IL2                       Exercised Warrants
             Southern Missouri Bancorp,           Preferred Stock w/
12/5/2008                                                                     $9,550,000                                                                                               $17.25                $36.02          $12.53       114,326               $4.72             IN         $928,472
             Inc., Poplar Bluff, MO               Warrants
             SouthFirst Bancshares, Inc.,         Preferred Stock w/
6/12/2009                                                                     $2,760,000                                                                                                                                                                                                     $214,349
             Sylacauga, AL2                       Exercised Warrants
             Southwest Bancorp, Inc.,             Preferred Stock w/
12/5/2008                                                                    $70,000,000                                                                                               $12.40              $240.52           $14.92       703,753              ($2.52)          OUT        $6,805,556
             Stillwater, OK                       Warrants
             Sovereign Bancshares, Inc.,          Preferred Stock w/
3/13/2009                                                                    $18,215,000                                                                                                                                                                                                   $1,660,082
             Dallas, TX2                          Exercised Warrants
             Spirit BankCorp, Inc.,               Preferred Stock w/
3/27/2009                                                                    $30,000,000                                                                                                                                                                                                   $2,261,750
             Bristow, OK2                         Exercised Warrants
             St. Johns Bancshares, Inc.,          Preferred Stock w/
3/13/2009                                                                     $3,000,000                                                                                                                                                                                                     $273,408
             St. Louis, MO2                       Exercised Warrants
             Standard Bancshares, Inc.,           Preferred Stock w/
4/24/2009                                                                    $60,000,000                                                                                                                                                                                                   $5,095,750
             Hickory Hills, IL2                   Exercised Warrants
             State Bancorp, Inc.,                 Preferred Stock w/
12/5/2008                                                                    $36,842,000                                                                                                $9.25              $154.13           $11.87       465,569              ($2.62)          OUT        $3,581,861
             Jericho, NY                          Warrants
             State Bankshares, Inc.,              Preferred Stock w/
1/16/2009                                                                    $50,000,000     8/12/2009       $12,500,000    $37,500,000                                                                                                                                                    $4,201,806
             Fargo, ND2, 4                        Exercised Warrants
             State Capital Corporation,
                                                  Preferred Stock w/
2/13/2009    Greenwood, MS2, 4, 7, 30 -                                      $15,000,000     9/29/2010       $15,000,000              — 9/29/2010          R      $750,000                                                                                                                 $1,330,709
             9/29/2010, 30a                       Exercised Warrants

             State Street Corporation,            Preferred Stock w/
10/28/2008                                                                $2,000,000,000     6/17/2009    $2,000,000,000              —    7/8/2009        R    $60,000,000            $46.34           $23,263.84                                                                        $63,611,111
             Boston, MA5, 9                       Warrants
                                               Subordinated Deben-
             Stearns Financial Services, Inc.,
6/26/2009                                      tures w/ Exercised            $24,900,000                                                                                                                                                                                                   $2,895,738
             St. Cloud, MN8
                                               Warrants
                                             Subordinated Deben-
             Steele Street Bank Corporation,
9/25/2009                                    tures w/ Exercised              $11,019,000                                                                                                                                                                                                   $1,018,327
             Denver, CO8, 10
                                             Warrants
             StellarOne Corporation,              Preferred Stock w/
12/19/2008                                                                   $30,000,000                                                                                               $14.54              $333.00           $14.87       302,623                               OUT        $2,858,333
             Charlottesville, VA                  Warrants                                                                                                                                                                                                     ($0.33)
                                          Preferred Stock w/
12/23/2008 Sterling Bancorp, New York, NY                                    $42,000,000                                                                                               $10.47              $281.03           $12.19       516,817              ($1.72)          OUT        $3,978,333
                                          Warrants
           Sterling Bancshares, Inc.,             Preferred Stock w/
12/12/2008                                                                  $125,198,000      5/5/2009      $125,198,000              —    6/9/2010        A     $3,007,891             $7.02              $715.71                                                                         $2,486,571
           Houston, TX4                           Warrants
                                                                                                                                                                                                                                                                                                           Transaction detail I Appendix D I january 26, 2011




             Sterling Financial Corporation, Common Stock w/
12/5/2008                                                                   $303,000,000                                                                                               $18.97             $1,172.95          $13.20        97,541               $5.77             IN       $6,733,333
             Spokane, WA24, i                Warrants

                                                                                                                                                                                                                                                                                Continued on next page.
                                                                                                                                                                                                                                                                                                           251
CPP Transaction Detail, as of 12/31/2010                                                          (CONTINUED)                                                                                                                                                                                              252

                                                                                                    Capital Repayment Details                                                  Final Disposition                                             Warrant and Market Data for Publicly Traded Companie

                                                                                                Capital            Capital      Remaining       Final                  Final      Stock Price Market Capitalization     Strike Price       Current     Amount “In the                          Interest/
Purchase                                         Investment                                  Repayment          Repayment         Capital Disposition            Disposition            as of   as of 12/31/2010               as of   Outstanding   Money” or “Out of   In or Out of   Dividends Paid
Date         Institution                         Description             Investment Amount        Date             Amount         Amount        Date    Note15    Proceeds       12/31/2010            (in millions)   12/31/2010a       Warrantsa       the Money”e     the Moneye         to Treasury
             Stewardship Financial          Preferred Stock w/
1/30/2009                                                                     $10,000,000                                                                                               $5.77                $33.74          $11.24       133,475              ($5.47)          OUT          $895,833
             Corporation, Midland Park, NJg Warrants
             Stockmens Financial                 Preferred Stock w/
2/6/2009                                                                      $15,568,000                                                                                                                                                                                                  $1,505,946
             Corporation, Rapid City, SD2        Exercised Warrants
             Stonebridge Financial Corp.,        Preferred Stock w/
1/23/2009                                                                     $10,973,000                                                                                                                                                                                                    $634,609
             West Chester, PA2                   Exercised Warrants
                                              Subordinated Deben-
             Suburban Illinois Bancorp, Inc.,
6/19/2009                                     tures w/ Exercised              $15,000,000                                                                                                                                                                                                  $1,768,895
             Elmhurst, IL8
                                              Warrants
             Summit State Bank,                  Preferred Stock w/
12/19/2008                                                                     $8,500,000                                                                                               $6.99                $33.17           $5.33       239,212               $1.66             IN         $809,861
             Santa Rosa, CA                      Warrants
             Sun Bancorp, Inc.,                  Preferred Stock w/
1/9/2009                                                                      $89,310,000      4/8/2009       $89,310,000              — 5/27/2009          R    $2,100,000             $4.64              $233.11                                                                         $1,103,971
             Vineland, NJ4                       Warrants
             SunTrust Banks, Inc.,               Preferred Stock w/
11/14/2008                                                                 $3,500,000,000                                                                                              $29.51           $14,753.79           $44.15    11,891,280             ($14.64)          OUT
             Atlanta, GA                         Warrants
                                                                                                                                                                                                                                                                                        $497,256,944
           SunTrust Banks, Inc.,                 Preferred Stock w/
12/31/2008                                                                 $1,350,000,000                                                                                              $29.51           $14,753.79           $33.70     6,008,902              ($4.19)          OUT
           Atlanta, GA                           Warrants
             Superior Bancorp Inc.,              Trust Preferred Secu-
12/5/2008                                                                     $69,000,000                                                                                               $0.57                 $7.20           $5.38     1,923,792              ($4.81)          OUT        $4,983,333
             Birmingham, AL17                    rities w/ Warrants
             Surrey Bancorp, Mount Airy,         Preferred Stock w/
1/9/2009                                                                       $2,000,000    12/29/2010        $2,000,000              — 12/29/2010         R     $100,000                                                                                                                   $214,972
                                                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I january 26, 2011




             NC2, 4, 7                           Exercised Warrants

             Susquehanna Bancshares, Inc, Preferred Stock w/                                  4/21/2010      $200,000,000 $100,000,000
12/12/2008                                                                   $300,000,000                                                                                               $9.68             $1,256.42          $14.86     3,028,264              ($5.18)          OUT       $23,722,222
             Lititz, PA4                  Warrants
                                                                                             12/22/2010      $100,000,000              —
                                                 Preferred Stock w/
4/10/2009    SV Financial, Inc., Sterling, IL2                                 $4,000,000                                                                                                                                                                                                    $348,194
                                                 Exercised Warrants
           SVB Financial Group,                  Preferred Stock w/
12/12/2008                                                                   $235,000,000    12/23/2009      $235,000,000              — 6/16/2010          R    $6,820,000            $53.05             $2,227.73                                                                       $12,109,028
           Santa Clara, CA5                      Warrants
                                                 Subordinated Deben-
             Sword Financial Corporation,
5/8/2009                                         tures w/ Exercised           $13,644,000                                                                                                                                                                                                  $1,739,314
             Horicon, WI8
                                                 Warrants
             Synovus Financial Corp.,            Preferred Stock w/
12/19/2008                                                                   $967,870,000                                                                                               $2.64             $2,072.70           $9.36    15,510,737              ($6.72)          OUT       $92,216,503
             Columbus, GA                        Warrants
                                                 Preferred Stock w/
1/16/2009    Syringa Bancorp, Boise, ID2                                       $8,000,000                                                                                                                                                                                                    $253,122
                                                 Exercised Warrants
           Taylor Capital Group,                 Preferred Stock w/
11/21/2008                                                                   $104,823,000                                                                                              $13.15              $235.08           $10.75     1,462,647               $2.40             IN      $10,394,948
           Rosemont, IL                          Warrants
                                                 Subordinated Deben-
             TCB Corporation,
8/28/2009                                        tures w/ Exercised            $9,720,000                                                                                                                                                                                                    $957,438
             Greenwood, SC8, 10
                                                 Warrants
             TCB Holding Company, Texas
                                                 Preferred Stock w/
1/16/2009    Community Bank,                                                  $11,730,000                                                                                                                                                                                                    $690,832
                                                 Exercised Warrants
             The Woodlands, TX2
             TCF Financial Corporation,          Preferred Stock w/
11/14/2008                                                                   $361,172,000     4/22/2009      $361,172,000              — 12/15/2009         A    $9,599,964            $14.81             $2,112.56                                                                        $7,925,719
             Wayzata, MN4                        Warrants
             TCNB Financial Corp.,               Preferred Stock w/
12/23/2008                                                                     $2,000,000                                                                                                                                                                                                    $206,494
             Dayton, OH2                         Exercised Warrants
           Tennessee Commerce Bancorp, Preferred Stock w/
12/19/2008                                                                    $30,000,000                                                                                               $4.88                $59.51           $9.75       461,538              ($4.87)          OUT        $2,858,333
           Inc., Franklin, TN          Warrants
             Tennessee Valley Financial     Preferred Stock w/
12/23/2008                                                                     $3,000,000                                                                                                                                                                                                    $146,242
             Holdings, Inc., Oak Ridge, TN2 Exercised Warrants
             Texas Capital Bancshares, Inc., Preferred Stock w/
1/16/2009                                                                     $75,000,000     5/13/2009       $75,000,000              — 3/11/2010          A    $6,709,061            $21.34              $785.24                                                                         $1,218,750
             Dallas, TX4                     Warrants
             Texas National Bancorporation, Preferred Stock w/
1/9/2009                                                                       $3,981,000     5/19/2010        $3,981,000              — 5/19/2010          R     $199,000                                                                                                                   $295,308
             Jacksonville, TX2, 4, 7        Exercised Warrants
             The ANB Corporation,                Preferred Stock w/
8/7/2009                                                                      $20,000,000                                                                                                                                                                                                  $1,386,722
             Terrell, TX2                        Exercised Warrants
             The Bancorp, Inc.,                  Preferred Stock w/
12/12/2008                                                                    $45,220,000     3/10/2010       $45,220,000              —    9/8/2010        R    $4,753,985            $10.17              $266.26                                                                         $2,813,689
             Wilmington, DE5                     Warrants
             The Bank of Currituck,              Preferred Stock w/
2/6/2009                                                                       $4,021,000     12/3/2010        $1,742,850              —                                                                                                                                                     $169,834
             Moyock, NC2, 34                     Exercised Warrants

                                                                                                                                                                                                                                                                                Continued on next page.
CPP Transaction Detail, as of 12/31/2010                                                         (CONTINUED)


                                                                                                   Capital Repayment Details                                                      Final Disposition                                             Warrant and Market Data for Publicly Traded Companie

                                                                                               Capital            Capital      Remaining       Final                      Final      Stock Price Market Capitalization     Strike Price       Current     Amount “In the                          Interest/
Purchase                                         Investment                                 Repayment          Repayment         Capital Disposition                Disposition            as of   as of 12/31/2010               as of   Outstanding   Money” or “Out of   In or Out of   Dividends Paid
Date          Institution                        Description            Investment Amount        Date             Amount         Amount        Date    Note15        Proceeds       12/31/2010            (in millions)   12/31/2010a       Warrantsa       the Money”e     the Moneye         to Treasury
              The Bank of Kentucky
                                                 Preferred Stock w/
2/13/2009     Financial Corporation,                                         $34,000,000    12/22/2010       $17,000,000    $17,000,000                                                   $19.41              $139.79           $18.56       274,784               $0.85             IN       $3,071,805
                                                 Warrants
              Crestview Hills, KY4
              The Bank of New York Mellon        Preferred Stock w/
10/28/2008                                                                $3,000,000,000     6/17/2009    $3,000,000,000              —    8/5/2009        R     $136,000,000             $30.20           $37,461.71                                                                        $95,416,667
              Corporation, New York, NY4         Warrants
              The Baraboo Bancorporation,        Preferred Stock w/
1/16/2009                                                                    $20,749,000                                                                                                                                                                                                      $2,069,957
              Baraboo, WI2                       Exercised Warrants
           The Connecticut Bank and              Preferred Stock w/
12/19/2008                                                                    $5,448,000                                                                                                   $5.60                $19.98           $4.65       175,742               $0.95             IN         $340,500
           Trust Company, Hartford, CT           Warrants
              The Elmira Savings Bank, FSB, Preferred Stock w/
12/19/2008                                                                    $9,090,000                                                                                                  $18.25                $35.04          $11.70       116,538               $6.55             IN         $866,075
              Elmira, NY                    Warrants
              The First Bancorp, Inc.,           Preferred Stock w/
1/9/2009                                                                     $25,000,000                                                                                                  $15.79              $154.28           $16.60       225,904              ($0.81)          OUT        $2,312,500
              Damariscotta, ME                   Warrants
              The First Bancshares, Inc.,        Preferred Stock w/
2/6/2009                                                                      $5,000,000     9/29/2010        $5,000,000              —                                                    $8.50                $25.67          $13.71        54,705              ($5.21)          OUT          $411,806
              Hattiesburg, MS4, 30 - 9/29/2010   Warrants
              The Freeport State Bank,           Preferred Stock w/
2/6/2009                                                                        $301,000                                                                                                                                                                                                           $8,610
              Harper, KS2                        Exercised Warrants
           The Goldman Sachs Group,              Preferred Stock w/
10/28/2008                                                               $10,000,000,000     6/17/2009   $10,000,000,000              — 7/22/2009          R    $1,100,000,000           $168.16           $85,970.68                                                                      $318,055,555
           Inc., New York, NY4                   Warrants
              The Landrum Company,               Preferred Stock w/
5/22/2009                                                                    $15,000,000                                                                                                                                                                                                      $1,210,354
              Columbia, MO2                      Exercised Warrants
           The Little Bank, Incorporated,        Preferred Stock w/
12/23/2008                                                                    $7,500,000                                                                                                                                                                                                        $774,355
           Kinston, NC2                          Exercised Warrants
              The PNC Financial Services         Preferred Stock w/
12/31/2008                                                                $7,579,200,000     2/10/2010    $7,579,200,000              — 4/29/2010          A     $324,195,686             $60.72           $31,926.33                                                                      $421,066,667
              Group Inc., Pittsburgh, PA4        Warrants
              The Private Bank of California, Preferred Stock w/
2/20/2009                                                                     $5,450,000                                                                                                                                                                                                        $515,747
              Los Angeles, CA2                Exercised Warrants
              The Queensborough Company, Preferred Stock w/
1/9/2009                                                                     $12,000,000                                                                                                                                                                                                        $882,900
              Louisville, GA2            Exercised Warrants
                                                 Subordinated Deben-
              The State Bank of Bartley,
9/4/2009                                         tures w/ Exercised           $1,697,000                                                                                                                                                                                                        $164,866
              Bartley, NE8, 10
                                                 Warrants
           The Victory Bancorp, Inc.,            Preferred Stock w/
12/11/2009                                                                    $1,505,000
           Limerick, PA2, 10a                    Exercised Warrants
              The Victory Bancorp, Inc.                                                                                                                                                                                                                                                         $123,262
                                                 Preferred Stock w/
2/27/2009     (The Victory Bank),                                               $541,000
                                                 Exercised Warrants
              Limerick, PA2, 13 - 12/4/2009
              Three Shores Bancorporation,
                                                   Preferred Stock w/
1/23/2009     Inc. (Seaside National Bank &                                   $5,677,000                                                                                                                                                                                                        $560,376
                                                   Exercised Warrants
              Trust), Orlando, FL2, 13 - 12/4/2009
              TIB Financial Corp,                Preferred Stock w/
12/5/2008                                                                    $37,000,000     9/30/2010       $12,119,637              — 9/30/2010          R          $40,000             $20.74              $245.06                                                                         $1,284,722
              Naples, FL32 - 9/30/2010           Warrants
           Tidelands Bancshares, Inc,            Preferred Stock w/
12/19/2008                                                                   $14,448,000                                                                                                   $1.04                 $4.45           $3.79       571,821              ($2.75)          OUT        $1,195,973
           Mt. Pleasant, SC                      Warrants
              Tifton Banking Company,            Preferred Stock w/
4/17/2009                                                                     $3,800,000                                                                                                                                                                                                        $223,208
              Tifton, GA2, 25a                   Exercised Warrants
              Timberland Bancorp, Inc.,          Preferred Stock w/
12/23/2008                                                                   $16,641,000                                                                                                   $3.61                $25.43           $6.73       370,899              ($3.12)          OUT          $952,236
              Hoquiam, WA                        Warrants
              Titonka Bancshares, Inc,           Preferred Stock w/
4/3/2009                                                                      $2,117,000                                                                                                                                                                                                        $186,547
              Titonka, IA2                       Exercised Warrants
              Todd Bancshares, Inc.,             Preferred Stock w/
2/6/2009                                                                      $4,000,000                                                                                                                                                                                                        $386,950
              Hopkinsville, KY2                  Exercised Warrants
                                                 Preferred Stock w/
12/12/2008 TowneBank, Portsmouth, VA                                         $76,458,000                                                                                                  $15.89              $444.33           $21.31       538,184              ($5.42)          OUT        $7,359,083
                                                 Warrants
              Treaty Oak Bancorp, Inc.,          Preferred Stock w/
1/16/2009                                                                     $3,268,000                                                                                                                                                                                                        $192,415
              Austin, TX2                        Exercised Warrants
              Triad Bancorp, Inc.,               Preferred Stock w/
3/27/2009                                                                     $3,700,000                                                                                                                                                                                                        $329,362
              Frontenac, MO2                     Exercised Warrants
           Tri-County Financial Corporation, Preferred Stock w/
12/19/2008                                                                   $15,540,000                                                                                                                                                                                                      $1,613,873
           Waldorf, MD2                      Exercised Warrants
              Trinity Capital Corporation,       Preferred Stock w/
3/27/2009                                                                    $35,539,000                                                                                                                                                                                                      $2,195,131
                                                                                                                                                                                                                                                                                                              Transaction detail I Appendix D I january 26, 2011




              Los Alamos, NM2                    Exercised Warrants

                                                                                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                                                                                              253
 CPP Transaction Detail, as of 12/31/2010                                                          (CONTINUED)                                                                                                                                                                                                254

                                                                                                     Capital Repayment Details                                                    Final Disposition                                             Warrant and Market Data for Publicly Traded Companie

                                                                                                 Capital            Capital      Remaining       Final                    Final      Stock Price Market Capitalization     Strike Price       Current     Amount “In the                          Interest/
Purchase                                            Investment                                Repayment          Repayment         Capital Disposition              Disposition            as of   as of 12/31/2010               as of   Outstanding   Money” or “Out of   In or Out of   Dividends Paid
Date           Institution                          Description           Investment Amount        Date             Amount         Amount        Date    Note15      Proceeds       12/31/2010            (in millions)   12/31/2010a       Warrantsa       the Money”e     the Moneye         to Treasury
               Tri-State Bank of Memphis,
4/3/2009                                            Preferred Stock             $2,795,000     8/13/2010        $2,795,000               —                                                                                                                                                      $190,215
               Memphis, TN2, 3, 4, 30 - 8/13/2010
               TriState Capital Holdings,           Preferred Stock w/
2/27/2009                                                                      $23,000,000                                                                                                                                                                                                    $2,156,018
               Inc., Pittsburgh, PA2                Exercised Warrants
               TriSummit Bank,                      Preferred Stock w/
4/3/2009                                                                        $2,765,000
               Kingsport, TN2                       Exercised Warrants
                                                                                                                                                                                                                                                                                                $433,660
               TriSummit Bank,
12/22/2009                                          Preferred Stock             $4,237,000
               Kingsport, TN2, 10a
               Trustmark Corporation,               Preferred Stock w/
11/21/2008                                                                    $215,000,000     12/9/2009      $215,000,000               — 12/30/2009        R     $10,000,000            $24.84             $1,586.95                                                                       $11,287,500
               Jackson, MS4                         Warrants
               Two Rivers Financial Group,          Preferred Stock w/
5/29/2009                                                                      $12,000,000                                                                                                                                                                                                      $955,567
               Burlington, IA2                      Exercised Warrants
           U.S. Bancorp,                            Preferred Stock w/
11/14/2008                                                                  $6,599,000,000     6/17/2009    $6,599,000,000               — 7/15/2009         R    $139,000,000            $26.97           $51,736.74                                                                      $195,220,417
           Minneapolis, MN4                         Warrants
                                                    Preferred Stock w/
8/7/2009       U.S. Century Bank, Miami, FL2                                   $50,236,000                                                                                                                                                                                                      $745,312
                                                    Exercised Warrants
               UBT Bancshares, Inc.,                Preferred Stock w/
1/30/2009                                                                       $8,950,000                                                                                                                                                                                                      $874,334
               Marysville, KS2                      Exercised Warrants
           UCBH Holdings, Inc.,                     Preferred Stock w/
11/14/2008                                                                    $298,737,000                                                                                                     —                 $0.46           $5.71     7,847,732              ($5.71)          OUT        $7,509,920
           San Francisco, CA14                      Warrants
                                                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I january 26, 2011




               Umpqua Holdings Corp.,               Preferred Stock w/
11/14/2008                                                                    $214,181,000     2/17/2010      $214,181,000               — 3/31/2010         R      $4,500,000            $12.18             $1,395.01                                                                       $13,475,555
               Portland, OR5, 9                     Warrants
               Union Bank & Trust Company,          Preferred Stock w/
5/1/2009                                                                        $3,194,000
               Oxford, NC2                          Exercised Warrants
                                                                                                                                                                                                                                                                                                $404,034
           Union Bank & Trust Company,
12/18/2009                                          Preferred Stock             $2,997,000
           Oxford, NC2, 10a
               Union Financial Corporation,         Preferred Stock w/
12/29/2009                                                                      $2,179,000                                                                                                                                                                                                      $100,769
               Albuquerque, NM2, 10                 Exercised Warrants
               Union First Market Bankshares
2/6/2009       Corporation (First Market Bank, Preferred Stock                 $33,900,000                                                                                                                                                                                                    $1,821,889
               FSB), Bowling Green, VA5, 9, 18
               Union First Market Bankshares
               Corporation (Union Bankshares Preferred Stock w/
12/19/2008                                                                     $59,000,000    11/18/2009       $59,000,000               — 12/23/2009        R       $450,000             $14.78              $383.61                                                                         $4,153,485
               Corporation), Bowling Green, Warrants
               VA5, 9, 18
               United American Bank,                Preferred Stock w/
2/20/2009                                                                       $8,700,000                                                                                                                                                                                                              —
               San Mateo, CA2                       Exercised Warrants
               United Bancorp, Inc.,                Preferred Stock w/
1/16/2009                                                                      $20,600,000                                                                                                 $8.71                $41.59           $9.92       311,492              ($1.21)          OUT        $1,885,472
               Tecumseh, MI                         Warrants
           United Bancorporation of
                                                    Preferred Stock w/
12/23/2008 Alabama, Inc.,                                                      $10,300,000      9/3/2010       $10,300,000               —                                                                      $11.40          $14.41       107,193             ($14.41)          OUT          $872,639
                                                    Warrants
           Atmore, AL4, 30 - 9/3/2010, g
                                                    Subordinated Deben-
               United Bank Corporation,
5/22/2009                                           tures w/ Exercised         $14,400,000                                                                                                                                                                                                    $1,788,751
               Barnesville, GA8
                                                    Warrants
               United Community Banks, Inc., Preferred Stock w/
12/5/2008                                                                     $180,000,000                                                                                                 $1.95              $184.27           $12.28     1,099,542             ($10.33)          OUT       $17,500,000
               Blairsville, GAf              Warrants
               United Financial Banking        Preferred Stock w/
1/16/2009                                                                       $5,658,000    12/15/2010        $3,000,000       $2,658,000                                                                                                                                                     $576,989
               Companies, Inc., Vienna, VA2, 4 Exercised Warrants
                                                Preferred Stock w/
12/5/2008      Unity Bancorp, Inc., Clinton, NJ                                $20,649,000                                                                                                 $6.05                $43.60           $4.05       764,778               $2.00             IN       $2,007,542
                                                Warrants
               Universal Bancorp,                   Preferred Stock w/
5/22/2009                                                                       $9,900,000                                                                                                                                                                                                      $798,834
               Bloomfield, IN2                      Exercised Warrants
               University Financial Corp, Inc., Subordinated
6/19/2009                                                                      $11,926,000     7/30/2010       $11,926,000               —                                                                                                                                                    $1,022,886
               St. Paul, MN3, 4, 8, 30 - 7/30/2010 Debentures
               US Metro Bank, Garden                Preferred Stock w/
2/6/2009                                                                        $2,861,000                                                                                                                                                                                                      $276,758
               Grove, CA2                           Exercised Warrants
               Uwharrie Capital Corp,               Preferred Stock w/
12/23/2008                                                                     $10,000,000                                                                                                                                                                                                    $1,032,472
               Albemarle, NC2                       Exercised Warrants
               Valley Commerce Bancorp,             Preferred Stock w/
1/30/2009                                                                       $7,700,000                                                                                                                                                                                                      $751,873
               Visalia, CA2                         Exercised Warrants
               Valley Community Bank,               Preferred Stock w/
1/9/2009                                                                        $5,500,000                                                                                                                                                                                                      $554,538
               Pleasanton, CA2                      Exercised Warrants

                                                                                                                                                                                                                                                                                   Continued on next page.
CPP Transaction Detail, as of 12/31/2010                                                     (CONTINUED)


                                                                                               Capital Repayment Details                                                    Final Disposition                                             Warrant and Market Data for Publicly Traded Companie

                                                                                           Capital            Capital      Remaining       Final                    Final      Stock Price Market Capitalization     Strike Price       Current     Amount “In the                           Interest/
Purchase                                      Investment                                Repayment          Repayment         Capital Disposition              Disposition            as of   as of 12/31/2010               as of   Outstanding   Money” or “Out of   In or Out of    Dividends Paid
Date          Institution                     Description           Investment Amount        Date             Amount         Amount        Date    Note15      Proceeds       12/31/2010            (in millions)   12/31/2010a       Warrantsa       the Money”e     the Moneye          to Treasury
              Valley Financial Corporation,   Preferred Stock w/
12/12/2008                                                               $16,019,000                                                                                                 $3.02                $14.13           $6.97       344,742              ($3.95)          OUT           $941,117
              Roanoke, VA                     Warrants
           Valley Financial Group, Ltd., 1st Preferred Stock w/
12/18/2009                                                                $1,300,000                                                                                                                                                                                                        $64,355
           State Bank, Saginaw, MI2          Exercised Warrants

                                                                                          6/3/2009       $75,000,000 $225,000,000

           Valley National Bancorp,           Preferred Stock w/
11/14/2008                                                              $300,000,000     9/23/2009      $125,000,000 $100,000,000 5/18/2010            A      $5,571,592            $14.30             $2,306.39                                                                       $12,979,167
           Wayne, NJ4                         Warrants

                                                                                        12/23/2009      $100,000,000              —

              Village Bank and Trust Financial Preferred Stock w/
5/1/2009                                                                 $14,738,000                                                                                                 $1.49                 $6.31           $4.43       499,029              ($2.94)          OUT         $1,134,007
              Corp, Midlothian, VA             Warrants
              Virginia Commerce Bancorp,      Preferred Stock w/
12/12/2008                                                               $71,000,000                                                                                                 $6.18              $178.56            $3.95     2,696,203               $2.23             IN        $6,833,750
              Arlington, VA                   Warrants
              Virginia Company Bank,          Preferred Stock w/
6/12/2009                                                                 $4,700,000                                                                                                                                                                                                       $353,215
              Newport News, VA2, 10           Exercised Warrants
              Vision Bank - Texas,            Preferred Stock w/
4/24/2009                                                                 $1,500,000                                                                                                                                                                                                       $127,394
              Richardson, TX2                 Exercised Warrants
           VIST Financial Corp.,              Preferred Stock w/
12/19/2008                                                               $25,000,000                                                                                                 $7.16                $46.68          $10.19       367,984              ($3.03)          OUT         $2,381,944
           Wyomissing, PAh                    Warrants
              W.T.B. Financial Corporation,   Preferred Stock w/
1/30/2009                                                               $110,000,000                                                                                                                                                                                                   $10,741,041
              Spokane, WA2                    Exercised Warrants
              Wachusett Financial Services,   Preferred Stock w/
12/11/2009                                                               $12,000,000                                                                                                                                                                                                       $596,580
              Inc., Clinton, MA2, 10          Exercised Warrants
           Wainwright Bank & Trust            Preferred Stock w/
12/19/2008                                                               $22,000,000    11/24/2009       $22,000,000              — 12/16/2009         R       $568,700             $18.97              $139.50                                                                          $1,023,611
           Company, Boston, MA4               Warrants
              Washington Banking Company, Preferred Stock w/
1/16/2009                                                                $26,380,000                                                                                                $13.71              $209.98            $8.04       246,082               $5.67             IN        $2,414,503
              Oak Harbor, WAb             Warrants
           Washington Federal, Inc.,          Preferred Stock w/
11/14/2008                                                              $200,000,000     5/27/2009      $200,000,000              —    3/9/2010        A     $15,623,222            $16.92             $1,903.55                                                                         $5,361,111
           Seattle, WA4                       Warrants
              WashingtonFirst Bankshares,
10/30/2009                                    Preferred Stock             $6,842,000
              Inc., Reston, VA2, 10a
              WashingtonFirst Bankshares,                                                                                                                                                                                                                                                $1,004,095
                                              Preferred Stock w/
1/30/2009     Inc.(WashingtonFirst Bank),                                 $6,633,000
                                              Exercised Warrants
              Reston, VA2, 13 - 10/30/2009
              Waukesha Bankshares, Inc.,      Preferred Stock w/
6/26/2009                                                                 $5,625,000                                                                                                                                                                                                       $410,926
              Waukesha, WI2, 10               Exercised Warrants
                                                                                          3/3/2010      $100,000,000 $300,000,000
              Webster Financial Corporation, Preferred Stock w/
11/21/2008                                                              $400,000,000    10/13/2010      $100,000,000 $200,000,000                                                   $19.70             $1,718.37          $18.28     3,282,276               $1.42             IN      $36,944,444
              Waterbury, CT4                 Warrants
                                                                                        12/29/2010      $200,000,000              —
              Wells Fargo & Company,          Preferred Stock w/
10/28/2008                                                           $25,000,000,000    12/23/2009   $25,000,000,000              — 5/20/2010          A    $849,014,998            $30.99          $162,658.95                                                                      $1,440,972,222
              San Francisco, CA4              Warrants
                                              Preferred Stock w/
12/5/2008     WesBanco, Inc., Wheeling, WV4                              $75,000,000      9/9/2009       $75,000,000              — 12/23/2009         R       $950,000             $18.96              $504.09                                                                          $2,854,167
                                              Warrants
           West Bancorporation, Inc.,         Preferred Stock w/
12/31/2008                                                               $36,000,000                                                                                                 $7.79              $135.58           $11.39       474,100              ($3.60)          OUT         $3,375,000
           West Des Moines, IA                Warrants
              Westamerica Bancorporation,     Preferred Stock w/
2/13/2009                                                                                 9/2/2009       $41,863,000    $41,863,000
              San Rafael, CA4                 Warrants
                                                                         $83,726,000                                                                                                $55.47             $1,614.81          $50.92       246,640               $4.55             IN        $2,755,981
              Westamerica Bancorporation,     Preferred Stock w/
2/13/2009                                                                               11/18/2009       $41,863,000              —
              San Rafael, CA4                 Warrants
              Western Alliance               Preferred Stock w/
11/21/2008                                                              $140,000,000                                                                                                 $7.36              $599.95           $13.34       787,107              ($5.98)          OUT       $13,883,333
              Bancorporation, Las Vegas, NVb Warrants
           Western Community
                                              Preferred Stock w/
12/23/2008 Bancshares, Inc.,                                              $7,290,000                                                                                                                                                                                                       $554,083
                                              Exercised Warrants
           Palm Desert, CA2
              Western Illinois Bancshares     Preferred Stock w/
12/23/2008                                                                $6,855,000
              Inc., Monmouth, IL2             Exercised Warrants
                                                                                                                                                                                                                                                                                           $908,244
              Western Illinois Bancshares
12/29/2009                                    Preferred Stock             $4,567,000
              Inc., Monmouth, IL2, 10a
                                                                                                                                                                                                                                                                                                         Transaction detail I Appendix D I january 26, 2011




              Western Reserve Bancorp, Inc, Preferred Stock w/
5/15/2009                                                                 $4,700,000                                                                                                                                                                                                       $384,225
              Medina, OH2                   Exercised Warrants
              White River Bancshares          Preferred Stock w/
2/20/2009                                                                $16,800,000                                                                                                                                                                                                     $1,589,583
              Company, Fayetteville, AR2      Exercised Warrants

                                                                                                                                                                                                                                                                             Continued on next page.
                                                                                                                                                                                                                                                                                                         255
 CPP Transaction Detail, as of 12/31/2010                                                            (CONTINUED)                                                                                                                                                                                                                            256

                                                                                                        Capital Repayment Details                                                                Final Disposition                                                         Warrant and Market Data for Publicly Traded Companie

                                                                                                 Capital                 Capital       Remaining       Final                             Final       Stock Price Market Capitalization          Strike Price           Current        Amount “In the                            Interest/
Purchase                                         Investment                                   Repayment               Repayment          Capital Disposition                       Disposition             as of   as of 12/31/2010                    as of       Outstanding      Money” or “Out of    In or Out of    Dividends Paid
Date           Institution                       Description             Investment Amount         Date                  Amount          Amount        Date         Note15          Proceeds        12/31/2010            (in millions)        12/31/2010a           Warrantsa          the Money”e      the Moneye          to Treasury
               Whitney Holding Corporation,      Preferred Stock w/
12/19/2008                                                                   $300,000,000                                                                                                                 $14.15               $1,367.48              $17.10         2,631,579                 ($2.95)           OUT       $28,583,333
               New Orleans, LA                   Warrants
           Wilmington Trust Corporation,         Preferred Stock w/
12/12/2008                                                                   $330,000,000                                                                                                                   $4.34                $397.04              $26.66         1,856,714                ($22.32)           OUT       $31,762,500
           Wilmington, DE                        Warrants
           Wilshire Bancorp, Inc.,               Preferred Stock w/
12/12/2008                                                                    $62,158,000                                                                                                                   $7.62                $224.69               $9.82           949,460                 ($2.20)           OUT        $5,982,708
           Los Angeles, CA                       Warrants
               Wintrust Financial Corporation, Preferred Stock w/
12/19/2008                                                                   $250,000,000    12/22/2010            $250,000,000                 —                                                         $33.03               $1,135.11              $22.82         1,643,295                 $10.21              IN      $25,104,167
               Lake Forest, IL4                Warrants
               Worthington Financial Holdings, Preferred Stock w/
5/15/2009                                                                      $2,720,000                                                                                                                                                                                                                                     $222,360
               Inc., Huntsville, AL2           Exercised Warrants
               WSFS Financial Corporation,       Preferred Stock w/
1/23/2009                                                                     $52,625,000                                                                                                                 $47.44                 $403.10              $45.08           175,105                  $2.36              IN       $4,765,487
               Wilmington, DE                    Warrants
               Yadkin Valley Financial           Preferred Stock w/
1/16/2009                                                                     $36,000,000                                                                                                                   $1.81                  $29.22             $13.99           385,990                ($12.18)           OUT
               Corporation, Elkin, NC            Warrants
                                                                                                                                                                                                                                                                                                                            $4,165,827
               Yadkin Valley Financial           Preferred Stock w/
7/24/2009                                                                     $13,312,000                                                                                                                   $1.81                  $29.22              $7.30           273,534                 ($5.49)           OUT
               Corporation, Elkin, NC            Warrants
                                                 Preferred Stock w/
4/24/2009      York Traditions Bank, York, PA2                                 $4,871,000                                                                                                                                                                                                                                     $413,753
                                                 Exercised Warrants
               Zions Bancorporation,             Preferred Stock w/
11/14/2008                                                                 $1,400,000,000                                                                                                                 $24.23               $4,311.92              $36.27         5,789,909                ($12.04)           OUT     $140,194,444
               Salt Lake City, UT                Warrants
                                                                                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I january 26, 2011




                                                                                             Total Capital
                                          Total Purchase Amount*$204,940,341,320              Repayment $167,925,885,706
                                                                                               Amount**

                                                                                        Total Losses***       ($2,578,099,294)

                                                                                                                                                                  Total
                                                                      TOTAL TREASURY CPP INVESTMENT
                                                                                                              $34,436,356,320                                   Warrant $6,905,541,725
                                                                                AMOUNT OUTSTANDING
                                                                                                                                                          Proceeds****


Notes: Numbers may not total due to rounding. Data as of 12/31/2010. Numeric notes were taken verbatim from Treasury’s 1/4/2011 Transactions Report. All amounts and totals reflect cumulative amounts since inception through 12/31/2010.

*Total purchase amount includes the capitalization of accrued dividends referred to in Notes 20, 22, 28 and 29.
**Total repaid includes (i) the amount of $25 billion applied as repayment under the Capital Purchase Program from the total proceeds of $31.85 billion received pursuant to the sales of Citigroup, Inc. common stock as of December 6, 2010 (see Note 23 and “Capital Purchase Program - Citigroup Common Stock Disposition”
on following pages) and (ii) the amount of $363,290,000 repaid by institutions that have completed exchanges for investments under the Community Development Capital Initiative (see Note 30 and “Community Development Capital Initiative” on following pages).
***Losses include (i) the investment amount for institutions that have completed bankruptcy proceedings (see Notes 16 and 19) and (ii) the investment amount less the amount of final proceeds for institutions where Treasury has completed a sale (see Notes 26 and 32), but excludes investment amounts for institutions that
have pending receivership or bankruptcy proceedings (see Notes 14 and 25).
****Total warrant proceeds includes $7,566,000, which represents the total amount of warrants that were included in nine institutions’ exchange into the CDCI program (see Note 30a).

1a
   This transaction was included in previous Transaction Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on 1/1/2009, and this
transaction under the CPP was funded on 1/9/2009.
1b
   The warrant disposition proceeds amount are stated pro rata in respect of the CPP investments in Bank of America Corporation that occurred on 10/28/2008 and 1/9/2009. The total gross disposition proceeds from CPP warrants on 3/3/2010 was $310,571,615, consisting of $186,342,969 and $124,228,646.
Proceeds from the disposition of TIP warrants on 3/3/2010 appear on a following page of this report.
2
  Privately-held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock (unless the institution is a CDFI), which it exercised immediately.
3
  To promote community development financial institutions (CDFIs), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.
3a
   Treasury cancelled the warrants received from this institution due to its designation as a CDFI.
4
  Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.
5
  Redemption pursuant to a qualified equity offering.
6
  This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.
7
  The proceeds associated with the disposition of this investment do not include accrued and unpaid dividends.
8
  Subchapter S corporation; Treasury received a warrant to purchase additional subordinated debentures (unless the institution is a CDFI), which it exercised immediately.
9
  In its qualified equity offering, this institution raised more capital than Treasury’s original investment, therefore, the number of Treasury’s shares underlying the warrant was reduced by half.
10
   This institution participated in the expansion of CPP for small banks.
10a
    This institution received an additional investment through the expansion of CPP for small banks.
11
   Treasury made three separate investments in Citigroup Inc. (Citigroup) under the CPP, Targeted Investment Program (TIP), and Asset Guarantee Program (AGP) for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange up to $25 billion of Treasury’s investment in Fixed Rate
Cumulative Perpetual Preferred Stock, Series H (CPP Shares) “dollar for dollar” in Citigroup’s Private and Public Exchange Offerings. On 7/23/2009 and 7/30/2009, Treasury exchanged a total of $25 billion of the CPP shares for Series M Common Stock Equivalent (“Series M”) and a warrant to purchase shares of Series M. On
9/11/2009, Series M automatically converted to 7,692,307,692 shares of common stock and the associated warrant terminated on receipt of certain shareholder approvals.
12
   On 8/24/2009, Treasury exchanged its Series C Preferred Stock issued by Popular, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Popular Capital Trust III, administrative trustee for Popular, Inc. Popular, Inc. paid a $13 million exchange fee in connection with this transaction.
13
   This institution converted to a bank holding company structure and Treasury exchanged its securities for a like amount of securities that comply with the CPP terms applicable to bank holding companies. The institution in which Treasury’s original investment was made is shown in parentheses.
14
   As of the date of this report, this institution is in bankruptcy proceedings.
15
   For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, before underwriting fees and selling expenses, from a sale by Treasury in a registered public offering of the warrants issued by the financial institution.
16
   On 12/10/2009, the bankruptcy reorganization plan of CIT Group Inc. became effective and Treasury’s preferred stock and warrant investment were extinguished and replaced by Contingent Value Rights (CVRs). On 2/8/2010, the CVRs expired without value as the terms and conditions for distribution of common shares to
holders of CVRs were not met.
17
   On 12/11/2009, Treasury exchanged its Series A Preferred Stock issued by Superior Bancorp, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Superior Capital Trust II, administrative trustee for Superior Bancorp.
18
   On 2/1/2010, following the acquisition of First Market Bank (First Market) by Union Bankshares Corporation (the acquiror), the preferred stock and exercised warrants issued by First Market on 2/6/2009 were exchanged for a like amount of securities of the acquiror in a single series but with a blended dividend rate equiva-
lent to those of Treasury’s original investment.
19
   On 2/11/2010, Pacific Coast National Bancorp dismissed its bankruptcy proceedings with no recovery to any creditors or investors, including Treasury, and the investment was extinguished.
20
   On 3/8/2010, Treasury exchanged its $84,784,000 of Preferred Stock in Midwest Banc Holdings, Inc. (MBHI) for $89,388,000 of Mandatory Convertible Preferred Stock (MCP), which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid dividends.
Subject to the fulfillment by MBHI of the conditions related to its capital plan, the MCP may be converted to common stock.
21
   On 3/30/2010, Treasury exchanged its $7,500,000 of Subordinated Debentures in GulfSouth Private Bank for an equivalent amount of Preferred Stock, in connection with its conversion from a Subchapter S-Corporation, that comply with the CPP terms applicable to privately held qualified financial institutions.
22
   On 4/16/2010, Treasury exchanged its $72,000,000 of Preferred Stock in Independent Bank Corporation (Independent) for $74,426,000 of Mandatory Convertible Preferred Stock (MCP), which is equivalent to the initial investment amount of $72,000,000, plus $2,426,000 of capitalized previously accrued and unpaid
dividends. Subject to the fulfillment by Independent of the conditions related to its capital plan, the MCP may be converted to common stock.
23
   Treasury received Citigroup common stock pursuant to the June 2009 Exchange Agreement between Treasury and Citigroup which provided for the exchange into common shares of the preferred stock that Treasury purchased in connection with Citigroup’s participation in the Capital Purchase Program (see note 11). On April
26, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on June 30, 2010 (or on completion of the sale). Completion of the sale
under this authority occurred on May 26, 2010. On May 26, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on June 30, 2010 (or on completion of the sale).
Completion of the sale under this authority occurred on June 30, 2010. On July 23, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on September 30, 2010
(or on completion of the sale). Completion of the sale under this authority occurred on September 30, 2010. On October 19, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain parameters up to 1,500,000,000 shares of common stock
from time to time during the period ending on December 31, 2010 (or upon completion of the sale), which plan was terminated on December 6, 2010. All such sales were generally made at the market price. On December 6, 2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares.
See “Capital Purchase Program - Citigroup, Inc., Common Stock Disposition” on following page for the actual number of shares sold by Morgan Stanley, the weighted average price per share and the total proceeds to Treasury from all such sales during those periods.
24
   On 8/26/2010, Treasury completed the exchange of its $303,000,000 of Preferred Stock in Sterling Financial Corporation (Sterling) for a like amount of Mandatorily Convertible Preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Sterling entered into on 4/29/2010. Since Sterling
also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, including those related to its capital plan, Treasury’s $303,000,000 of MCP was subsequently converted into 378,750,000 shares of common stock.
25
   As of the date of this report, the banking subsidiary of this institution has been placed in receivership and the subsidiary’s assets and liabilities were ordered to be sold to another bank.
25a
    As of the date of this report, this institution has been placed in receivership and the assets and liabilities were ordered to be sold to another bank.
26
   On 9/30/2010, Treasury completed the sale of all Preferred Stock and Warrants issued by South Financial Group, Inc. to Toronto-Dominion Bank (TD) at an aggregate purchase price of $130,179,218.75 for the Preferred Stock and $400,000 for the Warrants, pursuant to the terms of the agreement between Treasury and TD
entered into on 5/18/2010.
27
   On 6/30/2010, Treasury exchanged $46,400,000 of its Series A Preferred Stock in First Merchants Corporation for a like amount of non tax-deductible Trust Preferred Securities issued by First Merchants Capital Trust III.
28
   On 7/20/2010, Treasury completed the exchange of its $400,000,000 of Preferred Stock in First BanCorp for $424,174,000 of Mandatorily Convertible Preferred Stock (MCP), which is equivalent to the initial investment amount of $400,000,000, plus $24,174,000 of capitalized previously accrued and unpaid dividends.
Subject to the fulfillment by First BanCorp of certain conditions, including those related to its capital plan, the MCP may be converted to common stock. First BanCorp has agreed to have Treasury observers attend board of directors meetings.
29
   On 8/31/2010, following the completion of the conditions related to Pacific Capital Bancorp’s (Pacific Capital) capital plan, Treasury exchanged its $180,634,000 of Preferred Stock in Pacific Capital for $195,045,000 of Mandatorily Convertible Preferred Stock (MCP), which is equivalent to the initial investment amount of
$180,634,000, plus $14,411,000 of capitalized previously accrued and unpaid dividends. On 9/27/2010, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 360,833,250 shares of common stock of Pacific Capital. Pacific
Capital has agreed to have Treasury observers attend board of directors meetings.
30
   This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has completed an exchange of its Capital Purchase Program investment for an investment under the terms of the CDCI program. See “Community Development Capital Initiative” below.
30a
    At the time of this institution’s exchange into the CDCI program, the warrant preferreds were included in the total amount of preferred stock exchanged for Treasury’s CDCI investment. Therefore this disposition amount does not represent cash proceeds to Treasury.
31
   On 9/30/2010, Treasury completed the exchange of its $ 80,347,000 of Preferred Stock in Hampton Roads Bankshares, Inc. (Hampton) for a like amount of Mandatorily Convertible Preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Hampton entered into on 8/12/2010. Since
Hampton also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, Treasury’s $80,347,000 of MCP was subsequently converted into 52,225,550 shares of common stock.
32
   On 9/30/2010, Treasury completed the sale of all Preferred Stock and Warrants issued by TIB Financial Corp. to North American Financial Holdings, Inc. (NAFH) at an aggregate purchase price of $12,119,637.37 for the Preferred Stock and $40,000 for the Warrants, pursuant to the terms of the agreement between
Treasury and NAFH entered into on 9/24/2010.
33
   Treasury entered into an agreement as of 10/29/2010 with Community Bancorp LLC for the sale of all Preferred Stock and Warrants issued by Cadence Financial Corporation to Treasury for an aggregate purchase price of (i) $38 million plus (ii) accrued and unpaid dividends through the date of the agreement. Completion of
the sale is subject to the fulfillment of certain closing conditions.
34
   On 12/3/2010, Treasury completed the sale of all Preferred Stock (including the Preferred Stock received upon the exercise of warrants) issued by The Bank of Currituck (“Currituck”) to Treasury for an aggregate purchase price of $1,742,850, pursuant to the terms of the agreement between Treasury and Currituck entered
into on 11/5/2010.
a
  According to Treasury, “if a Share Dividend is declared on a common stock of a bank in which Treasury holds outstanding warrants, Treasury is entitled to additional warrants. The ‘Update’ netted is the amount of new warrant shares that have been received as a result of the corporate action.” Thus, the strike price presented
reflects these adjustments provided by Treasury. It appears that Treasury also adjusts the number of shares based on corporate actions as well. Those adjustments are also presented in the current number of outstanding warrants. Amounts are presented as of 10/3/2010.
b
  According to Treasury, these institutions executed Qualified Equity Offerings which “reduce the number of outstanding warrants held by Treasury.”
c
  Treasury made more than one investment in these institutions. For purposes of this table, income (dividends and interest), is presented on a combined basis because it could not be split between the two transactions based on the data provided by Treasury.
d
  According to Treasury, M&T acquired Provident, therefore “warrant details changed as per the conversion ratio.” The previous investment in Provident now reflects M&T market data above.
e
  When a warrant’s underlying current stock price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”
f
  According to Treasury, these institutions’ warrants were modified via Qualified Equity Offerings and Stock Dividend.
g
  According to Treasury, these institutions’ warrants were increased via Stock Dividend.
h
  According to Treasury, these institutions’ warrants were increased via Stock Issuance.
i
  According to Treasury, these institutions converted their warrants from Preferred to Mandatorily Convertible Preferred.
j
  According to Treasury, these institutions executed a 1 to 10 reverse stock split.
k
  According to Treasury, these institutions’ warrants increased via cash dividend.

Sources: Treasury, Transactions Report, 1/4/2011; Treasury, response to SIGTARP data call, 1/11/2011; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 1/6/2011.
                                                                                                                                                                                                                                                                                                                                          Transaction detail I Appendix D I january 26, 2011
                                                                                                                                                                                                                                                                                                                                          257
                                                                                                                                                                                                                                                                258
Table D.2

CPP — Citigroup, Inc. Common Stock Disposition, as of 12/31/2010
Note    Date                                          Pricing Mechanism6                     Number of Shares                                       Proceeds7
1       4/26/2010 – 5/26/2010                                      $4.1217                         1,500,000,000                              $6,182,493,158
2       5/26/2010 – 6/30/2010                                      $3.8980                         1,108,971,857                              $4,322,726,825
3       7/23/2010 – 9/30/2010                                      $3.9090                         1,500,000,000                              $5,863,489,587
4       10/19/2010 – 12/6/2010                                     $4.2609                         1,165,928,228                              $4,967,921,811
5       12/6/2010                                                  $4.3500                         2,417,407,607                            $10,515,723,090
                                                                                               Total Proceeds                              $31,852,354,471

Notes: Numbers may not total due to rounding. Data as of 12/31/2010. Numbered notes were taken verbatim from Treasury’s 1/4/2011 Transactions Report.

1
  On 4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain param-
  eters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale). Completion
  of the sale under this authority occurred on 5/26/2010.
2
  On 5/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell up to 1,500,000,000
  shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale). Completion of the sale under this author-
  ity occurred on 6/30/2010.
3
  On 7/23/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain param-
  eters up to 1,500,000,000 shares of common stock from time to time during the period ending on 9/30/2010 (or upon completion of the sale). Completion
  of the sale under this authority occurred on 9/30/2010.
4
  On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
  parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on December 31, 2010 (or upon completion of the
  sale), which plan was terminated on December 6, 2010.
5
  On 12/6/2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares. Closing of the offering is subject to the fulfill-
  ment of certain closing conditions.
6
  The price set forth is the weighted average price for all sales of Citigroup, Inc. common stock made by Treasury over the course of the corresponding period.
7
  Amount represents the gross proceeds to Treasury.
                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I january 26, 2011




Source: Treasury, Transactions Report, 1/4/2011.


Table D.3

 CDCI PROGRAM TRANSACTION DETAIL, AS OF 12/31/2010
                                                  Seller                                                                               Purchase Details                                             Disposition Details

                                                                                                                                                     Additional    Investment      Pricing                                Remaining        Dividend/Interest
Note     Purchase Date Name of Institution                                       Investment Description              Amount from CPP                Investment        Amount    Mechanism    Date          Amount Investment Amount         Paid to Treasury
1        7/30/2010        Guaranty Capital Corporation, Belzoni, MS              Subordinated Debentures                  $14,000,000                        —    $14,000,000          Par                                                         $126,583
1, 2     7/30/2010        University Financial Corp, Inc., St. Paul, MN          Subordinated Debentures                  $11,926,000             $10,189,000     $22,115,000          Par                                                         $199,956
1, 2     8/6/2010         Southern Bancorp, Inc., Arkadelphia, AR                Preferred Stock                          $11,000,000             $22,800,000     $33,800,000          Par                                                         $185,900
1        8/13/2010        Premier Bancorp, Inc., Wilmette, IL                    Subordinated Debentures                    $6,784,000                       —     $6,784,000          Par                                                                —

1        8/13/2010                                                               Preferred Stock                            $7,462,000                       —                         Par
                          Citizens Bancshares Corporation, Atlanta, GA                                                                                                                                                                              $52,249
2a       9/17/2010                                                               Preferred Stock                                      —            $4,379,000     $11,841,000          Par
1        8/13/2010        PGB Holdings, Inc., Chicago, IL                        Preferred Stock                            $3,000,000                       —     $3,000,000          Par                                                          $15,333
1        8/13/2010        First American International Corp., Brooklyn, NY       Preferred Stock                          $17,000,000                        —    $17,000,000          Par                                                          $86,889
1        8/13/2010        Tri-State Bank of Memphis, Memphis, TN                 Preferred Stock                            $2,795,000                       —     $2,795,000          Par                                                          $14,286
1        8/20/2010                                                               Preferred Stock                            $5,500,000                       —                         Par
                          Mission Valley Bancorp, Sun Valley, CA                                                                                                                                                                                    $39,674
2a       9/24/2010                                                               Preferred Stock                                      —            $4,836,000     $10,336,000          Par
1        8/20/2010        M&F Bancorp, Inc., Durham, NC                          Preferred Stock                          $11,735,000                        —    $11,735,000          Par                                                          $55,415
1        8/27/2010        Carver Bancorp, Inc, New York, NY                      Preferred Stock                          $18,980,000                        —    $18,980,000          Par                                                          $82,247
         9/3/2010         Kilmichael Bancorp, Inc., Kilmichael, MS               Subordinated Debentures                              —                      —     $3,154,000          Par                                                          $19,555
1        9/3/2010         United Bancorporation of Alabama, Inc., Atmore, AL Preferred Stock                              $10,300,000                        —    $10,300,000          Par                                                          $41,200
1        9/3/2010         IBW Financial Corporation, Washington, DC              Preferred Stock                            $6,000,000                       —     $6,000,000          Par                                                          $24,000
1, 2     9/10/2010        IBC Bancorp, Inc., Chicago, IL                         Subordinated Debentures                    $4,205,000             $3,881,000      $8,086,000          Par                                                          $45,259
         9/17/2010        CFBanc Corporation, Washington, DC                     Preferred Stock                                      —                      —     $5,781,000          Par                                                          $18,628
         9/17/2010        American Bancorp of Illinois, Inc., Oak Brook, IL      Subordinated Debentures                              —                      —     $5,457,000          Par                                                          $27,255
         9/17/2010        Hope Federal Credit Union, Jackson, MS                 Subordinated Debentures                              —                      —     $4,520,000          Par                                                          $14,564
         9/17/2010        Genesee Co-op Federal Credit Union, Rochester, NY Subordinated Debentures                                   —                      —      $300,000           Par                                                             $967
1        9/17/2010        First Eagle Bancshares, Inc., Hanover Park, IL         Subordinated Debentures                    $7,875,000                       —     $7,875,000          Par                                                          $39,331
1, 2     9/24/2010        Liberty Financial Services, Inc., New Orleans, LA      Preferred Stock                            $5,645,000             $5,689,000     $11,334,000          Par                                                          $32,113
1        9/24/2010        First Choice Bank, Cerritos, CA                        Preferred Stock                            $5,146,000                       —     $5,146,000          Par                                                          $14,580
         9/24/2010        Bainbridge Bancshares, Inc., Bainbridge, GA            Preferred Stock                                      —                      —     $3,372,000          Par                                                           $9,554
         9/24/2010        Virginia Community Capital, Inc., Christiansburg, VA   Subordinated Debentures                              —                      —     $1,915,000          Par                                                           $5,426
                          Lower East Side People’s Federal Credit Union,
         9/24/2010        New York, NY                                           Subordinated Debentures                              —                      —      $898,000           Par                                                           $2,544
                                                                                                                                                                                                                                      Continued on next page.
CDCI PROGRAM TRANSACTION DETAIL, AS OF 12/31/2010                                                       (CONTINUED)
                                              Seller                                                               Purchase Details                                           Disposition Details

                                                                                                                               Additional    Investment      Pricing                                Remaining        Dividend/Interest
Note   Purchase Date Name of Institution                                   Investment Description    Amount from CPP          Investment        Amount    Mechanism    Date          Amount Investment Amount         Paid to Treasury
       9/24/2010      Atlantic City Federal Credit Union, Lander, WY       Subordinated Debentures                —                   —      $2,500,000          Par                                                           $7,083
                      Neighborhood Trust Federal Credit Union,
       9/24/2010      New York, NY                                         Subordinated Debentures                —                   —       $283,000           Par                                                             $802
                      Gateway Community Federal Credit Union,
       9/24/2010      Missoula, MT                                         Subordinated Debentures                —                   —      $1,657,000          Par                                                           $4,695
                      Union Baptist Church Federal Credit Union,
       9/24/2010      Fort Wayne, IN                                       Subordinated Debentures                —                   —        $10,000           Par                                                               $28
                      Buffalo Cooperative Federal Credit Union, Buffalo,
       9/24/2010      NY                                                   Subordinated Debentures                —                   —       $145,000           Par                                                             $411
                      Tulane-Loyola Federal Credit Union, New Orleans,
       9/24/2010      LA                                                   Subordinated Debentures                —                   —       $424,000           Par                                                           $1,201
       9/24/2010      Alternatives Federal Credit Union, Ithaca, NY        Subordinated Debentures                —                   —      $2,234,000          Par                                                           $6,330
                      Liberty County Teachers Federal Credit Union,
       9/24/2010      Liberty, TX                                          Subordinated Debentures                —                   —       $435,000           Par                                                           $1,233
       9/24/2010      UNO Federal Credit Union, New Orleans, LA            Subordinated Debentures                —                   —       $743,000           Par                                                           $2,105
       9/24/2010      Butte Federal Credit Union, Biggs, CA                Subordinated Debentures                —                   —      $1,000,000          Par                                                           $2,833
                      Thurston Union of Low-Income People (TULIP)
       9/24/2010      Cooperative Credit Union, Olympia, WA                Subordinated Debentures                —                   —        $75,000           Par                                                             $213
       9/24/2010      Phenix Pride Federal Credit Union, Phenix City, AL   Subordinated Debentures                —                   —       $153,000           Par                                                             $434
       9/24/2010      Pyramid Federal Credit Union, Tucson, AZ             Subordinated Debentures                —                   —      $2,500,000          Par                                                           $7,083
                      Cooperative Center Federal Credit Union, Berkeley,
       9/24/2010      CA                                                   Subordinated Debentures                —                   —      $2,799,000          Par                                                           $7,931
       9/24/2010      Prince Kuhio Federal Credit Union, Honolulu, HI      Subordinated Debentures                —                   —       $273,000           Par                                                             $774
                      Community First Guam Federal Credit Union,
       9/24/2010      Hagatna, GU                                          Subordinated Debentures                —                   —      $2,650,000          Par                                                           $7,508
       9/24/2010      Brewery Credit Union, Milwaukee, WI                  Subordinated Debentures                —                   —      $1,096,000          Par                                                           $3,105
       9/24/2010      Tongass Federal Credit Union, Ketchikan, AK          Subordinated Debentures                —                   —      $1,600,000          Par                                                           $4,533
       9/24/2010      Santa Cruz Community Credit Union, Santa Cruz, CA Subordinated Debentures                   —                   —      $2,828,000          Par                                                           $8,013
                      Northeast Community Federal Credit Union,
       9/24/2010      San Francisco, CA                                    Subordinated Debentures                —                   —       $350,000           Par                                                             $992
       9/24/2010      Fairfax County Federal Credit Union, Fairfax, VA     Subordinated Debentures                —                   —      $8,044,000          Par                                                          $22,791
1, 2   9/29/2010      Security Federal Corporation, Aiken, SC              Preferred Stock               $18,000,000         $4,000,000     $22,000,000          Par                                                          $56,222
1, 2   9/29/2010      Community Bank of the Bay, Oakland, CA               Preferred Stock                $1,747,000         $2,313,000      $4,060,000          Par                                                          $10,376
1, 2   9/29/2010      The First Bancshares, Inc., Hattiesburg, MS          Preferred Stock                $5,000,000        $12,123,000     $17,123,000          Par                                                          $43,759
1, 2   9/29/2010      BancPlus Corporation, Ridgeland, MS                  Preferred Stock               $50,400,000        $30,514,000     $80,914,000          Par                                                         $206,780
1      9/29/2010      First M&F Corporation, Kosciusko, MS                 Preferred Stock               $30,000,000                  —     $30,000,000          Par                                                          $76,667
1      9/29/2010      State Capital Corporation, Greenwood, MS             Preferred Stock               $15,750,000                  —     $15,750,000          Par                                                          $40,250
1      9/29/2010      Lafayette Bancorp, Inc., Oxford, MS                  Preferred Stock                $4,551,000                  —      $4,551,000          Par                                                          $11,630
1      9/29/2010      PSB Financial Corporation, Many, LA                  Preferred Stock                $9,734,000                  —      $9,734,000          Par                                                          $24,876
                      Community Bancshares of Mississippi, Inc.,
                                                                           Preferred Stock
1      9/29/2010      Brandon, MS                                                                        $54,600,000                  —     $54,600,000          Par                                                         $139,533
1      9/29/2010      First Vernon Bancshares, Inc., Vernon, AL            Preferred Stock                $6,245,000                  —      $6,245,000          Par                                                          $15,959
1      9/29/2010      Security Capital Corporation, Batesville, MS         Preferred Stock               $17,910,000                  —     $17,910,000          Par                                                          $45,770
       9/29/2010      BankAsiana, Palisades Park, NJ                       Preferred Stock                        —                   —      $5,250,000          Par                                                          $13,417
       9/29/2010      The Magnolia State Corporation, Bay Springs, MS      Subordinated Debentures                —                   —      $7,922,000          Par                                                          $31,380
       9/29/2010      Bancorp of Okolona, Inc., Okolona, MS                Subordinated Debentures                —                   —      $3,297,000          Par                                                          $13,060
                      Southern Chautauqua Federal Credit Union,
       9/29/2010      Lakewood, NY                                         Subordinated Debentures                —                   —      $1,709,000          Par                                                           $4,367
       9/29/2010      Fidelis Federal Credit Union, New York, NY           Subordinated Debentures                —                   —        $14,000           Par                                                               $36
       9/29/2010      Bethex Federal Credit Union, Bronx, NY               Subordinated Debentures                —                   —       $502,000           Par                                                           $1,283
       9/29/2010      Shreveport Federal Credit Union , Shreveport, LA     Subordinated Debentures                —                   —      $2,646,000          Par                                                           $6,762
       9/29/2010      Carter Federal Credit Union, Springhill, LA          Subordinated Debentures                —                   —      $6,300,000          Par                                                          $16,100
                      UNITEHERE Federal Credit Union (Workers United
       9/29/2010                                                           Subordinated Debentures                                             $57,000           Par
                      Federal Credit Union), New York, NY                                                         —                   —                                                                                          $146
                      North Side Community Federal Credit Union,
       9/29/2010      Chicago, IL                                          Subordinated Debentures                —                   —       $325,000           Par                                                             $831
                      East End Baptist Tabernacle Federal Credit Union,
                                                                                                                                                                                                                                          Transaction detail I Appendix D I january 26, 2011




       9/29/2010      Bridgeport, CT                                       Subordinated Debentures                —                   —         $7,000           Par                                                               $18
       9/29/2010      Community Plus Federal Credit Union, Rantoul, IL     Subordinated Debentures                —                   —       $450,000           Par                                                           $1,150
       9/29/2010      Border Federal Credit Union, Del Rio, TX             Subordinated Debentures                —                   —      $3,260,000          Par                                                           $8,331
                                                                                                                                                                                                                Continued on next page.
                                                                                                                                                                                                                                          259
    CDCI PROGRAM TRANSACTION DETAIL, AS OF 12/31/2010                                                                           (CONTINUED)                                                                                                                                                                               260
                                                      Seller                                                                                 Purchase Details                                                                        Disposition Details

                                                                                                                                                         Additional                Investment            Pricing                                           Remaining               Dividend/Interest
Note         Purchase Date Name of Institution                                        Investment Description               Amount from CPP              Investment                    Amount          Mechanism               Date          Amount Investment Amount                Paid to Treasury
             9/29/2010       Opportunities Credit Union, Burlington, VT               Subordinated Debentures                                —                   —                $1,091,000                   Par                                                                          $2,788
             9/29/2010       First Legacy Community Credit Union, Charlotte, NC Subordinated Debentures                                      —                   —                $1,000,000                   Par                                                                          $2,556
             9/29/2010       Union Settlement Federal Credit Union, New York, NY Subordinated Debentures                                     —                   —                  $295,000                   Par                                                                            $754
             9/29/2010       Southside Credit Union, San Antonio, TX                  Subordinated Debentures                                —                   —                $1,100,000                   Par                                                                          $2,811
             9/29/2010       D.C. Federal Credit Union, Washington, DC                Subordinated Debentures                                —                   —                $1,522,000                   Par                                                                          $3,890
             9/29/2010       Faith Based Federal Credit Union, Oceanside, CA          Subordinated Debentures                                —                   —                    $30,000                  Par                                                                              $77
             9/29/2010       Greater Kinston Credit Union, Kinston, NC                Subordinated Debentures                                —                   —                  $350,000                   Par                                                                            $894
             9/29/2010       Hill District Federal Credit Union, Pittsburgh, PA       Subordinated Debentures                                —                   —                  $100,000                   Par                                                                            $256
             9/29/2010       Freedom First Federal Credit Union, Roanoke, VA          Subordinated Debentures                                —                   —                $9,278,000                   Par                                                                         $23,710
                             Episcopal Community Federal Credit Union,
             9/29/2010       Los Angeles, CA                                          Subordinated Debentures                                —                   —                  $100,000                   Par                                                                            $256
             9/29/2010       Vigo County Federal Credit Union, Terre Haute, IN        Subordinated Debentures                                —                   —                $1,229,000                   Par                                                                          $3,141
                             Renaissance Community Development Credit Union,
             9/29/2010       Somerset, NJ                                    Subordinated Debentures                                         —                   —                    $31,000                  Par                                                                              $79
                             Independent Employers Group Federal Credit Union,
             9/29/2010       Hilo, HI                                          Subordinated Debentures                                       —                   —                  $698,000                   Par                                                                          $1,784
                             Brooklyn Cooperative Federal Credit Union,
             9/30/2010       Brooklyn, NY                                             Subordinated Debentures                                —                   —                  $300,000                   Par                                                                            $750


                                                                                                                                                                                                                                      Total Capital
                                                                                                                                                    Total Purchase
                                                                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I january 26, 2011




                                                                                                                                                                              $570,073,000                                             Repayment                       —
                                                                                                                                                           Amount
                                                                                                                                                                                                                                           Amount
                                                                                                                                                                                                                                     Total Treasury
                                                                                                                                                                                                                                       CDCI Invest-        $570,073,000
                                                                                                                                                                                                                                      ment Amount

Notes: Numbers affected by rounding. Data as of 12/31/2010. Numbered notes are taken verbatim from Treasury’s 1/4/2011 Transactions Report.

1
     This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has exchanged its Capital Purchase Program investment for an equivalent amount of investment with Treasury under the CDCI program terms.
2
     Treasury made an additional investment in this institution at the time it entered the CDCI program.
2a
     Treasury made an additional investment in this institution after the time it entered the CDCI program.

Source: Treasury, Transactions Report, 1/4/2011.




Table D.4

    AIFP TRANSACTION DETAIL, AS OF 12/31/2010                                                            (CONTINUED)
                                                                                                                                                                           Treasury Investment After Exchange/
                                                                                                                    Exchange/Transfer/Other Details                                   Transfer/Other                                                    Payment or Disposition1

                                                                                                                                                                                                                                                                                           Remaining
                               Trans-                                                                                                                                                                                                                                     Remaining       Investment      Dividend/
                               action                                                                                                                                                                            Amount/                                        Amount/ Investment          Amount/ Interest Paid to
                Date           Type       Seller        Description                      Amount Note             Date               Type            Amount      Note    Obligor     Note    Description          Equity %            Date        Type           Proceeds Description        Equity %      Treasurya

                                                        Preferred Stock                                                     Exchange for
                12/29/2008 Purchase GMAC                w/ Exercised              $5,000,000,000          12/30/2009          convertible    $5,000,000,000                                  Convertible
                                                        Warrants                                                          preferred stock                                 GMAC 21, 22         Preferred $5,937,500,000
                                                                                                                                                                                                 Stock
                                                        Convertible
                                                        Preferred Stock                                                   Partial exchange
                5/21/2009      Purchase GMAC                                      $7,500,000,000 22       12/30/2009                         $3,000,000,000
                                                        w/ Exercised                                                    for common stock
                                                        Warrants
GMAC (Ally),
                                                                                                                                                                                                Common                                                                                                 $2,004,097,986
Detroit, MI                                             Convertible                                                                                                       GMAC       3,26                            73.8%
                                                                                                                      Partial conversion                                                          Stock
                                                        Preferred Stock                            22,
                12/30/2009 Purchase GMAC                                          $1,250,000,000          12/30/2010 of preferred stock      $5,500,000,000     26
                                                        w/ Exercised                               26
                                                                                                                     for common stock
                                                        Warrants

                                                        Trust Preferred
                                                        Securities
                12/30/2009 Purchase GMAC                                          $2,540,000,000
                                                        w/ Exercised
                                                        Warrants

                                                                                                                                                                                                                                                                                                Continued on next page.
 AIFP TRANSACTION DETAIL, AS OF 12/31/2010                                                (CONTINUED)
                                                                                                                                                            Treasury Investment After Exchange/
                                                                                                     Exchange/Transfer/Other Details                                   Transfer/Other                                                Payment or Disposition1

                                                                                                                                                                                                                                                                         Remaining
                          Trans-                                                                                                                                                                                                                       Remaining        Investment      Dividend/
                          action                                                                                                                                                               Amount/                                       Amount/ Investment           Amount/ Interest Paid to
              Date        Type      Seller      Description                 Amount Note          Date                 Type            Amount    Note     Obligor     Note   Description        Equity %         Date        Type             Proceeds Description         Equity %      Treasurya

                                  General                                                                    Exchange for
              12/29/2008 Purchase Motors      Debt Obligation         $884,024,131    2     5/29/2009     equity interest in    $884,024,131    3
                                  Corporation                                                                        GMAC

                                                                                                            Exchange for
                                  General
                                              Debt Obligation w/                                            preferred and
              12/31/2008 Purchase Motors                            $13,400,000,000         7/10/2009                     $13,400,000,000       7
                                              Additional Note                                            common stock in
                                  Corporation
                                                                                                                 New GM

                                                                                                            Exchange for                                 General 10, 11,
                                   General
                                               Debt Obligation w/                                           preferred and                                 Motors      24      Preferred
              4/22/2009   Purchase Motors                            $2,000,000,000   4     7/10/2009                          $2,000,000,000   7                                       $2,100,000,000                                                                          —
                                               Additional Note                                           common stock in                                Company                  Stock
                                   Corporation
                                                                                                                 New GM                                                                                   12/15/2010 Repayment         $2,139,406,778          None

                                                                                                                                                                                                                         Partial
                                                                                                                                                                                                                                                          Common
                                                                                                                                                                                                          11/18/2010 disposition $11,743,303,903                             36.9%
                                                                                                         Exchange for                                                                                                                                       Stock
                                   General                                                                                                               General                                                             25
                                               Debt Obligation w/                                        preferred and                                           10, 11,       Common
              5/20/2009   Purchase Motors                            $4,000,000,000   5     7/10/2009                          $4,000,000,000   7         Motors                                  60.8%
                                               Additional Note                                        common stock in                                                 25         Stock
                                   Corporation                                                                                                          Company                                                          Partial
                                                                                                              New GM                                                                                                                                      Common
                                                                                                                                                                                                          11/26/2010 disposition       $1,761,495,577                        33.3%
                                                                                                                                                                                                                                                            Stock
                                                                                                                                                                                                                             25


                                                                                                                                                                                                                           Partial                             Debt
                                                                                                                                                                                                           7/10/2009                     $360,624,198                $6,711,864,407
                                                                                                                                                                                                                       repayment                          Obligation


General
Motors,b                                                                                                                                                                                                                   Partial                             Debt                   $756,714,508
                                                                                                                                                                                                          12/18/2009                   $1,000,000,000                $5,711,864,407
Detroit, MI                                                                                                                                                                                                            repayment                          Obligation

                                                                                                            Exchange for                                  General
                                   General
                                               Debt Obligation w/                                           preferred and                                 Motors                   Debt
              5/27/2009   Purchase Motors                             $360,624,198    6     7/10/2009                           $360,624,198    7                 11, 12                 $7,072,488,605                    Partial                             Debt
                                               Additional Note                                           common stock in                                 Holdings             Obligation                   1/21/2010                      $35,084,421                $5,676,779,986
                                   Corporation                                                                                                                                                                         repayment                          Obligation
                                                                                                                 New GM                                      LLC



                                                                                                                                                                                                                           Partial                             Debt
                                                                                                                                                                                                           3/31/2010                   $1,000,000,000                $4,676,779,986
                                                                                                                                                                                                                       repayment                          Obligation



                                                                                                                                                                                                           4/20/2010 Repayment         $4,676,779,986          None             —


                                                                                                            Exchange for
                                   General
                                               Debt Obligation w/                                           preferred and
              6/3/2009    Purchase Motors                           $30,100,000,000   8     7/10/2009                     $22,041,706,310       9
                                               Additional Note                                           common stock in
                                   Corporation
                                                                                                                 New GM


                                                                                                        Transfer of debt to
                                                                                            7/10/2009                          $7,072,488,605   9
                                                                                                                  New GM


                                                                                                                                                           Motors
                                                                                                                                                                                   Debt
                                                                                            7/10/2009Debt left at Old GM        $985,805,085    9      Liquidation                         $985,805,085
                                                                                                                                                                              Obligation
                                                                                                                                                        Company


                                                                                                                                                                                                                                                                             Continued on next page.
                                                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I january 26, 2011
                                                                                                                                                                                                                                                                                                       261
                                                                                                                                                                                                                                                                                                           262
 AIFP TRANSACTION DETAIL, AS OF 12/31/2010                                                  (CONTINUED)
                                                                                                                                                            Treasury Investment After Exchange/
                                                                                                     Exchange/Transfer/Other Details                                   Transfer/Other                                                    Payment or Disposition1

                                                                                                                                                                                                                                                                             Remaining
                         Trans-                                                                                                                                                                                                                            Remaining        Investment      Dividend/
                         action                                                                                                                                                                 Amount/                                          Amount/ Investment           Amount/ Interest Paid to
             Date        Type       Seller       Description                 Amount Note           Date                Type          Amount     Note     Obligor     Note   Description         Equity %          Date          Type             Proceeds Description         Equity %      Treasurya

                                    Chrysler                                                                                                                                                                                                                       Debt
                                    FinCo        Debt Obligation w/                                                                                                                                                           Partial
             1/16/2009   Purchase                                     $1,500,000,000   13                                                                                                                    3/17/2009                                    Obligation w/ $1,496,500,945
                                                 Additional Note                                                                                                                                                          repayment                           Additional
                                                                                                                                                                                                                                               $3,499,055          Note

                                                                                                                                                                                                                                                                   Debt
                                                                                                                                                                                                                              Partial                     Obligation w/
                                                                                                                                                                                                             4/17/2009                                                   $1,464,690,823
                                                                                                                                                                                                                          repayment                           Additional
                                                                                                                                                                                                                                              $31,810,122          Note

                                                                                                                                                                                                                                                                   Debt
                                                                                                                                                                                                                              Partial                     Obligation w/
                                                                                                                                                                                                             5/18/2009                                                   $1,413,554,739
Chrysler                                                                                                                                                                                                                  repayment                           Additional
FinCo,                                                                                                                                                                                                                                        $51,136,084          Note
                                                                                                                                                                                                                                                                                            $7,405,894
Farmington
Hills, MI                                                                                                                                                                                                                                                          Debt
                                                                                                                                                                                                                              Partial                     Obligation w/
                                                                                                                                                                                                             6/17/2009                                                   $1,369,197,029
                                                                                                                                                                                                                          repayment                           Additional
                                                                                                                                                                                                                                              $44,357,710          Note


                                                                                                                                                                                                                                                              Additional
                                                                                                                                                                                                             7/14/2009 Repayment                                                    —
                                                                                                                                                                                                                                                                   Note
                                                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I january 26, 2011




                                                                                                                                                                                                                                           $1,369,197,029



                                                                                                                                                                                                             7/14/2009 Repayment              $15,000,000          None             —



                                                                                                                                                                     20              Debt
                                    Chrysler     Debt Obligation w/                                       Transfer of debt to                            Chrysler           Obligation w/
             1/2/2009    Purchase                                     $4,000,000,000          6/10/2009                         $500,000,000    19                                         $3,500,000,000    5/14/2010                     $1,900,000,000          None             —
                                    Holding      Additional Note                                               New Chrysler                               Holding               Additional                               Termination
                                                                                                                                                                                     Note                                        and
                                                                                                                                                                                                                          settlement
                                                                                                                                                                                                                          payment 20
                                    Chrysler     Debt Obligation w/
                         Purchase                                                 —    14
                                    Holding      Additional Note
             4/29/2009


                                    Chrysler     Debt Obligation w/
             4/29/2009   Purchase                                      $280,130,642    15                                                                                                                    7/10/2009 Repayment             $280,130,642          None             —
                                    Holding      Additional Note


                                                                                                                                                        Old Carco              Rights to                                   Proceeds                            Right to
                                                 Debt Obligation w/                                                                                                                                                                                             recover
             5/1/2009    Purchase Old Chrysler                        $1,888,153,580   16     4/30/2010           Completion $(1,888,153,580)   23     Liquidation   23         Recover              N/A     5/10/2010      from sale         $30,544,528                          N/A
                                                 Additional Note                                               of bankruptcy                                                                                                                                  proceeds
        c                                                                                                                                                    Trust             Proceeds                                  of collateral
Chrylser,
                                                                                                                 proceeding;
Auburn                                                                                                                                                                                                                                                                                    $566,577,061
                                                                                                                   transfer of
Hills, MI                                                                                                                                                                                                               Proceeds                               Right to
                                               Debt Obligation w/                                         collateral security
             5/20/2009   Purchase Old Chrysler                                    —    17                 to liquidation trust                                                                                9/9/2010 from sale               $9,666,784       recover            N/A
                                               Additional Note
                                                                                                                                                                                                                      of collateral                           proceeds


                                                                                                                                                                                                                           Proceeds                            Right to
                                                                                                                                                                                                            12/29/2010      from sale       $7,844,409.00       recover            N/A
                                                                                                                                                                                                                         of collateral                        proceeds

                                                                                                                                                                     19             Debt
                                               Debt Obligation w/
                                                                                                          Issuance of equity                             Chrysler             Obligation
             5/27/2009   Purchase New Chrysler Additional Note,       $6,642,000,000   18     6/10/2009                                   —                                               $7,142,000,000
                                                                                                             in New Chrysler                           Group LLC            w/ additional
                                               Equity
                                                                                                                                                                                    note


                                                                                                                                                         Chrysler              Common
                                                                                                                                                                                                    9.9%
                                                                                                                                                       Group LLC                 equity



                                                                                                                                                                                                                                                                                 Continued on next page.
    AIFP TRANSACTION DETAIL, AS OF 12/31/2010                                                      (CONTINUED)
                                                                                                                                                                         Treasury Investment After Exchange/
                                                                                                                Exchange/Transfer/Other Details                                     Transfer/Other                                                      Payment or Disposition1

                                                                                                                                                                                                                                                                                              Remaining
                            Trans-                                                                                                                                                                                                                                        Remaining          Investment      Dividend/
                            action                                                                                                                                                                              Amount/                                         Amount/ Investment             Amount/ Interest Paid to
             Date           Type      Seller        Description                    Amount Note              Date               Type             Amount      Note      Obligor     Note    Description           Equity %            Date        Type            Proceeds Description           Equity %      Treasurya


                                                                                                                                                                                                                                           Additional
                                                                                                                                                                                                                                                Note
                                                                                                                                                                                                                                           Proceeds         $15,000,000



                                      Total Initial Investment                                                                                                                                                                                 Total
                                      Amount                            $81,344,932,551                                                                                                                                                    Payments $26,444,881,226



                                                                                                                                                                                                                                    Total Treasury
                                                                                                                                                                                                                               Investment Amount $51,411,897,745


Notes: Numbers may not total due to rounding. Data as of 12/31/2010. Numbered notes were taken verbatim from Treasury’s 1/4/2011 Transactions Report.
GMAC refers to GMAC Inc., formerly known as GMAC LLC., and now known as Ally Financial, Inc. (“Ally”).
“Old GM” refers to General Motors Corporation, which is now known as Motors Liquidation Company.
“New GM” refers to General Motors Company, the company that purchased Old GM’s assets on 7/10/2009 in a sale pursuant to Section 363 of the Bankruptcy Code. See also footnote 11.
“Chrysler FinCo” refers to Chrysler Financial Services Americas LLC.
“Chrysler Holding” refers to CGI Holding LLC, the company formerly known as “Chrysler Holding LLC.”
“Old Chrysler” refers to Old Carco LLC (fka Chrysler LLC).
“New Chrysler” refers to Chrysler Group LLC, the company that purchased Old Chrysler’s assets on 6/10/2009 in a sale pursuant to Section 363 of the Bankruptcy Code.

1
   Payment amount does not include accrued and unpaid interest on a debt obligation, which must be paid at the time of principal repayment.
2
   Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.
3
    Pursuant to its rights under the loan agreement with Old GM reported on 12/29/2008, Treasury exchanged its $884 million loan to Old GM for a portion of Old GM’s common equity interest in GMAC. Treasury held a 35.4% common equity interest in GMAC until the transactions reported on 12/30/2009. (See
    transactions marked by orange line in the table above and footnote 22.)
4
   This transaction is an amendment to Treasury’s 12/31/2008 agreement with Old GM (the “Old GM Loan”), which brought the total loan amount to $15,400,000,000.
5
   This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,400,000,000.
6
   This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,760,624,198. The $360,624,198 loan was used to capitalize GM Warranty LLC, a special purpose vehicle created by old GM. On 7/10/2009, the principal amount was included in the $7.07 billion of debt
    assumed by the new GM, as explained in footnote 10.
7
   On 7/10/2009, the principal amount outstanding under the Old GM Loan and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM. (See green lines in the table above.)
8
   Under the terms of the $33.3 billion debtor-in-possession credit agreement dated 6/3/2009 with Old GM (the “GM DIP Loan”), Treasury’s commitment amount was $30.1 billion. The remaining $2.2 billion of the financing was provided by Canadian government entities. As of 7/09/2009, $30.1 billion of funds had
    been disbursed by Treasury.
9
    On 7/10/2009, Treasury and Old GM amended the GM DIP Loan, and the principal amount and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM, except for (i) $7.07 billion, which was assumed by New GM as a new obligation under the
    terms of a separate credit agreement between Treasury and New GM (see transactions marked by green lines in table above) and (ii) $986 million, which remained a debt obligation of Old GM.
10
    In total, for the exchange of the Old GM Loan and the GM DIP Loan (other than as explained in footnote 9), Treasury received $2.1 billion in preferred shares and 60.8% of the common shares of New GM. (See transactions marked by green lines in the table above.)
11
    Pursuant to a corporate reorganization completed on or about 10/19/2009, the shareholders of New GM, including with respect to Treasury’s preferred and common stock, became shareholders of General Motors Holding Company (the ultimate parent company of New GM), which was renamed “General Motors
    Company” on an equal basis to their shareholdings in New GM, and New GM was converted to “General Motors LLC”. General Motors LLC is a wholly owned subsidiary of General Motors Holdings LLC, and General Motors Holdings LLC is a wholly owned subsidiary of General Motors Company.
12
    Pursuant to a corporate reorganization completed on 10/19/2009, Treasury’s loan with New GM was assigned and assumed by General Motors Holdings LLC.
13
    The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler FinCo. The amount of $1,500,000,000 represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
14
    This transaction was an amendment to Treasury’s 1/2/2009 agreement with Chrysler Holding. As of 4/30/2009, Treasury’s obligation to lend any funds committed under this amendment had terminated. No funds were disbursed.
15
    The loan was used to capitalize Chrysler Warranty SPV LLC, a special purpose vehicle created by Old Chrysler.
16
    This transaction was set forth in a credit agreement with Old Chrysler fully executed on 5/5/2009 following a term sheet executed on 5/1/2009 and made effective on 4/30/2009. Treasury’s commitment was $3.04 billion of the total $4.1 billion debtor-in-possession credit facility (the “Chrysler DIP Loan”). As of
    6/30/2009, Treasury’s commitment to lend under the Chrysler DIP Loan had terminated. The remaining principal amount reflects the final amount of funds disbursed under the Chrylser DIP Loan.
17
    This transaction was an amendment to Treasury’s commitment under the Chrysler DIP Loan, which increased Treasury’s commitment by an amount $756,857,000 to a total of $3.8 billion under the Chrysler DIP Loan. As of 6/30/2009, Treasury’s obligation to lend funds committed under the Chrysler DIP Loan had
    terminated.
18
    This transaction, first reported based on a term sheet fully executed on 5/27/2009 for an amount up to $6.943 billion, was set forth in a credit agreement with New Chrysler fully executed on 6/10/2009. Under the terms of the credit agreement, Treasury made a new commitment to New Chrysler of up to $6.642
    billion. The total loan amount is up to $7.142 billion including $500 million of debt assumed on 6/10/2009 from Chrysler Holding originally incurred under Treasury’s 1/2/2009 credit agreement with Chrysler Holding. The debt obligations are secured by a first priority lien on the assets of New Chrysler. When the
    sale to new Chrysler was completed, Treasury acquired the rights to 9.85% of the common equity in new Chrysler.
19
    Pursuant to the agreement explained in footnote 18, $500 million of this debt obligation was assumed by New Chrysler.
20
    Under loan agreement, as amended on 7/23/2009, Treasury was entitled to proceeds Chrysler Holdco received from Chrysler FinCo equal to the greater of $1.375 billion or 40% of the equity value of Chrysler FinCo. Pursuant to a termination agreement dated 5/14/2010, Treasury agreed to accept a settlement
    payment of $1.9 billion as satisfaction in full of all existing debt obligations (including additional notes and accrued and unpaid interest) of Chrysler Holdco, and upon receipt of such payment to terminate all such obligations.
21
    Amount of the Treasury investment after exchange includes the exercised warrants from Treasury’s initial investment.
22
    Under the terms of an agreement dated 12/30/2009, the convertible preferred shares will mandatorily convert to common stock under the conditions and the conversion price as set forth in the terms of the agreement.
23
    On April 30, 2010, the Plan of Liquidation for the debtors of Old Chrysler approved by the respective bankruptcy court became effective (the “Liquidation Plan”). Under the Liquidation Plan, the loan Treasury had provided to Old Chrysler was extinguished without repayment, and all assets of Old Chrysler were
    transferred to a liquidation trust. Treasury retained the right to recover the proceeds from the liquidation from time to time of the specified collateral security attached to such loan.
24
    On October 27, 2010, Treasury accepted an offer by General Motors Company (GM) to repurchase all of the approximately $2.1 billion preferred stock at a price per share of $25.50, which is equal to 102% of the liquidation preference, subject to the closing of the proposed initial public offering of GM’s common
    stock. The repurchase was completed on 12/15/2010.
25  
   On 11/17/2010, Treasury agreed to sell 358,546,795 shares of common stock at $32.7525 per share (which represents the $33 public sale price less underwriting discounts and fees) pursuant to an underwriting agreement. Following settlement, the net proceeds to Treasury were 11,743,303,903. On
    11/26/2010, the underwriters exercised their option to purchase an additional 53,782,019 shares of common stock from Treasury at the same purchase price resulting in additional proceeds of $1,761,495,577. Treasury’s aggregate net proceeds from the sale of common stock pursuant to the underwriting
    agreement total $13,504,799,480.
26
    On 12/30/2010, Treasury converted $5,500,000,000 of the total convertible preferred stock then outstanding and held by Treasury (including exercised warrants) into 531,850 shares of common stock of Ally. Following this conversion, Treasury holds $5,937,500 of convertible preferred stock.
a
    For the purpose of this table, income (dividends and interest) are presented in aggregate for each AIFP participant.
b
   According to Treasury, the GM warrant was “Exchanged out of bankruptcy exit.”
c
    This table includes AWCP transactions.
                                                                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I january 26, 2011




Sources: Treasury, Transactions Report, 1/4/2011; Treasury, response to SIGTARP data call, 1/11/2011.
                                                                                                                                                                                                                                                                                                                               263
Table D.5                                                                                                                                                                                                                                                                                                                                264

 ASSP Transaction Detail, as of 12/31/2010
                   Seller                                                                                                             Adjustment Details                                                           Repayment4
                                                                 Investment                                                                                      Adjusted                                                                 Remaining                         Dividends/
                                                  Transaction    Description                 Investment   Pricing Adjustment                Adjustment         Investment                                                                Investment                      Interest Paid
Note   Date       Institution Name                Type                                          Amount Mechanism        Date3                  Amount             Amount             Date                  Type                          Description         Amount        to Treasury
                                                                                                                                                                            11/20/2009         Partial repayment   Debt Obligation w/ Additional Note   $140,000,000
1,3               GM Supplier Receivables LLC,                   Debt Obligation w/                                       7/8/2009 ($1,000,000,000) $2,500,000,000            2/11/2010        Partial repayment   Debt Obligation w/ Additional Note   $100,000,000
       4/9/2009                                   Purchase                             $3,500,000,000             N/A                                                                                                                                                   $21,629,701
                  Wilmington, DE                                 Additional Note                                                                                               3/4/2010             Repayment5                        Additional Note    $50,000,000
1,6                                                                                                                                                        $290,000,000        4/5/2010                Payment6                                None      $56,541,893
2,3               Chrysler Receivables SPV LLC,                  Debt Obligation w/                                       7/8/2009     ($500,000,000) $1,000,000,000           3/9/2010             Repayment5                        Additional Note   $123,076,735
       4/9/2009                                 Purchase                               $1,500,000,000             N/A                                                                                                                                                   $10,320,229
2,7               Wilmington, DE                                 Additional Note                                                                           $123,076,735        4/7/2010                Payment7                                None      $44,533,054
                                                                 Initial Total        $5,000,000,000                                     Adjusted Total    $413,076,735                                                          Total Repayments $413,076,735
                                                                                                                                        Total Proceeds
                                                                                                                                       from Additional     $101,074,947
                                                                                                                                                 Notes

Notes: Numbers may not total due to rounding. Data as of 12/31/2010. Numbered notes were taken verbatim from Treasury’s 1/4/2011 Transactions Report.
1
  The loan was funded through GM Supplier Receivables, LLC, a special purpose vehicle created by General Motors Corporation. The amount of $3,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed
  on 4/9/2009, but was made effective as of 4/3/2009. General Motors Company assumed GM Supplier Receivables LLC on 7/10/2009.
2
  The loan was funded through Chrysler Receivables SPV LLC, a special purpose vehicle created by Chrysler LLC. The amount of $1,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009,
  but was made effective as of 4/7/2009. Chyrsler Group LLC assumed Chrysler Receivables SPV LLC on 6/10/2009.
3
  Treasury issued notice to the institution of the permanent reduced commitment on 7/8/2009; the reduction was effective on 7/1/2009.
4
  Does not include accrued and unpaid interest due on the amount of principal repayment, which interest must be paid at the time of principal repayment.
5
  All outstanding principal drawn under the credit agreement was repaid.
6
  Treasury’s commitment was $2.5 billion (see note 3). As of 4/5/2009, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds
  disbursed under the loan, all of which have been repaid.
                                                                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I january 26, 2011




7
  Treasury’s commitment was $1 billion (see note 3). As of 4/7/2009, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds
  disbursed under the loan, all of which have been repaid.

Sources: Treasury, Transactions Report, 1/4/2011; Treasury, response to SIGTARP data call, 1/11/2010.




Table D.6

 TIP Transaction Detail, as of 12/31/2010
                                                                                                                                                         Treasury Investment
                                                                                                                                                              Remaining
                       Seller                                                                                           Capital Repayment Details      After Capital Repayment              Final Disposition                                                                   Market and Warrants Data
                                                                                                                                                                                                                                                                                            Amount “In
                                                                                                                                              Capital Remaining        Remaining          Final               Final                                        Market               Outstanding the Money” In or Out           Dividends/
                                          Transaction    Investment                    Investment        Pricing Capital Repayment         Repayment    Capital          Capital    Disposition         Disposition       Final Disposition   Stock Capitalization     Strike       Warrant   or “Out of  of the      Interest Paid to
Note Date              Institution Name   Type           Description                      Amount      Mechanism             Amount              Date2   Amount        Description        Date3          Description              Proceeds     Price   (in millions)     Price        Shares the Money” Money a               Treasury
                                                         Trust Preferred
                       Citigroup Inc.,                   Securities w/
1      12/31/2008      New York, NY       Purchase       Warrants                $20,000,000,000               Par   $20,000,000,000 12/23/2009                  —       Warrants                                                             $4.73      $137,405 $10.61 188,501,414             ($5.88)       OUT $1,568,888,889
                       Bank of America
                       Corporation,                      Preferred Stock w/
       1/16/2009       Charlotte, NC      Purchase       Warrants                $20,000,000,000               Par   $20,000,000,000       12/9/2009             —       Warrants    3/3/2010 A            Warrants   $1,255,639,099.00 $13.34           $134,536                                                    $1,435,555,556

                                                                                                     Total Capital                                                                                   Total Warrant
                                                          Total Investment $40,000,000,000            Repayment $40,000,000,000                                                                          Proceeds $1,255,639,099.00
                                                                                  Total Treasury TIP Investment
                                                                                                        Amount                       —

Notes: Numbers may not total due to rounding. Data as of 12/31/2010. Numbered notes were taken verbatim from Treasury’s 10/4/2010 Transactions Report.
1
  Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative Perpetual Preferred Stock,
  Series I (TIP Shares) “dollar for dollar” for Trust Preferred Securities.
2
  Repayment pursuant to Title VII, Section 7001 of the American Recovery and Reinvestment Act of 2009.
3
  For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, before underwriting fees and selling expenses, from a sale by Treasury in a registered public offering of the warrants issued by the financial institution.
a
  When a warrant’s underlying current stock price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”

Sources: Treasury, Transactions Report, 1/4/2011; Treasury, response to SIGTARP data call, 1/11/2011; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 1/6/2011.
Table D.7

AGP Transaction Detail, as of 12/31/2010
                               Initial Investmentb                             Premium                                 Exchange/Transfer/Other Details                                             Payment or Disposition                                                 Market and Warrants Data
                                                                                                                                                                                                                                                                                                        Amount
                                                                                                                                                                                                                                                                                                         “In the
                                                                                                                                                                                                                                                                                                        Money”        In      Dividends/
                                                                                                                                                                                                                      Remaining            Remaining                  Market              Outstanding   or “Out or Out           Interest
                 Institution       Transaction                     Guarantee                                                                                                         Payment                 Payment   Premium              Premium      Stock Capitalization    Strike       Warrant     of the of the           Paid to
Note Date        Name              Type        Description              Limit Description            Amount           Date        Type Description          Amount          Date        Type                  Amount Description             Amount      Price   (in millions)    Price        Shares   Money” Moneya           Treasury
                                                                                                                          Exchange                                                       Partial
                                                                                                                                             Trust                                                                              Trust
                                                                                                                          preferred                                                cancellation
                                                                                                                                         Preferred                                                                          Preferred
                                                                                                                     6/9/     stock                                      12/23/        for early
1-2-3                                                                                                                                    Securities $4,034,000,000                                   ($1,800,000,000)       Securities $2,234,000,000
                                                                                                                     2009 for trust                                        2009     termination
                                                                                                                                                w/                                                                                 w/
                                                                                                                          preferred                                                           of
                                                                                                                                          Warrants                                                                           Warrants
                                                                                 Preferred                                securities                                                 guarantee
        1/16/    Citigroup Inc.,                Master
                                 Guarantee                    $5,000,000,000        Stock $4,034,000,000                  Exchange                                                                                                                       $4.73      $137,405 $10.61 66,531,728          ($5.88)      OUT $442,964,764
        2009     New York, NY                   Agreement
                                                                               w/ Warrants                                     trust         Trust
                                                                                                                          preferred      Preferred
                                                                                                                    9/29/                                                 9/30/
4-5                                                                                                                       securities     Securities $2,246,000,000                 Disposition        $2,246,000,000        Warrants                —
                                                                                                                     2010                                                  2010
                                                                                                                           for trust            w/
                                                                                                                          preferred       Warrants
                                                                                                                          securities
        12/23/   Citigroup Inc.,             Termination
3                                Termination             ($5,000,000,000)
        2009     New York, NY                Agreement

                                                Total                    $—

Notes: Numbers may not total due to rounding. Data as of 12/31/2010. Numbered notes taken verbatim from 1/4/2011 Transactions Report.
1
  In consideration for the guarantee, Treasury received $4.03 billion of preferred stock, which pays 8% interest.
2
  Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative Perpetual Preferred Stock
  Series G (AGP Shares), received as premium with the AGP agreement, “dollar for dollar” for Trust Preferred Securities.
3
  On 12/23/2009, Treasury entered into a Termination Agreement with the other parties to the Master Agreement which served to terminate Treasury’s guarantee and obligations under the Master Agreement. In connection with the early termination of the guarantee, Treasury agreed to cancel $1.8 billion of the AGP Trust
  Preferred Securities, and the Federal Deposit Insurance Corporation (FDIC) and Treasury agreed that, subject to the conditions set out in the Termination Agreement, the FDIC may transfer $800 million of Trust Preferred Securities to Treasury at the close of Citigroup’s participation in the FDIC’s Temporary Liquidity Guarantee
  Program.
4
  On 9/29/2010, Treasury entered into an agreement with Citigroup Inc. to exchange $2,234,000,000 in aggregate liquidation preference of its trust preferred securities for $2,246,000,000 in aggregate liquidation preference of trust preferred securities with certain modified terms. At the time of exchange, Citigroup Inc. paid the
  outstanding accrued and unpaid dividends.
5
  On 9/30/2010, Treasury entered into underwritten offering of the trust preferred securities, the gross proceeds of which do not include accumulated and unpaid distributions from the date of the exchange through the closing date.
a
  When a warrant’s underlying current stock price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”
b
  AGP transaction is a guarantee, not a purchase. Treasury received a premium including preferred stock and warrants as part of this transaction.

Sources: Treasury, Transactions Report, 1/4/2011; Treasury, response to SIGTARP data call, 1/11/2011; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 1/6/2011.




Table D.8


TALF Transaction Detail, as of 12/31/2010
                      Seller
                                                     Transaction                                                                              Pricing               Adjusted                 Adjusted
Note Date             Institution                    Type          Investment Description                  Investment Amount               Mechanism         Investment Date       Investment Amount

1-2     3/3/2009      TALF LLC, Wilmington, DE Purchase            Debt Obligation w/ Additional Note        $20,000,000,000                         N/A          7/19/2010            $4,300,000,000


                                                                                                 TOTAL                       $—

Note: Numbers may not total due to rounding. Data as of 12/31/2010. Numbered notes were taken verbatim from Treasury’s 1/4/2011 Transactions Report.
1
  The loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank of New York. The amount of $20,000,000,000 represents the maximum loan amount. The
  loan will be incrementally funded.
2
  On 7/19/2010, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously entered into on 3/3/2009, which amendment reduced Treasury’s maximum loan
  amount to $4,300,000,000.

Source: Treasury, Transactions Report, 1/4/2011.
                                                                                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I january 26, 2011
                                                                                                                                                                                                                                                                                                                                             265
Table D.9                                                                                                                                                                                                                                                                                                                              266

 SSFI (AIG) Transaction Detail, as of 12/31/2010
                                Seller                                              Purchase Detail                                                              Exchange Details                                                                      Warrants and Market Data
                                                                                                                                                                                                                                                                                     Amount “In
                                                                                                                                                                                                                                            Market                     Outstanding the Money”or                        Dividends/
                                                        Transaction     Investment                                   Pricing                    Transaction      Investment                                  Pricing                 Capitalization                        Warrant    “Out of the      In or Out of Interest Paid
 Note           Date            Institution             Type            Description       Investment Amount       Mechanism             Date          Type       Description      Investment Amount       Mechanism      Stock Price   (in millions)    Strike Price        Shares      Money” a      the Money a     to Treasury
 1              11/25/2008      AIG, New York, NY       Purchase        Preferred            $40,000,000,000              Par    4/17/2009            Exchange     Preferred        $40,000,000,000               Par         $57.62        $39,943          $50.00      2,689,938           $7.62               IN             —
                                                                        Stock w/                                                                                   Stock w/
                                                                        Warrants                                                                                   Warrants
 2,3            4/17/2009       AIG, New York, NY       Purchase        Preferred            $29,835,000,000              Par                                                                                                 $57.62        $39,943       $0.00002               150        $57.62               IN             —
                                                                        Stock w/
                                                                        Warrants
                                                                        Total               $69,835,000,000

 Notes: Numbers may not total due to rounding. Data as of 12/31/2010. Numbered notes were taken verbatim from Treasury’s 1/4/2011 Transactions Report.
 1
   On 4/17/2009, Treasury exchanged its Series D Fixed Rate Cumulative Preferred Shares for Series E Fixed Rate Non-Cumulative Preferred Shares with no change to Treasury’s initial investment amount. In addition, in order for AIG to fully redeem the Series E Preferred Shares, it has an additional obligation to Treasury of
   $1,604,576,000 to reflect the cumulative unpaid dividends for the Series D Preferred Shares due to Treasury through and including the exchange date.
 2
   The investment price reflects Treasury’s commitment to invest up to $30 billion less a reduction of $165 million representing retention payments AIG Financial Products made to its employees in March 2009.
 3
   This transaction does not include AIG’s commitment fee of an additional $165 million scheduled to be paid from its operating income in three equal installments over the five-year life of the facility.
 a
   When a warrant’s underlying current stock price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”

 Sources: Treasury, Transactions Report, 1/4/2011; Treasury, response to SIGTARP data call, 1/11/2011; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 1/10/2011.




Table D.10
                                                                                                                                                                                                                                                                                                                                       Appendix D I Transaction Detail I january 26, 2011




UCSB TRANSACTION DETAIL, AS OF 12/31/2010
                                  1
               Purchase Details                                                                                                                                                                       Settlement Details                                                         Final Disposition

                                                                                                                                                                                                                                             Life-to-date              Current
                                                                                                      Purchase Face   Pricing              TBA or          Settlement       Investment         TBA or     Senior Security        Trade          Principal                Face          Disposition                Dividend/Interest
Trade Date     Investment Description                        Institution Name       CUSIP                  Amount3 Mechanism                PMF3                 Date        Amount 2, 3        PMF3          Proceeds 4          Date        Received 1               Amount            Amount 5                  Paid to Treasury

3/19/2010      Floating Rate SBA 7a security due 2025        Coastal Securities     83164KYN7          $4,070,000.00        107.75                -        3/24/2010        $4,377,249                -            $2,184                                                                                                   $92,292

3/19/2010      Floating Rate SBA 7a security due 2022        Coastal Securities     83165ADC5          $7,617,617.00            109               -        3/24/2010        $8,279,156                -            $4,130                                                                                                  $196,090

3/19/2010      Floating Rate SBA 7a security due 2022        Coastal Securities     83165ADE1          $8,030,000.00      108.875                 -        3/24/2010        $8,716,265                -            $4,348                                                                                                  $204,604

4/8/2010       Floating Rate SBA 7a security due 2034        Coastal Securities     83165AD84         $23,500,000.00      110.502                 -        5/28/2010      $26,041,643                 -           $12,983                                                                                                  $488,650

4/8/2010       Floating Rate SBA 7a security due 2016        Coastal Securities     83164KZH9          $8,900,014.00         107.5                -        4/30/2010        $9,598,523                -            $4,783                                                                                                  $214,011

5/11/2010      Floating Rate SBA 7a security due 2020        Coastal Securities     83165AEE0         $10,751,382.00      106.806                 -        6/30/2010      $11,511,052                 -            $5,741                                                                                                  $142,448

5/11/2010      Floating Rate SBA 7a security due 2035        Coastal Securities     83164K2Q5         $12,898,996.00        109.42                -        6/30/2010      $14,151,229                 -            $7,057                                                                                                  $191,337

5/11/2010      Floating Rate SBA 7a security due 2033        Coastal Securities     83165AED2          $8,744,333.00      110.798                 -        6/30/2010        $9,717,173                -            $4,844                                                                                                  $147,203

5/25/2010      Floating Rate SBA 7a security due 2029        Coastal Securities     83164K3B7          $8,417,817.00      110.125                 -        7/30/2010        $9,294,363                -            $4,635                                                                                                  $263,320

5/25/2010      Floating Rate SBA 7a security due 2033        Coastal Securities     83165AEK6         $17,119,972.00      109.553                 -        7/30/2010       $18,801,712                -            $9,377                                                                                                  $220,214

6/17/2010      Floating Rate SBA 7a security due 2020        Coastal Securities     83165AEQ3         $34,441,059.00      110.785                 -        8/30/2010       $38,273,995                -           $19,077                                                                                                  $443,307

6/17/2010      Floating Rate SBA 7a security due 2034        Coastal Securities     83165AEP5         $28,209,085.00      112.028                 -        8/30/2010       $31,693,810                -           $15,801                                                                                                  $472,621

7/14/2010      Floating Rate SBA 7a security due 2020        Coastal Securities     83164K3Y7          $6,004,156.00      106.625                 -        9/30/2010        $6,416,804                -            $3,200                                                                                                   $30,673

7/14/2010      Floating Rate SBA 7a security due 2025        Coastal Securities     83164K4J9          $6,860,835.00      108.505                 -        9/30/2010        $7,462,726                -            $3,722                                                                                                   $37,949

7/14/2010      Floating Rate SBA 7a security due 2034        Coastal Securities     83165AE42         $13,183,361.00        111.86                -        9/30/2010       $14,789,302                -            $7,373                                                                                                   $87,364

7/29/2010      Floating Rate SBA 7a security due 2017        Coastal Securities     83164K4E0          $2,598,386.00      108.438                 -        9/30/2010        $2,826,678                -            $1,408                                                                                                   $18,643

7/29/2010      Floating Rate SBA 7a security due 2034        Coastal Securities     83164K4M2          $9,719,455.00        106.75                -       10/29/2010       $10,394,984                -            $5,187                                                                                                   $20,856

8/17/2010      Floating Rate SBA 7a security due 2020        Coastal Securities     83165AEZ3          $8,279,048.00      110.198                 -        9/30/2010        $9,150,989                -            $4,561                                                                                                   $57,042

8/17/2010      Floating Rate SBA 7a security due 2019        Coastal Securities     83165AFB5          $5,000,000.00      110.088                 -       10/29/2010        $5,520,652                -            $2,752                                                                                                   $17,413

                                                                                                                                                                                                                                                                                                             Continued on next page.
UCSB TRANSACTION DETAIL, AS OF 12/31/2010                                                                (CONTINUED)

                                   1
                Purchase Details                                                                                                                                                                       Settlement Details                                                        Final Disposition

                                                                                                                                                                                                                                              Life-to-date             Current
                                                                                                     Purchase Face   Pricing                TBA or          Settlement       Investment          TBA or    Senior Security        Trade          Principal               Face          Disposition                 Dividend/Interest
Trade Date      Investment Description                        Institution Name      CUSIP                 Amount3 Mechanism                  PMF3                 Date        Amount 2, 3         PMF3         Proceeds 4          Date        Received 1              Amount            Amount 5                   Paid to Treasury

8/17/2010       Floating Rate SBA 7a security due 2020        Coastal Securities    83165AE91        $10,000,000.00        110.821                 -       10/29/2010      $11,115,031                 -            $5,541                                                                                                   $35,283

8/31/2010       Floating Rate SBA 7a security due 2020        Shay Financial        83165AEW0         $9,272,482.00        110.515                 -        9/29/2010      $10,277,319                 -            $5,123                                                                                                   $63,690

8/31/2010       Floating Rate SBA 7a security due 2024        Shay Financial        83165AFA7        $10,350,000.00        112.476                 -       10/29/2010      $11,672,766                 -            $5,820                                                                                                   $33,750

8/31/2010       Floating Rate SBA 7a security due 2020        Coastal Securities    83164K5H2         $6,900,000.00        105.875                 -       11/30/2010        $7,319,688                -            $3,652

9/14/2010       Floating Rate SBA 7a security due 2020        Shay Financial        83165AFC3         $8,902,230.00        111.584                 -       10/29/2010        $9,962,039                -            $4,966                                                                                                   $30,616

9/14/2010       Floating Rate SBA 7a security due 2021        Shay Financial        83165AFK5         $8,050,000.00        110.759                 -       11/30/2010        $8,940,780                -            $4,458

9/14/2010       Floating Rate SBA 7a security due 2029        Coastal Securities    83164K5F6         $5,750,000.00           106.5                -       11/30/2010        $6,134,172                -            $3,061

9/14/2010       Floating Rate SBA 7a security due 2026        Coastal Securities    83164K5L3         $5,741,753.00           110.5                -       11/30/2010        $6,361,173                -            $3,172

9/28/2010       Floating Rate SBA 7a security due 2035        Coastal Securities    83164K5M1         $3,450,000.00        110.875                 -       11/30/2010        $3,834,428                -            $1,912

9/28/2010       Floating Rate SBA 7a security due 2034        Coastal Securities    83165AFQ2        $11,482,421.00        113.838                 -       12/30/2010      $13,109,070                 -            $6,535

9/28/2010       Floating Rate SBA 7a security due 2034        Shay Financial        83165AFM1        $13,402,491.00           113.9                -       11/30/2010      $15,308,612                 -            $7,632

9/28/2010       Floating Rate SBA 7a security due 2035        Shay Financial        83165AFT6        $14,950,000.00        114.006                 -       12/30/2010       $17,092,069                -            $8,521

                                                                                                                                                                                            Total Senior
                                                                                    Total Purchase                                                     Total Investment                                                                                      Total Disposition
                                                                                                   $332,596,893                                                           $368,145,452          Security         $183,555                                                                     $ ­—
                                                                                    Face Amount*                                                               Amount*                                                                                              Proceeds
                                                                                                                                                                                              Proceeds



Notes: Numbers affected by rounding. Date as of 12/31/2010. Numbered notes were taken verbatim from Treasury’s 1/4/2011 Transactions Report.

* 	Subject to adjustment
1	
   The amortizing principal and interest payments are reported on the monthly Dividends and Interest Report available at www.FinancialStability.gov.
2	
   Investment Amount is stated after giving effect to factor and, if applicable, the purchase of accrued principal and interest.
3	
   If a purchase is listed as TBA, or To-Be-Announced, the underlying loans in the SBA Pool have yet to come to market, and the TBA pricing mechanism, purchase face amount, investment amount and senior security proceeds will be adjusted within the variance permitted under the program terms. If a purchase is listed as
   PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security and senior security are priced according to the prior-month’s factor. The PMF investment amount and senior security proceeds will be adjusted after publication of the applicable month’s factor (on
   or about the 11th business day of each month).
4	
   In order to satisfy the requirements under Section 113 of the Emergency Economic Stabilization Act of 2008, Treasury will acquire a senior indebtedness instrument (a Senior Security) from the seller of each respective SBA 7a Security. Each Senior Security will (i) have an aggregate principal amount equal to the product
   of (A) 0.05% and (B) the Investment Amount (excluding accrued interest) paid by Treasury for the respective SBA 7a Security, and (ii) at the option of the respective seller, may be redeemed at par value immediately upon issuance, or remain outstanding with the terms and conditions as set forth in the Master Purchase
   Agreement.
5	
   Disposition Amount is stated after giving effect, if applicable, to sale of accrued principal and interest.

Sources: Treasury, Transactions Report, 1/4/2011, Treasury, response to SIGTARP data call, 1/14/2011.
                                                                                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I january 26, 2011
                                                                                                                                                                                                                                                                                                                                        267
 Table D.11                                                                                                                                                                                                                                                                                                       268

PPIP Transaction Detail, as of 12/31/2010                                                             (CONTINUED)

                                                                                                                                                                                                                      Investment after Capital
                                           Seller                                                                                        Adjusted Investment3    Final Investment Amount7 Capital Repayment Details         Repayment                     Distribution or Disposition

                                                                                                                                                                                                                                                                                                      Interest/
                                                                                                                                                                                                                                                                                                  Distributions
                                                                    Transaction     Investment            Investment   Pricing                                                          Repayment       Repayment                                                                                          Paid
Note   Date             Institution             City          State Type            Description              Amount Mechanism          Date          Amount        Date          Amount      Date          Amount            Amount    Description Date       Description      Proceeds            to Treasury

                                                                                    Debt Obligation
                  AG GECC PPIF                                                      w/ Contingent
2,6    10/30/2009 Master Fund, L.P.                                              
                                        Wilmington DE               Purchase        Proceeds          $2,222,222,222       Par   03/22/2010   $2,542,675,000 07/16/2010   $2,486,550,000
                                                                                                                                                                                                                                                                                                  $58,542,989
                  AG GECC PPIF                                                      Membership
1,6    10/30/2009 Master Fund, L.P.                                              
                                        Wilmington DE               Purchase        Interest          $1,111,111,111       Par   03/22/2010   $1,271,337,500 07/16/2010   $1,243,275,000

                  AllianceBernstein                                                 Debt Obligation
                  Legacy Securities                                                 w/ Contingent
2,6    10/02/2009 Master Fund, L.P.             Wilmington DE         Purchase      Proceeds          $2,222,222,222       Par   03/22/2010   $2,488,875,000 07/16/2010   $2,300,847,000
                                                                                                                                                                                                                                                                                                  $82,506,820
                  AllianceBernstein
                  Legacy Securities                                                 Membership
1,6    10/02/2009 Master Fund, L.P.             Wilmington DE         Purchase      Interest          $1,111,111,111       Par   03/22/2010   $1,244,437,500 07/16/2010   $1,150,423,500

                                                                                    Debt Obligation
                                                                                    w/ Contingent
2,6    10/02/2009 Blackrock PPIF, L.P. Wilmington DE                  Purchase      Proceeds          $2,222,222,222       Par   03/22/2010   $2,488,875,000 07/16/2010   $1,389,960,000
                                                                                                                                                                                                                                                                                                  $11,432,065
                                                                                    Membership
                                                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I january 26, 2011




1,6    10/02/2009 Blackrock PPIF, L.P. Wilmington DE                  Purchase      Interest          $1,111,111,111       Par   03/22/2010   $1,244,437,500 07/16/2010     $694,980,000

                  Invesco Legacy
                  Securities Master                                                 Membership
1,6    09/30/2009 Fund, L.P.                    Wilmington DE         Purchase      Interest          $1,111,111,111       Par   03/22/2010   $1,244,437,500 07/16/2010     $856,000,000

                                                                                                                                                                                                                                       Debt
                                                                                                                                                                                                                                       Obligation w/
                                                                                                                                                                                                                                       Contingent
                                                                                                                                                                                           02/18/2010    $4,888,718   $1,707,111,282   Proceeds

                                                                                                                                                                                                                                       Debt
                                                                                                                                                                                                                                       Obligation w/
                                                                                                                                                                                                                                       Contingent
                                                                                                                                                                                           04/15/2010    $7,066,434   $1,700,044,848   Proceeds
                                                                                                                                                                                                                                                                                                 $171,025,151
                                                                                                                                                                                                                                       Debt
                  Invesco Legacy                                                    Debt Obligation
                                                                                                                                                                                                                                       Obligation w/
2,6    09/30/2009 Securities Master             Wilmington DE         Purchase      w/ Contingent     $2,222,222,222       Par   03/22/2010   $2,488,875,000 07/16/2010   $1,712,000,000
                                                                                                                                                                                                                                       Contingent
                  Fund, L.P.                                                        Proceeds
                                                                                                                                                                                           09/15/2010   $60,022,674   $1,640,022,174   Proceeds

                                                                                                                                                                                                                                       Debt
                                                                                                                                                                                                                                       Obligation w/
                                                                                                                                                                                                                                       Contingent
                                                                                                                                                                                           11/15/2010 $132,928,628    $1,507,093,546   Proceeds

                                                                                                                                                                                                                                       Debt
                                                                                                                                                                                                                                       Obligation w/
                                                                                                                                                                                                                                       Contingent
                                                                                                                                                                                           12/14/2010   $31,689,230   $1,475,404,316   Proceeds

                  Marathon Legacy
                  Securities Public-                                                Debt Obligation
                  Private Investment                                                w/ Contingent
2,6    11/25/2009 Partnership, L.P.             Wilmington DE         Purchase      Proceeds          $2,222,222,222       Par   03/22/2010   $2,488,875,000 07/16/2010     $949,100,000
                                                                                                                                                                                                                                                                                                   $9,745,192
                  Marathon Legacy
                  Securities Public-
                  Private Investment                                                Membership
1,6    11/25/2009 Partnership, L.P.             Wilmington DE         Purchase      Interest          $1,111,111,111       Par   03/22/2010   $1,244,437,500 07/16/2010     $474,550,000

                                                                                    Debt Obligation
                  Oaktree PPIP Fund,                                                w/ Contingent
2,6    12/18/2009 L.P.               Wilmington DE                    Purchase      Proceeds          $2,222,222,222       Par   03/22/2010   $2,488,875,000 07/16/2010   $2,321,568,200
                                                                                                                                                                                                                                                                                                   $1,116,792
                  Oaktree PPIP Fund,                                                Membership
1,6    12/18/2009 L.P.               Wilmington DE                    Purchase      Interest          $1,111,111,111       Par   03/22/2010   $1,244,437,500 07/16/2010   $1,160,784,100

                  RLJ Western Asset                                                 Debt Obligation
                  Public/Private Mas-                                               w/ Contingent
2,6    11/04/2009 ter Fund, L.P.      Wilmington DE                   Purchase      Proceeds          $2,222,222,222       Par   03/22/2010   $2,488,875,000 07/16/2010   $1,241,156,516
                                                                                                                                                                                                                                                                                                  $52,010,734
                  RLJ Western Asset
                  Public/Private Mas-                                               Membership
1,6    11/04/2009 ter Fund, L.P.      Wilmington DE                   Purchase      Interest          $1,111,111,111       Par   03/22/2010   $1,244,437,500 07/16/2010     $620,578,258


                                                                                                                                                                                                                                                                                        Continued on next page.
    PPIP Transaction Detail, as of 12/31/2010                                                      (CONTINUED)

                                                                                                                                                                                                                                              Investment after Capital
                                        Seller                                                                                                Adjusted Investment3           Final Investment Amount7 Capital Repayment Details                     Repayment                            Distribution or Disposition

                                                                                                                                                                                                                                                                                                                                     Interest/
                                                                                                                                                                                                                                                                                                                                 Distributions
                                                              Transaction     Investment               Investment   Pricing                                                                             Repayment          Repayment                                                                                                      Paid
Note    Date           Institution          City        State Type            Description                 Amount Mechanism                  Date             Amount            Date              Amount      Date             Amount                  Amount     Description Date             Description        Proceeds         to Treasury

                                                                                                                                                                                                                                                                 Debt
                                                                                                                                                                                                                                                                 Obligation w/
                                                                                                                                                                                                                                                                 Contingent
                   UST/TCW Senior                                             Debt Obligation
                                                                                                                                                                                                           01/11/2010     $34,000,000          $166,000,000      Proceeds                     N/A
2,4,5   09/30/2009 Mortgage Securities Wilmington DE           Purchase       w/ Contingent       $2,222,222,222             Par    01/04/2010        $200,000,000                        $200,000,000
                   Fund, L.P.                                                 Proceeds
                                                                                                                                                                                                                                                                                 01/29/2010 Distribution             $502,302
                                                                                                                                                                                                                                                                 Contingent                                                         $342,176
                                                                                                                                                                                                           01/12/2010 $166,000,000                          $0
                                                                                                                                                                                                                                                                 Proceeds
                                                                                                                                                                                                                                                                                 02/24/2010 Final Distribution          $1,223

                   UST/TCW Senior                                                                                                                                                                                                                                                01/29/2010 Distribution          $20,091,872
                                                                              Membership                                                                                                                                                                         Membership
1,4,5   09/30/2009 Mortgage Securities Wilmington DE           Purchase                           $1,111,111,111             Par    01/04/2010        $156,250,000                        $156,250,000 01/15/2010 $156,250,000                              $0
                                                                              Interest                                                                                                                                                                           Interest
                   Fund, L.P.                                                                                                                                                                                                                                                    02/24/2010 Final Distribution         $48,922

                   Wellington
                   Management Legacy
    2,6 10/01/2009 Securities                                                 Debt Obligation
                    PPIF Master                                               w/ Contingent
                   Fund, LP          Wilmington DE             Purchase       Proceeds            $2,222,222,222             Par    03/22/2010      $2,524,075,000 07/16/2010           $2,298,974,000
                                                                                                                                                                                                                                                                                                                                 $22,504,685
                   Wellington
                   Management Legacy
    1,6 10/01/2009 Securities
                   PPIF Master                                                Membership
                   Fund, LP          Wilmington DE             Purchase       Interest            $1,111,111,111             Par    03/22/2010      $1,262,037,500 07/16/2010           $1,149,487,000



                                                                                                                                                                          Total Final               Total
                                                                              Initial Invest-                                       Total Invest-
                                                                                                $30,000,000,000                                   $30,356,250,000        Investment $22,406,483,574 Capital   $592,845,684                                                                    Total Proceeds $20,644,319
                                                                              ment Amount                                          ment Amount
                                                                                                                                                                            Amount                  Repayment


Notes: Numbers may not total due to rounding. Data as of 12/31/2010. Numbered notes were taken verbatim from Treasury’s 1/4/2011 Transactions Report.
1
  The equity amount may be incrementally funded. Investment amount represents Treasury’s maximum obligation if the limited partners other than Treasury fund their maximum equity capital obligations.
2
  The loan may be incrementally funded. Investment amount represents Treasury’s maximum obligation if Treasury and the limited partners other than Treasury fund 100% of their maximum equity obligations.
3
  Adjusted to show Treasury’s maximum obligations to a fund.
4
  On 1/4/2010, Treasury and the fund manager entered into a Winding-Up and Liquidation Agreement.
5
  Profit after capital repayments will be paid pro rata (subject to prior distribution of Contingent Proceeds to Treasury) to the fund’s partners, including Treasury, in respect of their membership interests.
6
  Following termination of the TCW fund, the $3.33 billion of obligations have been reallocated to the remaining eight funds pursuant to consent letters from Treasury dated as of 3/22/2010. $133 million of maximum equity capital obligation and $267 million of maximum debt obligation were reallocated per fund, after adjustment for
the $17.6 million and $26.9 million equity capital reallocations from private investors in the TCW fund to the Wellington fund and the AG GECC fund, respectively. The $356 million of final investment in the TCW fund will remain a part of Treasury’s total maximum S-PPIP investment amount.
7
  Amount adjusted to show Treasury’s final capital commitment (membership interest) and the maximum amount of Treasury’s debt obligation that may be drawn down in accordance with the Loan Agreement.

Sources: Treasury, Transactions Report, 1/4/2011; Treasury, response to SIGTARP data call, 1/11/2011.
                                                                                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I january 26, 2011
                                                                                                                                                                                                                                                                                                                                                 269
Table D.12                                                                                                                                                                                                                                                                            270


HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                       (CONTINUED)
            Servicer Modifying
            Borrowers’ Loans                                                                                                                      Adjustment Details                                                                  Non-GSE Incentive Payments

                                                                                    Cap of Incentive
                                                                                Payments on Behalf                                                                                                                                                                           Total
                                                                                of Borrowers and to                                               Cap                                                        Market                       Lenders/                       Non-GSE
            Name of                       Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment      Adjustment          Adjusted Reason for                    Capitalization     Borrowers        Investors      Servicers       Incentive
Date        Institution                   Type          Description                 Investors (Cap)1   Mechanism    Note         Date         Amount               Cap Adjustment                       (in Millions)     Incentive      Incentives     Incentives      Payments

                                                                                                                                                                          Updated portfolio data
                                                                                                                            6/12/2009    $284,590,000     $660,590,000    from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                                                                          from servicer & HPDP
                                                                                                                            9/30/2009    $121,910,000     $782,500,000    initial cap

                                                                                                                                                                          Updated portfolio data
                                                                                                                           12/30/2009    $131,340,000     $913,840,000    from servicer & HAFA
                                                                                                                                                                          initial cap

                                                                                                                                                                          Updated portfolio data
                                                                                                                            3/26/2010   ($355,530,000)    $558,310,000
            Select Portfolio Servicing,                                                                                                                                   from servicer
                                                        Financial Instrument
4/13/2009   Salt Lake City, UT
                                          Purchase      for Home Loan                 $376,000,000            N/A                                                                                                        $9,753,985    $24,945,066    $28,271,406     $62,970,456
                                                                                                                                                                          Updated portfolio data
                                                        Modifications                                                       7/14/2010    $128,690,000     $687,000,000
                                                                                                                                                                          from servicer
                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I january 26, 2011




                                                                                                                                                                          Initial FHA-HAMP cap and
                                                                                                                            9/30/2010      $4,000,000     $691,000,000
                                                                                                                                                                          initial FHA-2LP cap

                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2010     $59,807,784     $750,807,784
                                                                                                                                                                          from servicer

                                                                                                                                                                          Transfer of cap due to
                                                                                                                           11/16/2010       ($700,000)    $750,107,784
                                                                                                                                                                          servicing transfer

                                                                                                                                                                          Updated portfolio data
                                                                                                                           12/15/2010     $64,400,000     $814,507,784
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            6/12/2009   ($991,580,000)   $1,079,420,000
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2009   $1,010,180,000   $2,089,600,000   from servicer & HPDP
                                                                                                                                                                          initial cap

                                                                                                                                                                          Updated portfolio data
                                                                                                                           12/30/2009   ($105,410,000)   $1,984,190,000   from servicer & HAFA
                                                                                                                                                                          initial cap

                                                                                                                                                                          Updated portfolio data
                                                                                                                            3/26/2010   ($199,300,000)   $1,784,890,000   from servicer & 2MP
                                                                                                                                                                          initial cap

                                                                                                                                                                          Transfer of cap to
                                                                                                                            4/19/2010       ($230,000)   $1,784,660,000   Service One, Inc. due to
                                                        Financial Instrument                                                                                              servicing transfer
            CitiMortgage, Inc.,                         for Home Loan
4/13/2009                                 Purchase                                  $2,071,000,000            N/A                                                                                                       $11,160,233    $27,869,950    $31,504,057     $70,534,240
            O’Fallon, MO                                Modifications                                                                                                     Transfer of cap to
                                                                                                                                                                          Specialized Loan Servic-
                                                                                                                            5/14/2010     ($3,000,000)   $1,781,660,000
                                                                                                                                                                          ing, LLC due to servicing
                                                                                                                                                                          transfer

                                                                                                                                                                          Transfer of cap to
                                                                                                                            6/16/2010    ($12,280,000)   $1,769,380,000   multiple servicers due to
                                                                                                                                                                          servicing transfer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            7/14/2010   ($757,680,000)   $1,011,700,000
                                                                                                                                                                          from servicer

                                                                                                                                                                          Transfer of cap to
                                                                                                                            7/16/2010     ($7,110,000)   $1,004,590,000   multiple servicers due to
                                                                                                                                                                          servicing transfer

                                                                                                                                                                          Transfer of cap to
                                                                                                                            8/13/2010     ($6,300,000)    $998,290,000    multiple servicers due to
                                                                                                                                                                          servicing transfer

                                                                                                                                                                                                                                                            Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                 (CONTINUED)
            Servicer Modifying
            Borrowers’ Loans                                                                                                                Adjustment Details                                                                  Non-GSE Incentive Payments

                                                                              Cap of Incentive
                                                                          Payments on Behalf                                                                                                                                                                           Total
                                                                          of Borrowers and to                                               Cap                                                        Market                       Lenders/                       Non-GSE
            Name of                 Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment      Adjustment          Adjusted Reason for                    Capitalization     Borrowers        Investors      Servicers       Incentive
Date        Institution             Type          Description                 Investors (Cap)1   Mechanism    Note         Date         Amount               Cap Adjustment                       (in Millions)     Incentive      Incentives     Incentives      Payments

                                                                                                                                                                    Transfer of cap to
                                                                                                                      9/15/2010     ($8,300,000)    $989,990,000    multiple servicers due to
                                                                                                                                                                    servicing transfer

                                                                                                                                                                    Initial FHA-HAMP cap and
                                                                                                                      9/30/2010     $32,400,000    $1,022,390,000
                                                                                                                                                                    initial FHA-2LP cap
                                                  Financial Instrument
            CitiMortgage, Inc.,
4/13/2009                           Purchase      for Home Loan               $2,071,000,000            N/A                                                         Updated portfolio data                        $11,160,233    $27,869,950    $31,504,057     $70,534,240
            O’Fallon, MO                                                                                              9/30/2010    $101,287,484    $1,123,677,484
                                                  Modifications                                                                                                     from servicer

                                                                                                                                                                    Transfer of cap due to
                                                                                                                     10/15/2010      -$1,400,000   $1,122,277,484
                                                                                                                                                                    servicing transfer

                                                                                                                                                                    Transfer of cap due to
                                                                                                                     11/16/2010      -$3,200,000   $1,119,077,484
                                                                                                                                                                    servicing transfer

                                                                                                                                                                    Updated portfolio data
                                                                                                                      6/17/2009    -$462,990,000   $2,410,010,000
                                                                                                                                                                    from servicer

                                                                                                                                                                    Updated portfolio data
                                                                                                                      9/30/2009     $65,070,000    $2,475,080,000   from servicer & HPDP
                                                                                                                                                                    initial cap

                                                                                                                                                                    Updated portfolio data
                                                                                                                     12/30/2009   $1,213,310,000   $3,688,390,000   from servicer & HAFA
                                                                                                                                                                    initial cap

                                                                                                                                                                    Transfer of cap (from
                                                                                                                      2/17/2010   $2,050,236,344   $5,738,626,344
                                                                                                                                                                    Wachovia) due to merger

                                                                                                                                                                    Transfer of cap (from
                                                                                                                      3/12/2010         $54,767    $5,738,681,110
                                                                                                                                                                    Wachovia) due to merger

                                                  Financial Instrument                                                3/19/2010    $668,108,890    $6,406,790,000   Initial 2MP cap
            Wells Fargo Bank, NA,
4/13/2009                           Purchase      for Home Loan               $2,873,000,000            N/A                                                                                         $162,660       $7,046,868    $34,916,749    $37,174,149     $79,137,766
            Des Moines, IA
                                                  Modifications                                                                                                     Updated portfolio data
                                                                                                                      3/26/2010    $683,130,000    $7,089,920,000
                                                                                                                                                                    from servicer

                                                                                                                                                                    Updated portfolio data
                                                                                                                      7/14/2010 ($2,038,220,000)   $5,051,700,000
                                                                                                                                                                    from servicer

                                                                                                                                                                    Updated portfolio data
                                                                                                                      9/30/2010   ($287,348,828)   $4,764,351,172
                                                                                                                                                                    from servicer

                                                                                                                                                                    Initial FHA-HAMP cap,
                                                                                                                      9/30/2010    $344,000,000    $5,108,351,172   initial FHA-2LP cap, and
                                                                                                                                                                    initial RD-HAMP

                                                                                                                                                                    Transfer of cap (from
                                                                                                                      12/3/2010      $8,413,225    $5,116,764,397
                                                                                                                                                                    Wachovia) due to merger

                                                                                                                                                                    Updated portfolio data
                                                                                                                     12/15/2010     $22,200,000    $5,138,964,397
                                                                                                                                                                    from servicer

                                                                                                                                                                    Updated portfolio data
                                                                                                                      6/12/2009    $384,650,000    $1,017,650,000
                                                                                                                                                                    from servicer

                                                                                                                                                                    Updated portfolio data
                                                                                                                      9/30/2009   $2,537,240,000   $3,554,890,000   from servicer & HPDP
                                                                                                                                                                    initial cap

                                                                                                                                                                    Updated portfolio data
                                                                                                                     12/30/2009 ($1,679,520,000)   $1,875,370,000   from servicer & HAFA
                                                  Financial Instrument                                                                                              initial cap
            GMAC Mortgage, Inc.,
4/13/2009                           Purchase      for Home Loan                 $633,000,000            N/A                                                                                                        $5,900,472    $24,689,646    $22,407,309     $52,997,426
            Ft. Washington, PA
                                                  Modifications                                                                                                     Updated portfolio data
                                                                                                                      3/26/2010    $190,180,000    $2,065,550,000
                                                                                                                                                                    from servicer

                                                                                                                                                                    Transfer of cap from
                                                                                                                                                                    Wilshire Credit Corpora-
                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I january 26, 2011




                                                                                                                      5/14/2010      $1,880,000    $2,067,430,000
                                                                                                                                                                    tion due to servicing
                                                                                                                                                                    transfer

                                                                                                                                                                    Updated portfolio data
                                                                                                                      7/14/2010   ($881,530,000)   $1,185,900,000
                                                                                                                                                                    from servicer

                                                                                                                                                                                                                                                      Continued on next page.
                                                                                                                                                                                                                                                                                271
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                    (CONTINUED)                                                                                                                                                                          272
            Servicer Modifying
            Borrowers’ Loans                                                                                                                   Adjustment Details                                                                 Non-GSE Incentive Payments

                                                                                 Cap of Incentive
                                                                             Payments on Behalf                                                                                                                                                                          Total
                                                                             of Borrowers and to                                               Cap                                                        Market                      Lenders/                       Non-GSE
            Name of                    Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment      Adjustment          Adjusted Reason for                    Capitalization    Borrowers        Investors      Servicers       Incentive
Date        Institution                Type          Description                 Investors (Cap)1   Mechanism    Note         Date         Amount               Cap Adjustment                       (in Millions)    Incentive      Incentives     Incentives      Payments

                                                                                                                                                                        Transfer of cap due to
                                                                                                                         8/13/2010     ($3,700,000)   $1,182,200,000
                                                                                                                                                                        servicing transfer

                                                                                                                                                                        Initial FHA-HAMP cap,
                                                                                                                         9/30/2010    $119,200,000    $1,301,400,000    initial FHA-2LP cap, and
                                                     Financial Instrument
            GMAC Mortgage, Inc.,                                                                                                                                        initial 2MP cap
4/13/2009                              Purchase      for Home Loan                 $633,000,000            N/A                                                                                                       $5,900,472    $24,689,646    $22,407,309     $52,997,426
            Ft. Washington, PA
                                                     Modifications
                                                                                                                                                                        Updated portfolio data
                                                                                                                         9/30/2010    $216,998,139    $1,518,398,139
                                                                                                                                                                        from servicer

                                                                                                                                                                        Updated portfolio data
                                                                                                                        12/15/2010       ($500,000)   $1,517,898,139
                                                                                                                                                                        from servicer

                                                                                                                                                                        Updated portfolio data
                                                                                                                         6/17/2009    $225,040,000     $632,040,000
                                                                                                                                                                        from servicer

                                                                                                                                                                        Updated portfolio data
                                                                                                                         9/30/2009    $254,380,000     $886,420,000     from servicer & HPDP
                                                                                                                                                                        initial cap

                                                                                                                                                                        Updated portfolio data
                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I january 26, 2011




                                                                                                                        12/30/2009    $355,710,000    $1,242,130,000    from servicer & HAFA
                                                                                                                                                                        initial cap

                                                                                                                                                                        Updated portfolio data
                                                                                                                         3/26/2010    ($57,720,000)   $1,184,410,000
                                                                                                                                                                        from servicer

                                                                                                                                                                        Transfer of cap to
                                                                                                                                                                        Ocwen Financial
                                                                                                                         6/16/2010   ($156,050,000)   $1,028,360,000
                                                                                                                                                                        Corporation, Inc. due to
                                                                                                                                                                        servicing transfer
                                                     Financial Instrument
            Saxon Mortgage Services,                                                                                                                                    Updated portfolio data
4/13/2009                              Purchase      for Home Loan                 $407,000,000            N/A           7/14/2010   ($513,660,000)    $514,700,000                                                  $8,690,167    $14,851,009    $23,835,057     $47,376,233
            Inc., Irving, TX                                                                                                                                            from servicer
                                                     Modifications
                                                                                                                                                                        Transfer of cap due
                                                                                                                         7/16/2010    ($22,980,000)    $491,720,000     to multiple servicing
                                                                                                                                                                        transfers

                                                                                                                                                                        Transfer of cap due to
                                                                                                                         9/15/2010      $1,800,000     $493,520,000
                                                                                                                                                                        servicing transfer

                                                                                                                                                                        Initial FHA-HAMP cap and
                                                                                                                         9/30/2010      $9,800,000     $503,320,000
                                                                                                                                                                        initial FHA-2LP cap

                                                                                                                                                                        Updated portfolio data
                                                                                                                         9/30/2010    $116,222,668     $619,542,668
                                                                                                                                                                        from servicer

                                                                                                                                                                        Transfer of cap due to
                                                                                                                        10/15/2010        $100,000     $619,642,668
                                                                                                                                                                        servicing transfer

                                                                                                                                                                        Updated portfolio data
                                                                                                                        12/15/2010      $8,900,000     $628,542,668
                                                                                                                                                                        from servicer

                                                     Financial Instrument
            Chase Home Finance, LLC,
4/13/2009                              Purchase      for Home Loan               $3,552,000,000            N/A     2     7/31/2009 ($3,552,000,000)                 —   Termination of SPA
            Iselin, NJ
                                                     Modifications

                                                                                                                                                                                                                                                        Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                   (CONTINUED)
             Servicer Modifying
             Borrowers’ Loans                                                                                                                 Adjustment Details                                                                Non-GSE Incentive Payments

                                                                                Cap of Incentive
                                                                            Payments on Behalf                                                                                                                                                                         Total
                                                                            of Borrowers and to                                               Cap                                                       Market                      Lenders/                       Non-GSE
             Name of                  Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment      Adjustment          Adjusted Reason for                   Capitalization    Borrowers        Investors      Servicers       Incentive
Date         Institution              Type          Description                 Investors (Cap)1   Mechanism    Note         Date         Amount               Cap Adjustment                      (in Millions)    Incentive      Incentives     Incentives      Payments

                                                                                                                                                                      Updated portfolio data
                                                                                                                        6/12/2009   ($105,620,000)    $553,380,000
                                                                                                                                                                      from servicer

                                                                                                                                                                      Updated portfolio data
                                                                                                                        9/30/2009    $102,580,000     $655,960,000    from servicer & HPDP
                                                                                                                                                                      initial cap

                                                                                                                                                                      Updated portfolio data
                                                                                                                       12/30/2009    $277,640,000     $933,600,000    from servicer & HAFA
                                                                                                                                                                      initial cap

                                                                                                                                                                      Updated portfolio data
                                                                                                                        3/26/2010     $46,860,000     $980,460,000
                                                                                                                                                                      from servicer

                                                                                                                                                                      Transfer of cap from
                                                                                                                                                                      Saxon Mortgage
             Ocwen Financial                        Financial Instrument                                                6/16/2010    $156,050,000    $1,136,510,000
                                                                                                                                                                      Services, Inc. due to
4/16/2009    Corporation, Inc.,       Purchase      for Home Loan                 $659,000,000            N/A                                                                                             $959     $9,173,329    $25,462,557    $25,566,629     $60,202,515
                                                                                                                                                                      servicing transfer
             West Palm Beach, FL                    Modifications
                                                                                                                                                                      Updated portfolio data
                                                                                                                        7/14/2010   ($191,610,000)    $944,900,000
                                                                                                                                                                      from servicer

                                                                                                                                                                      Transfer of cap from
                                                                                                                                                                      Saxon Mortgage
                                                                                                                        7/16/2010     $23,710,000     $968,610,000
                                                                                                                                                                      Services, Inc. due to
                                                                                                                                                                      servicing transfer

                                                                                                                        9/15/2010        $100,000     $968,710,000    Initial FHA-HAMP cap

                                                                                                                                                                      Updated portfolio data
                                                                                                                        9/30/2010      $3,742,740     $972,452,740
                                                                                                                                                                      from servicer

                                                                                                                                                                      Transfer of cap due to
                                                                                                                       10/15/2010    $170,800,000    $1,143,252,740
                                                                                                                                                                      servicing transfer

                                                                                                                                                                      Updated portfolio data
                                                                                                                        6/12/2009      $5,540,000     $804,440,000
                                                                                                                                                                      from servicer

                                                                                                                                                                      Updated portfolio data
                                                                                                                        9/30/2009    $162,680,000     $967,120,000    from servicer & HPDP
                                                                                                                                                                      initial cap

                                                                                                                                                                      Updated portfolio data
                                                                                                                       12/30/2009    $665,510,000    $1,632,630,000   from servicer & HAFA
                                                                                                                                                                      initial cap
4/17/2009
                                                    Financial Instrument
as amended   Bank of America, N.A.,                                                                                     1/26/2010    $800,390,000    $2,433,020,000   Initial 2MP cap
                                      Purchase      for Home Loan                 $798,900,000            N/A                                                                                        $134,536       $803,086      $3,812,809     $4,290,272      $8,906,167
on           Simi Valley, CA
                                                    Modifications
1/26/2010                                                                                                                                                             Updated portfolio data
                                                                                                                        3/26/2010   ($829,370,000)   $1,603,650,000
                                                                                                                                                                      from servicer

                                                                                                                                                                      Updated portfolio data
                                                                                                                        7/14/2010   ($366,750,000)   $1,236,900,000
                                                                                                                                                                      from servicer

                                                                                                                                                                      Initial FHA-HAMP cap,
                                                                                                                        9/30/2010     $95,300,000    $1,332,200,000   initial FHA-2LP cap, and
                                                                                                                                                                      initial RD-HAMP

                                                                                                                                                                      Updated portfolio data
                                                                                                                        9/30/2010    $222,941,084    $1,555,141,084
                                                                                                                                                                      from servicer

                                                                                                                                                                                                                                                      Continued on next page.
                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I january 26, 2011
                                                                                                                                                                                                                                                                                273
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                      (CONTINUED)                                                                                                                                                                          274
             Servicer Modifying
             Borrowers’ Loans                                                                                                                    Adjustment Details                                                                 Non-GSE Incentive Payments

                                                                                   Cap of Incentive
                                                                               Payments on Behalf                                                                                                                                                                          Total
                                                                               of Borrowers and to                                               Cap                                                       Market                       Lenders/                       Non-GSE
             Name of                     Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment      Adjustment          Adjusted Reason for                   Capitalization     Borrowers        Investors      Servicers       Incentive
Date         Institution                 Type          Description                 Investors (Cap)1   Mechanism    Note         Date         Amount               Cap Adjustment                      (in Millions)     Incentive      Incentives     Incentives      Payments

                                                                                                                                                                         Updated portfolio data
                                                                                                                           6/12/2009   $3,318,840,000   $5,182,840,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                           9/30/2009   ($717,420,000)   $4,465,420,000   from servicer & HPDP
                                                                                                                                                                         initial cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                          12/30/2009   $2,290,780,000   $6,756,200,000   from servicer & HAFA
                                                                                                                                                                         initial cap

                                                                                                                           1/26/2010    $450,100,000    $7,206,300,000   Initial 2MP cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                           3/26/2010    $905,010,000    $8,111,310,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Transfer of cap from
4/17/2009
             Countrywide Home Loans                    Financial Instrument                                                                                              Wilshire Credit Corpora-
as amended                                                                                                                 4/19/2010     $10,280,000    $8,121,590,000
             Servicing LP,               Purchase      for Home Loan               $1,864,000,000            N/A                                                         tion due to servicing                        $13,307,093    $34,737,482    $38,240,562     $86,285,137
on
             Simi Valley, CA                           Modifications                                                                                                     transfer
1/26/2010
                                                                                                                                                                                                                                                                                    Appendix D I Transaction Detail I january 26, 2011




                                                                                                                                                                         Transfer of cap from
                                                                                                                                                                         Wilshire Credit Corpora-
                                                                                                                           6/16/2010    $286,510,000    $8,408,100,000
                                                                                                                                                                         tion due to servicing
                                                                                                                                                                         transfer

                                                                                                                                                                         Updated portfolio data
                                                                                                                           7/14/2010 ($1,787,300,000)   $6,620,800,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Initial FHA-HAMP cap,
                                                                                                                           9/30/2010    $105,500,000    $6,726,300,000   initial FHA-2LP cap, and
                                                                                                                                                                         initial RD-HAMP

                                                                                                                                                                         Updated portfolio data
                                                                                                                           9/30/2010   ($614,527,362)   $6,111,772,638
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                          12/15/2010    $236,000,000    $6,347,772,638
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                           6/12/2009    $128,300,000     $447,300,000
                                                                                                                                                                         from servicer


                                                                                                                                                                         Updated portfolio data
                                                                                                                           9/30/2009     $46,730,000     $494,030,000    from servicer & HPDP
                                                                                                                                                                         initial cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                          12/30/2009    $145,820,000     $639,850,000    from servicer & HAFA
                                                                                                                                                                         initial cap
                                                       Financial Instrument
             Home Loan Services, Inc.,
4/20/2009                                Purchase      for Home Loan                 $319,000,000            N/A                                                         Updated portfolio data                         $169,858      $2,440,987     $3,698,607      $6,309,452
             Pittsburgh, PA                                                                                                3/26/2010    ($17,440,000)    $622,410,000
                                                       Modifications                                                                                                     from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                           7/14/2010    ($73,010,000)    $549,400,000
                                                                                                                                                                         from servicer

                                                                                                                           9/30/2010      $6,700,000     $556,100,000    Initial FHA-2LP cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                           9/30/2010    ($77,126,410)    $478,973,590
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                          12/15/2010   ($314,900,000)    $164,073,590
                                                                                                                                                                         from servicer

                                                                                                                                                                                                                                                          Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                     (CONTINUED)
            Servicer Modifying
            Borrowers’ Loans                                                                                                                    Adjustment Details                                                               Non-GSE Incentive Payments

                                                                                  Cap of Incentive
                                                                              Payments on Behalf                                                                                                                                                                        Total
                                                                              of Borrowers and to                                               Cap                                                      Market                      Lenders/                       Non-GSE
            Name of                     Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment      Adjustment          Adjusted Reason for                  Capitalization    Borrowers        Investors      Servicers       Incentive
Date        Institution                 Type          Description                 Investors (Cap)1   Mechanism    Note         Date         Amount               Cap Adjustment                     (in Millions)    Incentive      Incentives     Incentives      Payments

                                                                                                                                                                       Updated portfolio data
                                                                                                                          6/12/2009     $87,130,000     $453,130,000
                                                                                                                                                                       from servicer

                                                                                                                                                                       Updated portfolio data
                                                                                                                          9/30/2009   ($249,670,000)    $203,460,000   from servicer & HPDP
                                                                                                                                                                       initial cap

                                                                                                                                                                       Updated portfolio data
                                                                                                                         12/30/2009    $119,700,000     $323,160,000   from servicer & HAFA
                                                                                                                                                                       initial cap

                                                                                                                                                                       Updated portfolio data
                                                                                                                          3/26/2010     $52,270,000     $375,430,000
                                                                                                                                                                       from servicer

                                                                                                                                                                       Transfer of cap to Coun-
                                                                                                                          4/19/2010    ($10,280,000)    $365,150,000   trywide Home Loans due
                                                                                                                                                                       to servicing transfer
                                                      Financial Instrument
            Wilshire Credit Corporation,                                                                                                                               Transfer of cap to GMAC
4/20/2009                                Purchase     for Home Loan                 $366,000,000            N/A                                                                                                            —         $490,394     $1,167,000      $1,657,394
            Beaverton, OR                                                                                                 5/14/2010     ($1,880,000)    $363,270,000   Mortgage, Inc. due to
                                                      Modifications
                                                                                                                                                                       servicing transfer

                                                                                                                                                                       Transfer of cap to Coun-
                                                                                                                          6/16/2010   ($286,510,000)     $76,760,000   trywide Home Loans due
                                                                                                                                                                       to servicing transfer

                                                                                                                                                                       Updated portfolio data
                                                                                                                          7/14/2010     $19,540,000      $96,300,000
                                                                                                                                                                       from servicer

                                                                                                                                                                       Transfer of cap to Green
                                                                                                                          7/16/2010       ($210,000)     $96,090,000   Tree Servicing LLC due
                                                                                                                                                                       to servicing transfer

                                                                                                                                                                       Transfer of cap due to
                                                                                                                          8/13/2010       ($100,000)     $95,990,000
                                                                                                                                                                       servicing transfer

                                                                                                                                                                       Updated portfolio data
                                                                                                                          9/30/2010     $68,565,782     $164,555,782
                                                                                                                                                                       from servicer

                                                                                                                                                                       Updated portfolio data
                                                                                                                          6/17/2009    ($64,990,000)     $91,010,000
                                                                                                                                                                       from servicer

                                                                                                                                                                       Updated portfolio data
                                                                                                                          9/30/2009    $130,780,000     $221,790,000   from servicer & HPDP
                                                                                                                                                                       initial cap

                                                                                                                                                                       Updated portfolio data
                                                                                                                         12/30/2009   ($116,750,000)    $105,040,000   from servicer & HAFA
                                                                                                                                                                       initial cap

                                                                                                                                                                       Updated portfolio data
                                                                                                                          3/26/2010     $13,080,000     $118,120,000
                                                                                                                                                                       from servicer

                                                                                                                                                                       Updated portfolio data
                                                                                                                          7/14/2010    ($24,220,000)     $93,900,000
                                                                                                                                                                       from servicer
                                                      Financial Instrument
            Green Tree Servicing LLC,
4/24/2009                               Purchase      for Home Loan                 $156,000,000            N/A                                                                                                       $61,520        $104,817       $223,144        $389,480
            Saint Paul, MN                                                                                                                                             Transfer of cap from
                                                      Modifications
                                                                                                                                                                       Wilshire Credit Corpora-
                                                                                                                          7/16/2010        $210,000      $94,110,000
                                                                                                                                                                       tion due to servicing
                                                                                                                                                                       transfer

                                                                                                                                                                       Transfer of cap due to
                                                                                                                          8/13/2010      $2,200,000      $96,310,000
                                                                                                                                                                       servicing transfer

                                                                                                                          9/10/2010     $34,600,000     $130,910,000   Initial 2MP cap

                                                                                                                                                                       Initial FHA-2LP cap and
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I january 26, 2011




                                                                                                                          9/30/2010      $5,600,000     $136,510,000
                                                                                                                                                                       FHA-HAMP

                                                                                                                                                                       Updated portfolio data
                                                                                                                          9/30/2010     $10,185,090     $146,695,090
                                                                                                                                                                       from servicer

                                                                                                                                                                       Transfer of cap due to
                                                                                                                         10/15/2010        $400,000     $147,095,090
                                                                                                                                                                       servicing transfer
                                                                                                                                                                                                                                                                                 275




                                                                                                                                                                                                                                                       Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                    (CONTINUED)                                                                                                                                                                      276
            Servicer Modifying
            Borrowers’ Loans                                                                                                                   Adjustment Details                                                             Non-GSE Incentive Payments

                                                                                 Cap of Incentive
                                                                             Payments on Behalf                                                                                                                                                                      Total
                                                                             of Borrowers and to                                               Cap                                                    Market                      Lenders/                       Non-GSE
            Name of                    Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment      Adjustment          Adjusted Reason for                Capitalization    Borrowers        Investors      Servicers       Incentive
Date        Institution                Type          Description                 Investors (Cap)1   Mechanism    Note         Date         Amount               Cap Adjustment                   (in Millions)    Incentive      Incentives     Incentives      Payments

                                                                                                                                                                      Updated portfolio data
                                                                                                                         6/17/2009    ($63,980,000)    $131,020,000
                                                                                                                                                                      from servicer

                                                                                                                                                                      Updated portfolio data
                                                                                                                         9/30/2009     $90,990,000     $222,010,000   from servicer & HPDP
                                                                                                                                                                      initial cap

                                                                                                                                                                      Updated portfolio data
                                                                                                                        12/30/2009     $57,980,000     $279,990,000   from servicer & HAFA
                                                                                                                                                                      initial cap
            Carrington Mortgage                      Financial Instrument                                                                                             Updated portfolio data
4/27/2009   Services, LLC,             Purchase      for Home Loan                 $195,000,000            N/A           3/26/2010     $74,520,000     $354,510,000                                              $1,225,079     $4,859,114     $4,405,103     $10,489,296
                                                                                                                                                                      from servicer
            Santa Ana, CA                            Modifications
                                                                                                                                                                      Updated portfolio data
                                                                                                                         7/14/2010    ($75,610,000)    $278,900,000
                                                                                                                                                                      from servicer

                                                                                                                                                                      Transfer of cap due to
                                                                                                                         8/13/2010      $1,100,000     $280,000,000
                                                                                                                                                                      servicing transfer

                                                                                                                                                                      Updated portfolio data
                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I january 26, 2011




                                                                                                                         9/30/2010      $3,763,685     $283,763,685
                                                                                                                                                                      from servicer

                                                                                                                                                                      Updated portfolio data
                                                                                                                        12/15/2010        $300,000     $284,063,685
                                                                                                                                                                      from servicer

                                                                                                                                                                      Updated portfolio data
                                                                                                                         6/17/2009   ($338,450,000)    $459,550,000
                                                                                                                                                                      from servicer

                                                                                                                                                                      Updated portfolio data
                                                                                                                         9/30/2009    ($11,860,000)    $447,690,000   from servicer & HPDP
                                                                                                                                                                      initial cap

                                                                                                                                                                      Updated portfolio data
                                                                                                                        12/30/2009     $21,330,000     $469,020,000   from servicer & HAFA
                                                     Financial Instrument
            Aurora Loan Services, LLC,                                                                                                                                initial cap
5/1/2009                               Purchase      for Home Loan                 $798,000,000            N/A                                                                                                   $3,279,274    $10,085,459    $10,156,226     $23,520,959
            Littleton, CO
                                                     Modifications
                                                                                                                                                                      Updated portfolio data
                                                                                                                         3/26/2010      $9,150,000     $478,170,000
                                                                                                                                                                      from servicer

                                                                                                                                                                      Updated portfolio data
                                                                                                                         7/14/2010    ($76,870,000)    $401,300,000
                                                                                                                                                                      from servicer

                                                                                                                          9/1/2010        $400,000     $401,700,000   Initial FHA-HAMP cap

                                                                                                                                                                      Updated portfolio data
                                                                                                                         9/30/2010     ($8,454,269)    $393,245,731
                                                                                                                                                                      from servicer

                                                                                                                                                                      Updated portfolio data
                                                                                                                         6/12/2009     $16,140,000     $117,140,000
                                                                                                                                                                      from servicer

                                                                                                                                                                      Updated portfolio data
                                                                                                                         9/30/2009    $134,560,000     $251,700,000   from servicer & HPDP
                                                                                                                                                                      initial cap

                                                                                                                                                                      Updated portfolio data
                                                     Financial Instrument
            Nationstar Mortgage LLC,                                                                                    12/30/2009     $80,250,000     $331,950,000   from servicer & HAFA
5/28/2009                              Purchase      for Home Loan                 $101,000,000            N/A                                                                                                   $2,099,086     $5,650,177     $6,930,651     $14,679,914
            Lewisville, TX                                                                                                                                            initial cap
                                                     Modifications
                                                                                                                                                                      Updated portfolio data
                                                                                                                         3/26/2010     $67,250,000     $399,200,000
                                                                                                                                                                      from servicer

                                                                                                                                                                      Updated portfolio data
                                                                                                                         7/14/2010    ($85,900,000)    $313,300,000
                                                                                                                                                                      from servicer

                                                                                                                                                                      Transfer of cap due to
                                                                                                                         8/13/2010        $100,000     $313,400,000
                                                                                                                                                                      servicing transfer

                                                                                                                                                                                                                                                    Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                     (CONTINUED)
            Servicer Modifying
            Borrowers’ Loans                                                                                                                    Adjustment Details                                                                    Non-GSE Incentive Payments

                                                                                  Cap of Incentive
                                                                              Payments on Behalf                                                                                                                                                                             Total
                                                                              of Borrowers and to                                               Cap                                                           Market                      Lenders/                       Non-GSE
            Name of                     Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment      Adjustment          Adjusted Reason for                       Capitalization    Borrowers        Investors      Servicers       Incentive
Date        Institution                 Type          Description                 Investors (Cap)1   Mechanism    Note         Date         Amount               Cap Adjustment                          (in Millions)    Incentive      Incentives     Incentives      Payments

                                                                                                                                                                        Initial FHA-HAMP cap,
                                                                                                                                                                        initial FHA-2LP cap, initial
                                                                                                                          9/30/2010      $2,900,000     $316,300,000
                                                                                                                                                                        RD-HAMP, and initial
                                                                                                                                                                        2MP cap

                                                      Financial Instrument                                                                                              Updated portfolio data
            Nationstar Mortgage LLC,                                                                                      9/30/2010     $33,801,486     $350,101,486
5/28/2009                               Purchase      for Home Loan                 $101,000,000            N/A                                                         from servicer                                    $2,099,086     $5,650,177     $6,930,651     $14,679,914
            Lewisville
                                                      Modifications
                                                                                                                                                                        Transfer of cap due to
                                                                                                                         11/16/2010        $700,000     $350,801,486
                                                                                                                                                                        servicing transfer

                                                                                                                                                                        Updated portfolio data
                                                                                                                         12/15/2010      $1,700,000     $352,501,486
                                                                                                                                                                        from servicer

                                                                                                                                                                        Updated portfolio data
                                                                                                                          9/30/2009     ($1,860,000)     $17,540,000    from servicer & HPDP
                                                                                                                                                                        initial cap

                                                                                                                                                                        Updated portfolio data
                                                                                                                         12/30/2009     $27,920,000      $45,460,000    from servicer & HAFA
                                                                                                                                                                        initial cap

                                                                                                                                                                        Updated portfolio data
                                                      Financial Instrument                                                3/26/2010     ($1,390,000)     $44,070,000
            Residential Credit                                                                                                                                          from servicer
6/12/2009                               Purchase      for Home Loan                  $19,400,000            N/A                                                                                                            $91,549        $364,574       $444,961        $901,084
            Solutions, Fort Worth, TX
                                                      Modifications
                                                                                                                                                                        Updated portfolio data
                                                                                                                          7/14/2010    ($13,870,000)     $30,200,000
                                                                                                                                                                        from servicer

                                                                                                                                                                        Initial FHA-HAMP cap,
                                                                                                                          9/30/2010        $400,000      $30,600,000    initial FHA-2LP cap, and
                                                                                                                                                                        initial 2MP cap

                                                                                                                                                                        Updated portfolio data
                                                                                                                          9/30/2010        $586,954      $31,186,954
                                                                                                                                                                        from servicer

                                                                                                                                                                        Updated portfolio data
                                                                                                                          9/30/2009     $13,070,000      $29,590,000    from servicer & HPDP
                                                                                                                                                                        initial cap

                                                                                                                                                                        Updated portfolio data
                                                                                                                         12/30/2009    $145,510,000     $175,100,000    from servicer & HAFA
                                                                                                                                                                        initial cap
                                                      Financial Instrument
            CCO Mortgage,
6/17/2009                               Purchase      for Home Loan                  $16,520,000            N/A                                                                                                           $212,654        $626,974       $553,581      $1,393,209
            Glen Allen, VA                                                                                                                                              Updated portfolio data
                                                      Modifications                                                       3/26/2010   ($116,950,000)     $58,150,000
                                                                                                                                                                        from servicer

                                                                                                                                                                        Updated portfolio data
                                                                                                                          7/14/2010    ($23,350,000)     $34,800,000
                                                                                                                                                                        from servicer

                                                                                                                                                                        Updated portfolio data
                                                                                                                          9/30/2010      $7,846,346      $42,646,346
                                                                                                                                                                        from servicer

                                                                                                                                                                        Updated portfolio data
                                                                                                                          9/30/2009    ($11,300,000)     $45,700,000    from servicer & HPDP
                                                                                                                                                                        initial cap

                                                                                                                                                                        Updated portfolio data
                                                                                                                         12/30/2009    ($42,210,000)       $3,490,000   from servicer & HAFA
                                                                                                                                                                        initial cap

                                                                                                                                                                        Updated portfolio data
                                                                                                                          3/26/2010     $65,640,000      $69,130,000
                                                                                                                                                                        from servicer
                                                      Financial Instrument
            RG Mortgage Corporation,
6/17/2009                               Purchase      for Home Loan                  $57,000,000            N/A                                                                                                           $164,853        $227,582       $401,334        $793,769
            San Juan, PR                                                                                                                                                Updated portfolio data
                                                      Modifications                                                        4/9/2010    ($14,470,000)     $54,660,000
                                                                                                                                                                        from servicer

                                                                                                                                                                        Updated portfolio data
                                                                                                                          7/14/2010     ($8,860,000)     $45,800,000
                                                                                                                                                                        from servicer
                                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I january 26, 2011




                                                                                                                                                                        Updated portfolio data
                                                                                                                          9/30/2010     ($4,459,154)     $41,340,846
                                                                                                                                                                        from servicer

                                                                                                                                                                        Updated portfolio data
                                                                                                                         12/15/2010     ($4,300,000)     $37,040,846
                                                                                                                                                                        from servicer

                                                                                                                                                                                                                                                            Continued on next page.
                                                                                                                                                                                                                                                                                      277
                                                                                                                                                                                                                                                                                   278
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                     (CONTINUED)
            Servicer Modifying
            Borrowers’ Loans                                                                                                                    Adjustment Details                                                                 Non-GSE Incentive Payments

                                                                                  Cap of Incentive
                                                                              Payments on Behalf                                                                                                                                                                          Total
                                                                              of Borrowers and to                                               Cap                                                        Market                      Lenders/                       Non-GSE
            Name of                     Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment      Adjustment          Adjusted Reason for                    Capitalization    Borrowers        Investors      Servicers       Incentive
Date        Institution                 Type          Description                 Investors (Cap)1   Mechanism    Note         Date         Amount               Cap Adjustment                       (in Millions)    Incentive      Incentives     Incentives      Payments

                                                                                                                                                                         Updated portfolio data
                                                                                                                         12/30/2009      $2,020,000        $2,790,000    from servicer & HAFA
                                                                                                                                                                         initial cap
                                                      Financial Instrument
            First Federal Savings and
6/19/2009                               Purchase      for Home Loan                     $770,000            N/A
            Loan, Port Angeles, WA                                                                                                                                       Updated portfolio data
                                                      Modifications                                                       3/26/2010     $11,370,000      $14,160,000
                                                                                                                                                                         from servicer

                                                                                                                          5/26/2010    ($14,160,000)                 —   Termination of SPA

                                                                                                                                                                         Updated portfolio data
                                                                                                                          9/30/2009        $330,000         $870,000     from servicer & HPDP
                                                                                                                                                                         initial cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                         12/30/2009     $16,490,000      $17,360,000     from servicer & HAFA
                                                                                                                                                                         initial cap

                                                      Financial Instrument                                                                                               Updated portfolio data
            Wescom Central Credit                                                                                         3/26/2010    ($14,260,000)       $3,100,000
6/19/2009                               Purchase      for Home Loan                     $540,000            N/A                                                          from servicer                                  $81,962        $283,353       $198,613        $563,928
            Union, Anaheim, CA
                                                      Modifications
                                                                                                                                                                         Updated portfolio data
                                                                                                                          7/14/2010     ($1,800,000)       $1,300,000
                                                                                                                                                                         from servicer
                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I january 26, 2011




                                                                                                                                                                         Updated portfolio data
                                                                                                                          7/30/2010      $1,500,000        $2,800,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                          9/30/2010      $1,551,668        $4,351,668
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                          9/30/2009        ($10,000)          $20,000    from servicer & HPDP
                                                                                                                                                                         initial cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                         12/30/2009        $590,000         $610,000     from servicer & HAFA
                                                                                                                                                                         initial cap
            Citizens First Wholesale                  Financial Instrument
6/26/2009   Mortgage Company,           Purchase      for Home Loan                       $30,000           N/A
                                                                                                                                                                         Updated portfolio data
            The Villages, FL                          Modifications                                                       3/26/2010       ($580,000)          $30,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                          7/14/2010         $70,000         $100,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                          9/30/2010         $45,056         $145,056
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                         12/30/2009      $2,180,000        $2,250,000    from servicer & HAFA
                                                                                                                                                                         initial cap

                                                                                                                                                                         Updated portfolio data
                                                      Financial Instrument                                                3/26/2010       ($720,000)       $1,530,000
            Technology Credit Union,                                                                                                                                     from servicer
6/26/2009                               Purchase      for Home Loan                       $70,000           N/A                                                                                                          $1,833         $18,309        $15,000         $35,143
            San Jose, CA
                                                      Modifications
                                                                                                                                                                         Updated portfolio data
                                                                                                                          7/14/2010       ($430,000)       $1,100,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                          9/30/2010         $60,445        $1,160,445
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                          9/30/2009    $315,170,000     $610,150,000     from servicer & HPDP
                                                                                                                                                                         initial cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                         12/30/2009     $90,280,000     $700,430,000     from servicer & HAFA
                                                                                                                                                                         initial cap

                                                                                                                                                                         Updated portfolio data
                                                      Financial Instrument                                                3/26/2010    ($18,690,000)    $681,740,000
            National City Bank,                                                                                                                                          from servicer
6/26/2009                               Purchase      for Home Loan                 $294,980,000            N/A                                                                                                       $292,252       $1,041,294       $908,776      $2,242,322
            Miamisburg, OH
                                                      Modifications
                                                                                                                                                                         Updated portfolio data
                                                                                                                          7/14/2010   ($272,640,000)    $409,100,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Initial FHA-HAMP cap,
                                                                                                                          9/30/2010     $80,600,000     $489,700,000     Initial FHA-2LP cap, and
                                                                                                                                                                         initial 2MP cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                          9/30/2010     $71,230,004     $560,930,004
                                                                                                                                                                         from servicer

                                                                                                                                                                                                                                                         Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                    (CONTINUED)
            Servicer Modifying
            Borrowers’ Loans                                                                                                                   Adjustment Details                                                              Non-GSE Incentive Payments

                                                                                 Cap of Incentive
                                                                             Payments on Behalf                                                                                                                                                                       Total
                                                                             of Borrowers and to                                               Cap                                                     Market                      Lenders/                       Non-GSE
            Name of                    Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment      Adjustment          Adjusted Reason for                 Capitalization    Borrowers        Investors      Servicers       Incentive
Date        Institution                Type          Description                 Investors (Cap)1   Mechanism    Note         Date         Amount               Cap Adjustment                    (in Millions)    Incentive      Incentives     Incentives      Payments

                                                                                                                                                                       Updated portfolio data
                                                                                                                         9/30/2009    $723,880,000    $1,357,890,000   from servicer & HPDP
                                                                                                                                                                       initial cap

                                                                                                                                                                       Updated portfolio data
                                                                                                                        12/30/2009    $692,640,000    $2,050,530,000   from servicer & HAFA
                                                     Financial Instrument                                                                                              initial cap
            Wachovia Mortgage, FSB,
7/1/2009                               Purchase      for Home Loan                 $634,010,000            N/A     3                                                                                                      —         $76,890       $162,000        $238,890
            Des Moines, IA
                                                     Modifications                                                                                                     Transfer of cap (to
                                                                                                                         2/17/2010 ($2,050,236,344)        $293,656    Wells Fargo Bank) due
                                                                                                                                                                       to merger

                                                                                                                                                                       Transfer of cap (to
                                                                                                                         3/12/2010        ($54,767)        $238,890    Wells Fargo Bank) due
                                                                                                                                                                       to merger

                                                                                                                                                                       Updated portfolio data
                                                                                                                         9/30/2009     $23,850,000      $68,110,000    from servicer & HPDP
                                                                                                                                                                       initial cap

                                                                                                                                                                       Updated portfolio data
                                                                                                                        12/30/2009     $43,590,000     $111,700,000    from servicer & HAFA
                                                                                                                                                                       initial cap

                                                                                                                                                                       Updated portfolio data
                                                                                                                         3/26/2010     $34,540,000     $146,240,000
                                                                                                                                                                       from servicer
            Bayview Loan                             Financial Instrument
7/1/2009    Servicing, LLC, Coral      Purchase      for Home Loan                  $44,260,000            N/A            5/7/2010      $1,010,000     $147,250,000    Initial 2MP cap                            $1,063,068     $2,961,766     $3,390,312      $7,415,146
            Gables, FL                               Modifications
                                                                                                                                                                       Updated portfolio data
                                                                                                                         7/14/2010    ($34,250,000)    $113,000,000
                                                                                                                                                                       from servicer


                                                                                                                         9/30/2010        $600,000     $113,600,000    Initial FHA-2LP cap


                                                                                                                                                                       Updated portfolio data
                                                                                                                         9/30/2010    ($15,252,303)     $98,347,697
                                                                                                                                                                       from servicer

                                                                                                                                                                       Updated portfolio data
                                                                                                                         9/30/2009        $150,000         $250,000    from servicer & HPDP
                                                                                                                                                                       initial cap

                                                                                                                                                                       Updated portfolio data
                                                                                                                        12/30/2009        $130,000         $380,000    from servicer & HAFA
                                                                                                                                                                       initial cap
                                                     Financial Instrument
            Lake National Bank,
7/10/2009                              Purchase      for Home Loan                     $100,000            N/A                                                                                                       $1,000          $1,660         $2,000          $4,660
            Mentor, OH                                                                                                                                                 Updated portfolio data
                                                     Modifications                                                       3/26/2010         $50,000         $430,000
                                                                                                                                                                       from servicer

                                                                                                                                                                       Updated portfolio data
                                                                                                                         7/14/2010        ($30,000)        $400,000
                                                                                                                                                                       from servicer

                                                                                                                                                                       Updated portfolio data
                                                                                                                         9/30/2010         $35,167         $435,167
                                                                                                                                                                       from servicer

                                                                                                                                                                       Updated portfolio data
                                                                                                                         9/30/2009        ($10,000)        $860,000    from servicer & HPDP
                                                                                                                                                                       initial cap

                                                                                                                                                                       Updated portfolio data
                                                                                                                        12/30/2009        $250,000        $1,110,000   from servicer & HAFA
                                                                                                                                                                       initial cap
            IBM Southeast Employees’                 Financial Instrument
7/10/2009   Federal Credit Union,      Purchase      for Home Loan                     $870,000            N/A                                                                                                       $1,000          $4,480         $6,000         $11,480
                                                                                                                                                                       Updated portfolio data
            Delray Beach, FL                         Modifications                                                       3/26/2010        ($10,000)       $1,100,000
                                                                                                                                                                       from servicer

                                                                                                                                                                       Updated portfolio data
                                                                                                                         7/14/2010       ($400,000)        $700,000
                                                                                                                                                                       from servicer
                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I january 26, 2011




                                                                                                                                                                       Updated portfolio data
                                                                                                                         9/30/2010        $170,334         $870,334
                                                                                                                                                                       from servicer

                                                                                                                                                                                                                                                     Continued on next page.
                                                                                                                                                                                                                                                                               279
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                       (CONTINUED)                                                                                                                                                                       280
            Servicer Modifying
            Borrowers’ Loans                                                                                                                     Adjustment Details                                                               Non-GSE Incentive Payments

                                                                                    Cap of Incentive
                                                                                Payments on Behalf                                                                                                                                                                       Total
                                                                                of Borrowers and to                                              Cap                                                      Market                      Lenders/                       Non-GSE
            Name of                       Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment     Adjustment          Adjusted Reason for                  Capitalization    Borrowers        Investors      Servicers       Incentive
Date        Institution                   Type          Description                 Investors (Cap)1   Mechanism    Note         Date        Amount               Cap Adjustment                     (in Millions)    Incentive      Incentives     Incentives      Payments

                                                                                                                                                                         Updated portfolio data
                                                                                                                            9/30/2009    $18,530,000      $42,010,000    from servicer & HPDP
                                                                                                                                                                         initial cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                           12/30/2009    $24,510,000      $66,520,000    from servicer & HAFA
                                                                                                                                                                         initial cap
                                                        Financial Instrument
            MorEquity, Inc.,
7/17/2009                                 Purchase      for Home Loan                  $23,480,000            N/A                                                                                                    $188,006       $1,712,237     $1,581,563      $3,481,806
            Evansville, IN                                                                                                                                               Updated portfolio data
                                                        Modifications                                                       3/26/2010    $18,360,000      $84,880,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                            7/14/2010   ($22,580,000)     $62,300,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                            9/30/2010    ($8,194,261)     $54,105,739
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                            9/30/2009   ($36,240,000)     $18,230,000    from servicer & HPDP
                                                                                                                                                                         initial cap
                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I january 26, 2011




                                                                                                                                                                         Updated portfolio data
                                                                                                                           12/30/2009    $19,280,000      $37,510,000    from servicer & HAFA
                                                                                                                                                                         initial cap

                                                        Financial Instrument                                                                                             Updated portfolio data
            PNC Bank, National                                                                                              3/26/2010     $2,470,000      $39,980,000
7/17/2009                                 Purchase      for Home Loan                  $54,470,000            N/A                                                        from servicer                   $31,926          $917          $3,616         $7,917         $12,449
            Association, Pittsburgh, PA
                                                        Modifications
                                                                                                                                                                         Updated portfolio data
                                                                                                                            7/14/2010   ($17,180,000)     $22,800,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Initial FHA-2LP cap and
                                                                                                                            9/30/2010    $35,500,000      $58,300,000
                                                                                                                                                                         initial 2MP cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                            9/30/2010    $23,076,191      $81,376,191
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                            9/30/2009       -$90,000           $80,000   from servicer & HPDP
                                                                                                                                                                         initial cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                           12/30/2009        $50,000         $130,000    from servicer & HAFA
                                                                                                                                                                         initial cap
                                                        Financial Instrument
            Farmers State Bank,
7/17/2009                                 Purchase      for Home Loan                     $170,000            N/A
            West Salem, OH                                                                                                                                               Updated portfolio data
                                                        Modifications                                                       3/26/2010       $100,000         $230,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                            7/14/2010     ($130,000)         $100,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                            9/30/2010        $45,056         $145,056
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                            9/30/2009       $890,000        $2,300,000   from servicer & HPDP
                                                                                                                                                                         initial cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                           12/30/2009     $1,260,000        $3,560,000   from servicer & HAFA
                                                        Financial Instrument                                                                                             initial cap
7/17/2009   ShoreBank, Chicago, IL        Purchase      for Home Loan                    $1,410,000           N/A                                                                                                      $24,302         $94,230       $113,052        $231,585
                                                        Modifications                                                                                                    Updated portfolio data
                                                                                                                            3/26/2010       ($20,000)       $3,540,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                            7/14/2010     ($240,000)        $3,300,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                            9/30/2010       $471,446        $3,771,446
                                                                                                                                                                         from servicer

                                                                                                                                                                                                                                                        Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                       (CONTINUED)
            Servicer Modifying
            Borrowers’ Loans                                                                                                                      Adjustment Details                                                              Non-GSE Incentive Payments

                                                                                    Cap of Incentive
                                                                                Payments on Behalf                                                                                                                                                                       Total
                                                                                of Borrowers and to                                               Cap                                                     Market                      Lenders/                       Non-GSE
            Name of                       Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment      Adjustment          Adjusted Reason for                 Capitalization    Borrowers        Investors      Servicers       Incentive
Date        Institution                   Type          Description                 Investors (Cap)1   Mechanism    Note         Date         Amount               Cap Adjustment                    (in Millions)    Incentive      Incentives     Incentives      Payments

                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2009    ($53,670,000)   $1,218,820,000   from servicer & HPDP
                                                                                                                                                                          initial cap

                                                                                                                                                                          Updated portfolio data
                                                                                                                           12/30/2009    $250,450,000    $1,469,270,000   from servicer & HAFA
                                                                                                                                                                          initial cap

                                                                                                                                                                          Updated portfolio data
                                                                                                                            3/26/2010    $124,820,000    $1,594,090,000
                                                                                                                                                                          from servicer
                                                        Financial Instrument
            American Home Mortgage
7/22/2009                                 Purchase      for Home Loan               $1,272,490,000            N/A                                                                                                    $5,688,105    $28,307,838    $23,932,851     $57,928,795
            Servicing, Inc, Coppell, TX                                                                                                                                   Updated portfolio data
                                                        Modifications                                                       7/14/2010   ($289,990,000)   $1,304,100,000
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2010      $1,690,508    $1,305,790,508
                                                                                                                                                                          from servicer

                                                                                                                                                                          Transfer of cap due to
                                                                                                                           10/15/2010        $300,000    $1,306,090,508
                                                                                                                                                                          servicing transfer

                                                                                                                                                                          Transfer of cap due to
                                                                                                                           11/16/2010       ($100,000)   $1,305,990,508
                                                                                                                                                                          servicing transfer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2009      $1,780,000        $5,990,000   from servicer & HPDP
                                                                                                                                                                          initial cap

                                                                                                                                                                          Updated portfolio data
                                                                                                                           12/30/2009      $2,840,000        $8,830,000   from servicer & HAFA
                                                                                                                                                                          initial cap
                                                        Financial Instrument
            Mortgage Center, LLC,
7/22/2009                                 Purchase      for Home Loan                    $4,210,000           N/A                                                                                                       $6,418         $34,592        $53,168         $94,178
            Southfield, MI                                                                                                                                                Updated portfolio data
                                                        Modifications                                                       3/26/2010      $2,800,000      $11,630,000
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            7/14/2010     ($5,730,000)       $5,900,000
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2010      $2,658,280        $8,558,280
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2009       ($490,000)        $370,000    from servicer & HPDP
                                                                                                                                                                          initial cap

                                                                                                                                                                          Updated portfolio data
                                                                                                                           12/30/2009      $6,750,000        $7,120,000   from servicer & HAFA
                                                                                                                                                                          initial cap
                                                        Financial Instrument
            Mission Federal Credit
7/22/2009                                 Purchase      for Home Loan                     $860,000            N/A                                                                                                       $3,250         $17,758        $21,000         $42,008
            Union, San Diego, CA                                                                                                                                          Updated portfolio data
                                                        Modifications                                                       3/26/2010     ($6,340,000)        $780,000
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            7/14/2010       ($180,000)        $600,000
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2010        $125,278         $725,278
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2009     ($1,530,000)       $4,930,000   from servicer & HPDP
                                                                                                                                                                          initial cap

                                                                                                                                                                          Updated portfolio data
                                                                                                                           12/30/2009        $680,000        $5,610,000   from servicer & HAFA
                                                                                                                                                                          initial cap
                                                        Financial Instrument
7/29/2009   First Bank, St. Louis, MO     Purchase      for Home Loan                    $6,460,000           N/A                                                         Updated portfolio data                       $22,000        $243,297       $329,000        $594,297
                                                        Modifications                                                       3/26/2010      $2,460,000        $8,070,000
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            7/14/2010     ($2,470,000)       $5,600,000
                                                                                                                                                                                                                                                                                  Transaction detail I Appendix D I january 26, 2011




                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2010      $2,523,114        $8,123,114
                                                                                                                                                                          from servicer

                                                                                                                                                                                                                                                        Continued on next page.
                                                                                                                                                                                                                                                                                  281
                                                                                                                                                                                                                                                                                      282
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                       (CONTINUED)
            Servicer Modifying
            Borrowers’ Loans                                                                                                                      Adjustment Details                                                                  Non-GSE Incentive Payments

                                                                                    Cap of Incentive
                                                                                Payments on Behalf                                                                                                                                                                           Total
                                                                                of Borrowers and to                                               Cap                                                        Market                       Lenders/                       Non-GSE
            Name of                       Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment      Adjustment          Adjusted Reason for                    Capitalization     Borrowers        Investors      Servicers       Incentive
Date        Institution                   Type          Description                 Investors (Cap)1   Mechanism    Note         Date         Amount               Cap Adjustment                       (in Millions)     Incentive      Incentives     Incentives      Payments

                                                                                                                                                                           Updated portfolio data
                                                                                                                            9/30/2009        ($60,000)       $1,030,000    from servicer & HPDP
                                                                                                                                                                           initial cap

                                                                                                                                                                           Updated portfolio data
                                                                                                                           12/30/2009      $1,260,000        $2,290,000    from servicer & HAFA
                                                                                                                                                                           initial cap
            Purdue Employees                            Financial Instrument
7/29/2009   Federal Credit Union,         Purchase      for Home Loan                    $1,090,000           N/A
                                                                                                                                                                           Updated portfolio data
            West Lafayette, IN                          Modifications                                                       3/26/2010      $2,070,000        $4,360,000
                                                                                                                                                                           from servicer

                                                                                                                                                                           Updated portfolio data
                                                                                                                            7/14/2010     ($3,960,000)        $400,000
                                                                                                                                                                           from servicer

                                                                                                                                                                           Updated portfolio data
                                                                                                                            9/30/2010        $180,222         $580,222
                                                                                                                                                                           from servicer

                                                                                                                                                                           Updated portfolio data
                                                                                                                            9/30/2009    ($37,700,000)     $47,320,000     from servicer & HPDP
                                                                                                                                                                           initial cap
                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I january 26, 2011




                                                                                                                                                                           Updated portfolio data
                                                                                                                           12/30/2009     $26,160,000      $73,480,000     from servicer & HAFA
                                                                                                                                                                           initial cap

                                                                                                                                                                           Updated portfolio data
                                                        Financial Instrument                                                3/26/2010      $9,820,000      $83,300,000
            Wachovia Bank, N.A.,                                                                                                                                           from servicer
7/29/2009                                 Purchase      for Home Loan                  $85,020,000            N/A
            Charlotte, NC
                                                        Modifications
                                                                                                                                                                           Updated portfolio data
                                                                                                                            7/14/2010    ($46,200,000)     $37,100,000
                                                                                                                                                                           from servicer

                                                                                                                                                                           Updated portfolio data
                                                                                                                            9/30/2010    ($28,686,775)       $8,413,225
                                                                                                                                                                           from servicer


                                                                                                                            12/3/2010     ($8,413,225)                     Termination of SPA
                                                                                                                                                                       —

                                                                                                                                                                           Updated portfolio data
                                                                                                                            9/30/2009    ($14,850,000)   $2,684,870,000    from servicer & HPDP
                                                                                                                                                                           initial cap

                                                                                                                                                                           Updated portfolio data
                                                                                                                           12/30/2009   $1,178,180,000   $3,863,050,000    from servicer & HAFA
                                                                                                                                                                           initial cap

                                                                                                                                                                           Updated portfolio data
                                                        Financial Instrument                                                3/26/2010   $1,006,580,000   $4,869,630,000    from servicer & 2MP
            J.P.Morgan Chase Bank,
7/31/2009                                 Purchase      for Home Loan               $2,699,720,000            N/A                                                          initial cap                    $165,827      $21,245,934    $32,589,506    $56,907,032    $110,742,472
            NA, Lewisville, TX
                                                        Modifications
                                                                                                                                                                           Updated portfolio data
                                                                                                                            7/14/2010 ($1,934,230,000)   $2,935,400,000
                                                                                                                                                                           from servicer

                                                                                                                                                                           Initial FHA-HAMP cap,
                                                                                                                            9/30/2010     $72,400,000    $3,007,800,000    Initial FHA-2LP cap, and
                                                                                                                                                                           initial RD-HAMP

                                                                                                                                                                           Updated portfolio data
                                                                                                                            9/30/2010    $215,625,536    $3,223,425,536
                                                                                                                                                                           from servicer

                                                                                                                                                                           Updated portfolio data
                                                                                                                            9/30/2009        ($10,000)    $707,370,000     from servicer & HPDP
                                                                                                                                                                           initial cap

                                                                                                                                                                           Updated portfolio data
                                                                                                                           12/30/2009    $502,430,000    $1,209,800,000    from servicer & HAFA
                                                        Financial Instrument                                                                                               initial cap
            EMC Mortgage
7/31/2009                                 Purchase      for Home Loan                 $707,380,000            N/A                                                                                                        $5,634,997     $8,107,380    $14,244,807     $27,987,184
            Corporation, Lewisville, TX
                                                        Modifications                                                                                                      Updated portfolio data
                                                                                                                            3/26/2010   ($134,560,000)   $1,075,240,000    from servicer & 2MP
                                                                                                                                                                           initial cap

                                                                                                                                                                           Updated portfolio data
                                                                                                                            7/14/2010   ($392,140,000)    $683,100,000
                                                                                                                                                                           from servicer

                                                                                                                                                                                                                                                            Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                       (CONTINUED)
            Servicer Modifying
            Borrowers’ Loans                                                                                                                      Adjustment Details                                                               Non-GSE Incentive Payments

                                                                                    Cap of Incentive
                                                                                Payments on Behalf                                                                                                                                                                        Total
                                                                                of Borrowers and to                                               Cap                                                      Market                      Lenders/                       Non-GSE
            Name of                       Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment      Adjustment          Adjusted Reason for                  Capitalization    Borrowers        Investors      Servicers       Incentive
Date        Institution                   Type          Description                 Investors (Cap)1   Mechanism    Note         Date         Amount               Cap Adjustment                     (in Millions)    Incentive      Incentives     Incentives      Payments

                                                                                                                                                                         Transfer of cap to Saxon
                                                                                                                            7/16/2010       ($630,000)    $682,470,000
                                                                                                                                                                         Mortgage Services, Inc.

                                                                                                                                                                         Initial FHA-HAMP cap and
                                                                                                                            9/30/2010     $13,100,000     $695,570,000
                                                                                                                                                                         initial FHA-2LP cap
                                                        Financial Instrument
            EMC Mortgage                                                                                                                                                 Updated portfolio data
7/31/2009                                 Purchase      for Home Loan                 $707,380,000            N/A           9/30/2010     ($8,006,457)    $687,563,543                                                $5,634,997     $8,107,380    $14,244,807     $27,987,184
            Corporation, Lewisville, TX                                                                                                                                  from servicer
                                                        Modifications
                                                                                                                                                                         Transfer of cap due to
                                                                                                                           10/15/2010       ($100,000)    $687,463,543
                                                                                                                                                                         servicing transfer

                                                                                                                                                                         Updated portfolio data
                                                                                                                           12/15/2010     ($4,400,000)    $683,063,543
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                            9/30/2009        $180,000         $600,000   from servicer & HPDP
                                                                                                                                                                         initial cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                           12/30/2009       ($350,000)        $250,000   from servicer & HAFA
                                                                                                                                                                         initial cap
                                                        Financial Instrument
8/5/2009    Lake City Bank, Warsaw, IN Purchase         for Home Loan                     $420,000            N/A                                                                                                             —            $174         $2,000          $2,174
                                                                                                                                                                         Updated portfolio data
                                                        Modifications                                                       3/26/2010         $20,000         $270,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                            7/14/2010        ($70,000)        $200,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                            9/30/2010         $90,111         $290,111
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                            9/30/2009        $290,000         $430,000   from servicer & HPDP
                                                                                                                                                                         initial cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                           12/30/2009        $210,000         $640,000   from servicer & HAFA
                                                                                                                                                                         initial cap
                                                        Financial Instrument
            Oakland Municipal Credit
8/5/2009                                  Purchase      for Home Loan                     $140,000            N/A                                                                                                             —            $393         $3,000          $3,393
            Union, Oakland, CA                                                                                                                                           Updated portfolio data
                                                        Modifications                                                       3/26/2010        $170,000         $810,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                            7/14/2010        ($10,000)        $800,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                            9/30/2010        ($74,722)        $725,278
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                            9/30/2009   ($121,190,000)    $552,810,000   from servicer & HPDP
                                                                                                                                                                         initial cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                           12/30/2009    ($36,290,000)    $516,520,000   from servicer & HAFA
                                                                                                                                                                         initial cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                            3/26/2010    $199,320,000     $715,840,000
                                                                                                                                                                         from servicer
                                                        Financial Instrument
            HomEq Servicing, North
8/5/2009                                  Purchase      for Home Loan                 $674,000,000            N/A                                                                                                             —      $3,036,319     $5,272,500      $8,308,819
            Highlands, CA                                                                                                                                                Updated portfolio data
                                                        Modifications                                                       7/14/2010   ($189,040,000)    $526,800,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                            9/30/2010     $38,626,728     $565,426,728
                                                                                                                                                                         from servicer

                                                                                                                                                                         Transfer of cap due to
                                                                                                                           10/15/2010   ($170,800,000)    $394,626,728
                                                                                                                                                                         servicing transfer
                                                                                                                                                                                                                                                                                   Transaction detail I Appendix D I january 26, 2011




                                                                                                                                                                         Updated portfolio data
                                                                                                                           12/15/2010    ($22,200,000)    $372,426,728
                                                                                                                                                                         from servicer

                                                                                                                                                                                                                                                         Continued on next page.
                                                                                                                                                                                                                                                                                   283
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                     (CONTINUED)                                                                                                                                                                          284
            Servicer Modifying
            Borrowers’ Loans                                                                                                                    Adjustment Details                                                                 Non-GSE Incentive Payments

                                                                                  Cap of Incentive
                                                                              Payments on Behalf                                                                                                                                                                          Total
                                                                              of Borrowers and to                                               Cap                                                        Market                      Lenders/                       Non-GSE
            Name of                     Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment      Adjustment          Adjusted Reason for                    Capitalization    Borrowers        Investors      Servicers       Incentive
Date        Institution                 Type          Description                 Investors (Cap)1   Mechanism    Note         Date         Amount               Cap Adjustment                       (in Millions)    Incentive      Incentives     Incentives      Payments

                                                                                                                                                                        Updated portfolio data
                                                                                                                          9/30/2009    $313,050,000    $1,087,950,000   from servicer & HPDP
                                                                                                                                                                        initial cap

                                                                                                                                                                        Updated portfolio data
                                                                                                                         12/30/2009    $275,370,000    $1,363,320,000   from servicer & HAFA
                                                                                                                                                                        initial cap

                                                                                                                                                                        Updated portfolio data
                                                                                                                          3/26/2010    $278,910,000    $1,642,230,000
                                                                                                                                                                        from servicer

                                                                                                                                                                        Updated portfolio data
                                                                                                                          7/14/2010   ($474,730,000)   $1,167,500,000
                                                                                                                                                                        from servicer
                                                      Financial Instrument
            Litton Loan Servicing LP,
8/12/2009                               Purchase      for Home Loan                 $774,900,000            N/A                                                                                                       $4,692,217    $14,857,599    $14,239,785     $33,789,601
            Houston, TX                                                                                                                                                 Transfer of cap to due to
                                                      Modifications                                                       8/13/2010       ($700,000)   $1,166,800,000
                                                                                                                                                                        servicing transfer

                                                                                                                                                                        Transfer of cap to due to
                                                                                                                          9/15/2010     ($1,000,000)   $1,165,800,000
                                                                                                                                                                        servicing transfer

                                                                                                                                                                        Updated portfolio data
                                                                                                                          9/30/2010   ($115,017,236)   $1,050,782,764
                                                                                                                                                                        from servicer
                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I january 26, 2011




                                                                                                                                                                        Transfer of cap due to
                                                                                                                         10/15/2010       ($800,000)   $1,049,982,764
                                                                                                                                                                        servicing transfer

                                                                                                                                                                        Updated portfolio data
                                                                                                                         12/15/2010        $800,000    $1,050,782,764
                                                                                                                                                                        from servicer

                                                                                                                                                                        Updated portfolio data
                                                                                                                          9/30/2009     ($1,200,000)       $5,010,000   from servicer & HPDP
                                                                                                                                                                        initial cap

                                                                                                                                                                        Updated portfolio data
                                                                                                                         12/30/2009     $30,800,000      $35,810,000    from servicer & HAFA
                                                                                                                                                                        initial cap

                                                                                                                                                                        Updated portfolio data
                                                                                                                          3/26/2010     $23,200,000      $59,010,000
                                                                                                                                                                        from servicer

                                                                                                                                                                        Transfer of cap from
                                                                                                                          6/16/2010      $2,710,000      $61,720,000    CitiMortgage, Inc. due to
                                                                                                                                                                        servicing transfer

                                                                                                                                                                        Updated portfolio data
                                                                                                                          7/14/2010    ($18,020,000)     $43,700,000
                                                                                                                                                                        from servicer

                                                      Financial Instrument                                                                                              Transfer of cap from
            PennyMac Loan Services,
8/12/2009                               Purchase      for Home Loan                    $6,210,000           N/A           7/16/2010      $6,680,000      $50,380,000    CitiMortgage, Inc. due to                       $71,908        $361,214       $354,241        $787,362
            LLC, Calasbasa, CA
                                                      Modifications                                                                                                     servicing transfer

                                                                                                                                                                        Transfer of cap to due to
                                                                                                                          8/13/2010      $2,600,000      $52,980,000
                                                                                                                                                                        servicing transfer

                                                                                                                                                                        Transfer of cap to due to
                                                                                                                          9/15/2010       ($100,000)     $52,880,000
                                                                                                                                                                        servicing transfer

                                                                                                                                                                        Initial FHA-HAMP cap and
                                                                                                                          9/30/2010        $200,000      $53,080,000
                                                                                                                                                                        2MP initial cap

                                                                                                                                                                        Updated portfolio data
                                                                                                                          9/30/2010     ($1,423,197)     $51,656,803
                                                                                                                                                                        from servicer

                                                                                                                                                                        Transfer of cap due to
                                                                                                                         11/16/2010      $1,400,000      $53,056,803
                                                                                                                                                                        servicing transfer

                                                                                                                                                                        Updated portfolio data
                                                                                                                         12/15/2010       ($100,000)     $52,956,803
                                                                                                                                                                        from servicer

                                                                                                                                                                                                                                                         Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                   (CONTINUED)
            Servicer Modifying
            Borrowers’ Loans                                                                                                                  Adjustment Details                                                                 Non-GSE Incentive Payments

                                                                                Cap of Incentive
                                                                            Payments on Behalf                                                                                                                                                                          Total
                                                                            of Borrowers and to                                               Cap                                                        Market                      Lenders/                       Non-GSE
            Name of                   Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment      Adjustment          Adjusted Reason for                    Capitalization    Borrowers        Investors      Servicers       Incentive
Date        Institution               Type          Description                 Investors (Cap)1   Mechanism    Note         Date         Amount               Cap Adjustment                       (in Millions)    Incentive      Incentives     Incentives      Payments

                                                                                                                                                                      Updated portfolio data
                                                                                                                        9/30/2009    ($25,510,000)       $4,220,000   from servicer & HPDP
                                                                                                                                                                      initial cap

                                                                                                                                                                      Updated portfolio data
                                                                                                                       12/30/2009        $520,000        $4,740,000   from servicer & HAFA
                                                                                                                                                                      initial cap

                                                                                                                                                                      Updated portfolio data
                                                                                                                        3/26/2010      $4,330,000        $9,070,000
                                                                                                                                                                      from servicer

                                                                                                                                                                      Transfer of cap from
                                                                                                                        4/19/2010        $230,000        $9,300,000   CitiMortgage, Inc. due to
                                                                                                                                                                      servicing transfer

                                                    Financial Instrument                                                5/19/2010        $850,000      $10,150,000    Initial 2MP cap
            Servis One, Inc.,
8/12/2009                             Purchase      for Home Loan                  $29,730,000            N/A                                                                                                            $917          $1,247         $1,000          $3,164
            Titusville, PA                                                                                                                                            Updated portfolio data
                                                    Modifications                                                       7/14/2010       ($850,000)       $9,300,000
                                                                                                                                                                      from servicer

                                                                                                                                                                      Transfer of cap to due to
                                                                                                                        9/15/2010        $100,000        $9,400,000
                                                                                                                                                                      servicing transfer

                                                                                                                        9/30/2010        $100,000        $9,500,000   Initial FHA-HAMP cap

                                                                                                                                                                      Updated portfolio data
                                                                                                                        9/30/2010     $16,755,064      $26,255,064
                                                                                                                                                                      from servicer

                                                                                                                                                                      Transfer of cap due to
                                                                                                                       10/15/2010        $100,000      $26,355,064
                                                                                                                                                                      servicing transfer

                                                                                                                                                                      Updated portfolio data
                                                                                                                       12/15/2010        $100,000      $26,455,064
                                                                                                                                                                      from servicer

                                                                                                                        10/2/2009    $145,800,000     $814,240,000    HPDP initial cap

                                                                                                                                                                      Updated portfolio data
                                                                                                                       12/30/2009   $1,355,930,000   $2,170,170,000   from servicer & HAFA
                                                                                                                                                                      initial cap

                                                    Financial Instrument                                                                                              Updated portfolio data
            OneWest Bank,                                                                                               3/26/2010    $121,180,000    $2,291,350,000
8/28/2009                             Purchase      for Home Loan                 $668,440,000            N/A                                                         from servicer                                 $3,957,269    $18,878,211    $15,119,280     $37,954,760
            Pasadena, CA
                                                    Modifications
                                                                                                                                                                      Updated portfolio data
                                                                                                                        7/14/2010   ($408,850,000)   $1,882,500,000
                                                                                                                                                                      from servicer

                                                                                                                        9/30/2010      $5,500,000    $1,888,000,000   2MP initial cap

                                                                                                                                                                      Updated portfolio data
                                                                                                                        9/30/2010    ($51,741,163)   $1,836,258,837
                                                                                                                                                                      from servicer

                                                                                                                        10/2/2009         $70,000         $370,000    HPDP initial cap

                                                                                                                                                                      Updated portfolio data
                                                                                                                       12/30/2009      $2,680,000        $3,050,000   from servicer & HAFA
                                                                                                                                                                      initial cap
                                                    Financial Instrument
            Stanford Federal Credit                                                                                                                                   Updated portfolio data
8/28/2009                             Purchase      for Home Loan                     $300,000            N/A           3/26/2010        $350,000        $3,400,000
            Union, Palo Alto, CA                                                                                                                                      from servicer
                                                    Modifications
                                                                                                                                                                      Updated portfolio data
                                                                                                                        7/14/2010     ($1,900,000)       $1,500,000
                                                                                                                                                                      from servicer

                                                                                                                                                                      Updated portfolio data
                                                                                                                        9/30/2010     ($1,209,889)        $290,111
                                                                                                                                                                      from servicer

                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I january 26, 2011
                                                                                                                                                                                                                                                                                 285
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                      (CONTINUED)                                                                                                                                                                     286
             Servicer Modifying
             Borrowers’ Loans                                                                                                                  Adjustment Details                                                              Non-GSE Incentive Payments

                                                                                   Cap of Incentive
                                                                               Payments on Behalf                                                                                                                                                                     Total
                                                                               of Borrowers and to                                             Cap                                                     Market                      Lenders/                       Non-GSE
             Name of                     Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment    Adjustment          Adjusted Reason for                 Capitalization    Borrowers        Investors      Servicers       Incentive
Date         Institution                 Type          Description                 Investors (Cap)1   Mechanism    Note         Date       Amount               Cap Adjustment                    (in Millions)    Incentive      Incentives     Incentives      Payments


                                                                                                                           10/2/2009     $130,000          $700,000    HPDP initial cap


                                                                                                                                                                       Updated portfolio data
                                                                                                                          12/30/2009    ($310,000)         $390,000    from servicer & HAFA
                                                                                                                                                                       initial cap
             RoundPoint Mortgage                       Financial Instrument
8/28/2009    Servicing Corporation,      Purchase      for Home Loan                     $570,000            N/A                                                                                                         —          $15,253        $38,000         $53,253
                                                                                                                                                                       Updated portfolio data
             Charlotte, NC                             Modifications                                                       3/26/2010    $2,110,000        $2,500,000
                                                                                                                                                                       from servicer

                                                                                                                                                                       Updated portfolio data
                                                                                                                           7/14/2010    $8,300,000      $10,800,000
                                                                                                                                                                       from servicer

                                                                                                                                                                       Updated portfolio data
                                                                                                                           9/30/2010    $5,301,172      $16,101,172
                                                                                                                                                                       from servicer


                                                                                                                           10/2/2009     $130,000          $690,000    HPDP initial cap
                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I january 26, 2011




                                                                                                                                                                       Updated portfolio data
                                                                                                                          12/30/2009    $1,040,000        $1,730,000   from servicer & HAFA
                                                                                                                                                                       initial cap

                                                                                                                                                                       Updated portfolio data
                                                                                                                           3/26/2010   ($1,680,000)          $50,000
                                                       Financial Instrument                                                                                            from servicer
                                                                                         $560,000
9/2/2009     Horicon Bank, Horicon, WI   Purchase      for Home Loan                                         N/A                                                                                                         —           $1,209         $2,000          $3,209
                                                       Modifications                                                                                                   Updated portfolio data
                                                                                                                           5/12/2010    $1,260,000        $1,310,000
                                                                                                                                                                       from servicer

                                                                                                                                                                       Updated portfolio data
                                                                                                                           7/14/2010   ($1,110,000)        $200,000
                                                                                                                                                                       from servicer

                                                                                                                           9/30/2010     $100,000          $300,000    Initial RD-HAMP

                                                                                                                                                                       Updated portfolio data
                                                                                                                           9/30/2010       -$9,889         $290,111
                                                                                                                                                                       from servicer



                                                                                                                           10/2/2009    $1,310,000        $7,310,000   HPDP initial cap



                                                                                                                                                                       Updated portfolio data
                                                                                                                          12/30/2009   ($3,390,000)       $3,920,000   from servicer & HAFA
                                                                                                                                                                       initial cap

                                                                                                                                                                       Updated portfolio data
                                                                                                                           3/26/2010     $410,000         $4,330,000
                                                                                                                                                                       from servicer
9/2/2009 as Vantium Capital, Inc.dba                   Financial Instrument
                                                                                                                                                                       Updated portfolio data
amended on Acqura Loan Services,         Purchase      for Home Loan                    $6,000,000           N/A    10     7/14/2010    ($730,000)        $3,600,000
                                                                                                                                                                       from servicer
8/27/2010 Plano, TX                                    Modifications
                                                                                                                                                                       Transfer of cap due to
                                                                                                                           9/15/2010    $4,700,000        $8,300,000
                                                                                                                                                                       servicing transfer

                                                                                                                                                                       Updated portfolio data
                                                                                                                           9/30/2010     $117,764         $8,417,764
                                                                                                                                                                       from servicer

                                                                                                                                                                       Transfer of cap due to
                                                                                                                          11/16/2010     $800,000         $9,217,764
                                                                                                                                                                       servicing transfer

                                                                                                                                                                       Updated portfolio data
                                                                                                                          12/15/2010    $2,700,000      $11,917,764
                                                                                                                                                                       from servicer

                                                                                                                                                                                                                                                     Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                     (CONTINUED)
            Servicer Modifying
            Borrowers’ Loans                                                                                                                   Adjustment Details                                                              Non-GSE Incentive Payments

                                                                                  Cap of Incentive
                                                                              Payments on Behalf                                                                                                                                                                      Total
                                                                              of Borrowers and to                                              Cap                                                     Market                      Lenders/                       Non-GSE
            Name of                     Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment     Adjustment          Adjusted Reason for                 Capitalization    Borrowers        Investors      Servicers       Incentive
Date        Institution                 Type          Description                 Investors (Cap)1   Mechanism    Note         Date        Amount               Cap Adjustment                    (in Millions)    Incentive      Incentives     Incentives      Payments

                                                                                                                          10/2/2009       $280,000        $1,530,000   HPDP initial cap

                                                                                                                                                                       Updated portfolio data
                                                                                                                         12/30/2009     ($750,000)         $780,000    from servicer & HAFA
                                                                                                                                                                       initial cap
            Central Florida Educators                 Financial Instrument
9/9/2009    Federal Credit Union,       Purchase      for Home Loan                    $1,250,000           N/A                                                        Updated portfolio data                            —          $11,020        $22,500         $33,520
                                                                                                                          3/26/2010       $120,000         $900,000
            Lake Mary, FL                             Modifications                                                                                                    from servicer

                                                                                                                                                                       Updated portfolio data
                                                                                                                          7/14/2010     ($300,000)         $600,000
                                                                                                                                                                       from servicer

                                                                                                                                                                       Updated portfolio data
                                                                                                                          9/30/2010       $270,334         $870,334
                                                                                                                                                                       from servicer

                                                                                                                          10/2/2009    $24,920,000     $139,140,000    HPDP initial cap

                                                                                                                                                                       Updated portfolio data
                                                                                                                         12/30/2009    $49,410,000     $188,550,000    from servicer & HAFA
                                                                                                                                                                       initial cap
            U.S. Bank National                        Financial Instrument
                                                                                                                                                                       Updated portfolio data
9/9/2009    Association,                Purchase      for Home Loan                 $114,220,000            N/A           3/26/2010    $41,830,000     $230,380,000                                               $841,944       $5,262,729     $4,623,346     $10,728,020
                                                                                                                                                                       from servicer
            Owensboro, KY                             Modifications
                                                                                                                                                                       Updated portfolio data
                                                                                                                          7/14/2010   ($85,780,000)    $144,600,000
                                                                                                                                                                       from servicer

                                                                                                                                                                       Updated portfolio data
                                                                                                                          9/30/2010    $36,574,444     $181,174,444
                                                                                                                                                                       from servicer

                                                                                                                          10/2/2009       $950,000        $5,300,000   HPDP initial cap

                                                                                                                                                                       Updated portfolio data
                                                                                                                         12/30/2009     $5,700,000      $11,000,000    from servicer & HAFA
                                                                                                                                                                       initial cap
                                                      Financial Instrument
            CUC Mortgage Corporation,                                                                                                                                  Updated portfolio data
9/9/2009                              Purchase        for Home Loan                    $4,350,000           N/A           3/26/2010       $740,000      $11,740,000                                                  $2,500         $17,362        $20,417         $40,278
            Albany, NY                                                                                                                                                 from servicer
                                                      Modifications
                                                                                                                                                                       Updated portfolio data
                                                                                                                          7/14/2010    ($1,440,000)     $10,300,000
                                                                                                                                                                       from servicer

                                                                                                                                                                       Updated portfolio data
                                                                                                                          9/30/2010    ($6,673,610)       $3,626,390
                                                                                                                                                                       from servicer

                                                                                                                          10/2/2009       $460,000        $2,530,000   HPDP initial cap

                                                                                                                                                                       Updated portfolio data
                                                                                                                         12/30/2009     $2,730,000        $5,260,000   from servicer & HAFA
                                                                                                                                                                       initial cap
                                                      Financial Instrument
            ORNL Federal Credit Union,                                                                                                                                 Updated portfolio data
9/11/2009                              Purchase       for Home Loan                    $2,070,000           N/A           3/26/2010    $13,280,000      $18,540,000                                                      —                —         $2,000          $2,000
            Oak Ridge, TN                                                                                                                                              from servicer
                                                      Modifications

                                                                                                                                                                       Updated portfolio data
                                                                                                                          7/14/2010   ($13,540,000)       $5,000,000
                                                                                                                                                                       from servicer

                                                                                                                                                                       Updated portfolio data
                                                                                                                          9/30/2010     $1,817,613        $6,817,613
                                                                                                                                                                       from servicer

                                                                                                                          10/2/2009        $60,000         $310,000    HPDP initial cap

                                                                                                                                                                       Updated portfolio data
                                                                                                                         12/30/2009       ($80,000)        $230,000    from servicer & HAFA
                                                                                                                                                                       initial cap
                                                      Financial Instrument
            Allstate Mortgage Loans &                                                                                                                                  Updated portfolio data
9/11/2009                                Purchase     for Home Loan                     $250,000            N/A           3/26/2010       $280,000         $510,000                                                  $1,623          $4,458         $4,623         $10,704
            Investments, Inc., Ocala, FL                                                                                                                               from servicer
                                                      Modifications
                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I january 26, 2011




                                                                                                                                                                       Updated portfolio data
                                                                                                                          7/14/2010     ($410,000)         $100,000
                                                                                                                                                                       from servicer

                                                                                                                                                                       Updated portfolio data
                                                                                                                          9/30/2010        $45,056         $145,056
                                                                                                                                                                       from servicer

                                                                                                                                                                                                                                                     Continued on next page.
                                                                                                                                                                                                                                                                               287
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                     (CONTINUED)                                                                                                                                                                      288
            Servicer Modifying
            Borrowers’ Loans                                                                                                                   Adjustment Details                                                              Non-GSE Incentive Payments

                                                                                  Cap of Incentive
                                                                              Payments on Behalf                                                                                                                                                                      Total
                                                                              of Borrowers and to                                              Cap                                                     Market                      Lenders/                       Non-GSE
            Name of                     Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment     Adjustment          Adjusted Reason for                 Capitalization    Borrowers        Investors      Servicers       Incentive
Date        Institution                 Type          Description                 Investors (Cap)1   Mechanism    Note         Date        Amount               Cap Adjustment                    (in Millions)    Incentive      Incentives     Incentives      Payments

                                                                                                                          10/2/2009        $70,000         $350,000    HPDP initial cap

                                                                                                                                                                       Updated portfolio data
                                                                                                                         12/30/2009       $620,000         $970,000    from servicer & HAFA
                                                                                                                                                                       initial cap
                                                      Financial Instrument
            Metropolitan National Bank,                                                                                                                                Updated portfolio data
9/11/2009                               Purchase      for Home Loan                     $280,000            N/A           3/26/2010       $100,000        $1,070,000
            Little Rock, AR                                                                                                                                            from servicer
                                                      Modifications
                                                                                                                                                                       Updated portfolio data
                                                                                                                          7/14/2010     ($670,000)         $400,000
                                                                                                                                                                       from servicer

                                                                                                                                                                       Updated portfolio data
                                                                                                                          9/30/2010        $35,167         $435,167
                                                                                                                                                                       from servicer

                                                                                                                          10/2/2009     $6,010,000      $33,520,000    HPDP initial cap

                                                                                                                                                                       Updated portfolio data
                                                                                                                         12/30/2009   ($19,750,000)     $13,770,000    from servicer & HAFA
                                                                                                                                                                       initial cap
                                                      Financial Instrument
            Franklin Credit Management                                                                                                                                 Updated portfolio data
                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I january 26, 2011




9/11/2009                                Purchase     for Home Loan                  $27,510,000            N/A           3/26/2010    ($4,780,000)       $8,990,000                                                     —         $104,730       $224,000        $328,730
            Corporation, Jersey City, NJ                                                                                                                               from servicer
                                                      Modifications
                                                                                                                                                                       Updated portfolio data
                                                                                                                          7/14/2010    ($2,390,000)       $6,600,000
                                                                                                                                                                       from servicer

                                                                                                                                                                       Updated portfolio data
                                                                                                                          9/30/2010     $2,973,670        $9,573,670
                                                                                                                                                                       from servicer

                                                                                                                          10/2/2009        $90,000         $500,000    HPDP initial cap

                                                                                                                                                                       Updated portfolio data
                                                                                                                         12/30/2009     $1,460,000        $1,960,000   from servicer & HAFA
                                                                                                                                                                       initial cap
                                                      Financial Instrument
            Bay Federal Credit Union,                                                                                                                                  Updated portfolio data
9/16/2009                               Purchase      for Home Loan                     $410,000            N/A           3/26/2010       $160,000        $2,120,000
            Capitola, CA                                                                                                                                               from servicer
                                                      Modifications
                                                                                                                                                                       Updated portfolio data
                                                                                                                          7/14/2010     ($120,000)        $2,000,000
                                                                                                                                                                       from servicer

                                                                                                                                                                       Updated portfolio data
                                                                                                                          9/30/2010    ($1,419,778)        $580,222
                                                                                                                                                                       from servicer

                                                                                                                          10/2/2009       $960,000        $5,350,000   HPDP initial cap

                                                                                                                                                                       Updated portfolio data
                                                                                                                         12/30/2009    ($3,090,000)       $2,260,000   from servicer & HAFA
                                                                                                                                                                       initial cap
                                                      Financial Instrument
            AMS Servicing, LLC,                                                                                                                                        Updated portfolio data
9/23/2009                               Purchase      for Home Loan                    $4,390,000           N/A           3/26/2010       $230,000        $2,490,000
            Buffalo, NY                                                                                                                                                from servicer
                                                      Modifications
                                                                                                                                                                       Updated portfolio data
                                                                                                                          7/14/2010     $5,310,000        $7,800,000
                                                                                                                                                                       from servicer

                                                                                                                                                                       Updated portfolio data
                                                                                                                          9/30/2010       $323,114        $8,123,114
                                                                                                                                                                       from servicer

                                                                                                                          10/2/2009        $90,000         $480,000 HPDP initial cap

                                                                                                                                                                       Updated portfolio data
                                                                                                                         12/30/2009       $940,000        $1,420,000   from servicer & HAFA
                                                                                                                                                                       initial cap
                                                      Financial Instrument
            Schools Financial Credit                                                                                                                                   Updated portfolio data
9/23/2009                               Purchase      for Home Loan                     $390,000            N/A           3/26/2010     ($980,000)         $440,000                                                  $1,000         $10,306         $5,500         $16,806
            Union, Sacramento, CA                                                                                                                                      from servicer
                                                      Modifications

                                                                                                                                                                       Updated portfolio data
                                                                                                                          7/14/2010     ($140,000)         $300,000
                                                                                                                                                                       from servicer

                                                                                                                                                                       Updated portfolio data
                                                                                                                          9/30/2010     $1,150,556        $1,450,556
                                                                                                                                                                       from servicer

                                                                                                                                                                                                                                                     Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                      (CONTINUED)
             Servicer Modifying
             Borrowers’ Loans                                                                                                                  Adjustment Details                                                                Non-GSE Incentive Payments

                                                                                   Cap of Incentive
                                                                               Payments on Behalf                                                                                                                                                                       Total
                                                                               of Borrowers and to                                             Cap                                                       Market                      Lenders/                       Non-GSE
             Name of                     Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment    Adjustment          Adjusted Reason for                   Capitalization    Borrowers        Investors      Servicers       Incentive
Date         Institution                 Type          Description                 Investors (Cap)1   Mechanism    Note         Date       Amount               Cap Adjustment                      (in Millions)    Incentive      Incentives     Incentives      Payments

                                                                                                                           10/2/2009       $60,000         $290,000      HPDP initial cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                          12/30/2009      ($10,000)        $280,000      from servicer & HAFA
                                                                                                                                                                         initial cap
                                                       Financial Instrument
             Glass City Federal Credit                                                                                                                                   Updated portfolio data
9/23/2009                                Purchase      for Home Loan                     $230,000            N/A           3/26/2010     $130,000          $410,000                                                    $1,000            $695         $3,000          $4,695
             Union, Maumee, OH                                                                                                                                           from servicer
                                                       Modifications
                                                                                                                                                                         Updated portfolio data
                                                                                                                           7/14/2010    ($110,000)         $300,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                           9/30/2010       ($9,889)        $290,111
                                                                                                                                                                         from servicer

                                                                                                                           10/2/2009       $10,000           $40,000     HPDP initial cap

                                                                                                                                                                    Updated portfolio data
                                                                                                                          12/30/2009     $120,000          $160,000 from servicer & HAFA
                                                                                                                                                                    initial cap

                                                                                                                                                                         Updated portfolio data
             Central Jersey Federal                    Financial Instrument                                                3/26/2010       $10,000         $170,000
                                                                                                                                                                         from servicer
9/23/2009    Credit Union,               Purchase      for Home Loan                       $30,000           N/A
             Woodbridge, NJ                            Modifications
                                                                                                                                                                         Updated portfolio data
                                                                                                                           7/14/2010      ($70,000)        $100,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                           9/30/2010       $45,056         $145,056
                                                                                                                                                                         from servicer

                                                                                                                          10/29/2010    ($145,056)                  $0   Termination of SPA

                                                                                                                           10/2/2009       $60,000         $300,000      HPDP initial cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                          12/30/2009     $350,000          $650,000      from servicer & HAFA
                                                                                                                                                                         initial cap
                                                       Financial Instrument
             Yadkin Valley Bank,                                                                                                                                         Updated portfolio data
9/23/2009                                Purchase      for Home Loan                     $240,000            N/A           3/26/2010    $1,360,000        $2,010,000                                        $29        $1,000            $495         $5,000          $6,495
             Elkin, NC                                                                                                                                                   from servicer
                                                       Modifications
                                                                                                                                                                         Updated portfolio data
                                                                                                                           7/14/2010   ($1,810,000)        $200,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                           9/30/2010     $235,167          $435,167
                                                                                                                                                                         from servicer

                                                                                                                           10/2/2009     $100,000          $540,000      HPDP initial cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                          12/30/2009       $20,000         $560,000      from servicer & HAFA
                                                                                                                                                                         initial cap
                                                       Financial Instrument
                                                                                                                                                                         Updated portfolio data
9/25/2009    SEFCU, Albany, NY           Purchase      for Home Loan                     $440,000            N/A           3/26/2010    ($290,000)         $270,000
                                                                                                                                                                         from servicer
                                                       Modifications
                                                                                                                                                                         Updated portfolio data
                                                                                                                           7/14/2010      ($70,000)        $200,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                           9/30/2010      ($54,944)        $145,056
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                          12/30/2009    $1,030,000        $1,600,000     from servicer & HAFA
                                                                                                                                                                         initial cap

                                                                                                                                                                         Updated portfolio data
                                                       Financial Instrument                                                3/26/2010    ($880,000)         $720,000
             Great Lakes Credit Union,                                                                                                                                   from servicer
10/14/2009                               Purchase      for Home Loan                     $570,000            N/A                                                                                                           —             $686         $1,000          $1,686
             North Chicago, IL
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I january 26, 2011




                                                       Modifications
                                                                                                                                                                         Updated portfolio data
                                                                                                                           7/14/2010    ($320,000)         $400,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                           9/30/2010     $180,222          $580,222
                                                                                                                                                                         from servicer

                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                 289
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                       (CONTINUED)
                                                                                                                                                                                                                                                                                  290
             Servicer Modifying
             Borrowers’ Loans                                                                                                                    Adjustment Details                                                               Non-GSE Incentive Payments

                                                                                    Cap of Incentive
                                                                                Payments on Behalf                                                                                                                                                                       Total
                                                                                of Borrowers and to                                              Cap                                                      Market                      Lenders/                       Non-GSE
             Name of                      Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment     Adjustment          Adjusted Reason for                  Capitalization    Borrowers        Investors      Servicers       Incentive
Date         Institution                  Type          Description                 Investors (Cap)1   Mechanism    Note         Date        Amount               Cap Adjustment                     (in Millions)    Incentive      Incentives     Incentives      Payments

                                                                                                                                                                          Updated portfolio data
                                                                                                                           12/30/2009    ($2,900,000)       $1,960,000    from servicer & HAFA
                                                                                                                                                                          initial cap

                                                                                                                                                                          Updated portfolio data
                                                        Financial Instrument                                                3/26/2010    ($1,600,000)        $360,000
             Mortgage Clearing                                                                                                                                            from servicer
10/14/2009                                Purchase      for Home Loan                    $4,860,000           N/A
             Corporation, Tulsa, OK
                                                        Modifications
                                                                                                                                                                          Updated portfolio data
                                                                                                                            7/14/2010     ($260,000)         $100,000
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2010        $45,056         $145,056
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated HPDP cap &
                                                                                                                            1/22/2010        $20,000         $430,000
                                                                                                                                                                          HAFA initial cap

                                                                                                                                                                          Updated portfolio data
                                                        Financial Instrument                                                3/26/2010       $400,000         $830,000
             United Bank Mortgage Cor-                                                                                                                                    from servicer
10/21/2009                                Purchase      for Home Loan                     $410,000            N/A                                                                                                       $8,248         $17,839        $26,727         $52,814
             poration, Grand Rapids, MI
                                                        Modifications                                                                                                     Updated portfolio data
                                                                                                                            7/14/2010     ($430,000)         $400,000
                                                                                                                                                                          from servicer
                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I january 26, 2011




                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2010       $180,222         $580,222
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated HPDP cap &
                                                                                                                            1/22/2010     $4,370,000      $98,030,000
                                                                                                                                                                          HAFA initial cap

                                                                                                                                                                          Updated portfolio data
                                                                                                                            3/26/2010    $23,880,000     $121,910,000
                                                        Financial Instrument                                                                                              from servicer
             Bank United,
10/23/2009                                Purchase      for Home Loan                  $93,660,000            N/A                                                                                                    $503,468       $3,230,996     $2,847,063      $6,581,528
             Miami Lakes, FL
                                                        Modifications                                                                                                     Updated portfolio data
                                                                                                                            7/14/2010   ($16,610,000)    $105,300,000
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2010     $1,751,033     $107,051,033
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated HPDP cap &
                                                                                                                            1/22/2010        $40,000         $800,000
                                                                                                                                                                          HAFA initial cap

                                                                                                                                                                          Updated portfolio data
                                                                                                                            3/26/2010     ($760,000)           $40,000
                                                                                                                                                                          from servicer
                                                        Financial Instrument
             IC Federal Credit Union,                                                                                                                                     Updated portfolio data
10/23/2009                                Purchase      for Home Loan                     $760,000            N/A           5/12/2010     $2,630,000        $2,670,000                                                  $1,000          $3,625         $6,000         $10,625
             Fitchburg, MA                                                                                                                                                from servicer
                                                        Modifications
                                                                                                                                                                          Updated portfolio data
                                                                                                                            7/14/2010     ($770,000)        $1,900,000
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2010       $565,945        $2,465,945
                                                                                                                                                                          from servicer

           Harleysville National Bank &                 Financial Instrument
10/28/2009 Trust Company,               Purchase        for Home Loan                    $1,070,000           N/A           4/21/2010    ($1,070,000)                 —   Termination of SPA
           Harleysville, PA                             Modifications

                                                        Financial Instrument
             Members Mortgage
10/28/2009                                Purchase      for Home Loan                     $510,000            N/A           4/21/2010     ($510,000)                  —   Termination of SPA
             Company, Inc, Woburn, MA
                                                        Modifications

                                                                                                                                                                          Updated HPDP cap &
                                                                                                                            1/22/2010        $10,000           $80,000
                                                                                                                                                                          HAFA initial cap

                                                                                                                                                                          Updated portfolio data
                                                                                                                            3/26/2010        $10,000           $90,000
                                                        Financial Instrument                                                                                              from servicer
             DuPage Credit Union,
10/30/2009                                Purchase      for Home Loan                       $70,000           N/A                                                                                                       $1,000          $6,520         $2,500         $10,020
             Naperville, IL
                                                        Modifications                                                                                                     Updated portfolio data
                                                                                                                            7/14/2010        $10,000         $100,000
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2010        $45,056         $145,056
                                                                                                                                                                          from servicer

                                                                                                                                                                                                                                                        Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                      (CONTINUED)
             Servicer Modifying
             Borrowers’ Loans                                                                                                                   Adjustment Details                                                                  Non-GSE Incentive Payments

                                                                                   Cap of Incentive
                                                                               Payments on Behalf                                                                                                                                                                          Total
                                                                               of Borrowers and to                                              Cap                                                         Market                      Lenders/                       Non-GSE
             Name of                     Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment     Adjustment          Adjusted Reason for                     Capitalization    Borrowers        Investors      Servicers       Incentive
Date         Institution                 Type          Description                 Investors (Cap)1   Mechanism    Note         Date        Amount               Cap Adjustment                        (in Millions)    Incentive      Incentives     Incentives      Payments

                                                                                                                                                                         Updated HPDP cap &
                                                                                                                          1/22/2010         $40,000         $740,000
                                                                                                                                                                         HAFA initial cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                          3/26/2010         $50,000         $790,000
                                                       Financial Instrument                                                                                              from servicer
             Los Alamos National Bank,
11/6/2009                                Purchase      for Home Loan                     $700,000            N/A                                                                                                            $277          $1,075         $6,474          $7,826
             Los Alamos, NM
                                                       Modifications                                                                                                     Updated portfolio data
                                                                                                                          7/14/2010      $1,310,000        $2,100,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                          9/30/2010         $75,834        $2,175,834
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated HPDP cap &
                                                                                                                          1/22/2010        $890,000      $19,850,000
                                                                                                                                                                         HAFA initial cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                          3/26/2010      $3,840,000      $23,690,000
                                                       Financial Instrument                                                                                              from servicer
             Quantum Servicing
11/18/2009                               Purchase      for Home Loan                  $18,960,000            N/A                                                                                                              —           $1,046         $1,000          $2,046
             Corporation, Tampa, FL
                                                       Modifications                                                                                                     Updated portfolio data
                                                                                                                          7/14/2010     ($2,890,000)     $20,800,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                          9/30/2010      $9,661,676      $30,461,676
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated HPDP cap &
                                                                                                                          1/22/2010         $80,000        $1,750,000
                                                                                                                                                                         HAFA initial cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                          3/26/2010        $330,000        $2,080,000
                                                       Financial Instrument                                                                                              from servicer
             Hillsdale County National
11/18/2009                               Purchase      for Home Loan                    $1,670,000           N/A                                                                                                              —           $3,755        $12,000         $15,755
             Bank, Hillsdale, MI
                                                       Modifications                                                                                                     Updated portfolio data
                                                                                                                          7/14/2010     ($1,080,000)       $1,000,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                          9/30/2010        $160,445        $1,160,445
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated HPDP cap &
                                                                                                                          1/22/2010                           $20,000
                                                                                                                                                                         HAFA initial cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                          3/26/2010        ($10,000)          $10,000
                                                       Financial Instrument                                                                                              from servicer
             QLending, Inc., Coral
11/18/2009                               Purchase      for Home Loan                       $20,000           N/A
             Gables, FL
                                                       Modifications                                                                                                     Updated portfolio data
                                                                                                                          7/14/2010         $90,000         $100,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                          9/30/2010         $45,056         $145,056
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated HPDP cap &
                                                                                                                          1/22/2010        $950,000      $21,310,000
                                                                                                                                                                         HAFA initial cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                          3/26/2010    ($17,880,000)       $3,430,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Transfer of cap from
                                                                                                                          6/16/2010      $1,030,000        $4,460,000    CitiMortgage, Inc. due to
                                                                                                                                                                         servicing transfer
                                                       Financial Instrument
             Marix Servicing, LLC,
11/25/2009                               Purchase      for Home Loan                  $20,360,000            N/A                                                         Updated portfolio data                           $1,632         $43,402       $103,632        $148,666
             Phoenix, AZ                                                                                                  7/14/2010     ($1,160,000)       $3,300,000
                                                       Modifications                                                                                                     from servicer

                                                                                                                                                                         Transfer of cap due to
                                                                                                                          8/13/2010        $800,000        $4,100,000
                                                                                                                                                                         servicing transfer

                                                                                                                                                                         Initial FHA-HAMP cap and
                                                                                                                          9/30/2010        $200,000        $4,300,000
                                                                                                                                                                         initial RD-HAMP

                                                                                                                                                                         Updated portfolio data
                                                                                                                          9/30/2010      $1,357,168        $5,657,168
                                                                                                                                                                         from servicer
                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I january 26, 2011




                                                       Financial Instrument
             Home Financing Center, Inc,
11/25/2009                               Purchase      for Home Loan                     $230,000            N/A          4/21/2010      ($230,000)                  —   Termination of SPA
             Coral Gables, FL
                                                       Modifications

                                                                                                                                                                                                                                                          Continued on next page.
                                                                                                                                                                                                                                                                                    291
                                                                                                                                                                                                                                                                                  292
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                        (CONTINUED)
             Servicer Modifying
             Borrowers’ Loans                                                                                                                     Adjustment Details                                                              Non-GSE Incentive Payments

                                                                                     Cap of Incentive
                                                                                 Payments on Behalf                                                                                                                                                                      Total
                                                                                 of Borrowers and to                                              Cap                                                     Market                      Lenders/                       Non-GSE
             Name of                       Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment     Adjustment          Adjusted Reason for                 Capitalization    Borrowers        Investors      Servicers       Incentive
Date         Institution                   Type          Description                 Investors (Cap)1   Mechanism    Note         Date        Amount               Cap Adjustment                    (in Millions)    Incentive      Incentives     Incentives      Payments

                                                                                                                                                                          Updated HPDP cap &
                                                                                                                            1/22/2010         $50,000        $1,330,000
                                                                                                                                                                          HAFA initial cap

                                                                                                                                                                          Updated portfolio data
                                                                                                                            3/26/2010      $1,020,000        $2,350,000
                                                         Financial Instrument                                                                                             from servicer
             First Keystone Bank,
11/25/2009                                 Purchase      for Home Loan                    $1,280,000           N/A                                                                                                      $2,776          $3,423         $8,718         $14,917
             Media, PA
                                                         Modifications                                                                                                    Updated portfolio data
                                                                                                                            7/14/2010      ($950,000)        $1,400,000
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2010         $50,556        $1,450,556
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated HPDP cap &
                                                                                                                            1/22/2010         $10,000         $390,000
                                                                                                                                                                          HAFA initial cap

                                                                                                                                                                          Updated portfolio data
                                                                                                                            3/26/2010        $520,000         $910,000
             Community Bank & Trust                      Financial Instrument                                                                                             from servicer
12/4/2009    Company,                      Purchase      for Home Loan                     $380,000            N/A
             Clarks Summit, PA                           Modifications                                                                                                    Updated portfolio data
                                                                                                                            7/14/2010      ($810,000)         $100,000
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2010         $45,056         $145,056
                                                                                                                                                                          from servicer
                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I january 26, 2011




                                                                                                                                                                          Updated HPDP cap &
                                                                                                                            1/22/2010        $440,000        $9,870,000
                                                                                                                                                                          HAFA initial cap

                                                                                                                                                                          Updated portfolio data
                                                                                                                            3/26/2010     $14,480,000      $24,350,000
                                                                                                                                                                          from servicer
                                                         Financial Instrument
             Idaho Housing and Finance                                                                                                                                    Updated portfolio data
12/4/2009                                  Purchase      for Home Loan                    $9,430,000           N/A          5/26/2010    ($24,200,000)        $150,000                                                  $2,922          $2,659         $5,922         $11,503
             Association, Boise, ID                                                                                                                                       from servicer
                                                         Modifications

                                                                                                                                                                          Updated portfolio data
                                                                                                                            7/14/2010        $150,000         $300,000
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2010         ($9,889)        $290,111
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated HPDP cap &
                                                                                                                            1/22/2010         $10,000         $370,000
                                                                                                                                                                          HAFA initial cap

                                                                                                                                                                          Updated portfolio data
                                                                                                                            3/26/2010        $850,000        $1,220,000
                                                                                                                                                                          from servicer
                                                         Financial Instrument
             Spirit of Alaska Federal
12/9/2009                                Purchase        for Home Loan                     $360,000            N/A                                                        Updated portfolio data
             Credit Union, Fairbanks, AK                                                                                    7/14/2010      ($120,000)        $1,100,000
                                                         Modifications                                                                                                    from servicer

                                                                                                                            9/30/2010        $100,000        $1,200,000   Initial FHA-HAMP cap

                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2010        $105,500        $1,305,500
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated HPDP cap &
                                                                                                                            1/22/2010         $70,000        $1,660,000
                                                                                                                                                                          HAFA initial cap

                                                                                                                                                                          Updated portfolio data
                                                                                                                            3/26/2010      ($290,000)        $1,370,000
             American Eagle Federal                      Financial Instrument                                                                                             from servicer
12/9/2009    Credit Union,                 Purchase      for Home Loan                    $1,590,000           N/A
             East Hartford, CT                           Modifications                                                                                                    Updated portfolio data
                                                                                                                            7/14/2010      ($570,000)         $800,000
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2010         $70,334         $870,334
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated HPDP cap &
                                                                                                                            1/22/2010         $90,000        $1,970,000
                                                                                                                                                                          HAFA initial cap

                                                                                                                                                                          Updated portfolio data
                                                         Financial Instrument                                               3/26/2010      $1,110,000        $3,080,000
             Silver State Schools Credit                                                                                                                                  from servicer
12/9/2009                                  Purchase      for Home Loan                    $1,880,000           N/A                                                                                                          —          $18,378        $17,500         $35,878
             Union, Las Vegas, NV
                                                         Modifications
                                                                                                                                                                          Updated portfolio data
                                                                                                                            7/14/2010     ($1,180,000)       $1,900,000
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2010        $275,834        $2,175,834
                                                                                                                                                                          from servicer

                                                                                                                                                                                                                                                        Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                       (CONTINUED)
             Servicer Modifying
             Borrowers’ Loans                                                                                                                   Adjustment Details                                                               Non-GSE Incentive Payments

                                                                                    Cap of Incentive
                                                                                Payments on Behalf                                                                                                                                                                      Total
                                                                                of Borrowers and to                                             Cap                                                      Market                      Lenders/                       Non-GSE
             Name of                      Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment    Adjustment          Adjusted Reason for                  Capitalization    Borrowers        Investors      Servicers       Incentive
Date         Institution                  Type          Description                 Investors (Cap)1   Mechanism    Note         Date       Amount               Cap Adjustment                     (in Millions)    Incentive      Incentives     Incentives      Payments

                                                                                                                                                                         Updated HPDP cap &
                                                                                                                            1/22/2010     $140,000         $3,080,000
                                                                                                                                                                         HAFA initial cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                            3/26/2010    $6,300,000        $9,380,000
                                                        Financial Instrument                                                                                             from servicer
             Fidelity Homestead Savings
12/9/2009                               Purchase        for Home Loan                    $2,940,000           N/A
             Bank, New Orleans, LA
                                                        Modifications                                                                                                    Updated portfolio data
                                                                                                                            7/14/2010   ($1,980,000)       $7,400,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                            9/30/2010   ($6,384,611)       $1,015,389
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated HPDP cap &
                                                                                                                            1/22/2010       $10,000         $240,000
                                                                                                                                                                         HAFA initial cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                            3/26/2010     $440,000          $680,000
                                                                                                                                                                         from servicer
                                                        Financial Instrument
             Bay Gulf Credit Union,
12/9/2009                                 Purchase      for Home Loan                     $230,000            N/A                                                        Updated portfolio data
             Tampa, FL                                                                                                      7/14/2010      ($80,000)        $600,000
                                                        Modifications                                                                                                    from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                            9/30/2010      ($19,778)        $580,222
                                                                                                                                                                         from servicer

                                                                                                                           10/15/2010    ($580,222)                  —   Termination of SPA

                                                                                                                                                                         Updated HPDP cap &
                                                                                                                            1/22/2010     $290,000         $6,450,000
                                                                                                                                                                         HAFA initial cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                            3/26/2010       $40,000        $6,490,000
                                                        Financial Instrument                                                                                             from servicer
             The Golden 1 Credit Union,
12/9/2009                                 Purchase      for Home Loan                    $6,160,000           N/A                                                                                                          —          $47,964        $47,000         $94,964
             Sacramento, CA
                                                        Modifications                                                                                                    Updated portfolio data
                                                                                                                            7/14/2010   ($2,890,000)       $3,600,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                            9/30/2010     $606,612         $4,206,612
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated HPDP cap &
                                                                                                                            1/22/2010     $100,000         $2,350,000
                                                                                                                                                                         HAFA initial cap

                                                                                                                                                                         Updated portfolio data
                                                                                                                            3/26/2010    ($740,000)        $1,610,000
                                                        Financial Instrument                                                                                             from servicer
             Sterling Savings Bank,
12/9/2009                                 Purchase      for Home Loan                    $2,250,000           N/A                                                                                                          —          $16,534        $26,500         $43,034
             Spokane, WA
                                                        Modifications                                                                                                    Updated portfolio data
                                                                                                                            7/14/2010    ($710,000)         $900,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                            9/30/2010     $550,556         $1,450,556
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated HPDP cap &
                                                                                                                            1/22/2010       $20,000         $330,000
                                                                                                                                                                         HAFA initial cap

                                                                                                                                                                         Updated portfolio data
                                                        Financial Instrument                                                3/26/2010     $820,000         $1,150,000
             HomeStar Bank & Financial                                                                                                                                   from servicer
12/11/2009                                Purchase      for Home Loan                     $310,000            N/A                                                                                                          —             $720         $1,000          $1,720
             Services, Manteno, IL
                                                        Modifications
                                                                                                                                                                         Updated portfolio data
                                                                                                                            7/14/2010    ($350,000)         $800,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                            9/30/2010       $70,334         $870,334
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated HPDP cap &
                                                                                                                            1/22/2010       $20,000         $390,000
                                                                                                                                                                         HAFA initial cap
                                                        Financial Instrument
           Glenview State Bank,
12/11/2009                                Purchase      for Home Loan                     $370,000            N/A
           Glenview, IL                                                                                                                                                  Updated portfolio data
                                                        Modifications                                                       3/26/2010    $1,250,000        $1,640,000
                                                                                                                                                                         from servicer
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I january 26, 2011




                                                                                                                            5/26/2010   ($1,640,000)                 —   Termination of SPA

                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                 293
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                        (CONTINUED)                                                                                                                                                                      294
             Servicer Modifying
             Borrowers’ Loans                                                                                                                    Adjustment Details                                                               Non-GSE Incentive Payments

                                                                                     Cap of Incentive
                                                                                 Payments on Behalf                                                                                                                                                                      Total
                                                                                 of Borrowers and to                                             Cap                                                      Market                      Lenders/                       Non-GSE
             Name of                       Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment    Adjustment          Adjusted Reason for                  Capitalization    Borrowers        Investors      Servicers       Incentive
Date         Institution                   Type          Description                 Investors (Cap)1   Mechanism    Note         Date       Amount               Cap Adjustment                     (in Millions)    Incentive      Incentives     Incentives      Payments

                                                                                                                                                                          Updated HPDP cap &
                                                                                                                            1/22/2010        $30,000         $630,000
                                                                                                                                                                          HAFA initial cap

                                                                                                                                                                          Updated portfolio data
                                                                                                                            3/26/2010      $400,000         $1,030,000
                                                         Financial Instrument                                                                                             from servicer
             Verity Credit Union,
12/11/2009                                 Purchase      for Home Loan                     $600,000            N/A
             Seattle, WA
                                                         Modifications                                                                                                    Updated portfolio data
                                                                                                                            7/14/2010     ($330,000)         $700,000
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2010        $25,278         $725,278
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated HPDP cap &
                                                                                                                            1/22/2010        $30,000         $660,000
                                                                                                                                                                          HAFA initial cap

                                                                                                                                                                          Updated portfolio data
                                                         Financial Instrument                                               3/26/2010      $800,000         $1,460,000
             Hartford Savings Bank,                                                                                                                                       from servicer
12/11/2009                                 Purchase      for Home Loan                     $630,000            N/A
             Hartford, WI
                                                         Modifications
                                                                                                                                                                          Updated portfolio data
                                                                                                                            7/14/2010     ($360,000)        $1,100,000
                                                                                                                                                                          from servicer
                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I january 26, 2011




                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2010        $60,445        $1,160,445
                                                                                                                                                                          from servicer

                                                         Financial Instrument
             The Bryn Mawr Trust Co.,
12/11/2009                                 Purchase      for Home Loan                     $150,000            N/A          4/21/2010     ($150,000)                  —   Termination of SPA
             Bryn Mawr, PA
                                                         Modifications

                                                                                                                                                                          Updated HPDP cap &
                                                                                                                            1/22/2010        $30,000         $650,000
                                                                                                                                                                          HAFA initial cap

                                                                                                                                                                          Updated portfolio data
                                                                                                                            3/26/2010     ($580,000)           $70,000
                                                         Financial Instrument                                                                                             from servicer
             Citizens 1st National Bank,
12/16/2009                                 Purchase      for Home Loan                     $620,000            N/A                                                                                                          —           $1,724         $3,000          $4,724
             Spring Valley, IL
                                                         Modifications                                                                                                    Updated portfolio data
                                                                                                                            7/14/2010     $1,430,000        $1,500,000
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2010        $95,612        $1,595,612
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated HPDP cap &
                                                                                                                            1/22/2010        $10,000         $180,000
                                                                                                                                                                          HAFA initial cap

                                                                                                                                                                          Updated portfolio data
                                                         Financial Instrument                                               3/26/2010        $30,000         $210,000
             Golden Plains Credit Union,                                                                                                                                  from servicer
12/16/2009                                 Purchase      for Home Loan                     $170,000            N/A
             Garden City, KS
                                                         Modifications
                                                                                                                                                                          Updated portfolio data
                                                                                                                            7/14/2010       ($10,000)        $200,000
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2010        $90,111         $290,111
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated HPDP cap &
           First Federal Savings and                     Financial Instrument                                               1/22/2010      $160,000         $3,620,000
                                                                                                                                                                          HAFA initial cap
12/16/2009 Loan Association of             Purchase      for Home Loan                    $3,460,000           N/A
           Lakewood, Lakewood, OH                        Modifications
                                                                                                                            4/21/2010    ($3,620,000)                 —   Termination of SPA

                                                                                                                                                                          Updated HPDP cap &
                                                                                                                            1/22/2010        $20,000         $460,000
                                                                                                                                                                          HAFA initial cap

                                                                                                                                                                          Updated portfolio data
                                                         Financial Instrument                                               3/26/2010     $1,430,000        $1,890,000
             Sound Community Bank,                                                                                                                                        from servicer
12/16/2009                                 Purchase      for Home Loan                     $440,000            N/A
             Seattle, WA
                                                         Modifications
                                                                                                                                                                          Updated portfolio data
                                                                                                                            7/14/2010     ($390,000)        $1,500,000
                                                                                                                                                                          from servicer

                                                                                                                             9/8/2010    -$1,500,000                  —   Termination of SPA

                                                                                                                                                                                                                                                        Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                      (CONTINUED)
             Servicer Modifying
             Borrowers’ Loans                                                                                                                  Adjustment Details                                                               Non-GSE Incentive Payments

                                                                                   Cap of Incentive
                                                                               Payments on Behalf                                                                                                                                                                      Total
                                                                               of Borrowers and to                                             Cap                                                      Market                      Lenders/                       Non-GSE
             Name of                     Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment    Adjustment          Adjusted Reason for                  Capitalization    Borrowers        Investors      Servicers       Incentive
Date         Institution                 Type          Description                 Investors (Cap)1   Mechanism    Note         Date       Amount               Cap Adjustment                     (in Millions)    Incentive      Incentives     Incentives      Payments

                                                                                                                                                                        Updated HPDP cap &
                                                                                                                          1/22/2010        $30,000         $730,000
                                                                                                                                                                        HAFA initial cap

                                                                                                                                                                        Updated portfolio data
                                                                                                                          3/26/2010     $1,740,000        $2,470,000
                                                       Financial Instrument                                                                                             from servicer
             Horizon Bank, NA,
12/16/2009                               Purchase      for Home Loan                     $700,000            N/A
             Michigan City, IN
                                                       Modifications                                                                                                    Updated portfolio data
                                                                                                                          7/14/2010    ($1,870,000)        $600,000
                                                                                                                                                                        from servicer

                                                                                                                                                                        Updated portfolio data
                                                                                                                          9/30/2010      $850,556         $1,450,556
                                                                                                                                                                        from servicer

                                                                                                                                                                        Updated HPDP cap &
                                                                                                                          1/22/2010        $40,000         $800,000
                                                                                                                                                                        HAFA initial cap

                                                                                                                                                                        Updated portfolio data
                                                                                                                          3/26/2010      $140,000          $940,000
                                                       Financial Instrument                                                                                             from servicer
             Park View Federal Savings
12/16/2009                               Purchase      for Home Loan                     $760,000            N/A                                                                                                          —           $8,326         $7,000         $15,326
             Bank, Solon, OH
                                                       Modifications                                                                                                    Updated portfolio data
                                                                                                                          7/14/2010     ($140,000)         $800,000
                                                                                                                                                                        from servicer

                                                                                                                                                                        Updated portfolio data
                                                                                                                          9/30/2010        $70,334         $870,334
                                                                                                                                                                        from servicer

                                                                                                                                                                        Updated HPDP cap &
                                                                                                                          1/22/2010      $200,000         $4,430,000
                                                                                                                                                                        HAFA initial cap

                                                                                                                                                                        Updated portfolio data
                                                       Financial Instrument                                               3/26/2010    ($1,470,000)       $2,960,000
                                                                                                                                                                        from servicer
12/23/2009 Iberiabank, Sarasota, FL      Purchase      for Home Loan                    $4,230,000           N/A                                                                                                          —           $4,547        $13,000         $17,547
                                                       Modifications
                                                                                                                                                                        Updated portfolio data
                                                                                                                          7/14/2010    ($1,560,000)       $1,400,000
                                                                                                                                                                        from servicer

                                                                                                                                                                        Updated portfolio data
                                                                                                                          9/30/2010     $5,852,780        $7,252,780
                                                                                                                                                                        from servicer

                                                                                                                                                                        Updated HPDP cap &
                                                                                                                          1/22/2010        $20,000         $360,000
                                                                                                                                                                        HAFA initial cap

                                                                                                                                                                        Updated portfolio data
                                                                                                                          3/26/2010     ($320,000)           $40,000
                                                       Financial Instrument                                                                                             from servicer
             Grafton Suburban Credit
12/23/2009                               Purchase      for Home Loan                     $340,000            N/A
             Union, North Grafton, MA
                                                       Modifications                                                                                                    Updated portfolio data
                                                                                                                          7/14/2010      $760,000          $800,000
                                                                                                                                                                        from servicer

                                                                                                                                                                        Updated portfolio data
                                                                                                                          9/30/2010       ($74,722)        $725,278
                                                                                                                                                                        from servicer

                                                                                                                                                                        Updated HPDP cap &
                                                                                                                          1/22/2010             —            $60,000
                                                                                                                                                                        HAFA initial cap

                                                                                                                                                                        Updated portfolio data
                                                                                                                          3/26/2010        $90,000         $150,000
                                                       Financial Instrument                                                                                             from servicer
             Eaton National Bank &
12/23/2009                               Purchase      for Home Loan                       $60,000           N/A
             Trust Company, Eaton, OH
                                                       Modifications                                                                                                    Updated portfolio data
                                                                                                                          7/14/2010        $50,000         $200,000
                                                                                                                                                                        from servicer

                                                                                                                                                                        Updated portfolio data
                                                                                                                          9/30/2010       ($54,944)        $145,056
                                                                                                                                                                        from servicer

                                                                                                                                                                        Updated HPDP cap &
                                                                                                                          1/22/2010             —          $110,000
                                                                                                                                                                        HAFA initial cap

                                                                                                                                                                        Updated portfolio data
                                                                                                                          3/26/2010       ($20,000)          $90,000
                                                                                                                                                                        from servicer
                                                       Financial Instrument
             Tempe Schools Credit
12/23/2009                               Purchase      for Home Loan                     $110,000            N/A                                                        Updated portfolio data
             Union, Tempe, AZ                                                                                             7/14/2010        $10,000         $100,000
                                                       Modifications                                                                                                    from servicer
                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I january 26, 2011




                                                                                                                                                                        Updated portfolio data
                                                                                                                          9/30/2010        $45,056         $145,056
                                                                                                                                                                        from servicer

                                                                                                                          12/8/2010     ($145,056)                  —   Termination of SPA

                                                                                                                                                                                                                                                      Continued on next page.
                                                                                                                                                                                                                                                                                295
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                      (CONTINUED)
                                                                                                                                                                                                                                                                                    296
            Servicer Modifying
            Borrowers’ Loans                                                                                                                    Adjustment Details                                                                  Non-GSE Incentive Payments

                                                                                   Cap of Incentive
                                                                               Payments on Behalf                                                                                                                                                                          Total
                                                                               of Borrowers and to                                              Cap                                                         Market                      Lenders/                       Non-GSE
            Name of                      Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment     Adjustment          Adjusted Reason for                     Capitalization    Borrowers        Investors      Servicers       Incentive
Date        Institution                  Type          Description                 Investors (Cap)1   Mechanism    Note         Date        Amount               Cap Adjustment                        (in Millions)    Incentive      Incentives     Incentives      Payments

                                                                                                                                                                         Updated portfolio data
                                                                                                                           3/26/2010       $480,000         $740,000
                                                                                                                                                                         from servicer
                                                       Financial Instrument
            Fresno County Federal                                                                                                                                        Updated portfolio data
1/13/2010                                Purchase      for Home Loan                     $260,000            N/A           7/14/2010     ($140,000)         $600,000                                                          —             $765         $1,000          $1,765
            Credit Union, Fresno, CA                                                                                                                                     from servicer
                                                       Modifications
                                                                                                                                                                         Updated portfolio data
                                                                                                                           9/30/2010       ($19,778)        $580,222
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                           3/26/2010       $610,000         $850,000
                                                                                                                                                                         from servicer
                                                       Financial Instrument
            Roebling Bank,                                                                                                                                               Updated portfolio data
1/13/2010                                Purchase      for Home Loan                     $240,000            N/A           7/14/2010        $50,000         $900,000
            Roebling, NJ                                                                                                                                                 from servicer
                                                       Modifications
                                                                                                                                                                         Updated portfolio data
                                                                                                                           9/30/2010       ($29,666)        $870,334
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                           3/26/2010       $150,000         $290,000
                                                                                                                                                                         from servicer
                                                       Financial Instrument
            First National Bank of                                                                                                                                       Updated portfolio data
1/13/2010                                Purchase      for Home Loan                     $140,000            N/A           7/14/2010        $10,000         $300,000
                                                                                                                                                                                                                                                                                    Appendix D I Transaction Detail I january 26, 2011




            Grant Park, Grant Park, IL                                                                                                                                   from servicer
                                                       Modifications
                                                                                                                                                                         Updated portfolio data
                                                                                                                           9/30/2010        ($9,889)        $290,111
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                                                                                           3/26/2010   ($51,240,000)     $12,910,000
                                                                                                                                                                         from servicer

                                                                                                                                                                         Transfer of cap from
                                                                                                                           5/14/2010     $3,000,000      $15,910,000     CitiMortgage, Inc. due to
                                                                                                                                                                         servicing transfer

                                                                                                                                                                         Transfer of cap from
                                                                                                                           6/16/2010     $4,860,000      $20,770,000     CitiMortgage, Inc. due to
                                                                                                                                                                         servicing transfer

                                                                                                                                                                         Updated portfolio data
                                                                                                                           7/14/2010     $3,630,000      $24,400,000
                                                                                                                                                                         from servicer
                                                       Financial Instrument
            Specialized Loan Servicing,
1/13/2010                               Purchase       for Home Loan                  $64,150,000            N/A                                                         Transfer of cap from                            $44,759        $221,027       $161,926        $427,713
            LLC, Highlands Ranch, CO
                                                       Modifications                                                       7/16/2010       $330,000      $24,730,000     CitiMortgage, Inc. due to
                                                                                                                                                                         servicing transfer

                                                                                                                                                                         Transfer of cap due to
                                                                                                                           8/13/2010       $700,000      $25,430,000
                                                                                                                                                                         servicing transfer

                                                                                                                                                                         Transfer of cap due to
                                                                                                                           9/15/2010       $200,000      $25,630,000
                                                                                                                                                                         servicing transfer

                                                                                                                                                                         Updated portfolio data
                                                                                                                           9/30/2010    ($1,695,826)     $23,934,174
                                                                                                                                                                         from servicer

                                                                                                                                                                         Transfer of cap due to
                                                                                                                          11/16/2010       $200,000      $24,134,174
                                                                                                                                                                         servicing transfer

                                                                                                                                                                         Updated portfolio data
                                                                                                                           3/26/2010     $8,680,000        $9,450,000
                                                                                                                                                                         from servicer
                                                       Financial Instrument
            Greater Nevada Mortgage                                                                                                                                      Updated portfolio data
1/13/2010                                Purchase      for Home Loan                     $770,000            N/A           7/14/2010    ($8,750,000)        $700,000                                                      $5,167         $18,949        $23,750         $47,865
            Services, Carson City, NV                                                                                                                                    from servicer
                                                       Modifications
                                                                                                                                                                         Updated portfolio data
                                                                                                                           9/30/2010       $170,334         $870,334
                                                                                                                                                                         from servicer

                                                                                                                                                                         Updated portfolio data
                                                       Financial Instrument                                                3/26/2010    $12,190,000      $15,240,000
            Digital Federal Credit Union,                                                                                                                                from servicer
1/15/2010                                 Purchase     for Home Loan                    $3,050,000           N/A
            Marlborough, MA
                                                       Modifications
                                                                                                                           5/14/2010   ($15,240,000)                 — Termination of SPA

                                                                                                                                                                                                                                                          Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                       (CONTINUED)
            Servicer Modifying
            Borrowers’ Loans                                                                                                                     Adjustment Details                                                                 Non-GSE Incentive Payments

                                                                                    Cap of Incentive
                                                                                Payments on Behalf                                                                                                                                                                         Total
                                                                                of Borrowers and to                                              Cap                                                        Market                      Lenders/                       Non-GSE
            Name of                       Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment     Adjustment          Adjusted Reason for                    Capitalization    Borrowers        Investors      Servicers       Incentive
Date        Institution                   Type          Description                 Investors (Cap)1   Mechanism    Note         Date        Amount               Cap Adjustment                       (in Millions)    Incentive      Incentives     Incentives      Payments

                                                                                                                                                                          Updated portfolio data
                                                                                                                            3/26/2010     ($730,000)         $230,000
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            7/14/2010       $370,000         $600,000
                                                                                                                                                                          from servicer
                                                        Financial Instrument
            iServe Residential Lending,                                                                                                                                   Initial FHA-HAMP cap and
1/29/2010                                 Purchase      for Home Loan                     $960,000            N/A           9/30/2010       $200,000         $800,000
            LLC, San Diego, CA                                                                                                                                            initial 2MP cap
                                                        Modifications
                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2010     ($364,833)         $435,167
                                                                                                                                                                          from servicer

                                                                                                                                                                          Transfer of cap due to
                                                                                                                           11/16/2010       $100,000         $535,167
                                                                                                                                                                          servicing transfer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            3/26/2010       $160,000         $700,000
                                                        Financial Instrument                                                                                              from servicer
1/29/2010   United Bank, Griffin, GA      Purchase      for Home Loan                     $540,000            N/A
                                                        Modifications                                                                                                     Updated portfolio data
                                                                                                                            9/30/2010        $25,278         $725,278
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                        Financial Instrument                                                7/14/2010     $4,440,000        $5,500,000
            Urban Trust Bank,                                                                                                                                             from servicer
3/3/2010                                  Purchase      for Home Loan                    $1,060,000           N/A
            Lake Mary, FL
                                                        Modifications
                                                                                                                            9/24/2010    ($5,500,000)                 —   Termination of SPA

                                                                                                                            5/26/2010       $120,000      $28,160,000     Initial 2MP cap

                                                                                                                                                                          Updated portfolio data
                                                                                                                            7/14/2010   ($12,660,000)     $15,500,000
                                                                                                                                                                          from servicer
                                                        Financial Instrument
            iServe Servicing, Inc.,                                                                                         9/30/2010       $100,000      $15,600,000     Initial FHA-HAMP cap
3/5/2010                                  Purchase      for Home Loan                  $28,040,000            N/A
            Irving, TX
                                                        Modifications
                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2010    ($3,125,218)     $12,474,782
                                                                                                                                                                          from servicer

                                                                                                                                                                          Transfer of cap due to
                                                                                                                           11/16/2010       $800,000      $13,274,782
                                                                                                                                                                          servicing transfer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            7/14/2010   ($44,880,000)     $15,900,000
                                                        Financial Instrument                                                                                              from servicer
            Navy Federal Credit Union,
3/10/2010                                 Purchase      for Home Loan                  $60,780,000            N/A                                                                                                         $6,000         $24,596        $31,000         $61,596
            Vienna, VA
                                                        Modifications                                                                                                     Updated portfolio data
                                                                                                                            9/30/2010     $1,071,505      $16,971,505
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            7/14/2010       $400,000         $700,000
                                                        Financial Instrument                                                                                              from servicer
            Vist Financial Corp,
3/10/2010                                 Purchase      for Home Loan                     $300,000            N/A
            Wyomissing, PA
                                                        Modifications                                                                                                     Updated portfolio data
                                                                                                                            9/30/2010        $25,278         $725,278
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            7/14/2010       $300,000         $600,000
                                                        Financial Instrument                                                                                              from servicer
            Midwest Bank and Trust Co.,
4/14/2010                               Purchase        for Home Loan                     $300,000            N/A
            Elmwood Park, IL
                                                        Modifications                                                                                                     Updated portfolio data
                                                                                                                            9/30/2010       ($19,778)        $580,222
                                                                                                                                                                          from servicer

                                                                                                                                                                          Updated portfolio data
                                                                                                                            7/14/2010     ($150,000)        $6,400,000
                                                                                                                                                                          from servicer
                                                        Financial Instrument
            Wealthbridge Mortgage                                                                                                                                         Transfer of cap due to
4/14/2010                                 Purchase      for Home Loan                    $6,550,000           N/A           9/15/2010     $1,600,000        $8,000,000
            Corp, Beaverton, OR                                                                                                                                           servicing transfer
                                                        Modifications
                                                                                                                                                                          Updated portfolio data
                                                                                                                            9/30/2010    ($4,352,173)       $3,647,827
                                                                                                                                                                          from servicer

                                                                                                                            5/26/2010        $30,000           $40,000    Updated FHA-HAMP cap
                                                        Financial Instrument
            Aurora Financial Group, Inc.,
5/21/2010                                 Purchase      for Home Loan                       $10,000           N/A   4, 8
            Marlton, NJ                                                                                                                                                   Updated portfolio data
                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I january 26, 2011




                                                        Modifications                                                       9/30/2010       $250,111         $290,111
                                                                                                                                                                          from servicer

                                                                                                                                                                                                                                                          Continued on next page.
                                                                                                                                                                                                                                                                                    297
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                       (CONTINUED)                                                                                                                                                                          298
            Servicer Modifying
            Borrowers’ Loans                                                                                                                      Adjustment Details                                                                 Non-GSE Incentive Payments

                                                                                    Cap of Incentive
                                                                                Payments on Behalf                                                                                                                                                                          Total
                                                                                of Borrowers and to                                               Cap                                                        Market                      Lenders/                       Non-GSE
            Name of                       Transaction   Investment             Servicers & Lenders/       Pricing             Adjustment   Adjustment          Adjusted Reason for                    Capitalization    Borrowers        Investors      Servicers       Incentive
Date        Institution                   Type          Description                 Investors (Cap)1   Mechanism     Note           Date      Amount               Cap Adjustment                       (in Millions)    Incentive      Incentives     Incentives      Payments

                                                                                                                                                                          Transfer of cap from
                                                                                                                               6/16/2010   $3,680,000        $3,680,000   CitiMortgage, Inc. due to
                                                                                                                                                                          servicing transfer

                                                                                                                                                                          Transfer of cap due to
                                                        Financial Instrument                                                   8/13/2010   $3,300,000        $6,980,000
            Selene Financial, L.P.,                                                                                                                                       servicing transfer
6/16/2010                                 Transfer      for Home Loan                            —            N/A        9                                                                                                   $750          $5,503         $1,000          $7,253
            Houston, TX
                                                        Modifications
                                                                                                                                                                          Updated portfolio data
                                                                                                                               9/30/2010   $3,043,831      $10,023,831
                                                                                                                                                                          from servicer

                                                                                                                                                                          Transfer of cap due to
                                                                                                                              10/15/2010   $1,400,000      $11,423,831
                                                                                                                                                                          servicing transfer

            Suburban Mortgage                           Financial Instrument
                                                                                                                                                                          Updated portfolio data
8/4/2010    Company of New Mexico,        Purchase      for Home Loan                     $880,000            N/A              9/30/2010   $1,585,945        $2,465,945
                                                                                                                                                                          from servicer
            Albuquerque, NM                             Modifications

                                                        Financial Instrument
            Bramble Savings Bank,                                                                                                                                         Updated portfolio data
8/20/2010                                 Purchase      for Home Loan                     $700,000            N/A              9/30/2010   $1,040,667        $1,740,667
            Cincinanati, OH                                                                                                                                               from servicer
                                                        Modifications
                                                                                                                                                                                                                                                                                     Appendix D I Transaction Detail I january 26, 2011




                                                        Financial Instrument
            Pathfinder Bank,                                                                                                                                              Updated portfolio data
8/25/2010                                 Purchase      for Home Loan                    $1,300,000           N/A              9/30/2010   $2,181,334        $3,481,334                                                        —             $210         $1,000          $1,210
            Oswego, NY                                                                                                                                                    from servicer
                                                        Modifications

                                                        Financial Instrument
            First Financial Bank, N.A.,                                                                                                                                   Updated portfolio data
8/27/2010                                 Purchase      for Home Loan                    $4,300,000           N/A              9/30/2010   $7,014,337      $11,314,337
            Terre Haute, ID                                                                                                                                               from servicer
                                                        Modifications

                                                        Financial Instrument
            RBC Bank (USA),                                                                                                                                               Updated portfolio data
9/1/2010                                  Purchase      for Home Loan                     $100,000            N/A     4, 8     9/30/2010     $45,056          $145,056
            Raleigh, NC                                                                                                                                                   from servicer
                                                        Modifications

                                                        Financial Instrument
            Fay Servicing, LLC,                                                                                                                                           Updated portfolio data
9/3/2010                                  Purchase      for Home Loan                    $3,100,000           N/A              9/30/2010   $5,168,169        $8,268,169
            Chicago, IL                                                                                                                                                   from servicer
                                                        Modifications

                                                                                                                                                                          Transfer of cap due to
                                                                                                                               9/15/2010   $1,000,000        $1,000,000
                                                        Financial Instrument                                                                                              servicing transfer
            Vericrest Financial, Inc.,
9/15/2010                                 Purchase      for Home Loan                            —            N/A        9                                                                                                     —                —         $5,000          $5,000
            Oklahoma City, OK
                                                        Modifications                                                                                                     Updated portfolio data
                                                                                                                               9/30/2010    $450,556         $1,450,556
                                                                                                                                                                          from servicer

                                                        Financial Instrument
            Midwest Community Bank,                                                                                                                                       Updated portfolio data
9/15/2010                                 Purchase      for Home Loan                     $400,000            N/A              9/30/2010    $180,222          $580,222
            Freeport, IL                                                                                                                                                  from servicer
                                                        Modifications

                                                        Financial Instrument
            American Finance House                                                                                                                                        Updated portfolio data
9/24/2010                                 Purchase      for Home Loan                     $100,000            N/A              9/30/2010     $45,056          $145,056
            LARIBA, Pasadena, CA                                                                                                                                          from servicer
                                                        Modifications

                                                        Financial Instrument
                                                                                                                                                                          Updated portfolio data
9/24/2010   Centrue Bank, Ottawa, IL      Purchase      for Home Loan                    $1,900,000           N/A              9/30/2010    $856,056         $2,756,056
                                                                                                                                                                          from servicer
                                                        Modifications

                                                        Financial Instrument
            AgFirst Farm Credit Bank,                                                                                                                                     Updated portfolio data
9/30/2010                                 Purchase      for Home Loan                     $100,000            N/A              9/30/2010     $45,056          $145,056
            Columbia, SC                                                                                                                                                  from servicer
                                                        Modifications

                                                        Financial Instrument
            Amarillo National Bank,                                                                                                                                       Updated portfolio data
9/30/2010                                 Purchase      for Home Loan                     $100,000            N/A     4, 8     9/30/2010     $45,056          $145,056
            Amarillo, TX                                                                                                                                                  from servicer
                                                        Modifications

            American Financial                          Financial Instrument
                                                                                                                                                                          Updated portfolio data
9/30/2010   Resources Inc.,               Purchase      for Home Loan                     $100,000            N/A     4, 8     9/30/2010     $45,056          $145,056
                                                                                                                                                                          from servicer
            Parsippany, NJ                              Modifications

                                                        Financial Instrument
            Banco Popular de Puerto                                                                                                                                       Updated portfolio data
9/30/2010                                 Purchase      for Home Loan                    $1,700,000           N/A   4, 5, 8    9/30/2010    $765,945         $2,465,945
            Rico, San Juan, PR                                                                                                                                            from servicer
                                                        Modifications

            Capital International                       Financial Instrument
                                                                                                                                                                          Updated portfolio data
9/30/2010   Financial, Inc.,              Purchase      for Home Loan                     $100,000            N/A     4, 8     9/30/2010     $45,056          $145,056
                                                                                                                                                                          from servicer
            Coral Gables, FL                            Modifications

                                                                                                                                                                                                                                                           Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                      (CONTINUED)
            Servicer Modifying
            Borrowers’ Loans                                                                                                                   Adjustment Details                                                              Non-GSE Incentive Payments

                                                                                   Cap of Incentive
                                                                               Payments on Behalf                                                                                                                                                                     Total
                                                                               of Borrowers and to                                             Cap                                                     Market                      Lenders/                       Non-GSE
            Name of                      Transaction   Investment             Servicers & Lenders/       Pricing          Adjustment    Adjustment          Adjusted Reason for                 Capitalization    Borrowers        Investors      Servicers       Incentive
Date        Institution                  Type          Description                 Investors (Cap)1   Mechanism    Note         Date       Amount               Cap Adjustment                    (in Millions)    Incentive      Incentives     Incentives      Payments

                                                       Financial Instrument
            Citizens Community Bank,                                                                                                                                   Updated portfolio data
9/24/2010                                Purchase      for Home Loan                     $800,000            N/A          9/30/2010      $360,445         $1,160,445
            Freeburg, IL                                                                                                                                               from servicer
                                                       Modifications

                                                       Financial Instrument
            Community Credit Union of                                                                                                                                  Updated portfolio data
9/30/2010                                Purchase      for Home Loan                    $2,000,000           N/A     6    9/30/2010      $901,112         $2,901,112
            Florida, Rockledge, FL                                                                                                                                     from servicer
                                                       Modifications

                                                       Financial Instrument
            CU Mortgage Services, Inc.,                                                                                                                                Updated portfolio data
9/30/2010                               Purchase       for Home Loan                     $100,000            N/A   4, 8   9/30/2010       $45,056          $145,056
            New Brighton, MN                                                                                                                                           from servicer
                                                       Modifications

                                                       Financial Instrument
            First Federal Bank of                                                                                                                                      Updated portfolio data
9/30/2010                                Purchase      for Home Loan                     $100,000            N/A   4, 8   9/30/2010       $45,056          $145,056
            Florida, Lake City, FL                                                                                                                                     from servicer
                                                       Modifications

                                                       Financial Instrument
            First Mortgage Coporation,                                                                                                                                 Updated portfolio data
9/30/2010                                Purchase      for Home Loan                     $100,000            N/A   4, 8   9/30/2010       $45,056          $145,056
            Diamond Bar, CA                                                                                                                                            from servicer
                                                       Modifications

                                                       Financial Instrument
            First Safety Bank,                                                                                                                                         Updated portfolio data
9/30/2010                                Purchase      for Home Loan                     $400,000            N/A          9/30/2010      $180,222          $580,222
            Cincinnati, OH                                                                                                                                             from servicer
                                                       Modifications

                                                       Financial Instrument
            Flagstar Capital Markets                                                                                                                                   Updated portfolio data
9/30/2010                                Purchase      for Home Loan                     $800,000            N/A   7, 8   9/30/2010      $360,445         $1,160,445
            Corporation, Troy, MI                                                                                                                                      from servicer
                                                       Modifications

                                                       Financial Instrument
            Franklin Savings,                                                                                                                                          Updated portfolio data
9/30/2010                                Purchase      for Home Loan                    $1,700,000           N/A     4    9/30/2010      $765,945         $2,465,945
            Cincinnati, OH                                                                                                                                             from servicer
                                                       Modifications

                                                       Financial Instrument
            Gateway Mortgage Group,                                                                                                                                    Updated portfolio data
9/30/2010                                Purchase      for Home Loan                     $100,000            N/A   4, 8   9/30/2010       $45,056          $145,056
            LLC, Tulsa, OK                                                                                                                                             from servicer
                                                       Modifications

                                                       Financial Instrument
            GFA Federal Credit Union,                                                                                                                                  Updated portfolio data
9/30/2010                                Purchase      for Home Loan                     $100,000            N/A          9/30/2010       $45,056          $145,056
            Gardner, MA                                                                                                                                                from servicer
                                                       Modifications

                                                       Financial Instrument
            Guaranty Bank, Saint                                                                                                                                       Updated portfolio data
9/30/2010                                Purchase      for Home Loan                     $100,000            N/A   4, 8   9/30/2010       $45,056          $145,056
            Paul, MN                                                                                                                                                   from servicer
                                                       Modifications

                                                       Financial Instrument
            James B. Nutter &                                                                                                                                          Updated portfolio data
9/24/2010                                Purchase      for Home Loan                     $300,000            N/A   4, 8   9/30/2010      $135,167          $435,167
            Company, Kansas City, MO                                                                                                                                   from servicer
                                                       Modifications

                                                       Financial Instrument
            Liberty Bank and Trust Co,                                                                                                                                 Updated portfolio data
9/30/2010                                Purchase      for Home Loan                    $1,000,000           N/A          9/30/2010      $450,556         $1,450,556
            New Orleans, LA                                                                                                                                            from servicer
                                                       Modifications

                                                       Financial Instrument
                                                                                                                                                                       Updated portfolio data
9/30/2010   M&T Bank, Buffalo, NY        Purchase      for Home Loan                     $700,000            N/A   4, 8   9/30/2010      $315,389         $1,015,389                                  $10,392
                                                                                                                                                                       from servicer
                                                       Modifications

                                                       Financial Instrument
            Magna Bank,                                                                                                                                                Updated portfolio data
9/30/2010                                Purchase      for Home Loan                    $1,400,000           N/A     5    9/30/2010      $630,778         $2,030,778
            Germantown, TN                                                                                                                                             from servicer
                                                       Modifications

                                                       Financial Instrument
            Mainstreet Credit Union,                                                                                                                                   Updated portfolio data
9/30/2010                                Purchase      for Home Loan                     $500,000            N/A          9/30/2010      $225,278          $725,278
            Lexena, KS                                                                                                                                                 from servicer
                                                       Modifications

                                                       Financial Instrument
            Marsh Associates, Inc.,                                                                                                                                    Updated portfolio data
9/30/2010                                Purchase      for Home Loan                     $100,000            N/A   4, 8   9/30/2010       $45,056          $145,056
            Charlotte, NC                                                                                                                                              from servicer
                                                       Modifications

                                                       Financial Instrument
                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I january 26, 2011




            Midland Mortgage Company,                                                                                                                                  Updated portfolio data
9/30/2010                             Purchase         for Home Loan                  $43,500,000            N/A   4, 5   9/30/2010    $49,915,806      $93,415,806                                               $112,700                        $117,438        $230,138
            Oklahoma City, OK                                                                                                                                          from servicer
                                                       Modifications

                                                       Financial Instrument
            Schmidt Mortgage                                                                                                                                           Updated portfolio data
9/30/2010                                Purchase      for Home Loan                     $100,000            N/A   4, 8   9/30/2010       $45,056          $145,056
            Company, Rocky River, OH                                                                                                                                   from servicer
                                                       Modifications

                                                                                                                                                                                                                                                     Continued on next page.
                                                                                                                                                                                                                                                                               299
    HAMP TRANSACTION DETAIL, AS OF 12/31/2010                                                        (CONTINUED)                                                                                                                                                                                                      300
              Servicer Modifying
              Borrowers’ Loans                                                                                                                                         Adjustment Details                                                                       Non-GSE Incentive Payments

                                                                                        Cap of Incentive
                                                                                    Payments on Behalf                                                                                                                                                                                                        Total
                                                                                    of Borrowers and to                                                              Cap                                                            Market                            Lenders/                            Non-GSE
              Name of                       Transaction    Investment              Servicers & Lenders/          Pricing                  Adjustment          Adjustment              Adjusted Reason for                    Capitalization      Borrowers            Investors        Servicers          Incentive
Date          Institution                   Type           Description                  Investors (Cap)1      Mechanism         Note            Date             Amount                   Cap Adjustment                       (in Millions)      Incentive          Incentives       Incentives         Payments

                                                           Financial Instrument
              Stockman Bank of Montana,                                                                                                                                                           Updated portfolio data
9/30/2010                               Purchase           for Home Loan                      $100,000                N/A         4, 8     9/30/2010              $45,056            $145,056
              Miles City, MT                                                                                                                                                                      from servicer
                                                           Modifications

              University First Federal                     Financial Instrument
                                                                                                                                                                                                  Updated portfolio data
9/30/2010     Credit Union,                 Purchase       for Home Loan                      $600,000                N/A                  9/30/2010            $270,334             $870,334
                                                                                                                                                                                                  from servicer
              Salt Lake City, UT                           Modifications

                                                           Financial Instrument
              Weststar Mortgage, Inc.,                                                                                                                                                            Updated portfolio data
9/30/2010                                   Purchase       for Home Loan                      $100,000                N/A         4, 8     9/30/2010              $45,056            $145,056
              Woodbridge, VA                                                                                                                                                                      from servicer
                                                           Modifications

                                                           Financial Instrument
              Statebridge Company, LLC,                                                                                                                                                           Updated portfolio data
12/15/2010                              Purchase           for Home Loan                              —               N/A           9     12/15/2010          $5,000,000           $5,000,000
              Denver, CO                                                                                                                                                                          from servicer
                                                           Modifications

                                                           Financial Instrument
              Scotiabank de Puerto Rico,                                                                                                                                                          Updated portfolio data
12/15/2010                               Purchase          for Home Loan                              —               N/A           9     12/15/2010          $4,300,000           $4,300,000
              San Juan, PR                                                                                                                                                                        from servicer
                                                           Modifications

                                                                                                               Total Cap
                                                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I january 26, 2011




                                                               Total Initial Cap      $23,831,570,000        Adjustments                                $6,076,340,486                                                                Totals $117,656,225       $337,881,234 $384,563,479 $840,100,938




                                                                                              Total Cap                                                $29,907,910,486


Notes: Numbers affected by rounding. Data as of 12/31/2010. Numbered notes and definitions were taken verbatim from Treasury’s 1/4/2011 Transactions Report.

1
   The Cap of Incentive Payments represents the potential total amount allocated to each servicer and includes the maximum amount allotted for all payments on behalf of borrowers and payments to servicers and lenders/investors. The Cap is subject to adjustment based on the total amount allocated to the
    program and individual servicer usage for borrower modifications. Each adjustment to the Cap is reflected under Adjustment Details.
2
     On July 31, 2009, the SPA with Chase Home Finance, LLC was terminated and superseded by new SPAs with J.P. Morgan Chase Bank, NA and EMC Mortgage Corporation.
3
     Wachovia Mortgage, FSB was merged with Wells Fargo Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to Wachovia Mortgage, FSB prior to such merger.  
4
     Initial cap amount only includes FHA-HAMP.
5
    Initial cap amount includes RD-HAMP.
6
    Initial cap amount includes 2MP.
7
    Initial cap amount includes FHA-2LP.
8 
     Initial cap does not include HAMP.
9 
   This institution executed an Assignment and Assumption Agreement (a copy of which is available on www.FinancialStability.gov) with respect to all rights and obligations for the transferred loan modifications. The amount transferred is realized as a cap adjustment and not as initial cap.
10
   The amendment reflects a change in the legal name of the institution.

“HAFA” means the Home Affordable Foreclosure Alternatives program.
“HPDP” means the Home Price Decline Protection program.
“2MP” means the Second Lien Modification Program.
“RD-HAMP” means the Rural Housing Service Home Affordable Modification Program.
“FHA-2LP” means the FHA Second Lien Program.

Sources: Treasury, Transactions Report, 1/4/2011; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 1/7/2011.
Table D.13


HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 12/31/2010                                                                (CONTINUED)

                     Seller

                                                                                              Transaction                                          Initial Investment   Additional Investment        Investment                 Pricing
Note    Trade Date   Name of Institution                                                      Type          Investment Description                            Amount                  Amount            Amount1              Mechanism

        6/23/2010                                                                                           Financial Instrument for HHF Program      $102,800,000                        —                                          N/A

2       9/23/2010    Nevada Affordable Housing Assistance Corporation, Reno, NV               Purchase      Financial Instrument for HHF Program                  —             $34,056,581      $194,026,240                        N/A

3       9/29/2010                                                                                           Financial Instrument for HHF Program                  —             $57,169,659                                          N/A

        6/23/2010                                                                                           Financial Instrument for HHF Program      $699,600,000                        —                                          N/A

2       9/23/2010    CalHFA Mortgage Assistance Corporation , Sacramento, CA                  Purchase      Financial Instrument for HHF Program                  —            $476,257,070     $1,975,334,096                       N/A

3       9/29/2010                                                                                           Financial Instrument for HHF Program                  —            $799,477,026                                          N/A

        6/23/2010                                                                                           Financial Instrument for HHF Program      $418,000,000                        —                                          N/A

2       9/23/2010    Florida Housing Finance Corporation, Tallahassee, FL                     Purchase      Financial Instrument for HHF Program                  —            $238,864,755     $1,057,839,136                       N/A

3       9/29/2010                                                                                           Financial Instrument for HHF Program                  —            $400,974,381                                          N/A

        6/23/2010                                                                                           Financial Instrument for HHF Program      $125,100,000                        —                                          N/A
                     Arizona (Home) Foreclosure Prevention Funding Corporation, Phoenix, AZ   Purchase                                                                                           $267,766,006
3       9/29/2010                                                                                           Financial Instrument for HHF Program                  —            $142,666,006                                          N/A

        6/23/2010                                                                                           Financial Instrument for HHF Program      $154,500,000                        —                                          N/A

2       9/23/2010    Michigan Homeowner Assistance Nonprofit Housing Corporation, Lansing, MI Purchase      Financial Instrument for HHF Program                  —            $128,461,559      $498,605,738                        N/A

3       9/29/2010                                                                                           Financial Instrument for HHF Program                  —            $215,644,179                                          N/A

        8/3/2010                                                                                            Financial Instrument for HHF Program      $159,000,000                        —                                          N/A

2       9/23/2010    North Carolina Housing Finance Agency, Raleigh, NC                       Purchase      Financial Instrument for HHF Program                  —            $120,874,221      $482,781,786                        N/A

3       9/29/2010                                                                                           Financial Instrument for HHF Program                  —            $202,907,565                                          N/A

        8/3/2010                                                                                            Financial Instrument for HHF Program      $172,000,000                        —                                          N/A

2       9/23/2010    Ohio Homeowner Assistance LLC, Columbus, OH                              Purchase      Financial Instrument for HHF Program                  —            $148,728,864      $570,395,099                        N/A

3       9/29/2010                                                                                           Financial Instrument for HHF Program                  —            $249,666,235                                          N/A

        8/3/2010                                                                                            Financial Instrument for HHF Program       $88,000,000                        —                                          N/A

2       9/23/2010    Oregon Affordable Housing Assistance Corporation, Salem, OR              Purchase      Financial Instrument for HHF Program                  —             $49,294,215      $220,042,786                        N/A

3       9/29/2010                                                                                           Financial Instrument for HHF Program                  —             $82,748,571                                          N/A

        8/3/2010                                                                                            Financial Instrument for HHF Program       $43,000,000                        —                                          N/A

2       9/23/2010    Rhode Island Housing and Mortgage Finance Corporation, Providence, RI    Purchase      Financial Instrument for HHF Program                  —             $13,570,770       $79,351,573                        N/A

3       9/29/2010                                                                                           Financial Instrument for HHF Program                  —             $22,780,803                                          N/A

        8/3/2010                                                                                            Financial Instrument for HHF Program      $138,000,000                        —                                          N/A

2       9/23/2010    SC Housing Corp, Columbia, SC                                            Purchase      Financial Instrument for HHF Program                  —             $58,772,347      $295,431,547                        N/A

3       9/29/2010                                                                                           Financial Instrument for HHF Program                  —             $98,659,200                                          N/A

        9/23/2010                                                                                           Financial Instrument for HHF Program       $60,672,471                        —                                          N/A
                     Alabama Housing Finance Authority, Montgomery, AL                        Purchase                                                                                           $162,521,345
3       9/29/2010                                                                                           Financial Instrument for HHF Program                  —            $101,848,874                                          N/A

        9/23/2010                                                                                           Financial Instrument for HHF Program       $55,588,050                        —                                          N/A
                     Kentucky Housing Corporation, Frankfort, KY                              Purchase                                                                                           $148,901,875
3       9/29/2010                                                                                           Financial Instrument for HHF Program                  —             $93,313,825                                          N/A
                                                                                                                                                                                                                                            Transaction detail I Appendix D I january 26, 2011




        9/23/2010                                                                                           Financial Instrument for HHF Program       $38,036,950                        —                                          N/A
                     Mississippi Home Corporation, Jackson, MS                                Purchase                                                                                           $101,888,323
3       9/29/2010                                                                                           Financial Instrument for HHF Program                  —             $63,851,373                                          N/A

                                                                                                                                                                                                                  Continued on next page.
                                                                                                                                                                                                                                            301
HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 12/31/2010                                                                                                        (CONTINUED)                                                                                                         302
                                               Seller

                                                                                                                                Transaction                                                               Initial Investment             Additional Investment       Investment      Pricing
Note               Trade Date                  Name of Institution                                                              Type              Investment Description                                             Amount                            Amount           Amount1   Mechanism

                   9/23/2010                                                                                                                      Financial Instrument for HHF Program                        $126,650,987                                 —                            N/A
                                               GHFA Affordable Housing, Inc., Atlanta, GA                                       Purchase                                                                                                                          $339,255,819
3                  9/29/2010                                                                                                                      Financial Instrument for HHF Program                                     —                     $212,604,832                           N/A

                   9/23/2010                                                                                                                      Financial Instrument for HHF Program                          $82,762,859                                —                            N/A
                                               Indiana Housing and Community Development Authority, Indianapolis, IN            Purchase                                                                                                                          $221,694,139
3                  9/29/2010                                                                                                                      Financial Instrument for HHF Program                                     —                     $138,931,280                           N/A

                   9/23/2010                                                                                                                      Financial Instrument for HHF Program                        $166,352,726                                 —                            N/A
                                               Illinois Housing Development Authority, Chicago, IL                              Purchase                                                                                                                          $445,603,557
3                  9/29/2010                                                                                                                      Financial Instrument for HHF Program                                     —                     $279,250,831                           N/A

                   9/23/2010                                                                                                                      Financial Instrument for HHF Program                        $112,200,637                                 —                            N/A
                                               New Jersey Housing and Mortgage Finance Agency, Trenton, NJ                      Purchase                                                                                                                          $300,548,144
3                  9/29/2010                                                                                                                      Financial Instrument for HHF Program                                     —                     $188,347,507                           N/A

                   9/23/2010                                                                                                                      Financial Instrument for HHF Program                           $7,726,678                                —                            N/A
                                               District of Columbia Housing Finance Agency, Washington, DC                      Purchase                                                                                                                           $20,697,198
3                  9/29/2010                                                                                                                      Financial Instrument for HHF Program                                     —                      $12,970,520                           N/A

                   9/23/2010                                                                                                                      Financial Instrument for HHF Program                          $81,128,260                                —                            N/A
                                               Tennessee Housing Development Agency, Nashville, TN                              Purchase                                                                                                                          $217,315,593
3                  9/29/2010                                                                                                                      Financial Instrument for HHF Program                                     —                     $136,187,333                           N/A
                                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I january 26, 2011




                                                                                                                                                                                                                                 Total Investment Amount         $7,600,000,000


Notes: Numbers affected by rounding. Data as of 12/31/2010. Numbered notes are taken verbatim from Treasury’s 1/4/2011 Transactions Report.

1
    The purchase will be incrementally funded up to the investment amount.
2
    On 9/23/2010, Treasury provided additional investment to this HFA and substituted its investment for an amended and restated financial instrument.
3
    On 9/29/2010, Treasury provided additional investment to this HFA and substituted its investment for an amended and restated financial instrument.

Source: Treasury, Transaction Report, 1/4/2011.




Table D.14

    FHA Short Refinance Program, AS OF 12/31/2010
                              Seller
Note         Trade Date       Name                                            Transaction Type             Investment Description                                              Investment Amount           Pricing Mechanism
1            9/3/2010         Citigroup, Inc., New York, NY                   Purchase                     Facility Purchase Agreement, dated as of 9/3/2010,                     $8,117,000,000                            N/A
                                                                                                           between the U.S. Department of the Treasury and
                                                                                                           Citibank, N.A
                                                                                                           TOTAL                                                                $8,117,000,000

Notes: Numbers affected by rounding. Data as of 12/31/2010. Numbered notes are taken verbatim from Treasury’s 1/4/2011 Transactions Report.

1
    On September 3, 2010, the U.S. Department of the Treasury and Citibank, N.A. entered into a facility purchase agreement (the “L/C Facility Agreement”), which allows Treasury to demand from Citigroup the issu-
    ance of an up to $8 billion, 10-year letter of credit (the “L/C”). Treasury will increase availability under the L/C incrementally in proportion to the dollar value of mortgages refinanced under the FHA Short Refinance
    program from time to time during the first 2.5 years. At that time, the amount of the L/C will be capped at the then-current level. Under the terms of the L/C Facility Agreement, Treasury will incur fees for the
    availability and usage of the L/C up to a maximum amount of $117 million.

Source: Treasury, Transaction Report, 1/4/2011.
                                                                  public announcements of audits I Appendix E I JANUARY 26, 2011     303




PUBLIC ANNOUNCEMENTS OF                                          GAO3
                                                                  Ongoing Audits
AUDITS                                                           •	 Update on the status of TARP programs will provide an
This appendix provides an announcement of new and ongo-             overview of the evolution and status of the programs with
ing public audits by the agencies listed. See Appendix F: “Key      discussion of possible effectiveness indicators. Expected 	
Oversight Reports and Testimonies” for a listing of published       issuance on January 12 or 13.
reports. Italic style indicates narrative taken verbatim from    •	 AIG indicators report will update financial and other 	
the agencies’ responses to SIGTARP’s data call.                     indicators to chart AIG’s prospects. Expected issuance 	
•	 U.S. Department of the Treasury Inspector General                during the week of January 17.
   (“Treasury OIG”)                                              •	 HAMP # 3 will focus on implementation of new programs
•	 Federal Reserve Board Office of Inspector General                plus continued oversight of servicer performance for ongoing
   (“Federal Reserve OIG”)                                          problems.  Expected issuance in late February 2011.
•	 Government Accountability Office (“GAO”)                      •	 Auto industry program-ongoing oversight of program and
•	 Federal Deposit Insurance Corporation (“FDIC OIG”)               analysis of community impacts of restructuring of auto com-
                                                                    panies.  Expected issuance in March 2011.
Treasury OIG1                                                    •	 Further update of CPP with expected issuance in the
Ongoing Audits                                                      summer.
•	 None
                                                                 FDIC OIG4
Federal Reserve OIG         2
                                                                 Ongoing Audits
Ongoing Audits                                                   •	 Material Loss Review and Evaluation of Efforts to Address
•	 None                                                             Capital Deficiencies at ShoreBank, Chicago, Illinois.

                                                                 Endnotes
                                                                 1
                                                                   Treasury OIG, response to SIGTARP data call, 1/5/2011.
                                                                 2
                                                                   Federal Reserve OIG, response to SIGTARP data call, 12/21/2010.
                                                                 3
                                                                   GAO, response to SIGTARP data call, 12/22/2010.
                                                                 4
                                                                   FDIC OIG, response to SIGTARP data call, 1/3/2011.
304             Appendix F I KEY OVERSIGHT REPORTS AND TESTIMONIES I JANUARY 26, 2011




      KEY OVERSIGHT REPORTS AND TESTIMONIES
      This list reflects TARP-related reports and testimonies published since SIGTARP’s last quarterly report. See prior SIGTARP
      quarterly reports for lists of prior oversight reports and testimonies.			


      U.S. DEPARTMENT OF THE TREASURY (Treasury)
      ROLES AND MISSION
      The mission of Treasury is to serve the American people and strengthen national security by managing the U.S. government’s finances effectively; promot-
      ing economic growth and stability; and ensuring the safety, soundness, and security of the U.S. and international financial systems. Treasury advises the
      President on economic and financial issues, encourages sustainable economic growth, and fosters improved governance in financial institutions.
      OVERSIGHT REPORTS
      Treasury, Transactions Report, 10/1/2010 -- 12/31/2010, wwww.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Pages/
      default.aspx, accessed 1/5/2011. (released weekly)
      Treasury, Section 105(a) Report, 10/11/2010 -- 12/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Pages/default.
      aspx, accessed 1/5/2011.
      Treasury, “Dividend and Interest Reports,” 10/11/2010 -- 12/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-
      interest/Pages/default.aspx, accessed 1/5/2011.
      Treasury, “Making Home Affordable Program Reports,” 10/25/2010 -- 12/22/2010, www.treasury.gov/initiatives/financial-stability/results/MHA-Reports/
      Pages/default.aspx, accessed 1/5/2011.
      Treasury, “Treasury’s response to SIGTARP’s open recommendations,” 10/7/2010, www.treasury.gov/initiatives/financial-stability/about/Oversight/
      SIGTARP/Documents/Treasury%20Status%20Update%20Response%20to%20Open%20SIGTARP%20Recommendations%20(10072010).pdf, accessed
      1/5/2011.
      Treasury, “Treasury’s response to GAO’s CPP Audit Report,” 12/3/2010, www.treasury.gov/initiatives/financial-stability/about/Oversight/Documents/
      mccool%20pkg.pdf, accessed 1/5/2011.
      RECORDED TESTIMONY
      Treasury, “Secretary Timothy F. Geithner Written Testimony Before the Congressional Oversight Panel,” 12/16/2010, www.treasury.gov/press-center/
      press-releases/Pages/tg1008.aspx, accessed 1/5/2011.


      FINANCIAL STABILITY OVERSIGHT BOARD (FSOB)
      ROLES AND MISSION
      FSOB is responsible for reviewing the exercise of authority under programs developed in accordance with EESA, including:
      • policies implemented by the Secretary and the Office of Financial Stability, including the appointment of financial agents, the designation of asset classes
      to be purchased, and plans for the structure of vehicles used to purchase troubled assets
      • the effect of such actions in assisting American families in preserving home ownership, stabilizing financial markets, and protecting taxpayers.

      In addition, FSOB is responsible for making recommendations to the Secretary on the use of the authority under EESA, as well as for reporting any sus-
      pected fraud, misrepresentation, or malfeasance to SIGTARP or the U.S. Attorney General.
      OVERSIGHT REPORTS
      Financial Stability Oversight Board, “Agency Financial Report FY 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/
      agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/5/2011.
      RECORDED TESTIMONY
      None
                                                                           KEY OVERSIGHT REPORTS AND TESTIMONIES I Appendix F I JANUARY 26, 2011                305



SECURITIES AND EXCHANGE COMMISSION (SEC)
ROLES AND MISSION
SEC administers the federal securities laws, requires disclosure by public companies, and brings enforcement actions against violators of securities law.
While other federal and state agencies are legally responsible for regulating mortgage lending and the credit markets, SEC has taken these decisive actions
to address the extraordinary challenges caused by the current credit crisis:
• aggressively combating fraud and market manipulation through enforcement actions
• taking swift action to stabilize financial markets
• enhancing transparency in financial disclosure.
OVERSIGHT REPORTS
None
RECORDED TESTIMONY
SEC, “Testimony on U.S. Equity Market Structure by the U.S. Securities and Exchange Commission,” Chairman Mary L. Schapiro, 12/8/2010, http://sec.
gov/news/testimony/2010/ts120810mls.htm, accessed 1/5/2011.


GOVERNMENT ACCOUNTABILITY OFFICE (GAO)
ROLES AND MISSION
GAO is tasked with performing ongoing oversight of TARP’s performance, including:
• evaluating the characteristics of asset purchases and the disposition of assets acquired
• assessing TARP’s efficiency in using the funds
• evaluating compliance with applicable laws and regulations
• assessing the efficiency of contracting procedures
• auditing TARP’s annual financial statements and internal controls
• submitting reports to Congress at least every 60 days.
OVERSIGHT REPORTS
GAO, “Troubled Asset Relief Program: Opportunities Exist to Apply Lessons Learned from the Capital Purchase Program to Similarly Designed Programs
and to Improve the Repayment Process,” 10/4/2010, www.gao.gov/new.items/d1147.pdf, accessed 1/5/2011.
GAO, “Troubled Asset Relief Program: Fiscal Years 2010 and 2009 Financial Statements,” 12/15/2010, www.gao.gov/new.items/d11174.pdf, accessed
1/5/2011.
RECORDED TESTIMONY
None


CONGRESSIONAL OVERSIGHT PANEL (COP)
ROLES AND MISSION
COP is tasked with reviewing the current state of the financial markets and the regulatory system. As a by-product of these oversight activities, COP is
required to produce the following reports to Congress:
• regular reports every 30 days that cover a variety of issues, including administration of the program, the impact of purchases on the financial markets/
  financial institutions, market transparency, and the effectiveness of foreclosure mitigation, minimization of long-term costs, and maximization of benefits
  for taxpayers
• a special report on regulatory reform, published no later than January 20, 2009, analyzing the current state of the regulatory system and its effectiveness
  at overseeing the participants in the financial system and protecting consumers. The report is to provide recommendations for improvement regarding
  whether any participants in the financial markets that are currently outside the regulatory system should become subject to the regulatory system, the
  rationale underlying such recommendation, and whether there are any gaps in existing consumer protections.
OVERSIGHT REPORTS
COP, “Examining Treasury’s Use of Financial Crisis Contracting Authority,” 10/14/2010, http://cop.senate.gov/reports/library/report-101410-cop.cfm,
accessed 1/5/2011.
COP, “Examining the Consequences of Mortgage Irregularities for Financial Stability and Foreclosure Mitigation,” 11/16/2010, http://cop.senate.gov/
reports/library/report-111610-cop.cfm, accessed 1/5/2011.
COP, “A Review of Treasury’s Foreclosure Prevention Programs,” 12/14/2010, http://cop.senate.gov/reports/library/report-121410-cop.cfm, accessed
1/5/2011.
RECORDED TESTIMONY
COP, “COP Hearing on the TARP and Executive Compensation Restrictions,” 10/21/2010, http://cop.senate.gov/hearings/library/hearing-102110-
compensation.cfm, accessed 1/5/2011.
COP, “COP Hearing on TARP Foreclosure Mitigation Programs,” 10/27/2010, http://cop.senate.gov/hearings/library/hearing-102710-foreclosure.cfm,
accessed 1/5/2011.
COP, “A Review of Treasury’s Foreclosure Prevention Programs,” 12/14/2010, http://cop.senate.gov/reports/library/report-121410-cop.cfm, accessed
1/5/2011.
306             Appendix F I KEY OVERSIGHT REPORTS AND TESTIMONIES I JANUARY 26, 2011




      OFFICE OF MANAGEMENT AND BUDGET (OMB)
      ROLES AND MISSION
      OMB’s predominant mission is to assist the President in overseeing the preparation of the Federal budget and to supervise its administration in Executive
      Branch agencies. In helping to formulate the President’s spending plans, OMB evaluates the effectiveness of agency programs, policies, and procedures,
      assesses competing funding demands among agencies, and sets funding priorities. OMB ensures that agency reports, rules, testimony, and proposed
      legislation are consistent with the President’s Budget and with Administration policies.

      In addition, OMB oversees and coordinates the Administration’s procurement, financial management, information, and regulatory policies. In each of these
      areas, OMB’s role is to help improve administrative management, to develop better performance measures and coordinating mechanisms, and to reduce
      any unnecessary burdens on the public.
      OVERSIGHT REPORTS
      None
      RECORDED TESTIMONY
      None


      CONGRESSIONAL BUDGET OFFICE (CBO)
      ROLES AND MISSION
      CBO’s mandate is to provide Congress with objective, nonpartisan, and timely analyses to aid in economic and budgetary decisions on the wide array of
      programs covered by the Federal budget and the information and estimates required for the Congressional budget process.

      CBO assists the House and Senate Budget Committees and Congress more generally by preparing reports and analyses. In accordance with CBO’s man-
      date to provide objective and impartial analysis, CBO’s reports contain no policy recommendations.
      OVERSIGHT REPORTS
      CBO, “Report on the Troubled Asset Relief Program -- November 2010,” 11/29/2010, http://cbo.gov/ftpdocs/119xx/doc11980/11-29-TARP.pdf,
      accessed 1/5/2011.
      RECORDED TESTIMONY
      None


      FEDERAL RESERVE BOARD (Federal Reserve)
      ROLES AND MISSION
      Federal Reserve’s duties fall into four general areas:
      • conducting the nation’s monetary policy by influencing the monetary and credit conditions in the economy in pursuit of maximum employment, stable
        prices, and moderate long-term interest rates
      • supervising and regulating banking institutions to ensure the safety and soundness of the nation’s banking and financial system and to protect the credit
        rights of consumers
      • maintaining the stability of the financial system and containing systemic risk that may arise in financial markets
      • providing financial services to depository institutions, the U.S. government, and foreign official institutions, including playing a major role in operating the
        nation’s payments system.
      OVERSIGHT REPORTS
      Federal Reserve, “The Federal Reserve’s Section 13(3) Lending Facilities to Support Overall Market Liquidity: Function, Status, and Risk Management,”
      November 2010, www.federalreserve.gov/oig/oig_rpt_2010.htm, accessed 1/5/2011.
      Federal Reserve, “Material Loss Review of Midwest Bank and Trust Company,” December 2010, www.federalreserve.gov/oig/files/Full-Report_Midwest_
      Bank_and_Trust_MLR_final_report_12.8.10c_web.pdf, accessed 1/5/2011.
      RECORDED TESTIMONY
      Federal Reserve, “Foreclosure documentation issues,” Governor Elizabeth A. Duke, Before the Financial Services Subcommittee on Housing and Community
      Opportunity, U.S. House of Representatives, Washington, D.C., 11/18/2010, www.federalreserve.gov/newsevents/testimony/duke20101118a.htm,
      accessed 1/5/2011.
      Federal Reserve, “Problems in mortgage servicing,” Governor Daniel K. Tarullo, Before the Committee on Banking, Housing, and Urban Affairs, U.S. Senate,
      Washington, D.C., 12/1/2010, www.federalreserve.gov/newsevents/testimony/tarullo20101201a.htm, accessed 1/5/2011.
                                                                                              KEY OVERSIGHT REPORTS AND TESTIMONIES I Appendix F I JANUARY 26, 2011                                  307



FEDERAL DEPOSIT INSURANCE CORPORATION (FDIC)
ROLES AND MISSION
FDIC is an independent agency created by Congress that maintains the stability and public confidence in the nation’s financial system by insuring deposits,
examining and supervising financial institutions, and managing receiverships.
OVERSIGHT REPORTS
None
RECORDED TESTIMONY
FDIC, “Problems in Mortgage Servicing from Modification to Foreclosure, Part II,” Before the Committee on Banking, Housing, and Urban Affairs, U.S. Sen-
ate, Washington, D.C., 12/1/2010, www.fdic.gov/news/news/speeches/chairman/spdec0110.html, accessed 1/5/2011.


FEDERAL DEPOSIT INSURANCE CORPORATION OFFICE OF THE INSPECTOR GENERAL (FDIC OIG)
ROLES AND MISSION
The Office of Inspector General promotes the economy, efficiency, and effectiveness of FDIC programs and operations, and protects against fraud, waste,
and abuse, to assist and augment the FDIC’s contribution to stability and public confidence in the nation’s financial system.
OVERSIGHT REPORTS
None
RECORDED TESTIMONY
None


SPECIAL INSPECTOR GENERAL FOR THE TROUBLED ASSET RELIEF PROGRAM (SIGTARP)
ROLES AND MISSION
Under EESA, the Special Inspector General has the responsibility, among other things, to conduct, supervise and coordinate audits and investigations of the
purchase, management and sale of assets under the Troubled Asset Relief Program (“TARP”).

SIGTARP’s mission is to advance economic stability by promoting the efficiency and effectiveness of TARP management, through transparency, through
coordinated oversight, and through robust enforcement against those, whether inside or outside of Government, who waste, steal or abuse TARP funds.
OVERSIGHT REPORTS
SIGTARP, Quarterly Report to Congress, 10/26/2010, www.sigtarp.gov/reports/congress/2010/October2010_Quarterly_Report_to_Congress.pdf,
accessed 1/5/2011.
SIGTARP, “Selecting Fund Managers for the Legacy Securities Public-Private Investment Program,” 10/7/2010, www.sigtarp.gov/reports/audit/2010/
Selecting%20Fund%20Managers%20for%20the%20Legacy%20Securities%20Public-Private%20Investment%20Program%2009_07_10.pdf, accessed
1/5/2011.
SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, http://www.sigtarp.gov/reports/audit/2011/Extraordinary%20Finan-
cial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 1/21/2011.
RECORDED TESTIMONY
None

Note: Italic style indicates verbatim narrative taken from source documents.

Sources: Treasury, www.treasury.gov, accessed 1/5/2011; Treasury Inspector General, www.treasury.gov, accessed 1/5/2011; Financial Stability Oversight Board, www.treasury.gov, accessed 1/5/2011;
SEC, www.sec.gov, accessed 1/5/2011; GAO, www.gao.gov, accessed 1/5/2011; COP, www.cop.senate.gov, accessed 1/5/2011; OMB, www.whitehouse.gov, accessed 1/5/2011; CBO, www.cbo.gov,
accessed 1/5/2011; Federal Reserve Board, www.federalreserve.gov, accessed 1/5/2011; FDIC, www.fdic.gov, accessed 1/5/2011; FDIC OIG, www.fdicoig.gov, accessed 1/5/2011; SIGTARP,
www.sigtarp.gov, accessed 1/5/2011; FDIC, response to SIGTARP data call, 1/3/2011; GAO, Response to SIGTARP data call, 12/22/2010; Treasury, response to SIGTARP data call, 1/5/2011.
308           Appendix G I correspondence I JANUARY 26, 2011




      correspondence
      This appendix provides a copy of the following correspondence:

       Correspondence
       Date           From                To                   Regarding
                      Office of Legal     Treasury and
       11/5/2010                                               Opinion on Special Master’s Appointment
                      Counsel (DOJ)       SIGTARP
       1/7/2011       Treasury            SIGTARP              Status Update on Recommendations in the SIGTARP Quarterly Report
                                                               Federal Reserve Board’s Response on SIGTARP’s Audit, “Extraordinary Financial
       1/12/2011      FRB                 SIGTARP
                                                               Assistance Provided to Citigroup, Inc.”
       1/18/2011      Treasury            SIGTARP              Response to Small Business Lending Fund (“SBLF”) Recommendations
correspondence I Appendix G I JANUARY 26, 2011   309
310   Appendix G I correspondence I JANUARY 26, 2011
correspondence I Appendix G I JANUARY 26, 2011   311
312   Appendix G I correspondence I JANUARY 26, 2011
correspondence I Appendix G I JANUARY 26, 2011   313
314   Appendix G I correspondence I JANUARY 26, 2011
correspondence I Appendix G I JANUARY 26, 2011   315
316   Appendix G I correspondence I JANUARY 26, 2011
correspondence I Appendix G I JANUARY 26, 2011   317
318   Appendix G I correspondence I JANUARY 26, 2011
correspondence I Appendix G I JANUARY 26, 2011   319
320   Appendix G I correspondence I JANUARY 26, 2011
correspondence I Appendix G I JANUARY 26, 2011   321
                                                                                                                                                                                                                                                           322
ORGANIZATIONAL CHART
organizational chart


                                                                                                         Special Inspector General
                                                                                                               Neil Barofsky

                                                                                                                                                                                                      EEO Program
                                                                                                                                                                                                        Manager
                                                                                                                                                                                                      Josui Watson
                                                                                                                 Deputy Special
                                                                                                               Inspector General
                                                                                                                Geoff Moulton
                                     Chief of Staff                                                                                      Senior Policy Advisor                       Chief Counsel
                                    Christy Romero                                                                                            Timothy Lee                       Roderick Fillinger


                                                                                                                                                                    Communications               Director of
                                      Deputy Chief                                                                                                                     Director              Congressional Affairs
                                                                                                                                                                                                                                                           Appendix H I organizational chart I JANUARY 26, 2011




                                        of Staff
                                                                                                                                                                      Kristine Belisle           Lori Hayman
                                  Mia Levine (Acting)


                         Deputy SIG –                                                                              Deputy SIG –                                                                               Deputy SIG –
                        Investigations                                                                                Audit                                                                                    Operations
                         Scott Rebein                                                                                Kurt Hyde                                                                               Dr. Eileen Ennis


                         Special Agent in                                                                         Acting Assistant                                                                            Assistant Deputy
                            Charge                                                                               Deputy SIG – Audit                                                                           SIG – Operations
                          John Mulvaney                                                                         Clayton Boyce (Acting)                                                                       Cathy Alix (Acting)



 Chief Investigative                         Chief HQ Operations                                                                                                         ADSIG − Special             ADSIG − HR
                          Investigators                                                                                                                                                                                     ADSIG − CIO   ADSIG − CFO
      Counsel
                                                 Paul Conlon                                                                                                                Programs
                                                                                                                                                                                                Sally Ruble (Acting)         AJ Germek    Deborah Mathis
 Richard Rosenfeld                                                                                                                                                        Lynn Perkoski


                                              Hotline Supervisor
  Attorney Advisors
                                                Camille Wright
                                                                        Director              Director                Director                Director              Director

                                                     Analysts      Shannon Williams          Alisa Davis           Brenda James             Craig Meklir           Eric Mader



                                               Cyber Forensics     Auditors & Analysts   Auditors & Analysts     Auditors & Analysts     Auditors & Analysts   Auditors & Analysts




Note: SIGTARP organizational chart as of 1/3/2011.
MISSION
SIGTARP’s mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of Government, who waste, steal or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”) and amended by the Special Inspector
General for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”).
Under EESA and the SIGTARP Act, the Special Inspector General has the
duty, among other things, to conduct, supervise and coordinate audits and
investigations of any actions taken under the Troubled Asset Relief Program
(“TARP”) or as deemed appropriate by the Special Inspector General. In
carrying out those duties, SIGTARP has the authority set forth in Section 6 of
the Inspector General Act of 1978, including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@do.treas.gov
www.SIGTARP.gov
                        SIGTARP: Quarterly Report to Congress | January 26, 2011
                                                                                                              CT
                                                                                                         INSPE OR GE
                                                                                                  AL                        N
                                                                                                CI




                                                                                                                            ER
                                                                                           E
                                                                                          SP




                                                                                                                               A L
                                                                                         TRO




                                                                                                                                 M
                                                                                                                                 RA
                                                                                          UB
                                                                                               LE




                                                                                                                            OG
                                                                                                    D
                                                                                                        ASS                 PR
                                                                                                              E T R ELIEF




SIGTARP
SIG-QR-11-01
                         Q1
                        2011
                                                                                   SIGTARP                                            Office of the Special Inspector General
                                                                                                                                      for the Troubled Asset Relief Program
                                                                                   Advancing Economic Stability Through Transparency, Coordinated Oversight and Robust Enforcement


202.622.1419
Hotline: 877.SIG.2009                                                                                                                                  Quarterly Report to Congress
SIGTARP@do.treas.gov                                                                                                                                               January 26, 2011
www.SIGTARP.gov
